<html>
<title> - CHEMICAL WEAPONS CONVENTION</title>
<body><pre>[Senate Hearing 105-183]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-183
 
                       CHEMICAL WEAPONS CONVENTION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                      APRIL 8, 9, 15 AND 17, 1997

                               __________

       Printed for the use of the Committee on Foreign Relations




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

                         Tuesday, April 8, 1997
                              a.m. session

Rumsfeld, Hon. Donald, former Secretary of Defense...............    13
    Prepared statement...........................................    19
Schlesinger, Hon. James R., former Secretary of Defense..........     5
    Letter Submitted by Hon. Richard B. Cheney, former Secretary 
      of Defense.................................................     5
Weinberger, Hon. Caspar, former Secretary of Defense.............     9

                              P.M. SESSION

Albright, Hon. Madeleine Korbel, Secretary of State..............    61
    Prepared statement...........................................    64

                        Wednesday, April 9, 1997

Feith, Douglas J., Feith and Zell, P.C., former Deputy Assistant 
  Secretary of Defense for Negotiation Policy....................   107
    Prepared statement...........................................   110
Ikle, Dr. Fred C., former Director, Arms Control and Disarmament 
  Agency.........................................................   105
Kirkpatrick, Dr. Jeane J., former U.S. Permanent Representative 
  to the United Nations, Senior Fellow, American Enterprise 
  Institute......................................................    91
    Prepared statement...........................................    96
Perle, Richard N., former Assistant Secretary of Defense for 
  International Security Policy..................................    99
Rowny, Lieutenant General Edward L., U.S. Army (retired), 
  International Negotiation Consultant...........................   131
    Prepared statement...........................................   133
Scowcroft, General Brent, President, Forum for International 
  Policy, and former National Security Policy Advisor............   134
Zumwalt, Admiral E.R., Jr., United States Navy (retired), Member, 
  President's Foreign Intelligence Avisory Board.................   124

                        Tuesday, April 15, 1997

Bailey, Hon. Kathleen C., Senior Fellow, Lawrence Livermore 
  National Laboratory............................................   182
    Prepared statement...........................................   185
    Letter Submitted by Paul L. Eisman, Senior Vice President for 
      Refining, Ultramar Diamond Shamrock Corporation............   182
    Letter Submitted by Robert W. Roten, President and CEO of 
      Sterling Chemicals.........................................   183
Forbes, Malcolm S., Jr., President and CEO, Forbes, Inc., New 
  York, New York.................................................   153
    Prepared statement...........................................   157
Johnson, Ralph V., Vice President, Environmental Affairs, Dixie 
  Chemical Company, Inc., Houston, Texas.........................   180
Kearns, Kevin L., President, United States Business and 
  Industrial Council.............................................   174
    Prepared statement...........................................   176
Merrifield, Hon. Bruce, former Assistant Secretary of Commerce...   187
Reinsch, Hon. William A., Under Secretary of Commerce for Export 
  Administration.................................................   189
    Prepared statement...........................................   192
Spears, Wayne, Owner and CEO, Spears Manufacturing, Inc., Sylmar, 
  California.....................................................   178
    Prepared statement...........................................   179
Webber, Frederick, President, Chemical Manufacturers Association, 
  Washington, D.C................................................   194
    Prepared statement...........................................   197

                        Thursday, April 17, 1997

Goss, Hon. Porter J., U.S. Representative in Congress From 
  Florida........................................................   219
Lehman, Hon. Ronald F., former Director, Arms Control and 
  Disarmament Agency.............................................   236
Odom, General William, U.S. Army (retired), former Director, 
  National Security Agency.......................................   227
O'Malley, Edward J., former Assistant Director 
  (Counterintelligence), Federal Bureau of Investigation.........   231

                                Appendix

Conditions to the Chemical Weapons Convention....................   261
The Case Against The Chemical Weapons Convention ``Truth or 
  Consequences'' [Prepared by The Center for Security Policy]....   276
Remarks by President Bill Clinton and Others at the White House, 
  April 4, 1997..................................................   321
False Promises, Fatal Flaws: The Chemical Weapons Convention 
  [Prepared by Empower America]..................................   326
Letters and Other Material Submitted in Support of Ratification 
  of the Chemical Weapons Convention:
    American Ex-Prisoners of War.................................   329
    Veterans of Foreign Wars of the U.S..........................   329
    Reserve Officers Association of the United States............   329
    Jewish War Veterans of the U.S.A.............................   330
    Prepared Statement of Brad Roberts, Institute for Defense 
      Analyses...................................................   331
Letters Submitted in Opposition to Ratification of the Chemical 
  Weapons Convention:
    Sterling Chemicals...........................................   335
    Small Business Survival Committee............................   335
Statement by Ronald F. Lehman Before the U.S. Senate Foreign 
  Relations Committee, June 9, 1994..............................   337
  


                      CHEMICAL WEAPONS CONVENTION

                              ----------                              


                  TUESDAY, APRIL 8, 1997--A.M. SESSION

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Hagel, Smith, Thomas, 
Ashcroft, Grams, Brownback, Biden, Sarbanes, Dodd, Kerry, Robb, 
Feingold, Feinstein, and Wellstone.
    The Chairman. The committee will come to order.
    I believe it is customary to wait until there is at least 
one Senator from each party present.
    I would inquire of the minority counsel.
    Can you give us some advice as to whether Senator Biden 
would wish us to proceed?
    I might explain to our distinguished guests this morning--
and, as a matter of fact, everybody here is a distinguished 
guest as far as I am concerned--as I just said, it is a 
tradition, in this committee, at least, to have at least one 
Senator from each party present before the proceeding begins.
    Senator Biden is on a train coming in from Delaware, and I 
am seeking information as to whether it would be his wish that 
we proceed without him until he gets here.
    I am told that it is satisfactory with Senator Biden that 
we do proceed.
    As is obvious, this morning's hearing is the first of the 
Foreign Relations Committee's final round of testimony on the 
Chemical Weapons Convention, or that's right.
    I think it is fair to say that history is being made here 
this morning and I believe today is the first time that three 
distinguished, former U.S. Secretaries of Defense have ever 
appeared together before a Senate committee to oppose 
ratification of an arms control treaty. And if ever a treaty 
deserved such highly respected opposition, it is the dangerous 
and defective so-called Chemical Weapons Convention.
    This morning's witnesses include Hon. James Schlesinger, 
Secretary of Defense for President Nixon, Hon. Donald Rumsfeld, 
Secretary of Defense for President Ford, and Hon. Caspar 
Weinberger, Secretary of Defense for President Reagan.
    Further, we will have testimony today in the form of a 
letter from Hon. Richard Cheney, Secretary of Defense for the 
Bush administration. Secretary Cheney's schedule precluded him 
from being here in person today. But he has asked Secretary 
Schlesinger to read into the record Secretary Cheney's strong 
opposition to Senate ratification of the Chemical Weapons 
Convention.
    So with Secretary Cheney's contribution, this hearing will 
consist of testimony by and from Defense Secretaries of every 
Republican administration since Richard Nixon, testimony that 
will counsel the Senate to decline to ratify this dangerously 
defective treaty.
    These distinguished Americans are by no means alone. More 
than 50--more than 50--generals, admirals, and senior officials 
from previous administrations have joined them in opposing the 
Chemical Weapons Convention, and if that does not send a clear 
signal on just how dangerous this treaty really is, I cannot 
imagine what would.
    So, gentlemen, we welcome you and deeply appreciate your 
being here today to testify. I regret that we cannot offer you 
the pomp and circumstance of the Rose Garden ceremony last 
week, but our invitation to be there got lost in the mail 
somehow.
    Your testimony here today will convey to the American 
people highly respected assessments of this dangerous treaty.
    Now our precise purpose today is to examine the national 
security implications of the CWC which is important because the 
105th Congress has 15 new Senators, including three new and 
able members of this committee who have never heard testimony 
on this treaty.
    The case against the treaty can be summarized quite simply, 
I think. It is not global, it is not verifiable, it is not 
constitutional, and it will not work. Otherwise, it is a fair 
treaty.
    The Chemical Weapons Convention will do absolutely nothing 
to protect the American people from the dangers of chemical 
weapons. What it will do is increase rogue regimes' access to 
dangerous chemical agents and technology while imposing new 
regulations on American businesses, exposing them to increased 
danger of industrial espionage and trampling their 
constitutional rights. Outside of the Beltway, where people do 
not worship at the altar of arms control, that is what we call 
``A bum deal.''
    We have been hearing a lot of empty rhetoric from the 
proponents of the treaty about ``banning chemical weapons from 
the face of the earth.'' This treaty will do no such thing. No 
supporter of this treaty can tell us with a straight face how 
this treaty will actually accomplish that goal.
    The best argument they have mustered to date is yes, it is 
defective, they say, but it is better than nothing.
    But, in fact, this treaty is worse than nothing for, on top 
of the problems with the CWC's verifiability and 
constitutionality, this treaty gives the American people a 
false sense of security that something is being done to reduce 
the dangers of chemical weaponry when, in fact, nothing--
nothing--is being done. If anything, this treaty puts the 
American people at greater risk.
    More than 90 percent of the countries possessing chemical 
weaponry have not ratified the CWC, and more than one-third of 
them have not even signed it. This includes almost all of the 
terrorist regimes whose possession of chemical weapons does 
threaten the United States, countries like Libya, Syria, Iraq, 
and North Korea. Not one of them--not one of them--is a 
signatory to this treaty and none of them will be affected by 
it.
    Worse still, this treaty will increase access to dangerous 
chemical agents and technology to rogue states who do sign the 
treaty. Iran, for example, is one of the few nations on this 
earth ever to use chemical weapons. Yet Iran is a signatory of 
the CWC.
    I am going to stop with the rest of my prepared statement 
today so that we can get to our witnesses, which is what you 
are here for.
    But I want to say, once more, that I ask the American 
people not to take my word for anything that I am saying. I ask 
the American people to consider the judgments of these 
distinguished former Secretaries of Defense who oppose the CWC.
    I am looking forward to hearing from them about the 
treaty's scope, verifiability, about its Articles X and XI, and 
the assessment of our distinguished witnesses about the overall 
potential impact of this treaty on America's national security.
    That said, we turn to the witnesses.
    Secretary Schlesinger, we call on you first.

    [The prepared statement of The Chairman follows:]

                  Prepared Statement of Chairman Helms

    This morning's hearing is the first of the Foreign Relations 
Committee's final round of testimony on the Chemical Weapons 
Convention. I think it is fair to say that history is being made this 
morning. I believe today is the first time that three distinguished 
former United States Secretaries of Defense have ever appeared together 
before a Senate committee to oppose ratification of an arms control 
treaty. And if ever a treaty deserved such highly respected opposition, 
it is the dangerous and defective Chemical Weapons Convention.
    This morning's witnesses include the Honorable James Schlesinger, 
Secretary of Defense for President Nixon; the Honorable Donald 
Rumsfeld, Secretary of Defense for President Ford; and the Honorable 
Casper Weinberger, Secretary of Defense for President Reagan.
    Further, we will have testimony today, in the form of a letter from 
the Honorable Richard Cheney, Secretary of Defense for the Bush 
Administration. Secretary Cheney's schedule precludes him from being 
here in person today, but he has asked Secretary Schlesinger to read 
into the record Secretary Cheney's strong opposition to Senate 
ratification of the Chemical Weapons Convention.
    So with Secretary Cheney's contribution, this hearing will consist 
of testimony by and from defense secretaries of every Republican 
administration since Richard Nixon--testimony that will counsel the 
Senate to decline to ratify this dangerously defective treaty. These 
distinguished Americans are by no means alone. More than 50 generals, 
admirals, and senior officials from previous Administrations have 
joined them in opposing the Chemical Weapons Convention. If that 
doesn't send a clear signal of just how dangerous this treaty really 
is, I can't imagine what would.
    So, gentlemen, we welcome you and deeply appreciate your being here 
today to testify. I regret we cannot offer you the pomp and 
circumstance of a Rose Garden ceremony, but your testimony here today 
will convey to the American people highly respected assessments of this 
dangerous treaty.
    Our precise purpose today is to examine the national security 
implications of the CWC. This is important because the 105th Congress 
has 15 new Senators, including three new and able members of this 
committee, who have never heard testimony on the treaty.
    The case against this treaty can be summarized quite simply: It is 
not global, it is not verifiable, it is not constitutional, and it will 
not work.
    The Chemical Weapons Convention will do nothing to protect the 
American people from the dangers of chemical weapons. What it will in 
fact do is increase rogue regimes' access to dangerous chemical agents 
and technology, while imposing new regulations on American businesses, 
exposing them to increased danger of industrial espionage, and 
trampling their Constitutional rights. Outside the beltway, where 
people don't worship at the altar of arms control, that's what we call 
a bum deal.
    We have been hearing a lot of empty rhetoric from proponents of 
this treaty about ``banning chemical weapons from the face of the 
earth.'' This treaty will do no such thing. No supporter of this treaty 
can tell us, with a straight face, how this treaty will actually 
accomplish that goal.
    The best argument they have mustered to date is: Yes, it is 
defective, but it is better than nothing.
    But in fact, this treaty is much worse than nothing. For, on top of 
the problems with the CWC's verifiability and constitutionality, this 
treaty gives the American people a false sense of security that 
something is being done to reduce the dangers of chemical weapons, when 
in fact nothing is being done. If anything, this treaty puts the 
American people at greater risk.
    More than 90 percent of the countries possessing chemical weapons 
have not ratified the CWC, and more than one third of them have not 
even signed it. That includes almost all of the terrorist regimes whose 
possession of chemical weapons does threaten the United States--
countries like Libya, Syria, Iraq, and North Korea. Not one of them is 
a signatory to this treaty. And none of them will be affected by it.
    Worse still, this treaty would increase access to dangerous 
chemical agents and technology by rogue states who do sign it. Iran, 
for example, is one of the few nations on the earth ever to use 
chemical weapons. Yet Iran is a signatory to the CWC.
    Why, you may ask, why does Iran support the treaty? Because by 
joining the CWC, Iran can demand access to chemical technology of any 
other signatory nation--including the United States, if the U.S. Senate 
were to make the mistake of ratifying it. In other words, Iran will be 
entitled to chemical defensive gear and dangerous dual-use chemicals 
and technologies that will help them modernize their chemical weapons 
program.
    Giving U.S. assent to legalizing such transfers of chemical agents 
and technology to such rogue nations is pure folly, and will make the 
problem of chemical weapons more difficult to constrain, not less.
    For example, if the U.S. were to protest a planned sale of a 
chemical manufacturing facility by Russia to Iran, under the CWC Russia 
could argue that not only are they permitted to sell such dangerous 
chemical technology to Teheran, but they are obliged to do so--by a 
treaty the U.S. agreed to. Because Iran's terrorist leaders have 
promised to get rid of their chemical weapons.
    Is it possible for the United States to verify whether Iran will be 
complying with its treaty obligations? Of course not. Even the 
administration admits that this chemical weapons treaty is 
unverifiable.
    President Clinton's own Director of Central Intelligence, James 
Woolsey, declared in testimony before this committee on June 23, 1994, 
that, and I quote, ``the chemical weapons problem is so difficult from 
an intelligence perspective, that I cannot state that we have high 
confidence in our ability to detect noncompliance, especially on a 
small scale.
    So in other words, under this treaty, the American people will have 
to take the Ayatollahs' word for it.
    And what about Russia--the country possessing the largest and most 
sophisticated chemical weapons arsenal in the world? Russia has made 
perfectly clear it has no intention of eliminating its chemical weapons 
stockpile. In fact, Russia is already violating its bilateral agreement 
with the U.S. to get rid of these terrible weapons; It has consistently 
refused to come clean about the true size of its chemical weapons 
stockpile; and Russia continues to work on a new generation of nerve 
agents, disguised as everyday commercial or agricultural chemicals, 
specifically designed to circumvent this chemical weapons treaty that 
the Clinton Administration is pulling out all the stops to force the 
Senate to ratify.
    All this, sad to say, is just the tip of the iceberg in terms of 
what's wrong with this treaty. There is a whole array of other problems 
which I hope we can discuss today. But I think it borders on fraudulent 
to mislead the American people, as so many other treaty proponents 
have, into to believing that their lives will somehow be made safer if 
this treaty is ratified--and that their safety is being put at risk if 
the Senate refuses to be stampeded by Rose Garden ceremonies and high-
pressure tactics.
    But I ask the American people not to take my word for it. I ask all 
Americans to consider the judgments of these distinguished former 
Secretaries of Defense who oppose the CWC. I am looking forward to 
hearing from them about the treaty's scope, verifiability, its Articles 
X and XI, and the assessment of our distinguished witnesses about the 
overall potential impact of this treaty on America's national security.

  STATEMENT OF HON. JAMES R. SCHLESINGER, FORMER SECRETARY OF 
                            DEFENSE

    Dr. Schlesinger. Thank you, Mr. Chairman.
    At the outset, I will allow Secretary Cheney to join us 
vicariously. He has sent a letter, as you indicated, and I 
shall read it into the record.
    This letter is dated April 7, from Dallas, Texas.

Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, D.C.
    Dear Mr. Chairman. Thank you for your letter inviting me to join 
several other former Secretaries of Defense in testifying in early 
April when the Foreign Relations Committee holds hearings on the 
Chemical Weapons Convention. Regrettably, other commitments will 
preclude me from participation. I hope that this correspondence will be 
sufficient to convey my views on this convention.
    During the years I served as Secretary of Defense, I was deeply 
concerned about the inherent unverifiability, lack of global coverage, 
and unenforceability of a convention that sought to ban production and 
stockpiling of chemical weapons. My misgivings on these scores have 
only intensified during the 4 years since I left the Pentagon.
    The technology to manufacture chemical weapons is simply too 
ubiquitous, covert chemical warfare programs too easily concealed, and 
the international community's record of responding effectively to 
violations of arms control treaties too unsatisfactory to permit 
confidence that such a regime would actually reduce the chemical 
threat.
    Indeed, some aspects of the present convention--notably its 
obligation to share with potential adversaries, like Iran, chemical 
manufacturing technology that can be used for military purposes and 
chemical defensive equipment--threaten to make this accord worse than 
having no treaty at all. In my judgment, the treaty's Articles X and XI 
amount to a formula for greatly accelerating the proliferation of 
chemical warfare capabilities around the globe.
    Those nations most likely to comply with the Chemical Weapons 
Convention are not likely to ever constitute a military threat to the 
United States. The governments we should be concerned about are likely 
to cheat on the CWC even if they do participate.
    In effect, the Senate is being asked to ratify the CWC even though 
it is likely to be ineffective, unverifiable, and unenforceable. Having 
ratified the convention, we will then be told we have ``dealt with the 
problem of chemical weapons'' when, in fact, we have not. But 
ratification of the CWC will lead to a sense of complacency, totally 
unjustified given the flaws in the convention.
    I would urge the Senate to reject the Chemical Weapons Convention.
            Sincerely,
                                       Dick Cheney.

    The Chairman. Thank you, sir.
    Dr. Schlesinger. Mr. Chairman, members of the committee, I 
thank the committee for its invitation to testify today on the 
ratification of the Chemical Weapons Convention. I must at the 
outset underscore my belief that the proper criterion for 
judging the convention is whether or not it is in the interest 
of the United States and whether or not it will serve the long-
run purposes of the American people. It should not be approved 
simply for reasons of diplomatic momentum or a gesture toward 
multilateralism, but as a treaty with which this Nation must 
live.
    Mr. Chairman, I start with the interesting and somewhat 
checkered history of efforts at the control of chemical 
weapons. The introduction of poison gas in World War I and then 
its widespread use in the later stages of that war led to a 
horrified reaction. That reaction, plus the unease concerning 
its subsequent use by colonial powers, led to the Geneva 
Convention in 1925, which forbids the use of poison gas by all 
signatories.
    In the period prior to World War II, the European powers 
carefully prepared for the possible use of poison gas. In the 
actual circumstances of the war, however, the German decision 
to refrain from using poison gas came not for humanitarian 
reasons, not for reasons of the treaty, which German diplomats 
might well have described as ``a scrap of paper,'' but out of 
concern for the threat of devastating retaliation by the 
Western allies.
    Iraq has been and is a signatory to the Geneva Convention. 
In the Iran-Iraq war of the 1980's, Iraq used poison gas as a 
way of stemming the ``human wave'' attacks of the Iranians. 
What was our reaction and the reaction of other Western powers 
at that time? In brief, it was to avert our gaze.
    Later, as the war died down, Saddam Hussein used gas 
against Iraq's Kurds. This time, however, the response was 
slightly more vigorous. An international gathering took place 
in Paris in January 1989. Not only did the international 
community fail to denounce Iraq, most participants were 
reluctant even to name Iraq for using gas. Our own reaction, 
was to say the least, somewhat muted. After all, Iraq provided 
protection in the Gulf against the Ayatollah's Iran. For what 
were regarded as sound geopolitical reasons, we failed to take 
action to sustain the existing prohibition on the use of poison 
gas by a signatory--despite Iraq's blatant violation of the 
Geneva Convention. This manifest failure of the existing arms 
control regime did stimulate renewed efforts on the Chemical 
Weapons Convention that lies before you. Aha! Perhaps if we 
were unwilling to enforce the existing ban on the use of poison 
gas, we might be more willing to take strong actions against 
its manufacture.
    Would we actually do more in enforcement when the evidence 
is far more ambiguous and the menace more distant? The use of 
poison gas is readily detectable; manufacture is not. Tapes and 
photographs were widely available of Kurdish women clutching 
their children to their breasts in the vain attempt to protect 
them against the gas. And yet we did nothing--for then it was 
not regarded as in our interest to intervene.
    By contrast, in the Gulf War, Saddam Hussein did not use 
poison gas against our troops. In the famous letter from 
President Bush to Saddam Hussein in early 1991 in which we 
demanded Iraq's withdrawal from Kuwait, we reminded Saddam that 
the United States had nuclear weapons. As Secretary Baker has 
said, we also, ``made it very clear that if Iraq used weapons 
of mass destruction, chemical weapons against U.S. forces, that 
the American people would demand vengeance and that we had the 
means to achieve it.''
    What are the lessons learned from these episodes? Treaties 
alone will do little. To prevent the use or the manufacture of 
chemical weapons requires a structure for deterrence backed by 
real capabilities. Above all, enforcement will depend upon the 
will to take action which, if history is any guide, will in 
turn depend upon a careful geopolitical assessment.
    Mr. Chairman, let me turn from history to specific problems 
in this convention. In this brief statement, I can only deal 
with five problem areas. Nonetheless, I would hope that the 
members of this committee and your colleagues in the Senate 
receive clear reassurance in these areas before you approve the 
convention.
    First is non-lethal chemicals. Non-lethal chemicals are 
necessary for crowd control, for peacekeeping, for rescuing 
downed pilots and the like. In the negotiations on the 
convention, we were pressed to ban non-lethal chemicals along 
with lethal chemicals. President Bush, under pressure from the 
Joint Chiefs of Staff, reiterated prior American policy and 
indicated that use of riot control agents would not be banned. 
The Clinton administration has been far more ambiguous on this 
subject, retreating from President Bush's stated exclusion. 
Sometime it has suggested that such agents could be used in 
peacetime but not in wartime. That raises the question of 
defining when the Nation is at war. Was the Vietnam War a war?
    Just 2 days ago, the New York Times stated that the 
administration ``has also refused to interpret the treaty in a 
way that would allow the use of tear gas for crowd control, 
mainly because the Pentagon has said it has no need to ever use 
non-lethal gases.''
    If the latter is true, it represents a remarkable 
transformation of Pentagon attitudes, and I recommend that you 
check this out. The first part of the quotation reflects the 
continuing ambivalence of the administration on the question of 
non-lethal chemicals. I trust that the Senate will seek 
clarification of the administration's position and indeed 
insist that the use of tear gas will not be banned either in 
peace or war. Otherwise, we may wind up placing ourselves in 
the position of the Chinese Government in dealing with the 
Tiananmen Square uprising in 1989. The failure to use tear gas 
meant that that government only had recourse to the massive use 
of firepower to disperse the crowd.
    Second is sharing CW technology. Article X of the treaty 
requires that signatories have a right to acquire CW defensive 
technologies from other signatories. This may mean that the 
United States is obliged to share such technologies with Iran, 
Cuba, and other such nations that may sign the convention. 
Almost certainly that interpretation will be argued by lawyers 
in the government. But, even if the Senate were able to prevent 
such obligatory transfers, it is plain that Article X 
legitimizes such transfers by other industrial nations which 
will argue they are obliged to do so by the treaty.
    Clearly, that undercuts any sanctions directed against 
rogue nations that happen to sign the convention. And, in any 
event, there are still other states that do not agree with our 
judgments in these matters and will acquire such chemical 
warfare defensive technologies and will share such technologies 
with rogue nations whether signatories or not.
    Third is the defense against chemical weapons. Continued 
and vigorous efforts to develop chemical weapons defenses are 
required. In the years ahead, various groups, inclined to 
fanaticism, are likely to use chemical weapons as instruments 
of sabotage or terrorism. Aum Shin Rikyo, the Japanese 
religious cult, is but a prototype of these other terrorist 
groups. To deal with such prospective attacks, it is essential 
to have continuing efforts on defensive measures to protect our 
civilian population as well as our forces.
    In this connection, two points must be made. First, the 
illusion that this convention will provide protection against 
chemical weapons will tempt us to lower our guard and to reduce 
our efforts on defensive CW measures. Such temptations should 
be formally rejected through safeguards. Second, the sharing of 
technologies required by Article X will provide other nations 
with the information that will help to neutralize our chemical 
weapons defenses and, thus, expose us to greater risk.
    Fourth is industrial espionage. The convention permits or 
encourages challenge inspections against any facility deemed 
capable of producing chemical weapons--indeed against any 
facility. This exposes American companies to a degree to 
industrial espionage never before encountered in this country. 
This implies the possibility of the capture of proprietary 
information or national security information from American 
corporations by present or by prospective commercial rivals. To 
preclude such intrusive inspections requires the vote of three-
quarters of the Executive Council of the Organization for the 
Prohibition of Chemical Weapons. Such super majority votes are 
unlikely to be forthcoming and will grow less so over time.
    The committee may wish to inquire how FBI counter 
intelligence feels about these arrangements.
    Mr. Chairman, I trust that the committee will delve deeply 
into this issue because scuttlebutt has it that the White House 
has indicated to senior FBI officials that they are to say 
nothing against this treaty. Consequently, you may wish to 
examine not only present but former counter intelligence 
officers.
    The Chairman. We will. Thank you.
    Dr. Schlesinger. This convention is sometimes compared to 
the arrangements under the Atoms for Peace Agreement. But it 
should be noted that few of the several mechanisms that provide 
protection in the nuclear area exist under this convention.
    Five is how do we respond to violations. Is the convention 
something more than a feel good treaty? Is it more meaningful 
than the more explicit and more relevant ban on use in the 
Geneva Convention? If so, what is its operational significance? 
Last April, Secretary Perry, reiterating some of the warnings 
of President Bush and Secretary Baker to Saddam Hussein stated, 
``Anyone who considers using a weapon of mass destruction 
against the United States or its allies must first consider the 
consequences. We would not specify in advance what our response 
would be, but it would be both overwhelming and devastating.''
    Administration officials have more recently reiterated that 
threat. Does this convention oblige us to take actions beyond 
attacks on ourselves or on our allies? Are we prepared to take 
action if Iran attacks Tajikistan or even uses gas against its 
own minorities? If Syria, or Saudi Arabia, or Israel, or South 
Africa manufactures gas, what are we prepared to do? What 
actions would we take if we discover that Russia, or Ukraine, 
or China is engaged clandestinely--or openly--in the 
manufacture of gas?
    As the leading world power and as the initial sponsor of 
this convention, the United States bears a particular 
responsibility for those signatories who have foregone the 
right of direct retaliation and who lack the American capacity 
for a response, both ``overwhelming and devastating.'' The role 
of the United States visibly transcends that of the 
Netherlands, or of Sweden, or of other nations that are 
prepared to sign the convention. I trust, therefore, that this 
committee will press for clear answers regarding how we might 
feel obliged to respond in different hypothetical 
circumstances.
    Mr. Chairman, as this committee proceeds with its 
deliberations, I trust that it will carefully examine some of 
the exaggerated or false claims that have been made on behalf 
of the convention. This treaty will not serve to banish the 
threat of chemical weapons. It will not aid in the fight 
against terrorism. Only effective police work will accomplish 
that.
    As the Japanese cult, Aum Shin Rikyo, has demonstrated, a 
significant volume of lethal nerve gas can be produced in a 
facility as small as 8 feet by 15 feet. Increasingly, are we 
aware how vulnerable this Nation may be to terrorist attacks, 
and this treaty will do little to limit such vulnerability. Nor 
will this treaty ``provide our children broad protection 
against the threat of chemical attacks.'' Such statements 
merely disguise and, thereby, increase our vulnerability to 
terrorist attacks. To the extent that others learn from 
international sharing of information on CW defenses, our 
vulnerability is enhanced rather than diminished.
    Finally, this treaty in no way helps ``shield our soldiers 
from one of battlefield's deadliest killers.'' As indicated 
earlier, only the threat of effective retaliation provides such 
protection. That we would respond in the event of an attack on 
our troops has great credibility and, thus, serves as an 
effective deterrent. The Chemical Weapons Convention adds no 
more to this protection of our troops than did the Geneva 
Convention.
    Mr. Chairman, some treaty proponents, while conceding the 
lack of verifiability, the lack of broad enforceability, and 
the other inherent weaknesses of the convention, suggest that 
it should be ratified because whatever its weaknesses, it 
serves to establish ``international norms.'' If Senators are 
moved by that last ditch defense of the convention, they should 
vote for ratification. I urge, however, that Senators bear in 
mind that most nations do not care a figure for ``international 
norms,'' and we already have the Geneva Convention as a norm, 
regularly violated. And they remain relatively free to violate 
this norm with relative impunity since the treaty is difficult 
to verify and more difficult to enforce.
    Proponents have simply ignored the evidence of the past 
failure to control chemical weapons and have proceeded blithely 
with a renewed effort at control which disregards the ambiguity 
and the ineffectiveness of the control mechanism. In the rather 
forlorn hope to preclude the employment of chemical weapons, 
they have produced an agreement with an illusory goal and a 
rather gargantuan and worrisome enforcement mechanism. The 
manifold weaknesses of the proposed convention deserve careful 
attention from every member of the Senate.
    Thank you, Mr. Chairman. I shall be pleased later to 
respond to any questions the committee may have.
    The Chairman. Thank you, Mr. Secretary. Mr. Weinberger.

   STATEMENT OF HON. CASPAR WEINBERGER, FORMER SECRETARY OF 
                            DEFENSE

    Mr. Weinberger. Mr. Chairman and Senators, it is always an 
honor to appear before a committee of the U.S. Senate and I am 
deeply appreciative of that this morning.
    I think that both your Chairman's statement and Secretary 
Schlesinger's very impressive statement also, both together, 
set out the basic reasons why I think all of us on this 
Secretary of Defense panel feel so strongly that this treaty 
should not be ratified.
    I would like to make a couple of points at the beginning 
because it is the common practice now for opponents of anything 
that is desired by the White House to be painted in as 
unenviable a position as possible. I would like to make it 
clear that everybody I know detests chemical weapons, 
particularly soldiers.
    I have some small personal experiences I might share with 
you. They stem mainly from the fact of my extreme age. The fact 
is that, during World War II, I had been assigned to the 
Australian Anti-Gas School. The Australians used very spartan 
methods and very rigorous methods of instructing, and they 
instructed by showing us the actual effects on our own persons 
of mustard gas, a blister agent. They gave us all kinds of 
information with respect to the required defense and defensive 
equipment.
    I was then later appointed one of the gas defense officers 
to the 41st Infantry Division, conducted a lot of training with 
the soldiers in the gas protective equipment which, as anybody 
who served in the armed forces knows, is extremely difficult to 
operate in, and this leads, without any question whatever, to 
this detestation of these weapons.
    So people who oppose this treaty are not people who favor 
poison gas. I think it is important to make that rather obvious 
point at the beginning because we have heard so much about the 
motives of opponents of this treaty. My motive is the security 
of the United States, with which I had the honor to be 
associated for 7 years as Secretary, and which I think, as a 
country, should be maintained, even in the face of very strong 
support of a treaty which purports to outlaw and ban the 
production of these terrible weapons.
    Everybody likes the aims of the treaty. Everybody will 
admit, I think, that it is a well intentioned treaty. Everybody 
that I know including many of the proponents, admit that it is 
a very badly flawed treaty, and it is with those flaws that I 
am concerned today.
    Primarily the flaws, as Secretary Schlesinger just 
mentioned, are that it cannot be verified and it cannot be 
enforced. The enforcement mechanism involves going to the 
United Nations Security Council, of which Russia and China are 
members. It does not require a very big stretch of the 
imagination to indicate that they would probably veto any kind 
of enforcement action proposed against them.
    So you would have not only the lack of verifiability, you 
would have, very much like with the Geneva Convention, a very 
nice statement of the proper intentions of humankind which 
simply cannot be enforced and which basically, sadly, 
accomplish nothing.
    Now there has been a great deal of discussion also about 
the enforcement mechanisms, the international inspectors and 
what they can do and their powers. This is not just academic 
discussion, Mr. Chairman. These inspectors, under this treaty, 
under Articles X and XI, would have powers that basically 
American enforcement agents do not. Even the IRS and even the 
Department of Justice cannot wander around the country without 
search warrants and demand to see anything they want to see in 
thousands of factories. There are varying estimates of the 
number of factories and commercial plants involved, but they 
are all in the thousands. I won't attempt to say which one is 
right or wrong, but they are in the thousands. The treaty gives 
the right to these inspectors to see what they want to do, to 
make analyses and tests, and the other articles of the 
convention require that we share any late technologies we might 
develop--and we should be working on them; I hope we are; we 
always used to--defensive technologies to improve the masks, 
the protective equipment, and all of the other things.
    As we make some progress in this field, that would have to 
be shared and, therefore, would be, consequently, far less 
valuable, to put it mildly, in the event that any of our troops 
should be attacked with a gas attack.
    These inspections are a two-way street in some ways. We 
have the right of inspection under what I consider to be the 
worst appeasement agreement we have signed and that has been 
presented since Munich, and that is the North Korean Agreement 
under which we promised to give them two very large nuclear 
reactors which can produce plutonium--although it is always 
said not to worry, they can't. But, of course, they can. And we 
are permitted also to have all kinds of inspection under that 
appeasement agreement.
    We have not been granted this to the extent that we need 
it. What we are allowed is to go where North Korea wants us to 
go. It's exactly as with the agreement with Iraq that ended 
that war. We are permitted to go where the Iraqis let us go and 
after long delays in which they are given the opportunity to 
remove any incriminating kinds of evidence.
    That is one way that these inspections can work, and those 
would be probably the ways that countries like Iran, that have 
signed the agreement, would interpret it.
    But the permitted inspections and the way we would do it, 
because we carry out our word as a country and we do allow 
these things once we sign an agreement, would be as intrusive 
as anything previously imagined and far more intrusive than our 
own officials are allowed under our own laws to investigate 
violations of American law.
    Jim Schlesinger has covered very adequately and thoroughly 
the industrial espionage problems that are involved in this and 
in the sharing of these not only offensive, but defensive 
technologies that we may be working on. And it is important 
that we work on these defensive technologies because, even if 
all the countries sign this agreement, the possibilities that 
it would be treated as Geneva is always treated are always 
there. Indeed, we know that Iraq is stockpiling this VX nerve 
agent, which is a rather nasty piece of equipment, and Russia 
has been developing the nerve agent A-223, which is purported 
to be something like 7 times as fatal as the VX nerve agent. 
These are things that are going on now, after these treaties 
have been signed and while the whole discussion is there.
    The idea that these countries would give up these newly 
developed agents on which they spent a great deal of money, 
some of it, in Russia's case, our money that we sent over for 
economic development, does not seem to me to be very credible.
    The requirement that we share all of these technologies 
also would remove any kind of deterrent capability that we 
might have if we carry out the treaty in full. And one of the 
deterrent capabilities is retaliation.
    We have had many indications not only in World War II but 
in the Gulf and elsewhere, that the fact that we were spared a 
chemical attack there simply stems from the ability that we 
would have to retaliate. If we give up that retaliatory 
capability, along with all but four or five nations, the four 
or five nations would still not be nearly as worried about 
launching an attack as they were in the case of the Gulf War.
    We already know that there is at least a possibility. We 
don't know it and I would not claim it as a fact, but there is 
at least a possibility that Iraq's storage of these chemical 
weapons is resulting in disease and illness to American forces 
now. People talk about who is to blame and all of that. The 
only important issue, I think, there is that we should 
remember, and I hope we always will, that we have an absolute 
obligation to take care of these people who did fall ill from 
whatever cause in that war for the rest of their lives and take 
care of their families. I hope we are prepared to honor that.
    All of these are things that have happened with nations 
that have either signed or refused to sign the treaty. Iran is 
one that has signed. Iran, therefore, would be able to see and 
inspect any one of several thousand companies. They would have 
to share their technologies and we, as a country, would have to 
share our technologies with Iran.
    Strong supporters of the treaty, including General 
Schwarzkopf, when reminded of the fact, when asked if that is 
what he really wanted, said of course not. He said the worst 
thing in the world would be to share any knowledge with a 
country like Iran in this field.
    So there has been, I think, a lack of understanding, and I 
congratulate the committee on holding these hearings, because I 
hope that we can get a full understanding of how a well 
intentioned treaty, the goals of which everybody of course 
supports, cannot possibly reach those goals if we are going to 
have the kind of provisions that remain in this treaty.
    We also have a situation in which we are repeatedly told 
that the April 29 deadline must be met, otherwise we will have 
no influence in administering the treaty. Mr. Chairman, we are 
going to bear 25 percent of the cost of this treaty, and I 
suspect any 25 percent owner, so to speak, to use corporate 
terms, is going to have a little influence in it. I think that 
it is absurd to say that we must rush to judgment simply 
because April 29 is the deadline.
    There was plenty of opportunity last fall when the treaty 
was before the Senate, and was withdrawn by the administration, 
to have the kind of discussion that we are now having and that 
we should have. If it takes a little past April 29, and if by 
any chance we are able, through reservations or other changes, 
to make any of these things to which we object so strongly 
slightly more acceptable, that would certainly be worth a few 
days or a few months delay.
    The costs involved, of course, are not just the 25 percent 
of the costs of administering the treaty and of all of the 
inspections that we would find so intrusive and so violative of 
what we believe to be our constitutional rules against 
unreasonable search and seizure, seizing property without due 
process, and all the rest. We could add the $70 million that we 
have already given Russia under the so-called ``Bilateral 
Destruction Act'' to start destroying their weapons. And they 
have announced publicly and in writing--I guess it has been 
released; it's been printed all over the country--that they 
will no longer be bound by it, that it no longer serves their 
best interests and, therefore, they are not paying any more 
attention to it.
    They are a signatory of this Chemical Weapons Convention 
and they have been held up as a country that is essential to 
get into the international order and is willing to destroy 
these weapons. But certainly the record thus far is slightly 
less than modest.
    I think it is important that we emphasize again, as I did 
at the beginning, that our opposition to these kinds of weapons 
is well known. We were instrumental in getting the Geneva 
Agreement approved many, many years ago. We have signed the 
Bilateral Destruction Agreement, which had a great deal of hope 
behind it, and practically no realization. And now Russia has 
walked away from it.
    We have showed that we would, of course, not only if we 
sign this convention comply with it, but that we would be a 
leader in financing it. All of that I think is an ample 
demonstration to the world, if any is needed, that we don't 
like these weapons. But we don't have to sign a flawed and an 
ineffective, unenforceable, unverifiable convention to prove 
that; and I don't think that we should worry so much about 
being tarred as being pro chemical weapons that we would 
disregard completely the flaws in this treaty and ratify it 
anyway just to make a statement.
    Mr. Chairman, I appreciate very much having had the 
opportunity to express these views before you and your 
committee, and as Secretary Schlesinger has said, I will be 
glad to try to answer questions at an appropriate time.
    The Chairman. We thank you, sir. Secretary Rumsfeld.

 STATEMENT OF HON. DONALD RUMSFELD, FORMER SECRETARY OF DEFENSE

    Mr. Rumsfeld. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to express concerns 
about this convention. Rather than read my entire statement, I 
would like to touch on some of the more important points, and I 
ask that my entire statement be included in the record.
    The Chairman. Without objection.
    Mr. Rumsfeld. Certainly, one of the most serious problems 
facing our country and our friends and allies around the world 
is, indeed, the issue of proliferation of weapons of mass 
destruction. The Chemical Weapons Convention before the Senate 
would appear to fit in that category. But in my view, it has 
serious flaws.
    I recognize that there are arguments on both sides of this 
and, indeed, that a number of our friends and associates that 
we have worked with on these problems over the years find 
themselves on opposing sides.
    As a former Member, I also recall the difficulty of finding 
oneself in the position of opposing a position that is strongly 
supported by a President. It is not an attractive position to 
be in or a pleasant one. My inclination was always to try to 
support the President on these matters.
    Certainly in this case, being positioned as appearing to 
favor chemical weapons, is also not an appealing position.
    So let me be very clear: Were there pending before this 
committee a convention that was verifiable and global and that 
would accomplish the elimination of chemical weapons in the 
hands of nations most likely to use them, I would be appearing 
before the committee as a supporter.
    Unfortunately, I do not believe that it meets those tests.
    First, I don't believe that this is verifiable, nor have I 
met a single, knowledgeable person who believes that it is 
verifiable. It might reduce chemical weapons in arsenals in 
some countries, but it is debatable whether the treaty would 
reduce chemical arsenals in any of the nations potentially 
hostile to the United States. Countries identified by the 
United States as possessing chemical weapons that have not 
signed the CWC, let alone ratified it, include Libya, Syria, 
Iraq, and North Korea. Certainly these countries are among the 
most likely to use chemical weapons against our citizens, our 
soldiers, and our allies.
    In addition, there are countries that might sign the 
convention which would not be reliable with respect to 
compliance. Since the convention is not verifiable, that is not 
a trivial problem, it seems to me.
    For example, even if Iran does ratify the agreement, we 
really cannot rely on them to comply with its terms. Also, it 
is my understanding that Russia has yet to fulfill its 
obligations under the 1990 Bilateral Destruction Agreement, as 
Secretary Weinberger pointed out. Also, Washington newspapers 
and Jane's have recently reported that the Russians have 
developed new nerve agents that are designed in a manner that 
would make discovery next to impossible in that they are 
apparently comprised of common commercial chemicals. This 
raises the question as to the likelihood of their complying 
with the convention.
    As a Wall Street Journal article recently put it, under the 
Chemical Weapons Convention, members to the convention could 
look for chemical weapons in New Zealand or the Netherlands but 
not in North Korea, Libya, or Iraq, which are countries that 
could be chemical warfare threats.
    Despite what I believe to be the low possibility that the 
convention would result in real arms control accomplishments, 
nonetheless a case can be made that it is important for the 
world to have standards and values, as Secretary Schlesinger 
mentioned. This is the ``speed limit'' argument.
    My friend, Dr. Kenneth Adelman, a former Director of ACDA, 
recently argued, supporting the agreement, that standards and 
values violated are better than no standards and values at all.
    I personally think that is probably the most persuasive 
case that can be made for the convention. However, I do not 
believe that it is sufficiently persuasive to tip the scales.
    While standards and norms are important, there is a real 
risk that in ratifying the convention and in setting forth high 
standards, the U.S. would be misinforming the world by 
misleading people into believing that we had, in fact, done 
something with respect to the international controls over the 
use of chemical weapons, despite the certainty, in my mind, at 
least, that this convention cannot provide that assurance.
    Furthermore, it is important to consider and weigh not only 
potential benefits of the convention, such as standards and 
norms, but also its burdens and costs.
    It seems to me clear that any advantages of setting forth 
such standards by ratifying the convention are more than offset 
by the disadvantages.
    I note that there would be considerable cost to the 
taxpayers in that the convention provides for the use of a 
U.N.-style funding formula, which calls for the United States 
to pay some 25 percent of the total. In addition, there would 
be costs to private industry, which I do not believe can be 
properly quantified at present in that it is not possible yet 
to know how the mechanisms to police this convention would 
actually work. This is to say nothing of the cost to companies 
of trying to protect proprietary information from compromise.
    These costs would amount, in a real sense, to unfunded 
mandates on American enterprise.
    These were among the concerns that were expressed by a 
number of government, civilian, and military officials in a 
letter sent to Senate Majority Leader Trent Lott late last 
year, which I signed, and I ask that a copy of that letter and 
the signatories be placed in the record at this point.
    The Chairman. Without objection, it is so ordered.

    [The information referred to follows:]

                                                 September 9, 1996.
Hon. Trent Lott,
Majority Leader, United States Senate,
Washington, DC 20510.
    Senator Lott: As you know, the Senate is currently scheduled to 
take final action on the Chemical Weapons Convention (CWC) on or before 
September 14th. This Treaty has been presented as a global, effective 
and verifiable ban on chemical weapons. As individuals with 
considerable experience in national security matters, we would all 
support such a ban. We have, however, concluded that the present 
convention is seriously deficient on each of these scores, among 
others.
    The CWC is not global since many dangerous nations (for example, 
Iran, Syria, North Korea, and Libya) have not agreed to join the treaty 
regime. Russia is among those who have signed the Convention, but is 
unlikely to ratify--especially without a commitment of billions in U.S. 
aid to pay for the destruction of Russia's vast arsenal. Even then, 
given our experience with the Kremlin's treaty violations and its 
repeated refusal to implement the 1990 Bilateral Destruction Agreement 
on chemical weapons, future CWC violations must be expected.
    The CWC is not effective because it does not ban or control 
possession of all chemicals that could be used for lethal weapons 
purposes. For example, it does not prohibit two chemical agents that 
were employed with deadly effect in World War I--phosgene and hydrogen 
cyanide. The reason speaks volumes about this treaty's impractical 
nature: they are too widely used for commercial purposes to be banned.
    The CWC is not verifiable as the U.S. intelligence community has 
repeatedly acknowledged in congressional testimony. Authoritarian 
regimes can be confident that their violations will be undetectable. 
Now, some argue that the treaty's intrusive inspections regime will 
help us know more than we would otherwise. The relevant test, however, 
is whether any additional information thus gleaned will translate into 
convincing evidence of cheating and result in the collective imposition 
of sanctions or other enforcement measures. In practice, this test is 
unlikely to be satisfied since governments tend to took the other way 
at evidence of non-compliance rather than jeopardize a treaty regime.
    What the CWC will do, however, is quite troubling: It will create a 
massive new, U.N.-style international inspection bureaucracy (which 
will help the total cost of this treaty to U.S. taxpayers amount to as 
much as $200 million per year). It will jeopardize U.S. citizens' 
constitutional rights by requiring the U.S. government to permit 
searches without either warrants or probable cause. It will impose a 
costly and complex regulatory burden on U.S. industry. As many as 8,000 
companies across the country may be subjected to new reporting 
requirements entailing uncompensated annual costs of between thousands 
to hundreds-of-thousands of dollars per year to comply. Most of these 
American companies have no idea that they will be affected. And perhaps 
worst of all, the CWC will undermine the standard of verifiability that 
has been a key national security principle for the United States.
    Under these circumstances, the national security benefits of the 
Chemical Weapons Convention clearly do not outweigh its considerable 
costs. Consequently, we respectfully urge you to reject ratification of 
the CWC unless and until it is made genuinely global, effective and 
verifiable.

  Signatories on Letter to Senator Trent Lott Regarding the Chemical 
                           Weapons Convention

                  As of September 9, 1996; 11:30 a.m.

Former Cabinet Members:
Richard B. Cheney, former Secretary of Defense
William P. Clark, former National Security Advisor to the President
Alexander M. Haig, Jr., former Secretary of State (signed on September 
        10)
John S. Herrington, former Secretary of Energy (signed on September 9)
Jeane J. Kirkpatrick, former U.S. Ambassador to the United Nations
Edwin Meese III, former U.S. Attorney General
Donald Rumsfeld, former Secretary of Defense (signed on September 10)
Caspar Weinberger, former Secretary of Defense
Additional Signatories (retired military):
General John W. Foss, U.S. Army (Retired), former Commanding General, 
        Training and Doctrine Command
Vice Admiral William Houser, U.S. Navy (Retired), former Deputy Chief 
        of Naval Operations for Aviation
General P.X. Kelley, U.S. Marine Corps (Retired), former Commandant of 
        U.S. Marine Corps (signed on September 9)
Lieutenant General Thomas Kelly, U.S. Army (Retired), former Director 
        for Operations, Joint Chiefs of Staff (signed on September 9)
Admiral Wesley McDonald, U.S. Navy (Retired), former Supreme Allied 
        Commander, Atlantic
Admiral Kinnaird McKee, U.S. Navy (Retired), former Director, Naval 
        Nuclear Propulsion
General Merrill A. McPeak, U.S. Air Force (Retired), former Chief of 
        Staff, U.S. Air Force
Lieutenant General T.H. Miller, U.S. Marine Corps (Retired), former 
        Fleet Marine Force Commander/Head, Marine Aviation
General John. L. Piotrowski, U.S. Air Force (Retired), former Member of 
        the Joint Chiefs of Staff as Vice Chief, U.S. Air Force
General Bernard Schriever, U.S. Air Force (Retired), former Commander, 
        Air Research and Development and Air Force Systems Command
Vice Admiral Jerry Unruh, U.S. Navy (Retired), former Commander 3rd 
        Fleet (signed on September 10)
Lieutenant General James Williams, U.S. Army (Retired), former 
        Director, Defense Intelligence Agency
Additional Signatories (non-military):
Elliott Abrams, former Assistant Secretary of State for Latin American 
        Affairs (signed on September 9)
Mark Albrecht, former Executive Secretary, National Space Council
Kathleen Bailey, former Assistant Director of the Arms Control and 
        Disarmament Agency
Robert B. Barker, former Assistant to the Secretary of Defense for 
        Nuclear and Chemical Weapon Matters
Angelo Codevilla, former Senior Fellow, Hoover Institute (signed on 
        September 10)
Henry Cooper, former Director, Strategic Defense Initiative 
        Organization
J.D. Crouch, former Principal Deputy Assistant Secretary of Defense
Midge Decter, former President, Committee for the Free World
Kenneth deGraffenreid, former Senior Director of Intelligence Programs, 
        National Security Council
Diana Denman, former Co-Chair, U.S. Peace Corps Advisory Council
Elaine Donnelly, former Commissioner, Presidential Commission on the 
        Assignment of Women in the Armed Services
David M. Evans, former Senior Advisor to the Congressional Commission 
        on Security and Cooperation in Europe
Charles Fairbanks, former Deputy Assistant Secretary of State
Douglas J. Feith, former Deputy Assistant Secretary of Defense
Rand H. Fishbein, former Professional Staff member, Senate Defense 
        Appropriations Subcommittee
Frank J. Gaffney, Jr., former Acting Assistant Secretary of Defense
William R. Graham, former Science Advisor to the President
E.C. Grayson, former Principal Deputy Assistant Secretary of the Navy
James T. Hackett, former Acting Director of the Arms Control and 
        Disarmament Agency
Stefan Halper, former Deputy Assistant Secretary of State (signed on 
        September 10)
Thomas N. Harvey, former National Space Council Staff Officer (signed 
        on September 9)
Charles A. Hamilton, former Deputy Director, Strategic Trade Policy, 
        U.S. Department of Defense
Amoretta M. Hoeber, former Deputy Under Secretary, U.S. Army
Charles Horner, former Deputy Assistant Secretary of State for Science 
        and Technology
Fred Ikle, former Under Secretary of Defense for Policy
Sven F. Kraemer, former Director for Arms Control, National Security 
        Council
Charles M. Kupperman, former Special Assistant to the President
John Lehman, former Secretary of the Navy
John Lenczowski, former Director for Soviet Affairs, National Security 
        Council
Bruce Merrifield, former Assistant Secretary for Technology Policy, 
        Department of Commerce
Taffy Gould McCallum, columnist and free-lance writer
James C. McCrery, former senior member of the Intelligence Community 
        and Arms Control Negotiator (Standing Consultative Committee)
J. William Middendorf II, former Secretary of the Navy (signed on 
        September 10)
Laurie Mylroie, best-selling author and Mideast expert specializing in 
        Iraqi affairs
Richard Perle, former Assistant Secretary of Defense
Norman Podhoretz, former editor, Commentary Magazine
Roger W. Robinson, Jr., former Chief Economist, National Security 
        Council
Peter W. Rodman, former Deputy Assistant to the President for National 
        Security Affairs and former Director of the Policy Planing 
        Staff, Department of State
Edward Rowny, former Advisor to the President and Secretary of State 
        for Arms Control
Carl M. Smith, former Staff Director, Senate Armed Services Committee
Jacqueline Tillman, former Staff member, National Security Council
Michelle Van Cleave, former Associate Director, Office of Science and 
        Technology
William Van Cleave, former Senior Defense Advisor and Defense Policy 
        Coordinator to the President
Malcolm Wallop, former United States Senator
Deborah L. Wince-Smith, former Assistant Secretary for Technology 
        Policy, Department of Commerce
Curtin Winsor, Jr., former U.S. Ambassador to Costa Rica
Dov S. Zakheim, former Deputy Under Secretary of Defense

    Mr. Rumsfeld. Over the coming days, the members of the 
committee and the Senate will be faced with two important 
questions relating to the convention. First is, can the Senate 
responsibly oppose the President on this important foreign 
policy issue? Second is, what will happen if the Senate does 
reject the treaty and the United States seemingly stands 
essentially alone in the world, ex- 
cept for the rogue states with whom we would be associated as 
non-signatories?
    Let me address those questions in order.
    First is the issue of not supporting the President. As I 
indicated, my inclination has always been to try to do that. 
However, we know the Constitution did not grant sole authority 
to the President of the United States in the area of foreign 
policy. Indeed, it does not provide for a simple majority to 
ratify a treaty but, rather, for a two-thirds vote, so that it 
would have to be almost beyond doubt that a given treaty is in 
our national security interest. So it is certainly within the 
right of the Senate to disagree.
    Also, not surprisingly, there have been a number of 
treaties, conventions, and agreements where the Senate has 
disagreed over our history.
    The second question, as to what might happen if the U.S. 
stands alone, is an important one and one that I suspect will 
be a principal focus of the debate over the coming days.
    One result of the Senate not ratifying the treaty will be, 
admittedly, expressions of concern by some of our friends and 
allies around the world that have. But I suspect there will be 
no smiles from the rogue states. And the world will be spared 
the deception which would follow ratification, because the 
world will not be led to have erroneously believed that the 
threat of chemical weapons has been effectively dealt with. I 
submit that we will be spared the complacency that Secretary 
Schlesinger mentioned, which I think would follow ratification.
    Further, small and medium sized companies will be spared 
the costs and the risks to their proprietary information which 
would result from U.S. participation. You know, big companies 
seem to get along just fine with big government. They get along 
with American government, they get along with foreign 
government, they get along with international organizations. 
They have the staying power, they have the resources to wait 
things out. They have the ability, with all their Washington 
representatives, to deal effectively with bureaucracies.
    Indeed, that talent and skill, that capability on the part 
of big companies actually serves as sort of a barrier to entry 
to small and medium sized companies that lack that capability. 
So I do not suggest for a minute that the large American 
companies are not going to be able to cope with these 
regulations. They are. They will do it a whale of a lot better 
than small and medium sized companies.
    But if you look at that opening round with the Department 
of Commerce's regulations and requirements, and having been a 
regulator in the Federal government at one point in my life, I 
know that if you start with this, you end up with this 
(indicating). It does not take long.
    That problem of regulation on small and medium sized 
companies literally sucks the energy out of those companies. 
They are not capable of waiting and finding out the answers to 
all those things. They are trying to make money. That is the 
area of our society where the energy, the vitality, and the 
creativity is. They are the ones who are creating jobs in our 
country--not the large companies, which have been downsizing 
for the most part.
    So the fact that a number of large companies are not 
concerned about this does not surprise me the all, I must say.
    What would be the result of the U.S. standing alone? Well, 
we did this at our Nation's birth. We did it because we had 
very different views as to what the appropriate relationship 
between the American people and their government ought to be 
than other countries did.
    Would we be abdicating leadership on this issue of chemical 
weapons and the threat by not ratifying, as some have argued? I 
say no. I think not.
    I say this because the threat of chemical weapons will 
remain despite the fact that this agreement gets ratified by a 
number of nations. And the world will--must--look to the United 
States for leadership in dealing with that threat. Because of 
our capacity, our resources, our knowledge, our credibility, we 
will retain a significant leadership role.
    So, despite the argument, the power of the argument, that 
the U.S. would be standing alone, I think the truth is that we 
have done it before and it has worked out rather well. Not 
every country has the ability to stand alone, but the U.S. is 
not just any country.
    With our resources, our weight, our capabilities, we can 
not only afford to provide leadership, but we have a special 
obligation to provide that kind of leadership and not just go 
along with the current diplomatic momentum.
    Because we are the United States, we have a singular 
responsibility to exercise our best judgment on matters such as 
this and then to set about the task of fashioning a better 
solution.
    Other countries look to us for that kind of behavior.
    I hope the Senate will decide to take its time and work to 
achieve the changes necessary to improve this in material ways. 
The proposal introduced by Senator Kyl and others to the reduce 
the chemical and biological weapons threat is a practical place 
to start.
    Mr. Chairman, I commend you and your committee for your 
efforts to give such careful consideration to the matter and I 
appreciate the opportunity of participating.
    Thank you very much.

                 Prepared Statement of Donald Rumsfeld

    Mr. Chairman, members of the committee, good morning.
    Let me say at the outset that I am not an expert on chemicals, nor 
am I a lawyer. I have been in and around the subject of Arms Control 
since my service in the Congress in the 1960s, as U.S. Ambassador to 
NATO during the early 1970s when we were working on MBFR and SALT, as 
well as my service in the Pentagon. So, I am here today not as an 
expert on chemicals or international law, but rather as one with a long 
interest in U.S. national security.
    One of the most serious problems facing the United States, our 
friends and allies, and indeed the world is proliferation of weapons of 
mass destruction. Surely among the most important treaties of the 
decades since World War II are those which effectively enhance U.S. 
national security by addressing this problem. The Chemical Weapons 
Convention now before the Senate would appear to fit in that category, 
but, in my view, it does not.
    I recognize that there are arguments on both sides of this issue. 
Indeed, a number of the people many of us have worked with on these 
subjects over the years and respect, find themselves on opposing sides.
    Furthermore, as a former Member of the Congress, I well understand 
the difficulty in finding oneself in the position of opposing a treaty 
that the President of the United States strongly supports and that has 
such broad appeal. Being posi- 
tioned both as opposing our President and as favoring poison gas, which 
seems to be what happens to those who oppose this convention, is not an 
attractive position.
    Let me be clear. Were there pending before the Senate a convention 
that was verifiable and global and which would accomplish the 
elimination of chemical weapons in the hands of the nations most likely 
to use them, I would be appearing before this committee as a supporter, 
asserting that ratification would be in our national interest. 
Unfortunately, I do not believe this convention meets these tests.
    Interestingly, the preamble of the convention states in the first 
paragraph: ``The states parties to this convention * * *. Determined to 
act with a view to achieving effective progress toward general and 
complete disarmament under strict and effective international control, 
including the prohibition and elimination of all types of weapons of 
mass destruction * * * .''
    That is a goal that can only be described as monumentally 
ambitious. More to the point, it is not clear to me that that is today 
the agreed policy of the U.S. government or even that it is realistic. 
The history of mankind suggests that the achievement of ``complete 
disarmament'' is not a likely prospect, and the idea of ``strict and 
effective international controls'' to assure compliance with ``complete 
disarmament'' is, to put it mildly, a stretch.
    I do not believe that this convention is verifiable. Nor have I met 
or heard a single knowledgeable person who believes it is verifiable. 
The U.S. intelligence community has acknowledged in congressional 
testimony that we cannot have high confidence that violation of the CWC 
will be detected.
    It might reduce chemical weapons in arsenals in some countries. It 
is debatable, however, whether this treaty would reduce the chemical 
arsenals of any of the nations potentially hostile to the United 
States. Countries identified by the United States as possessing 
chemical weapons, that have not signed the CWC let alone ratified it, 
include Libya, Syria, Iraq and North Korea. Certainly, these countries 
are among the most likely to use chemical weapons against our citizens, 
our soldiers and our allies.
    In addition there are countries that might well sign the 
convention, but which would not be reliable with respect to compliance. 
Since the convention is not verifiable, that is not a trivial problem. 
For example, even if Iran does ratify can we really rely on them to 
comply? Also, it is my understanding that Russia has yet to fulfill its 
obligations under the 1990 U.S.-Russian bilateral destruction 
agreement. The Washington Times and Jane's have reported that the 
Russians have developed new nerve agents that are designed in a manner 
which would make discovery next to impossible, in that they are 
comprised of common commercial chemicals. This raises the question as 
to the likelihood of their complying with this convention.
    It appears that this convention is proceeding in a way that it 
could conceivably disarm democratic, friendly, non aggressive nations, 
that either do not have chemical weapons, or if they have them would be 
most unlikely to use them against us, while it will not effectively 
apply to totalitarian, enemy and aggressive nations that would be most 
likely to use them against the U.S. and its allies. As a recent Wall 
Street Journal article put it, under the Chemical Weapons Convention, 
members to the convention could look for chemical weapons in New 
Zealand or the Netherlands, but not in North Korea, Libya or Iraq--
countries which could be chemical warfare threats.
    Despite what I believe to be the low possibility that the 
convention would result in real arms control accomplishments, 
nonetheless a case can be made that it is important for the world to 
have standards and values. Dr. Kenneth Adelman, former director of 
ACDA, recently argued in supporting the agreement that ``standards and 
values violated are better than no standards or values at all.'' That 
is the most persuasive argument for the convention I have heard. 
However, I do not believe that it is sufficiently persuasive to tip the 
scales.
    While standards are important, there is the real risk that in 
ratifying the convention and setting forth high standards, the U.S. 
would be misinforming the world by misleading people into believing 
that there were reasonable international controls over the use of 
chemical weapons, despite the certainty that this convention cannot 
provide that assurance. The use of various gases during World War I led 
to the Geneva Protocol of 1925, which banned first use of chemical 
weapons in war. Despite that high standard, that ban has not been 
observed, witness Iraq's use of such chemicals.
    Furthermore, it is important to consider and weigh not only any 
potential benefits of the convention, but also its burdens and costs. 
It seems clear that any advantages of setting forth laudable standards 
and values by ratifying the convention are more than offset by the 
disadvantages.
    I note that there would be considerable cost to U.S. taxpayers in 
that the CWC provides for use of a U.N.-style funding formula, which as 
I recall bills the U.S. to pay some 25 percent of all costs. 
Personally, I think that percentage is too high and I cannot see why we 
would wish to extend it to still more international organizations.
    In addition, there would be costs to private industry, which I do 
not believe can be quantified at present, in that it is not possible to 
know yet how the mechanisms to police the convention would work. And 
this is to say nothing of the costs to companies of trying to protect 
proprietary information from compromise.
    These were among the concerns expressed by a number of former U.S. 
government civilian and military officials in a letter sent to Senate 
Majority Leader Trent Lott late last year, which I signed. (I have 
attached a copy of the letter to my remarks, and ask that it be made a 
part of the record at this point.)
    [The letter referred to by Mr. Rumsfeld appears on page 15.]
    Other concerns expressed in the letter included: The risk that the 
convention would lead to the creation of a new U.N.-style international 
inspection bureaucracy at great cost to the American taxpayers; that 
the CWC could undermine the standard of verifiability that had been a 
key national security principle for the U.S.; and that the convention 
could prevent the use of non-lethal riot control agents, to the 
disadvantage of U.S. forces.
    Over the coming days members of the committee and the Senate will 
be faced with two important questions.
    First, can the Senate responsibly oppose the President on this 
important foreign policy issue; and second, what will happen if the 
Senate does reject the treaty, and the U.S. seemingly stands 
essentially alone and apart in the world.
    Let me address those questions in order.
    First, is the issue of not supporting our President on a key 
foreign policy matter. As one, with a background in the executive 
branch, I begin with a strong preference to support the President on 
such matters. Indeed, I felt that pull even as a Member of Congress 
with Presidents of the other party. And I so voted. So that is my 
inclination.
    However, we know the Constitution did not grant the President sole 
responsibility in foreign affairs. Indeed, it provides not for a simple 
majority vote for the Senate to ratify a treaty, but a two-thirds vote, 
so that it would have to be beyond doubt that a given treaty is in the 
U.S. national security interest. So, it is not only well within the 
right of the Senate to disagree with a treaty as its best judgment may 
dictate, but it is its constitutional obligation. In exercising that 
responsibility, there have been a number of treaties, conventions, and 
international agreements that have not been approved by the U.S. Senate 
over our history, and in each case the sun came up the next day and the 
world did not end.
    The second question as to what might happen if the U.S. stands 
apart on this issue, is also an important one, and one which I suspect 
will be a principle focus of the debate over the coming days. One 
result of the Senate not ratifying this treaty will be expressions of 
concern by some of our friends, but there will likely be no smiles from 
the rogue states.
    Next, the world will be spared the deception which would follow 
ratification, because the world will not be led to believe erroneously 
that the threat of chemical weapons had been effectively dealt with, 
and the complacency which would follow.
    Further, small and medium sized U.S. companies will be spared the 
costs and the risks to their proprietary information which would result 
from U.S. participation. Big companies seem to get along well with big 
governments, foreign governments, and international organizations. They 
have the resources, the time, and the Washington representatives to 
work skillfully with governments. These capabilities of larger 
companies serve as an advantage over smaller companies, which lack the 
staying power and resources to cope with national and international 
regulations, inspections and the like.
    Next, U.S. taxpayers will be spared the cost of the convention. 
That is not a reason to reject it alone, but it is a fact. The U.S. 
would be spared the time and effort of implementing, complying with, 
and trying to enforce an agreement which in any event doesn't cover the 
nations most likely to use chemical weapons.
    So what would be the result of the U.S. standing alone? Well, we 
did this at our Nation's birth. We did it because we had very different 
views as to the appropriate relationship between the people and their 
government.
    Also, President Ronald Reagan did it with the Law of the Sea 
Treaty, notwithstanding the fact that most every nation in the world 
had signed that agreement. He did so because he found objectionable 
certain provisions relating to the seabed mining provisions. He refused 
to sign that treaty and asked me to serve as his Special Envoy to alert 
key countries of the dangers of going forward with that portion of the 
treaty.
    Would the U.S. be abdicating its leadership on this issue by not 
ratifying the convention, as some have argued? The answer is no. I say 
that because the problem of chemical weapons will remain despite this 
agreement, and the world will look to the U.S. for leadership in 
dealing with that serious threat.
    So despite the power of the argument that the U.S. would be 
standing alone, the truth is, we have done it before and it has worked 
out rather well. Not every country has the ability to stand alone. But 
the U.S. is not just any country. With our resources, our weight, our 
capabilities and our credibility the United States not only can afford 
to provide leadership, but it has a special obligation and ability to 
not just go along with what seems popular at the moment, but to stand 
up for what is right. Because we are the United States we have a 
singular responsibility to exercise our best judgment on matters such 
as this, and then set about the task of fashioning a better solution.
    I hope that the Senate will decide to take its time and work to 
achieve the changes necessary to improve it in material ways. The 
proposal introduced by Senator Kyl and others to reduce the chemical 
and biological weapons threat is a practical place to start.
    Mr. Chairman I commend you and your committee for your efforts to 
give the most careful consideration to this matter. I appreciate this 
opportunity to express my views and my concerns about the convention.
    Thank you.

    The Chairman. I thank all three of you.
    Senator Biden was necessarily detained because of the train 
this morning, and we were authorized to begin without him. So 
he missed his opportunity, as the ranking member, to make a 
statement.
    I would just say for perhaps his guidance that I took 14 
minutes and he might want to consider that same neighborhood.
    Senator Biden. I will try to do less than that, Mr. 
Chairman. I thank the committee for its indulgence and I would 
like the record to show that, although I am late, it will not 
add to the total time. Had I been here, I would have used the 
time. And the only manifest failure this morning that I have 
observed, to use Secretary Schlesinger's words, is the train 
schedule. That has been my most manifest failure this morning. 
I may reveal others as I speak, though.
    Mr. Chairman, I think this is a defining moment, not only 
for the United States but, quite frankly, for this committee 
and in your significant effort to reestablish this committee 
and its credibility and standing within the Congress. I think 
our failure to act on this treaty would be a reflection on us, 
as well as an extremely negative reflection on the United 
States' role internationally.
    Twelve years ago, the United States made a firm commitment 
to destroy 30,000 tons of poison gas that we had stockpiled. We 
had made that decision because these weapons no longer had any 
military value, according to our leaders.
    President Reagan also initiated an international effort 
aimed at forcing others to do what we already decided to do 
unilaterally. Through two Republican administrations, efforts 
to negotiate a chemical weapons treaty made slow, but steady, 
progress, and I would go back to that in a minute, but that was 
all part of that process.
    The effort gained new urgency after the Gulf War brought 
home the threat of poison and chemical weapons over 4 years 
ago. To set the record straight on that, as my friends I am 
sure know, in terms of the use of chemical weapons in the Gulf 
War, Secretary Weinberger alluded to the exposure of American 
troops to poison gas. That was part of an Iraqi stockpile we 
destroyed after the Gulf War. I am certain he realizes that 
there was nothing illegal under any law about stockpiling or 
producing chemical weapons.
    The Geneva Convention applies only to the use of poison gas 
in international conflict.
    The CWC, on the other hand, bans production and stockpiling 
of poison gas and would give significant justification in the 
eyes of the international community had we again discovered 
another nation was making or storing these weapons or had we 
used whatever force we chose to use against them.
    Second, with regard to the issue of the Gulf War, prior to 
the Gulf War, an example of Saddam Hussein using poison gas 
against the Kurds, which was alluded to here, is another reason 
why the CWC is needed, in my view. There is nothing illegal 
under the Geneva Convention about the use of poison gas in 
internal conflicts.
    The proscription applies only to international armed 
conflict, as I am sure the Secretary knows. So they didn't even 
violate the Geneva Convention. It is also true the 
international community failed to act.
    But you did not fail to act, Mr. Chairman. You led the 
effort here in the U.S. Senate with Senator Pell and we 
received a unanimous vote for a sanctions bill on September 
1988 soon after this came to light.
    Unfortunately, the bill died at the end of the Congress, in 
large measure because of the opposition of the Reagan 
administration. Indeed, the Reagan State Department, then 
deluded into believing the United States could cooperate with 
Saddam Hussein, denounced the Senate bill that you pushed and 
you got through as premature.
    So I say that neither this Senator nor would others stand 
idly by if violations of the Geneva Convention were discovered. 
But I'm sure the Secretary knew that there was no violation of 
the Geneva Convention and the point he made was still a very 
valid one. That is, we did not act.
    We led the world to the altar, you might say, of attempting 
to deal with chemical weapons, and I am confident that we will 
not abandon 160 other nations, for, if we did, it seems to me 
we would send a signal of retreat, forfeit our leadership, and 
cripple our ability to forge coalitions against the gravest 
threats we face as a Nation, as Secretary Rumsfeld referred to. 
This is the proliferation of weapons, all weapons, of mass 
destruction. We have not even talked about biological weapons 
yet.
    I know that the witnesses this morning do not share my view 
that this treaty is in our vital national interest. And I know 
that and we have heard arguments that the treaty is flawed 
because several rogue states have not signed.
    We also heard that verification will be difficult and that 
the CWC will harm U.S. industry and that it will supposedly 
force us to transfer sophisticated chemical equipment and 
defenses to dangerous regimes.
    And, finally, maybe the most strenuous argument we have 
heard today is that we are going to be lulled into a false 
sense of security, that we are going to drop our guard.
    I hope to demonstrate through these hearings today, 
tomorrow, and the next day that those criticisms are incorrect 
and the problems they site will only get worse--get worse--
without CWC.
    From the military perspective, I believe this convention is 
clearly in our interest. I know that the witnesses do not agree 
with me. However, two other former Secretaries of Defense and 
the present Secretary of Defense, not represented here today, 
do agree with me. Harold Brown, William Perry, and Secretary of 
Defense Cohen all believe it is in our interest.
    There is a draft statement from Brown and Perry. It says, 
``As former Secretaries of Defense, we would like to join 
former military leaders, including past Chairmen of the Joint 
Chiefs of Staff Powell, Vessey, Jones, Crowe, and former Chiefs 
of Staff of the Army, Navy, Air Force, and Marine Corps plus 
combat veterans like Norman Schwarzkopf in offering our strong 
support for ratification of the Chemical Weapons Treaty.''
    I ask unanimous consent that the remainder of their 
statement be placed in the record in the interest of time, Mr. 
Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

           Draft Statement of Harold Brown and William Perry

    As former Secretaries of Defense, we would like to join former 
military leaders including past chairmen of the Joint Chiefs of Staff 
Generals Colin Powell, John Vessey, David Jones, and Admiral William 
Crowe, and former chiefs of staff from the Army, Navy, Air Force, and 
Marine Corps, plus other combat veterans like General Norman 
Schwarzkopf, in offering our strong support for the ratification of the 
Chemical Weapons Convention.
    We firmly believe that U.S. ratification of the CWC will contribute 
significantly to the security interests of the United States and the 
safety of our armed forces. In conjunction with the Department of 
Defense's other efforts against chemical weapons proliferation, a 
robust chemical protection program and maintenance of a range of non-
chemical response capabilities, the CWC will serve the best interests 
of the United States and the world community. In light of the decision 
under President Reagan to get rid of the vast majority of U.S. chemical 
weapons stockpiles, it is in our interests to require other nations to 
do the same. The access provided for by the treaty will enhance our 
ability to monitor world-wide CW activities.
    We believe the CWC, which was negotiated under Presidents Reagan 
and Bush and completed by President Bush, to be a carefully considered 
treaty that serves our national interests well. Failure to ratify the 
CWC would send a clear signal of U.S. retreat from international 
leadership to both our friends and to our potential adversaries and 
would damage our ability to inhibit the proliferation of chemical 
weapons.

    Senator Biden. As the authors of this statement note, every 
single Chairman of the Joint Chiefs of Staff since President 
Carter's administration has endorsed ratification of the 
Chemical Weapons Convention. Last Friday, 17 distinguished 
retired military officers sent a letter to the President in 
which they endorsed ratification of the Chemical Weapons 
Convention. The collection of signatures on this letter is 
quite impressive. If my colleagues will indulge me, let me just 
read a few: General Colin Powell, Norman Schwarzkopf, Admiral 
Stanley Arthur, General Michael Duggan, General Charles Horner, 
General David Jones, General Wesley McDonald, General Meryl 
McPeak, General Carl Mundy, Admiral William Owens, General 
Gordon Sullivan, Vice Admiral Richard Truly, Admiral Stansfield 
Turner, General John Vessey, General Fred Warner, Admiral Elmo 
Zumwalt.
    In this letter they wrote--and I will just read the first 
paragraph--the following. They say, ``As former members of the 
United States Armed Forces, we would like to express our strong 
support for Senate ratification of the Chemical Weapons 
Convention. This landmark treaty serves the national security 
interests of the United States.''
    I will not read the rest of the letter, but I ask unanimous 
consent that it be placed in the record, Mr. Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

                                                     April 3, 1997.
The Honorable William J. Clinton,
The White House, Washington, D.C. 20500.
    Dear Mr. President: As former members of the United States Armed 
Forces, we write to express our strong support for Senate ratification 
of the Chemical Weapons Convention (CWC). This landmark treaty serves 
the national security interests of the United States.
    Each of us can point to decades of military experience in command 
positions. We have all trained and commanded troops to prepare for the 
wartime use of chemical weapons and for defenses against them. We all 
recognize the limited military utility of these weapons, and supported 
President Bush's decision to renounce the use of an offensive chemical 
weapons capability and to unilaterally destroy U.S. stockpiles. The CWC 
simply mandates that other countries follow our lead. This is the 
primary contribution of the CWC: to destroy militarily-significant 
stockpiles of chemical weapons around the globe.
    We recognize that the proliferation of weapons of mass destruction, 
including chemical agents, presents a major national security threat to 
the U.S. The CWC cannot eliminate this threat, as terrorists and rogue 
states may still be able to evade the treaty's strict controls. 
However, the treaty does destroy existing stockpiles and improves our 
abilities to gather intelligence on emerging threats. These new 
intelligence tools deserve the Senate's support.
    On its own, the CWC cannot guarantee complete security against 
chemical weapons. We must continue to support robust defense 
capabilities, and remain willing to respond--through the CWC or by 
unilateral action--to violators of the convention. Our focus is not on 
the treaty's limitations, but instead on its many strengths. The CWC 
destroys stockpiles that could threaten our troops; it significantly 
improves our intelligence capabilities; and it creates new 
international sanctions to punish those states who remain outside of 
the treaty. For these reasons, we strongly support the CWC.

Officers who signed the April 3, 1997 letter to the President
Admiral Stanley Arthur, USN (Ret.), former Vice Chief of Naval 
        Operations
General Michael Dugan, USAF (Ret.), former Air Force Chief of Staff
General Charles Homer, USAF (Ret.), former CINC, U.S. Space Command
General David Jones, USAF (Ret.), former Chairman, Joint Chiefs of 
        Staff
Admiral Wesley McDonald, USN (Ret.), former CINC, Atlantic Command
General Merrill McPeak, USAF (Ret.), former Air Force Chief of Staff
General Carl Mundy, USMC (Ret.), former Commandant, U.S. Marine Corps
Admiral William Owens, USN (Ret.), former Vice Chairman, Joint Chiefs 
        of Staff
General Colin Powell, USA (Ret.), former Chairman, Joint Chiefs of 
        Staff
General Robert RisCassi, USA (Ret.), former CINC, U.S. Forces Korea
General H. Norman Schwarzkopf, USA (Ret.), former CINC, Central Command
General Gordon Sullivan, USA (Ret.), former Army Chief of Staff
Admiral Richard Truly, USN (Ret.), former Director, NASA
Admiral Stansfield Turner, USN (Ret.), former Director of Central 
        Intelligence
General John Vessey, USA (Ret.), former Chairman, Joint Chiefs of Staff
General Frederick Woemer, USA (Ret.), former CINC, Southern Command
Admiral E.R. Zumwalt, Jr., USN (Ret.), former Chief of Naval Operations

    Senator Biden. Now several of these signatories to the 
letter I have just read were present at a White House event 
early on Friday in which dozens of distinguished Americans from 
many walks of life joined together to call for early 
ratification of the treaty.
    I would like to ask unanimous consent that the text of the 
remarks made at this event be included in the record as well, 
Mr. Chairman.
    The Chairman. Without objection, it is so ordered.
    [The information referred to appears in the Appendix.]
    Senator Biden. Mr. Chairman, the convention has won the 
endorsement of several highly respected veterans organizations 
as well. These include the Reserve Officers Association, the 
Vietnam Veterans Association, the Veterans of Foreign Wars, the 
Jewish War Veterans of the U.S.A., the American Ex-Prisoners of 
War, and I would ask unanimous consent that the statements by 
these organizations also be placed in the record.
    The Chairman. Without objection.
    [The information referred to appears in the Appendix.]
    Senator Biden. These individuals and organizations, none of 
whom can be characterized as soft headed or soft hearted, 
recognize the benefits of the convention for our front line 
soldiers, who increasingly face the risk of less discriminating 
and more treacherous weapons like poison gas. We should do the 
same.
    I would like to point out that I do not for a moment, nor 
do I know anybody else who does, question the patriotism, the 
integrity, or the distaste for poison gas or chemical weapons 
that is shared by our three most distinguished witnesses today. 
Anyone who would make such a statement is a damn fool.
    But the truth of the matter is we just have, as I say, a 
healthy disagreement among respected women and men about the 
value of this treaty for the United States. I think the value 
for those in favor far outweigh those opposed, but not in terms 
of their intellectual capability but in terms of their number.
    The argument that the treaty will be ineffective because 
several rogue states have not signed is, I find, equally 
perplexing. Today there is absolutely nothing illegal about the 
chemical weapons programs in these rogue states, and that will 
change once the CWC comes into force. At least it will be 
illegal. It will make such programs illegal. It will also 
provide us with a valuable tool--the moral suasion of the 
entire international community--to isolate and target those 
states who violate the norm which my friend, the former 
Secretary and head of more than one agency, believes--his view 
is that norms don't matter in international relations. I would 
like to have a talk with him, if we have more time, about the 
notion of norms and why I think they do matter.
    But at any rate, if you disagree and norms don't matter, 
then it doesn't matter. But most Americans and most people do 
agree that norms do matter. They do have some impact. They may 
not solve it all, but they have an impact.
    As Secretary of State Madeleine Albright, who will testify 
this afternoon has noted, to say that we should not try to make 
chemical weapons illegal because there will be cheaters is like 
saying we should not have laws because we know people are going 
to break them.
    Norms are created so that we have standards for civilized 
conduct by which to judge others. Without them, we leave the 
rogue countries to behave as free actors.
    Indeed, by joining the convention, we place the full weight 
of the world community to take whatever actions are necessary 
to respond and to prevent them. I acknowledge that we will 
ultimately take only that action which we view to be in our 
national interest. We will ultimately take only that action we 
view to be in our national interest.
    When my friends were former Secretaries of Defense, they 
did not recommend actions taken when we knew countries were 
acting in ways that were beyond our interests without 
considering the global interest and the interest of the United 
States relative to other considerations.
    So I acknowledge that ultimately we will take action or not 
take action based on whether it is in our interest.
    Equally importantly, we will place our military might 
behind the world's threat to act against violators.
    The argument that U.S. industry will suffer under the 
supposedly onerous burdens of the treaty is particularly 
intriguing to me. You see, I come from Delaware. If there is 
any state in the Union that has a greater interest in the 
chemical industry, I know of none. And I can assure you 
gentlemen, big or small--and they are both big and small--if 
they had a problem, I guarantee you I would hear about it. I 
promise you that I would after 24 years.
    You were a former member, Secretary Rumsfeld. Do you doubt 
that the industry would let me know? Do you doubt for one 
moment?
    I can tell you that not only do they support it--and, by 
the way, this impacts on half of Delaware's industrial output, 
these chemicals. It is one-half. Not only does industry support 
it, they strongly support it.
    And in terms of those small outfits, Secretary Rumsfeld may 
not be aware of this, but Dan Danner of the National Federation 
of Independent Businesses said the CWC will have no impact on 
their members. They are neutral on the treaty.
    Maybe he was unaware of that, but that is their position.
    What I have heard from the chemical industry is if you 
don't ratify this convention, the chemical industry, which is 
the country's largest exporter, stands to lose hundreds of 
millions of dollars in export earnings; because it would be 
subject to trade sanctions that the United States wrote into 
the treaty to target rogue states. We wrote it in.
    Now this will be the irony of all ironies. My State will 
get a kick in the teeth on something we wrote into a treaty, 
because we do not ratify the treaty. And Germany has already 
announced that, come April 29, sanctions are going to apply.
    In fact, we have heard that all non-members will be subject 
to those German sanctions.
    By the way, one of our largest competitors is Germany, as 
you might guess. So there is a little interest there.
    The argument that the convention is unverifiable is a 
classic case of making the perfect the enemy of the good. No 
arms control treaty is perfectly verifiable, and the CWC is no 
exception to the rule. While there are risks that a State party 
will hide some covert chemical weapons stockpiles or illegally 
produce chemical weapons, it will be much more difficult to 
engage in large scale violations that would pose the greatest 
danger to U.S. military forces.
    As one of our witnesses this afternoon, a former colleague 
of yours, Ambassador Kirkpatrick points out--though she did not 
mean to point it out this way--she said you know, don't worry 
about verification. We are going to have to do this 
verification anyway, even if there is no treaty. That is the 
point. That is the point. We have to do it anyway. And we can 
do it less well--less well--without the treaty than with the 
treaty.
    George Tenet, the Acting Director of CIA, said, ``In the 
absence of tools that the convention gives us, it will be much 
harder for us to apprise you, apprise the military and 
policymakers of where we think we are in the world regarding 
these developments.'' The intelligence community sees benefits 
in us ratifying CWC.
    In addition, there may well be occasions in which on-site 
inspection will provide evidence of treaty violations. In other 
words, while we will not catch every violator, we will catch 
some, and that does act as a deterrent. And without CWC, we 
won't catch anybody.
    The allegation that the treaty would lead to the end of 
export controls on dangerous chemicals is based on a poor 
reading of the treaty, with all due respect.
    Article XI of the convention supports the chemical, trade, 
and technology exchange ``for purposes not prohibited under the 
convention.'' It also requires that trade restrictions not be 
``incompatible with the obligations undertaken under this 
convention.''
    The CWC is completely consistent with continued enforcement 
of the Australia Group controls which member states use to keep 
chemical and biological materials out of the hands of rogue 
states. The executive branch has said this time and again and 
so have our Australia Group allies.
    In fact, as we speak, our allies are in the process of 
repeating these assurances through diplomatic contacts. It is 
the decline and failure of U.S. leadership that would pose the 
gravest threat to the Australia Group, and failure to ratify 
the CWC would be seen by friend and foe alike as a retreat from 
that world leadership.
    Under that circumstance, State and chemical industries 
might indeed conclude that we should go back to helping the 
Iraqis and Libyans of the world to build their suspect chemical 
facilities. If one were to extrapolate the argument treaty 
opponents make, one would have to conclude that no matter what 
we do, the Australia Group is a dead letter because on April 
29, those Australia Group countries that have joined the 
convention will be required to begin trading freely in 
dangerous chemicals, according to the argument made by the 
opponents. Obviously, this is as preposterous as it sounds. But 
it is a logical outgrowth of the allegation made by opponents.
    Finally, I would look forward to engaging the witnesses on 
their claim that the convention will lull us into a false sense 
of security. The Pentagon made it clear on numerous occasions 
that it will maintain a robust chemical capability supported by 
robust intelligence collection. The commitment to protecting 
our forces has the full support of the President and the 
Congress. In addition, I have agreed with Senator Helms, 
assuming this treaty comes up, to a legally binding condition 
of the treaty that requires the Secretary of Defense to insure 
that the U.S. forces are capable of carrying out our military 
missions regardless of any foreign threats or use of chemical 
weapons. Besides, our experience in other arms control 
agreements shows there is little chance of our becoming 
complacent about a chemical weapons threat if the CWC is 
ratified.
    I just would cite the Nuclear Nonproliferation Treaty and 
not much more in the interest of time.
    Article X does not require the CWC defense assistance 
beyond antidotes and medical treatments. Does that really harm 
U.S. security? Isn't it a fair trade for getting those 
countries to forego chemical weapons? If other countries want 
to provide additional CWC defenses, as the Secretary indicates, 
how would the U.S. failure to ratify stop that in any way? You 
made your own argument. You said these guys are going to go out 
and do this anyway.
    Well, that's true. If they're going to do it, they're going 
to do it whether we are a signatory or not. Being a signatory 
in no way enhances that prospect. Industrial espionage is 
another question that I will not get into in the interest of 
time. But I notice that the chemical industry is not making 
that case, Secretary Rumsfeld, and we will have safeguards 
requiring the Secretary of Defense to maintain U.S. military 
capabilities to operate in chemical environments.
    The riot control agents is another subject that I would 
like to speak to, which I think we have taken care of.
    I thank the Chairman for allowing me to make my statement 
late, and I thank you gentlemen for listening. But then, what 
else could you do?
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Mr. Chairman, this is a defining moment in our foreign relations. 
In my view, the credibility and continued leadership of the United 
States on arms control and proliferation matters hangs in the balance. 
Twelve years ago the United States made a firm commitment to destroy 
the thirty thousand tons of poison gas that we had stockpiled. We made 
that decision because these weapons no longer had any military value.
    We also initiated a global effort aimed at forcing others to do 
what we had already decided to do unilaterally. Through two Republican 
administrations, efforts to negotiate the Chemical Weapons Treaty made 
slow but steady progress. The effort gained new urgency after the Gulf 
War again awakened us to the threat posed by chemical weapons. Over 
four years ago, Secretary of State Eagelburger signed the Chemical 
Weapons Treaty on behalf of the Bush Administration.
    Having led the world to the altar, I am confident that we will not 
abandon 160 other nations. For if we did, we would send a signal of 
retreat, forfeit our leadership, and cripple our ability to forge 
coalitions against the gravest threat we face as a nation--the 
proliferation of weapons of mass destruction.
    I know that the witnesses today do not share my view that this 
treaty is in our vital national interest. I know that we will hear 
arguments that the treaty is flawed because several rogue states have 
not signed. We will hear that verification will be difficult, that the 
CWC will harm U.S. industry, that it will supposedly force us to 
transfer sophisticated chemical equipment and defenses to dangerous 
regimes. Finally, perhaps their most strenuous argument will be that 
this treaty will lull us into a false sense of security and cause us to 
drop our guard.
    I hope to demonstrate today that these claims are incorrect and 
that the problems they cite will only get worse without the CWC. From 
the military perspective, I believe that this convention is clearly in 
our interest. I know that the witnesses may not agree with me in this 
regard. However, two other former Secretaries of Defense not 
represented here today do agree with me. These are Harold Brown, 
Secretary of Defense in the Carter Administration, and William Perry, 
Secretary of Defense in the first Clinton term.
    I ask unanimous consent that their statement be included in the 
record. As they note in their statement, every single Chairman of the 
Joint Chiefs of staff since President Carter's Administration has 
endorsed ratification of the Chemical Weapons Convention.
    Last friday, 17 distinguished retired military officers sent a 
letter to the President in which they endorsed ratification of the 
Chemical Weapons Convention. The collection of signatures on this 
letter is quite impressive. I would ask unanimous consent to place the 
text of this letter as well as an opinion piece by Secretary of Defense 
William Cohen in the record.
    Several of these signatories were present at a White House event on 
Friday in which dozens of distinguished Americans from many walks of 
life and both sides of the political fence joined together to call for 
early ratification of this treaty. I would ask unanimous consent that 
the text of the remarks made at this event be included in the record.
    The Convention has won the endorsement of several highly-respected 
veterans and military organizations as well. This list includes the 
Reserve Officers Association, the Vietnam Veterans Association, the 
Veterans of Foreign Wars, the Jewish War Veterans of the U.S.A., and 
The American Ex-prisoners of War. I would ask unanimous consent that 
statements by these organizations be placed in the record.
    These individuals and organizations--none of whom can be 
characterized as soft-headed or soft-hearted--recognize the benefits of 
this Convention for our front-line soldiers, who increasingly face the 
risk of less discriminating and more treacherous weapons like poison 
gas. We should do the same.
    Mr. Chairman, the argument that the treaty will be ineffective 
because several rogue states have not signed is equally perplexing to 
me. Today, there is absolutely nothing illegal under international or 
domestic law about the chemical weapons programs in these rogue states. 
That will change once the CWC enters into force. It will make such 
programs illegal. It will also provide us with a valuable tool--the 
weight of the entire international community to isolate and target 
those states that violate the norm set by this treaty.
    As Secretary of State Madeleine Albright, who will testify this 
afternoon, has noted--to say that we shouldn't try to make chemical 
weapons illegal because there will be cheaters, is like saying that we 
shouldn't have laws because people will break them. International norms 
of behavior are created so that we have standards of civilized conduct 
by which to judge others. Without them, we leave the rogue countries to 
behave as free actors.
    Indeed, by joining the convention, we place the full weight of the 
world community to take whatever action is necessary to respond to, or 
prevent an adversary from using chemical weapons. Equally important, we 
will place our military might behind the world's threat to act against 
violators.
    The argument that U.S. industry will suffer under the supposedly 
onerous burdens of the treaty is particularly interesting for me to 
hear. You see, coming from Delaware I know a thing or two about the 
chemical industry--which is the industry that will be most impacted by 
this treaty. The chemical industry accounts for over one-half of 
Delaware's industrial output. If the chemical industry had a problem 
with this treaty, I assure you that I would have been among the first 
to hear about it. Instead, what I have heard is that the chemical 
industry played a key role in negotiating the convention and is among 
its strongest supporters.
    What I have heard is that if we don't ratify this convention, the 
chemical industry, which is this country's largest exporter, stands to 
lose hundreds of millions of dollars in export earnings because it 
would be subject to trade sanctions that the United States wrote into 
the treaty to target rogue states. In fact, we have now heard that 
Germany has announced that it will impose trade restrictions on non-
members come April 29.
    The argument that the convention is unverifiable is a classic case 
of making the perfect the enemy of the good. No arms control treaty is 
perfectly verifiable. The CWC is no exception to that rule. While there 
are risks that a state party will hide some covert chemical weapons 
stocks or illegally produce chemical weapons, it will be much more 
difficult to engage in large-scale violations that would pose the 
greatest danger to U.S. military forces. This is because of the CWC's 
extensive on-site inspection regime.
    George Tenet, the Acting Director of Central Intelligence, 
testified before the Senate Intelligence Committee that: ``In the 
absence of the tools that the Convention gives to us, it will be much 
harder for us to apprise you, apprise the military and policymakers of 
where we think we are in the world with regards to these 
developments.''
    The intelligence community wants us to ratify CWC because it will 
give them additional tools to detect chemical weapon programs in other 
countries. And that is something we're going to have to do anyway. In 
addition, there may well be some occasions in which on-site inspection 
will produce evidence of treaty violations. In other words, while we 
may not catch every violator, we may well catch some--and that will 
lead to deterrence.
    And without the CWC, we won't catch anybody--because there will be 
no bar on countries producing and stockpiling those weapons. The 
allegation that the treaty would lead to the end of export controls on 
dangerous chemicals is based on a poor reading of the treaty text. 
Article Eleven of the Convention supports chemical trade and technology 
exchange ``for purposes not prohibited under this convention.'' It also 
requires that trade restrictions not be ``incompatible with the 
obligations undertaken under this convention.''
    But the CWC is completely consistent with continued enforcement of 
the Australia group controls, which member states use to keep chemical 
and biological weapons material out of the hands of rogue states. The 
executive branch has said this time and again, and so have our 
Australia group allies.
    In fact, as we speak, our allies are in the process of repeating 
those assurances through diplomatic contacts. It is the decline and 
failure of U.S. leadership that would pose the gravest threat to the 
Australia group. And failure to ratify the CWC would be seen by friend 
and foe alike as a U.S. retreat from world leadership in an area that 
is critical to global security. Under that circumstance, states with 
chemical industries might indeed conclude that they should go back to 
helping the Iraqs and Libyas Of the world to build suspect chemical 
facilities.
    If one were to extrapolate the arguments of treaty opponents, one 
would have to conclude that no matter what we do, the Australia group 
is a dead letter. Because on April 29 those Australia group countries 
that have joined the Convention will be required to begin trading 
freely in dangerous chemicals according to the argument made by 
opponents. Obviously, this argument is as preposterous as it sounds, 
but it is the logical outgrowth of the allegation made by the 
opponents.
    Finally, I look forward to engaging our witnesses on their claim 
that this Convention will lull us into a false sense of security. The 
Pentagon has made it clear on numerous occasions that it will maintain 
a robust chemical defense capability supported by robust intelligence 
collection. The commitment to protecting our forces has the full 
support of the President and the Congress and I believe strongly that 
no future Administration or Congress will abandon our solemn 
responsibility to our troops in this regard.
    In addition, I have agreed with Senator Helms to add a legally 
binding condition to the treaty that requires the Secretary of Defense 
to ensure that U.S. forces are capable of carrying out military 
missions regardless of any foreign threat or use of chemical weapons. 
Besides, our experience with other arms control agreements shows that 
there is little chance of our becoming complacent about the chemical 
weapon threat if the CWC is ratified.
    For example, the Nuclear Non-proliferation Treaty was signed 
twenty-five years ago, yet we are continually vigilant on the threat of 
nuclear proliferation. As for defenses against poison gas--troop 
protection and decontamination training is a function of congressional 
funding. That equipment and that training will not go away unless 
Congress lets it go away. I certainly won't allow it, and I don't think 
my colleagues on the other committees of jurisdiction or on side of 
this issue will either.
    I am concerned that the opponents solution to the perceived problem 
of being lulled to sleep is to allow the threat of chemical weapons to 
grow even worse. Mr. Chairman, I look forward to a frank and open 
exchange with our witnesses. I hope that the hearing today moves us one 
step closer to action on this critical treaty before the impending 
deadline.
    Thank you.

    The Chairman. You didn't take but 18.5 minutes.
    Senator Biden. Well, then I will forego my questions, Mr. 
Chairman.
    The Chairman. Oh, no, no. You are always very impressive, I 
will say, one way or another.
    The Chairman. Since we are playing a name game, Trent Lott 
got a letter the other day, signed by a few military people, 
such as Dick Cheney, Bill Clark, Alexander Haig, John S. 
Herrington, Jeane Kirkpatrick, Edwin Meese, Donald Rumsfeld, 
Caspar Weinberger, General Voss, Vice Admiral William Houser, 
General Kelley of the Marine Corps, General Thomas Kelly of the 
Army, Admiral Wesley McDonald--is that enough?
    Senator Biden. That's pretty good, Mr. Chairman.
    The Chairman. OK. We have about 75 other signatories. 
Without objection, we will put that in the record.
    [The letter referred to by Chairman Helms appears on page 
15.]
    Senator Biden. Mr. Chairman, this is not fair to do, but 
two of the guys you named changed their mind and signed a 
letter on April 3 saying that they are for the treaty.
    Oh, they changed their mind after they signed that.
    Oh, gosh, all right.
    There are a lot of guys changing their minds around here 
these days. Maybe we can change your mind, too.
    The Chairman. That will be the day.
    You won't change my mind about this statement made 
repeatedly about the Reagan Administration, which is not for 
this treaty. Think about Weinberger, Kirkpatrick, Bill Clark, 
Ed Meese, Richard Perle, Dick Adams, and on down the list. In 
fact, I know of no one on the Reagan team, as it is known, who 
is in favor of it. Sadly, nobody can ask the President himself, 
President Reagan, how he feels about it.
    I understand that several Senators are going to return so 
that they can have their time. We have agreed that 5 minutes 
for the first round may be the course of wisdom.
    Secretary Rumsfeld, you served for many years as Chairman 
and CEO of G.D. Searle and Company, which is, I believe, a 
large, multilateral pharmaceutical business. You have had quite 
a bit of experience and expertise in dealing with government 
regulations, to which you referred.
    In your expert opinion, why would the Chemical 
Manufacturers Association be so aggressive in supporting the 
treaty when I have this many letters (indicating) from chemical 
companies saying it is a bad treaty and please do not approve 
it?
    Mr. Rumsfeld. Well, I cannot climb into the minds of the 
executives of the Chemical Manufacturers Association, Senator, 
but certainly an industry like that has, as Senator Biden has 
indicated, an opportunity to increase the number of chemicals 
they can export if this treaty is passed. At the present time, 
a number of chemicals are not permitted for export, which would 
be made permissible for export by this convention.
    So it is in their interest to have it passed in that 
regard.
    The Chairman. Thank you.
    Mr. Rumsfeld. Second, I am not an expert on the 
association, but certainly they represent the big companies. 
They don't represent the medium sized and small companies.
    Senator Biden has said he does not doubt that he would be 
hearing from small companies if there were a problem. I suspect 
if this passes he will hear from them. I don't believe that the 
thousands, whatever the number is, of companies across this 
country know about this treaty in any detail, believe that the 
treaty would apply to them, understand that they could be 
subjected to inspections, appreciate the unfunded mandates that 
would be imposed on them in the event this treaty were to be 
ratified.
    I might just point out that the Aerospace Industries 
Association has stated its strong concern about the treaty, and 
I hope that since they have said that they have not changed 
their mind.
    But you never know.
    But they have said it would unnecessarily jeopardize our 
Nation's ability to protect its national security information 
and proprietary technological data.
    I was told yesterday by an individual who is knowledgeable 
that the Lawrence Livermore Laboratory, for example, personnel 
from there were involved in one of the mock inspections 
conducted by the U.S. government. They evaluated the inspection 
results and some weeks later, from outside the facility, using 
modern technology, were capable of coming away with classified 
information and proprietary information from the inspection.
    So I don't think that it would be wise for us to 
underestimate the risk that would exist to classified 
information, to a company's proprietary information.
    There is a third problem. Most of us in business are 
engaged with joint ventures and partnerships with companies 
across the globe. We share proprietary information in the same 
facility. Were these inspections imposed, it is entirely 
possible that not only your own proprietary information could 
be compromised but also the proprietary information of joint 
venture partners to whom you have promised not to permit their 
proprietary information to be shared.
    Even cereal companies close their doors and do not allow 
people to walk through the plant. Why? They don't have 
classified information. What they have is process information, 
and the idea of photography or samples leaving their factory 
would unquestionably concern them deeply.
    The Chairman. I thank you. My time is up.
    Without objection, I am going to ask that the letters from 
industry in opposition to treaty ratification be made a part of 
this record.
    [The information referred to appears in the appendix.]
    The Chairman. I don't have but 30 seconds left, so I will 
turn to the distinguished Senator from Delaware.
    I was just handed an interesting little comment that I will 
say to all of you. One of the letters that I have is from the 
company which makes the ink for the dollar bill. They are 
frightened that foreign inspections under the CWC would give 
counterfeiters some advantage.
    Mr. Rumsfeld. They are probably incorporated in Delaware.
    Senator Biden. I hope so. That accounts for the other 50 
percent of our business.
    Actually, that's not true. Chickens are bigger.
    Dr. Schlesinger. They are incorporated in Virginia and the 
letter was sent to Charles Robb.
    Senator Biden. Thank you.
    Gentlemen, obviously because of the time I am not going to 
be able to ask you all that I want to, though I am sure my 
colleagues will do a better job at it than I would.
    Let me ask you about a few things you have mentioned here 
and about conditions that have been tentatively agreed to, 
conditions added to the treaty that have been tentatively 
agreed to by Senator Helms and me--speaking only for me and not 
for any other member of the Democratic Caucus or the Republican 
Caucus. One of the criticisms was that this is unenforceable, 
this treaty. And one of the conditions we have tentatively 
agreed on is that the President would be required to consult 
with the Senate if the treaty is being violated. The President 
would be required to report to us on what was being done by way 
of inspections, diplomacy, and sanctions to respond to the 
violation. And if the violations were to persist for one year, 
the President would have to come back to the Senate and ask the 
Senate to decide if we should continue to adhere to the treaty 
or not. He would have an affirmative obligation.
    My question is, does this condition in any way, do you view 
it as positive, not whether it cures the problems of the 
treaty, but do you consider it a positive condition?
    Dr. Schlesinger. I think it is a positive condition.
    Mr. Weinberger. I would suggest, however, that we might 
want to look very carefully at the content of the report that 
the President makes to the Senate and see if it, in fact, is as 
accurate as it should be.
    Senator Biden. I think that is a valid concern and a valid 
point raised. There is another condition that we have 
tentatively agreed on.
    In response to a piece, an op-ed piece done by you 
distinguished gentlemen, you said, on March 5, that if the 
United States is not a CWC member State, the danger is lessened 
that American intelligence about ongoing chemical weapons 
operations will be ``dumbed down'' or otherwise compromised.
    In order to address that concern, Senator Helms and I have 
agreed to a condition requiring periodic reports and prompt 
notice to the Congress about chemical weapons programs around 
the world and the status of CWC compliance.
    The executive branch would also be required to offer 
briefings on these issues. This condition would give Congress 
an active role in advising the President in regard to insuring 
compliance. The information would be before the Congress and it 
would be incumbent upon us to review it and define, if we 
disagreed, when violations were taking place.
    My question is does this in any way go toward alleviating 
the concern about dumbing down?
    Dr. Schlesinger. Well, it helps in some ways and it adds to 
the problem in others.
    As you know, there is a proclivity of the executive branch, 
when it wants to avoid action, to ignore or to dumb down 
violations by others. There is a long history of this. I need 
not repeat it.
    Senator Biden. I'm aware of that.
    Dr. Schlesinger. You referred to the Iraq case yourself.
    Senator Biden. Now the other question that several of you 
have indicated in written material in the past was without a 
commitment of billions of U.S. aid to pay for destruction of 
Russia's vast arsenal, they will not comply with this treaty.
    Senator Helms and I have agreed to a condition to a 
resolution of ratification in an attempt to address this issue. 
Our condition states: The United States will not accept any 
Russian effort to condition its ratification upon the U.S. 
providing guarantees to pay for implementation.
    Let me ask you this. Does this in any way help in that 
problem, although I find it kind of strange? It's like the 
argument about why the Nunn-Lugar legislation was a bad idea--
this is not an argu- 
ment on your part, but some here have argued that it was a bad 
idea because we were paying money to the Russians to destroy 
nuclear weapons.
    I always found that an interesting argument, and I don't 
know why it would be such a bad idea to help destroy their 
chemical weapons, either. At any rate, we have a condition that 
says that that can be no condition of ratification.
    Is that a useful or a destructive addition to this treaty?
    Dr. Schlesinger. I think that is useful, Senator. It does, 
however, underscore a fundamental problem that we have in that 
the bilateral destruction agreement was the foundation for the 
Chemical Weapons Convention and that Prime Minister 
Chernomyrdin has now said that agreement has outlived its 
usefulness. That is worrisome.
    Senator Biden. As you will recall--and this will obviously 
be my last comment--as you will recall, the reason for that 
treaty was to prompt this treaty. You will remember that. 
Second, we did not ratify the treaty nor did they ratify the 
treaty.
    Anyway, thank you very much Mr. Chairman.
    Thank you, gentlemen.
    The Chairman. Before I recognize Senator Lugar, let me say 
that the distinguished ranking member, Joe Biden, and I have 
spent several hours together trying to work on details, and we 
have agreed on about 21 relatively minor defects in the treaty. 
There are 5 or 6 major things yet to be considered, and the 
administration up till now--not Joe Biden, but the 
administration--is stonewalling considering even those defects.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    I want to join you and members of the committee in 
welcoming witnesses this morning who are good public servants 
and personal friends of many of us on this committee. I have 
listened to their testimony and I have studied the op-ed which 
they wrote for the Washington Post last month. I believe their 
contribution was well written, but, at least for me, it was 
unpersuasive.
    Critics of the convention often speak as if the concerns 
they are expressing are being heard almost for the first time 
and that members of the committee have now taken these issues 
into account in developing the resolution of ratification.
    The critics may not be familiar with the resolution of 
ratification that we passed out of this committee by a vote of 
13 to 5 last year or the ongoing negotiations on the 
ratification issue this year which the Chairman just cited.
    The resolution is precisely the vehicle through which these 
matters of interpretation are taken up and conditions added to 
conform to U.S. domestic law. Instead of working these complex 
interpretation issues, many critics are repeating many of the 
same arguments that we have dealt with.
    I would say, for example, that we are treated to the so-
called complacency argument; that is, United States 
ratification of the CWC will lull the country into a false 
sense of security and a tendency to neglect its defenses. But 
this is surely a matter of political will here at home. It has 
nothing to do with the treaty. There is nothing inevitable 
about arms control agreements contributing to lessening a 
perceived need and, therefore, support for defense against such 
threats.
    But there is something wrong with the notion that by 
allowing our potential adversaries to have a chemical weapon 
situation without norms and international law, that we are sure 
to be reminded to defend ourselves against them. Rather than 
whining about complacency, Congress ought to do its job: 
Authorize and appropriate the funds necessary to provide for a 
robust chemical defense capability.
    In addition, Congress has every ability to add or to shift 
funds to ensure that CWC monitoring remains a priority.
    Second, we are treated again to the so-called poisons for 
peace argument; namely, the CWC will obligate member states to 
facilitate transfers of CWC specific technology, equipment and 
material to member states of the convention. Further, they 
charge the treaty commits new member states not to observe any 
agreements that would obstruct these transfers.
    That is the Iranian interpretation of Article XI. The 
United States and others rejected that argument and maintain 
that interpretation of Article XI did not require them to do 
so, that mechanisms such as the Australian Group are legitimate 
under the CWC, and the work of the Australian Group will 
continue.
    The resolution of ratification clarifies the American 
interpretation. The U.S. preserves the right to maintain or 
impose export controls for foreign policy or national security 
reasons. But nothing in the convention obligates the United 
States to accept any weakening of existing national export 
controls and that the export control and nonproliferation 
measures the Australian Group has undertaken are fully 
consistent with all requirements of the CWC.
    If, as critics state, the CWC would likely leave the United 
States more and not less vulnerable to chemical attack, then 
the blame again resides with political leaders in the United 
States, not with the convention. The treaty in no way 
constrains our ability as a nation to provide for a robust 
defense against chemical weapons or to impose and maintain 
export controls.
    Third, we are told that if the U.S. is a CWC participant, 
American intelligence is in danger of being dumbed down or 
compromised. Again, any dumbing down of intelligence has 
nothing to do with the convention. It has to do, once again, 
with political will.
    We quite predictably get, then, a charge on the 
Constitution made by critics that U.S. participation could 
leave U.S. citizens and companies vulnerable to burdens 
associated with reporting and inspection arrangements and to 
jeopardizing confidential business information.
    The critics pose as protectors of American industry, but 
industry has spoken for itself. U.S. industry would not support 
the CWC if it posed significant risks to confidential business 
information. Specifically, the chemical industry has worked 
intensively to ensure that protections against the loss of 
confidential information are incorporated in the CWC and the 
administration-proposed implementing legislation.
    By the same token, allegations that this will require 
violation of the Constitution are wrong. The proposed 
implementing legislation provides for search warrants if 
routine or challenge inspections are to be carried out without 
consent. The CWC also allows the U.S. to take into account 
constitutional obligations regarding searches and seizures, 
proprietary rights, and providing access through challenge 
inspections.
    Finally, there is the argument that we be in no hurry to 
adhere to the convention and if and when we decide to join 
other signatories will have no choice but to adjust. 
Nevertheless, if we are not a party when it enters into force, 
we will have no role in the governing body and that is 
important.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. I noted 
when I walked in here the presence of the distinguished 
Admiral, who has rejoined us here.
    It is a pleasure to see you again, Admiral. We are glad to 
have you back with us.
    Today I thank all three of you for being here as witnesses. 
All three of you had distinguished careers, and it is a 
pleasure to see you back before the committee.
    Mr. Chairman, I thank you for holding these hearings. I 
respect immensely the concerns that you have raised. You have 
done so in an appropriate fashion over the last number of 
months, and we are going to have a chance, as it appears now, 
in the next few days to actually express our will in the Senate 
on this, which I think is appropriate and proper given the 
April 29 deadline.
    I commend you and Senator Biden for the tremendous effort 
you have both put in, along with your staffs, to try to resolve 
some of the outstanding differences. Senator Lugar as well 
deserves a great deal of credit, having a long-standing 
commitment to this issue.
    So I commend all of you for your work.
    I noted, Mr. Chairman, that you said the Reagan 
administration team was sort of opposed to this. The name game 
is dangerous, but the last time I looked, General Vessey, Jim 
Baker, Ken Adelman, Colin Powell, General Rowny, Paul Nitze and 
the Vice President were part of the Reagan team and they 
support the Chemical Weapons Convention.
    But there is a danger in going back and forth. I think the 
question has to be raised of what is in the interest of our 
country here, whether or not this is going to serve our 
interests in the 21st century.
    I am struck by a couple of observations. One is that we saw 
in the 1970's--in fact, Secretary Schlesinger I think was very 
much involved in this--the Biological Weapons Convention or 
treaty which President Nixon sent up to us here, which was 
strongly supported, as I recall, by both parties, both sides of 
the aisle. It has some 157 signatories, I think. One hundred 
forty countries ratified it. There is no verification, to the 
best of my knowledge, in that particular convention, yet it has 
worked pretty well.
    It has short comings, obviously. There is not universal 
adherence to it, but it has worked fairly well.
    I raise that because this treaty obviously does have 
verification included in it. One would argue that it actually 
does a much better job.
    I am also struck by the fact that in 1985, President Reagan 
signed into law a bill that would eliminate by the year 2004 
the entire existing stockpile of chemical weapons. So we made a 
decision about a decade ago. One could argue, I suppose, the 
merits of it, but we made that decision; and we have been about 
the business not of upgrading or modernizing any of our 
chemical weapons but to unilaterally--to unilaterally--
eliminate our own stockpiles in chemical weapons.
    I know of nothing that has been said here, nor has anyone 
advocated, at least in the last few years that I have been 
here, that we ought to modernize our stockpiles in chemical 
weapons. No one has made that suggestion that I know of or 
offered legislation in that regard.
    So it seems as a country, in a bipartisan way, going back 
almost 25 years, more than 25 years, that we have taken a 
leadership position, both internationally and unilaterally, on 
the issue of chemical weapons; because we realize the dangers 
involved and associated with these weapons of mass destruction.
    The issue now comes down to whether or not this Nation, 
having authored, championed, and led this effort, whether or 
not we are going to be able to sit on the Executive Council 
which will set the rules of the road.
    We are acting in some way as if, if we don't ratify this, 
it does not happen. It does happen. If we don't ratify this, it 
does happen.
    The issue now becomes whether or not we are going to ratify 
in such a way that the interests of our country and the 
interests which we champion, that is, the abolition of chemical 
weapons and weapons of mass destruction, that we are going to 
be allowed to sit at the very table to decide the rules of the 
road to determine whether or not that is going to work, having 
unilaterally decided that we will take ourselves out of this 
game by the year 2004.
    I just wonder, briefly, if our three witnesses here might, 
in the context of the Biological Weapons Convention of the 
1970's, the general success of that, the decision in 1985 by 
the Reagan administration and Secretary Weinberger to 
unilaterally get out of this business by the year 2004--that 
was a Reagan administration decision--why it is not in the best 
interest of our country to move forward on this convention in 
light of the decisions we have already made.
    The Chairman. We will let you answer that on the next 
round.
    Senator Hagel.
    Senator Dodd. Thank you, Mr. Chairman.
    Senator Hagel. Mr. Chairman, thank you.
    I very much appreciate the opportunity to listen and learn 
this morning. Mr. Chairman, as you suggested, there are 15 new 
United States Senators. There are 3 new United States Senators 
on this panel.
    This is one United States Senator who needs to know more 
about what we are doing here, and I very much appreciate you 
and Senator Biden opening the process and giving us a chance to 
learn and listen.
    Just as in life where actions have consequences, treaties 
have consequences. We live with those consequences.
    I, as a supporter of a ballistic missile defense system, am 
somewhat struck that we are still captive to the 1972 ABM 
Treaty in the argument of some why we cannot go forward and 
construct a ballistic missile defense system.
    We are not here to talk about the ABM Treaty, but I am here 
to learn a little bit more about what this chemical treaty is 
about. Understanding, as the distinguished panel has brought 
out in rather poignant terms this morning in the questioning 
and the comments by my distinguished colleagues have added to 
this enlightenment, first, civilized conduct is not predicated 
on treaties and is not governed by treaties. Civilized conduct 
is not anchored by treaties or some esoteric academic kind of 
parchment.
    Civilized conduct is anchored by civilized people. One of 
the concerns I have with this treaty as it is written, not 
unlike what I have heard this morning--and I must say also what 
Secretary Weinberger has said, I do not know of anyone who is 
for chemical weapons or the use of them--and as someone who has 
understood a little bit about combat, as others on this 
committee know and some of the direct personal experiences 
articulated by our panel this morning show they understand a 
little bit about this business, is this; and I guess my 
question comes down to this: Should we have a chemical weapons 
treaty and if we should, what form should it take? I would be 
very interested in our three distinguished panelists, Mr. 
Chairman, answering that question. If not this treaty, should 
we have one? Whatever that answer is leads us obviously to the 
next question, which is what form, if you agree we should have 
a treaty, what form should that treaty take.
    Secretary Weinberger?
    Mr. Weinberger. I think we have to bear in mind the point 
that you made at the beginning, that you don't solve the 
problems of ethics or of use of these weapons by any attempt to 
impose civilized standards on uncivilized government. I don't 
think for a moment, in connection with the statements Senator 
Biden and Senator Dodd made, that it would make the slightest 
difference to Saddam Hussein whether it was legal or illegal 
for him to use poison gas. He did violate that treaty, the 
original agreement in Geneva, when he attacked the Kurds. I 
think any time it suits his interest, he would do so.
    Indeed, the old Soviet definition of truth is whatever 
serves the country. So you have to have in mind that kind of 
attitude.
    Against that background, there is no impropriety in setting 
standards. I think that you can make it clear that the use of 
poison gas is outlawed by public opinion around the world. You 
can get statements to that effect. But when you add to that the 
enormously intrusive processes which require us to share with 
some extremely potentially hostile countries defensive 
mechanisms that we may be, and I hope are, working on to 
improve our capability of defending against this type of 
warfare, then I think you are neglecting the best interests of 
the United States. That is one of the reasons why I think this 
treaty, this convention, should not be ratified.
    There are all kinds of ways of making international 
statements. But when you bind yourselves to the situation of 
preventing the country from having the kind of defensive 
capability it needs in a world like this, then I think you are 
not serving the best interests of the United States. That is 
one of the reasons I think this treaty goes far beyond 
attempting to set just international standards and speed 
limits, and all those other comforting terms, because at the 
same time it requires us to take actions that would weaken us 
very severely and, I think, increase the chances of chemical 
warfare being used by rogue nations who would be told very 
publicly that other nations had no retaliatory capability.
    Senator Hagel. Thank you.
    Secretary Rumsfeld.
    Mr. Rumsfeld. Just very briefly, I won't take much time. I 
see you are on the yellow already.
    First, obviously a great deal of the problem is with 
Articles X and XI.
    Second, the Executive Council is a problem. It is unlike 
the United Nations, where the United States at least has a 
veto. Here, in this instance, as I recall, Asia has 9 members, 
Africa has 9 or 10, Latin America has 7, Eastern Europe has 5, 
Western Europe has 10, and ``other'' is thrown in with Western 
Europe. We don't even have a guaranteed seat.
    So it would be a very different kind of mechanism, even 
different than the International Atomic Energy mechanism, as 
Secretary Schlesinger mentioned.
    So I think those two things stand out by way of problems.
    Senator Hagel. Thank you.
    The Chairman. Thank you.
    Senator Kerry.
    Dr. Schlesinger. Might I add just a little bit on that 
point, the last point that Mr. Rumsfeld mentioned?
    The fact is that, under the IAEA, the United States 
provides scrutiny of the budget in a way that this budget will 
not be scrutinized through the internal politics of the IAEA. 
Second, the Western nations have a blocking vote in the Board 
of Governors of the IAEA. It requires a two-thirds vote of the 
IAEA. To prevent intrusions in the United States requires a 
three-quarters adverse vote. And as Mr. Rumsfeld has just 
indicated, under the circumstances, the United States is not 
guaranteed a seat. It is described as ``other.''
    That is, I think, a clarification of the remarks by Senator 
Dodd with regard to our participation in the Executive Council. 
That may be a transitory device. It may be a permanent device. 
But there is no indication of it.
    Finally, there is a facilities agreement under the IAEA so 
that there is no hunting license to go around in the 10,000 
facilities in the United States that are subject to the 
requirements of this agreement.
    The Chairman. Now Senator Kerry.
    Senator Kerry. Thank you very much, Mr. Chairman.
    I have a number of questions, and I am sure I will not be 
able to get at them in the short time available. But let me 
begin, if I can.
    Gentlemen, I assume you don't believe that chemical weapons 
manufacturing or chemical weapons threats can be adequately 
monitored by U.S. technical means alone.
    Do you agree with that?
    Mr. Weinberger. That's correct. I agree with that. It 
cannot be.
    Senator Kerry. So you need some kind of protocol, some kind 
of mechanism for the process of adequately providing our 
intelligence community with a capacity to advise our leaders 
adequately.
    Mr. Weinberger. Senator, I see what you are getting at. But 
the fact of the matter is that the treaty that we are 
considering here does not have any kind of guarantees or any 
kind of verifiability that countries that say they are going to 
do one thing are going to do it.
    Just because it has a very intrusive mechanism which allows 
them to go all into these 10,000 or more companies in the 
United States or similar numbers in other countries of the 
world does not mean that there is any guarantee that any of the 
countries that are signatory to it are in effect going to be 
doing what they say they are going to be doing.
    Senator Kerry. By that same logic, there is no absolute 
guarantee for any treaties that we have signed. Isn't that 
accurate?
    Mr. Weinberger. That's one of the reasons I was always 
worried about relying exclusively on an arms control regime, as 
opposed to a military capability regime along with arms control 
for insuring our own security.
    Senator Kerry. If you follow that logic----
    Dr. Schlesinger. Mr. Chairman, could I say something 
without taking away from the Senator's time?
    Senator Kerry [continuing]. Can he do it without taking 
away from my time?
    The Chairman. Oh, certainly.
    Senator Kerry. That is a privilege. Thank you.
    Dr. Schlesinger. Senator, let me try and raise the 
fundamental question here, which is the loss of sources and 
methods.
    When David Kaye was in charge of the inspection in Iraq, he 
discovered to his chagrin that the Iraqis had been able to hide 
from Western intelligence their activities. Why--because the 
Iraqis themselves had been trained by the IAEA in the 
techniques used by Western, specifically American, 
intelligence.
    He had a conversation with an Iraqi official who simply 
stated we have gotten all of this information.
    Now the Executive Council of the Organization for the 
Prohibition of Chemical Weapons is engaged in training people 
from all nations at this juncture.
    What we are doing in the intelligence area is probably 
suffering a net loss. As the Senator indicates, we will have 
greater access and, therefore, we will have increased 
intelligence of one type. But our techniques for intrusion, our 
techniques for interpretation will be compromised.
    This is clearly the case in North Korea, in which the North 
Koreans have wisely discovered through our revelations that the 
IAEA's demand to see their waste dumps will compromise 
information on their production of plutonium.
    So the Senator's question is quite right with regard to 
improved intelligence, but it is offset by the compromise of 
sources and methods.
    Thank you, Senator.
    Senator Kerry. Mr. Chairman, if I could respond, I 
understand your argument, but I think the logic is lost here 
for a number of reasons.
    First of all, Iraq is not a party. So nothing will change 
with respect to Iraq. In fact, none of the rogue states about 
which we have the greatest fears are parties. Therefore, 
nothing with respect to our intelligence gathering or state of 
anxiety should change with respect to those states.
    On the other hand, because you have a regimen with respect 
to everybody else who is trafficking in or legitimately trading 
in the precursor chemicals, we will have a much greater 
ability, in fact, according to our own intelligence personnel, 
to determine the ability of those rogue states to, in fact, get 
a hold of those chemicals, or the ability to manufacture on 
their own.
    What do you say to that? It is interesting that Jim Woolsey 
said this will give the country an additional tool in the box. 
Our current CIA Acting Director, George Tenet, says it will. 
John Deutch said it will. The entire U.S. command structure, 
almost the entire U.S. command structure for the Persian Gulf, 
who faced the threat of chemical weapons, say that this will 
strengthen our hand.
    It is hard for me to understand why you find their 
perception of this as an increased tool and as an important 
protection wanting.
    Dr. Schlesinger. I think that is easily answered, Senator, 
and if I may respectfully suggest, you are on the wrong wicket 
in this regard.
    For a decade DCI's have come to this Senate, to the House, 
and stated that this treaty is unverifiable. Jim Woolsey came 
up and said this treaty is unverifiable. John Deutch, who has 
been cited by the administration as saying that it is 
verifiable has stated, ``I've never said it's verifiable. It's 
clearly unverifiable.'' And in the article with General 
Scowcroft, he indicated it was unverifiable.
    The nonsignatories, such as Syria and Libya, are likely to 
get a little assistance from signatories like Iran and Cuba. 
That will not be difficult to establish.
    Senator Kerry. Can I just interrupt you there on the point 
of verifiability?
    Dr. Schlesinger. Sure.
    Senator Kerry. First of all, no treaty is purely 
verifiable. No treaty.
    Second, none of them said that this treaty is not 
verifiable to some degree. They all said this is verifiable to 
a certain degree. We all understand that.
    The question before us is are we better off without any 
protocol which controls precursor chemicals, are we better off 
being totally outside of the regime that will be set up by the 
control as of the 29th of this month, and are we better off 
without all nations, Russia included, coming in to an agreement 
as to how we will try to track this. Are you better off in 
terms of verifiability?
    Are you better off in terms of verifiability without this? 
That is my question.
    Dr. Schlesinger. We have to look at the----
    Senator Kerry. No. Please answer my question.
    Are we better off without verifiability?
    The Chairman. Just a minute. The Chair is----
    Senator Kerry [continuing]. I'd just like to get my 
question answered, Mr. Chairman.
    The Chairman. Well, you can do it with a little more 
discretion than that.
    Now you are talking with a former Director of the Central 
Intelligence Agency. He should know what he is talking about. 
He deserves better than to be----
    Senator Kerry. Mr. Chairman, I'm not trying to do anything 
except----
    The Chairman [continuing]. Please, please.
    Dr. Schlesinger. Now you can answer the question, sir.
    Dr. Schlesinger. There will be gains in verifiability and 
losses in verifiability. The fact that our techniques will be 
undermined probably will exceed the gains in verifiability. 
Moreover, we are dealing not only with the verification of 
chemical weapons, we are dealing with the possible industrial 
espionage in the United States. And that industrial espionage 
is going to be a godsend--I repeat, a godsend--to foreign 
intelligence agencies and to the corporations which will feed 
on those foreign intelligence agencies.
    A recent book, ``War by Other Means,'' talks about economic 
espionage in the United States and how vulnerable we are to 
economic espionage. That must be included in the total 
assessment with regard to the performance of the intelligence 
community.
    Mr. Chairman, may I say that I worry deeply about the 
statement that was earlier made by Senator Biden that the 
intelligence community wants us to ratify the treaty. I heard 
that statement--and excuse me, Senator Kerry for drifting off 
your question--I heard that statement, and I am deeply 
concerned that the intelligence community should not be wanting 
a decision on any policy matter. The intelligence community is 
there to provide information, not to provide judgments on 
policy issues.
    I hope that that statement did not reflect either the 
DCI's, the Acting DCI's views or the views of the intelligence 
community.
    Mr. Weinberger. Mr. Chairman, I wonder if I might answer 
another of Senator Kerry's questions which is do you think we 
are better off by not signing this protocol. My answer is 
unequivocally yes, we are better off by not signing it because 
this particular protocol not only has all of the faults that we 
pointed out and is not verifiable, but it does require us, and 
we would carry out our obligations, I am confident, because we 
always have, it requires us to share both defensive and 
offensive technological developments that we should be working 
on to protect our troops.
    That I think is a very deep flaw. The Senator, I am sure 
inadvertently, omitted from the list of rogue nations that have 
not joined the fact that Iran has joined and Iraq has not.
    So you would be giving an enormous intelligence advantage 
and an enormous disclosure advantage to a country like Iran. 
When General Schwarzkopf was asked why he supported the treaty 
and if he understood that by supporting the treaty he was 
supporting the sharing of this kind of technical development 
with Iran, he said of course not. He was horrified.
    I think that is a fair description of what he felt when 
this was brought home to him.
    The Chairman. Senator Grams.
    Senator Kerry. Mr. Chairman.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman. I want to 
welcome our distinguished panel, and I appreciate your time 
here this morning.
    Some of these you might have already answered. I came in 
late, so I apologize. But I would just like to go over some of 
the basics on this.
    One basic argument, a major argument, that has been made by 
the supporters of the CWC is that, although it may be far from 
perfect, that it is better to have some treaty in force rather 
than none at all; in other words, sign on to be part of this 
board or Executive Council to enact what may be a troubled 
treaty.
    How would you respond to that assertion, that it is better 
to be a part of this treaty than none at all.
    Mr. Rumsfeld, may we start with you?
    Mr. Rumsfeld. I think that when one weighs the advantages 
and disadvantages, it is clear to me, at least, that the 
defects vastly outweigh the advantages of establishing a 
standard or a norm in this instance.
    Further, I think it is perfectly possible to achieve the 
advantages that would accrue from this agreement without having 
to be burdened with the disadvantages.
    Senator Grams. How would you do that, Mr. Rumsfeld?
    Mr. Rumsfeld. Well, one way, as I mentioned, is the 
question of Articles X and XI, which I think should not be in 
there. The way they are written they represent very serious 
problems. The second way I mentioned was the mechanism of 
enforcement. The so-called Executive Council I think is flawed 
and would offer the United States nowhere near the ability to 
affect decisions that we have in the United Nations or that we 
have in the IAEA.
    Senator Grams. Mr. Weinberger?
    Mr. Weinberger. Well, I think the argument that something 
is better than nothing depends upon something not being worse 
than what you have.
    We don't need to sign this treaty to assert our goodwill or 
to assert the fact that we are against chemical weapons. I said 
at the beginning that I have the greatest detestation for these 
weapons, and I am sure every soldier does. Anyone who took part 
in any kind of service understands what they mean and what they 
do.
    But we don't have to sign a flawed treaty to demonstrate to 
the world our rejection of these kinds of weapons. We have many 
times taken actions that indicate that we are opposed to them.
    So I would certainly agree completely with Don Rumsfeld 
that you do have great disadvantages and those disadvantages 
outweigh any possible good that can come from a generalized 
statement that we, too, dislike these weapons and we, too, are 
willing to have them abolished.
    Senator Grams. Mr. Schlesinger?
    Dr. Schlesinger. We have a treaty, we have an agreement, we 
have a convention, the Geneva Convention, which is already in 
force. So it is not a question that something is better than 
nothing because we already have something. That something 
prohibits the use of chemical weapons. It is easier to detect 
the use of chemical weapons than it will ever be to detect the 
manufacture of chemical weapons. Consequently, we are far 
better off not watering down the Geneva Convention in the way 
that this treaty threatens to.
    I note that in Article VII or, thereabouts, it says that no 
way does this current agreement weaken the requirements of the 
Geneva Convention. We should take a firm stand on the use of 
weapons, and we need to have the capacity to enforce it.
    If we look at what will happen after the signing of this 
agreement, if, for example, China signs--and I have been 
described as a friend of China. I don't see any reason for us 
to drift into confrontation with China. But I want to say that 
anybody who believes that the Chinese will give up their 
chemical weapons capability or that they will give up the 
capacity to manufacture must be suffering from hallucinations.
    If we are prepared to do anything about it, that would 
require a greater rigor in dealing with Chinese departures from 
agreed on arms control measures than we have exhibited to this 
point.
    Mr. Rumsfeld. May I add one comment or thought that comes 
to mind?
    Senator Grams. Sure.
    Mr. Rumsfeld. In view of both what you and Senator Kerry 
have asked and discussed, the implication that nothing will 
change with respect to Iraq goes back to my point on Articles X 
and XI. I think it will change, even with respect to Iraq, in 
this sense. Country's that don't sign will be there, and with 
the dramatically increased flow of information which Articles X 
and XI require, and transfer of technology, and availability of 
information, it will get around. There is no question but that 
the information, particularly with respect to the defensive 
side, will be available. It will get out into the marketplace.
    You cannot keep it in. If that many countries have access 
to it, it will not be secret from the rogue nations.
    Senator Grams. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Let me first take this opportunity to thank you and the 
ranking member, Senator Biden, for the leadership and the 
dedication you have demonstrated on this issue before us this 
morning. I also want to recognize the efforts of the White 
House Working Group and the Lott Task Force to clarify this 
issue. I know that these negotiations are taking a great deal 
of time and involve a tremendous amount of technical detail.
    I want to note that this committee, too, has spent a lot of 
time on this treaty. In the 104th Congress, the distinguished 
Chair held three extensive hearings. I was pleased to be able 
to participate in those hearings, which have given the members 
of this committee an opportunity to closely examine a number of 
issues pertaining to this treaty and the consequences of its 
ratification or of the failure to ratify it.
    We asked some tough and probing questions and I think 
received thoughtful responses from the administration and 
private witnesses who have come before us.
    Despite all of this hard, hard work, we find ourselves at 
the 11th hour without Senate debate on this treaty. Even though 
the United States had the key leadership role throughout 
negotiations over this treaty, and even though 70 countries 
have already ratified it, this institution has not yet had a 
chance to actually consider the ratification of CWC.
    I just would like to reiterate, in the couple of minutes I 
have, what has already been said here this morning. Time is of 
the essence for the full Senate to have this debate. We are all 
well aware of the looming deadline of April 29, exactly 3 weeks 
from today. That is the deadline by which the United States 
must deposit its instrument of ratification of this treaty so 
that we may be a full participant in the Organization for the 
Prohibition of Chemical Weapons, or OPCW, the governing body 
that will have the responsibility for deciding the terms for 
the implementation of CWC.
    In my view, the United States participation in the OPCW is 
fundamental to ensuring that American companies and American 
citizens are treated fairly under the inspection provisions of 
this treaty. It is precisely because some observers think that 
these provisions are faulty that Senate consideration is 
essential. Senators should have the opportunity to debate these 
concerns, and the American people certainly deserve a chance to 
hear them.
    As elected representatives with the constitutional 
responsibility to provide advice and consent to treaties signed 
by the President, I think we are obligated to give full 
consideration to the CWC. With the April 29 deadline looming 
ahead of us, I think we owe it to the people who elected us to 
fulfill that duty to do it in a timely fashion and to do it 
responsibly.
    This treaty was signed by President Bush in January 1993 
and was submitted to the Senate by President Clinton in 
November of that year. Almost 3\1/2\ years later, the Senate is 
now faced with a 3-week deadline. The Chemical Weapons 
Convention is the culmination of a decades-long effort to bring 
these weapons under international control and work toward their 
eventual elimination.
    While I think we would all concede and have said that the 
CWC remains imperfect, I still believe it is the best avenue 
available for beginning down the road to that eventual 
elimination.
    So, Mr. Chairman, I again commend the tremendous interest 
you have taken in this issue, but I hope we can vote on the 
treaty soon.
    Mr. Chairman, I just have a couple of questions for the 
panel.
    First, in your March 5 Washington Post op-ed, the three 
distinguished members of this panel indicated that if the 
United States decides to become a party at a later date to this 
convention, perhaps after improvements are made to enhance the 
treaty's effectiveness, it is hard to believe that its 
preferences regarding implementation arrangements would not be 
given considerable weight.
    I guess I would like to know what improvements you would 
make. If it is in the interest of the United States to make 
these improvements, how would you propose that the United 
States accomplish this if we are not a member of the OPCW?
    Mr. Weinberger. Well, I don't think that the possibility of 
our being disregarded exists, Senator. I think if we are 
expected to pay 25 percent of the costs of this treaty, which 
are very considerable, we are certainly going to be listened 
to.
    As far as changes are concerned, I tried to indicate this 
morning, in a too lengthy statement, perhaps, all of the things 
that I think are wrong with it. Certainly Articles X and XI 
would have to be changed in a major way so that we do not 
preclude ourselves from having the capability of defending 
against rogue states who either signed or didn't sign this 
convention.
    What we have done in those articles, in my opinion, gives 
them all of the opportunity to either weaken or basically 
eliminate any kind of improvements we would make in the 
protective clothing, the masks, the defensive capabilities 
against these terrible weapons. It does not prevent rogue 
states from using them, or from stockpiling them, or from 
manufacturing them.
    Senator Feingold. If I may follow up just for a second on 
that, in effect, then, you are saying that our financial 
leverage would be sufficient to allow us to change it?
    Mr. Weinberger. Oh, I would be extremely disappointed if it 
isn't, Senator. Yes. We have quite a lot of opportunity to 
observe that in a number of other organizations, and if we are 
expected to put up 25 percent--and I would suspect that within 
a couple of years it would be 35 percent--of the cost of this 
treaty, we would certainly, I would hope anybody who was 
President at that time or Secretary of State at that time would 
make it quite clear that we require for our contribution a very 
genuine decisionmaking role.
    Senator Feingold. Thank you, Mr. Secretary, and thank you, 
Mr. Chairman.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman and for holding 
the hearing. I am delighted to be here with these three 
gentlemen who I view as some of the key implementers of our 
strategy to win the cold war. You gentlemen were allegation 
three there and were a key part of that, to which our country 
and my children have an enduring debt to you for doing that.
    I thank you for it, for all you have done.
    I have a couple of questions. I am new to this committee 
and new to the Senate. So this is among the first hearings I 
have had on the Chemical Weapons Convention.
    Secretary Weinberger, Russia, of course, has not signed on 
to the treaty and yet is the world's largest chemical weapons 
possessor. Do you think we at a minimum should require that 
they sign on before we would consider signing on to this 
treaty?
    Mr. Weinberger. Senator, my understanding is that they have 
agreed, or ``signed on,'' so to speak, but they have not 
ratified it yet. Their record is extremely poor in this 
because, as you said, they have a very large stockpile of these 
weapons and they have already stepped out of--which is the kind 
and polite way to phrase it--the Bilateral Destruction 
Agreement, which was widely heralded as one of the great 
saviors of mankind when it was originally submitted. They have 
simply said it has outlived its usefulness.
    So that is a very unfortunate record to have before the 
world.
    They are widely reported to have said that they would only 
sign on if we agreed to pay the full costs of their destruction 
of their weapons. This is a large sum; and if it ever should 
happen, I would very much hope that we would have some ability 
to monitor and follow any money we gave them. We have already 
given them some sort of token or opening demonstration of our 
goodwill, and we don't know what that was used for. And we 
don't know what a lot of the economic aid is used for.
    So all of these are things that I think would certainly 
have to be at least far better understood than they are now. It 
would not bother me at all if Russia were required to have some 
kind of guarantee that they would take care of destruction of 
their own weapons and that we should not make our commitment to 
any kind of agreement to pay for that.
    Senator Brownback. Now as we have both noted, they have not 
ratified. Should we require their ratification before we would 
ratify?
    Mr. Weinberger. Well, it would certainly be a more 
comfortable feeling, but it certainly would not remove, in my 
mind, the objections to the faults and the flaws within the 
treaty itself.
    Senator Brownback. So, even really if they do ratify, you 
would still have the same sort of reservations you do now?
    Mr. Weinberger. As it stands now, yes, sir, I would.
    Senator Brownback. And that would depend upon further 
negotiations with the Russians and their destruction of the 
chemical weapons they have?
    Mr. Weinberger. I would just like to find out what the 
problem is with the Bilateral Destruction Agreement they 
signed. Why has it served its purpose? Why is it no longer 
useful for them to adhere to it?
    Senator Brownback. Secretary Rumsfeld, you had noted that 
the United States has the ability as a nation to stand alone, 
to pull something to be a much better document, a much better 
treaty, than what it is in your testimony. If we did stand out 
on this and we said we're not going to sign the CWC; because it 
is such a flawed agreement, how would we be able to, how do you 
think it would evolve that we would pull that on toward a 
better agreement? How would you see that evolving into the 
future to where it would be something that you would like to 
support?
    As all of you noted, and as all of us have noted, none of 
us wants chemical weapons in this world. We are all opposed to 
those. How would you see that evolve to where we could get a 
better agreement?
    Mr. Rumsfeld. I do think that the United States is among 
the very few countries in this world that do have the ability 
to not be subject to the kind of diplomatic momentum and to 
decide what they believe is right and then set about trying to 
fashion an arrangement whereby what's right can be achieved. If 
we can't, who in the world can do that?
    So the idea that we are going to lose our leadership I 
think is just not true.
    The way to approach it, it seems to me, would be to start 
with what is important and what is realistic. As these 
gentlemen and I have tried to do today, we have pointed out the 
things that are the problems. What one would do would be to try 
to avoid those.
    I must add a comment, however, about the Russians. The fact 
that recently there is information available suggesting that 
they have, using everyday commercial chemicals, developed the 
ability to develop chemical weapons suggests that they or 
anyone else would be able to shift facilities from making 
chemical weapons to making commercial chemicals in a very short 
period of time.
    We were talking about no treaty is verifiable. It is a lot 
easier to verify intercontinental ballistic missiles than it is 
chemicals, commercial chemicals, that can also be used for 
chemical weapons and things that can be made in very small 
spaces.
    So I think even though we have an enormously intrusive 
regime for policing it, as intrusive as it is, it would not be 
able to do the job.
    So I think that we have the cart before the horse in this 
process, and I would like to see us go back and do it right.
    Senator Brownback. Thank you, Mr. Chairman.
    Dr. Schlesinger. Mr. Chairman, you might want to put in the 
record the Reuters report on what the Russians are doing. It is 
interesting that the new development avoids any of the 
precursors that are listed under the existing treaty. So if one 
uses different precursor chemicals, one can avoid the 
restrictions of the treaty.
    The Chairman. Let's go to one more round. I don't want to 
keep you here all day, but this is a fascinating discussion. 
Let me reiterate at mid point that I certainly do appreciate 
your coming here today and cooperating with us.
    We will make this a 3-minute-per-Senator round.
    You said something early in your testimony, Mr. Secretary, 
about people being instructed not to say anything unfavorable 
about this treaty. Well, we have had the same thing in our 
committee among the staff, and I had one report saying that the 
FBI had specifically been instructed to say nothing unfavorable 
about this treaty.
    Now you have been Director of the CIA and I need your help. 
Whom would you recommend, past or present, that we subpoena to 
testify under oath regarding the CWC and the White House 
directions that we have had reported to us?
    Dr. Schlesinger. I will suggest a list to the staff, 
Senator.
    The Chairman. Pardon?
    Dr. Schlesinger. I will suggest a list to the staff----
    The Chairman. Very well.
    Dr. Schlesinger [continuing]. A list of suitable 
witnesses--whether or not the subject of subpoena is a decision 
for the committee and not by me.
    The Chairman. That will be fine, and I thank you.
    Now I think it has not been mentioned, except indirectly, 
about Jim Woolsey's testimony in June 1994, in which he said 
the chemical weapons problem ``is so difficult from an 
intelligence perspective that I cannot state that we have a 
high confidence in our ability to detect noncompliance, 
especially on a small scale.''
    Now, Secretary Rumsfeld, I have a letter from the Aerospace 
Industry Association stating strong concern that the CWC will, 
and I quote the letter, ``unnecessarily jeopardize our Nation's 
ability to protect its national security information and 
proprietary technological data.''
    Now this was fascinating to me because back in early 
January, I think it was, the B-2 was taken to North Carolina, 
to Seymore Johnson Air Force Base, and thousands of people came 
to see it. Everybody was proud of it and marveled at the 
enormity of it, and so forth.
    But then it occurred to me that chemicals are used in the 
manufacture of the B-2.
    Now let me ask you to step back and very quickly say what 
kinds of risks to our companies are posed by letting foreign 
inspectors poke around, interview employees, take photographs, 
and take samples for analysis overseas.
    Mr. Rumsfeld. Well, Mr. Chairman, I must say that I cannot 
answer it authoritatively, and I am struck by the dramatically 
different views on this particular issue by proponents and 
opponents.
    My personal view is anything I have read or seen in this 
document and these materials I cannot see how we could avoid 
allowing classified information to be made available to 
inspection teams.
    I have heard statements by Members of the Senate of: 
``Don't worry about that, that's not a problem.'' But I have 
not seen anything in the agreements that suggest to me that 
it's not a problem, because modern technology enables people to 
do an enormous amount of analysis some distance in time and 
space from where the materials were located and still come away 
with information that is exceedingly important, classified, and 
proprietary.
    I don't know how it would be avoided.
    The Chairman. Very well.
    Senator Biden.
    Dr. Schlesinger. Mr. Chairman, on that particular point, 
the Organization for the Prevention of Chemical Weapons will 
use as its principal tool the GC/MS, to wit, the gas 
chromatograph mass spectrometer. That is the tool that was used 
by the Livermore Laboratory to procure from outside the gates 
classified information at a missile facility, and that will be 
the tool of choice.
    The Chairman. Thank you.
    Joe.
    Senator Biden. Thank you very much, Mr. Chairman.
    Gentlemen, I apologize for having left for a few moments. I 
had to go to another meeting briefly.
    I understand this issue of defensive technologies made 
available to rogue states, states that are parties to the 
convention. I assume we are primarily talking about Iran. We 
could be talking about China, we could be talking about, in 
some people's minds, Russia.
    But paragraph 1 of Article X lists ``medical antidotes and 
treatments'' as a permissible form of defensive assistance.
    Now, again, as Secretary Rumsfeld just pointed out, it is 
amazing how an authoritative and informed people end up on both 
sides of the issue on the same point. So let me ask you this.
    Where do any of you find the requirement that a State 
Party, that is, a signatory to this convention, a ratifier, is 
required to provide anything more than that--medical antidotes 
and treatments?
    Mr. Weinberger. Do you want to look at the third paragraph, 
Senator, of Article X? Each State Party undertakes to 
facilitate and shall have the right to participate in the 
fullest possible exchange of equipment, material, scientific 
and technological information concerning means of protection 
against chemical weapons.
    Senator Biden. Has the right.
    Mr. Weinberger. Yes, the right.
    Senator Biden. So you believe that paragraph says that we 
are required to give them, any State, any technology that we 
have available?
    Mr. Weinberger. Senator, as was said in another connection, 
English is my mother tongue, and I can't read it any other way.
    Senator Biden. Now on Article XI, the chemical trade that 
the CWC would encourage is only that ``for purposes not 
prohibited under the convention.'' And the only prohibited 
trade restrictions are those ``incompatible with the 
obligations undertaken under this convention.''
    Now we don't say we have to undo our trade restrictions and 
neither do the other Australia Group members. So why do we 
accept Iran's interpretation of this article over that of our 
allies and the U.S.?
    Mr. Weinberger. Precisely because it is so fuzzy that you 
have all kinds of interpretations, and you will have a big set 
of arguments as to who is doing what. And any interpretation 
that we may claim can be denied very easily by all other 
countries that don't happen to agree with us or don't want to 
agree with us.
    You have, what you have set up here is an oral battleground 
for varying interpretations. It will allow enemies of the 
United States or potential enemies to make claims that, when we 
are in the position of denying them, will set us up as being 
violators of this treaty.
    Senator Biden. If I can, I would conclude by saying would a 
condition that would be binding, that a legal declaration we'd 
make to not provide rogue states with advanced chemical 
defenses--assurances--would that meet any of your concerns?
    Mr. Weinberger. Well, I would certainly like to see it 
written down, Senator. Yes.
    Senator Biden. OK, thank you.
    Dr. Schlesinger. Well, the provisional body, the 
provisional body states that we are obligated to provide these 
defensive technologies.
    There was an argument in a recent National Public Radio 
broadcast between the general counsel of ACDA and the head of 
the provisional body, Mr. Kenyan, a Brit. He stated and rebuked 
the proposition that the United States might be able to avoid 
providing this kind of technology, that it was required 
underneath the CWC.
    So I think that you have a clear legitimization. Even if 
we, for one reason or another, withhold such information, our 
industrial partners will proceed to provide this because of the 
legitimization provided by this agreement.
    As Senator Biden observed earlier, norms are important, and 
if you provide a norm which allows the Germans or others to 
provide information to Iran, they will accept that norm.
    The Chairman. Senator Hagel.
    Senator Hagel. Thank you, Mr. Chairman.
    Secretary Weinberger, you obviously were the Secretary of 
Defense during most of the Reagan administration. For the 
record, and for this Senator, much has been made of the fact 
that the CWC was initiated during the Reagan administration.
    Could you provide, at least me, somewhat of an analysis as 
to how it was initiated, why it was initiated, and today why 
most of the Reagan administration officials during that time 
are now opposed to it?
    Mr. Weinberger. Well, I cannot speak for anyone else, 
Senator, and I don't know what the historic origins of it were 
all the way back. But I think that everybody was appalled by 
the use by Iraq of poison gas against the Kurds, and there was 
an attempt to get some kind of international order to try to 
prevent that sort of thing.
    President Reagan is a very compassionate and humane man and 
obviously shared with the world the distaste and the 
detestation of these kinds of weapons.
    I would hesitate very much to say that he had an 
opportunity to see all of the provisions that emerged from the 
very lengthy negotiation. He certainly did not have that 
opportunity. He certainly did not know that four of the 
principal rogue nations of the world would stay outside the 
treaty and, therefore, not be banned from doing anything at all 
and that we would be put in the position of weakening any kind 
of retaliatory capability we might have.
    Those are conditions that changed since the initial 
praiseworthy, humanitarian effort to try to do something about 
the elimination of these weapons.
    As Secretary Schlesinger pointed out, we did that after 
World War I, the Geneva Conference. We did it later on, after 
President Reagan left office, with the Bilateral Destruction 
Agreement, which simply does not work out.
    There are all kinds of reasons why humane and compassionate 
people--and I like occasionally to classify myself in that same 
category--dislike these weapons and would like to do something 
about it.
    But the fact of the matter is that what we have done here 
is not only ineffective, but it is dangerous for the security 
of our troops, in my opinion.
    Dr. Schlesinger. I have two quick points, Senator.
    When George Shultz announced the quest for a chemical 
weapons agreement, he said that it would be a verifiable 
chemical weapons treaty. This is not verifiable.
    Second, the Reagan administration to the very end believed 
that the United States should retain a 500 aging ton level of 
binary chemical weapons and should not surrender that minimum 
capability until such time as other countries came into 
conformity. I think that the argument that this all originated 
with Ronald Reagan is not an accurate argument.
    George Bush was for this treaty, but Ronald Reagan would 
not be if he were able to comment on it.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Gentlemen, the first question I want to put to you is that 
the United States is now embarked on a path of unilaterally 
destroying our stockpile of chemical weapons. Do you think we 
should carry through on that?
    Mr. Weinberger. To the extent that Secretary Schlesinger 
indicated, with the reservation that was made during the Reagan 
administration that we should have a minimal deterrent 
capability and that other nations should know that we do have 
that, particu- 
larly rogue nations that are likely to or have indeed used 
chemical weapons.
    Senator Sarbanes. So you would keep some chemical weapons?
    Mr. Weinberger. I think you have to, Senator. Yes.
    Senator Sarbanes. And that's your position, I take it, 
Secretary Schlesinger?
    Dr. Schlesinger. No, sir. The existing stockpile is 
obsolete, and it is more dangerous.
    Mr. Weinberger. Excuse me. It's the binaries we're talking 
about now.
    Dr. Schlesinger. It's obsolete and dangerous, and I think 
we must get rid of it one way or another.
    Mr. Weinberger. The unitary weapons are indeed being 
replaced. It is the binary weapons that we were talking about 
under the Bilateral Destruction Agreement. But everyone said 
that we had to keep some kind of minimal retaliatory capability 
of the binary weapons.
    Senator Sarbanes. What is your position, Secretary 
Rumsfeld?
    Mr. Rumsfeld. I think that we need some to develop the 
defensive capabilities that are necessary, so that we know what 
we are doing.
    Senator Sarbanes. So you would all keep some chemical 
weapons.
    Now the next question I have is what is your position on 
whether the Senate should have an opportunity to vote on this 
treaty. I know how you would encourage members to vote as I 
understand your testimony. But what is your position on whether 
the Senate ought to be able to take this treaty up and consider 
it and vote on it.
    Dr. Schlesinger. The Senate should vote.
    Mr. Weinberger. Yes, certainly. I thought that's what this 
process was, that this was the beginning of the process that 
leads to a Senate vote.
    Senator Sarbanes. Well, it doesn't always lead to a Senate 
vote. No. The question I am putting to you is whether you think 
there should be a Senate vote.
    Mr. Weinberger. I have no problem with that at all.
    Senator Sarbanes. Secretary Rumsfeld?
    Mr. Rumsfeld. I have no problem with it.
    Senator Sarbanes. Now the other question I want to ask you 
is this. You have each raised a number of problems or concerns 
that you have with the treaty. I want to narrow it down and 
isolate it out.
    If the rogue nations do not sign the treaty, is that in and 
of itself, in your view, sufficient grounds not to approve the 
treaty?
    Mr. Weinberger. Speaking for myself, Senator, it would seem 
to me that if you have a ban on the nations that are basically 
in some form of general agreement with us with respect to 
democratic values and all the rest of it, and that they carry 
that out, and that the nations that do not, including 
specifically the rogue nations outside this treaty at the 
moment, you would be offering them an invitation to launch a 
chemical attack. This is because we would have, by a standard 
that we follow, we would carry out our agree- 
ment and we would denude ourselves of any capability of 
retaliating and that is one of the best ways of deterring.
    It is unfortunate that in this kind of world that has to be 
the case, but it is.
    Even the nations, some of the nations that are within the 
treaty, like Iran, you find that----
    Senator Sarbanes. I just want to try to focus this for the 
moment.
    Mr. Weinberger [continuing]. Yes, I understand what you are 
saying, Senator, but I would like to complete the answer. The 
answer basically is that the answer of rogue nations from those 
who sign would be a source of considerable concern.
    It is not the only source of concern because many nations 
which sign----
    Senator Sarbanes. I understand that.
    Mr. Weinberger [continuing]. Would not be able, would not 
keep their word, and we could not verify whether they are doing 
it or not.
    Senator Sarbanes. Is the absence of the rogue nations in 
your view of sufficient concern that you would be against the 
treaty?
    Mr. Weinberger. It is one of the reasons that leads me to 
oppose it, but there are many others.
    Senator Sarbanes. If the others were not present, would 
that in and of itself be enough that you would oppose it?
    Mr. Weinberger. If the others were what?
    Senator Sarbanes. If the other reasons that you have for 
opposing it were not present, were taken care of, would the 
absence of the rogue nations be enough for you to oppose it?
    Mr. Weinberger. Well, as you put the question, if all of 
the things I object to are not in the treaty, then almost by 
definition I wouldn't oppose it.
    Senator Sarbanes. No, no--the rogue nations are not in the 
treaty in the question I'm asking. That's all I'm--I'm just 
trying to determine how critical a factor that is in your 
thinking.
    Mr. Weinberger. Let me say that my opposition is based on a 
large number of reasons and one of them is the absence of the 
rogue nations from any provisions with respect to compliance.
    Senator Sarbanes. Secretary Schlesinger?
    Dr. Schlesinger. No, the absence of the rogue nations in 
and of itself would not lead me to oppose the treaty. I would 
regret that absence. But the other problems are much more 
serious in my view.
    Senator Sarbanes. Secretary Rumsfeld?
    Mr. Rumsfeld. I agree with Secretary Schlesinger.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman. I have 
just a quick, brief question.
    As you know, riot control agents, such as tear gas, have 
also been used by the U.S. military during search and rescue 
missions for downed pilots or to handle situations where 
noncombatants are mixed in with the combatants. My 
understanding is that the Clinton administration's current 
interpretation of the CWC is that it would ban such uses of 
riot control agents by the U.S. military.
    Mr. Weinberger, when the Reagan administration was 
negotiating the CWC, was it ever your understanding that the 
U.S. would have agreed to such a ban or that it was a desired 
result of this treaty at all?
    Mr. Weinberger. No. Those were always to be excluded 
because of their obvious importance and their obvious 
necessity. We understand that the commitment was made that they 
would be excluded from the treaty but that the Clinton 
administration changed its mind in its commitment and now says 
that they would be banned.
    There is now some very technical discussion of whether they 
would be banned in wartime or not; that it might be all right 
to use them in peacetime crowds, but not in wartime. I would 
like to use them to protect our soldiers in wartime or in 
peacetime.
    Senator Grams. Now if this is not a lethal chemical, does 
this give you any concern about the broad scope of agents that 
could be covered under this treaty, which would open the door 
for more inspections?
    Mr. Schlesinger?
    Dr. Schlesinger. I'm not sure I understood the question, 
sir.
    Senator Grams. I mean, if this is a nonlethal chemical and 
this is included, is there a concern that it would be so broad 
that all chemicals or any definition of a chemical could be 
part of the reasons for inspections or to come into plants in 
the U.S.?
    Mr. Rumsfeld. The very reason for an investigation suggests 
that there is a question. So ``investigation'' can run to 
organizations that don't have anything to do with lethal or 
nonlethal chemical weapons--because someone has to look. If 
there is an allegation, a charge, a question, they can go in 
and investigate. That is where you end up with the numbers of 
companies running into the thousands.
    Senator Grams. Mr. Schlesinger, this is the economic 
warfare that you had talked about earlier, possibly?
    Dr. Schlesinger. I'd like to clarify one thing.
    President Ford issued an Executive order which has existed 
and prescribed U.S. policy on riot control issues for the last 
20 years. That has been somewhat obscured now by pressures from 
our allies and equivocation within the administration.
    On the question that you put, indeed, inevitably questions 
will be raised about any chemicals under those circumstances.
    Senator Grams. Thank you.
    The Chairman. Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    If I could just say with respect to my last round of 
questioning, I want to make it very clear, and I think 
Secretary Schlesinger knows this, that he is a friend and a man 
for whom I have enormous respect. I would in no way try to do 
anything except work this light here, which is our perpetual 
enemy. We try to get answers rapidly and, unfortunately, 
sometimes we get witnesses here who are so good at answering 
only one question.
    Dr. Schlesinger. I fully understood, Senator, and I tried 
to protect your time. I was not successful.
    Senator Kerry. I thank you very much, Mr. Secretary.
    If I could just ask you, Secretary Weinberger, I was really 
struck by your statement about deterrence. Is it your position 
that you can only deter chemical weapons use with chemical 
weapons?
    Mr. Weinberger. No. I thought I was quite clear, Senator, 
that it is one of the ways of trying to do it. Arms control is 
another way, and there are probably many more. But it is 
essential, I think, that a country that has already used poison 
gas against some of its own people, as just occurred, it is 
only prudent I think for that country to know that if they 
launch a chemical attack on some other nation or the United 
States that they would be met with a comparable, not a 
proportionate, response in the terms of one of our departments, 
but a massive response and that they should know that. That is 
one of the means of deterring, though it is not the only means.
    Senator Kerry. Wouldn't you say that the Bush 
administration was, in fact, quite effective at making it clear 
to Iraq that the nuclear use was, in fact, available and, to 
the best of our knowledge, there is, as of now, no indication 
that that was not successful?
    Mr. Weinberger. Yes. That is my exact point, that we were 
able to do that. If we denuded ourselves of any capability of 
making that kind of response, I have no doubt that----
    Senator Kerry. But nobody here is talking about that. All 
we are talking about is continuing to pursue what a number of 
administrations have pursued, which is reducing our own 
manufacturing participation in chemical weapons.
    Mr. Weinberger [continuing]. That's fine. But I don't think 
at the same time we ought to take away our capabilities of 
developing new, improved, and better defensive technologies and 
equipment.
    Senator Kerry. Defensive, I agree. And the treaty agrees.
    Mr. Weinberger. No, the treaty doesn't.
    Senator Kerry. Well, the treaty says very clearly that we 
are allowed to defend.
    Mr. Weinberger. That's right, and we have to disclose them 
completely to any other signatory, and that disclosure in 
itself weakens them if it does not destroy their effectiveness.
    Senator Kerry. Well, in point of fact Article I, which you 
have not referred to, addresses the questions of whether or not 
you have to, under any circumstances, assist, encourage, or 
induce in any way anyone to engage in any activity that is 
prohibited by this treaty.
    Now all we are talking about under this treaty is chemical 
weapons. So, therefore, Article I, in fact, most people--see, 
there is that infernal bell, or light. It is hard to have a 
dialog here.
    Most people have argued it supersedes any other clause in 
here, because the basic intent of this treaty is to preclude 
the manufacture by anybody of chemical weapons in a way that 
could be used against another nation.
    Mr. Weinberger. That is the intent. There are nations 
outside it who may be manufacturing them, who may be 
stockpiling, and, in fact, are stockpiling them as we know now.
    What I am troubled by is the fact that if we develop a so-
called fool proof mask and protective clothing that still 
enables you to take the actions that soldiers have to take in 
defending themselves and their country, you are going to have 
to share that. By sharing it, you eliminate its effectiveness. 
There is a little process called reverse engineering whereby 
all of the processes which you have to produce that have to be 
given to other members, other signatories, and those signatory 
members, as Secretary Rumsfeld suggested, that kind of 
information, distributed on that kind of scale, one way or 
another is bound to get into the hands of potential enemies.
    Senator Kerry. Mr. Secretary, this is a very, very 
important point. In effect, what you are saying is that if you 
were to share it, you would have rendered even more ineffective 
the capacity to use chemical weapons, which is, in effect, the 
very purpose of this treaty.
    Mr. Weinberger. Well, that is not the way I would phrase 
it. No.
    Senator Kerry. Let me just finish my thought.
    Mr. Weinberger. We are talking about defensive equipment 
now.
    Senator Kerry. I understand. But if you can defend against 
something, it has no offensive capacity. If it has no offensive 
capacity, you have taken away its military value. That is 
precisely the purpose of this treaty.
    Mr. Weinberger. You are talking about absolutes, Senator, 
absolute capabilities and all the rest. But what I am talking 
about are improvements in an already imperfect defensive 
capability that we have now.
    Senator Kerry. But if I were a military leader----
    Mr. Weinberger. Sharing those improvements makes them 
relatively--at least we could phrase it this way if you would 
like--makes them relatively less effective than if we didn't 
share them.
    Senator Kerry [continuing]. I agree. But if I were a 
military leader, knowing that we had shared our ability to be 
able to have a foolproof mask, I am not going to use the 
chemical weapon. And if you don't use the chemical weapon 
because you know it is foolproof, you have done exactly what 
you have tried to do with this treaty, which is eliminate the 
potential for chemical weapons to be used.
    Mr. Weinberger. I'm sorry, but I don't follow you. I have 
great respect for you, but I don't follow that.
    Senator Kerry. Well, I don't think it is that hard to 
follow.
    Mr. Rumsfeld. May I respond?
    Senator Kerry. I think----
    The Chairman. Mr. Secretary Rumsfeld.
    Mr. Rumsfeld. I just think that the way you have cast it is 
not correct. First, there is the threat of the use of chemical 
weapons, which is a terror weapon. It affects people, behavior, 
and soldiers. Second is the reality that for every offense 
there is a defense and for every defense there is going to be 
an offense. There is always going to be an evolution in 
technology. So the idea of perfection does not exist in this 
business.
    But let's say that you had reasonably good defensive 
capability. Assume that on the part of the other side. You 
cannot function for long in a chemical environment. You could 
not function with that kind of equipment. The advantage clearly 
is in the hands of the aggressor.
    So I think you are on a track that, to me, does not make 
sense. In my view, sharing technology about how to defend 
against these weapons is not anything other than 
disadvantageous for the defender and advantageous for the 
aggressor.
    The Chairman. That is the last word.
    We have been here for 2 hours and 47 minutes. I have been 
on this committee for quite a while--otherwise I would not be 
sitting in this chair, and I do not recall a more significant 
hearing with more facts and figures being given than you 
gentlemen have provided.
    I want you to know, speaking for myself and I think for all 
of the Senators on this committee, I am enormously grateful for 
your having made the sacrifice to even be here, particularly 
Secretary Rumsfeld. You came quite a distance.
    But I do thank you on behalf of the Senate and the 
committee.
    As we close, let me point out once more, in case somebody 
has forgotten it, that last year this treaty was reported by 
this committee and scheduled for debate in the Senate. And it 
was not dropped by my request. It was dropped by the request of 
the administration, which did some head counting and realized 
they did not have the votes.
    Now I presume in saying that you think the Senate ought to 
vote on this treaty that you mean after the committee has 
performed under the rules and reported it to the Senate with a 
majority vote. Is that what you mean?
    Mr. Weinberger. Of course. Yes.
    Dr. Schlesinger. Yes, it is.
    Mr. Weinberger. As I said, Senator, I thought this was part 
of the process for the Senate.
    Mr. Rumsfeld. It's for this committee to decide that.
    Senator Biden. Mr. Chairman, if we were ready last year, 
why aren't we ready this year? Nothing has changed in the 
treaty.
    The Chairman. Well, I don't know about that. I thought you 
and I made some changes in it.
    Senator Biden. Oh, we know we did. But the point is we were 
ready before.
    Dr. Schlesinger. Well, there are two branches of 
government, Senator, at least.
    Senator Kerry. But only one does treaties.
    The Chairman. I'm at a disadvantage with hearing aids, so I 
had better get out of this one.
    There being no further business to come before the 
committee, we stand in recess.
    Thank you again, gentlemen.
    [Whereupon, at 12:49 p.m., the committee recessed, to 
reconvene at 3:30 p.m. the same day]


                      CHEMICAL WEAPONS CONVENTION

                              ----------                              


                  TUESDAY, APRIL 8, 1997--P.M. SESSION

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Lugar, Coverdell, Hagel, Smith, 
Grams, Brownback, Biden, Sarbanes, Robb, Feinstein, and 
Wellstone.
    The Chairman. The committee will come to order.
    Madam Secretary, I was delighted late yesterday to learn 
that you wanted to appear before this committee today to give 
the benefit of the administration's perspective on the treaty 
again. I think it is clearly a matter of public record that the 
entire Helms family admires you. I think they are going to 
score some points by having you up here this afternoon.
    Now, if Senator Biden will agree, this is the first time 
you have appeared as Secretary of State formally.
    Secretary Albright. That is true.
    The Chairman. And this being such an important issue, I 
know that the Senators will have questions either in writing or 
in person that they want to ask directly of you. I know, 
knowing you, that you will respond to these written questions, 
realizing the Senators have commitments to other places.
    I and the other members of the committee will forego our 
statements, unless Senator Biden wishes to make one.
    Senator Biden. I will be happy to place mine in the record, 
Mr. Chairman.
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Thank you, Mr. Chairman. I would like to thank Secretary Albright 
this afternoon for appearing on such very short notice and making time 
in her busy schedule to be with us this afternoon because she 
recognizes the central importance of this issue for our national 
security.
    I appreciate the opportunity to take a few minutes again to address 
perhaps the most important issue to come before the 105th Congress to 
date: The Chemical Weapons Convention.
    This afternoon we will hear more testimony about this treaty and 
what it does and does not do, but the core issue is very simple: This 
treaty outlaws poison gas weapons.
    The Chemical Weapons Convention would make it illegal under 
international and domestic laws for a country to use, develop, produce, 
transfer or stockpile chemical weapons.
    The Chemical Weapons Convention represents a significant step 
forward in our efforts to contend with the greatest immediate threat to 
our national security: The proliferation of weapons of mass 
destruction.
    The CWC will help protect our citizens from the use of poison gas 
weapons by terrorist groups. It will benefit our military by requiring 
other nations to follow our lead and destroy their chemical weapons. It 
will improve the ability of our intelligence agencies to monitor 
chemical weapons threats to our armed forces and our Nation.
    The convention has the strong support of the American chemical 
industry, which was centrally involved in the negotiation of the CWC. 
It also takes into account all of the protections afforded Americans 
under our Constitution.
    The CWC will make pariahs out of states that refuse to abide by its 
provisions. Through the sanctions required by the convention, it will 
make it more difficult for those pariah states to obtain the precursor 
chemicals they need to manufacture poison gas. It will create 
international pressure on these states to sign and ratify the CWC and 
to abide by its provisions.
    The CWC will create a standard for good international citizens to 
meet. It will brand as outlaws those countries that choose to remain 
outside this regime.
    The entry into force of the Chemical Weapons Convention will mark a 
major milestone in our efforts to enlist greater international support 
for the important american objective of containing and penalizing rogue 
states that seek to acquire or transfer weapons of mass destruction.
    we need to disregard arguments that are superfluous to the core 
reality of what this convention will accomplish: It outlaws poison gas, 
period. The United States is already committed to destroying its 
chemical weapon arsenal. By ratifying the CWC, we can hold other 
countries to the same standard we have set for ourselves.
    In this morning's testimony, we heard three very distinguished 
former Secretaries of Defense tesify on this treaty.
    Among the claims they made about the CWC are that it would force us 
to share our most advanced defensive technology with all states, 
including countries of concern, that have ratified this agreement. 
Another assertion they made is that it requires us to abandon all 
controls we have on the proliferation of sensitive technology through 
mechanisms like the australia group.
    In reviewing the treaty, we find both claims are false.
    With regard to sharing defensive technology, paragraph seven of 
article ten states that: ``Each state party undertakes to provide 
assistance through the organization and to this end to elect to take 
one or more of the following measures.'' Let me emphasize: ``Elect to 
take one or more.''
    Among the options, the option I expect the United States would 
choose, is that we could: ``Declare, not later than 180 days after this 
convention enters into force for [us], the kind of assistance we might 
provide in response to an appeal by the organization.''
    That's right: We would declare what we might provide.
    The Chairman and I are very close to agreement on a condition that 
would require the executive branch not to provide any assistance to a 
rogue state beyond medical antidotes and treatment. And that would be 
fully in keeping with article ten of the CWC.
    As for the argument that we would be forced to abandon our current 
mechanisms to control the proliferation of sensitive technology, the 
CWC explicitly allows us to keep these protections in place.
    Article eleven supports chemical trade and technology exchange 
``for purposes not prohibited under this convention.'' It also requires 
that trade restrictions not be ``incompatible with the obligations 
undertaken under this convention.''
    But the CWC is completely consistent with continued enforcement of 
the Australia Group controls, which member states use to keep chemical 
and biological weapons material out of the hands of rogue states. The 
executive branch has said this time and again, and so have our 
Australia Group allies.
    I am convinced that the CWC does not require us to share our most 
advanced defensive technology or to abandon existing controls on 
chemical weapons. I will be interested to hear how the officials in the 
administration today view these provisions.
    I understand that Secretary Albright must leave after her statement 
today, and I welcome the opportunity to hear her testimony and the 
statements and responses of all of our witnesses here today.

    The Chairman. And we will print any statement that you wish 
to make for the record, and that will give you an opportunity 
to summarize if you wish. In other words, you are a free agent 
and you are welcome. Madam Secretary, the stage is yours.

STATEMENT OF HON. MADELEINE KORBEL ALBRIGHT, SECRETARY OF STATE

    Secretary Albright. Thank you very much, Mr. Chairman. I am 
delighted to see you here, as I enjoyed our trip to North 
Carolina.
    The Chairman. We enjoyed it.
    Secretary Albright. I had a good time.
    Senator Biden and Senator Brownback, I am very glad that 
you were able to make time for me to testify on such short 
notice. I am also delighted to note the return of Admiral 
Nance, who just walked through the door. I wish him continued 
recovery, and I say that sincerely on behalf of the entire 
Department and not simply those whose names are scheduled to 
come up before you for confirmation.
    Mr. Chairman, the Chemical Weapons Convention, or CWC, is 
one of the President's top foreign policy priorities and, this 
afternoon, I would like to explain why. I begin with the 
imperative of American leadership. The United States is the 
only nation with the power and respect to forge a strong global 
consensus against the spread of weapons of mass destruction.
    In recent years, we have used our influence wisely to gain 
the removal of nuclear weapons from Ukraine, Belarus and 
Kazakstan. We have led in securing the extension of the Nuclear 
Nonproliferation Treaty. We have frozen North Korea's nuclear 
program. We have maintained sanctions against Iraq. We have 
joined with others in controlling the transfer of dangerous 
conventional arms. In these and other efforts, we have counted 
on the support and counsel of this committee and your Senate 
colleagues.
    American leadership on arms control is not something we do 
as a favor to others. Our goal is to make the world safer for 
Americans and to protect our allies and friends. We have now 
another opportunity to exercise leadership for those ends and, 
once again, we look to this committee for help.
    The CWC will enter into force on April 29th. For reasons I 
will discuss, we believe it is essential to ratify the 
agreement before then, so that America will be an original 
party. Chemical weapons are inhumane. They kill horribly, 
massively, and--once deployed--are no more controllable than 
the wind.
    We decided years ago to renounce the use of these weapons 
and to begin destroying our own chemical weapons stockpiles. 
Thus, the CWC will not deprive us of any military option we 
would ever use against others, but it would help ensure that 
others never use chemical weapons against us.
    In considering the value of this treaty, we must bear in 
mind that today, keeping and producing chemical weapons are 
legal. The gas Saddam Hussein used a decade ago to massacre 
Kurdish villagers was legally produced. In most countries, 
terrorists can buy chemical agents, such as sarin gas, legally. 
Countries such as Iran and Libya can buildup their stockpiles 
of chemical weapons legally.
    If we are ever to rid the world of these horrible weapons, 
we must begin by making not only their use, but also their 
development, production, acquisition, and stockpiling illegal. 
This is fun- 
damental. Making chemical weapons illegal is the purpose of the 
CWC.
    The CWC sets the standard that it is wrong for any nation 
to build or possess a chemical weapon and gives us strong and 
effective tools for enforcing that standard. This will not 
eliminate all danger, but it will make chemical weapons harder 
for terrorists or outlaw states to buy, build, or conceal.
    Under the treaty, parties must give up the chemical weapons 
they have and refrain from developing or acquiring them in the 
future. To enforce these requirements, a comprehensive 
inspection regime will be in place. The treaty will give us the 
tools we need to learn more about chemical weapons programs. It 
will also enable us to act on the information we obtain.
    In the future, countries known to possess chemical weapons 
and who have joined the CWC will be forced to choose between 
compliance and sanctions. Countries outside the CWC will be 
subject to trade restrictions whether or not they are known to 
possess chemical weapons.
    These penalties would not exist without the treaty. They 
will make it more costly for any nation to have chemical 
weapons and more difficult for rogue states or terrorists to 
acquire materials needed to produce them.
    Over time, I believe that if the United States joins the 
CWC, most other countries will, too.
    Mr. Chairman and members of the committee, the problem 
states will never accept a prohibition on chemical weapons if 
America stays out, keeps them company, and gives them cover. We 
will not have the standing to mobilize our allies to support 
strong action against violators if we ourselves have refused to 
join the treaty being violated.
    The core question here is, who do we want to set the 
standards? Critics suggest that the CWC is flawed, because we 
cannot assume early ratification and full compliance by the 
outlaw states. To me, that is like saying that because some 
people smuggle drugs, we should enact no law against drug 
smuggling. When it comes to the protection of Americans, the 
lowest common denominator is not good enough. Those who abide 
by the law, not those who break it, must establish the rules by 
which all should be judged.
    Moreover, if we fail to ratify the agreement by the end of 
April, we would forfeit our seat on the treaty's Executive 
Council for at least 1 year, thereby losing the right to help 
draft the rules by which the Convention will be enforced; we 
would lose the right to help administer and conduct 
inspections; and because of the trade restrictions imposed on 
nonmember states, our chemical manufacturers are concerned that 
they would risk serious economic loss.
    Eliminating chemical weapons has long been a bipartisan 
goal. The convention itself is the product of years of effort 
by leaders from both parties. The treaty has strong backing 
from our defense and military leaders.
    I am aware, Mr. Chairman, that the committee heard this 
morning from three former Secretaries of Defense who do not 
favor approval of this convention. Their arguments deserve 
consideration. I would point out, however, that other former 
Secretaries of Defense from both parties support the treaty, 
and that every former Chairman of the Joint Chiefs, going back 
to the Carter administration, has endorsed it.
    Just this past week, we received a letter signed by 17 
former four-star generals and admirals, including three of the 
former Chairmen of the Joint Chiefs and five former service 
chiefs.
    Let me quote from that letter:

    Each of us can point to decades of military experience in 
command positions. We have all trained and commanded troops to 
prepare for the wartime use of chemical weapons and for defense 
against them.

    The quote continues:

Our focus is not on the treaty's limitations, but instead on 
its many strengths. The CWC destroys stockpiles that could 
threaten our troops; it significantly improves our intelligence 
capabilities; and it creates new international sanctions to 
punish those states who remain outside the treaty. For these 
reasons, we strongly support the CWC.

    I also note, Mr. Chairman and members of the committee, 
that your witnesses this morning have not had the benefit of 
the dialog we have been conducting with Senators, including 
yourself, the Ranking Member and other members of this 
committee. We have attempted, in the course of this dialog, to 
address the major issues treaty opponents have raised.
    For example, some believe the CWC will require its members 
to exchange manufacturing technology that could then be used to 
make chemical agents. In fact, the CWC prohibits members from 
providing any assistance that would contribute to chemical 
weapons proliferation.
    There are those who suggest that if we were to ratify the 
CWC, America would then become complacent about the threat that 
chemical weapons pose. This, too, is false, and this body can 
help ensure that it remains false.
    The President has requested an increase of almost $225 
million over 6 years in our already robust program to equip and 
train our troops against chemical and biological attack.
    Some have expressed the view that the inspection 
requirements of the CWC could raise constitutional problems 
here in the United States. However, the CWC provides explicitly 
that inspections will be conducted according to each nation's 
constitutional process.
    Another fear is that the CWC could become a regulatory 
nightmare for small business. But after reviewing the facts, 
the National Federation of Independent Business concluded that 
its members ``will not be affected'' by the treaty.
    Finally, I have heard the argument that the Senate really 
need not act before April 29th. But, as I have said, there are 
real costs attached to any such delay. The treaty has already 
been before the Senate for more than 180 weeks. More than 1,500 
pages of testimony and reports have been provided and hundreds 
of questions have been answered. The Senate is always the 
arbiter of its own pace; but from where I sit, a decision prior 
to April 29 would be very welcome and, Mr. Chairman, I believe 
very much in the best interest of the United States.
    Mr. Chairman, America is the world's leader in building a 
future of greater security and safety for us and for all who 
share our commitment to democracy and peace. The path to that 
future is through the maintenance of American readiness and the 
expansion of the rule of law. We are the center around which 
international consensus forms. We are the builder of 
coalitions, the designer of safeguards, the leader in 
separating acceptable international behavior from that which 
cannot be tolerated.

    This leadership role for America may be viewed as a burden 
by some, but I think, to most of our citizens, it is a source 
of great pride. It is also a source of continuing strength, for 
our influence is essential to protect our interests, which are 
global and increasing. If we turn our backs on the CWC after so 
much effort by leaders from both parties, we will scar America 
with a grievous and self-inflicted wound. We will shed the 
cloak of leadership and leave it on the ground for others to 
pick it up.

    But if we heed the advice of wise diplomats such as James 
Baker and Brent Scowcroft, experienced military leaders such as 
Generals Powell, Mundy and Schwarzkopf, and thoughtful public 
officials such as former Senators Nunn, Boren and Kassebaum-
Baker, we will reinforce America's role in the world.

    By ratifying the CWC, we will assume the lead in shaping a 
new and effective legal regime. We will be in a position to 
challenge those who refuse to give up those poisonous weapons. 
We will provide an added measure of security for the men and 
women of our armed forces. We will protect American industry 
and American jobs. We will make our citizens safer than they 
would be in a world where chemical arms remain legal.

    This treaty is about other people's weapons, not our own. 
It reflects existing American practices and advances enduring 
American interests. It is right and smart for America. It 
deserves the Senate's support and it deserves that support now.

    Thank you very much, Mr. Chairman.

    [The prepared statement of Secretary Albright follows:]

              Prepared Statement of Madeleine K. Albright

    Mr. Chairman, members of the committee, I appreciate the 
opportunity to testify before you this afternoon. As evidenced by the 
bipartisan show of support at the White House last week, timely 
approval of the Chemical Weapons Convention, or CWC, is one of the 
President's top foreign policy priorities.

    This afternoon, with the help of my colleagues, I would like to 
explain why.

    I begin with the imperative of American leadership. The United 
States is the only nation with the power, influence, and respect to 
forge a strong global consensus against the spread of weapons of mass 
destruction. In recent years, we have used our position wisely to gain 
the removal of nuclear weapons from Ukraine, Belarus, and Kazakstan. We 
have led in securing the extension of the Nuclear Nonproliferation 
Treaty. We have frozen North Korea's nuclear program. We have 
maintained sanctions against Iraq. And we have joined forces with more 
than two dozen other major countries in controlling the transfer of 
dangerous conventional arms and sensitive dual-use goods and 
technologies.

    In these and other efforts, we have counted on the strong support 
and wise counsel of this committee and your Senate colleagues. Your 
consent to ratification of the START II Treaty made possible the 
agreement in Helsinki to seek further significant reductions in cold 
war nuclear arsenals. And the Nunn-Lugar program set the standard for 
forward-looking bipartisan action to promote nuclear security.

    American leadership on arms control is not something we do as a 
favor to others. Our goal is to make the world safer for Americans and 
to protect our allies and friends. We have now another opportunity to 
exercise leadership for those ends. And once again, we look to this 
committee for help.

    The CWC will enter into force on April 29. Our goal is to ratify 
the agreement before then so that America will be an original party. By 
so doing, as the President said last Friday, we ``can help to shield 
our soldiers from one of the battlefield's deadliest killers * * * and 
we can bolster our leadership in the fight against terrorism, and 
proliferation around the world.'' Chemical weapons are inhumane. They 
kill horribly, massively, and--once deployed--are no more controllable 
than the wind. That is why the United States decided--under a law 
signed by President Reagan in 1985--to destroy the vast majority of our 
chemical weapons stockpiles by the year 2004. Thus, the CWC will not 
deprive us of any military option we would ever use against others; but 
it would help ensure that others never use chemical weapons against us.

    In considering the value of this treaty, we must bear in mind that 
today, keeping and producing chemical weapons are legal. The gas Saddam 
Hussein used to massacre Kurdish villagers in 1988 was produced 
legally. In most countries, terrorists can produce or procure chemical 
agents, such as sarin gas, legally. Regimes such as Iran and Libya can 
buildup their stockpiles of chemical weapons legally.

    If we are ever to rid the world of these horrible weapons, we must 
begin by making not only their use, but also their development, 
production, acquisition, and stockpiling illegal. This is fundamental. 
This is especially important now when America's comparative military 
might is so great that an attack by unconventional means may hold for 
some potential adversaries their only perceived hope of success. And 
making chemical weapons illegal is the purpose of the CWC.

    The CWC sets the standard that it is wrong for any nation to build 
or possess a chemical weapon, and gives us strong and effective tools 
for enforcing that standard. This is not a magic wand. It will not 
eliminate all danger. It will not allow us to relax or cease to ensure 
the full preparedness of our armed forces against the threat of 
chemical weapons. What it will do is make chemical weapons harder for 
terrorists or outlaw states to buy, build or conceal.

    Under the treaty, parties will be required to give up the chemical 
weapons they have, and to refrain from developing, producing or 
acquiring such weapons in the future. To enforce these requirements, 
the most comprehensive and intense inspection regime ever negotiated 
will be put in place. Parties will also be obliged to enact and enforce 
laws to punish violators within their jurisdictions.

    Of course, no treaty is 100 percent verifiable, but this treaty 
provides us valuable tools for monitoring chemical weapons 
proliferation worldwide--a task we will have to do with or without the 
CWC.

    CWC inspections and monitoring will help us learn more about 
chemical weapons programs. It will also enable us to act on the 
information we obtain. In the future, countries known to possess 
chemical weapons, and who have joined the CWC, will be forced to choose 
between compliance and sanctions. And countries outside the CWC will be 
subject to trade restrictions whether or not they are known to possess 
chemical arms.

    These penalties would not exist without the treaty. They will make 
it more costly for any nation to have chemical weapons, and more 
difficult for rogue states or terrorists to acquire materials needed to 
produce them.

    Over time, I believe that--if the United States joins the CWC--most 
other countries will, too. Consider that there are now 185 members of 
the Nuclear Nonproliferation Treaty, and only five outside. Most 
nations play by the rules and want the respect and benefits the world 
bestows upon those who do.

    But the problem states will never accept a prohibition on chemical 
weapons if America stays out, keeps them company and gives them cover. 
We will not have the standing to mobilize our allies to support strong 
action against violators if we ourselves have refused to join the 
treaty being violated.

    The core question here is who do we want to set the standards? 
Critics suggest that the CWC is flawed because we cannot assume early 
ratification and full compliance by the outlaw states. To me, that is 
like saying that because some people smuggle drugs, we should enact no 
law against drug smuggling. When it comes to the protection of 
Americans, the lowest common denominator is not good enough. Those who 
abide by the law, not those who break it, must establish the rules by 
which all should be judged.

    Moreover, if we fail to ratify the agreement by the end of April:

  <bullet> We would forfeit our seat on the treaty's Executive Council 
        for at least 1 year, thereby costing us the chance to help 
        draft the rules by which the convention will be enforced;

  <bullet> We would not be able to participate in the critical first 
        sessions of the Organization for the Prohibition of Chemical 
        Weapons, which monitors compliance;

  <bullet> We would lose the right to help administer and conduct 
        inspections; and

  <bullet> Because of the trade restrictions imposed on nonmember 
        states, our chemical manufacturers are concerned that they 
        would risk serious economic loss.

    According to a letter signed by the CEOs of more than fifty 
chemical manufacturing companies, the American chemical industry's 
``status as the world's preferred supplier * * * may be jeopardized if 
* * * the Senate does not vote in favor of the CWC.''

    According to those executives ``we stand to lose hundreds of 
millions of dollars in overseas sales, putting at risk thousands of 
good-paying American jobs.''

    Eliminating chemical weapons has long been a bipartisan goal. The 
convention itself is the product of years of effort by leaders from 
both parties.

    And the treaty has strong backing from our defense and military 
leaders.

    I am aware, Mr. Chairman, that the committee heard this morning 
from three former Secretaries of Defense who do not favor approval of 
this convention. There is no question their arguments are sincerely 
held, and deserve consideration. I would point out, however, that other 
former Secretaries of Defense from both parties are on record in 
support of the treaty, and that every former chairman of the Joint 
Chiefs of Staff, going back to the Carter Administration, has endorsed 
it.

    Just this past week, we received a letter of support signed by 17 
former four star generals and admirals, including three of the former 
chairmen of the Joint Chiefs of Staff and five former service chiefs. 
In their words:

          Each of us can point to decades of military experience in 
        command positions. We have all trained and commanded troops to 
        prepare for the wartime use of chemical weapons and for 
        defenses against them. Our focus is not on the treaty's 
        limitations, but instead on its many strengths. The CWC 
        destroys stockpiles that could threaten our troops; it 
        significantly improves our intelligence capabilities; and it 
        creates new international sanctions to punish those states who 
        remain outside of the treaty. For these reasons, we strongly 
        support the CWC.

    I also note, Mr. Chairman, that the former officials who testified 
before the committee this morning have not had the benefit of the 
intensive dialog we have been conducting with Members of the Senate 
leadership, including yourself, the ranking Member, and other key 
members of this committee. We have attempted, in the course of this 
dialog, to address the major issues the opponents of the treaty have 
raised, and to provide appropriate assurances in binding conditions to 
accompany the resolution of ratification.

    For example, critics have asserted that the CWC obliges member 
states to exchange manufacturing technology that can be used to make 
chemical agents. This is untrue. The CWC prohibits members from 
providing any assistance that would contribute to chemical weapons 
proliferation.

    Nothing in the CWC requires any weakening of our export controls. 
Further, the United States will continue to work through the Australia 
Group to maintain and make more effective internationally agreed 
controls on chemical and biological weapons technology. And, as I have 
said, the CWC establishes tough restrictions on the transfer of 
precursor chemicals and other materials that might help a nation or 
terrorist group to acquire chemical weapons.

    Opponents also suggest that if we ratify the CWC, we will become 
complacent about the threat that chemical weapons pose. This, too, is 
false--and this body can help ensure it remains false. The President 
has requested an increase of almost $225 million over 5 years in our 
already robust program to equip and train our troops against chemical 
and biological attack. We are also proceeding with theater missile 
defense programs and intelligence efforts against the chemical threat.

    Some critics of the treaty have expressed the fear that its 
inspection requirements could raise constitutional problems here in the 
United States. However, the CWC provides explicitly that inspections 
will be conducted according to each nation's constitutional processes.

    Another issue that arose early in the debate was that the CWC could 
become a regulatory nightmare for small businesses here in the United 
States. But after reviewing the facts, the National Federation of 
Independent Business concluded that its members ``will not be 
affected'' by the treaty.

    Finally, I have heard the argument that the Senate really need not 
act before April 29. But as I have said, there are real costs attached 
to any such delay. The treaty has already been before the Senate for 
more than 180 weeks. More than 1,500 pages of testimony and reports 
have been provided, and hundreds of questions have been answered. The 
Senate is always the arbiter of its own pace. But from where I sit, a 
decision prior to April 29 would be very much in the best interests of 
the United States.

    Mr. Chairman, America is the world's leader in building a future of 
greater security and safety for us and for those who share our 
commitment to democracy and peace. The path to that future is through 
the maintenance of American readiness and the expansion of the rule of 
law. We are the center around which international consensus forms. We 
are the builder of coalitions, the designer of safeguards, the leader 
in separating acceptable international behavior from that which cannot 
be tolerated.

    This leadership role for America may be viewed as a burden by some, 
but I think to most of our citizens, it is a source of great pride. It 
is also a source of continuing strength, for our influence is essential 
to protect our interests, which are global and increasing. If we turn 
our backs on the CWC, after so much effort by leaders from both 
parties, we will scar America with a grievous and self inflicted wound. 
We will shed the cloak of leadership and leave it on the ground for 
others to pick up.

    But if we heed the advice of wise diplomats such as James Baker and 
Brent Scowcroft, experienced military leaders such as Generals Powell, 
Mundy, and Schwartzkopf, and thoughtful public officials such as former 
Senators Nunn, Boren, and Kassebaum-Baker, we will reinforce America's 
role in the world.

    By ratifying the CWC, we will assume the lead in shaping a new and 
effective legal regime. We will be in a position to challenge those who 
refuse to give up these poisonous weapons. We will provide an added 
measure of security for the men and women of our armed forces. We will 
protect American industry and American jobs. And we will make our 
citizens safer than they would be in a world where chemical arms remain 
legal.

    This treaty is about other people's weapons, not our own. It 
reflects existing American practices and advances enduring American 
interests. It is right and smart for America. It deserves the Senate's 
timely support.

    Thank you very much.


    The Chairman. Thank you, Madam Secretary.

    Let us see, we have nine, and you need to leave here by 
about 4:15 or 4:20?

    Secretary Albright. That is correct, sir.

    The Chairman. I think we will have to confine ourselves to 
about 3 minutes per Senator.

    Let me just say to you, as your well-advertised friend, 
that during the 103d Congress, both the Congress and the 
administration were controlled by the political party to which 
you belong and to which I once belonged. The CWC was submitted 
in November 1993 and it lay absolutely fallow for the entire 
remainder of the 103d Congress, with no action even hinted by 
the Senate.

    During the 104th Congress, with the Senate controlled by 
Republicans, we passed the treaty from this committee and were 
prepared to vote for it--or vote on it--on September 14, 1996. 
But, what do you know? On the very day that the vote was 
scheduled, the administration panicked and asked the Senate not 
to vote on the treaty. Now I read in the press that members of 
the administration are either openly stating or insinuating 
that some of us are to be blamed for blocking passage of the 
treaty.

    Now, that kind of thing will not do. I have said 
repeatedly, and I will say it to you again--and as we discussed 
when you were good enough to go to North Carolina--if some in 
the administration will stop stonewalling and let us look at 
some of the important changes that I think need to be made in 
this treaty, I think you might be surprised at the outcome. But 
as long as the administration stonewalls, I can stonewall, too.

    I am going to reserve the balance of my time. I think I 
have about a minute and a half remaining.

    Senator Biden.

    Senator Biden. Mr. Chairman, I will adopt your practice and 
yield to my colleague from California, since I get to speak to 
the Secretary all the time on this issue.

    Senator Feinstein. Thank you very much, Senator.

    Good afternoon, Madam Secretary. I very much appreciated 
your comments.

    Let me ask you a question that is somewhat speculative, but 
I hope you will answer it. I have been really very puzzled. I 
have read all of the analyses, all of the discussions that I 
could find between our Ranking Member and our Chairman over why 
this situation seems to have become so polarized. It is hard 
for me to understand it. I see the argument made on 
verification. It seems to me, though, that we are a step ahead 
whenever we make illegal the manufacture of some of these 
gasses.

    I think the important points you made in your speech were 
that the Iraqi gasses were legally made, and the degree to 
which nations will conform to an international concordat which 
simply states these are illegal and that the verification is 
based on the constitutional methodology of each country, that 
still we accomplish something. Have you been able to pinpoint 
more definitively any of the rationale for the opposition to 
this?

    Secretary Albright. Senator Feinstein, you ask, I think, a 
very important question. Because from the perspective of those 
of us who believe that this Chemical Weapons Convention is a 
tool for those countries, especially the United States, that 
have already given up the use of chemical weapons, to get 
insight and control over what is going on in other countries in 
chemical weapons programs, it seems mighty strange that we 
would want to deprive ourselves of what is clearly a very good 
method for checking up on what others are doing.

    I must say that as I have read testimony by the others or, 
frankly, have listened to my friend, the Chairman, who I think 
is a true patriotic American, there is something that makes one 
wonder what is the problem with this. I think that the issue 
comes down to the fact that we would all very much like to have 
perfect arms control treaties. That is, those that are 
completely and totally verifiable, that limit everybody else 
and leave us some options. This is not possible.

    This treaty does have certain issues raised about 
verification. But our estimation is that the treaty can verify 
and does verify problems where there can be a massive problem 
or a large military problem for the United States. Therefore, 
we can go through other parts, but I think that the reason that 
good Americans are concerned about this is that they want 
perfection, and what we have is a treaty that is excellent and 
very good and a useful tool for the United States.

    I would, with your permission, Mr. Chairman, like to enter 
into the record two letters that I have for you--one from the 
Secretary of Defense and one from the Chairman of the Joint 
Chiefs--that really, I believe, address in a very cogent and 
coherent way some of the questions that have been raised. If I 
might just take one more minute and deal with the verification 
issue--and this is in Secretary Cohen's letter. He says:



    Critics have argued that the CWC's verification regime is 
not good enough. While no verification regime is perfect, the 
CWC's comprehensive and extensive regime will improve our 
ability to monitor possible chemical weapons proliferation, 
which we must do with or without the CWC. As you know, the 
military use of any weapon typically requires significant 
testing, equipping, and training of forces. These activities 
would be more difficult to hide in the face of the CWC's 
comprehensive inspection regime that includes a broad-based 
data declaration and both routine and challenge inspection 
rights. Together with our unilateral intelligence efforts, this 
regime should enable us to more readily detect significant 
violations before they become a real problem for U.S. national 
security.



    So the point is the same--that it is impossible to have 
perfection. But with this convention, it is a huge step forward 
for America.

    [The material referred to by Secretary Albright follows:]



                                  The Secretary of Defense,
                                              Washington, DC 20501.

The Honorable Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC 20510.

    Dear Mr. Chairman,

    Thank you for the opportunity to provide the views of the 
Department of Defense on the Chemical Weapons Convention (CWC). I 
sincerely regret that my duties as Secretary of Defense have taken me 
out of the country and thereby, have precluded me from testifying 
before your Committee on this most important national security treaty.

    As you very well know, as we approach the next millennium, we face 
the prospect of regional aggressors and others seeking to use chemical 
weapons to achieve what they cannot achieve through conventional 
military means. Dealing with this threat requires a coherent, multi-
faceted national response involving: active and passive defenses 
against chemical weapons; strong unilateral and multilateral export 
controls to limit the spread of chemical weapons technology; improved 
intelligence collection and threat analysis; well-coordinated civil 
defense capabilities and an international standard barring the 
production and possession of chemical weapons. The CWC is a necessary 
component of this response. It strengthens our hand in achieving 
effective limits on the spread of technology that could be used against 
us, supports our intelligence and civil defense efforts, and holds 
others to the standard that Presidents Reagan and Bush and previous 
Congresses set for the United States.

    As I have stated before, the United States does not need chemical 
weapons to protect our security interests. Our robust military response 
capabilities and increasingly robust defensive capabilities provide an 
effective deterrent and allow us to inflict an effective, devastating 
and overwhelming response should we be attacked. We have a strong 
national security interest in seeing other nations eliminate their 
chemical weapons stockpiles and capabilities, since that elimination 
will reduce the risk that our troops will face chemical weapons on the 
battlefield.

    Critics of the CWC have made several assertions regarding the 
implications of the CWC for our national security that I urge you to 
reject.

    Chemical Defense: Critics suggest that if the United States 
ratifies the CWC, it will reduce our support for defensive measures. 
Nothing could be further from the truth. DOD not only maintains a 
robust program to equip and train our troops against chemical and 
biological attack, but I have asked Congress to increase our budget for 
chemical and biological defenses by almost $225 million over the next 
six years. Moreover, I place a high priority on our theater missile 
defense programs and intelligence efforts against the chemical threat

    U.S. Response Capability: Critics charge that the CWC, by 
constraining riot control agents, will reduce our options for 
responding to an attack against our troops, including our ability to 
rescue downed pilots. In fact, the Chemical Weapons Convention does not 
limit our options in the situations in which our troops are most likely 
to be engaged and pilots might be downed: peacetime military operations 
within an area of ongoing armed conflict in which the U.S. is not a 
party to the conflict (such as Somalia, Bosnia and Rwanda); consensual 
peacetime operations when the receiving state has authorized the use of 
force (including UN Chapter VI operations); and peacekeeping operations 
under the Chapter VII authority of the UN Security Council.

    In all such cases, the CWC's restrictions on the use of RCAs 
against combatants apply only when U.S. forces are engaged in a use of 
force of a scope, duration and intensity which would trigger the laws 
of war. These are situations in which other options normally would be 
used and for which I am accelerating the development and fielding of 
non-chemical, non-lethal alternatives that are consistent with the CWC.

    The CWC also does not limit our options in normal peacekeeping 
operations and other likely scenarios, such as law enforcement 
operations, humanitarian and disaster relief operations, 
counterterrorist and hostage rescue operations and noncombatant rescue 
operations outside of internal or international armed conflict.

    Chemical Weapons Proliferation: Some have argued that by ratifying 
the CWC, we would be contributing to chemical weapons proliferation. 
This is because they believe that the CWC would require us to provide 
to other member states our most advanced defensive equipment and 
manufacturing technologies, which some of these states would then use 
to build up clandestinely their chemical weapons capabilities. In fact. 
nothing in the CWC requires that we share our advanced chemical weapons 
defensive capabilities or chemical manufacturing technologies. Indeed, 
quite the opposite is true. The CWC prohibits any member from providing 
any assistance to anyone if that member believes that doing so would 
contribute to chemical weapons proliferation. Further, it establishes 
strict trade restrictions on precursor chemicals and requires that 
member states ensure that their internal regulations, which would 
include export controls, also are consistent with the object and 
purpose of the CWC. We will continue to work in the Australia Group to 
maintain effective internationally-agreed controls on chemical weapons-
usable elements and technology.

    Rogue States: While some critics argue that it is meaningless since 
only law-abiding nations will respect it, the reality is that the CWC 
will reduce the chemical weapons problem to a few notorious rogue 
states and impose trade restrictions that will curb their ability to 
obtain the materials to make chemical agents. This is clearly better 
than the status quo.

    Verification: Critics have argued that the CWC's verification 
regime is not good enough. While no verification regime is perfect, the 
CWC's comprehensive and extensive regime will improve our ability to 
monitor possible chemical weapons proliferation--which we must do with 
or without the CWC. As you know, the military use of any weapon 
typically requires significant testing, equipping and training of 
forces. These activities would be more difficult to hide in the face of 
the CWC's comprehensive inspection regime that includes a broad-based 
data declaration and both routine and challenge inspection rights. 
Together with our unilateral intelligence efforts, this regime should 
enable us to more readily detect significant violations before they 
become a real problem for U.S. national security.

    U.S. Industry: Some critics have claimed that the CWC will impose 
costly burdens on U.S. industry that could potentially erode our 
technological edge and, by eroding our edge, affect our national 
security. The reality is that the American chemical companies most 
affected by the CWC view its requirements as reasonable and manageable. 
Small chemical businesses who were initially troubled by critics' 
claims now also agree that abiding by the CWC will be manageable. The 
reality also is that, if the United States fails to ratify the CWC, it 
will be U.S. industry that is penalized with trade restrictions that 
industry estimates could cost hundreds of millions of dollars.

    Mr. Chairman, in the 1980s, I led the Congressional fight to build 
binary chemical weapons to deter Soviet chemical use in Europe. With 
the end of the Cold War, the world has changed. Regional aggressors can 
be deterred by our vow to respond with overwhelming and devastating 
force to a chemical attack. Our military commanders agree that 
threatening a chemical weapons response is not necessary and they 
support the CWC.

    The safety of our troops and the security of our nation will be 
strengthened by the CWC. But, the clock is ticking. So that we can reap 
the full security benefits of the CWC, it is imperative that the 
Congress act on this national security treaty before the treaty goes 
into force on April 29. If we ratify in time, the U.S. will have a seat 
at the table during the first critical days of implementation of the 
CWC and be assured that American citizens will be able to ensure the 
fullest and most rigorous compliance with this treaty. I urge your 
Committee to report the Chemical Weapons Convention out favorably to 
the Senate and the Senate to act now to ratify the Convention before it 
enters into force on April 29.

            Sincerely,

                                           William S. Cohen



cc:

    Joseph R. Biden, Jr.,

    Ranking Member

                     Chairman of the Joint Chiefs of Staff,
                                       Washington, DC 20510-3301,  
                                                      8 April 1997.
The Honorable Jesse Helms
Chairman, Foreign Relations Committee,
United States Senate,
Washington, D.C. 20510-3301
    Dear Mr. Chairman,
    Thank you for the opportunity to provide you, and through you to 
the United States Senate, my military appraisal of the Chemical Weapons 
Convention.
    Let me state that the accession to the Chemical Weapons Convention 
by as many nations as possible is in the best interest of the Armed 
Forces of the United States. The combination of the nonproliferation 
and disarmament aspects of the Convention greatly reduces the 
likelihood that US Forces may encounter chemical weapons in a regional 
conflict. The protection of the young men and women in our forces, 
should they have to go in harm's way in the future, is strengthened not 
diminished, by the CWC.
    The United States has unilaterally commenced the destruction of its 
chemical weapons stockpile--under the CWC, all other chemical weapons 
capable State Parties incur this same obligation. While no verification 
regime is perfect, the Convention's regime allows for intrusive 
inspections while protecting national security concerns. The CWC 
enjoins the world community to forego these heinous weapons, implements 
a regime of enforcement, and impairs the ability of those outside the 
Convention to obtain the materials to make chemical agents.
    The Joint Chiefs of Staff and the Combatant Commanders are 
steadfast in support for a strong chemical defense posture. We will 
maintain a robust chemical defensive capability supported by aggressive 
intelligence collection efforts, but will not rely solely an these 
measures. As Secretary Perry testified in March 1996, if any country 
was foolish enough to use chemical against the United States, the 
response will be overwhelming and devastating. We do not need chemical 
weapons to provide an effective deterrent or to deliver an effective 
response.
    It is important to emphasize that the CWC permits the use of riot 
control agents under most scenarios that the United States will likely 
face during future operations. If US Forces are deployed during 
peacetime to intercede in an internal or international armed conflict, 
such as under a UN mandate, the CWC will not affect our use of RCAs 
unless US or UN Forces become engaged in a use of force of a scope, 
duration, and intensity that would trigger the laws of war with respect 
to these forces. Until that time, the United States is not restricted 
by the CWC in its RCA use options, including against combatants who are 
parties to the conflict.
    If we are a party to an international armed conflict, the CWC 
prohibits the use of RCAs only in specific situations where combatants 
are present. In these particular situations, options other than RCA 
exist. As one example, non-lethal alternatives that are consistent with 
the CWC could be employed. The CWC permits RCA use in riot control 
situations under direct and distinct US military control, such as 
controlling rioting prisoners of war, and in rear echelon areas outside 
the zone of immediate combat to protect convoys from civilian 
disturbances, terrorists, and paramilitary organizations. The ability 
of our forces to defend themselves will not be reduced by the Chemical 
Weapons Convention. Nothing will override our commanders' inherent 
authority and obligation to use all legal means available and to take 
all appropriate action, including the use of lethal force, in self 
defense of their units and personnel.
    In my military judgment, we are better served as an original member 
of the Convention. I strongly support this Convention and respectfully 
request the Senate's advice and consent.
            Sincerely,
                                     John M. Shalikashvili,
                             Chairman of the Joint Chiefs of Staff.

Copy to:
    The Honorable Joseph R. Biden, Jr.
    Ranking Member

    The Honorable Strom Thurmond,
    Chairman, Senate Armed Services Committee

    The Honorable Carl Levin,
    Ranking Member, Senate Armed Services Committee

    Senator Feinstein. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lugar.
    Senator Lugar. Madam Secretary, two of the strong points of 
the convention are that our own intelligence will be enhanced--
namely, we know a lot about chemical weapons, or believe we do 
now; but, given the network of inspections and a network of 
finding out about the shipment of chemicals and their 
precursors, we will have a better lead as to who is active and 
where the materials are going.
    The question that arises, and I suppose arose this morning, 
is: Is there value to us in terms of having international law 
behind us; that is, a norm in which clearly the production of 
chemical weapons is illegal in the world? I just ask you from 
your standpoint of your previous work in the United Nations, 
dealing with other nations. If the charge is made that we might 
let our guard down, would not be active, is it not your 
experience that in fact, if we have international law going for 
us, plus an international set of inspections and intelligence 
collection, we are more likely not only to act, but to act 
effectively, and maybe even, in some cases, unilaterally?
    Specifically, if Libya had a situation that we felt was 
undesirable, we could now, I presume, send aircraft there and 
demolish the facilities before they knew what we were doing? 
Are we more likely, however, as a Nation, to do that if we have 
international law going for us, plus the intelligence apparatus 
of all other nations going for us likewise?
    Secretary Albright. Senator Lugar, I believe that we gain 
greatly by having, first of all, the added intelligence 
capability that comes from having an international regime and, 
second, the force of being part of an international regime. 
Though it is not exactly the same situation, I would say that 
we have multiplied our own effectiveness through something like 
the IAEA--the way to inspect and have safeguards on nuclear 
weapons, by having a regime that puts the force of the entire 
international community behind an inspection or behind a 
determination to take action and provide international 
sanctions.
    So this is a force multiplier for us, the country that no 
longer plans to use chemical weapons ourselves and knows that 
others still have them.
    Senator Lugar. Thank you.
    The Chairman. Senator Biden.
    Senator Biden. Madam Secretary, it seems to me--and I will 
not take the time, in part, because I do not have the time--
that everything that the critics say is wrong with this treaty 
is worse without the treaty, beginning with verification and I 
think, literally, every major criticism.
    Let me ask you a question. This is a strange-sounding 
question, I guess. But let us assume we either bring this 
treaty up--hopefully, we will have an opportunity to do that by 
April 29th and vote on it--we bring it up and it is defeated or 
we do not bring it up. What do you say? I mean what happens? 
Describe to us what happens when you attend the next meeting of 
your counterparts, where the Secretaries of State, your 
counterparts in France and Germany and Great Britain, et 
cetera--I mean our allies, our friends, the Australia Group--
not all of whom are European, obviously--what happens at that 
meeting?
    I am not being facetious when I ask the question; I am 
being serious.
    Secretary Albright. I would hope very much that I would 
never have to be in that position; because I truly do think 
that it would be not just a major embarrassment for the leading 
country in the world to be in a position of having decided not 
to become a part of what is now a hugely ratified convention, 
but I think it would also hurt us, Senator, in other ways. 
Because we see ourselves as the leaders of creating 
international norms and regimes.
    I think I have said to some of you that I believe that 
there are four groups of countries in the world, and the 
largest one are those countries of which we are the leader, 
that are basically those countries that abide by international 
norms, that provide--because they establish a better way of 
life for our citizens--rules of the road. It would lessen our 
credibility not only in this obviously important regime but 
across the board if we decide, for some reason, not to become a 
part of what is clearly a step forward in limiting weapons of 
mass destruction.
    I think it would hurt our credibility across the board, and 
not just on this issue, Senator Biden.
    Senator Biden. My time is up. Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    The Chairman. Senator Coverdell.
    Senator Coverdell. Madam Secretary, I know that there have 
been extensive discussions about conditions between the 
administration, the Chairman, and others. Could you 
characterize your assessment of the progress, your general 
feeling at this hour, as we are embedded in the debate? Is 
there an optimism on your part with regard to this process? 
Have we gone as far as we can and we are down to our 
differences? Do you characterize it as still being a viable 
process that might move to an agreement?
    Secretary Albright. Senator Coverdell, first of all, I 
think that there has been a great deal of goodwill as the 
process has gone forward and through a variety of meetings. 
There has been, I think, considerable movement on dealing with 
a variety of questions that obviously are legitimate, given our 
process of government and the importance of having you all, as 
the representatives of the people, understand more about how 
this treaty is being carried out.
    I do think that I am optimistic, because that is my nature. 
I do think that while there are still a number of points on 
which we disagree, that we are moving forward in a good way. 
What I do think is absolutely important is for the time to come 
for the Senate to vote. There have been, as I have stated--13 
hearings that have been held before this one was, 1,500 pages 
of testimony, lots of back-and-forth, in terms of trying to 
exchange information. I think that if we cannot agree on some 
of the differences within informal groupings, that there must 
be some way that we can vote--you all can vote--on the 
differences that still exist.
    I cannot stress enough the importance of having the vote 
before the time expires to be an original party. I think we are 
definitely cutting off our nose to spite our face if we do not 
ratify before that deadline. Our request to all of you is to 
vote.
    Senator Coverdell. If I have just a second, just as a 
matter for clarification and not necessarily related to the 
overall aspect of our position in the world, but has Israel 
signed this treaty, do you know?
    Secretary Albright. Israel has signed, but not ratified.
    Senator Coverdell. But not ratified?
    Secretary Albright. Right.
    The Chairman. The Senator from Minnesota.
    Senator Wellstone. Thank you, Mr. Chairman.
    Madam Secretary, thank you.
    I guess, in the limited amount of time that we have, almost 
more than asking the question, I just would like to amplify or 
build on a point you made about the importance of our hoping to 
have an agreement and moving this forward and having a vote. I 
am on the Veterans' Affairs Committee, and General Schwarzkopf, 
when he testified before our committee dealing with the illness 
of the Gulf veterans, was really poignant in also expressing 
his support for this agreement. Just to quote from not just 
General Schwarzkopf, but any number of other military leaders:
    ``On its own, the CWC cannot guarantee complete security 
against chemical weapons.'' I think that was your point. You 
did not come here to argue it is perfect. We must continue to 
support robust defense capabilities and remain willing to 
respond through the CWC or by unilateral action to violators of 
the convention. Our focus is not on the treaty's limitations 
but, instead, on its many strengths. The CWC destroys 
stockpiles that could threaten our troops, it significantly 
improves our intelligence capabilities, and it creates new 
international sanctions to punish those states who remain 
outside the treaty. For these reasons, we strongly support the 
CWC.
    I hope, Mr. Chairman, that we will be able to have an 
agreement and bring this to the floor. I do believe we owe it 
to people in the country to have an up or down vote, and I hope 
it will be a favorable vote.
    Secretary Albright. I must say that I was very impressed 
with the testimony that General Schwarzkopf gave earlier, in 
which he basically said that, by our not ratifying, we put 
ourself on the side of Iraq and Libya and on a different side 
from our allies.
    I think, when Senator Biden said, how would I feel in 
meetings, I would find it mighty strange to be on the same side 
of the table as Iraq and Libya.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Madam Secretary, always nice to see you.
    Secretary Albright. Thank you.
    Senator Hagel. Since I last saw you, I know you have become 
much more enlightened in many areas. You have played baseball. 
You have gone to North Carolina.
    Secretary Albright. That is true.
    Senator Hagel. I know we can expect even greater things 
from you now.
    Senator Hagel. Madam Secretary, picking up on the Iraq, 
Libya, North Korea, Syria issues, those are the real threats. 
Those countries are the real threats. I do not believe the 
threats of chemical warfare to our troops or civilized nations' 
troops are within the signatory countries of the CWC. So my 
question is: How do we get to the real threat, those countries 
that we fear most, who we either suspect or know now possess 
chemical weapons and are not afraid to use them?
    Secretary Albright. Senator, I think that it is exactly 
because of our concern over the rogue states that we have to 
try to use the tools that the international regime puts before 
us. I think that what happens here is, first of all, that it 
becomes even more clear that the rogue states are isolated 
politically and that they are subject to trade sanctions that 
put pressure on their economies and limit their ability to 
obtain the ingredients for chemical weapons.
    If, for instance, there is also a concern, I think, by some 
that they will sign in a cynical way, well, if they sign up and 
then try to cheat, the rogue states will be subject to the 
CWC's unprecedented verification measures, and they will 
probably get caught. When they are caught, they will be subject 
to international pressure and other CWC sanctions. I think that 
by not putting ourselves in a position of being one of the 
original ratifiers of CWC, we weaken the convention itself, and 
then weaken our own ability and deprive ourselves of this force 
multiplier to try to get at the rogue states.
    This is the single best tool we have to try to get a handle 
on the Iraqs and Libyas, because this will provide an eye into 
their system.
    Senator Hagel. Thank you.
    The Chairman. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Madam Secretary, thank you for coming. There is an old 
saying in politics that to get a vote, you have got to ask for 
a vote. I appreciate your being here, because no one from the 
administration has ever asked for my vote on this. I have had 
many people from the other side asking me for my vote on this.
    Senator Biden. Ask him, will you, now, quick. Ask him.
    Secretary Albright. Give me a minute. I was going to do it 
with drama.
    Senator Smith. And all I have heard is from the other side. 
So my question, which has already been asked somewhat before, 
is: Is this the best we can do? And Senator Helms' comments 
earlier, which were that there are three points he wants to 
work out. Is it too late to work anything else out in this 
treaty?
    Secretary Albright. Well, first of all, let me say 
officially, openly, publicly, I am asking you for your vote.
    Senator Smith. Thank you.
    Secretary Albright. And let me also say that there are some 
areas, I think, that the Chairman has concern about that I 
think we can still work on. I think there are some where we may 
not be able to work something out. You all will have to vote on 
that.
    Senator Smith. And would that be done in the OPCW 
decisionmaking process, which means the April 29 deadline and 
U.S. participation in the process are important? Is that where 
we address questions like nonlethal chemicals that our police 
may need for riot control and things of that nature?
    Secretary Albright. Well, let us talk specifically about 
the riot control issue. I think that difference, if I may be so 
bold, is based on a misunderstanding about what the treaty 
provides in terms of riot control. If I might just take a 
minute while asking you for your vote to explain fully what 
happens to the riot control agents.
    The CWC does not limit our ability to use RCA's, riot 
control agents, in the situations in which U.S. troops are most 
likely to be involved. I think there is a concern that we are 
robbing ourselves of a tool. What I am going to tell you is how 
we are not doing that.
    The CWC does not limit our options in such likely scenarios 
as law enforcement operations, humanitarian and disaster relief 
operations, counter-terrorist and hostage rescue operations, 
and noncombatant rescue operations outside of armed conflict. 
The CWC also does not limit RCA use under normal peacekeeping 
operations. That includes peacetime operations within an area 
of ongoing conflict, to which the U.S. is not a party, such as 
Somalia, Bosnia or Rwanda, or in consensual peacetime 
operations, when the receiving State has authorized the use of 
force--that is including Chapter 6 operations under the U.N. 
peacekeeping operations under Chapter 7.
    So the CWC restrictions on riot control agents apply only 
when combatants are present and U.S. forces are engaged in the 
use of force of a scope, duration, and intensity that would 
trigger the laws of war.
    Now, the reason I read this to you in such detail is that I 
think this is an example of where we may have a 
misunderstanding of fact and as one of the areas where there 
are still discussions, which we believe could be dealt with. In 
the letter that I introduced into the record, written by 
General Shalikashvili, I think more of this is addressed.
    So I am hoping, in the intervening days we have here, that 
we can address in a factual way some of the problems that still 
exist.
    Senator Smith. Thank you. I hope that we can do that. My 
time is up. We are discharging our constitutional 
responsibility to vote on this treaty. One of my concerns you 
answered earlier in your testimony, which was that we are not 
in fact voting for something that is unconstitutional or 
violates the constitutional rights of Americans.
    Finally, I hope at some point here you can address an 
implication that Secretary Schlesinger made that some in the 
FBI are being muzzled right now, not to speak unfavorably about 
this treaty. I wonder, at some point, if you could comment on 
that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman.
    Madam Secretary, a pleasure to see you.
    Just to kind of clarify the last question that Senator 
Smith asked, dealing with riot control chemicals. On February 
2nd, an article in a column by John Deutch, who served as 
Director of Central Intelligence and Deputy Secretary of 
Defense for President Clinton, wrote the following. He said:

    We should reject interpretations of the CWC that prohibit 
the use of tear gas or other nonlethal chemicals so that we do 
not put ourselves in the bizarre position of having no choice 
but to rely on guns and bullets when we face situations like 
driving off noncombatants who might be threatening a downed 
pilot.

    Now, do you agree with that statement? And do you believe 
that is what the CWC is stating clearly?
    Secretary Albright. I think that the CWC does not prohibit 
it. As I said, the restrictions apply only when combatants are 
present and U.S. forces are engaged in the use of force of the 
scope, duration and intensity that would trigger the laws of 
war. I think we would have to see what the situation is. But, 
basically, it is possible for us to use various new kinds of 
chemical agents in order to rescue hostages and to deal with 
isolated issues. We always have a third choice in a war, which 
is to use nonlethal weapons. We are not left only with the 
possibility of using chemical weapons or riot control agents.
    Senator Grams. So, generally then, you would agree with the 
statement that Mr. Deutch made?
    Secretary Albright. Well, I would have to see it within its 
overall context, but I generally agree with the statements that 
he made.
    Senator Grams. And just one other quick question dealing 
with Russia. The recent record on arms control agreements has 
been less than impressive for Russia. It has not implemented 
the Bilateral Destruction Agreement on chemical weapons which 
it signed with the United States several years ago. There have 
been reports that Russia has developed a chemical weapons 
program specifically designed to evade the CWC.
    In addition, Russia has not even ratified the START II 
Treaty on nuclear weapons, which I and many other Senators 
strongly support. So does the administration believe that 
Russia should agree to fully implement the Bilateral 
Destruction Agreement before the U.S. would join the CWC?
    Secretary Albright. Senator, let me just take a little 
minute here to explain something. We just finished our meetings 
in Helsinki with the Russians. We went there with the idea of 
issuing a number of joint communiques. One which had not been 
part of our original intention, because we were dealing with 
Russia--NATO and with START and other issues--but the Russians 
came to us and we then issued a joint U.S.-Russian statement on 
chemical weapons. It was basically done because of President 
Yeltsin's and Foreign Minister Primakov's interest in making 
clear that they wanted to go forward in order to expedite 
ratification.
    So the second paragraph says: The Presidents reaffirm their 
intention to take the steps necessary to expedite ratification 
in each of the two countries.
    President Clinton expressed his determination that the U.S. 
be a party. Then President Yeltsin noted that the convention 
had been submitted to the Duma with his strong recommendation 
for prompt ratification--I am not reading it all. The 
Presidents noted that cooperation between the two countries in 
the prohibition of chemical weapons has enabled both countries 
to enhance openness regarding their military chemical potential 
and to gain experience with procedures and measures for 
verifying compliance with the Chemical Weapons Convention, et 
cetera.
    So I would say that there is a major push on behalf of 
President Yeltsin, who is going to use this document to make 
sure that they go forward with ratification of the CWC also.
    Senator Grams. How much cost will there be to the U.S. For 
the Russian program to destroy its chemical weapons?
    Secretary Albright. I will have to get that for you for the 
record.
    [The information referred to was unavailable at the time of 
printing.]
    Senator Grams. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    I think I first ought to give you the opportunity--because 
the question was simply left hanging out there by one of my 
colleagues--that people within the administration were being 
muzzled with respect to commenting on this treaty. I think the 
specific reference was to the FBI. Could you address that?
    Secretary Albright. Senator, I am completely unaware that 
something like that would be taking place. I have heard nothing 
like that. I have no reason to believe that that is true--
absolutely none.
    Senator Sarbanes. Well, now, the Joint Chiefs are in favor 
of this treaty, are they not?
    Secretary Albright. They are, sir.
    Senator Sarbanes. And I think they have been very clear in 
indicating, not just the chairman, but all the other members of 
the Joint Chiefs, as well, is that correct?
    Secretary Albright. That is correct. Then, earlier, there 
was a letter submitted, or a statement, by 17 other former 
generals and former chairmen of the Joint Chiefs and other 
generals very much in favor of the Chemical Weapons Convention.
    Senator Sarbanes. I do not quite understand--and I 
addressed some questions this morning directed toward it--this 
notion that unless the rogue states sign up, the rest of the 
world should not approve and ratify this treaty and the United 
States ought not to be part of it. Do you understand that 
argument?
    Secretary Albright. I do not, sir, because my own feeling 
is that it is as if we had been provided with a brand-new 
mechanism for looking inside potential violator societies to 
find out what they are doing. We are eschewing that tool mainly 
because the rogues, or those who are not part of the system, do 
not want to sign it.
    As I said in my statement, it is like saying that you are 
not going to have laws against drug smuggling just because all 
the drug smugglers have not signed up to it. What you do is you 
try to develop the best possible regime, and not allow the 
lowest common denominator to determine what the will of the 
international community and the majority of nation-states would 
like to have happen.
    Senator Sarbanes. Would not the convention in fact make it 
possible to put into place a more rigorous regime against the 
rogue states than is possible under the current situation?
    Secretary Albright. Absolutely. What it does is provide a 
system for intrusive inspections into their societies, and then 
a system for also having more stringent sanctions against them, 
with the force of having international law and the 
international community behind them. So, by deciding not to 
take action until they do, I think we are cutting off our nose 
to spite our face.
    The Chairman. Madam Secretary, we are within 2 or 3 minutes 
of fulfilling what I hope was a commitment. Before you leave, 
let me suggest that you mention to the administration that it 
would clear up the whole thing if a statement were issued in 
the name of the President or the administration, saying that 
nobody in the FBI nor anybody else employed by the Federal 
Government must not speak disapprovingly of the treaty. Now, 
that will clear it up.
    Now, there is one other thing. The Chemical Manufacturers' 
Association was claiming that $600 million in sales would be 
lost if this treaty is not ratified. We discussed that when you 
were here. They have since cut that number down by more than 
half, and even their new figures are highly suspect. It was 
said here this morning that the Chemical Manufacturers' 
Association does not represent the small manufacturers--only a 
few big ones.
    During your confirmation hearing, you may recall that I 
asked that you supply the committee with a detailed list of 
chemicals that would be affected if the United States were not 
to ratify the CWC. You told me then, in good faith I am sure, 
that such a list would be forthcoming. It has not come. I 
certainly understand why. Would you tell your people to get 
that list to us?
    Secretary Albright. Yes, absolutely.
    The Chairman. I know you have another meeting. I thank you 
for coming to see us. Do you have further comments to make? I 
see notes being passed around. I figured there is one more 
thing they want you to say.
    Secretary Albright. Yes. Apparently the list has been sent 
to you this morning in response to that question.
    The Chairman. This morning. Very well.
    Secretary Albright. So the check is in the mail.
    The Chairman. If there be no further business to come 
before the committee----
    Senator Biden. Mr. Chairman, I do not have any further 
business for the Secretary. I want to just publicly thank you. 
I was a bit of a pain in the neck in attempting to see you and 
ask you to accommodate.
    I guess I was a pain in the neck to Secretary Albright, as 
well, to come up here this afternoon. I thought it was 
important.
    With regard to tomorrow's hearing, Mr. Chairman. I realize 
that the committee has a rule that I am just learning. Back in 
the good old days, when my team was in charge and I was 
Chairman of the Judiciary Committee, we used to have a one-to-
one rule. That is, the minority and majority could have the 
same number of witnesses. I have learned subsequently that is 
not the rule here.
    The Chairman. It never has been.
    Senator Biden. I understand that. But yesterday we were 
going to have--I wanted to have Mr. Scowcroft and Mr. Deutch. 
Mr. Deutch had to go out of town. I said to my staff--there was 
a bit of a misunderstanding--that Scowcroft could come 
tomorrow, along with General Rowny and Admiral Zumwalt. I am 
now told by my staff that they may not be able to appear 
tomorrow because of a rule.
    I would like you to consider accommodating a rookie ranking 
minority member here and allow them, since I have asked them to 
change their schedules, so that I do not find myself--this is 
probably the only thing I have ever agreed with General Rowny 
on and Admiral Zumwalt.
    And I do not want to completely ruin my credibility with 
them. So I would like to publicly ask you to consider allowing 
an exception to the rule. I will give up two future draft 
choices at a later date if you would consider allowing me to 
have them tomorrow, notwithstanding the committee tradition of 
a 2- or 3-to-1 majority. So I am going to publicly ask you if 
you would consider that. I am not asking for an answer now. If 
the answer is no, do not give it to me now.
    If it is yes, I would take it now.
    The Chairman. Well, as Mr. English back in my home town of 
Monroe used to say, I will study about it.
    Senator Biden. All right. Good.
    The Chairman. There being no further business to come 
before the committee, we stand in recess.
    [Whereupon, at 4:23 p.m., the committee adjourned to 
reconvene at 2:11 p.m., April 9, 1997.]


                      CHEMICAL WEAPONS CONVENTION

                              ----------                              


                        WEDNESDAY, APRIL 9, 1997

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:11 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Smith, Frist, Biden, Kerry, 
Robb, Feinstein, and Wellstone.
    The Chairman. The committee will come to order.
    We have been delaying a little bit, because one of the four 
witnesses on the first panel has just arrived. We are delighted 
to see you.
    Well, I say to my distinguished colleagues, Mr. Robb and 
Mr. Biden, that today marks the third in this particular round 
of hearings on the Chemical Weapons Convention. This morning's 
first panel of witnesses will include the Hon. Jeane 
Kirkpatrick, known to all of us, former Ambassador to the 
United Nations; the Hon. Richard Perle, former Assistant 
Secretary of Defense; the Hon. Fred Ikle, former Director of 
the Arms Control and Disarmament Agency; and Doug Feith, former 
Deputy Assistant Secretary of Defense. Former goes before each 
one of those titles.
    There will be a second panel of witnesses in support of the 
Convention.
    We appreciate your appearing here this afternoon as the 
committee undertakes further consideration of the CWC. All four 
of you are distinguished leaders, whose impressive expertise 
makes your insight crucial to the Senate's consideration of 
this matter, which involves, as we all know, the future 
security of the United States. The Senate will benefit greatly 
from your assessment and guidance regarding the wisdom of 
ratifying the treaty in its present form--and I would 
underscore those words.
    Now, I will say we have had many, many compliments by 
telephone, fax and otherwise regarding the testimony of three 
former Secretaries of Defense who were here in person, and one 
of whom read a letter of opposition to the treaty written by 
the previous Secretary of Defense. We look forward to your 
testimony. You are joined in your opposition by a fourth 
Secretary of Defense, Richard Cheney, and more than 50 
generals, admirals and top officials from previous 
administrations.
    I think this ought to be sort of a wake-up call to the 
administration, because the American people, despite efforts to 
the contrary by some in the news media, the American people are 
increasingly aware of the defects in this treaty. Now, I am not 
going to proceed further with my statement, in the interest of 
hearing our witnesses, but I will defer to the distinguished 
Ranking Member.
    If Senator Robb has any comments, since I did not know you 
were here yesterday, we would be glad to hear from you as well.
    Senator Biden. Mr. Chairman, thank you very much. Let me 
begin by publicly thanking you for allowing the second panel. 
We have a number--seven very distinguished Americans here. I 
think they probably find--they are probably in the position, 
not for the first time, but not as frequently as we are, of 
finding themselves on opposite sides of things they are usually 
in total agreement with their friends on and vice-versa. I mean 
we are accustomed to that. That is part of our stock in trade.
    I appreciate you allowing former National Security Advisor 
Brent Scowcroft--a former general, as well--General Rowny, and 
Admiral Zumwalt to be here. I realize the rule is basically 3-
to-1, but you were kind enough to us yesterday to allow that. I 
appreciate it.
    I want to take just a few minutes to address a few concerns 
that we raised in yesterday's hearing and that have gone 
unanswered. The reason I bother to do it I am not sure, because 
so much has been going on in terms of the non-public side of 
this process and in terms of negotiations; I am not suggesting 
that any of the things we have tentatively agreed on among 
ourselves on this side of the bench and with the administration 
and Senator Lott and others, that they will satisfy any of the 
witnesses, but there is no reason they would know they existed. 
I will just take just a few minutes--probably about 9 I hope.
    My impression is that one of the reasons you suggested that 
we have an additional set of hearings was that we have a number 
of new Members--a very bright, informed group of people, who 
have taken their jobs on this committee very seriously--and 
that they did not have an opportunity to participate in 
previous hearings. My impression is that these new Members 
truly want to learn about the treaty and base their decision on 
the facts. I hope that these hearings are giving them an 
opportunity to be acquainted with them.
    This afternoon, we are going to hear testimony about the 
treaty and what it does and does not do. But I used to practice 
law with a fellow who was one of the best trial lawyers in the 
State of Delaware, a guy named Sid Bialek. He always used to 
say when he would teach young lawyers like me how to address a 
jury, he would say, when you start off with a jury, tell them: 
Now, jury, keep your eye on the ball. This is not about whether 
or not my client is a nice guy. It is whether he killed Cock 
Robin. Keep your eye on the ball.
    Well, I think one of the things we have to keep our eye on, 
I say to my colleagues--obviously, not to the witnesses--is 
that this is a treaty that outlaws poison gas. It outlaws 
chemical weapons. At least that is its intent. I guess that is 
the essence of the debate here--whether or not it adequately 
does that.
    Entry into force of the Chemical Weapons Convention will 
mark a major milestone in our effort to enlist greater 
international support for an important American objective of 
containing and penalizing rogue states that seek to acquire or 
transfer weapons of mass destruction. I want to make it clear, 
based on yesterday's panel, the first one--and it was a 
distinguished panel--several said, including one former 
Secretary of Defense, that they were accused of being for 
chemical weapons and for the use of these.
    I just want you to know, I know no one who supports the 
treaty in the Senate who suggests anyone who opposes the treaty 
is someone who is for the active use of chemical weapons. So I 
want to make that clear at the outset. I never heard anybody 
say that, and I am sure the former Secretary would not have 
said it unless someone had mentioned it to him. But no one on 
this committee that I am aware of who is for the treaty thinks 
that.
    Among the claims, though, that were made yesterday about 
the CWC is that it would force us to share our most advanced 
defensive technology with all states, including countries of 
concern that have ratified the agreement. Iran comes to mind 
immediately.
    Another assertion is that it requires us to abandon all 
controls we have on the proliferation of sensitive technology 
through mechanisms like the Australia Group. As I reviewed the 
treaty, I became a little concerned about this initially. With 
regard to sharing the defensive technologies, some general 
provisions appeared to back up their claim. But, on close 
inspection, I believe it reveals that the critics are wrong.
    First, the provisions in Article X, Paragraph 3, are 
deliberately vague. The obligation on a party is to facilitate 
the fullest possible exchange of equipment and information. 
When read in light of the overriding imperative of Article I, 
to not assist any party from engaging in activities prohibited 
by CWC, it seems clear to me and the lawyers that I have 
consulted that we will not be obliged to provide assistance to 
rogue states under this provision.
    Now, just to make sure that I was reading this correctly, I 
asked for some clarification. I spoke to somebody who obviously 
would want to clarify it the way I read it, so take it for what 
it is worth. But the National Security Advisor, Sandy Berger, 
today sent me a letter. In that letter, he states that any 
exchange of equipment and technology under Paragraph 3 of 
Article X, ``is limited to that which we determine would be 
appropriate and permitted under the convention.'' In addition, 
Paragraph 7 of Article X requires no assistance, ``other than 
medical supplies, if we so choose''--if we so choose.
    I ask that this letter from Mr. Berger be inserted in the 
record, Mr. Chairman, so that my colleagues can at least 
understand the position that I hold and that I believe that 
pertains.
    The Chairman. Without objection.
    Senator Biden. Thank you very much.
    [The information referred to follows:]

                                           The White House,
                                     Washington, DC, April 9, 1997.
Hon. Joseph R. Biden, Jr.,
U.S. Senate, Washington, D.C. 20510.
    Dear Senator Biden. In recent days, concerns have been raised about 
the impact of the Chemical Weapons Convention on the ability of rogue 
states to acquire advanced U.S. Chemical defense or chemical 
manufacturing technology. I would like to take this opportunity to set 
the record straight on these matters.
    Specifically, concern has been expressed about Paragraph 3 of 
Article X of the CWC, which states that ``Each Party undertakes to 
facilitate and shall have the right to participate in the fullest 
possible exchange of equipment, material and scientific and 
technological information concerning means of protection against chemi- 

cal weapons.'' The inclusion of the words ``facilitate'' and 
``possible'' underscores that no specific exchange is required and that 
any exchange which does occur is limited to that which we determine 
would be appropriate and permitted under the Convention. Moreover, 
nothing in Paragraph 7 of Article X, which concerns possible responses 
to requests for assistance, requires us to provide anything other than 
medical supplies, if we so choose.
    Concern has also been expressed about whether Article XI of the 
CWC, which relates to cooperation in the field of chemical activities 
for purposes not prohibited under the treaty, might force our chemical 
industry to share dual-use technologies and manufacturing secrets with 
other nations. Let me assure you that Article XI does not require 
private businesses to release such proprietary or otherwise 
confidential business information, nor does it require the U.S. 
Government to force private businesses to undertake such activities. 
Let me further assure you that the export controls that we and other 
Australia Group members have undertaken, as well as our own national 
export controls, are fully consistent with the CWC and serve to further 
its implementation.
    I hope this information facilitates Senate consideration of the 
CWC. I look forward to continuing to work with you and other CWC 
supporters to ensure a successful vote on this vital treaty in the days 
ahead.
            Sincerely,
                                          Samuel R. Berger,
          Assistant to the President for National Security Affairs.

    Senator Biden. At this point, Mr. Chairman, you and I have 
come close to agreement on a condition that would require the 
executive branch to ensure that countries of concern receive no 
assistance from us beyond medical antidotes and treatment, and 
that we would be fully informed and it would be fully in 
keeping with Article X of the CWC.
    As for the argument that we would be forced to abandon our 
current mechanisms to control the proliferation of sensitive 
technology, the CWC explicitly allows us to keep these 
protections in place. Article 7 supports chemical trade and 
technology exchange ``for purposes not prohibited under this 
convention.'' It also requires that trade restrictions not be, 
quote, incompatible with the obligations undertaken in this 
convention.
    But the CWC is completely consistent with the continued 
enforcement of the Australia Group controls, which member 
states use to keep chemical and biological weapons materiel out 
of the hands of rogue states. The executive branch has said 
this time and again, and so have our friends and allies in the 
Australia Group. That helps explain why 26 of the 29 members of 
the Australia Group have ratified this treaty--everyone except 
Iceland, Luxembourg and the United States.
    Last October, at the most recent meeting of the Australia 
Group, the 29 countries reaffirmed their intention to maintain 
common export controls, while joining the treaty convention. In 
a statement issued at the meeting, the Australia Group said, 
``the maintenance of effective export controls remain an 
essential, practical means of fulfilling obligations under the 
CWC.''
    I would also ask unanimous consent that that statement be 
inserted in the record, Mr. Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

                                 Australian Embassy, Paris,
                                                  October 17, 1996.

                        Australia Group Meeting

    Australia Group participants held informal consultations in Paris 
between Oct. 14-17, to discuss the continuing problem of chemical and 
biological weapons (CBW) proliferation. Participants at these talks 
were Argentina, Australia, Austria, Belgium, Canada, the Czech 
Republic, Denmark, the European Commission, Finland, France, Germany, 
Greece, Hungary, Iceland, Ireland, Italy, Japan, Luxembourg, 
Netherlands, New Zealand, Norway, Poland, Portugal, Romania, Slovak 
Republic, Spain, Sweden, Switzerland, United Kingdom and the United 
States, with the Republic of Korea taking part for the first time.
    Participants maintain a strong belief that full adherence to the 
Chemical Weapons Convention (CWC) and to the Biological and Toxin 
Weapons Convention (BTWC) will be the best way to eliminate these types 
of particularly inhumane weapons from the world's arsenals. In this 
context the maintenance of effective export controls will remain an 
essential practical means of fulfilling obligations under the CWC and 
the BTWC.
    All participants at the meeting welcomed the expected entry into 
force of the CWC, noting that this long-awaited step will be an 
important, historic moment in international efforts to prohibit 
chemical weapons. Participants agreed to issue a separate statement on 
this matter, which is attached.
    Participants also welcomed the progress of efforts to strengthen 
the BTWC in the negotiations taking place in the Ad Hoc Group of BTWC 
States Parties in Geneva. All Australia Group participating countries 
are also States Parties to this treaty, and strongly support efforts to 
develop internationally agreed procedures for strengthening 
international confidence in the treaty regime by verifying compliance 
with BTWC obligations.
    Experts from participating countries discussed national export 
licensing systems aimed at preventing inadvertent assistance to the 
production of CBW. They confirmed that participants administered export 
controls in a streamlined and effective manner which allows trade and 
the exchange of technology for peaceful purposes to flourish. They 
agreed to continue working to focus these national measures efficiently 
and solely on preventing any contribution to chemical and biological 
weapons programs. Participants noted that the value of these measures 
in inhibiting CBW proliferation benefited not only the countries 
participating in the Australia Group, but the whole international 
community.
    Participants also agreed to continue a wide range of contacts, 
including a further program of briefings for countries not 
participating in the Paris consultations to further awareness and 
understanding of national policies in this area. Participants endorsed 
in this context the importance of regional seminars as valuable means 
of widening contacts with other countries on these issues. In 
particular, Romania's plans to host a seminar on CBW export controls 
for Central and Eastern European countries and the Commonwealth of 
Independent States in Bucharest on Oct. 21-22 and Japan's plans to host 
a fourth Asian Export Control Seminar in Tokyo in early 1997 were 
warmly welcomed by participants. Argentina will also host a regional 
seminar on non-proliferation matters, in Buenos Aires, in the first 
week of December 1996. France will organize a seminar for French-
speaking countries on the implementation of the CWC. This will take 
place shortly before entry into force of the Convention.
    The meeting also discussed relevant aspects of terrorist interest 
in CBW and agreed that this serious issue requires continuing 
attention.
    Participants agreed to hold further consultations in October 1997.

                               __________

 Australia Group Countries Welcome Prospective Entry Into Force of the 
                      Chemical Weapons Convention

    The countries participating in the Australia Group warmly welcomed 
the expected entry into force of the Chemical Weapons Convention (CWC) 
during a meeting of the Group in Paris in October 1996. They noted, 
that the long awaited commencement of the CWC regime, including the 
establishment of the Organization for the Prohibition of Chemical 
Weapons, will be an historic watershed in global efforts to abolish 
chemical weapons for all time. They also noted that all states adhering 
to the CWC are obliged to ensure their national activities support the 
goal of a world free of chemical weapons.
    All of the participating countries reiterated their previous 
statements underlining their intention to be among the original States 
Parties to the CWC. They noted that 24 of the 30 countries 
participating in the Australia Group have already ratified the 
Convention. Representatives also recalled their previous expressions of 
support for the CWC, and reaffirmed these commitments. They restated 
their view that the effective operation and implementation of the CWC 
offers the best means available to the international community to rid 
the world of these weapons for all time. They called on all signatories 
to ratify the CWC as soon as possible, and on the small number of 
countries which have not signed the treaty to join the regime and 
thereby contribute to international efforts to ban these weapons.
    Representatives at the Australia Group meeting recalled that all of 
the participating countries are taking steps at the national level to 
ensure that relevant national regulations promote the object and 
purpose of the CWC and are fully consistent with the Convention's 
provisions when the CWC enters into force for each of these countries. 
They noted that the practical experience each country had obtained in 
operating export licensing systems intended to prevent assistance to 
chemical weapons programs have been especially valuable in each 
country's preparations for implementation of key obligations under the 
CWC. They noted in this context, that these national systems are aimed 
solely at avoiding assistance for activities which are prohibited under 
the Convention, while ensuring they do not restrict or impede trade and 
other exchanges facilitated by the CWC.

    Senator Biden. Mr. Chairman, I am convinced the CWC does 
not require us to share our most advanced defense technology or 
to abandon existing controls on chemical weapons. Just to make 
certain of that, I asked Sandy Berger to address this point. I 
will, in the interest of time, since I asked you to add 
additional witnesses, ask that the remainder of my statement be 
placed in the record and conclude by saying this treaty enters 
in force on April 29th, and time is running short. Mr. 
Chairman, I hope that we, when we conclude these hearings--as 
long as I do not prolong them--that at some point we might be 
able to reach an agreement on how to proceed on the floor. But 
that is for another time, another moment.
    I thank the witnesses and I thank the chair.
    [The prepared statement and the information referred to by 
Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Thank you, Mr. Chairman. I wanted to take a few minutes this 
morning to address a few concerns that were raised in yesterday's 
hearing and may have gone unanswered.
    When you called these hearings, you said that it was important that 
the new members of the committee have an opportunity to learn more 
about it. And I am pleased to see that our new colleagues have taken 
your recommendation to heart.
    My impression is that they truly want to learn about this treaty 
and base their decision on the facts--and maybe the request by the 
Secretary of State won't hurt, either.
    This afternoon we will hear more testimony about this treaty and 
what it does and does not do, but the core issue is very simple: this 
treaty outlaws poison gas weapons.
    The entry into force of the Chemical Weapons Convention will mark a 
major milestone in our efforts to enlist greater international support 
for the important American objective of containing and penalizing rogue 
states that seek to acquire or transfer weapons of mass destruction.
    Yesterday, we heard three very distinguished former Secretaries of 
Defense testify on this treaty.
    Among the claims they made about the CWC are that it would force us 
to share our most advanced defensive technology with all states, 
including countries of concern, that have ratified this agreement.
    Another assertion they made is that it requires us to abandon all 
controls we have on the proliferation of sensitive technology through 
mechanisms like the Australia Group.
    As I reviewed the treaty, I became a little concerned about this. 
With regard to sharing defensive technology, some general provisions 
appeared to back up their claim.
    But close inspection reveals that the critics are wrong.
    First, the provisions of Article Ten, Paragraph Three are 
deliberately vague: the obligation on a party is to ``facilitate'' the 
``fullest possible exchange'' of equipment and information.
    When read in light of the overriding imperative in Article One to 
not assist any party from engaging in activities prohibited by the CWC, 
it is clear that we will not be obligated to provide assistance to 
rogue states under this provision.
    Now just to make sure that I was reading this correctly, I asked 
the White House to clarify this point for me. Sandy Berger, the 
President's National Security Adviser, today sent me a letter that 
confirms this interpretation.
    In Mr. Berger's letter, he states that any exchange of equipment 
and technology under Paragraph Three of Article Ten ``is limited to 
that which we determine would be appropriate and permitted under the 
convention.'' In addition, Paragraph Seven of Article Ten requires no 
assistance ``other than medical supplies, if we so choose.''
    I ask that this letter from Mr. Berger be inserted into the record, 
so that my colleagues can reassure themselves that this treaty does not 
oblige us to share advanced chemical defense technology with rogue 
states.
    On this point, the Chairman and I are very close to agreement on a 
condition that would require the executive branch to ensure that 
countries of concern receive no assistance from us beyond medical 
antidotes and treatment. And that would be fully in keeping with 
Article Ten of the CWC.
    As for the argument that we would be forced to abandon our current 
mechanisms to control the proliferation of sensitive technology, the 
CWC explicitly allows us to keep these protections in place.
    Article Eleven supports chemical trade and technology exchange 
``for purposes not prohibited under this convention.'' It also requires 
that trade restrictions not be ``incompatible with the obligations 
undertaken under this convention.''
    But the CWC is completely consistent with continued enforcement of 
the Australia Group controls, which member states use to keep chemical 
and biological weapons material out of the hands of rogue states. The 
executive branch has said this time and again, and so have our friends 
and allies in the Australia Group.
    That helps explain why twenty-six of the twenty-nine members of the 
Australia Group have ratified this treaty--everyone except Iceland, 
Luxembourg and the United States.
    Last October, at the most recent meeting of the Australia Group, 
the twenty-nine countries reaffirmed their intention to maintain common 
export controls while joining the Chemical Weapons Convention.
    In a statement issued at that meeting, the Australia Group said, 
and I quote: ``the maintenance of effective export controls will remain 
an essential practical means of fulfilling obligations under the CWC.''
    I ask consent that this statement be inserted into the record.
    I am convinced that the CWC does not require us to share our most 
advanced defensive technology or to abandon existing controls on 
chemical weapons. And just to make certain of that, I asked Sandy 
Berger to address this point in the letter I referred to.
    So I ask my colleagues to review this section of the treaty and to 
examine Mr. Berger's letter and the Australia Group's statement to 
reassure themselves that the CWC does not obligate us to share advanced 
defensive technology or chemicals or chemical technologies with 
countries like China, Cuba or Iran.
    Turning to another issue, my colleague, Senator Smith, expressed an 
interest yesterday in the constitutional issues that many critics of 
the convention have raised. I want to take this opportunity to set the 
record straight.
    The convention is constitutional. There is nothing in the 
convention that requires searches in violation of the Fourth Amendment, 
takings of property without just compensation, or compelled self-
incriminatory testimony
    Just this morning we received a letter from twenty-two law 
professors and distinguished attorneys expressing their view that the 
convention is constitutional, including former Attorney General Elliot 
Richardson, former State Department legal adviser and Harvard law 
professor Abram Chayes, Columbia University professor Louis Henkin, and 
Harvard law professor Laurence Tribe. I ask that this letter be placed 
into the record.
    Those who claim that the CWC would permit international inspectors 
to engage in warrantless searches in any business or private home are 
dead wrong and are spreading falsehoods.
    There will be no warrantless searches under the CWC, period. Here 
are the facts:
    There are two types of inspections--routine inspections and 
challenge inspections.
    Routine inspections apply only to declared facilities--that is, 
facilities that produce or use scheduled chemicals. In the unlikely 
event that a declared facility does not consent to be searched, an 
administrative warrant will be sought from a federal judge or 
magistrate judge.
    This is the same procedure that would be used for inspections 
conducted under Federal health, safety, and environmental laws.
    Challenge inspections are conducted at the request of another 
government based on evidence of possible non-compliance. These 
inspections can take place anywhere in the United States.
    The administration has agreed that, absent consent, the U.S. 
Government will have to obtain a criminal search warrant, based on 
probable cause of criminal wrongdoing, to conduct a challenge 
inspection everywhere but declared facilities.
    If a search warrant cannot be obtained for either type of search, 
the inspection will not take place.
    And, since the convention allows the United States Government to 
``take into account any constitutional obligations it may have with 
regard to searches and seizures'' when granting access to U.S. 
facilities, we will not be in breach of our treaty obligations if a 
challenge inspection is denied due to Fourth Amendment considerations.
    I ask consent that a letter from the Attorney General to Senator 
Lott addressing these very issues be made a part of the record.
    I hope that the Attorney General's assurances, along with the 
statements of other administration officials, have eased the concerns 
of those who, like me, strongly believe in the importance of the Fourth 
Amendment.
    Again, I would like to thank my colleagues and our witnesses for 
their time and attention this morning. I hope that these hearings will 
help to clear up the misconceptions about the Chemical Weapons 
Convention so that we can move expeditiously to bring this treaty 
before the full Senate for a vote on ratification.
    This treaty enters into force on April 29, and time is running 
short.
    Thank you, Mr. Chairman.
                                 ______
                                 

                Letter From Attorney General Janet Reno

                  to Senate Majority Leader Trent Lott

                            Office of the Attorney General,
                                      Washington DC, March 3, 1997.
Hon. Trent Lott,
Majority Leader,
U.S. Senate, Washington, DC 20510.
    Dear Mr. Leader: As the public debate over ratification of the 
Chemical Weapons Convention (CWC) grows in intensity, various concerns 
regarding the constitutionality of the CWC have come to my attention. 
Some have suggested that enforcement of the CWC, in order to be 
effective, will necessarily impinge on Fourth Amendment rights. 
Specifically, concerns have been raised that the Convention will 
authorize warrantless, non-consensual searches or that searches will be 
conducted pursuant to warrants that lack probable cause. The CWC and 
the draft implementing legislation contemplate no such circumstances. 
All inspections will be conducted consistent with the requirements of 
the Fourth Amendment.
    Let there be no doubt, the Department of Justice stands fully 
behind both the goals and the specific terms of the CWC. The 
Convention, along with the proposed legislation, strikes the proper 
balance between effective efforts to eliminate the scourge of chemical 
weapons and to preserve our constitutional rights. Over the course of 
the past four years, the Justice Department has closely scrutinized CWC 
and has assisted in the drafting of its implementing legislation. Our 
focus has been consistently on the necessity of adherence to 
constitutional requirements. In testimony given on September 9, 1996, 
before the Senate Judiciary Committee's Subcommittee on the 
Constitution, Richard Shiffrin, Deputy Assistant Attorney General, 
Office of Legal Counsel, explained how inspections would be conducted 
consistent with the Fourth Amendment. We expect the vast majority of 
routine inspections will be conducted with consent. On the few 
occasions where consent has been withheld, administrative search 
warrants will be sought for routine inspections. In the case of 
challenge inspections, again, we expect consent to be the rule. 
Declared facilities selected for a challenge inspection would be 
subject to inspections in the same manner as provided under the CWC and 
implementing legislation for routine inspections. However, a criminal 
search warrant will be applied for in every case where consent is 
denied to a challenge inspection of undeclared facilities.
    The convention, in Annex 2, pt. X, para. 41, specifically allows 
the U.S. Government, in granting access to facilities identified for 
challenge inspections, to ``take into account any constitutional 
obligations it may have with regard to proprietary rights or searches 
and seizures.'' Hence, in the rare event that the Fourth Amendment 
would pose a bar to a search of premises identified for a challenge 
inspection, the United States would remain in full compliance with its 
obligations under the CWC.
    I realize that many of the detractors of the Convention are 
principled in their opposition. Their constitutional concerns are, 
however, unfounded. The dictates of the Fourth Amendment have been 
scrupulously honored in the drafting and will be rigidly followed in 
the implementation. Finally, no legitimate Fifth Amendment issues are 
raised with respect to the record keeping or disclosure requirements. 
The provisions of the Convention and the draft implementing legislation 
neither require nor contemplate compelling anyone to incriminate 
himself. And, both the CWC and draft legislation in no way authorize 
the taking of private property without compensation.
    It is my hope that the Senate will consider the Convention in an 
expeditious manner and will consent to its ratification.
            Sincerely,
                                        Janet Reno.
                               __________
                                                     April 9, 1997.
Hon. Joseph R. Biden, Jr,
Minority Leader, Committee on Foreign Relations,
Washington, DC.
    Dear Senator Biden: The undersigned lawyers, former government 
officials, and professors of constitutional and international law write 
to urge the Senate to give its prompt advice and consent to the 
ratification of the Chemical Weapons Convention (CWC). The Senate's 
decision will have profound ramifications for United States leadership 
in controlling the spread of weapons of mass destruction. Moreover, the 
Convention will enter into force on April 29 whether or not the United 
States ratifies, but if it does so without U.S. ratification, American 
participation in the staffing of the Organization for the Prohibition 
of Chemical Weapons (OPCW) and in the inspector corps will be severely 
reduced. Therefore, prompt action is essential.
    The CWC is a global commitment to eliminate an entire category of 
weapons of mass destruction and to verify their continued absence. The 
treaty's backbone is the most thoroughgoing international law 
enforcement system yet devised, providing for verification of the 
destruction of chemical weapons stockpiles and for monitoring of 
chemical plants to prevent future proliferation. The verification 
system includes declaration of precursor chemicals that could be made 
into chemical weapons, routine inspections at facilities that are 
declared to possess such precursors, and ``challenge'' inspections to 
confirm compliance at any facility or location. President George Bush, 
under whose administration the treaty was completed and signed, 
characterized the Convention as ``an entirely new concept for 
overcoming the great obstacle that has impeded progress in the past 
toward a full chemical weapons ban.''
    We would have thought that U.S. ratification of this Convention was 
a foregone conclusion. Unfortunately, at the last minute, objections 
have been raised concerning the constitutionality of the Convention's 
elaborate verification system under the Fourth Amendment. Treaty 
opponents have circulated the claim that, under the CWC, foreign 
inspectors would be empowered to intrude into the privacy of American 
citizens and businesses in violation of their Fourth Amendment rights. 
Much of this commentary based on a letter from Judge Robert Bork to 
Senator Orrin Hatch stating that ``there are grounds to be concerned'' 
about the compatibility of some of the provisions of the Convention 
with the Constitution. Judge Bork's letter concedes that he is ``not 
intimately familiar with the provisions of the Convention,'' an 
acknowledgment that is borne out by the inaccuracy of his description 
of the Convention in the body of his letter.
    The short answer to these contentions is that the Convention itself 
provides that each State Party shall implement its provisions ``in 
accordance with its constitutional processes,'' (Art. VII, par. 1), and 
the challenge inspection provisions further require that inspections 
must be consistent with ``any constitutional obligations * * * with 
regard to * * * searches and seizures.'' (Verification Annex, pt. X, 
par. 41). Thus, Congress, which must pass domestic legislation to 
implement the inspection provisions of the Convention, can do so in a 
manner that fully protects the rights of American citizens under the 
Fourth Amendment without in any way violating the international 
obligations the United States will undertake under the treaty. A vast 
quantity of scholarly and governmental discussion on the subject has 
affirmed virtually unanimously that the CWC fully respects U.S. 
constitutional protections of privacy. Indeed, every scholar willing to 
put his or her opinions on the CWC to the test of detailed public 
review agrees that the treaty manifests extraordinary care in balancing 
the demands of privacy against the requirements for effective 
verification of the Convention.
    If the Senate fails to give its advice and consent to the CWC, an 
extraordinary achievement of over fifteen years of bipartisan effort 
will be frustrated; and a major opportunity to prevent the 
proliferation of chemical weapons will have been lost. If the Senate 
wishes to reject the treaty, that is of course its prerogative. But it 
should not do so on the spurious ground that it conflicts with the 
Constitution.
            Sincerely,
Professor M. Cherif Bassiouni, DePaul University College of Law
 Professor Richard B. Bilder, Burrus-Bascom Professor, University of 
        Wisconsin Law School
 Professor Thomas Buergenthal, Lobingier Professor of Comparative Law & 
        Jurisprudence, the George Washington University Law School
 Professor George Bunn, Dean Emeritus, Professor Emeritus, University 
        of Wisconsin Law School
Professor David D. Caron, University of California at Berkeley School 
        of Law
Abram Chayes, Professor of Law, Emeritus Felix Frankfurter Harvard Law 
        School
Professor Lori Fisler Damrosch, Columbia University School of Law
Professor John Hart Ely, Richard A. Hausler Professor University of 
        Miami School of Law
Phil Fleming, Crowell & Moring
 Professor Thomas M. Franck, Murray and Ida Becker Professor, Director, 
        Center for International Studies, New York University School of 
        Law
Professor Michael J. Glennon, University of California at Davis School 
        of Law
Professor Barry Kellman, DePaul University College of Law
Professor John F. Murphy, Villanova University School of Law
John B. Rhinelander, Shaw, Pittman
Professor Anne-Marie Slaughter, J. Sinclair Armstrong Professor of 
        International, Comparative and Foreign Law, Harvard Law School
Professor Laurence H. Tribe, Ralph S. Tyler, Jr. Professor of 
        Constitutional Law, Harvard Law School
Professor Louis Henkin, University Professor Emeritus, Special Service 
        Professor, Columbia University School of Law
Professor David A. Koplow, Director, Center for Applied Legal Studies, 
        Georgetown University Law Center
Professor Peter Raven-Hansen, Associate Dean, Academic Affairs, Glen 
        Earl Weston Research Professor, George Washington University 
        Law School
Elliot L. Richardson, Esq., Milbank, Tweed, Hadley & McCloy
Professor Edwin (Rip) Smith, Leon Benwell Professor of Law and 
        International Relations, University of Southern California Law 
        School
Professor Burns H. Weston, Bessie Dutton Murray Distinguished 
        Professor, Associate Dean, International and Comparative Legal 
        Studies, University of Iowa College of Law

    The Chairman. Let us have brief statements by our other 
Senators here, if you wish. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. You were kind enough 
to make reference to the fact that I came in just at the 
conclusion of yesterday afternoon's hearing, and you had not 
recognized me as you were banging the gavel. I thank you for 
that acknowledgement.
    I had raced up from an armed services hearing, trying to 
sort out the dangers posed by Russian submarines and other 
submarines, in order to get here. I want to assure you, 
however, that both the portions of yesterday's meeting, in the 
morning that I had to leave and the portion that I missed 
yesterday afternoon, were replayed on C-SPAN, beginning about 
midnight and ending about 2:45 a.m.
    And, Mr. Chairman, to demonstrate my commitment to the 
cause, I want you to know that I stayed up and watched all of 
the hearing that I missed. Regrettably, I am going to have to 
go to an intelligence hearing today, so I will miss more. But I 
am sure that it will be rebroadcast.
    On a more serious vein, I did attend all of the hearings 
last year. I thought they were some of the best and most 
informative. There have been excellent witnesses on both sides 
of the question. I committed myself to the affirmative side. I 
thought that was the more persuasive argument last year. I have 
not changed my position. But I think that the distinguished 
witnesses that we have had for these hearings have done more to 
give the American people, and certainly the members who are 
going to vote on these issues, a better understanding of what 
the treaty does and does not do. For that, I commend you, and I 
thank you.
    The Chairman. Thank you very much. Senator Frist.
    Senator Frist. Thank you, Mr. Chairman. I want to 
congratulate you for bringing forth such outstanding witnesses 
in this series of hearings. I want to thank each of you for 
being with us today.
    I continue to struggle with the issues that we are talking 
about--the verification, the extent of coverage, global 
coverage, enforceability. Part of it is based on my experience 
of being in chemistry labs myself, whether it is organic 
chemistry or inorganic chemistry, which I had to do to become a 
physician, and remembering very vividly people saying, ``right 
in this room, in this little laboratory, we could do such 
destruction if we wanted to.'' Then I come back today, in terms 
of that verification and enforceability, and I look forward to 
hearing from each of our witnesses as we systematically 
continue our addressing these very important issues.
    The Chairman. Thank you.
    Briefly, please, ma'am, and sir. After you two, if any 
other Senators come in, I am going to not notice their arrival 
either. Senator Feinstein.
    Senator Feinstein. Just very quickly, Mr. Chairman, if I 
might, and to our distinguished witnesses.
    I think the thing that would be most helpful to me, and 
perhaps you can cover this in your testimony, would be if you 
could substantiate your comments on your belief of non-
verification, why you believe it is better to stay out of this 
kind of a treaty and why you think that, with our staying out 
of it, we would have a better opportunity (a) to make a moral 
commitment and (b) a real commitment and (c) how verification 
would be improved if we are not in the treaty.
    I thank you, Mr. Chairman.
    The Chairman. I am sure they will answer that in due time.
    Briefly, please.
    Senator Wellstone. Mr. Chairman, I feel like I am under 
pressure to be brief.
    The Chairman. You are.
    Senator Wellstone. So I will be brief. I know we have got a 
long hearing today, and I am only going to be able to stay for 
the first part. I apologize to the others. So I thank the Chair 
for the hearing and I thank each of you for being here.
    The Chairman. Do you have anything to say, Chuck?
    Senator Hagel. No. Thank you.
    The Chairman. Ambassador Kirkpatrick, you will be the lead-
off, please.

 STATEMENT OF DR. JEANE J. KIRKPATRICK, FORMER U.S. PERMANENT 
 REPRESENTATIVE TO THE UNITED NATIONS, SENIOR FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Ambassador Kirkpatrick. Thank you, Mr. Chairman.
    The Chairman. Thank you for coming.
    Ambassador Kirkpatrick. Thank you very much, Mr. Chairman, 
for inviting me to testify before this distinguished committee 
on this important subject. It is an important subject, and the 
Senate's decision will be more important even.
    I have followed this and some comparable issues with great 
interest since I served as U.S. Permanent Representative to the 
United Nations under Ronald Reagan. At that time, there were 
several such covenants that either had been passed or were 
being considered. It was then that I became aware of some of 
the facts which have ever since caused me to have a lot of 
questions and doubts about such covenants.
    It was then that I first became aware of the fact that the 
Nuclear Nonproliferation Treaty was being used to achieve very 
different purposes than those for which it was undoubtedly 
intended. It was then I became aware of the fact that it was 
being used to acquire and spread the technology and products 
needed to produce nuclear weapons rather than to prevent their 
spread.
    It was even then understood among the informed public in 
the United Nations context that a country such as Iraq, by 
signing the Nuclear Nonproliferation Treaty, the NPT, acquired 
a right to share technology which could then be used to produce 
nuclear products. Now, it is generally understood by such 
countries that the shortest route to a nuclear capacity is 
through the NPT, the Nuclear Nonproliferation Treaty.
    Iran is traveling that road today. We and other signatories 
are helping to finance their development of a nuclear capacity, 
and we know it.
    Secretary of State Christopher made an interesting comment 
on this subject 2 years ago, when he said, in terms of its, 
``organization, programs, procurement and covered activities, 
Iran is pursuing the classic route to nuclear weapons, which 
has been followed by almost all states that have recently 
sought a nuclear capability.''
    Now, more recently, there have been several public reports 
of U.S. Government efforts to persuade Russia not to assist 
Iran in the development of a nuclear capacity and of 
operational reactors. There have been reminders from Russia 
that Iran is a signatory of the NPT and, as such, has a right 
to assistance in developing a nuclear capacity for peaceful 
use. I believe, Mr. Chairman, that there has been far too 
little attention given to this problem, the principal source of 
nuclear proliferation.
    It was also in my U.N. years that I first became really 
sensitive to the issue of the composition of the governing 
board of the IAEA. Senator Biden may think I am not keeping my 
eye on the ball. But I assure you, Senator Biden, I am.
    As for the composition of the governing board of the IAEA, 
Iraq, as I am sure many of you know, sat on the governing board 
of the IAEA through just exactly that period that it was 
violating its own promises not to undertake development of 
nuclear weapons.
    It also was violating, at that very moment, already 
existing promises not to use poison gases in war. Iran and Iraq 
are two of the countries in the world that have already 
violated the Geneva Protocol against using poison gases. As we 
all understand, I think, there is already an operative treaty 
which forbids the use in war of, ``asphyxiating, poisonous or 
other gases,'' which is the Geneva Protocol of 1925.
    Now, Mr. Chairman, many people speak of the Nuclear 
Nonproliferation Treaty and its verification regime as if it 
had prevented the proliferation of nuclear weapons. If that 
were the case, Mr. Chairman, Iraq, North Korea, India, and 
Pakistan, among others, would not today have either advanced 
programs for producing nuclear weapons or the weapons 
themselves. But, of course, they do.
    There is a kind of strange silence which shrouds the facts 
of nuclear proliferation. Even the U.S. Government has been 
strangely reluctant to face facts about the failure of the 
Nuclear Nonproliferation Treaty to prevent proliferation. But 
if our government and our allies had faced facts about the 
nuclear proliferation facilitated by the NPT, they would 
presumably not have reproduced Article XI and other key 
loopholes in the Convention on Chemical Weapons which have 
permitted and facilitated proliferation.
    But, of course, in the Convention on Chemical Weapons, they 
have paragraphs which call for sharing technology among the 
signatories and forbid efforts to restrict or impede trade in 
development and promotion of scientific and technological 
knowledge in the field of chemistry--for peaceful purposes, to 
be sure. I think the spirit of the CWC is, ``share now'' the 
treaty counsels, ``verify purposes and intentions later.''
    Mr. Chairman, my years at the United Nations sensitized me 
to the composition of governing boards of the United Nations. 
All too often, the composition of those governing boards simply 
reflect the bloc system and its operation in the U.N.; it 
dominates many processes of the U.N. The bloc system is purely 
geographical and political in character, and takes little or no 
account of technical competence or democratic representation--
or of who pays the bills, I might add.
    I believe that the Senate should take specific note of the 
composition of all the international boards entrusted to 
enforce international covenants, boards which make important 
decisions affecting our country. The CWC governing board will 
be chosen on a basis that gives little weight to competence, 
because the IAEA's governing board is used as a model. The 
IAEA's verification regime has not been able either to verify 
or to enforce the Nuclear Nonproliferation Treaty.
    As we can learn hard lessons about failures of the IAEA 
regime to adequately verify violations of the NPT, so, Mr. 
Chairman, can we learn some hard lessons from the IAEA 
experience, about the non-enforceability of just such treaties.
    What happens when violations of the Nonproliferation Treaty 
are discovered? This is a very important question. There are 
the questions of verifiability and enforceability. What happens 
when a nation which has signed the Nuclear Nonproliferation 
Treaty is discovered to be in violation?
    The answer is: Not much.
    Iraq has suffered some penalties because of its violations 
of the NPT. But it has suffered, because it invaded a 
neighbor--namely, Kuwait--not because it cynically violated the 
NPT norms.
    I believe that the composition of the governing board of 
the Chemical Weapons Convention, the OPCW, guarantees that 
countries with the greatest technical knowledge will be in a 
permanent minority in that decisionmaking group. The important 
decisions will be made by the OPCW; but the United States and 
Western Europe, the most highly industrialized and technically 
sophisticated countries, will be in a permanent minority in 
that group.
    The United States has no guaranteed seat in that governing 
body. Neither the amount of our financial contribution nor our 
technical competence guarantees us a seat. We will compete for 
a seat with the other most highly industrial countries for 10 
of 41 seats. Asia will have nine. There will be one rotating 
seat. Latin America and the Caribbean will have seven. Africa 
will have nine. Eastern Europe will have five. What we in the 
U.N. call WEOG, Western Europe and others group--and we fall in 
that group--will have 10.
    I am not certain, Mr. Chairman, where Russia falls in these 
groups today. Probably in Eastern Europe, but maybe not. There 
would have to be some special provision made. That is 
important, since, if indeed Russia ratifies the treaty, it is 
eligible to sit on the OPCW. It may not. It has signed but not 
yet ratified, of course.
    But the composition of the OPCW explains why its decisions 
are not likely to take account of the best technical 
information available. Not only that, the method of composition 
of that group explains why most efforts by U.N. bodies to 
develop operational groups fail. Because the members of the 
group are chosen on the basis of criteria which are irrelevant 
to their ability to perform, with technical competence, the 
task of the group.
    From experience with the NPT and the IAEA, I believe we 
have had a great deal of opportunity to learn about the 
problems of verification and enforceability. The IAEA's 
verification procedures, of course, require prior notification 
and consent of the party to be inspected including the parties 
inspected, the right to approve or veto the composition of the 
teams of inspectors.
    Now, we all know that Iraq's nuclear projects and its 
progress were discovered only as a consequence of their defeat 
in the Gulf War. Iraq's violations of NPT have been discovered 
again and again, as we keep finding things we did not know and 
new information about aspects of their program that we were 
unaware of by virtue of our access through the armistice and 
their defeat in the Kuwaiti War. It was not the result of IAEA 
inspections. Routine procedures for verification did not reveal 
Iraq's large nuclear project.
    Now, as everyone knows, it is much simpler to develop 
chemical weapons than nuclear weapons. It is much easier to 
procure and hide the components. As everyone knows, the 
technology required in developing nuclear weapons is much more 
complex and esoteric than chemical weapons. Everyone knows that 
chemical weapons rely largely on dual-use substances that are 
common in everyday life. Chemical weapons can be manufactured 
with uncomplicated technology.
    That is, I think, why, in the 1980's, when I was at the 
United Nations, it was commonplace to hear Third World 
spokesmen refer to chemical weapons as the Third World's 
nuclear bombs. Even very technologically underdeveloped 
countries could produce them. It was suggested often that it 
was not quite cricket for the devel- 
oped countries to try to deprive the least developed countries 
of the Third World weapons of mass destruction.
    I do not think any of us need weapons of mass destruction, 
quite frankly, to prove that we can survive in the contemporary 
world.
    Mr. Chairman, I believe that the Senate should face the 
fact that ratifying this treaty will not prevent the 
manufacture or use of chemical weapons. That is precisely the 
point. The Chemical Weapons Convention is neither verifiable 
nor enforceable.
    Proponents sometimes say, so it is not perfect. Is not 
something that is not perfect better than nothing at all?
    I do not think that is necessarily so, particularly since 
the countries that have signed and ratified the Convention are 
countries about which we would never worry about using chemical 
weapons. The countries that have neither signed nor ratified 
are countries that we are most likely to worry about--the so-
called rogue states or outlaw nations--Syria, Iraq, North 
Korea, Libya. Those are the countries we worry about.
    We do not worry about Britain, France, the WEOG, and the 
Australia Group. I do not worry a bit about the Australia 
Group. Those are our best friends. They do not need to worry 
about us either, I might say.
    The treaty's advocates simply ignore the fact that the 
treaty cannot help us monitor the production of these weapons 
by states most likely to use chemical weapons. Why, then, have 
so many countries signed on to a treaty that can offer so 
little protection?
    I believe, Mr. Chairman, that it is simply wishful 
thinking, frankly. I believe it is hoping and pretending that 
something that you want to be verifiable, enforceable, and 
universal may actually turn out to be that, in spite of the 
fact that, from experience, we know it is not and will not.
    We should also face the fact that signing the treaty will 
not prevent signatories of bad will from breaking their 
promises not to produce noxious gases. We know that Russia has 
in fact already, in its continuing production of noxious gases, 
broken two sets of promises--not the promises of the treaty, 
but bilateral promises to the United States involving the 
production of nerve gases and the failure to destroy gases 
which they had agreed to destroy. Countries do not necessarily 
keep their promises.
    Advocates of the treaty argue it would surely do some good 
and, at the very least, would do no harm.
    Mr. Chairman, I believe that the Chemical Weapons 
Convention will actually make the world more dangerous. That is 
why I came today. I believe the treaty will hasten the spread 
of advanced chemical weapons, as I believe a comparable treaty 
has hastened the spread of the technology for nuclear weapon 
construction--and that is not all.
    Mr. Chairman, I recently asked a French friend, who happens 
to be visiting just now, did the Maginot Line do France any 
harm in World War II?
    Well, I think most French think so. It gave them the 
impression that they had dealt with a dangerous threat--an 
invasion from the east, across their borders--when in fact they 
were in as much danger as before. The Maginot Line created a 
comforting illusion which lulled France into a false sense of 
security.
    I believe the world is probably less dangerous today, Mr. 
Chairman, than at any time in my life--or certainly than in 
most of my life. I cherish this sense of lessened threat. I 
love it. But I believe we are not so safe that we can afford to 
create a false sense of security by pretending that we have 
eliminated chemical weapons.
    President Clinton said in one statement that I read: ``We 
will have banished poison gas from the Earth.'' Well, that is 
poetic license or a politician's license or perhaps a 
President's license, but it surely is not an accurate statement 
about what will be the case. The countries most likely to 
produce and use poison gas are unaffected by this treaty.
    I think the Senate, personally, should reaffirm the U.S. 
sense of responsibility and our commitment to that 
responsibility toward preserving a peaceful world and decline 
to ratify this treaty unless or until progress is made toward 
making it more verifiable, enforceable, and universal. There is 
still a long way to go.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Kirkpatrick follows:]

             Prepared Statement of Dr. Jeane J. Kirkpatrick

    Mr. Chairman, thank you for inviting me to testify before this 
distinguished committee today.
    The subject of today's hearing is important. The Senate's decision 
will be more important. I have followed this issue with interest since 
my tenure as U.S. Permanent Representative to the United Nations under 
Ronald Reagan brought several such proposed covenants to the forefront 
of my attention.
    It was then that I first became aware of the fact that the Nuclear 
Nonproliferation Treaty (NPT) was being used to achieve very different 
purposes than those for which it was intended--that it was being used 
to acquire and spread the technology and products needed to produce 
nuclear weapons rather than to prevent their spread.
    It was even then understood among the informed public that by 
signing the treaty a country--such as Iraq--acquired a ``right'' to 
share technology needed to produce nuclear products.
    By now, it is generally understood that the shortest route to a 
nuclear capacity is through the NPT. Iran is traveling that road today. 
We and other signatories are helping finance their development of a 
nuclear capacity. Secretary of State Warren Christopher said on this 
subject, ``Based upon a wide variety of data, we know that since the 
mid-1980's, Iran has had an organized structure dedicated to acquiring 
and developing nuclear weapons.'' He added that in terms of its 
``organization, programs, procurement, and covert activities, Iran is 
pursuing the classic route to nuclear weapons which has been followed 
by almost all states that have recently sought a nuclear capability.'' 
[F.N. Bulletin of Atomic Scientists, 7/95. Vol. 51, Issue 4, page 23.]
    More recently there have been several public reports of U.S. 
Government efforts that persuade Russia not to assist Iran in the 
development of its nuclear capacity and reminders that Iran--a 
signatory of the NPT--had the right to assistance in developing a 
nuclear capacity for peaceful use. There has been far too little public 
attention to this--the principal source of nuclear proliferation.
    It was also in my U.N. years that I first noticed the composition 
of the governing board of the International Atomic Energy Agency 
(IAEA). Iraq sat on the governing board of the IAEA and were at that 
very time violating promises not to undertake the development of 
nuclear weapons--promises not to use poison gases in war. [Iraq did 
both.] Several of the same countries have already violated commitments 
not to use poison gas in war, for, as we all understand, there is 
already an operative treaty which forbids the use in war of 
``Asphyxiating, Poisonous or Other Gases.'' It is the Geneva Protocol 
of 1925.
    Mr. Chairman, many people speak as if the Nuclear Non-Proliferation 
Treaty and verification regime had prevented proliferation of nuclear 
weapons. If that were the case Iraq, North Korea, India, Pakistan would 
not have either bombs today nor advanced programs for producing them. 
But they do.
    A strange silence shrouds the facts of nuclear proliferation. Even 
the U.S. Government has been strangely reluctant to face the facts 
about the failure of the NPT to prevent proliferation. But it is an 
open secret that the Nuclear Non-Proliferation Treaty has been a source 
of proliferation of nuclear technology. It is also perfectly clear that 
the CWC will facilitate the spread of chemical weapons through 
provisions in Chapter Eleven of the treaty that call on countries with 
a developed chemical industry to share their advanced technology with 
less developed countries.
    If our government and our allies had faced facts about the nuclear 
proliferation facilitated by the NPT they would presumably not have 
reproduced in Article XI the loopholes that have been permitted and 
facilitated it. But they have in the paragraphs which call for sharing 
technology among the signatories and forbid efforts to ``restrict or 
impede trade and development and promotion of scientific and 
technological knowledge in the field of chemistry * * * '' for peaceful 
purposes to be sure.
    Share now, the treaty counsels, verify purposes and intentions 
later.
    My years at the United Nations also sensitized me to the 
composition of the governing boards of U.N. bodies. All too often the 
composition of governing boards simply reflects the bloc system which 
dominates many processes in the United Nations. The bloc system is 
purely political/geographical in character. It takes little or no 
account of technical competence and standards, of democratic 
representation, or of who pays the bills.
    The Senate should take careful note of the IAEA governing board.
    Iraq served on the governing board of the IAEA the entire time that 
it was working to develop nuclear weapons in violation of its pledge. 
It is not the only known violator to be selected for that board. The 
Chemical Weapons Convention (CWC) governing board will be chosen on a 
basis that gives still less weight to competence.
    The IAEA's verification regime often regarded as a model has not 
been able either to verify or to enforce the NPT.
    As we can learn hard lessons about failures of the IAEA regime to 
adequately verify violations of the NPT, so we can learn about the non-
enforceability of such Treaties. What happens when violations are 
discovered? Not much. Iraq has suffered because it invaded a neighbor, 
not because it cynically violated NPT norms.
    The composition of the governing body of the Organization for the 
Prohibition of Chemical Weapons (OPCW) guarantees that countries with 
the greatest technical knowledge will be in a permanent minority. There 
are no permanent members on the OPCW and no vetoes.
    The composition of the Executive Council of the OPCW explains why 
the U.N. bodies fail at operational efforts, through their validity as 
representational bodies.
    From experience with the NPT and the IAEA we have had the 
opportunity to learn a good deal about the problems of verification and 
the weaknesses of the verification regime that was developed to prevent 
the proliferation of nuclear weapons and the inadequacy of the IAEA's 
verification procedures that require prior notification of the party to 
be inspected, consent of the inspected party, and a right to approve or 
veto the composition of the team of inspectors.
    Iraq's large, advanced nuclear development project was discovered 
only as a consequence of their defeat in the Gulf War NOT as a result 
of IAEA inspections. Likewise, North Korea's large nuclear development.
    And as everyone knows, it is much simpler to develop chemical than 
nuclear weapons, much easier to procure and to hide the components. 
Nuclear weapons require weapons grade plutonium. The technology 
required in developing nuclear weapons is more complex and esoteric. 
But chemical weapons rely largely on dual use substances common in 
everyday life, small space, and uncomplicated technology. That is why 
in the 80s chemical weapons were sometimes called the ``Third World's 
nuclear bombs.'' Even very technologically underdeveloped countries 
could produce them.
    The Senate should face the fact that ratifying the treaty will not 
prevent the manufacture or use of chemical weapons. The Chemical 
Weapons Convention is neither verifiable nor enforceable. Proponents 
attempt to dismiss the many loopholes in the treaty with the assertion 
that nothing is perfect. But perfection is not the question.
    Proponents seek to minimize the fact that the countries with the 
most highly developed programs either have signed but not ratified the 
treaty--Russia, China, Cuba, Iran, Vietnam--or have not signed at all--
Syria, Iraq, North Korea, Libya--but signing does not solve the 
problem. Signing will not prevent signatories from breaking their 
promises not to produce noxious gases as Russia has recently broken a 
promise to the United States.
    And the treaty's advocates simply ignore the fact the treaty cannot 
help us monitor the production of the states most likely to use 
chemical warfare.
    Why then have so many countries signed on to a treaty that can 
offer so little protection?
    Only wishful thinking encourages it. It is as if pretending that 
the treaty were verifiable, enforceable, and universal would make it 
so. But it doesn't. It also will not prevent signatories from breaking 
their promises not to produce noxious gases as Russia has recently 
done.
    But surely it would do some good, treaty advocates argue. At the 
very least we can say it would do no harm.
    Mr. Chairman, it is because I believe the CWC would actually make 
the world more dangerous that I am here. I believe the treaty will 
hasten the spread of advanced chemical weapons as it has nuclear 
technology.
    Americans working for ratification of the CWC should take a hard 
look at what happened in the United Nations Human Rights Commission 
meeting in Geneva this week. The United States could not even get a 
discussion of China's human rights violations put on the agenda.
    For the seventh straight year China was able to prevent 
discussion--much less censure--of its deeply shocking treatment of 
Tibet and all manner of dissidents and to do so by a comfortable 27 to 
17 margin (with nine abstentions). China won the vote with strong Third 
World support, including some close U.S. associates such as Egypt, 
India and Indonesia.
    China's chief delegate, Wu Jianmen, explained later the vote showed 
that the Third World ``identified'' with China. He also emphasized the 
failure of some close U.S. allies (France, Germany, Italy, Spain, 
Japan, Greece, Italy, Canada and Australia) to co-sponsor the 
``Western'' resolution this year, because, he said, they ``want dialog 
and cooperation and not confrontation.'' In truth China won the vote 
because there is weak support for democracy beyond North America, 
Europe, and a few Asian and South American states, and also because 
China mounted a tough worldwide campaign--that included arm-twisting 
and threat of economic consequences. A belated U.S. effort to rally 
support--including personal intervention by Secretary of State 
Madeleine Albright--did not help much.
    This shameful outcome was not a defeat for the United States or the 
countries sponsoring the resolution. It was a defeat for humane values 
and rational discussion of deeply serious moral and political issues. 
It was a defeat for victims of repression and for the very purposes for 
which the United Nations was founded. This outcome in the Human Rights 
Commission is a harsh reminder that the United States often cannot win 
votes for its basic values and interests in U.N. arenas--even when the 
issue is purely symbolic and the U.S., itself, and most of our 
principal allies are present.
    The balance of power would be much less favorable to the United 
States in the governing body that will implement the Chemical Weapons 
Convention.
    In pressing the Senate to ratify the CWC quickly, before the treaty 
enters into effect on April 29, the Clinton administration has argued 
that by getting in on the ground floor the United States will be 
assured of having an important voice in shaping the structure and 
function of the organization. But that is not so. The composition and 
structure of the governing body of the CWC are prescribed in the 
treaty. The treaty, itself, hands us a stacked deck with which to play 
for influence.
    The United States, Great Britain, France, Russia and China (that 
is, the permanent members of the Security Council) are all guaranteed 
seats on the Human Rights Commission but not on the Executive Council 
that will administer the CWC. The 41 members of that Executive Council 
will be designated from the U.N.'s standard geographical groupings and 
elected by all the signatories of the CWC for 2 year terms. There will 
be no permanent members and no vetoes.
    The United States is a member of the WEOG (Western European and 
Other Group) which is allotted 10 seats on the 41 member Executive 
Council that also provides nine seats for Asia, seven for Latin America 
and the Caribbean, nine for Africa, five for Eastern Europe plus one 
rotating seat. To win one of the 10 WEOG seats for a 2-year term, the 
United States will need to compete with the other Western industrial 
democratic nations who altogether will have only 10 of 41 seats (or 15 
of 41 seats if we count Eastern Europe; or 16 of 41 with all of Europe 
plus Japan).
    In this competition our friends in the European Union will have 15 
votes to our one vote. Therefore, the United States would frequently 
fail to gain a voice in the decisions of the Executive Council. Neither 
the amount of our financial contribution nor our technical competence 
would guarantee us a seat.
    The draft of the CWC supported by the Reagan administration guarded 
against this possibility. It provided that permanent members of the 
Security Council would be members of the Executive Council that 
implements the treaty. This would have guaranteed representation of the 
most powerful nations and those with the most highly developed chemical 
industries. The CWC which is now before the Senate operates on the 
basis of one country, one vote.
    The fact that the United States might have no voice in setting 
policy for implementing the CWC but would surely be bound by its 
decisions is one important reason that the U.S. Senate should not 
ratify this treaty.
    There are others.
    Most of the countries in the Human Rights Commission have ratified 
the Declaration on Universal Human Rights.
    Will the United States ratifying the CWC make the world safer?
    Mr. Chairman, did the Maginot Line do any harm to France in World 
War II? Most French think so. It gave them the impression that they had 
taken care of a dangerous threat: an invasion from the East; when in 
fact, they were in as much danger as ever. The Maginot Line created a 
comforting illusion which lulled France into a false sense of security 
and facilitated Hitler's conquest.
    The world is less dangerous today than during most of my lifetime. 
I cherish this sense of lessened threat. But we are not so safe we can 
afford to create a false sense of security by pretending that we have 
eliminated the threat of chemical weapons. President Bill Clinton said, 
``We will have banished poison gas from the Earth.'' It will not be so. 
We had better do some hard thinking about how to defend ourselves and 
the world against the poison gases that have been and will be produced 
whether or not we ratify.
    I think the Senate should reaffirm the U.S. sense of responsibility 
and commitment to a peaceful world and decline to ratify this treaty 
unless or until it becomes verifiable, enforceable, and universal. 
There is a long way to go.
    Thank you.

    The Chairman. Thank you, Madam Ambassador.
    Let me say to the visitors here today and those who are 
watching on television that I have been to several functions 
that shared the podium with the distinguished Jeane 
Kirkpatrick, who, by the way, is a Senior Fellow of the 
American Enterprise Institute and, as almost everybody knows, 
she is a former U.S. Ambassador to the United Nations. But 
everywhere I go or have gone, where she has appeared likewise, 
I have sensed that she is one of the most respected women in 
America. We are honored to have you with us today.
    Ambassador Kirkpatrick. Thank you, Mr. Chairman.
    The Chairman. Now, we move to Mr. Richard N. Perle, who is 
one of the best informed individuals I know. He is formerly 
Assistant Secretary of Defense for International Security 
Policy. I do not know how many times I have called on Richard 
for information and guidance on various issues. We are 
certainly glad to have you here, and you may proceed, sir.
    Senator Biden. Mr. Chairman, you do not have any idea how 
many times we have regretted that you called on him, because he 
is so persuasive. I hope you are not so good today, Richard.
    The Chairman. Just watch him.

 STATEMENT OF RICHARD N. PERLE, FORMER ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Mr. Perle. Mr. Chairman, thank you very much for inviting 
me.
    Senator Biden, I can assure you I would not have come today 
if I did not think there was a very strong case to be made. I 
will try to take seriously your injunction to keep my eye on 
the ball.
    In fact, I think my colleague and friend Jeane Kirkpatrick 
clearly identified the ball when she described the way in which 
the Nonproliferation Treaty, without anyone ever having 
intended that it should work this way, had the effect of making 
technology for the production of nuclear material far more 
readily available than it might have been otherwise--a defect 
that unhappily is reproduced like a computer virus in the 
Chemical Weapons Convention.
    Before I get into the key point I want to make today, let 
me say that I have chosen to focus on one issue--one rather 
narrow issue. I think that is in fact the ball that Senator 
Biden has in mind. My colleague Doug Feith, from whom you will 
hear shortly, has prepared a more comprehensive statement that 
deals with other aspects of the treaty in a thoroughly 
convincing and understandable way. I agree entirely with the 
points that Doug will soon be making.
    But I want to restrict myself to one key point. That is, as 
it happens, the point that Sandy Berger was concerned to deal 
with in the letter with which he provided you. I take that 
letter as confirmation of the fact that the National Security 
Adviser, like others, have begun, under the exigency of 
imminent action on this treaty, to understand that there are 
problems in the treaty that need to be addressed. I wish they 
had been addressed at an earlier stage in the proceedings. That 
is to say, while the treaty was under negotiation. Because had 
the ball that Sandy Berger has now found been seen earlier, we 
would have a treaty without Article X in it, and probably 
without Article XI in it.
    Had we been more attentive, had we learned the lesson of 
the Nonproliferation Treaty, had we thought through the means 
by which countries may in future acquire a meaningful military 
chemical weapons capability, I am quite convinced that we would 
not have allowed Article X to become a part of this treaty.
    What Jeane had to say about the Nonproliferation Treaty 
applies to this Convention in spades. The reason why I say in 
spades, Mr. Chairman, is that the production of nuclear 
material clandestinely from facilities that are intended for 
peaceful purposes and that are monitored by the IAEA--not 
perfectly, but monitored--is a very difficult thing to 
accomplish. Building nuclear power plants is not easy. 
Operating them is not easy. Handling nuclear material is not 
easy.
    Chemical weapons, on the other hand, pose an entirely 
different set of issues. The production of lethal chemicals 
which can be used for military purposes is not difficult. Any 
facility capable of producing insecticides, any facility 
capable of producing fertilizer can, with relatively minor 
modifications--well within the capacity of any country that has 
an insecticide or a fertilizer plant--be converted to the 
production of chemicals. Indeed, some of the chemicals of 
concern are not even barred under this treaty, because they are 
already so widely spread around the world.
    So the acquisition of lethal chemicals for military 
purposes is easy. But the possession of lethal chemicals is 
not, by itself, sufficient to constitute a military capability. 
Because in order to use chemical weapons for military purposes, 
you have to be able to protect your own troops. The soldiers 
that go into the field, the pilots that drop canisters, the 
artillerymen that launch chemical shells all need to be 
protected themselves. Otherwise, their missions become 
suicidal. They are difficult enough even if they are protected 
themselves.
    So what is difficult about acquiring a chemical weapons 
capability, a military capability, is not the offense; it is 
the defense. The offense is easy. The defense is very hard.
    Article X of this treaty says that the parties to the 
treaty, the signatories, will be entitled to receive help in 
the development of the hard thing--the defensive capabilities. 
In fact, it requires participants who enter into this in good 
faith to assist them.
    I want to read the exact words of Article X, because I have 
a feeling that, by the time the Senate votes, everyone will 
have understood that this is the ball that we have to keep 
clearly in focus. Paragraph 3 of Article X reads as follows:

    Each state party undertakes--undertakes--to facilitate and 
shall have the right to participate in the fullest possible 
exchange of equipment, material and scientific and 
technological information concerning means of protection 
against chemical weapons. The parties undertake.

    Paragraph 6 of Article X reads:

    Nothing in this convention--nothing in this convention [if 
we had drafted this up here, it would say notwithstanding any 
other provision of law] nothing in this convention shall be 
interpreted--shall be interpreted--as impeding the right of 
states parties to request and provide assistance bilaterally 
and to conclude individual agreements with other states parties 
concerning the emergency procurement of assistance.

    So Article X not only pledges the parties, they undertake 
to share everything that is hard to achieve in a chemical 
weapons capability--the defensive side--but, in fact, 
anticipating the possibility that someone might say, well, we 
interpret this differently, words have specifically been 
included that say nothing in this convention shall be 
interpreted as impeding.
    Now, what are we talking about when we talk about the 
assistance, the fullest possible exchange, and so forth? That 
is defined in Article X. It refers inter alia to detection 
equipment and alarm systems, protective equipment, 
decontamination equipment and decontaminants, medical antidotes 
and treatments, and advice on any of these protective measures. 
In short, everything you need, combined with the offensive 
chemicals themselves, to constitute a militarily effective 
chemical weapons capability.
    Senator Biden. Mr. Chairman, I am sure Mr. Perle would not 
mind my asking. Can I ask a clarification question?
    Mr. Perle. Sure.
    Senator Biden. What does Paragraph 7 mean?
    Mr. Perle. The paragraph I read to you, nothing in this 
convention shall be----
    Senator Biden. No. Each party undertakes to provide 
assistance through the organization and, to this end, to 
elect--to elect to take one or more of the following measures. 
Does that modify it? That is all I am trying to bring up.
    Mr. Perle [continuing]. No. I do not believe it does.
    It sets up a mechanism, which actually makes matters a 
little bit worse. Because the Secretariat will become a 
repository--not the only repository, because this envisions 
bilateral cooperation, as, for example, between China and Iran 
or China and Pakistan. But the Secretariat will now become a 
repository of information about defensive technology.
    So the span of control of the United States will be 
diluted, to the extent to which the United States does not 
constitute the Secretariat all by itself, which of course it 
will not.
    Senator Biden. I thank you. I have a different view, but I 
will wait until my time for questions.
    Mr. Perle. So I think it is reasonable to speculate that if 
we go ahead and approve this convention as it is now written, 
we will look back 1 day--5 years from now, 7, 10 years from 
now, maybe sooner--and we will unhappily identify states who 
got their chemical weapons capability through the sharing that 
is going to take place pursuant to Article X.
    The administration argues that, well, we are not going to 
do that. Of course, we are not going to give our defensive 
technology to rogue states. You would have to be out of your 
mind to do that. We have no intention of doing that. It is 
certainly the right of the administration to enter into an 
undertaking without any intention of carrying it out, because 
it runs counter to one's common sense. Some people would call 
that bad faith. I think it would be justified bad faith if we 
were unhappily unable to avoid the undertaking in the first 
place, which we are still in a position to avoid.
    But there are a great many other countries that also 
possess defensive capabilities and defensive technology. They 
may not be so willing to act in bad faith. Indeed, they may be 
actually rather eager to find a basis for sharing the kinds of 
defensive technologies, equipment, know-how, and so forth that 
we are talking about here.
    So if, for example, the challenge were to discourage the 
Chinese from assisting the Pakistanis, would not the Chinese 
invoke Article X of the treaty and say, we understand your 
feelings about this, Mr. President, but we undertook to share 
this technology. You are not asking us to violate a solemn 
undertaking, are you?
    I think our capacity to persuade others will be 
significantly diminished by virtue of the undertakings in 
Article X, which we may enter into in bad faith, but others 
will not.
    Let me give you a proliferation scenario just for 
illustrative purposes. Let us take Iran as the example. Iran 
has already signed, and I assume it will ratify the convention. 
I think there is evidence that Iran presently has a chemical 
weapons capability. But let us say that the Iranians, upon 
entering the Chemical Weapons Convention, decide to abandon 
that offensive capability. It is a matter of converting some 
plants that are now producing chemicals to the production of 
insecticide or fertilizer. What can you do from left to right, 
you can do from right to left.
    So Iran now ceases to have an offensive chemical weapons 
production capability. It is, therefore, in strict compliance 
with the terms of this convention. That is what I would do if I 
were Mr. Rafsanjani and wanted a chemical weapons capability. 
Because I do not today have the defensive side of the equation.
    So I would eliminate any violation by ceasing illegal 
activity. Now I would invoke Article X, and I would go to other 
countries and say, ``We have no offensive capability. We are in 
full compliance. You are obliged--you have undertaken to share 
with us the defenses.'' I promise you there will be countries 
that will accommodate them--for a price--maybe even without 
insisting on much of a price. Who could argue against it, since 
they will be, at that point, in full compliance?
    So a period of time elapses, during which the Iranians, who 
were clever, acquire all the defensive technology they need. 
They acquire, in the words of the treaty, detection equipment 
and alarm systems, protective equipment, decontamination 
equipment and decontaminants, medical antidotes and treatments, 
and advice on all of the above.
    Once they have that firmly in hand, once they have the 
difficult part of acquiring a chemical weapons capability, now 
they restart the production of offensive chemicals. But it is 
too late. We will have supplied them the thing that they cannot 
now easily achieve. They will put part A and part B together, 
and they will have a chemical weapons military capability. The 
instrument by which they will have achieved this is the 
convention that we are now talking about ratifying.
    Let me conclude, Mr. Chairman, by saying two other things. 
One about how we could get into this situation. How could we be 
at this stage of the proceedings, with so many countries having 
signed this agreement, with the Senate about to take it up, 
having overlooked--because that is the only fair way to 
describe it--the portentous implications of Article X?
    There is another article, Article XI, which tends very much 
in the same direction, and I think it will have a similar 
result.
    I had occasion to discuss this treaty recently with a 
senior official of this government, a cabinet level official. I 
asked this person about Article X. This person did not know 
about Article X. Now, Article X has become better known in the 
last 72 hours. But a couple of weeks ago, there were an awful 
lot of very senior officials of this government who did not 
know about Article X and did not know about the problem.
    You wonder how this could happen. Well, it happens in the 
following way. The United States makes a decision to propose a 
treaty on chemical weapons and a draft is put together. The 
draft did not have Article X in it. We sent a team of people to 
Geneva, and they come back 10 years later, basically. For 10 
years, they are working away on this convention.
    The people who are receiving their cables in Washington are 
very often people who were in Geneva, because there is a kind 
of rotation. This is how it works in the real world. So you get 
an intellectually incestuous relationship among the Geneva 
people and the Washington people, with almost no adult 
supervision. The individuals involved in this invest a great 
deal of their time, years of their lives, in attempting to 
bring about a treaty.
    Somebody insists on an Article X, or maybe a group of 
countries insist on an Article X. It is 10 years after we got 
started on this, and we want to bring this treaty home. It is 
the experts who are making the decision. No President reads the 
treaty. No Secretary of State reads the treaty. No Under 
Secretary. No Assistant Secretary. I promise you, Mr. Chairman, 
this treaty, 160 pages long, has not been read by anyone who 
was not paid full-time to work on it.
    So terrible mistakes can be made--mistakes in which 
somebody loses sight of the ball along the way. That is what 
comes to the Senate for ratification.
    One last point. Senator Feinstein asked about verification. 
How would verification be improved if the United States 
remained outside the treaty? It is a fair question. The answer 
is counterintuitive. So let me take a quick shot at it.
    I think it would be improved in two ways. First of all, I 
think we would do a better job of keeping to ourselves the 
means by which we detect violations. Jeane Kirkpatrick made 
reference to the fact that Iraq had served on the governing 
board of the IAEA. They were there for a good reason.
    The Iraqi Government did not contribute the full-time 
talent of one of its senior officials for the benefit of the 
IAEA; I promise you that. He was there to learn as much as he 
could learn about how the IAEA went about detecting illegal 
activity. He was an intelligence officer. I promise you that 
the organization responsible for implementing this agreement 
will be full of intelligence officers, including intelligence 
officers from countries who are eager to discover how they 
might be caught if they had a clandestine program.
    So we will end up educating the very people whose programs 
we are trying to stop in how to avoid getting detected in the 
first place. So that is one way in which we will be worse off. 
We do not have to educate them now, but we will then.
    Second, and this is a more subtle point, once activity 
becomes illegal, the way in which information about it is 
collected and analyzed and reported acquires an entirely 
different meaning than when it is simply intelligence about the 
activities of others.
    When we are interested in the capabilities of a Russian 
missile, we employ technicians who look at the test data that 
they are able to acquire, who look at photography, who look at 
all sources of intelligence; and they make a judgment about the 
capability of that missile; and they say how far they think it 
can go; and they say what size warhead they think it can carry.
    They say everything to the best of their ability about that 
missile; and they do not think about the implications of their 
answer, because their job is to unearth the truth about that 
missile.
    But now, suppose there is an arms control regime in which 
that missile, if its range is over 600 kilometers, is a 
violation of a treaty; but if it is only 595 kilometers it is 
not a violation of a treaty, and you are now responsible for 
deciding whether to send to the President a report that says, 
we believe the range of this missile to be 650 kilometers, 
which has very important political implications. At that point, 
an element of political judgment enters into the assessment of 
intelligence.
    I saw this day in and day out as we grappled with the 
question of how to interpret what we were seeing in the old 
Soviet Union in the cold war days, so I believe that the 
objectivity with which we view the evidence becomes inevitably 
colored by political considerations when the issue is not, what 
do we know, but is what we know going to touch off a crisis 
because we have now caught someone violating the treaty; and 
that requires some response on our part.
    So I do not accept the now hourly-passed-off view that we 
are going to do more with this treaty than without it, which is 
the conventional wisdom; but I think it overlooks these two 
very important points.
    I am sorry for going on too long, Mr. Chairman. Thank you 
very much.
    The Chairman. You have not at all, and I thank you very 
much.
    Now we have another long-time friend of all of us, Dr. Fred 
Ikle, former Director of the Arms Control and Disarmament 
Agency. We appreciate you coming, sir. We will be glad to hear 
from you now.

 STATEMENT OF DR. FRED C. IKLE, FORMER DIRECTOR, ARMS CONTROL 
                     AND DISARMAMENT AGENCY

    Dr. Ikle. Thank you, Mr. Chairman. I am honored to be 
invited here.
    The previous witnesses, Ambassador Kirkpatrick and Richard 
Perle, made so many of the important points of what effectively 
is a sad story that I can be quite brief. It is a sad story; 
because as witnesses yesterday mentioned, there were good 
intentions behind this treaty, and we all are--the witnesses 
yesterday and today--are horrified by the potential of chemical 
weapons and would like to see them banished from the face of 
the Earth.
    Ambassador Kirkpatrick very tellingly brought back the 
nonproliferation treaty, which of course was preceded by the 
Atoms for Peace program. President Eisenhower with that program 
also had very good intentions. In fact, he got enormous kudos 
in the press when he presented that program. It was one of his 
greatest public affairs successes, and--as it turns out now 
from hindsight--one of the main contributors to nuclear 
proliferation.
    I can add to the telling points Richard Perle made about 
Article X and the related culprit, Article XI about the 
assistance in chemical manufacturing technology. Here, there is 
something a bit startling in the discussion we had. By and 
large the discussion in Congress and in the media has been very 
thoughtful on both sides, serious arguments, honestly felt.
    It is all the more regrettable here that on the question 
relating to Article XI it looks like some misinformation has 
deliberately been infiltrated into our discussion, and that is 
the allegation which a number of people here picked up 
innocently, the allegation that the United States would lose 
seriously in chemical manufacturing exports if we did not 
ratify the treaty.
    For a while, the administration spokespersons mentioned a 
number like $600 million lost per year in U.S. exports, 
legitimate chemical manufacturing exports. When pressed on 
where that number came from, the administration said: ``talk to 
the Chemical Manufacturing Association.'' When the people there 
were asked, they really were unable to give an explanation.
    So we did some further digging into this question; and it 
turns out the only exports that the U.S. could no longer make, 
if it did not become a party to the treaty, to other treaty 
members like Germany, Japan, and the U.K., would be the poison 
gas itself, which of course we do not want to be exporting, and 
the most dangerous ingredients to be used in gas warfare.
    Schedule I type chemicals is poison gas itself. There are 
no exports, obviously, from the United States of any 
importance. Schedule II, that may have some role in pesticides, 
but exports are much more limited than the $600 million figure 
suggested.
    So why has this export damage been so vigorously mentioned, 
particularly by the Chemical Manufacturing Association 
representatives that are urging the Senate to ratify this 
treaty? I think the answer, I believe, is that some people 
there relish the prospect that the Chemical Weapons Convention 
would undo the restrictions of the Australia Group, precisely 
the thing Senator Biden expressed serious concern about, and 
rightly so.
    Now, this is a serious charge to make, and maybe I had 
better have a couple of exhibits for my case. One, I was not 
able to fully nail down. Maybe you could have this done, Mr. 
Chairman. Last fall, in the House of Representatives, a step 
was taken--exactly where it came from I do not know, it would 
seem to have the support of the Chemical Manufacturing 
Association--to lift the licensing requirements for chemical 
weapons exports to the member states of the convention before 
even the United States had ratified the treaty.
    Then, Members--colleagues of yours--I think yourself, Mr. 
Chairman, Senator Pell, Senator Glenn, Senator Kyl in a 
bipartisan effort stopped that premature dismantling of our 
licensing requirements.
    The more definitive exhibit goes further back. In testimony 
before this committee on June 9, 1994, a spokesman conveying 
the support of the Chemical Manufacturing Association said, and 
I quote, ``There are several significant reasons why the 
chemical industry supports the CWC. Those chemical 
manufacturers do not make chemical weapons. Our industry does 
produce commercial chemicals which can be illegally converted 
into weapons. An effective CWC could have the positive effect 
of liberalizing--liberalizing the existing system for export 
controls applicable to our industry's products, technologies, 
and processes.''
    So I think there is at least a partial explanation for the 
enthusiasm of the CMA for this treaty. Now, that is perhaps in 
some ways a serious charge. I think it is.
    Let me add one more point there. To the extent I have been 
able to find out, and I know some other people have confirmed 
this, this is not a charge against the most senior officials of 
the industry who are members of the association. I have talked 
to CEO's of large chemical companies, including in Delaware, 
who have never heard of the treaty while it was in process and 
while the representatives here in town of the CMA have been 
working together with this club in Geneva that Richard Perle 
described, and nourished the support for this treaty.
    So I think we have to first of all get rid of the idea that 
not ratifying the treaty would damage the exports of the United 
States chemical industry, the legitimate, important exports; 
and second I think we have to put a question mark behind the 
support alleged by the CMA of the responsible senior officials 
in the chemical industry.
    Thank you, Mr. Chairman.
    The Chairman. I thank you, Dr. Ikle. I think the 
legislation you were talking about was H.R. 364, and that would 
have just devastated the U.S. export controls.
    Now we come to Doug Feith, former Deputy Assistant 
Secretary of Defense for Negotiation Policy, and by George, I 
am anxiously awaiting hearing from you. Thank you for coming 
in.

  STATEMENT OF DOUGLAS J. FEITH, FEITH AND ZELL, P.C., FORMER 
  DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR NEGOTIATION POLICY

    Mr. Feith. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to appear before this committee again on this 
important question. I agree with Dr. Ikle that the debate on 
the Chemical Weapons Convention has been of remarkably high 
quality for a matter so complex. I have a statement that I 
would appreciate the committee admitting for the record, and 
what I would like to do now is just touch on some of the points 
in my written statement, if that is acceptable.
    The Chairman. Very well. Without objection it will be so 
ordered.
    Mr. Feith. Thank you.
    Both sides in this debate have established substantial 
common ground. Both sides agree that the treaty is not 
verifiable, if by verifiable we mean confidence in detection by 
U.S. intelligence of illegal clandestine stockpiling or 
production of chemical weapons. No one in the intelligence 
community has ever said the treaty is verifiable by that 
standard.
    It is worthwhile to stress that the verification problem 
here is not the lack of perfection. The problem is not that we 
would detect cheating only 90 percent or 50 percent of the 
time. The problem is that chemical weapons production is so 
easy to do and to conceal that it is inherently impossible to 
achieve any degree of confidence, let alone high confidence, 
that we could detect it even regarding militarily significant 
quantities of chemical weapons.
    Someone once drove this point home by saying that the 
Chemical Weapons Convention is like an effort to ban 
Hollandaise sauce without banning eggs and butter. Treaty 
critics believe that it would not serve the anti-chemical-
weapons cause for us to join a ban that we know will be 
ineffective, impossible to monitor properly, and impossible to 
enforce.
    I speak as a lawyer devoted to the principle of law. The 
world would surely be a better place if law in fact played a 
greater role in securing international peace and civilized 
behavior, but we do not move toward this goal by promulgating a 
patently ineffective treaty. A chemical weapons ban that states 
know they can sign cynically and violate without punishment 
will not shore up the international norm against such weapons. 
Creating bad law is not the way to build respect for law. The 
CWC will cheapen the currency of international law.
    The wiser approach, in my opinion, to chemical weapons arms 
control is embodied in the bill S. 495, authored by Senator Kyl 
and cosponsored by Senators Lott, Helms, and others. The United 
States should work to obtain international agreement on 
mechanisms for enforcing the existing treaty that bans 
initiation of chemical warfare. We should put teeth in the 1925 
Geneva Protocol.
    If that treaty were properly enforced, there clearly would 
not be any need for the CWC; and if the Geneva Protocol 
continues to be violated with impunity, then there is no hope 
that the CWC will be respected, for violations of the CWC are 
far less discoverable and provable and far less likely to 
horrify worldwide opinion than violations of the non-use ban.
    What of the point that we might as well ratify the CWC as 
we are destroying the U.S. chemical arsenal anyway? It is 
better, in our view, to destroy our arsenal unilaterally than 
to enter into a treaty that we know will not accomplish its 
purpose. By acting unilaterally, we produce some of the key 
benefits hoped for from the CWC without taking on the treaty's 
undesirable baggage. Our action makes a strong moral statement 
against chemical weapons, but it does not lend our name to the 
dishonest proposition that Iran, China, or others have actually 
abolished their chemical weapons arsenals.
    Which brings us back to the question highlighted by Senator 
Feinstein: Whether we are better off with the inspection and 
information rights that the CWC will provide, or without. On 
balance, we are better off without.
    The CWC's verification regime stands on two legs. The first 
is voluntary disclosure. Most of the regime is based on what 
the parties voluntarily declare about their own holdings of 
chemical weapons, manufacturing facilities and the like. 
Virtually all the CWC's inspections will be at so-called 
declared facilities, that is, locations that each party will 
itself declare to be subject to inspection.
    Nearly all the large budget of the new CWC organization 
based in The Hague will be allocated to inspecting declared 
facilities and processing the parties' voluntary declarations. 
Does anyone expect a country like Iran or China or Russia to 
declare a facility in which it is planning to produce or store 
illegal chemical weapons? The declarations and the inspections 
of declared facilities will yield our government little, if 
anything, of value to augment what we already know from our own 
national intelligence means.
    Looking for chemical weapons at declared facilities brings 
to mind the joke about the drunk who looks for his keys under 
the street lamp rather than some ways off where he dropped 
them, because there is more light under the lamp.
    The verification regime's second leg is challenge 
inspection. That is, inspection of a facility that was not 
declared. This is often talked of as if it were a tool for 
adding to our knowledge, or for finding violations. It is not. 
One cannot spot check a country the size of Iran, much less 
China, by means of challenge inspections.
    The purpose of challenge inspections is to try to embarrass 
a state that one has by other intelligence means caught in a 
violation. So it is incorrect to think that we will learn much 
of substantive value through challenge inspections.
    Moreover, the CWC's challenge inspection provisions were 
watered down in the negotiations to the point where they are 
not even a useful tool for embarrassing cheaters. Parties will 
easily be able, within the treaty's terms, to delay and 
otherwise defeat the purposes of the challenge inspection 
provisions.
    The issue of whether the CWC will produce a net gain for 
our intelligence capabilities must also be considered in light 
of the harm that will result from participation in the 
international inspection program by unreliable states, as 
Ambassador Kirkpatrick and Mr. Perle highlighted, and as 
Secretary Schlesinger highlighted yesterday.
    I would simply emphasize that when rogue states learn how 
to inspect, they learn how to conceal, and in this regard I 
think it should disturb the Senate that the administration has 
taken steps to begin training foreign CWC inspectors even 
before the Senate has acted on this treaty. I understand that 
some government agencies are resisting this effort, and I urge 
this committee to inquire into this.
    Now, Articles X and XI of the CWC have received a great 
deal of attention lately, and these provisions are a major part 
of the reason that the CWC will do more harm than good, as has 
been explained very well.
    I do want to reemphasize in response to the textual 
analysis that Senator Biden mentioned that the argument that 
Article X, paragraph 3, the most troubling provision, is 
overridden by Article I, is, I believe, flatly contradicted by 
what paragraph 6 says, that nothing in this convention shall be 
interpreted as impeding the right of States' Parties to provide 
assistance.
    The people who drafted this provision anticipated precisely 
the argument that Article I might override Article X, paragraph 
3, and they took care of it by nailing it in paragraph 6. This 
is a serious problem.
    As for Article XI, it prohibits, or at least expresses 
disapproval of export restrictions in the chemical field among 
treaty parties.
    Unlike the language of Article X, that of Article XI is not 
completely unqualified, so the administration has been able to 
offer an interpretation that renders this provision 
meaningless, a legal nullity.
    But whether or not the administration's interpretation is 
valid, I would argue that it is beside the point--the real 
issue is not--and I want to emphasize this point. The real 
issue is not what the United States itself will export, but 
what third countries will want to sell to the Irans of this 
world.
    For export controls to be effective they must have 
multilateral support, which is hard to organize. If a German or 
Chinese company arranges to sell an advanced chemical plant to 
Iran, and the U.S. Government protests that this would enhance 
Iran's chemical weapons program, we can expect the German or 
Chinese Government to cite Article XI for the proposition that 
the sale is not only permitted but required by the CWC; for 
Iran will be a party in good standing, or in any event a party 
against whom no violation can be proved.
    Whatever one thinks of the CWC overall, no one can deny 
that it would be a better or less bad treaty if the so-called, 
``poisons for peace'' provisions were fixed.
    Though I think the Senate should reject the CWC outright, 
some treaty critics would be willing to withdraw their 
opposition if only the Senate would ensure that Articles X and 
XI are properly amended before U.S. ratification. Such critics 
argue that to be minimally acceptable the CWC should at least 
not undermine the very interests--stemming chemical weapons 
proliferation--that it aims to promote.
    Administration officials counter with the argument that it 
would be embarrassing for the United States at this late stage 
to insist that the treaty be amended. They say this would 
destroy our diplomatic credibility.
    While it would to some extent be embarrassing, it is also 
embarrassing to ratify a treaty with provisions as perverse as 
Articles X and XI. As for our diplomats' credibility, the 
effect of forcing amendments of Article X and XI could be 
powerfully positive.
    If the administration's interpretations of those provisions 
are widely held, then the amendment should not be unduly 
difficult to arrange. If they are so difficult, this would 
confirm that the provisions are a problem, and the United 
States should not ratify until the problem is resolved.
    If the administration, as is likely, then succeeds in 
getting the needed amendments, the influence of our diplomats 
would be enhanced. The next time a multilateral forum proposes 
a treaty with a bizarre provision adverse to our interests, our 
negotiators would be able to declare credibly that that 
provision will preclude Senate approval of the treaty. This 
will strengthen our hand.
    A final point regarding deadlines. Many states of concern 
to us--Syria, Libya, Iraq, and North Korea--have not signed the 
CWC. Although some such states, specifically Russia, China, 
Iran, and Cuba, have signed; none of these latter four has yet 
ratified. The administration insists that it is crucial that 
the United States ratify the CWC before April 29, but if we do 
we will be the only state party that actually has a significant 
chemical weapons capability.
    April 29 is an artificial deadline. Any time the United 
States might decide to become a party, it will, because of its 
military and financial status, be afforded an appropriate 
position of influence in the treaty organization if we assert 
ourselves properly.
    This is true because we are to pay 25 percent of the total 
budget of the new organization. It is true also because the 
other major states in this field are waiting for the United 
States before they decide whether to ratify. If the Senate is 
ready to act before April 29, then well and good, but the 
Senate should not, in my opinion, hasten its deliberations 
simply to make a meaningless deadline.
    Thank you very much.
    [The prepared statement of Mr. Feith follows:]

                 Prepared Statement of Douglas J. Feith

    Chairman, I appreciate the opportunity to appear before you again 
on this important question. It was in March 1996 that I last had the 
honor to address this committee on why I think the Senate should not 
consent to ratification of the Chemical Weapons Convention (CWC). 
During the Reagan Administration, I served as Deputy Assistant 
Secretary of Defense for Negotiations Policy and my responsibilities 
included the chemical weapons treaty negotiations.
    The debate on the CWC has been of remarkably high quality for a 
matter so complex. The sides have engaged each other intelligently and 
generally respectfully and have established substantial common ground. 
They agree that chemical weapons are evil. Specifically, all four of us 
on this panel--Fred Ikle, Jeane Kirkpatrick, Richard Perle and myself--
agree with the treaty's proponents that it would be desirable to 
eliminate these weapons from the world entirely and that the United 
States should continue to destroy its own chemical weapons, as we are 
already doing, whether or not the United States joins the CWC. We all 
favor the CWC's goal. We all agree that the chemical weapons threat in 
the world is a problem the gravity of which the world should never 
underestimate. In fact, a key reason for opposing the CWC is that it 
will falsely advertise that the chemical weapons threat has been 
mitigated when it has not.
    The debate has also made clear that both CWC proponents and critics 
acknowledge that the treaty has flaws. Both sides agree that the treaty 
will not be global and will not cover a number of the states of 
greatest concern to us.
    Both sides also agree that the treaty is not verifiable, if by 
``verifiable'' we mean confidence in detection by U.S. Intelligence of 
illegal, clandestine stockpiling or pro- 
duction of chemical weapons. No one in the intelligence community has 
ever said the treaty is verifiable by that standard. It is worthwhile 
to stress that the verification problem here is not the lack of 
perfection. The problem is not that we would detect cheating only 90 
percent or even only 50 percent of the time. The problem is that 
chemical weapons production is so easy to do and to conceal that it is 
inherently impossible to achieve any degree of confidence--let alone 
``high confidence''--that we could detect it, even regarding militarily 
significant quantities. Someone once drove this point home by saying 
that the CWC is like an effort to ban hollandaise sauce without banning 
eggs and butter.
    In her testimony before this Committee yesterday, Secretary of 
State Albright argued for the CWC by asserting that rogue states would 
be subject to unprecedented verification measures and ``will probably 
be caught'' if they violate the treaty. The Secretary of State was 
incorrect in this assertion and there is no intelligence authority in 
the government that would confirm her claim.
    Both sides in the CWC debate agree that the treaty will not 
actually eliminate chemical weapons from the world. And both sides 
agree that the CWC is in essence a moral statement against chemical 
weapons, a declaration that the civilized nations abhor these weapons 
and think that no one should possess them.
    The debate now has a rather precise focus: Given the importance of 
the chemical weapons problem and given that the CWC has its flaws, is 
the United States better served by ratifying the treaty or not. Treaty 
proponents say that the United States is better off if the world enacts 
this new international law against possession of chemical weapons, even 
if we know that key countries will violate it. They also say that we 
are better off with the inspection and information rights that the CWC 
will provide than without. Treaty critics contend that the treaty will 
not accomplish its purpose and will actually exacerbate the chemical 
weapons problem in the world.
    Treaty critics believe that it would not serve the anti-chemical-
weapons cause for us to join a ban that we know will be ineffective, 
impossible to monitor properly and impossible to enforce. I speak as a 
lawyer devoted to the principle of law. The world would surely be a 
better place if law in fact played a greater role in securing 
international peace and civilized behavior. But we do not move toward 
this goal by promulgating a patently ineffective new treaty. A chemical 
weapons ban that states know they can sign cynically and violate 
without punishment will not shore up the international norm against 
such weapons. On the contrary, it will damage that norm even more 
severely than it was harmed by the world's failure to uphold the 1925 
Geneva Protocol on Chemical Weapons when Iraq violated that venerable 
treaty in the late 1980's.
    Creating bad law is not the way to build respect for law. The ill-
conceived CWC will cheapen the currency of international law. The wiser 
approach to chemical weapons arms control is embodied in the bill, S. 
495, authored by Senator Kyl and cosponsored by Senators Lott, Nickles, 
Mack, Coverdell, Helms, Shelby and Hutchison: The United States should 
work to obtain international agreement on mechanisms for enforcing the 
existing treaty that bans initiation of chemical warfare. In other 
words, we should put teeth in the 1925 Geneva Protocol. If that treaty 
were properly enforced, there would clearly be no need for the CWC. And 
if the Geneva Protocol continues to be violated with impunity, then 
there is no hope that the CWC will be respected, for violations of the 
CWC are far less discoverable and provable and far less likely to 
horrify world opinion than violations of the non-use ban. If one cannot 
get the world excited about disfigured corpses produced by violations 
of the Geneva Protocol, it is unrealistic to expect tough enforcement 
action when U.S. officials allege clandestine storage somewhere of some 
chemical bulk agent.
    What of the point that we might as well ratify the CWC as we are 
destroying the U.S. chemical arsenal anyway? It is better, in my view, 
to destroy our arsenal unilaterally than to enter into a treaty that we 
know will not accomplish its purpose. By acting unilaterally, we 
produce some of the key benefits hoped for from the CWC without taking 
on the treaty's undesirable baggage. Our action makes a strong moral 
statement against chemical weapons. But it does not lend our name to 
the dishonest proposition that Iran, China or others have actually 
abolished their chemical weapons arsenals. The world can verify our 
compliance with our self-imposed ban by reading the Congressional 
Record. We then do not have to participate in a costly, wasteful, 
intrusive but ineffective verification regime that is more likely to 
spread militarily relevant chemical weapons technology than contain it.
    Any other chemical weapons state that wants to follow our lead can 
do so, also unilaterally. Each will have the opportunity to persuade 
the world as best it can that it is doing what it has promised. This 
way, states will not obtain a clean bill of health simply by signing a 
treaty and subjecting themselves to an inspection regime that they know 
is easy to defeat.
    Which brings us back to the question of whether we are better off 
with the inspection and information rights that the CWC will provide or 
without. On balance, we are better off without. Treaty proponents 
stress that the CWC's verification provisions are unprecedented in 
their elaborateness and intrusiveness, which is true. But they will 
contribute little of any importance to what we need to know about the 
chemical weapons threat in the world.
    The CWC's verification regime stands on two legs. The first is 
voluntary disclosure. Most of the regime is based on what the parties 
voluntarily declare about their own holdings of chemical weapons, 
manufacturing facilities, chemical stocks and the like. Virtually all 
the inspections to be conducted under the CWC will be of so-called 
``declared facilities''--that is, locations that each party will itself 
declare to be subject to inspection. Routine inspections will focus 
exclusively on ``declared facilities.'' Nearly all the large budget of 
the new CWC organization based in the Hague will be allocated to 
inspecting ``declared facilities'' and processing the parties' 
voluntary declarations. Does anyone expect a country like Iran or China 
or Russia to declare a facility at which it is planning to produce or 
store illegal chemical weapons? The declarations and the inspections of 
``declared facilities'' will yield our government little if anything of 
value to augment what we already know from our own national means of 
intelligence. Looking for chemical weapons at ``declared facilities'' 
brings to mind the joke about the drunk who looks for his keys under 
the street lamp rather than some ways off, where he dropped them, 
because there is more light under the lamp.
    The CWC verification regime's second leg is challenge inspection--
that is, inspection of a facility that was not ``declared.'' This is 
often talked of as if it were a tool for adding to our knowledge or for 
finding violations. It is not. One cannot spot check a country the size 
of Iran, much less China, by means of challenge inspections. The 
purpose of challenge inspections is to try to embarrass a state that 
one has, by other intelligence means, caught in a violation. So it is 
incorrect to think that we will learn much of substantive value through 
challenge inspections. Moreover, the CWC's challenge inspection 
provisions were watered down in the negotiations to the point where 
they are not even a useful tool for embarrassing cheaters. Parties will 
easily be able, within the treaty's terms, to delay and otherwise 
defeat the purposes of the challenge inspection provisions.
    The issue of whether the CWC will produce a net gain for our 
intelligence capabilities must be considered also in light of the harm 
that will result from participation in the international inspection 
program by unreliable states. As Secretary Schlesinger noted before 
this committee yesterday, Iraq in the 1970's and 1980's learned a great 
deal about how to conceal its nuclear weapons program through 
participating in the inspection regime of the Nuclear Non-Proliferation 
Treaty. When rogue states learn how to inspect, they learn how to 
conceal. In this regard, I think it should disturb the Senate that the 
Administration has taken steps to begin training CWC inspectors even 
before the Senate has acted on the treaty. I understand that some 
government agencies are resisting this effort. I urge this committee to 
inquire into this.
    Articles X and XI of the CWC have received a great deal of 
attention, including at this committee's hearing yesterday with the 
three former Secretaries of Defense--Rumsfeld, Schlesinger and 
Weinberger--who opposed ratification. These provisions are a major part 
of the reason that the CWC will do more harm than good. These 
provisions will promote the spread of chemical defense and other 
technology that will make it easier for states to develop a chemical 
war fighting capability than if the CWC did not exist.
    Article X obliges the parties to facilitate the exchange with the 
other parties of chemical weapons defense material and technology. To 
have an effective chemical war fighting capability, one must have 
defense material and technology to protect one's own forces. Article X 
will establish the right of Iran, for example, to obtain such items 
from Germany, France, China or some other state. And it will establish 
the right of the would-be sellers to provide such items to Iran. The 
language of Article X is straightforward. Paragraph 3 says:

        Each State Party undertakes to facilitate, and shall have the 
        right to participate in, the fullest possible exchange of 
        equipment, material and scientific and technological 
        information concerning means of protection against chemical 
        weapons.

    And Paragraph 6 says:

        Nothing in this Convention shall be interpreted as impeding the 
        right of States Parties to * * * provide assistance * * * 
        [where ``assistance'' is defined as ``delivery * * * of 
        protection against chemical weapons, including * * * detection 
        equipment and alarm systems; protective equipment * * *; 
        decontamination equipment * * *; medical antidotes * * *; and 
        advice on any of these protective measures].

    As Richard Perle has pointed out, the CWC prohibits that part of a 
chemical weapons capability that is easy for states to make for 
themselves: the weapons themselves. The other part of that capability--
defense material and technology, which is relatively ``high tech'' and 
difficult to acquire--is precisely what the treaty affirmatively 
requires the parties to proliferate.
    Similarly, Article XI prohibits--or at least expresses disapproval 
of--export restrictions in the chemical field among treaty parties. 
Unlike the language of Article X, that of Article XI is not completely 
unqualified, so the Administration has been able to offer an 
``interpretation'' that renders this provision meaningless, a legal 
nullity. This allows Administration officials to assert that the United 
States will maintain export controls on Iran and others notwithstanding 
Article XI. Whether or not the Administration's interpretation is 
valid, it is beside the point.
    The real issue is not what the United States itself will export, 
but what third countries will want to sell to the Irans of this world. 
For export controls to be effective, they must have multilateral 
support which is hard to organize. To return to the example above: If a 
German or Chinese company will arrange to sell an advanced chemical 
plant to Iran and the U.S. government protests that this would enhance 
Iran's chemical weapons program, we can expect the German or Chinese 
government to cite Article XI for the proposition that the sale is not 
only permitted but required by the CWC, for Iran will be a treaty party 
in good standing (or, in any event, a party against whom no violation 
can be proved). There is precedent for such a colloquy. The Clinton 
Administration protested against a Russian sale of a nuclear reactor to 
Iran. The Russians replied by citing the provisions in the Nuclear Non-
Proliferation Treaty--the ``atoms for peace'' section--on which CWC 
Articles X and XI are modeled. This is why Fred Ikle has referred to 
Articles X and XI as ``poisons for peace.''
    Whatever one thinks of the CWC overall, no one can deny that it 
would be a better (or less bad) treaty if the ``poisons for peace'' 
provisions were fixed. Though I think the Senate should reject the CWC 
outright, some treaty critics would be willing to withdraw their 
opposition if only the Senate would ensure that Articles X and XI are 
properly amended before U.S. ratification. Such critics argue that, to 
be minimally acceptable, the CWC should at least not undermine the very 
interest--stemming chemical weapons proliferation--it aims to promote.
    Administration officials counter with the argument that it would be 
embarrassing for the United States, at this late stage, to insist that 
the treaty be amended. They say this would destroy our diplomatic 
credibility. While it would, to some extent, be embarrassing, it is 
also embarrassing to ratify a treaty with provisions as perverse as 
Articles X and XI. Also, the Clinton Administration could take comfort 
from the fact that the error of agreeing to those provisions was 
committed not by itself but by the Bush Administration.
    As for our diplomats' credibility, the effect of forcing amendments 
of Articles X and XI could be powerfully positive. If the 
Administration's interpretations of those provisions are widely held, 
then the amendments should not be unduly difficult to arrange. If they 
are so difficult, this would confirm that the provisions are a problem 
and the United States should not ratify until the problem is resolved. 
If the Administration, as is likely, then succeeds in getting the 
needed amendments, the influence of our diplomats would be enhanced. 
The next time a multilateral forum proposes a treaty with a bizarre 
provision adverse to our interests, our negotiators would be able to 
declare credibly that that provision will preclude Senate approval of 
the treaty. This will strengthen our hand.
    A final point regarding deadlines. Many states of concern to us--
Syria, Libya, Iraq and North Korea--have not signed the CWC. Although 
some such states--specifically Russia, China, Iran and Cuba--have 
signed, none of these latter four has yet ratified. The Administration 
insists that it is crucial that the United States ratify the CWC before 
April 29, but if we do, we shall be the only state party that actually 
has a significant chemical weapons capability.
    April 29 is an artificial deadline. Any time the United States 
might decide to become a party, it will, because of its military and 
financial status, be afforded an appropriate position of influence in 
the treaty organization. This is true because we are to pay 25 percent 
of the total budget of this new organization. It is true also because 
the other major states in this field are waiting for the United States 
before they decide whether to ratify. If the Senate is ready to act 
before April 29, then well and good. But the Senate should not, in my 
opinion, hasten its deliberations simply to make a meaningless 
deadline.
    Thank you.

    The Chairman. Thank you, sir. That concludes the testimony.
    Now, we have two or three Senators on this side coming 
back. I think we had better limit ourselves in the first round 
to 5 minutes, if that is satisfactory.
    Senator Kerry. Mr. Chairman, is it possible to get a little 
more? Five minutes is really very difficult to develop any 
line.
    The Chairman. Well, it will eat into the time of the 
proponents of the treaty.
    Senator Kerry. We have got all day.
    Senator Biden. Admiral Zumwalt has to leave here at 4:30, I 
am told. Maybe----
    Senator Kerry. Well, I will go along with it, then.
    The Chairman. All right. Let us try 5 minutes.
    Dr. Ikle, I have a letter dated March 13 from the Aerospace 
Industries Association. It states that a strong concern that 
the CWC will, and I quote from the letter, ``unnecessarily 
jeopardize our Nation's ability to protect its national 
security information and proprietary technological data.''
    Now, this treaty, as we know, will permit foreign 
inspectors into thousands of U.S. businesses to poke around, 
interview employees, take photographs, and take samples home 
for analysis there. Now, given your assessment of the foreign 
policy benefits of this treaty, if any, do you think it makes 
sense to subject U.S. companies, private companies, to this 
danger of the theft of millions of dollars in trade secrets?
    Dr. Ikle. I like the way, Mr. Chairman, you put the 
question--``given the benefits of the treaty.''
    If the treaty was of major benefit, clearly verifiable in 
other aspects and it enhanced arms control objectives, maybe 
that was a risk we would want to take, that on occasion some 
very clever disguised intelligence person, disguised as an 
objective inspector, could pick up some valid information.
    But that is not the case. The benefits of the treaty, even 
as seen by the supporters, are not that strong, and from what 
we have heard today, they are a negative. From what we have 
heard so far among the witnesses today, what you can obtain by 
samples that can be analyzed in a national laboratory back home 
by instruments which can be carried with you, brought into the 
places where chemicals are prepared for our sensitive weapons 
systems, could be very, very significant.
    I remember from my days in the Pentagon the briefings that 
I received of analyses that our intelligence organization had 
made in other places, and how much we learned from just 
somebody walking through with the right little instrument in 
his pocket. So that is very serious.
    Incidentally, if I may insert here a further thought, as if 
all of this was not bad enough, some supporters who want to 
hasten the ratification of the Chemical Weapons Convention 
argue that it should be followed up then by a verification 
scheme for biological weapons.
    As Arms Control Director, I took the biological weapons 
treaty before this committee. Senator Fulbright was sitting in 
the chair at the time, and I explained right away that it was 
not verifiable but it was a useful thing to have as a statement 
of our opposition to biological weapons, and I do not regret 
that. I think it is useful even now in Iraq, because it caught 
Iraq violating the agreement that they had signed.
    But if you want to follow that up with an inspection team 
on biological weapons--many people in the bureaucracy are now 
working on that, in this process that Richard Perle described 
to Geneva and back here without ``adult supervision''--it is 
ten times as dangerous, the things you can then steal from 
these so-called onsite inspections to get really way ahead in 
biological weapons. So it is dangerous here, and if you cannot 
stop the follow on it will be really catastrophic.
    The Chairman. I thank you, sir.
    Ambassador Kirkpatrick, you hear a lot of arguments that 
nonratification of the CWC will mark the forfeiture of U.S. 
leadership in the fight to eliminate chemical weapons from the 
face of the Earth. That is almost a quote-unquote from voice 
after voice after voice orchestrated by the White House. Do you 
agree, or do you believe that the rest of the world will 
continue to look to the United States with or without this 
treaty?
    Ambassador Kirkpatrick. Mr. Chairman, actually I think that 
to the extent that the rest of the world looks to us for 
leadership, and I think we sometimes exaggerate that leadership 
in our own minds, I do not think it will be affected much by 
what we do on this treaty; and I will tell you why.
    The reason is that our reputation for leadership in the 
military, scientific, and technological domain rests not only 
on our clear undoubted excellence and long lead on other 
nations, but also in our willingness to assume responsibility 
for responding to dangerous challenges.
    We have done this again and again, and I think we will 
continue to offer that kind of leadership. Sometimes that 
requires standing alone, or standing nearly alone and saying, 
should we not consider what the implications of this are for 
the spread of chemical weapons in the Middle East, North 
Africa, and Europe?
    I think that those nations that have a high regard for us 
might even have a higher regard for us.
    The Chairman. I think so, too. Senator Biden. My time is 
up.
    Senator Biden. Thank you very much. In the interests of 
time I am going to focus on only one issue, and I think we all 
acknowledge that sometimes the more persuasive we make one of 
our arguments against the treaty, the more irrelevant another 
argument becomes.
    For example, it is kind of interesting that I think 
Ambassador Kirkpatrick and Mr. Perle have made very strong 
arguments against universality of the treaty, because if they 
are correct then the last person you want in this, Mr. 
Chairman, is Korea and the other rogue nations, Iraq and Libya; 
so I think it is a very compelling argument against 
universality.
    Mr. Feith makes a very compelling argument that one of the 
reasons why verification does not work is because the Bush 
administration responded to what Ronald Reagan wanted done, and 
that was he wanted intrusive investigations that were 
inspections that maybe would violate our Fourth Amendment, and 
so we fixed the Fourth Amendment. There is no Fourth Amendment 
problem here, notwithstanding what people assert, and I think 
you would acknowledge that. You may not want to, but as a good 
lawyer I believe you would have to. I know you looked at it.
    So the administration fixed one piece and made the 
inspections, the relevance of inspections that were challenge 
inspections less relevant.
    But let me focus on this notion that paragraph or Article X 
is so bad. Let me tell you folks how I read it, and Mr. Perle, 
I would like to direct this to you, but I will not limit it to 
you, although I would like to get in one other question before 
the light goes out.
    As I read it, and I might point out, Mr. Feith, paragraph 6 
is not affected--does not in any way limit paragraph 1. 
Paragraph 6 refers to bilateral, not international regimes but 
bilateral, and so the issue here is whether or not we are going 
to contribute to, in effect, this fund. We are going to put in 
this information that can be disbursed by this international 
organization.
    All paragraph 6 is about is saying that if we want to keep 
our deal going with NATO, if we want to keep our deal going 
with our allies, we can do that.
    But as I see this, multilateral is the only way to limit 
these chemical weapons, yet paragraph 6 on Article X refers to 
bilateral. Paragraph 1, which defines assistance, I believe 
trumps paragraph 3, but ultimately paragraph 1's definition 
lies in paragraph 7. It defines what international assistance 
is. That is where it is defined.
    Within that, it says that international assistance is the 
following, that you can provide assistance, and to this end 
elect--elect one or more of the following so there is no 
requirement, as I read Article X, and as constitutional 
scholars I have spoken to--and this is not a constitutional 
issue, but legal scholars I have spoken to, there is no 
requirement of the United States to throw anything into the pot 
but what it decides it wishes to throw in, and to that end, 
Senator Helms and I have been negotiating conditions, which 
leads to my question.
    A condition that says--let me get it here--that requires 
the United States--requires the United States not to contribute 
to the voluntary fund for chemical defense assistance anything 
other than certain medical antidotes and treatment, which is 
what is listed in paragraph 1, so if we are not in the treaty, 
the point you made still pertains. If England or if France or 
if anyone else is going to transfer this technology to Iran, 
they are going to do it whether we are in it or not.
    If we are in the treaty, we are not obliged to do that, and 
to clarify that--at least I am, and I assume the Chairman still 
is--willing to attach a condition to the treaty defining our 
interpretation of Article X and limiting what can or cannot be 
transferred to what is mentioned, medical antidotes and 
treatments.
    I am not asking you to accept it. I would just like your 
view, Mr. Perle, whether that would--assume the worst from your 
perspective, that the treaty passes. Is it better to have that, 
and if it is, how much better is it?
    Mr. Perle. I do think, Senator, that paragraph 3, which 
describes the undertaking, is not qualified by the elaboration 
of the various means in paragraph 7. I do not think that was 
ever the intention.
    It will, I am sure, not surprise you to know that in the 
course of negotiation at one time paragraph 3 read, ``each 
State Party guarantees to facilitate.''
    The United States thought that was too much, and maybe 
others did as well, so we ended up compromising on 
``undertakes,'' as though--the point, in objecting to 
``guarantee,'' the American representative made it very clear 
that he did not think he could fall back on the interpretation 
you have just offered of paragraph 7 to limit the extent of the 
undertaking.
    Senator Biden. My time is up. I would disagree with that. I 
would argue statutory interpretation, the specific controls the 
general. The specifics in paragraph 7, the legal judgments I 
have gotten comport with this.
    Mr. Perle. Senator, if I could just answer the question 
with a kind of question, if we could fix this treaty, I mean, I 
am sure that you would agree that the cleanest solution would 
be to eliminate the whole of Article X. Why not do that?
    Senator Biden. I think the cleanest solution would be to 
limit our participation in the treaty to define this the way in 
which we intended, or at least we intended here; because I 
think to go back and renegotiate an entire treaty, we are 
another 10 years down the road, but we can fix it by doing this 
in my view.
    Mr. Perle. But if it means what you say it means, and other 
parties to the treaty understand that, then it seems to me it 
would be a breeze to change it.
    The Chairman. Because of this point, I am going to allow 
you about 45 seconds, which I will take off my time.
    Mr. Feith. I appreciate that, Senator. I would just say, 
Senator Biden, if everybody in the Senate devoted the kind of 
meticulous attention to the words that you have done, I am 
confident that there would be a much greater understanding and 
much less support for the treaty.
    I do compliment you on paying close attention. This treaty 
looks worse when you look at it closely, so I very much applaud 
your careful attention.
    Senator Biden. Now, that is a nice smart-ass comment.
    Mr. Feith. When you said that if we are out of the 
agreement we will not be bound, and the Germans or the British 
will be participating under the terms of this article, that is 
true.
    If, on the other hand, the United States made clear that 
the condition for our coming into the treaty is fixing this 
provision, without which, I think we can all agree the treaty 
would be better off--the fact that you have to do so elaborate 
an interpretation makes it clear that we will have difficulties 
when we go to other countries. Even if we could persuade 
ourselves of your interpretation, on which reasonable people 
can differ, when we go to persuade other countries, that is the 
nub of the issue: going to Germany or China or whoever and 
trying to get their cooperation on export controls----
    Senator Biden. No, that is not is how it is happening here.
    Mr. Feith [continuing]. We are going to have great 
difficulty. The treaty would be better off without this 
provision complicating things.
    The Chairman. Thank you. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and I wish to thank 
the panelists. You have provided an awful lot of very 
significant insight, and I, as well as all of my colleagues, am 
grateful, and thank you.
    I am going to help my friend Senator Biden here, because I 
am going to follow along that path that he has taken. Is this, 
in your opinion--and I would like to hear from each of you--a 
treaty, a convention that is one that you can rehabilitate? Is 
it one that you think we can still work on and, if it is, what 
do we do? Do we eliminate X and XI, amend it? If we were able 
to amend X and XI, would that satisfy the four of you?
    Each of you, I would like to have each of you, if you 
would, respond. Ambassador.
    Ambassador Kirkpatrick. I think it would be very 
significantly improved. I believe that the composition of the 
governing board requires attention as well.
    Senator Hagel. Thank you.
    Mr. Perle. Senator, I could support this treaty without any 
great expectations of its efficacy if we corrected the problem 
in Article X and Article XI, and I think that can be done. It 
took 10 years to produce this treaty with this serious flaw in 
it. I think it would take a great deal less time to eliminate 
the flaw. Nothing else would have to be renegotiated, only this 
one provision.
    Senator Hagel. In your opinion. Thank you. Sir.
    Dr. Ikle. I would agree that it would eliminate the damage 
to the down side. It would not make it into a great 
accomplishment, and it would still have some flaws on the 
intelligence collection; but it would be much less damaging, so 
that on balance maybe it could be passed, if it is really 
amended, Article X.
    Senator Hagel. Thank you.
    Mr. Feith. In my view, the treaty is a net loss from the 
national security point of view, in any event. I believe that 
the country would be better off if the Senate rejected the 
treaty and sent everybody back to the drawing board and did 
something constructive in this field.
    But one of the key questions is: How much of a net loss? I 
agree with all of my colleagues that the treaty would be far 
less bad if Articles X and XI were duly amended.
    Senator Hagel. So there we are, Mr. Chairman. We figured it 
out, and I will yield my time back. Thank you.
    The Chairman. Very good. He is a breath of fresh air in the 
Senate, I will tell you that.
    I am going to suggest that the Senator have 8 minutes to 
sort of compensate for whatever has run over with time.
    Senator Kerry. Thank you very much, Mr. Chairman. With my 
voice, I may need it.
    Welcome back to the panel. Let me, if I can, follow up on 
the question from Senator Hagel. Mr. Perle, I understand, then, 
from your answer to Senator Hagel that your chief, your 
principal objection to it resides in the transfer of 
technological scientific information, Article X, section 3, and 
then in Article XI, the entire question of technical 
information with respect to chemical, general chemical 
development, is that correct?
    Mr. Perle. Yes, although it is not just section 3 of 
Article X. It is really the whole of Article X.
    Senator Kerry. Well, let me ask you why--and I am having 
difficulty with this, but I am trying to keep open-minded about 
it. Reading Article I, which as you, I am sure, will agree, is 
the heart of this treaty and the overpowering article, it says 
that each party to the convention undertakes never under any 
circumstances--and I presume you will agree that any 
circumstances mean, under any circumstances, so that when you 
go to Article XI, or X, you are clearly defining within the 
context of Article I under any circumstance no party can ever 
transfer directly or indirectly chemical weapons to anyone.
    Therefore, all of Article XI with respect to development of 
any kind of chemical is clearly interpreted by the directly or 
indirectly clause of I.
    Second, it says that you can never undertake under any 
circumstances to develop or produce or otherwise acquire, 
stockpile, retain, to assist, encourage or induce anyone to 
engage in any activity prohibited under this convention.
    Now, I do not think any lawyer sitting here has any problem 
with that language, do we? Is there any confusion as to what is 
prohibited here?
    Mr. Perle. Senator, the problem is that until a State Party 
to the convention is found to have violated the convention by 
engaging in the production of chemical weapons----
    Senator Kerry. Precisely.
    Mr. Perle [continuing]. There is no basis upon which you 
could presume that Article I would permit you to avoid the 
undertaking of Article X or the promise of Article XI.
    Senator Kerry. Now, let us get to that. Now we are sort of 
going down the road.
    So therefore, under any circumstances, the only way we will 
ever be able to do anything about Article I or any of the 
others is to know what is going on.
    Mr. Perle. No, not to know what is going on. There is a 
very big difference between knowing what is going on and 
proving through the mechanisms of the institution that a 
violation has taken place.
    Senator Kerry. Right, but that is ultimately how you know. 
You prove it. You prove it through the challenge process, 
through the inspection process.
    Mr. Perle. No, I do not think you will ever prove anything 
through the inspection process.
    Senator Kerry. So no verification process----
    Mr. Perle. Could I just say one thing?
    Senator Kerry. Let me just ask you, are you saying that no 
verification process whatsoever would therefore be sufficient?
    Mr. Perle. I am saying you cannot verify the production of 
chemical weapons, because any plant that can be used for the 
production of permitted chemicals can also be used for the 
production of chemical weapons. There is a problem here.
    Senator Kerry. I understand that, and that can happen 
today, without the treaty.
    Mr. Perle. In 1997 a country that is not violating the 
agreement, and which is therefore entitled to all the benefits 
of Article X and XI, may exploit those benefits, invite 
international companies in to buildup their chemical industry 
as perfectly proper and perfectly legal, invite, solicit, 
receive cooperation in the development of the full range of 
defensive measures, and then, having accomplished all of that, 
violate Article I and some other point.
    Senator Kerry. But isn't the problem, can't they do that 
now anyway?
    Mr. Perle. Can they induce others to?
    Senator Kerry. They could invite anybody or induce anybody 
or pay anybody to do whatever they want today.
    Mr. Perle. The difference is the following. Let us take 
China and Pakistan as an example. The Germans complain that 
they are too frequently identified in this regard. The German 
industry is very aggressive in this regard, but set that aside, 
and take China and Pakistan.
    If China today engages in the sharing of chemical defensive 
technology with Pakistan, you can be sure that an American 
administration that is doing its job is going to be in Beijing 
remonstrating with the Chinese and saying, we think this is a 
very dangerous thing to do.
    Senator Kerry. But let me stop you there if I can for a 
minute.
    Mr. Perle. But suppose there was a treaty that says they 
must do it?
    Senator Kerry. I understand. Well, no. What it says is, 
they shall have the right to participate in the fullest 
possible exchange.
    Mr. Perle. Right.
    Senator Kerry. Now, possible is what is right and 
appropriate under Article I, which means----
    Mr. Perle. No, no. No, no. But there will have been no 
finding in the case of Pakistan, Senator. Pakistan is a 
legitimate recipient of assistance until Pakistan is found to 
have violated the agreement.
    Senator Kerry. Correct, but it is only as to defense, 
number 1, that they have a right to request anything.
    Mr. Perle. Well, both with respect to defensive, and with 
respect to commerce and chemicals.
    Senator Kerry. Defensive with respect to chemical weapons, 
and generically with respect to the development of a chemical.
    Mr. Perle. But the defense is the tough part. That is what 
is hard to do.
    Senator Kerry. But let me ask you, you were in the 
administration that offered to give the Russians Star Wars once 
we developed it. I mean, you were going to turn over the entire 
defense to them once we put it together. That was your plan.
    Mr. Perle. There is an important difference here.
    Senator Kerry. Which is?
    Mr. Perle. Which is that the defense in this case, the 
ability to operate in the presence of chemical weapons, is what 
makes the offensive capability possible.
    Senator Kerry. But that is exactly the same thing.
    Mr. Perle. No, it is not. The sharing of defenses in the 
earlier context was intended to permit both sides to eliminate 
the offensive capability.
    Senator Kerry. Correct.
    Mr. Perle. Not to make it feasible. It is exactly the 
opposite.
    Senator Kerry. I would disagree. If you are sharing a 
defensive capacity--I mean, Caspar Weinberger yesterday used a 
good example. If you have developed a foolproof gas mask, and 
you transfer the foolproof gas mask to another country, the 
likelihood, if you both have a foolproof gas mask, of either of 
you successfully using chemical weapons against each other is 
zero if it is foolproof, so the likelihood--I mean, you are not 
going to factor it into your military strategy. That was the 
same strategy in Star Wars.
    Mr. Perle. Well, we do not have chemical weapons, Senator, 
and we will not, so a foolproof gas mask--let me just put it 
this way. I would not worry if we had a foolproof gas mask, but 
I would certainly worry if Iran or Iraq or Libya had a 
foolproof gas mask, even if we also had one.
    Senator Kerry. But you see, you have already suggested that 
we are better off getting rid of our chemical weapons 
altogether, without any inspection regimen. Now, that is very 
hard for me to follow.
    Mr. Perle. Because I do not think they are militarily 
useful.
    Senator Kerry. Well, if they are not militarily useful, 
then you do not worry about what they have in terms of 
defensive capacity. You are going to deter it with nuclear 
weapons. We did not have any problem deterring Iraq, did we, 
during that war. It seems to me that there is a cold war 
philosophy going on here that you have got to have a 
technological edge, and you have to keep having the edge rather 
than struggling to go into a state of neutrality.
    Mr. Perle. I take very seriously what Jeane said, that 
chemical weapons are regarded in much of the Third World as the 
poor man's equivalent of nuclear weapons, and there is a lot of 
pressure to acquire these chemicals.
    We want to discourage that, and we want to discourage it in 
every possible way, and one way to discourage it is to make 
sure that the thing that is most difficult for a country 
desiring chemical weapons to accomplish, which is the 
acquisition of a defense, is made more difficult and not less 
difficult, and any treaty that promises to share that 
technology is just headed in the wrong direction. Why don't we 
fix it?
    The Chairman. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
want to thank the witnesses, because I think their testimony 
has really been very thought-provoking. I have been a proponent 
of the treaty, and I must say you have encouraged me to look at 
it in a very different way.
    I have read and reread Article X now about eight different 
times.
    But Mr. Perle, you make an interesting theorem, and that is 
that the effectiveness of any policy here is the defense, and 
if you can defend against it you create a spiral. I mean, you 
succeed.
    Do you have any information that the administration might 
have agreed to this section on a case-by-case basis?
    Mr. Perle. I am not sure I understand what you mean.
    Senator Feinstein. In other words, that this section would 
only be carried out provided they, the United States, had the 
right to reject a request.
    Mr. Perle. No, I have no information to that effect. I 
think it is our intention not to honor the undertaking. I mean, 
I would prefer that when we undertake to treaties----
    Senator Feinstein. You mean, to guarantee to undertake and 
then not honor--in other words, not carry out that section?
    Mr. Perle. I think we intend not to carry out what is a 
clear obligation.
    Senator Feinstein. That is No. 3.
    Mr. Perle. If we are burdened with this treaty then I, too, 
would be in favor of not honoring that commitment, because it 
would be a foolish thing to do.
    Senator Feinstein. Because I think you made a good 
argument. Why is Article X in there? Obviously, if somebody has 
an offensive use of a chemical weapon against them, I think the 
legitimate nations of this world are going to respond and try 
to be helpful as much as possible. I wonder why it is necessary 
to have this in it at all, in terms of the integrity of the 
treaty.
    Mr. Perle. I believe it is not, and more to the point, if 
you will allow me to say this, I think that if you came to the 
conclusion that it should not be there, and two or three of 
your colleagues joined you, we can get it out of there.
    Senator Feinstein. May I then go on, and thank you very 
much, to what Ambassador Kirkpatrick mentioned on the 
composition of the governing bodies. You mentioned that. That 
was the other concern that you had. What changes do you think 
are merited in the composition?
    Ambassador Kirkpatrick. Senator Feinstein, what concerns me 
with this governing body and comparable ones is the 
preponderance on the governing body of countries lacking in the 
technological sophistication and technological experience to 
make really well-informed judgments about handling these 
materials. That is what concerns me.
    I just do not think that the quality of the decisions will 
be nearly as reliable as they could be. They are dangerous in 
any case. We all agree that this is a dangerous subject, and 
any decisions dealing with it are going to be imperfect and 
leave some danger. But the more the board that makes the 
decisions knows, the more experience they have, the more 
detailed technological sophistication they have, the better 
their decisions will be. That is what concerns me about it.
    Senator Feinstein. Thank you very much.
    Mr. Chairman, I do not know whether this is possible or 
not, but I would very much like to have an administration 
response to the arguments made on Article X. I think the points 
made here are very good points. I wonder why Article X is 
really necessary.
    Senator Biden. I would be happy to give them to you. They 
have responded officially and on the record. I would be happy 
to make sure you get them.
    Senator Feinstein. All right. That is a major concern to 
me. I just make that point.
    Thank you very much.
    The Chairman. I thank you, Senator Feinstein.
    Lady and gentlemen, thank you so much for coming.
    Senator Biden. Mr. Chairman, before you dismiss this panel, 
could I have 30 seconds to try to clarify one point, if I may?
    The Chairman. Thirty seconds.
    Senator Biden. First of all, I think Article X--I disagree 
with the reading, but even if your reading is correct, I think 
it can be cleared up by a condition.
    But, Mr. Perle, you talked about the real world. The real 
world is Saddam Hussein, Qaddafi, or any of the rogue states. 
They are not going to worry about protecting their troops 
before they use chemical weapons. Nothing in their modus 
operandi would suggest that would even be a consideration for 
whether or not they would use chemical weapons, if they were 
going to use it, I would respectfully suggest.
    The Chairman. Very well.
    Senator Kerry. Mr. Chairman, could I have 20 seconds? I 
just want to clarify one point with Mr. Perle.
    The Chairman. It is your time, 20 seconds. Go.
    Senator Kerry. Thank you very much, sir.
    I just wanted to clarify with Secretary Perle that it is my 
understanding that nothing in the convention requires the 
finding of a treaty violation before Article I applies to that 
particular country. I think, in your answer to me, you were 
suggesting you had to first find the violation. I do not 
believe you do.
    Mr. Perle. In the illustration that I offered before, where 
the Chinese might be building a facility for Pakistan, I do not 
mean--I just chose Pakistan at random.
    Senator Kerry. I am not even picking those countries. I 
just mean generically.
    Mr. Perle. But any country pair. I do not see on what 
basis, Senator, we could prevail over the words and the 
obligations and the undertakings of the treaty itself if there 
had been no finding of a violation. Otherwise, you are saying, 
anybody can do whatever anybody wishes.
    Senator Kerry. Well, in effect----
    The Chairman. No, wait a minute, 20 seconds.
    Senator Kerry. Mr. Chairman, I think this is important to 
note.
    The Chairman. All of them are important, including the next 
panel.
    Senator Kerry. In effect, in this treaty, you can.
    The Chairman. Come on, Senator, I gave you more time than 
anybody else had.
    Senator Kerry. I appreciate that, Mr. Chairman. But I am 
not trying to abuse it. I just think the record is important 
here.
    Mr. Perle. I will be glad to call you after the hearing.
    Senator Kerry. There is a withdrawal capacity for national 
interest here. Any time we see the national interest, you have 
got 90 days to get out of this.
    Mr. Perle. Oh, yes, we can always get out of this treaty. 
But that is not going to solve any of the problems we are 
concerned about.
    The Chairman. Thank you, gentlemen and lady. We appreciate 
your coming so much.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman. The next panel consists of three friends of 
all of us. They have been around this place for a while.
    As I was saying, this panel not only consists of Americans 
who are well known, but they are friends of every one of us on 
the committee. General Scowcroft, I have known him ever since I 
came to this city, and that was a while ago. He is now 
President of the Forum for International Policy. He is former 
National Security Policy Advisor. Admiral Zumwalt is a member 
of the President's Foreign Intelligence Advisory Board, and he 
is former Chief of Naval Operations. Ed Rowny. He is the very 
Hon. Ed Rowny, my neighbor, former Ambassador, and Lieutenant 
General, U.S. Army, retired, International Negotiation 
Consultant, former Chief Negotiator for START I, and Special 
Arms Control Advisor, Washington, D.C.
    Now, I am going to have to depart for another meeting I 
cannot get out of, and Senator Hagel said that he would take 
the gavel for me. I have one question, if I may, out of order. 
That would be for Admiral Zumwalt.
    Sir, Article X has been criticized, because it promotes the 
spread of CW defense technology. Article XI has been 
criticized, because it tends to undermine multilateral export 
controls among treaty parties in the chemical field. Even 
regarding untrustworthy states like Iran, are the concerns 
about Article X and XI sensible? In other words, is it 
sensible, sir, to concern ourselves with whether Iran might 
more easily get CW defense or other technology as a result of 
these Articles? Would the United States of America be better 
off if Articles X and XI are fixed before the CWC is ratified? 
Three questions.
    Admiral Zumwalt. It is a fair question to raise in 
connection with Articles X and XI, in my judgment. The answer, 
in my judgment, is that non-ratification to seek a modification 
at this time would, in essence, delay the participation of the 
United States, in the mechanism that is being set up for a very 
large number of years, and that the organization created by 
those that have ratified it in sufficient numbers would operate 
with all of the advantages and disadvantages the critics on 
either side are citing.
    I believe that we would be better off to ratify the treaty 
and to work from within the system, with the considerable 
powers we bring, both financial and political, to make any 
modifications over time than we would to let this new treaty 
regime operate without the insider influence of the U.S. 
Government.
    The Chairman. Very well.
    Now Senator Hagel is going to take the chair and the gavel. 
Why do not you, since you are under time constraints, go with 
your statement first, sir, followed by Ed Rowny and Mr. 
Scowcroft.
    Senator Biden. Again, thank you, Mr. Chairman, for 
accommodating this panel. I appreciate it.

  STATEMENT OF E.R. ZUMWALT, JR., ADMIRAL, UNITED STATES NAVY 
 (RETIRED), MEMBER, PRESIDENT'S FOREIGN INTELLIGENCE ADVISORY 
                             BOARD

    Admiral Zumwalt. Thank you, Mr. Chairman.
    Since I was notified, Mr. Chairman and members of the 
committee, just yesterday of the requirement to be here, I 
would submit for the record an article I have written and a 
letter which I co-authored, which state the positions I have 
taken on this treaty. I, of course, recommend that it be 
ratified.
    I found myself disappointed to have to be at crosshairs 
with the distinguished panel that just preceded he me, because 
they are all good friends of mine; but I take issue with a 
number of things that were said.
    First, with regard to the Nuclear Proliferation Treaty, I 
was a part of the group that analyzed the capabilities of the 
nations of the world to acquire nuclear weapons before the 
Nuclear Proliferation Treaty was considered. We estimated that 
there were somewhere between 20 and 30 nations, within a period 
of 10 years, that would have the nuclear capability. In my 
judgment, the Nuclear Proliferation Treaty has, without a 
question of a doubt, slowed down the rate of acquisition of 
nuclear weapons.
    It was not a perfect treaty. It could have been made more 
perfect if it could have been negotiated, but it was not 
negotiable in any other form. It has accomplished its mission 
far better than no regime would have permitted it be 
accomplished. I think the same thing can be said with regard to 
this Chemical Weapons Convention.
    We hear that it is a disadvantage that we will not get the 
rogue nations in. The rogue nations will not come in whether or 
not the United States ratifies it. It will make no difference 
whatsoever with regard to the situation in the world whether or 
not we ratify insofar as the rogue nations are concerned. It 
has been said that because they would not come in, the treaty 
is therefore useless.
    In my judgment, the international regime that the treaty 
gives us--the ability to sanction the rogue nations that do not 
come in--is not there without U.S. membership and thus 
effective U.S. influence as it is for those like Iran who do 
come in. But the conventional sanctions that we are capable of 
bringing about in other ways are still there for us to operate. 
In other words, insofar as those who do not come in are 
concerned, I think this treaty, ratification or not, is 
irrelevant.
    With regard to the Article X issue, I think it has been 
quite clear, both based on what lawyers have told us and what 
Mr. Berger for the administration has told us, that the 
undertaking to facilitate does not obligate the United States 
to do more than has been discussed here; namely, to provide, if 
it chooses to do so, the kind of help that would not in any way 
harm us.
    The ability for us to get more access is an important thing 
to me as a member of the President's Foreign Intelligence 
Advisory Board. I have just finished service on a subcommittee 
of that group, which has examined our ability to gain the 
appropriate intelligence in the BW field and the CW field and 
in the nuclear field. I can tell you that we need to improve it 
and that, however less than perfect it might be, the 
opportunity to inspect is going to give us additional 
information which can be cross-compared with what we get 
through other sources in the intelligence community. It will, 
without a doubt, enhance our ability to know more about what is 
going on.
    That, coupled with the fact that we have an international 
regime, if we ratify the treaty, to work within, the fact that 
the treaty will cause, at the very least, the disposition of 
masses of volumes of poisonous substances-- after all the 
nations who are ratifying it will be obligated to eliminate 
their volume--make it less available for the terrorists groups 
and for the rogue nations to get, in one way or another.
    I worry about a decision to reject. I worry about a 
decision to qualify in a way that does not provide formal 
ratification. I think that the logical course for the United 
States, now that we have reached this point, with a treaty that 
is going to come into effect whether or not we ratify it, is 
that we are better off to work within the system, use our 
financial powers and our political powers to seek the 
modifications that are necessary and to pick up the advantages 
that are there.
    Thank you, Mr. Chairman.
    [The information referred to by Admiral Zumwalt follows:]

                                           Washington Post,
                                                   January 6, 1997.

                    A Needless Risk for U.S. Troops

                         [by E. R. Zumwalt Jr.]

    It has been more than 80 years since poison gas was first used in 
modern warfare--in April 1915 during the first year of World War I. It 
is long past time to do something about such weapons.
    I am not a dove. As a young naval officer in 1945, I supported the 
use of nuclear weapons against Japan. As chief of naval operations two 
decades ago, I pressed for substantially higher military spending than 
the nation's political leadership was willing to grant. After retiring 
from the Navy, I helped lead the opposition to the SALT II treaty 
because I was convinced it would give the Soviet Union a strategic 
advantage.
    Now the Senate is considering whether to approve the Chemical 
Weapons Convention. This is a worldwide treaty, negotiated by the 
Reagan administration and signed by the Bush administration. It bans 
the development, production, possession, transfer and use of chemical 
weapons. Senate opposition to ratification is led by some with whom I 
often agree. But in this case, I believe they do a grave disservice to 
America's men and women in uniform.
    To a Third World leader indifferent to the health of his own troops 
and seeking to cause large-scale pain and death for its own sake, 
chemical weapons have a certain attraction. They don't require the 
advanced technology needed to build nuclear weapons. Nor do they 
require the educated populace needed to create a modern conventional 
military. But they cannot give an inferior force a war-winning 
capability. In the Persian Gulf war, the threat of our uncompromising 
retaliation with conventional weapons deterred Saddam Hussein from 
using his chemical arsenal against us.
    Next time, our adversary may be more berserk than Saddam; and 
deterrence may fail. If that happens, our retaliation will be decisive, 
devastating--and no help to the young American men and women coming 
home dead or bearing grievous chemical injuries. What will help is a 
treaty removing huge quantities of chemical weapons that could 
otherwise be used against us.
    Militarily, this treaty will make us stronger. During the Bush 
administration, our nation's military and political leadership decided 
to retire our chemical weapons. This wise move was not made because of 
treaties. Rather, it was based on the fact that chemical weapons are 
not useful for us.
    Politically and diplomatically, the barriers against their use by a 
First World country are massive. Militarily they are risky and 
unpredictable to use, difficult and dangerous to store. They serve no 
purpose that can't be met by our overwhelming conventional forces.
    So the United States has no deployed chemical weapons today and 
will have none in the future. But the same is not true of our potential 
adversaries. More than a score of nations now seek or possess chemical 
weapons. Some are rogue states with which we may someday clash.
    This treaty is entirely about eliminating other people's weapons--
weapons that may someday be used against Americans. For the American 
military, U.S. ratification of the Chemical Weapons Convention is high 
gain and low or no pain. In that light, I find it astonishing that any 
American opposes ratification.
    Opponents argue that the treaty isn't perfect: Verification isn't 
absolute, forms must be filled out, not every nation will join at first 
and so forth. This is unpersuasive. Nothing in the real world is 
perfect. If the U.S. Navy had refused to buy any weapon unless it 
worked perfectly every time, we would have bought nothing and now would 
be disarmed. The question is not how a treaty compares with perfection. 
The question is how U.S. ratification compares with its absence.
    If we refuse to ratify, some governments will use our refusal as an 
excuse to keep their chemical weapons. Worldwide availability of 
chemical weapons will be higher, and we will know less about other 
countries' chemical activities. The diplomatic credibility of our 
threat of retaliation against anyone who uses chemical weapons on our 
troops will be undermined by our lack of ``clean hands.'' At the bottom 
line, our failure to ratify will substantially increase the risk of a 
chemical attack against American service personnel.
    If such an attack occurs, the news reports of its victims in our 
military hospitals will of course produce rapid ratification of the 
treaty and rapid replacement of Senators who enabled the horror by 
opposing ratification. But for the victims it will be too late.
    Every man and woman who puts on a U.S. military uniform faces 
possible injury or death in the national interest. They don't complain; 
risk is part of their job description. But it is part of the job 
description of every U.S. Senator to see that this risk not be 
increased.

    [See page 25 for the letter to which Admiral Zumwalt 
referred.]

    Senator Hagel [presiding]: Admiral Zumwalt, thank you very 
much.
    In the interest of time, what Senator Biden and I have 
agreed to do, if it is OK with your fellow panelists, is get 
the last 15 minutes we have with you, Admiral, with questions. 
So, with that, the Chairman had a question and I would turn to 
Senator Biden.
    Senator Biden. I understand the Admiral has a 4:30 plane, 
if you guys do not mind. I will be very brief.
    Thank you, Mr. Chairman.
    Admiral, did not the Nonproliferation Treaty regime help us 
mobilize the world reaction to North Korea's violations?
    Admiral Zumwalt. In my judgment, it did; yes, sir.
    Senator Biden. And would we have been able to make a 
credible threat of international sanctions had there been no 
such treaty?
    Admiral Zumwalt. Clearly the regime, the NPT, made that 
more feasible and more effective.
    Senator Biden. And did not that point you are making about 
the CWC, that, at least at a minimum, it establishes a norm 
against which, when violations are clear, we can mobilize world 
opinion and justify actions we would likely take that we might 
not be able to justify in world opinion?
    Admiral Zumwalt. Absolutely. It is a less than perfect 
step, but far better than the present system.
    Senator Biden. In the interest of time, obviously, this is 
going to be somewhat more of a statement than a question. I 
think you have made five very valid points. That is, as I 
translate them, everything the critics say is wrong with this 
treaty would be worse if you did not have the treaty. 
Everything that is wrong with the treaty would be worse if you 
did not have the treaty.
    The last point that you made, which you referenced, is 
political power. As it relates to Article X and Article XI, 
even if my interpretation is wrong, which I believe it is not--
and most legal scholars do not believe it is either--but even 
if it is wrong, the place in which we are going to be able to 
impact on whether or not another nation transfers technology, a 
defensive technology, to a rogue state will not be through a 
treaty provision, it will be through our economic power. We 
just flat say to Germany and Britain and France and the rest--
we will either say it or we will not--we will either say, if 
you do, you have got a problem, and here is the problem, let me 
define it for you.
    I know that Brent Scowcroft met with his counterparts in 
Germany, France, England, and Italy, and every other country in 
the world, when they were engaged in things that we might have 
had questions about. So the point you make, I think, should not 
be missed. Our significant political, military, and economic 
power with nations that have the capability of transferring 
technology is what is going to determine whether they transfer 
technology.
    The last point I would make is, the Australia Group, I 
think they all--and there are 26 of them who have ratified--
they all believe that Article XI in no way, in no way, impedes 
the organizational structure of the Australia Group and the 
commitment they have made to one another.
    Anyway, there is more to say, but I thank you for being 
here, and especially for the notice. I jerked you all around, 
because we were unable to get a commitment as to when. I 
apologize. But I thank you for being here.
    Admiral Zumwalt. Thank you.
    Senator Hagel. Senator Biden, thank you.
    If it is appropriate and OK, what I would like to do, we 
have got 10 minutes left, maybe we could break it down into 3-
minute pieces. That way we give our three colleagues an 
opportunity to each ask a question.
    Senator Frist.
    Senator Frist. Admiral, thank you for being here today. In 
the interest of time I have just one question regarding the 
countries who have not signed on, the so-called rogue nations, 
whether it be Syria or Iraq or North Korea or Libya. If we did 
not sign on or if we do sign on, either way, how do you see 
this treaty really impacting those particular nations?
    Admiral Zumwalt. I think, with or without the treaty, we 
can continue to impose sanctions on those rogue nations who 
have not come in. With the treaty, we can clearly impose 
sanctions on them if they do not respond to our right to 
inspect. So it seems to me that we lose nothing and gain 
something by the ratification. The fact that that regime exists 
as of April 29th, whether or not we are in it, means that we 
are foregoing a great opportunity to shape for the better a 
regime that does exist. We cannot stop that existence.
    Senator Frist. And by our not participating but still 
having the regime there, say once again how our presence is 
going to affect those nations.
    Admiral Zumwalt. Well, the Chairman of this committee, in 
my judgment, has done a good job of shaping up the United 
Nations by withholding funds. The same thing can be done, or 
the other means of asserting political power can be used, 
working within the organization, while having the influence of 
being a member.
    Senator Frist. Thank you, Admiral.
    Senator Hagel. Senator, thank you.
    Senator Kerry.
    Senator Kerry. Thank you very much.
    Admiral, welcome. What do you think would be the impact 
with respect to Russia and their potential participation if we 
do not ratify?
    Admiral Zumwalt. I believe that Russia is likelier to come 
in if we ratify than if we do not--far likelier. I believe that 
we can continue to use all the same kind of methods that we 
have used to shape up, if I may use that expression, the 
Russians to date, by helping and withholding.
    Senator Kerry. Do you, in reading either Article XI or 
Article X, do you perceive any overt or discernible conflict or 
do you have to search for the conflict that has been described 
with respect to Article X and the rights and fundamental 
obligations of this treaty?
    Admiral Zumwalt. If I understand the points they have made, 
I do not--I think there is a consensus on both sides that we do 
not find ourselves forced, if we ratify, to do anything that is 
harmful to us. The issue is then, what about the other members 
of the regime? I repeat again, they are in that regime whether 
or not we ratify. So that their conduct is something that we 
will have more opportunity to influence from within than from 
without.
    Senator Kerry. Now, Admiral, you were Chief of Naval 
Operations and have had a remarkable career, in charge of our 
young people in harm's way. I think that you--and General 
Scowcroft likewise, and I will come to him later with this 
question--but based on your military career and the 
responsibilities that you have had to exercise, in your 
judgment, are our military forces and our young people in 
uniform better off with this treaty or without?
    Admiral Zumwalt. In my judgment, as I say in the documents 
that I will submit for the record, they are better off with us 
within the treaty than they are without. I believe that it 
would be a disservice to our men and women in uniform if we 
stay outside this regime, which in any event is going to come 
into existence on April 29.
    Senator Kerry. And the principal reason in shorthand for 
that is?
    Admiral Zumwalt. That we have the ability better to 
influence from within than from without. Pluses and minuses 
notwithstanding, the regime exists as of April 29th.
    I might also add, Senator, that you used to take orders a 
lot better than you do now.
    Senator Kerry. Well, I was elected not to take orders.
    Thank you. I share with my colleagues that the Admiral was 
my commanding officer when I was in Vietnam; yes, he was. I had 
the privilege of having him pin my Silver Star on my chest at a 
beach in Vietnam. So it is nice to have him here.
    Admiral Zumwalt. For a very well deserved act of courage.
    Senator Hagel. Senator, for that, you get an extra couple 
of minutes.
    Senator Kerry. For that, I have learned not to take them.
    Senator Hagel. I was going to say, your life is a lot 
easier right now, Senator. Seriously, if you would have any 
questions, we have a little extra time.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Admiral, welcome.
    Admiral Zumwalt. Thank you.
    Senator Feinstein. I wanted to go back again to I think the 
central point that Mr. Perle made, which was developing a 
defense against chemical weapons is perhaps the greatest 
incentive to the development of chemical weapons, in the sense 
that if you can defend against them adequately, it creates 
perhaps an incentive to be able to use them--and particularly, 
I guess, with the mentality that might use these horrible 
things. Do you agree with that theory?
    Admiral Zumwalt. The regime makes it possible for defenses 
to be improved. That is unassailable. One has to make a 
judgment about the tradeoff between what that accomplishes for 
the good of the majority of the nations involved, versus what 
opportunities it gives the bad guys to take advantage of it.
    The fact that we have created an international regime that 
gives us at least some opportunity to provide sanctions, some 
opportunity to provide a regime of international law, makes me 
feel that, on balance, we are better off to go ahead and take 
the----
    Senator Feinstein. If you would permit me, the good guys 
really do not need this. Because the good guys are not going to 
use the chemical weapons. The good guys are going to respond to 
a neighbor in need like that and help. It is really the bad 
guys that you have got to deal with. My experience is, with the 
bad guys, they are going to use this kind of thing for every 
conceivable edge they can get. Therefore, why help them?
    Admiral Zumwalt. Well, Senator, let us take Iran as an 
example. I think we both agree that they are a bad guy. Iran is 
going to be within the regime. Based on my experience on the 
President's Foreign Intelligence Advisory Board, I would rather 
get the advantage of being able to demand the inspections that 
we get from this regime than I would to worry about the rather 
exotic strategy that my brilliant friend Richard Perle 
suggested they would follow. I think that the fact that we 
would have the pressure of public opinion, the opportunity to 
use political power, and so forth, would more restrain Iran 
that otherwise would be the case.
    Senator Feinstein. All right. Then take that example. Iran 
has an illegal insecticide plant or any kind of a manufacturing 
plant. Somewhere within this plant there is some capacity to 
make or combine or to produce a chemical weapon in some way. 
That is not necessarily going to be found on an inspection. It 
probably will not be.
    Admiral Zumwalt. There is some probability that it will not 
be found. There is some probability that it will be. Coupled 
with other intelligence capabilities, which are constantly 
improving, I think we can increase that probability over time. 
Therefore, I would rather be within the regime than without. I 
think we gain more than we lose. I do not trust Iran at all, 
but I think that there will be more restraint on them if we are 
within the regime and operating it in a vigorous way.
    Senator Feinstein. Thank you very much.
    Senator Hagel. Senator, thank you.
    Admiral Zumwalt, thank you very, very much for taking the 
time.
    Senator Biden. Thank you very much, Admiral. I appreciate 
it.
    Admiral Zumwalt. Thank you, sir. Thank you for 
accommodating my schedule.
    Senator Hagel. I hope you are on your way to somewhere 
exotic.
    Admiral Zumwalt. I made a promise to a granddaughter.
    Senator Hagel. Oh, wonderful. General Rowny, welcome.

  STATEMENT OF EDWARD L. ROWNY, LIEUTENANT GENERAL, U.S. ARMY 
        (RETIRED), INTERNATIONAL NEGOTIATION CONSULTANT

    Ambassador Rowny. Thank you, sir.
    Before I start, I would like thank the Chairman, Senator 
Helms, who is my neighbor and good friend, who stood by me when 
I resigned from SALT II in protest over that flawed treaty. I 
think we got a good subsequent treaty as a result of turning 
down SALT II. I have him to thank for that.
    I also have tremendous respect for the minority leader 
here, Senator Biden, who attended to our negotiations in 
Geneva. While we did not always agree, he was always thoughtful 
and fair and never ad hominem. We had a great deal of respect 
for him.
    Senator Biden. Thank you, General.
    Ambassador Rowny. Rather than read my prepared statement, 
which I would like to put into the record, perhaps I could save 
some time by just hitting some of the high points.
    I will ad lib however. I would like to have my written 
statement put into the record.
    Senator Hagel. It will be, without objection.
    Ambassador Rowny. Thank you, Mr. Chairman.
    Mr. Chairman, initially I was opposed to this treaty. I was 
opposed to it, because I didn't think it was verifiable. I 
didn't like the provisions about the inability to use tear gas 
in combat. I didn't like Article X and particularly paragraph 3 
of Article X. Most importantly, I felt that this treaty might 
lull us into a false sense of security and fail to provide 
protection for our troops.
    But after listening to various debates and following the 
fascinating evolvement of the 30 conditions, 22 of which have 
been agreed upon, I have changed my mind. Now I feel that on 
balance the U.S. Senate should ratify this treaty.
    Let me give you my reasons.
    First, as to verifiability, this treaty is not effectively 
verifiable. I think that is clear, and I think we should not 
kid ourselves that might be.
    Second, as to tear gas, I would hope that one of the 
conditions that is placed on the treaty allows the use of tear 
gas in combat.
    Senator Biden. I think we can do that.
    Ambassador Rowny. I understand that the treaty allows us to 
use tear gas in domestic situations. But, for example, if in 
time of war it is necessary to go after a downed pilot, we 
should be able to use tear gas to do so.
    As for paragraph three of Article X, I think if we could 
interpret this in the U.S. way and not the Iranian way, this 
would be very helpful.
    I want to dwell on this idea of the ability to protect 
against chemical weapons. I was appalled when I spoke to 
several of my friends who were in the Gulf War that we had to 
go to Germany to get protective vehicles, that we had to go to 
Great Britain to get our sniffing devices, and that we had to 
go to the Czech Republic to get contamination equipment. This 
is no way for a great power to operate, to have to rely on its 
allies for essential defensive equipment and detection devices.
    Also, I think that there are more aspects to defense. We 
should help to defend against terrorists in this country, and I 
think the moneys and efforts should be put to that end. 
Furthermore, I believe that ballistic missile defenses should 
be deployed, because I feel that there are several rogue states 
which now have ballistic missiles capable of reaching our 
troops in time of combat with nuclear, biological, and chemical 
warheads. In a few years they will be able to reach the United 
States.
    I think that we should be able to defend not only our 
troops in combat but the United States against an accidental 
launch or limited attack. I am not talking about full scale 
attacks by China or a resurgent Russia but only about limited 
attacks.
    I am encouraged that the administration has now recognized 
our lack of defenses and has said that $225 million will be 
allocated to protect our troops.
     I hope that the Congress will fully support this $225 
million to provide the defenses against chemical attack.
    As for Russia, I have been working for 4 years since I left 
the government to try to get the Russians to ratify START II, 
and I have been finding this increasingly difficult. I think it 
is important, but in connection I think it is also important 
that we get Russia to join the states which would ratify the 
CWC.
    President Yeltsin has already signed the CWC, but the Duma 
is opposing ratification. I think if the U.S. fails to ratify 
the CWC, it will give the Russians an excuse for not ratifying 
it.
    The United States has been in the vanguard, asking 
countries to join this convention. For us to renege and not 
ratify the CWC will tarnish our international prestige.
    A great deal of the world looks up to us as leaders and for 
setting norms and standards. I think, as a minimum, this treaty 
would set norms and standards. I am in favor of that.
    Mr. Chairman, I was in the arms control business for over 2 
decades. I think that there are four criteria for any good 
treaty.
    First is verification. Second is that the treaty should not 
be flawed. Third is that it be enforceable, and fourth is that 
it be in the security interests of the United States.
    I have already said that this treaty is not effectively 
verifiable. On the other hand, if we were to enter into the 
treaty before the 29th of April, we would get a seat within the 
process and we would be able to help get violators exposed. I 
think on balance we gain more from being on the inside than we 
do by being on the outside, especially since this treaty is 
going to come into effect in any case.
    The second criterion is that a treaty not be fatally 
flawed. While the CWC is a flawed treaty, I don't think any of 
the flaws are fatal. The flaws that are there I think are 
fixable. I think the tear gas flaw is fixable. I think that 
paragraph 3 of Article X is fixable. Therefore, I do not think 
that the fatally flawed argument can apply against this treaty.
    As for the third criterion, enforceability, no arms control 
agreement can stand on its own. Even the START I and START II 
treaties, with which I was proud to be associated, can not 
stand on their own. To make a treaty effective you need a good 
defense posture. You have to have a credible way of enforcing 
it. If you don't have that, an arms control treaty is not worth 
the paper it is written on.
    I would hope, again as a matter of emphasis, that we give 
whatever moneys are necessary to defend ourselves against an 
attack in the field, terrorist attacks at home, and ballistic 
missile attacks.
    Finally, the vital fourth criterion of any treaty is that 
it be in the interest of the United States. On weighing the 
pros and cons I have concluded after a lot of thoughtful 
consideration, that the U.S. Senate should ratify this treaty.
    Thank you, Mr. Chairman.
    [The prepared statement of General Rowny follows:]

             Prepared Statement of General Edward L. Rowny

    Mr. Chairman: It is a privilege for me to testify once again before 
the Foreign Relations Committee.

    Until recently, I was opposed to the ratification of the Chemical 
Weapons Convention (CWC) by the U. S. Senate. My initial reading of the 
CWC led me to believe that it was unverifiable, that it would prevent 
the U.S. from using tear gas in combat, and that it would obligate us 
to provide sensitive chemical technology to signatory rogue states. 
However, my major concern was that the United States might be lulled 
into a false sense of security and fail to provide adequate defenses 
for our men and women in uniform and citizens at home.

    I have now studied the treaty more carefully and have also followed 
the negotiations of the 30 conditions opponents want to attach to the 
convention. I have been impressed with the Administration's willingness 
to negotiate a number of these conditions. Accordingly, I have changed 
my mind, and I now feel that ratification of the CWC would be in the 
best interests of the United States.

    The treaty is clearly not verifiable. However, I believe that we 
can gain from being a member of the inspection framework. it is 
important that the U.S. Senate ratify the CWC before 29 April, 1997 so 
that we may be a party to the verification process and that American 
inspectors, who are among the best trained and experienced in the 
world, can become members of the international inspectorate. It is true 
that there are certain disadvantages to being a party to the inspection 
process. However, I am convinced that we have more to gain by being on 
the inside than on the outside looking in.

    I still have misgivings about the prohibition against the use of 
tear gas during time of war. While I understand that it is not 
prohibited for use in domestic situations, I can visualize many cases 
where non-lethal agents would be beneficial in combat.

    As for the obligation to share defensive technology in all cases, I 
do not subscribe to the Iranian interpretation of Article X. Rather, I 
am convinced that the treaty can be interpreted in a way that protects 
our interests without violating the terms of the CWC.

    When it comes to my major concern, I was appalled to learn from 
several officers that during the Gulf War they had to borrow detection 
equipment from Great Britain, protected vehicles from Germany, and 
decontamination equipment from the Czech Republic. I am encouraged by 
the Administration's recent request for funds which would eliminate or 
mitigate the dangers to our soldiers in combat and our civilian 
populace. This demonstrates an awareness of our inadequate defensive 
posture and progress to correct it. However, it is important that the 
$225 million in requested expenditures be approved by the Congress.

    I believe that it is also important that the Administration pursue 
a vigorous program to provide ballistic missile defenses for our forces 
overseas and for our people at home against accidental launches and 
limited attacks by rogue states. Several of these states now possess 
ballistic missiles equipped with nuclear, biological and chemical 
warheads capable of striking our U.S. troops deployed overseas and will 
soon be capable of striking the United States. Protecting our soldiers 
in combat and our civilians from terrorist activities, accidental 
launches, and rogue state attacks requires not only the request for 
funds by the administration, but the provision of such funds by the 
Congress.

    The CWC will come into effect on 29 April, 1997 whether the U.S. 
Senate ratifies it or not. A failure to ratify the treaty would place 
us outside the world's civilized nations and associate us with the 
pariahs. Additionally, failure of the U.S. Senate to ratify the CWC 
would give the Russian Duma an excuse to discard the treaty. It is 
important that Russia become a party to the treaty so that we can 
inspect their facilities which are reportedly developing new chemical 
agents.

    I am also concerned that our enviable position as leaders of the 
free world would suffer if we fail to ratify a treaty we have convinced 
scores of other nations to join. We are highly respected and admired 
abroad largely because of our leadership in establishing high standards 
and norms of international conduct. At the very least, the CWC will 
establish such norms and standards for others to follow.

    For more than two decades as an arms controller, I have maintained 
that arms control agreements must meet four criteria. First, they must 
be effectively verifiable; second, they must not contain fatal flaws; 
third, they must be enforceable; and fourth, they must serve the 
interests of the United States.

    The CWC does not meet the first criterion; it is not effectively 
verifiable. However, the problem of verifying the production and 
stockpiling of chemicals is more difficult than that of verifying the 
existence and storage of ballistic missiles, bombers, and air delivered 
weapons. I believe that under the CWC we stand to gain more information 
than we might lose.

    As for the second criterion, while the treaty is flawed, none of 
the flaws, in my opinion, is a fatal one. Moreover, I believe that 
continued discussions between the White House and the Senate Foreign 
Relations Committee can remove or mitigate some of the remaining flaws.

    The third criterion is a critical one. No arms control treaty, 
including the START treaties, of which I am proud, can stand alone. The 
CWC by itself will not protect our troops or citizens, but it will be 
useful if--and only if--we spend the funds to protect ourselves and 
have the will to do whatever is necessary to enforce the terms of the 
treaty.

    Finally, we come to the vital fourth criterion, that the treaty be 
in the best interests of the United States. The bottom line must answer 
the question, ``Are we better off with the CWC or without it?'' Careful 
analysis and my considered judgment lead me to conclude that we will be 
better off with it than without it.

    Accordingly, I respectfully urge the United States Senate to ratify 
the Chemical Weapons Convention.

    Thank you Mr. Chairman.


    Senator Hagel. General Rowny, thank you.

    General Scowcroft, welcome.

  STATEMENT OF GENERAL BRENT SCOWCROFT, PRESIDENT, FORUM FOR 
   INTERNATIONAL POLICY, AND FORMER NATIONAL SECURITY POLICY 
                   ADVISOR, WASHINGTON, D.C.

    General Scowcroft. Thank you, Mr. Chairman. It is a great 
pleasure for me to appear before this distinguished committee 
on such an important issue.

    At the outset, I would like to make one thing clear. 
Chairman Helms made some comment about support being 
orchestrated by the White House. I want to make sure everybody 
understands I am not orchestrated by the White House. I am 
orchestrated by my concern for the national interest. It is in 
that capacity that I appear.

    We are talking about how best to deal with one of the 
scourges of modern man, one of the three weapons of mass 
destruction, and in some respects the most distasteful one.

    I am going to be very brief, because I am going to follow 
Senator Biden's prescription to keep my eye on the ball. I 
think a lot of the debate this afternoon has been on 
peripheries.

    We are not starting a treaty here. We are finishing a 
treaty. When you strip where we are now to its basic 
essentials, what is facing us in the Chemical Warfare 
Convention are very narrow and relatively straight-forward 
issues.

    First is: The United States is going out of the chemical 
weapons business. We were forbidden many years ago, quite a few 
years ago, by the Congress to modernize our chemical stocks by 
building the so-called binaries; and subsequent to that we 
agreed legislatively to mandate the unilateral destruction of 
our chemical weapons stocks.

    We are going out of the business. That is the first major 
point.

    The second one is that the Chemical Warfare Convention will 
enter into force whether or not the United States ratifies it. 
We are not dealing with a bunch of putty here that we can mold 
any way we want.

    So the basic question is really a very simple one: Is the 
national interest served better by acceding to the treaty or by 
staying outside the convention? The question is not whether 
this is the perfect treaty.

    As other witnesses today have said, there is no perfect 
treaty for chemical weapons. Their manufacture is a lot like 
insecticides and fertilizers. There is no truly verifiable 
treaty. So that is not the issue before us.

    There is not even a possible treaty written just as the 
United States would like it; because some 160 nations have 
signed this treaty, and any multilateral convention requires 
compromise of one way or another.

    There is only before us this particular treaty. Given the 
real world situation we are in, therefore, I think the answer 
to the question is a resounding yes to ratification of the 
treaty, because it is in the national interest of the United 
States. I want to digress to make just a couple of points about 
some of the earlier questions. First is about the 
Nonproliferation Treaty.

    As Ambassador Kirkpatrick was winding up, I was waiting for 
her real punch line, the logical conclusion to her remarks 
which should be that we would be better off had there been no 
Nonproliferation Treaty. I think General Rowny has clearly 
pointed out, as have you, Senator Biden, that that is not the 
case.

    Is it flawed? Sure. Do I have problems with it? Sure. But I 
think there is no question that the treaty played some kind of 
role in the fact that--I think it was President Kennedy who 
said that there were going to be 25 nuclear powers within the 
next decade, but that has not happened.

    So it is something better than nothing.

    Article X of the CWC has come in for a lot of discussion 
today. As I recall, the purpose for Article X was to help those 
countries who abided by the treaty who might be threatened by 
chemical attack to be able to defend themselves. Now that is a 
pretty logical kind of thing. This is not some nefarious thing 
that the negotiators just cooked up to make a bad treaty. It is 
a very logical course of action.

    Now as to the argument that one would never use chemical 
weapons until one had this perfect defense and, therefore, that 
is the real threat, I think that is not true. Chemical weapons 
are the poor man's nuclear weapons. But chemical weapons have, 
I think, demonstrated that they are not militarily useful 
weapons. There were masses of stocks of chemical weapons in 
World War II, which was certainly a no holds barred war. 
Against an enemy that has defenses, chemical weapons are an 
irritant; they are not overwhelming.

    Chemical weapons are valuable as a terror weapon, and you 
don't need defenses to fire missiles armed with chemical 
weapons, aircraft dropping chemical weapons. Therefore I think 
that is a very important aspect in which Article X needs to be 
looked at.

    As for reporting requirements, one of the things that has 
been overlooked, other than to complain about the 
administration's treaty, is that it does require reporting of 
shipments of chemical materials and so on.

    Right now, it is possible for a country to buy a few pounds 
of a precursor here or a few pounds there, a few pounds 
somewhere else, and to amass an abnormal supply without anybody 
ever noticing it. That won't be possible anymore. Therefore, we 
will have a better idea of what's going on and who the bad guys 
seem to be.

    We should ratify this treaty, recognizing that it is not a 
silver bullet. It is just one weapon--a good one, but just 
one--in our fight against chemical weapons, and we must 
continue to employ every weapon in the U.S. arsenal to fight 
this terror weapon. We cannot sit back and relax.

    I think one of the things this sharp debate has brought to 
the national attention is that this is important and we cannot 
just sign it and forget about it.

    Starting over, as was suggested this afternoon, I think is 
pure fantasy. If we reject this treaty, we will incur the 
bitterness of all of our friends and allies who followed us for 
10 years in putting this thing together. It is not a matter of, 
``Just well, let's scrap this and let's start over again.'' We 
will throw the whole civilized world into confusion, and the 
idea that we can then lead out again down a different path I 
think is just not in the cards. We have got to deal with the 
situation we face now, not an ideal one out in the future.

    Let me close by saying that I spoke to President Bush this 
morning, and he asked me to state for the record that he is a 
strong and enthusiastic supporter of the Chemical Warfare 
Convention and that it would be a severe blow to the U.S. role 
in the world were we to repudiate it.

    Thank you, Mr. Chairman.

    Senator Hagel. General Scowcroft, as always, thank you.

    Again, General Rowny, we are pleased to have you both here.

    In consultation with my colleague, Senator Biden, what we 
will do is go back to the 5 minute rule, if that is 
appropriate.

    Is that OK, Senator Kerry?

    Senator Kerry. (Nods affirmatively)

    Senator Hagel. I will begin. Picking up, General Scowcroft, 
on your last comment about President Bush's continued 
commitment, full support of the CWC, I am intrigued in that 
yesterday we read a letter from former Secretary of Defense 
Cheney. You and Secretary Cheney are both highly respected, 
highly regarded, insightful leaders. You worked closely 
together. You fought a war together.

    My understanding is that President Bush has great 
confidence in each of you. Could you explain to me how the two 
of you have now come at this differently, why Secretary Cheney 
can feel as he does and you feel as you do?

    General Scowcroft. Well, Mr. Chairman, I would be uneasy 
putting words in Secretary Cheney's mouth. He is a dear friend 
of mine. We went through the last 4 years of negotiation of 
this treaty and evolution in what we were going to do, whether 
we were to going retain residuals until so many people 
ratified--the whole gamut of things.

    What I will say is that I think it is a fair statement--I 
don't think Dick would contest this--that Dick Cheney does not 
like arms control. He thinks we ought to do whatever we are 
going to do for our own national defense interest and not do it 
as an attempt to get somebody else to do something.

    That he would not have chosen to have the treaty signed I 
think is a fair statement. He did not resign over it. When 
President Bush decided to sign the CWC, he didn't make any 
comment on it. But I have talked to him, and he speaks for 
himself. But we simply differ on this issue.

    Senator Hagel. I don't know if you have had an opportunity 
to see the letter that he forwarded to us.

    General Scowcroft. I have not seen his letter. I talked to 
him about 3 weeks ago.

    Senator Hagel. If you're interested, we will give you a 
copy of it----

    General Scowcroft. I'd like that.

    Senator Hagel [continuing]. Because he gets into some 
specificity, as much as you can in a one page letter.

    Obviously you had some occasion, as you suggest, to work 
with him a little bit and talk with him about this issue.

    I have another question on Israel. My understanding is that 
they have not ratified this yet. Do you know why that would be?

    General Scowcroft. No, I really don't. As a matter of fact, 
I think I assumed they had ratified it. I am not clear about 
that.

    My guess is that they are waiting for the United States.

    Senator Hagel. General Rowny, would you care to make a 
comment?

    Ambassador Rowny. I subscribe to what Brent Scowcroft said. 
In the first place, I don't know. But I think they are waiting 
for the United States, and they want to follow our lead. I know 
that they were very worried during the Gulf War that they would 
be bombarded and, they were grateful for our help in trying to 
knock down those missiles and so forth. They were very keen on 
relying on our assistance to get a better defensive system, and 
I am sure that goes over into the chemical field as well.

    Senator Hagel. Thank you.

    I would be interested in both of your thoughts on this. I 
think you each were here when the panel before you addressed 
some of the issues. You will recall Ambassador Kirkpatrick, 
Secretary Perle, and yesterday Secretary Schlesinger all talked 
about the IAEA and some of the ramifications in this opinion as 
to what has happened and has occurred. Would either of you like 
to respond to some of what you heard today from some of the two 
panels before you?

    General Scowcroft. Let me just say that the IAEA was put 
together in a way which was not very effective. The terms under 
which it can inspect were not very effective. But we have some 
experience, and now I believe we are undertaking a way to make 
the IAEA very much tougher and to take over responsibilities 
for inspections that are now the responsibility of UNSCOM and 
so on.

    Incidentally, UNSCOM has done a fantastic job. So I think 
IAEA can be made a very effective instrument in nuclear 
nonproliferation. But it could not if we did not have it--if we 
did not have an NPT.

    Again, I would say that what we are really arguing is does 
this treaty help us at all. Since we are out of the chemical 
weapons business, if it gives us some help, we ought to look 
for help and take it anywhere we can find it; and I think we'd 
get some help here.

    Senator Hagel. General, thank you.

    General Rowny, I want to hear your response as well.

    Ambassador Rowny. My response is similar to that of General 
Scowcroft, though I would go a little further.

    The IAEA was initially inexperienced, but they have come a 
long way. That is one of the reasons that I think we ought to 
get in on the ground floor and the initial round of the CWC. 
The United States has the best trained inspectors in the world.

    Also, we have learned a lot about countering the 
restrictions. In the old days, we could not go in unless Iraq 
invited us to do so.

    This treaty has many inspection provisions. There are pages 
and pages of verification protocols which would bind any nation 
trying to get around the CWC.

    On the point that was made that we would train other people 
to be able to circumvent this treaty, I think that is somewhat 
overblown. Even if it is not overblown, I would take that risk. 
I would rather be able to go in and inspect, knowing how to 
inspect and having a lot of rules behind me, even if I knew 
that I might be giving inspection secrets away.

    Accordingly, I believe that this treaty would be more 
easily enforceable than its predecessors.

    Senator Hagel. Thank you.

    Senator Biden.

    Senator Biden. Thank you very much.

    General Scowcroft, the point that you made I think is a 
very important point to make, not merely about Secretary Cheney 
who is a wonderful, fine, bright American. As a matter of fact, 
just as an editorial comment, I thought for sure he was going 
to be your nominee. I mean that sincerely.

    This guy has a presence, an articulation. But I think the 
point you made is an important one to make here generally.

    If you look across the board, the bulk of the problem, the 
bulk of the opposition comes from people who legitimately, and 
truly consistent with their philosophy and intellectual 
predisposition, if you will, do not like arms control.

    One of the things that our distinguished Chairman said when 
he spoke on the floor the first time on this is he quoted what 
has been quoted 50 times by a lot of people. I do not say this 
in a derisive manner. It is: As so and so said, America has 
never lost a war or won a treaty.

    That is doctrine among an awful lot of people. I do not 
belittle it. I just think it is important that we put it in 
focus.

    I mean, we have in here a very bright young guy, Mr. 
Gaffney. In all fairness to Mr. Gaffney, who is sort of the 
intellectual engine on the right on this one right now, has he 
ever seen a treaty he likes? It's kind of like: Do you ever 
take yes for an answer?

    I understand that. But it is really important that we all 
understand it so that we can put into perspective some of the 
criticism.

    The second point I would like to make is, if you look at 
the argumentation against the treaty, it is the ultimate Catch 
22. The criticism my friends make of the treaty in terms of the 
Fourth Amendment: If you want to guarantee there is no 
possibility of ever arguing about it, you have to do something 
they also do not support, which is these onsite inspections 
without notification. If you eliminate those, then you have no 
Fourth Amendment debate. But guess what happens. You eliminate 
the ability for it to be verifiable and you diminish it.

    You can go down every single argument. I think we should 
just make this clear. There is no way to satisfy the critics, 
the strongest and most articulate critics of this treaty, other 
than by solving half of their problem. If you solve half their 
problem, that is the most you can solve. You can't solve it 
all, because it makes the other portions they criticize even 
worse.

    Now, General Rowny, I don't know whether people understand 
something. I have been here 24 years. I don't know whether they 
understand how significant your presence here is. I mean, I 
really don't know whether people fully understand it.

    In my humble opinion, in terms of bringing bona fides to 
this debate, with no disrespect to anyone, from General 
Scowcroft to the President of the United States of America, to 
President Bush or anybody, you are, in my view, the single most 
significant supporter of this treaty. You resigned--you 
resigned--on principle over an arms control agreement you said 
you didn't like. Here you are, a man whose credentials in terms 
of being tough, yet still who believes some treaties are 
useful, here you are supporting the treaty.

    Now I realize there are ad hominem arguments. I realize 
there are appeals to authority. I realize there are logical 
fallacies. But one of the things that, in fact, impacts on this 
debate overall is the vast majority of people do not have the 
time to do what the acting chairman and I are doing or any of 
the members of this committee, or that you all have done. You 
know it, we hopefully know it, but the vast majority of 
Americans do what we do on everything else. They are looking at 
people they respect and are saying well, if it is good enough 
for them, it is good enough for me as I respect them. Or if 
they don't like it, I don't like it.

    That is not an irrational thing to do. So, I want to tell 
you that I think it is very important you are both here.

    I think it is fair to say the three of us, you two and me, 
have been on the opposite sides of more debates than we have 
been on the same side.

    General Scowcroft. I believe so.

    Senator Biden. So I want to thank you for being here. I 
would conclude, Mr. Chairman, since Mr. Kerry is not here quite 
yet----

    Senator Hagel. Just go ahead, Senator Biden.

    Senator Biden [continuing]. By saying one of the things we 
talked about in terms of inspections before. Mr. Perle, who is 
always articulate, Mr. Perle made the point that what is going 
to happen here is we are going to have these rogue nation guys 
on the teams, meaning Iran, coming into the United States, 
inspecting, carrying little gadgets in their pockets and 
learning all there is to know about either trade secrets and/or 
a capacity to make chemical weapons better when they get home.

    On Part II, paragraphs 1 and 4 specify that we can deny 
individual inspectors if we give notice.

    So no Iranian ever has to inspect an American facility if 
that is the decision we make.

    It is not a requirement. The good news about this is you 
may ask well, couldn't they deny us inspection. Yes. Yes, but 
we have allies, like France, Britain, and Germany who are part 
of this operation. We share with them a lot of this, our 
technological capability of detection. So, the fact that we 
would be denied inspection does not hurt us very much, having 
an inspector on a team. But their being denied at least should 
satisfy some of our critics of this treaty as to somehow they 
are all of a sudden going to be able to learn all there is to 
learn.

    I find it interesting that when we thought, as a Nation, 
and other nations thought that chemical weapons were a useful 
tool of war, we did not have a vial of it, we did not have a 
canister of it, we did not have a truck load of it, we did not 
have a warehouse full of it. We had hundreds of tons of it.

    So the idea when people say to me, isn't it true that in a 
chemical plant, or a fertilizer plant, or a pharmaceutical 
plant they could be producing chemical weapons, the answer is 
yes, they could. We might not be able to detect it.

    But let me tell you something. I think the image, General 
Scowcroft, is people are thinking of a Japanese guy with sarin 
gas in the subway taking on the U.S. Army. I really mean that. 
I am not being facetious.

    Listen to the distinguished Senator from California. It is 
a legitimate concern.

    I think we have to kind of remind ourselves. We are not 
seeing the forest from the trees. Cheating will occur. But the 
idea that enough cheating could occur that the U.S. military 
would be in ulti- 
mate jeopardy of losing a war--not a single encounter but a 
war--that we would be prostrate is bizarre. It is absolutely 
bizarre.

    I just think in terms of keeping the focus here, when you 
argue on the other guy's terms, you tend to lose the argument. 
The terms we tend to argue on--at least I do, because I am so 
acquainted with the detail of this thing. I get so into the 
detail of it I argue about the specifics, when you can't lose.

    That is why I conclude by thanking you, General, for your 
overall statement of the generic approach to this thing and why 
this is in our interest. It is in our interest, because the 
idea that somebody can cheat is true. But the idea that 
somebody could cheat enough to become a world power that is 
going to defeat the United States of America, the idea that we 
are going to be in a position where these rogue nations are 
going to gain all our trade secrets and build better Chevettes 
or Corvettes that we build, or our pharmaceutical products, is, 
at best, to use your phrase, General Rowny--and you are always 
a diplomat. You said you think this example is a little 
overdrawn.

    I think that is a mild understatement, a mild 
understatement.

    You will be glad to know that wasn't a question. I just 
cannot tell you how much I appreciate people of your caliber 
being here. I know it is not easy, General, to be here. All 
those guys were here. You sat on the same side of the table 
with them for a long, long time, as have you, General 
Scowcroft. This is an issue on which reasonable and honorable 
men can disagree. But I think the break point basically divides 
generally those who think arms control can be a useful tool for 
national security, who fall on this side (indicating), and 
those who think arms control generally is a bad idea, who fall 
on that side.

    I think if you look down the line, that is the ultimate 
distinguishing feature about where people fall on this treaty.

    Ambassador Rowny. Senator, if I can elaborate on that, I 
agree with you that there are people who believe that all arms 
control treaties are good, and there are some who say all arms 
control treaties are bad. I happen to have been all along for 
good arms control.

    Senator Biden. I know that, General.

    Ambassador Rowny. When I resigned in protest over SALT II, 
it was difficult, because I was drummed out of the Army. But 
later, when we fixed the flaws of SALT II, we got a good 
treaty: START I. START I reduced from 15,000 to 8,000 weapons 
on each side.

    As I said before, you cannot do this in a vacuum. You have 
to always do it with the threat of being able to enforce the 
treaty, and without that, I don't think arms control is useful.

    That is why I would like to see pressure put on Russia now 
to have the Duma ratify START II. I have been working on this 
idea for 3 years, and believe that we should go even further by 
moving to START III.

    Senator Biden. I agree with you, General.

    Ambassador Rowny. The idea is to get good arms control 
agreements and also to have them bolstered with good, 
enforceable methods of carrying them out.

    Senator Biden. I'll make you a bet that I hope I never win. 
If we do not ratify the CWC, the chances of the Duma ratifying 
START II, irrespective of all other questions, I think is 
remote. It is remote at best. It is difficult now and you are 
right.

    The only point I want to make--and, Mr. Chairman, I have 
gone way over my time--is you are a man of principle, General. 
That is the only point I was making or attempting to make. I 
hope I made it clear. You are a man of principle. You gave up a 
lot on a principle, a principle. So, when people suggest--and 
no one here has, friend or foe--when people suggest that people 
are orchestrated to come here, General Scowcroft is a man who 
has taken on me in this committee, and the Democrats time and 
again. He is a guy who in my view educated my best friend, Bill 
Cohen, and that is why he is Secretary of Defense. General 
Rowny is a man of absolute principle who thinks that good arms 
control is as he defined it, and there is good arms control. 
The fact that you both are here I think is a big deal.

    It reinforces my view of this treaty, quite frankly, 
because we all look to the people we admire as to whether or 
not they like it; and it reinforces our sense of the place we 
intellectually arrived at. The fact that you both are there 
quite frankly just reinforces and makes me feel better about my 
decision.

    Senator Hagel. If I could follow up, General Rowny, on 
something you mentioned earlier, you mentioned that you thought 
this was a flawed treaty, like I believe you said most are, but 
fixable. I think you mentioned specifically Paragraph 3 of 
Article X.

    What other areas do you think need to be addressed?

    Ambassador Rowny. Just one other area, Senator. That is the 
one on tear gas. I have never understood this. It has a long 
history. As you know, President Ford issued an executive order. 
Brent Scowcroft played golf with him a good deal, and he might 
be able to understand that executive order at that time. But I 
felt that the idea of prohibiting the use of tear gas in times 
of war, I have always felt that was a mistake. I would like to 
see that one fixed in some way.

    That is the only other flaw that I see in the treaty.

    Senator Hagel. To each of you, Admiral Zumwalt mentioned 
sanctions on those signatories who might violate the 
convention.

    What realistically are we talking about when you say 
sanctions? Iran is a signatory. They violate inspections. If we 
find they have violated the convention, what do we do?

    General Scowcroft. Well, I think sanctions run all the way 
from doing something that makes you feel good when you really 
don't want to take action but you have to do something to what 
I would call sanctions on Iraq right now, which are effective. 
They are good. UNSCOM is over there, they are rooting around, 
and they are finding out all kinds of things. That is the 
ultimate in sanctions.

    Senator Hagel. Would the entire body, as you read this 
treaty, be involved in the sanctioning process of a violating 
nation?

    General Scowcroft. I think in the end, Mr. Chairman, 
sanctions depend on the national interest of the country 
whatever a treaty says. We could have responded when Iraq used 
chemicals against Iran or against its own people. Politically, 
nobody did; and they didn't, because there were other kinds of 
things that militated against it.

    I think you always have to look at sanctions in that light. 
Collective security is a chimera. It is never going to work, 
because when you don't know who the enemy is, then you cannot 
defend against it.

    So every country is going to consult its own national 
interest when it decides whether or not to go with sanctions. 
That is where the United States is so important, because when 
we decide, we can get a lot of people along with us. When we 
sit on the sidelines, there isn't anybody else to pick up the 
ball and carry it.

    Senator Hagel. Thank you.

    General Rowny.

    Ambassador Rowny. I have a less optimistic view about 
sanctions. I think that sanctions can be helpful, but I think 
in the end, you have to use more than sanctions in critical 
cases. So I would say: use sanctions. If they work, fine. If 
they don't, don't hesitate to use your military muscle, and I 
think in some cases you have to.

    The Chemical Weapons Convention is important; but we have a 
more sinister set of circumstances facing us down the road, and 
that is the biological warfare issue. The Biological Weapons 
Treaty does not have any of the verification procedures 
contained in the CWC. As you know, Russia denied developing 
anthrax. Now there are reports that they have developed a new 
biological weapon which is not detectable. There is a vast 
difference between chemical and biological weapons. A chemical 
weapon will disperse and you can protect against it. However, 
biological weapons do not disperse but grow.

    So I would hope as soon as this treaty is ratified that the 
Senate, and this committee in particular, turn their attention 
to the possible dangers of biological warfare, which, in my 
view, are more devastating than chemical weapons.

    In this connection, I would not hesitate to go beyond 
sanctions and use whatever it takes to prevent against this 
great scourge. If what happened with just a few whiffs of sarin 
gas in Japan were to happen in this country, I think we would 
never forgive ourselves.

    Senator Hagel. Thank you.

    Senator Biden.

    Senator Biden. General, you just made, again, the point 
that I think it is important to keep in mind. You heard the 
last panel, all brilliant people, all decent, honorable people. 
This is the dividing line again. They said not only is this 
treaty bad, but if we ever tried to do anything in biological 
weapons, which is less verifiable, it would be a disaster.

    I just want to keep reinforcing the point here. I happen to 
agree with you completely, General. People fall down on most of 
these issues based on which side of this treaty line they fall 
on.

    As you heard spontaneously, three of the four witnesses 
said by the way, this is bad, but if you guys ever start 
looking at biological weapons, that would even be worse.

    Now the question I would like to ask you is--or I guess I 
would make more of a point and would ask you to respond. In my 
view, when you were dealing and this administration was 
dealing, General Scowcroft, with Korea's attempt at, desire to, 
and potentially having achieved a nuclear capacity, nuclear 
weapons, there was a lot of loose talk up here with guys like 
me and others. It got all around. I refer not to you but to us, 
to me.

    We said if they do develop or are on the verge of 
developing that capacity, we may very well have to use 
preemptive military action. That was talked about around the 
world.

    I cannot fathom even being able to raise that issue had we 
not been part of the Nuclear Nonproliferation Treaty. If there 
were not an international norm established, the idea that in 
capitals--and I was in Europe at the time as well--the idea 
that in capitals of the world there was no commitment to use 
force, but no commitment to rule out the use of force, there is 
no way, in my view, there would have been any--any--ability to 
even contemplate that and to gain anything remotely approaching 
international understanding for the possible need of 
preemptively using force.

    Now I am not suggesting that you suggested that, General. I 
want to make the record clear.

    General Scowcroft. I did.

    Senator Biden. Well, OK. I am not speaking for you now. But 
I was up here, as you will recall, saying the same thing that 
you recommended.

    So, again, I state it to reinforce a point that seems to 
get lost as we focus on these individual trees in this forest. 
This is that national and international norms make a 
difference. They make a difference. They are not dispositive in 
every case, but they make a difference.

    Had we followed Ambassador Kirkpatrick's notion of never 
having gone forward with the Nonproliferation Treaty, the idea 
that we would have had the consensus to consider--and I 
believe, General, your statements and recommendation were part 
of the reason why, ultimately, it did not go to the point we 
worried about it going. Now I am not now here positing where it 
is.

    At any rate, if you would like to comment, fine, but there 
is no need to comment. I just think international norms make a 
big difference.

    General Scowcroft. Well, one of the things that we did not 
really discuss this afternoon and that I thought about putting 
in my remarks, but I did not want to be accused of being 
``goody-goody'' is that the very fact that you mobilize world 
opinion and say these things are bad, we are going to mobilize 
the international community against them, this does put 
pressure on the hold-outs. If they are doing things wrong, it 
is easier to call attention to it.

    We have no coordinated kind of social, if you will, 
pressure on the rogue states right now in this area.

    Senator Biden. That's right. I agree.

    Senator Hagel. Senator, are there any more questions?

    Senator Biden. No. Again, gentlemen, particularly for the 
way you got bounced around by me in terms of timing on this, I 
just cannot tell you how much I appreciate your being here and 
how important I think it is that you are here.

    Thank you both.

    Senator Hagel. On behalf of the committee, thank you. Just 
as the other panel, you all have brought a tremendous amount of 
experience and insight to this. As you suggested, General 
Scowcroft, this is a critically important issue for this 
country and the world, and we need to spend as much time as we 
have been spending and that we will spend to air it all out.

    So on behalf of all of us, thank you.

    Senator Biden. Thank you.

    Senator Hagel. We are adjourned.

    [Whereupon, at 5:20 p.m. The committee adjourned, to 
reconvene at 2:03 p.m. on Tuesday, April 15, 1997.]


                      CHEMICAL WEAPONS CONVENTION

                              ----------                              


                        TUESDAY, APRIL 15, 1997

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:03 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Brownback, Biden, and 
Kerry.
    The Chairman. The Committee will come to order, but we will 
stand relaxed until the staff gets its act together. Both 
parties are represented at another hearing, and it should not 
be very long. [Pause.]
    There is no Senate rule against a chairman doing what they 
do on television when they have got more time left than they 
expected. So they stretch it out.
    Our first witness this afternoon will be a long time friend 
of so many of us in the Senate. We have worked with him in 
various capacities, including broadcasting to foreign 
countries. Malcolm S. Forbes, Jr., or Steve as he is known, is 
one of the most remarkable friends I have ever known; and I am 
going to give you one vignette for the record.
    Some years ago I happened to be on the same campus with him 
where he had spoken to the students, and following all of the 
formal doings there was a reception, and the reception went on 
and on and on, and he was shaking hands and answering of the 
students, and along about 10 or maybe a little bit earlier I 
sent word to Mr. Forbes that I would rescue him and he could go 
out a certain door, get on his airplane, and go back to New 
York. He said oh, no. He said, I have got some more friends I 
wish to talk with.
    Now, he was not a candidate for anything except the Kingdom 
of Heaven, I think, at that time. But I want to say to you, 
sir, that you won the hearts of those young people at that 
university. I still hear about your staying there until 11 
talking with them and answering questions. Maybe another fellow 
would have gotten up and left, but you did not.
    Mr. Biden, the ranking member of the committee, will be 
here momentarily, and we will just bide our time.
    We will have two panels, by the way. Steve Forbes, or 
Malcolm S. Forbes, Jr., will be the first witness and only 
witness on panel one. Panel two will have businessmen: Mr. 
Wayne Spears, President of the Spears Manufacturing Company and 
so forth; Mr. Ralph V. Johnson, Vice President of Environmental 
Affairs at Dixie Chemical Company; Mr. Kevin L. Kearns, 
President of the United States Business and Industrial Council; 
the Honorable Kathleen C. Bailey, Senior Fellow of the Lawrence 
Livermore National Laboratory, Livermore, California.
    This hearing is the third in the final round of Senate 
Foreign Relations Committee hearings on the dangerously flawed 
Chemical Weapons Convention. Last week the committee heard from 
seven distinguished foreign and defense policy leaders about 
the national security implications of this treaty. This 
afternoon, our purpose is to discuss the destructive effects of 
this treaty, and what those effects will have on the American 
business community, the new regulations will be imposed, the 
intrusive and clearly unconstitutional inspections it will 
authorize, and the potential of abuse of the treaty by our 
foreign business competitors by industrial espionage.
    I can think of no one--no one--who can better speak to 
these issues than our lead witness today, Mr. Forbes. He is 
chairman and CEO of Forbes Magazine. He is a leading voice of 
American business, and in particular a champion of the small 
and medium-sized enterprises that will be disproportionately 
affected by this treaty.
    Last week we heard eloquent testimony from four former 
secretaries of defense of this country urging the Senate to 
reject this flawed treaty, and I want to quote something one of 
those witnesses said that day, because I think it will help us 
frame the discussion this afternoon.
    Let me preface what I am going to read by saying that there 
have been repeated suggestions by the proponents of the treaty 
implying that all businesses support this treaty. Well, this 
simply is not accurate. Don Rumsfeld eloquently reminded us 
last week that many big businesses, and he stressed the word 
big, do support the treaty, but it is not the security of big 
business that we need to worry about in this country, it is the 
smaller businesses.
    Here is what Don Rumsfeld said: Big companies seem to get 
along fine with big government. They get along with American 
government, they get along with foreign governments, they get 
along with international organizations, and they have the 
ability, with all their Washington representatives, to deal 
effectively with bureaucracies. Indeed, Mr. Rumsfeld said, and 
I am quoting him still, indeed, that capability on the part of 
the big companies actually serves as a sort of barrier to entry 
to small and medium-sized companies that lack that capability. 
So I do not suggest, he said, for 1 minute that large American 
companies are not going to be able to cope with the 
regulations. They will do it a whale of a lot better than small 
and medium sized companies, end of quote.
    Mr. Rumsfeld made a vitally important point. It is small 
and medium-sized businesses, the entrepreneurs who are creating 
all of the jobs in our economy today, who will be hurt worse by 
this treaty. It is they who will have trouble coping with all 
of the new regulations and all of the red tape and all of the 
intrusive and unconstitutional inspections and all of the legal 
fees and potential losses of proprietary information.
    The small businesses are the ones whose constitutional 
rights will be trampled because this administration refuses to 
require a criminal search warrant from involuntary challenge 
inspections granted to foreign inspectors. These inspections 
will be granted greater power of search and seizure than those 
granted to U.S. Law enforcement officers. These inspectors are 
the ones who may well confront officials from Iran and China, 
knocking on their doors, demanding the right to rifle their 
records and so forth and so on.
    Speaking of the law enforcement officers, they will 
interrogate the employees and remove chemical samples from 
their facilities, all because this administration has refused 
to ban inspectors from rogue regimes.
    Now, we hear over and over again that the Chemical 
Manufacturer's Association, which has been very active in 
promoting the treaty, we heard that they support the treaty, 
and we have had, certainly, the strong inferences, if not 
declarations. But let me tell you something about this 
association. And I speak as a guy who ran a pretty sizable 
association some years ago. The CMA operates and represents 
just 191 companies--1-9-1--but this treaty, at the 
administration's most conservative estimate, will affect at 
least 3,000 businesses, and may affect as many as 8,000.
    So I hope we can put an end to the notion that the CMA 
represents the interests of the thousands of small- and medium-
sized companies that will be hurt by this treaty. And as one of 
our witnesses will tell us today, I believe, even within the 
ranks of the CMA companies there is concern about the impact of 
this treaty, including the cost of regulations and the 
potential loss of confidential business information.
    The fact is there are literally thousands of companies 
across this country who do not know about this treaty, who do 
not understand it in any detail, who do not realize that it 
will affect them, who do not understand that they will be 
subjected to inspections, and are not aware what kind of 
unfunded mandates will be imposed on them should this treaty be 
ratified as is.
    Now, I have no doubt that the businessmen affected by the 
CWC are patriotic Americans who love their country and are 
willing to make sacrifices for our national security. And if 
this treaty could actually reduce the danger of chemical 
weapons, I am sure they would be willing to make necessary 
sacrifices to get rid of those terrible weapons. But as we have 
heard from so many experts, it just will not work.
    This treaty will not work. It will do nothing to reduce the 
danger of chemical weapons. If anything, we have learned that 
it will make the problem worse by giving rogue nations even 
greater access to dangerous chemical agents and technology and 
defensive gear. Even the treaty's proponents admit that it will 
not work, but they say we should ratify it anyhow; because it 
is better than nothing; because, they say, it will establish 
``norms.''
    Well, I do not believe that ratifying the treaty that 
cannot work just to make a statement is good policy; and when 
you take into consideration the fact that it will also create 
massive new burdens on businesses that are struggling to create 
jobs, that it will cost them money, time, and energy while 
trampling on their constitutional rights just to make a 
statement and establish norms, I say that this treaty is worse 
than nothing. The price of that kind of feel-good statement is 
just too high.
    So, Mr. Forbes, if you will take the seat in the middle, we 
thank you for being here, and look forward to your testimony. 
And I note that not only is Steve Forbes testifying today, he 
announced this Sunday on Face the Nation that he will be 
leading a public information campaign to bring the facts about 
the treaty to light. So on behalf of the silent majority of 
American businesses who do not realize what Washington has 
cooked up for them with this dangerous and destructive treaty, 
I thank you, sir, for all that you are doing.
    I have just been handed a note saying that we should wait 
for Senator Biden to come and make his statement. He said he 
would try to be here by 2:15, so I suppose, Mr. Forbes, we can 
just stand at rest and wait for Senator Biden. [Pause.]
    The Senator from Delaware is recognized.
    Senator Biden. Mr. Chairman, thank you very, very much, and 
I thank the witnesses. We have, as the Chairman well knows, 
these things every Tuesday called caucuses where every Member 
of each of our parties gets together and we discuss our 
respective agendas. Ironically, I was to make a presentation in 
my caucus today on the Chemical Weapons Convention, and I 
appreciate the Chair doing this.
    Mr. Chairman, I am happy you have called this hearing today 
on the effect that the CWC would have on American business; 
because, as we all know, there has been a great deal of 
discussion pro and con on that very point. The charge, in my 
view, that the CWC will harm American business, I think is dead 
wrong when one considers the fact that the convention was 
negotiated with an unprecedented input from the U.S. chemical 
industry. Thanks to the industry's help, in my view, the 
convention contains thresholds and exemptions that protect 
businesses small and large from bearing an undue burden.
    The American chemical industry has helped develop the 
ground rules under which the inspections that will occur under 
this treaty will happen, including provisions for protecting 
the confidentiality of business information. Chemical 
companies' representatives have also helped in the decision on 
how to design the form, the written form, that represents the 
only reporting obligation for 90 percent of approximately 2,000 
companies that will have an obligation under this convention.
    The U.S. chemical companies recognize that while they 
produce goods intended for peaceful uses, their products and 
inputs could be misused for nefarious purposes. That is why 
they so actively have supported this convention. Their 
involvement in the CWC has been a model, in my view, of good 
corporate citizenship. Unfortunately, we will reward this 
responsible behavior with a slap in the face, in my view, if we 
fail to ratify this convention and subject the U.S. Chemical 
industry to international sanctions, the same sanctions, I 
might add, that we ourselves insisted be placed in this 
convention under both President Reagan and President Bush.
    The CWC was designed with high thresholds for common 
industrial chemicals that ensure that only large producers of 
those chemicals will be subject to reporting and inspection 
requirements. Instead of throwing around old numbers and scare 
tactics, I would like to take a look very quickly at the outset 
here at the real requirements of this treaty.
    Chemicals that are used to make chemical weapons have been 
placed in three schedules. Schedule I chemicals are those that 
are chemical weapons and direct precursors with little or no 
commercial use. Schedule II chemicals are direct precursors 
with limited commercial uses. And Schedule III chemicals are 
indirect precursors with wide commercial use.
    Now, both producers and consumers of chemicals on Schedule 
I and two are subject to CWC reporting and inspection 
requirements. For most Schedule II chemicals, though, there is 
a one-ton threshold. As a result, only 11 American facilities--
11, 11 American facilities--will be subject to Schedule I 
requirements, and less than 35 will be covered by Schedule II 
requirements.
    Turning to Schedule III chemicals, the rules change a 
little. Only those facilities that produce, import, or export 
more than 30 tons of Schedule III chemicals are covered by 
those requirements--30 tons. That is not a vial of chemicals, 
that is not a barrel, that is a lot of chemicals, and these 
rules apply only to producers. Consumers of these chemicals are 
not covered. As a result, only about 100 facilities face these 
requirements. An even higher threshold applies to producers of 
discrete organic chemicals. Everybody has an acronym in this 
bill, so I will just continue to call them discrete organic 
chemicals, or DOC's.
    Facilities that produce more than 200 tons of discrete 
organic chemicals are subject to reporting requirements, as are 
those that produce 30 tons of chemicals containing phosphorus, 
sulfur, or fluorine. But again, we are talking about producers, 
and only producers of hundreds of tons of these chemicals--no 
soap manufacturers, no cosmetic firms, all the things we keep 
hearing about. You know: ``They are going to go in and find a 
cosmetic firm is doing this or a soap manufacturer.'' We are 
not talking about those companies. They are not producers of 
these chemicals. They are consumers of these chemicals, these 
discrete organic chemicals.
    While reporting requirements for discrete organic chemicals 
will apply to as many as 1,800 U.S. companies, I do not know of 
too many Mom and Pop businesses that produce 200 tons of 
chemicals a year. In addition, several industries have been 
completely exempted from all CWC requirements. These include 
explosives makers, hydrocarbon producers, oil refineries, 
polymer makers, and facilities that make discrete organic 
chemicals through biological processes. What does this mean? It 
means that plastic companies, textile makers, and breweries 
face zero--zero--obligation under the CWC.
    The Commerce Department instructions for the brief data 
declaration says that in black and white. And the Conference of 
State Parties is also set to ratify these exemptions on May the 
6th. So anyone who tells you differently, I would respectfully 
suggest, is dead wrong.
    There is more to say, and I had planned on saying more, but 
I ask unanimous consent that the remainder of my statement be 
placed in my record, Mr. Chairman, and I would conclude with 
one sentence: We are going to hear from four very distinguished 
witnesses, one who believes that--well, I was going to read the 
quote. I will not. Anyway, let me just put my whole statement 
in the record since you were so kind to hold up for me, and I 
will get on with hearing from the witnesses.
    The Chairman. Without objection, it is so ordered.
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Thank you, Mr. Chairman. I am happy that we are holding this 
hearing today on the effect the CWC would have on American business, 
because perhaps no single aspect of this debate has seen more 
misinformation.
    The charge that the CWC will harm American business appears 
preposterous when one considers the fact that the convention was 
negotiated with the unprecedented input of the U.S. chemical industry.
    Thanks to the industry's help, the convention contains thresholds 
and exemptions that protect businesses, small and large alike, from 
bearing an undue burden. The American chemical industry helped develop 
the ground rules under which inspections will occur, including 
provisions for protecting confidential business information.
    Chemical company representatives also helped design the brief form 
that represents the only reporting obligation for ninety percent of the 
approximately two thousand companies that will have obligations under 
the CWC.
    U.S. chemical companies recognize that while they produce goods 
intended for peaceful uses, their products and inputs could be misused 
for nefarious purposes. That is why they so actively have supported 
this convention. Their involvement in the CWC has been a model of good 
corporate citizenship.
    Unfortunately, we will reward this responsible behavior with a slap 
in the face if we fail to ratify the CWC and subject the U.S. chemical 
industry to international sanctions--the same international sanctions 
that we ourselves insisted be placed in this treaty to punish countries 
that do not ratify it.
    The CWC was designed with high thresholds for common industrial 
chemicals that ensure that only large producers of these chemicals will 
be subject to reporting and inspection requirements. Instead of 
throwing around old numbers and scare tactics, let's look at what the 
real requirements of this treaty are.
    Chemicals that can be used to make chemical weapons have been 
placed on three schedules. Schedule I chemicals are chemical weapons 
and direct precursors with little or no commercial use. Schedule II 
chemicals are direct precursors with limited commercial uses. Schedule 
III chemicals are indirect precursors with wide commercial use.
    Now, both producers and consumers of chemicals on schedules one and 
two are subject to CWC reporting and inspection requirements. For most 
Schedule II chemicals, though, there is a one ton threshold.
    As a result, only eleven American facilities will be subject to 
Schedule I requirements, and less than thirty-five will be covered by 
Schedule II requirements.
    Turning to Schedule III chemicals, the rules change a little.
    Only those facilities that produce, import or export more than 
thirty tons of Schedule III chemicals are covered by those 
requirements. Thirty tons. That's not a vial, that's not a barrel, 
that's a lot of chemicals. And these rules apply only to producers. 
Consumers of these chemicals will not be covered. As a result, only 
about one hundred facilities face this requirement.
    An even higher threshold applies to producers of discrete organic 
chemicals, or ``docs.''
    Facilities that produce more than two hundred tons of these 
chemicals are subject to reporting requirements, as are those that 
produce thirty tons of a chemical containing phosphorus, sulfur or 
fluorine. But again, we're talking only about producers, and only 
producers of hundreds of tons of these chemicals.
    While the reporting requirements for discrete organic chemicals 
will apply to as many as eighteen hundred U.S. companies, I don't know 
of too many mom-and-pop businesses that produce two hundred tons of 
chemicals every year.
    In addition, several industries have been completely exempted from 
all CWC requirements. These include explosives makers, hydrocarbon 
producers, oil refineries, oligomer and polymer makers, and facilities 
that make discrete organic chemicals through biological processes.
    What does this mean? It means that plastics companies and textile-
makers and breweries face zero obligation under CWC. The Commerce 
Department instructions for the brief data declaration says that in 
black and white. Some of these exemptions are already in the treaty, 
and the Conference of States Parties is all set to ratify the rest on 
May 6.
    So anyone who tells you that these industries will be hurt by CWC 
is just dead wrong.
    In addition, there will be an exemption for facilities that 
manufacture a product that contains a low concentration of a scheduled 
chemical. The treaty explicitly directs the Conference of States 
Parties to adopt such a rule.
    For Schedule III chemicals, the ones with wide commercial 
applications, the proposed threshold is thirty percent.
    So a plant that makes soap or cosmetics or one that processes food 
would not be subject to CWC requirements.
    I also want to address the charge that the CWC will lead to 
international inspectors rummaging at will through American businesses. 
This too is entirely untrue.
    Only a limited number of facilities will be subject to routine CWC 
inspections, and these are mostly the large chemical manufacturers that 
are supporting the treaty.
    These routine inspections will be conducted on the basis of 
facility agreements negotiated with the full input of the plant 
involved in order to protect trade secrets.
    And there will be no warrantless searches. If a firm does not 
consent to an inspection, an administrative or criminal search warrant 
will have to be obtained before the inspection goes forward.
    Moreover, all challenge inspections will take place under the 
principle of ``managed access,'' where our government negotiates with 
the inspectors over the places, records, and data that may be searched. 
So, all inspections will take place under the supervision of U.S. 
government officials.
    Our exposure to loss of trade secrets due to the CWC is also 
greatly overstated.
    The CWC contains an unprecedented level of protections for 
confidential business information, all of which were negotiated and 
supported by industry.
    The combination of close supervision of confidential business 
information, plus the deterrence of our domestic criminal laws, should 
keep losses of trade secrets to a bare minimum.
    The facts are that American industry and the executive branch have 
worked cooperatively--both in drafting the treaty and in drafting the 
proposed implementing legislation--to minimize the burden on U.S. 
industry.
    The chemical industry is to be commended for the role that it 
played in helping to negotiate this treaty, and I look forward to 
hearing the testimony of our witnesses today.

    The Chairman. Mr. Forbes.

STATEMENT OF MALCOLM S. FORBES, JR., PRESIDENT AND CEO, FORBES, 
                       INC., NEW YORK, NY

    Mr. Forbes. Thank you very much, Mr. Chairman, for allowing 
me today to testify before your distinguished committee.
    Senator Biden. Excuse me 1 second, Mr. Chairman. I would 
like to point out one thing: Mr. Forbes won my State. I would 
just like to point out that Delaware in the Republican primary, 
voted for Forbes. So I want the record to note I smiled at him, 
I have been very nice to him, I like him very much. We have 
agreed very heartily. We are together on the radios, right, Mr. 
Forbes? Tell them that, will you please?
    Mr. Forbes. We are together on the radios, but I am keeping 
on my Kevlar for protection.
    There are many compelling reasons, I believe, to oppose 
ratification of the Chemical Weapons Convention. The fact is 
that the Chemical Weapons Convention significantly threatens 
the freedoms we Americans cherish. It significantly diminishes 
America's sovereignty and significantly increases America's 
vulnerability to chemical warfare. It is as though we are being 
asked to endorse a drug that worsens the disease it purports to 
cure, and in addition has some highly dangerous side effects.
    To explain just how dangerous the CWC side effects are, 
just let me ask the distinguished members of this committee a 
very simple question: What is the basis of America's greatness? 
Why is it that although the international arena contains many 
powers today, we are the world's sole superpower? Any adequate 
answer to this ques- 
tion would have to include such factors as the competitive 
nature of our free market system, the unparalleled 
technological sophistication of America's enterprises, but most 
important, our basic freedoms. These are the sinews of our 
power, the basis of our national greatness. It is precisely 
these quintessentially American strengths that the convention 
would undermine.
    Let me begin by talking about America's competitiveness. As 
I have strenuously argued on other occasions, maintaining 
America's competitive edge requires a lessening of the tax and 
regulatory burdens on the American people and on our Nation's 
enterprises. Unfortunately, the CWC will have precisely the 
opposite effect. It will burden up to 8,000 companies across 
the United States. Remember, these are in the hands of an 
international bureaucracy, not what we would like them to be, 
with major new reporting regulatory and inspection requirements 
entailing large and uncompensated compliance costs. These added 
costs constitute an unfunded Federal mandate. Like so many 
unfunded mandates, they are bound to retard our economic growth 
and make our companies less competitive.
    Is it not ironic, Mr. Chairman, meeting here as we are on 
tax day and concerned as we all are with reducing the tax 
burden on the American people, that we should even consider 
ratifying a convention that amounts to a new tax on some of our 
most innovative and productive companies? But it gets worse. 
For in addition to the costs arising from heavy duty reporting, 
the CWC subjects our chemical companies to snap inspections 
that will allow other nations access to our latest chemical 
equipment and information. No longer will violators of 
intellectual property rights in China, Iran, and elsewhere, 
have to go to the trouble of pirating our secrets. Incredibly, 
we ourselves will effectively hand them the stuff on a silver 
platter. No wonder former CIA Director and Defense Secretary 
Jim Schlesinger has called the convention a godsend for foreign 
intelligence services.
    But it gets worse. The CWC also threatens the 
constitutional rights guaranteed Americans under the Fourth 
Amendment. As former Secretaries of Defense Dick Cheney, Don 
Rumsfeld, and Cap Weinberger noted last September in a joint 
letter to Majority Leader Trent Lott, quote: The CWC will 
jeopardize U.S. citizens constitutional rights by requiring the 
U.S. Government to permit searches without either warrants or 
probable cause, end of quote. That is a serious statement from 
these former defense chiefs, jeopardize U.S. citizens 
constitutional rights.
    Think about that, Mr. Chairman. And think about all the 
criminal cases that our courts have summarily dismissed, 
because in their view the defendant's constitutional rights had 
been violated by police searches conducted without probable 
cause. Are American businesses to receive less justice than 
suspected felons? Of course not. The idea is preposterous. And 
yet that is what compliance with the CWC would entail.
    As Department of Justice officials publicly acknowledge in 
testimony before the Senate Judiciary Committee on September 9, 
1996, in cases where private facilities do not voluntarily 
permit access to inspection a criminal warrant would be 
required. Obtaining such a warrant from a court, however, would 
require demonstration of probable cause. This will be 
impossible in many cases, be- 
cause under the Chemical Weapons Convention the nation 
requesting an inspection need not cite its reasons for making 
such a request.
    Hence, the treaty poses an insoluble dilemma. Should the 
U.S. Government choose to respect its citizens Fourth Amendment 
rights not to be subjected involuntarily to searches in absence 
of judicial warrants? It will be creating a precedent that 
other countries will assuredly cite to refuse onsite 
inspections in their territories. If we do not do it, do not 
expect them to do it. On the other hand, should the Government 
choose not to respect the Fourth Amendment rights it will be 
acting unconstitutionally.
    But it gets worse, Mr. Chairman, for in addition to 
threatening our Fourth Amendment rights, the convention also 
undercuts our Fifth Amendment rights against having our 
property taken by the Government without just compensation. You 
are familiar with Judge Robert Bork, who noted in a letter to 
Senator Hatch last August, quote, Fifth Amendment problems 
arise from the authority of inspectors to collect data and 
analyze samples. This may constitute an illegal search and an 
illegal seizure, and perhaps constitute the taking of private 
property by the Government without compensation. The foreign 
inspectors will not be subject to punishment for any theft of 
proprietary information.
    Mr. Chairman, these are very grave constitutional issues 
that need to be resolved before the CWC is ratified. To wait 
until after the convention is ratified and its provisions 
become the supreme law of the land would be an act of supreme 
folly.
    Yet there is another pernicious aspect of this convention 
that I would like to touch on, the very different impact it 
would have on large and small companies. As former Secretary of 
Defense Don Rumsfeld noted in testimony before this committee 
last week, big companies are generally better able than small 
companies to withstand additional reporting, regulatory, and/or 
government inspection requirements. Some might even regard such 
burdens as a barrier to entry that can enhance their market 
share at the expense of their smaller competitors.
    Now, large chemical manufacturers are among the most 
pervasively regulated industries in the world. These companies 
can reasonably conclude that the burdens of this convention are 
manageable. The same certainly cannot be said of smaller, less 
regulated companies, many of whom still seem to be unaware that 
this treaty could adversely affect them and their bottom lines. 
The array of American companies that fall into this category is 
simply mind-boggling. They include those in such diverse fields 
as electronics, plastics, automotive, biotech, food processing, 
brewers, distillers, textiles, nonnuclear utility operators, 
detergents and soaps, cosmetics and fragrances, paints, and 
even the manufacture of ball point pen ink. The Senate will be 
ill-advised to ratify a convention that could do harm, 
unintended harm, to so many American enterprises without truly 
compelling reasons to do so.
    But finally, Mr. Chairman, in discussing the harmful side 
effects of the CWC, I would like to draw your committee's 
attention, as many other witnesses have done, to Articles X and 
XI. These provisions, which obligate the signatories to 
facilitate the fullest possible exchange of technology directly 
relevant to chemical war fighting will be cited by other 
governments, and maybe even by some American companies, as 
pretexts for doing business with Iran and Cuba with adverse 
consequences for U.S. National interests.
    These then, Mr. Chairman, are just some of the costs 
associated with ratifying the Chemical Weapons Convention. They 
are unacceptably high. Are there any offsetting benefits? 
Unfortunately, the answer is no, there are not. In fact, and 
this is critical, far from protecting us against an outbreak of 
chemical warfare, the convention would increase the likelihood 
of these awful weapons being used.
    As former Defense Secretaries Jim Schlesinger, Cap 
Weinberger, and Don Rumsfeld wrote in last month's Washington 
Post, it was March 5th, quote, the CWC would likely have the 
effect of leaving the United States and its allies more, not 
less, vulnerable to chemical attack. How would the CWC increase 
our vulnerability to chemical attack? By giving rise, and this 
has happened before in our history, to a false sense of 
security and a diminished program for defending our troops and 
our people against the danger of chemical attack by leading the 
American people to believe that with this convention we have 
somehow rid the world of chemical weapons when in fact even the 
CWC's defenders acknowledge that it will be unverifiable, 
unenforceable, and ineffective in globally banning chemical 
weapons.
    Historically, Mr. Chairman, phony arms control treaties 
have invariably translated into reduced efforts by the 
democracies to defend themselves against the predatory 
dictatorships. Sadly, there is no reason to suppose that the 
CWC will prove an exception to this general rule.
    Mr. Chairman, if some of our best defense experts warn us 
that this treaty will harm our vital security interests, if it 
will lead to the creation of a massive intrusive U.N.-style 
bureaucracy costing taxpayers as much as $200 million annually, 
and if on top of all that it will diminish our competitiveness, 
render us more vulnerable to economic espionage, endanger some 
of or constitutional rights, and impose unfunded Federal 
mandates on thousands of American companies, many of whom do 
not even make chemical weapons, why on Earth should the 
convention be ratified? To demonstrate leadership? But surely, 
real leadership requires a willingness to stand alone if 
necessary to defend our vital interests and ultimately the 
interests of freedom-loving people around the world, not to 
sacrifice those interests on the alter of a misguided 
bureaucratic global consensus.
    Unfortunately, that apparently is not the way President 
Clinton understands U.S. leadership. He would have us be a 
leader in implementing a global agenda consisting of 
multinational accords that a majority of the American people 
simply do not support. Like the CWC, these multinational 
accords, whether they relate to the environment, patents, 
property rights, the way we educate our kids, defraying the 
costs of U.N. operations, or protecting our homes, are 
unwelcome intrusions on American sovereignty. The best way to 
resist all of this is simply to stop the present treaty.
    And finally, Mr. Chairman, it speaks volumes about what is 
wrong with the present CWC that its proponents declare that the 
United States might become a pariah nation like Libya, Iraq, 
and North Korea, if we do not ratify it. Surely only hardened 
anti-American propagandists, deluded one worlders, can ever 
entertain the idea that the United States is akin to North 
Korea, Libya, and other pariah states. After all, these pariah 
nations are developing and manufacturing chemical weapons at 
the same time that America is destroying its stockpile of such 
weapons. It is a sign of desperation, as well as an insult to 
all Americans that President Clinton and some of his allies are 
advancing this argument in order to defend a convention that is 
truly indefensible.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Forbes follows:]

              Prepared Statement of Malcolm S. Forbes, Jr.

    Thank you, Mr. Chairman, for allowing me to testify before this 
distinguished committee today.
    There are many compelling reasons to oppose ratification of the 
Chemical Weapons Convention. The fact is that the Chemical Weapons 
Convention significantly threatens the freedoms we Americans cherish, 
significantly diminishes America's sovereignty, and, significantly 
increases America's vulnerability to chemical warfare. It's as though 
we were being asked to endorse a drug that worsens the disease it 
purports to cure and, in addition, has some highly dangerous side 
effects.
    To explain just how dangerous the CWC's side effects are, let me 
ask the distinguished members of this committee a simple question. What 
is the basis of America's greatness? Why is it that although the 
international arena contains many powers, we are the world's sole 
superpower? Any adequate answer to this question would have to include 
such factors as the competitive nature of our free market system, the 
unparalleled technological sophistication of American enterprises, and, 
most important, our basic freedom. These are the sinews of our power, 
the basis of our national greatness. Yet it is precisely these 
quintessentially American strengths that the Convention would 
undermine.
    Let me begin by talking about American competitiveness. As I have 
strenuously argued on other occasions, maintaining America's 
competitive edge requires a lessening of the tax and regulatory burdens 
on the American people and our Nation's enterprises. Unfortunately, the 
CWC will have precisely the opposite effect. It will burden up to 8,000 
companies across the United States with major new reporting, regulatory 
and inspection requirements entailing large and uncompensated 
compliance costs. These added costs constitute an added federal 
mandate. Like so many unfunded mandates, they are bound to retard our 
economic growth and make our companies less competitive.
    Isn't it ironic, Mr. Chairman, meeting here on Tax Day and 
concerned as we all are with reducing America's tax burden, that we 
should even consider ratifying a Convention that amounts to a new tax 
on some of our most innovative and productive companies?
    But it gets worse. For in addition to the costs arising from heavy-
duty reporting, the Chemical Weapons Convention subjects our chemical 
companies to snap inspections that will allow other nations access to 
our latest chemical equipment and information. No longer will violators 
of intellectual property rights in China, Iran and elsewhere have to go 
to the trouble of pirating our secrets; incredibly, we ourselves will 
hand them the stuff on a silver platter. No wonder former CIA Director 
and Secretary of Defense James Schlesinger, has called the Convention a 
``godsend'' for foreign intelligence services.
    But it gets worse. The CWC threatens the constitutional rights 
guaranteed Americans under the Fourth Amendment. As former Defense 
Secretaries Dick Cheney, Donald Rumsfeld and Caspar Weinberger noted 
last September in a joint letter to Majority Leader Trent Lott, ``the 
CWC will jeopardize U.S. citizens' constitutional rights by requiring 
the U.S. government to permit searches without either warrants or 
probable cause.''
    ``Jeopardize U.S. citizens' constitutional rights''--think about 
that, Mr. Chairman. And think about all the criminal cases that our 
courts have summarily dismissed because, in their view, the defendants' 
constitutional rights had been violated by police searches conducted 
without ``probable cause.'' Are America's businesses to receive less 
justice than suspected felons? Of course not--the very idea is 
preposterous! And yet, that is precisely what compliance with the CWC 
would entail.
    As Department of Justice officials publicly acknowledged in 
testimony before the Senate Judiciary Committee on Sept. 9, 1996, in 
cases where private facilities do not voluntarily permit access to 
inspection, a criminal warrant would be required. Obtaining a warrant 
from a court, however, would require demonstration of probable cause. 
This will be impossible in most cases, because under the Chemical 
Weapons Convention, the nation requesting an inspection need not cite 
its reasons for making such a request.
    Hence, the treaty would post an insoluble dilemma. Should the U.S. 
government choose to respect its citizens' Fourth Amendment rights not 
to be subjected involuntarily to searches in the absence of judicial 
warrants, it will be creating a precedent that other countries will 
assuredly cite to refuse on-site inspections in their territories. On 
the other hand, should the government choose not to respect those 
Fourth Amendment rights, it will be acting unconstitutionally.
    But it gets worse. For in addition to threatening our Fourth 
Amendment rights, the Convention also undercuts our Fifth Amendment 
rights against having our property taken by the government without just 
compensation. As Judge Robert Bork noted in a letter to Sen. Orrin 
Hatch last August:

        * * * Fifth Amendment problems arise from the authority of 
        inspectors to collect data and analyze samples. This may 
        constitute an illegal seizure and, perhaps, constitute the 
        taking of private property by the government without 
        compensation. The foreign inspectors will not be subject to 
        punishment for any theft of proprietary information.

    Mr. Chairman, these are very grave constitutional issues that need 
to be resolved before the CWC is ratified. To wait until after the 
Convention is ratified and its provisions become the ``supreme law of 
the land'' would be an act of supreme folly.
    There is yet another pernicious aspect of this Convention that I 
would like to touch on--the very different impact it would have on 
large and small companies. As former Secretary of Defense Donald 
Rumsfeld noted in testimony before this Committee last week, big 
companies are generally better able than small companies to withstand 
additional reporting, regulatory and/or government inspection 
requirements. Some might even regard such burdens as a barrier to entry 
that can enhance their market-share at the expense of their smaller 
competitors.
    Large chemical manufacturers are among the most pervasively 
regulated industries in the world. These companies can reasonably 
conclude that the burdens of this Convention are manageable.
    The same certainly cannot be said of smaller, less regulated 
companies--many of whom still seem to be unaware that this treaty could 
adversely affect them and their bottom lines. The array of American 
companies that fall into this category is simply mindboggling. They 
include those in such diverse fields as electronics, plastics, 
automotive, biotech, food processing, brewers, distillers, textiles, 
non-nuclear electric utility operators, detergents and soaps, cosmetics 
and fragrances, paints, and even manufacturers of ballpoint pen ink. 
The Senate would be ill-advised to ratify a Convention that could harm 
so many American enterprises without having truly compelling reasons to 
do so.
    Finally, Mr. Chairman, in discussing the harmful side effects of 
the Chemical Weapons Convention, I would like to draw your Committee's 
attention to Articles X and XI. These provisions, which obligate the 
signatories to ``facilitate the fullest possible exchange'' of 
technology directly relevant to chemical war-fighting, will be cited by 
other governments--and, probably, by some American companies--as 
pretexts for doing business with Iran and Cuba, with adverse 
consequences for U.S. national security interests.
    These, then, are some of the costs associated with ratification of 
the Chemical Weapons Convention. They are unacceptably high. Are there 
any offsetting benefits? Unfortunately, the answer is no, there aren't. 
In fact, far from protecting us against an outbreak of chemical 
warfare, the Convention would increase the likelihood of these awful 
weapons being used. As former Defense Secretaries James Schlesinger, 
Caspar Weinberger and Donald Rumsfeld wrote in last month's Washington 
Post (March 5), ``The CWC would likely have the effect of leaving the 
United States and its allies more, not less, vulnerable to chemical 
attack.''
    How would the CWC increase our vulnerability to chemical attack? By 
giving rise to a false sense of security and a diminished program for 
defending our troops and people against the danger of chemical attack. 
By leading the American people to believe that with this Convention we 
have somehow rid the world of chemical weapons when, in fact, even the 
CWC's defenders acknowledge that it will be unverifiable, unenforceable 
and ineffective in globally banning chemical weapons. Historically, 
phony arms control treaties have invariably translated into reduced 
efforts by the democracies to defend themselves against the predatory 
dictatorships. Sadly, there is no reason to suppose that the Chemical 
Weapons Convention will prove an exception to this general rule.
    Mr. Chairman, if some of our best defense experts warn us that this 
treaty will harm our vital security interests? If it will lead to the 
creation of a massive, intrusive, U.N.-style bureaucracy costing 
American taxpayers as much as $200 million annually? And if, on top of 
all that, it will diminish our competitiveness, render us vulnerable to 
economic espionage, endanger our constitutional rights, and impose 
unfunded federal mandates on thousands of American companies, none of 
whom even make chemical weapons, why on earth should the Convention be 
ratified? To demonstrate ``leadership''? But surely, real leadership 
requires a willingness to stand alone, if necessary, to defend our 
vital interests and ultimately the interests of freedom-loving peoples 
around the world--not to sacrifice those interests on the altar of a 
misguided, bureaucratic global consensus.
    Unfortunately, that apparently is not the way President Clinton 
understands U.S. leadership. He would have us to be a ``leader'' in 
implementing a global agenda consisting of multinational accords that a 
majority of the American people simply do not support. Like the 
Chemical Weapons Convention, these multinational accords--whether they 
relate to the environment, patents or other property rights, or to the 
ways in which we educate our children, defray the costs of the U.N. 
operations or protect our homes--are unwelcome intrusions on American 
sovereignty. The best way to resist them is to stop the present treaty.
    Finally, Mr. Chairman, it speaks volumes about what is wrong with 
the present Chemical Weapons Convention that its proponents declare 
that the United States will become a pariah nation like Libya, Iraq and 
North Korea if we do not ratify it. Surely, only hardened anti-American 
propagandists and deluded One-Worlders could ever entertain the idea 
that the United States is akin to North Korea, Libya, etc. After all, 
these pariahs are developing and manufacturing chemical weapons at the 
same time we are destroying ours. It is a sign of desperation, as well 
as an insult to every American, that President Clinton and his friends 
are advancing this argument in order to defend a Convention that is 
truly indefensible.
    Thank you, Mr. Chairman, for your gracious attention.

    The Chairman. I suggest, anticipating that additional 
Senators will appear, there are afternoon committee meetings 
going on, as well, in other areas of the Capitol. I suggest 
that we embark on about a 7.5 minute round of questions.
    First of all, I am going to use a few minutes of my time to 
say that my dear friend, the Senator from Delaware, never 
disappoints me. Somehow he always comes up with statistics that 
I do not know where they came from, and I do not know that he 
can explain them, either. But here he did it again today. But I 
am concerned, I must say to my friend, that the administration 
has becoming expert in low-balling the number of businesses 
that will be affected by the chemical weapons treaty, in order, 
I think obviously, to avert concern in the Senate.
    Now, back in 1993 the Congressional Office of Technology 
Assessment reported that the administration believed that over 
11,200 facilities would be subject to this treaty. During the 
past 4 years, that number has gone down like the Titanic. It 
dropped to 6,300 in October 1994, and then to 3,000 in May 
1996. Now, continuing the trend of the CWC's seemingly ever-
shrinking impact upon business, ACDA is now declaring that only 
2,000 companies will be affected. Lord knows what it is going 
to be tomorrow morning at 10.
    Yet when I review the response codes on ACDA's industry 
data base, it seems to me that the administration has simply 
developed now new information about 5,583 of these facilities 
to confirm or deny--confirm or deny--that they would be 
affected by the CWC. In fact, as of last year only 668 
facilities in the entire country had responded to ACDA in 
recognition of the fact that they would have new regulatory 
obligations under the CWC. This means that even CMA-owned 
facilities have not responded to ACDA's industry survey 
questionnaire.
    Accordingly, I do not think it is appropriate for the 
administration to reduce their estimates when the companies 
themselves have not responded one way or the other, or to 
confirm or deny that they use or produce the chemicals that are 
subject to the treaty. Accordingly, I think there are serious 
problems with the statistics that may have already been 
presented today by my friend, or subsequent to that.
    Now, Mr. Forbes, the CWC will require the Lord knows how 
many American companies to fill out detailed data declarations. 
Some companies have conducted comprehensive internal cost 
reviews of their own, based on the instruction manual and draft 
regulations compiled by the Commerce Department. The cost 
estimates associated with the reporting burden range from 
$1,500 to $2,000 for two small companies producing discrete 
organic chemicals, up to $250,000 estimated by a large 
diversified company.
    Now, my question to you, sir, is do you think the 
advantages of this treaty, if any, are sufficient to warrant 
subjecting American companies to this new regulatory burden?
    Mr. Forbes. Absolutely not. Even putting aside the fact 
that other nations can easily circumvent this treaty, just as 
other nations violated the 1925 accord banning the use of 
poison gases, even if that is true it will impose a burden on 
American companies, and to concentrate on trying to assess what 
that burden is, trying to assess how we might reduce it, it 
lies in the interpretation of a body over which we will have 
little effective control.
    And so I do not see what the advantages are to argue, 
whether it is going to be 100 facilities or 10,000 facilities, 
Mr. Chairman, when you were reciting those numbers I thought 
for a moment you were talking maybe about the stock market 
going down to 2,000.
    But we do not know. It is uncharted territory. We do not 
know what kind of inspections it will go to.
    When the Iranians put in the request that they have spotted 
a challenge inspection somewhere, we do not know. And if we do 
not know, what are we doing it for? And given the history of 
these agreements and given how easy it is to produce deadly 
weapons, I mean, look at Iraq. The most trod on nation in the 
world in terms of inspections. Yet Saddam stays one step ahead 
of those inspectors. If it cannot work in Iraq, why are we 
subjecting ourselves to this in the first place.
    The Chairman. According to the Congressional Office of 
Technology Assessment, to which I referred a minute or so ago, 
the U.S. Chemical industry is one of the top five industries 
targeted by foreign governments, and the problem of industrial 
espionage is growing. Do you agree with that statement?
    Mr. Forbes. Yes, and we have seen an example of it last 
year.
    The Chairman. And because proprietary information is often 
the basis for a chemical company's competitive edge, both 
nationally and internationally, the theft of trade secrets can 
result in major loss of revenue and investment. In fact, the 
theft of trade secrets can cripple even a giant company, 
according to this report, and can be fatal to a small 
enterprise. I suppose that you agree with that assessment by 
this government agency.
    Mr. Forbes. [Nods affirmatively.]
    The Chairman. But in any case, former Secretary of Defense 
and Director of Central Intelligence Jim Schlesinger testified 
last week, sitting almost where you are sitting right now, that 
the CWC would be a godsend, and that is his word, a godsend to 
foreign companies and governments engaged in industrial 
espionage. My question, sir, is do you agree with Jim's 
assessment of that?
    Mr. Forbes. I am afraid so, yes.
    The Chairman. The Chemical Manufacturer's Association, 
which represents the largest--the largest--U.S. Chemical 
companies, supports ratification of this treaty. This past 
week, as you know, former Secretary of Defense Rumsfeld 
suggested that the reason for CMA's support may be due to the 
fact that the large companies can cope with the new regulatory 
burden and so forth, but these are not surmises, they are the 
result of studies by a number of us. My question is how badly 
do you think this treaty will harm U.S. industry, and why do 
you think the association supports it?
    Mr. Forbes. Well, large companies can cope with regulation. 
In fact, historians of regulation in America point out that 
larger companies often like regulation, often like government 
intruding, because that makes it more difficult for competitors 
to enter the business and compete. When airlines were 
deregulated we got a whole host of new companies coming in. 
When telephones were deregulated a whole host of new companies 
came in. When railroads were deregulated, short lines 
proliferated. So I think he is onto something.
    It seems to be in human nature. They are obviously 
supporting it with the most honorable of motives. They think it 
will be good. But that begs the question. Here we are getting 
into almost how many angels dance on a pin arguments about how 
many facilities, what kind of chemicals, Schedule III, Schedule 
II, which begs the question will this reduce the possibility of 
production of poisonous chemicals around the world by nations 
that wish to do it. The answer is no.
    The Chairman. I thank you.
    Senator Biden.
    Senator Biden. Thank you very much.
    Mr. Forbes and Senator Helms, let me tell you where I got 
my numbers. I got my numbers from an analysis done by the 
Commerce Department, and the way it explains its previously 
higher number--I am reading from a letter signed by former 
Secretary of Commerce Mickey Kantor and Philip Lader, 
Administrator of the Small Business Administration. And I 
quote:

    Previously, the administration had estimated that more 
companies would be required to submit a data declaration. 
However, additional analysis indicated that many did not cross 
the CWC production threshold for reporting. Further, 
administrative exemptions at the Organization for the 
Prohibition of Chemical Weapons (OPCW) will be crafted to 
exclude entire industries from reporting--biomediated processes 
(such as certain beverages), polymers (such as certain plastics 
used in football helmets),* * *. In addition, plant sites that 
exclusively produce hydrocarbons (e.g., propane and ethylene) 
are completely excluded from reporting requirements.

    That is why the number is different. Number 1.
    Number 2, I might point out that these onerous reporting 
requirements are a total of, for Schedule I, I believe, six 
pages long, for Schedule II I think it is seven, and Schedule 
III it is five. And of Schedule III and the so-called DOC's, 
which total roughly 1,900 of the 2,000 companies we are talking 
about, the total number of inspections under the treaty 
allowed, period, in any 1 year is 20. Let us put this in 
perspective--20.
    Now, it does not go to the sovereignty argument Mr. Forbes 
raised. I understand that. But it goes to the facts--20--t-w-e-
n-t-y--20. And if there are 1,800 of those 1,900 companies, as 
I am saying, that are in Schedule III and the so-called DOC's, 
if I am right about that, it is 20 out of 1,900. If it is 
10,000 or whatever number my friend uses, or 6,000, it is 20. 
That is Number 1.
    Number 2, on this issue of search warrants, there is a 
section in the treaty now, put in at the insistence, I am told, 
of President Bush, and it deals with covering the Fourth 
Amendment. It is good to see Mr. Gaffney here. Mr. Gaffney, you 
staff more people than I have ever seen. You are a very, very 
ubiquitous fellow. Every witness we have had against, you have 
been staffing, and they are fortunate to have your expertise.
    ``In meeting the requirement to provide access as specified 
in paragraph''--I am reading from the Verification Annex of 
Challenge Inspections. ``In meeting the requirement to provide 
access as specified in paragraph 38, the inspected State Party 
shall be under the obligation to allow the greatest degree of 
access, taking into account any constitutional obligation it 
may have with regard to proprietary rights or searches and 
seizures.'' But assuming that was not sufficient, which it 
clearly is legally, assuming that was not sufficient, we are 
prepared to accept a condition to the treaty requiring search 
warrants for challenge inspections and the establishment of 
probable cause.
    Now, I might also point out there is--this is black letter 
law, what I am referring to now. We are not talking about any 
hyperbole on my part about how search warrants work and do not 
work. The Supreme Court, in Marshal v. Barlow's, Incorporated, 
a decision argued June 9th, 1978, decided May 23rd, 1978, which 
is the prevailing law, talks about administrative warrants, 
criminal warrants, and those inspections where no warrant is 
required. And I might add, Federal law authorizing warrantless 
searches, which I am sure, I suspect Mr. Forbes, you would 
disagree with all these, but in fact I am citing what the law 
is. I am not implying that you agree what the law should be. I 
would imagine you do not think there should be the Federal 
Insecticide, Fungicide, and Rodenticide Act; or the Nursery 
Stock Guarantee Act; or Immigration and Naturalization Act; or 
Toxic Substance Control Act; Consumer Product Safety Act; 
National Forest System Drug Control Act; Bald Eagle Protection 
Act; Migratory Bird Treaty; Skies Act; Fisher and Wildlife Act 
of 1956; Northern Pacific Halibut Act of 1982; Whaling 
Convention of 1949; Tuna Convention of 1950; Eastern Pacific 
Tuna Licensing Act of 1934, Endangered Species Amendments of 
1982, Antarctic Conservation Act of 1978, Antarctic Marine 
Living Resources Convention of 1984, Lacy Act Amendments of 
1981; Food and Drug and Cosmetic Act; Federal Meat Inspection 
Act; Fisherman's Protective Act; Distillery Spirits Act; 
Occupational Health and Safeties Act; Migrant Season 
Agricultural Workers Act; Mine Safety and Health Act; Safe 
Drinking Water Act; Surface Mining Control Act; Clean Water 
Act; Resource Conservation Recovery Act; Clean Air Act; 
Comprehensive Environmental Response Compensation Liability 
Act; and Federal Land Policy Management Act. I may have made 
the case why the Government is over-reaching. But I also would 
argue this makes the case that what is suggested in this treaty 
is nothing--nothing--nothing--different than the way in which 
the law has worked so far. None of these requires an act.
    To walk on your estate to find out whether you are shooting 
bald eagles, which I am sure you are not, Mr. Forbes, they are 
allowed to do that without a warrant, old buddy. They are 
allowed to do that. So there are a lot of things you are 
allowed to do without a warrant. But there is a second category 
here. Nothing in here can be done without that kind of warrant 
if, in fact, any business objects.
    There is a second category in the Supreme Court law, and it 
is called an administrative warrant. And it says for purposes 
of administrative search such as this, and I am reading from 
the case and there was an OSHA inspector who wanted to come on, 
probable cause justifying the issuance of a warrant may be 
based not only on specific evidence of existing violations, but 
also on showing that reasonable legislative, administrative 
standards for conducting an inspection are satisfied with 
respect to a particular establishment. That is an 
administrative warrant.
    And third, there is a third kind of warrant, and that is a 
criminal warrant.
    So we are willing to add a condition to this treaty 
requiring a criminal warrant in addition to an administrative 
warrant, where I might add under our Constitution and our 
Supreme Court now in similar circumstances--because the Court 
uses all this test on all Fourth Amendment cases--they use this 
notion of whether or not there is reason to believe the party 
involved thought they were protected from this kind of 
intrusion, whatever it is. And they argue that pervasively 
regulated industries start off without the benefit of the 
presumption that they would not be inspected without a warrant. 
That is the basis on which the Supreme Court could uphold all 
of these warrantless inspections or searches.
    We are not talking about that. We are talking about 
criminal warrants in areas where there are challenge 
inspections. And so I hope when you see the condition, which I 
would be happy to show you Mr. Forbes, your concern on at least 
that one issue will be mildly allayed.
    Mr. Forbes. By the way, Senator, I do not shoot bald 
eagles, and I do not shoot Democrats, either.
    Senator Biden. Well, I will tell you what, if anybody could 
shoot Democrats and do it effectively, you are very good at it; 
and I mean that in a complimentary way. The way I saw you take 
my State by storm, I am glad I was not a Republican standing in 
the way of your shots.
    Mr. Forbes. Some of my best friends are Democrats.
    Senator Biden. And mine Republican.
    The Chairman. I have just got one question. Did you 
understand the question?
    Senator Biden. Well, I did not hear the answer, Mr. 
Chairman.
    Mr. Forbes. I am trying to be diplomatic, Mr. Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Welcome, Mr. Forbes. Good to have you with us.
    Mr. Forbes. Thank you, Senator.
    Senator Hagel. As you know, every time I have an 
opportunity to be a part of this committee, it is a rather 
didactic experience, listening to my colleagues.
    I never knew, Senator, that we had that many acts. And the 
way you went right through them was magnificent.
    Let me, before I ask you a question, Mr. Forbes, make this 
observation. I think all my colleagues on this panel and in the 
U.S. Senate are coming at this issue based, first, not on what 
is good for business, what is bad for business, but what is 
good for America, what is in our best security interest.
    Mr. Forbes. Right.
    Senator Hagel. That is the way I am looking at it. 
Obviously we have other elements and dynamics that are involved 
in this discussion. We should debate them. We should hear your 
views, as the next panel's views will be, I suspect, somewhat 
different. But I think it is important that we not lose sight 
here of what we are about. And that is dealing with the reality 
of a very unstable, very dangerous world. And everybody's 
opinion must be heard, but, in the end, it seems to me, and I 
think I can speak generally for my colleagues, that we must do 
what is right for the security interests of this country.
    In particular, the young men and women of our armed forces, 
who may some day be called upon to fight in a theater against a 
nation that is using chemical weapons. And I think the defining 
question for all of us is, does this treaty help them or hurt 
them?
    Now, with that said, I would like for you to delve in a 
little more into Articles X and XI, the transfer of technology, 
the obligations of what we share with our treaty friends and 
allies. That has gotten an awful lot of attention during the 
course of this debate, which I think it should have and is 
appropriate. And I noted you mentioned it in your testimony. 
And I would like for you to define more of that, if you would.
    Mr. Forbes. Well, under Articles X and XI, there is the 
very real possibility that if we, one of our companies, we come 
up with a way of defending against chemical weapons, that that 
technology may end up in the hands of countries around the 
world. Countries who sign on to this convention have the right 
to request that technology. And we may be obliged to provide 
that technology.
    And I think that that is a very real danger. The fact that 
four defense chiefs believe that we may have to give up 
information and technology that could be used for defensive 
purposes and would therefore allow a rogue nation to reverse 
engineer, to figure out how to possibly get around these 
defenses is, I think, a good reason to pause and say, is this 
the best way to protect our people in the future?
    And if you look at the history of treaties, especially in 
the twenties, simply saying you are against poison gases, 
against war, as we did in the Kellogg-Briand Pact of 1928, or 
against armaments, as we did in the Naval Disarmament Treaty of 
1922, guarantees, ultimately, nothing. In the 1980's, for 
example, Iraq used poison gases against Iran. Iraq used poison 
gases against the Kurds. The international community did 
nothing, despite that 1925 Geneva agreement.
    So the possibility that they could get that kind of 
technology and put it to uses to which we do not want it to be 
put to use is something that, as I say, should give us real 
pause.
    Senator Hagel. In your opinion, can this treaty be fixed?
    Mr. Forbes. I think you have to ask a very basic question. 
Given the nature of chemicals, given the fact that you can take 
compounds--what they call precursors or ingredients--that in 
and of themselves are harmless, put them together in a basement 
laboratory and come up with something that is deadly, should 
make us think, is this the best way to protect our people, 
where we are subject to interpretations on inspections, but 
those who want to do it can do it?
    Take Iraq again. They have inspectors on their soil. They 
were humiliated in a war. Yet the head of the agency that is in 
charge of those inspections said recently that the Iraqis have 
more than a handful of missiles, and it looks like they are 
playing games again with biological and chemical weapons. If 
they can do that under that kind of supposedly severe regime, 
who knows what Iran is doing.
    We know what Libya is doing in the areas of biology, thanks 
in no small part to the Germans. So does this treaty make us 
more secure or does it end up being one of those situations 
where, despite its good intentions, it does more harm than 
good?
    I, so far, based on the evidence I have seen as a citizen, 
I think it does more harm than good, especially when you look 
at the treaties of the twenties. What good did they do when 
violators were there?
    Senator Hagel. Should we have a chemical weapons treaty? 
Can, in your opinion, we produce one?
    Mr. Forbes. Well, there is a bill, I understand, Senator 
Kyl and others have been putting together that might do 
something in terms of something substantive. I have not seen 
the bill. So maybe there is a better way to do it. But, 
clearly, this convention is not the way to do it, given the 
flaws that those defense chiefs and others have pointed out.
    Senator Hagel. If I could also refer back to your 
testimony, your point about it giving rise to a false sense of 
security. Which, I think, by the way, has been overlooked in 
some of our deliberations here, and has been easily dismissed, 
because it is one of those intangibles that is easy to dismiss. 
Would you like to elaborate a little bit on your comment about 
a false sense of security?
    Mr. Forbes. Well, the classic case are the three treaties 
of the twenties, the Naval Disarmament Treaty of the early 
twenties, the prohibition against poison gas in the mid-
twenties, and the Kellogg-Briand Pact in the late-twenties, 
that led the British and the democracies--not so much the 
French, but certainly the British--to believe that they did not 
have to take adequate measures for defense. And once you start 
on that slope, it is very hard to reverse it. Because there are 
always pressing domestic priorities. We see it today.
    We are now downsizing to where our defense spending as a 
proportion of our GDP is getting down to below Pearl Harbor 
levels. But it is very hard to reverse, given the pressures 
that we face each day.
    So, also, too, given some of the treaties we had in the 
sixties and seventies--look at SALT I--that did not prevent the 
Russians from a massive armaments program, which necessitated 
our building up in the 1980's. So it goes right up to modern 
times.
    And also, too, in the early nineties, we did sign an 
agreement with the Russians on chemical weapons. And the 
evidence indicates that they are going ahead and developing and 
producing deadly chemical weapons. They are ignoring what we 
signed 6 or 7 years ago.
    Senator Hagel. Is there a particular way you get at the 
Russian chemical weapons program, in your opinion?
    Mr. Forbes. Well, you publicize it. You make it very clear 
that this is going to affect our bilateral relations. In other 
words--I will give you an example outside of the defense area. 
A little over a year ago we were ready to sign an agreement, a 
worldwide agreement, on telecommunications. To its credit, this 
administration said this is pretty weak stuff, we can do better 
to open up those markets. Everyone said, oh, no, this is going 
to--our international allies will be upset at us. But, to its 
credit, Kantor and others said no, we are going to go for a 
better deal.
    A few months ago they got a better deal. Because we took 
leadership. We had a clear idea on what we wanted. And here are 
two signatories, supposedly, of this convention. And here is 
the headline: China helps Iran--it was just in the paper on 
Sunday--develop chemical arms. The treaty is not worth the 
paper it is written on the way it is now.
    Senator Hagel. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you.
    The Chairman. What do you think, about 2 or 3 minutes a 
piece for the next round? You name it.
    Senator Biden. Three. If you give me the choice, I will 
take the higher.
    The Chairman. You go first.
    Senator Biden. Well, thank you, Mr. Chairman.
    Mr. Forbes, it is interesting, you cited these treaties and 
agreements in the twenties as being useless, yet no chemical 
weapons were used in World War II.
    Mr. Forbes. They were not used in World War II, because 
both sides felt it would be counterproductive to their own 
interests.
    Senator Biden. Right.
    Mr. Forbes. Not because of a treaty.
    Senator Biden. Right.
    Mr. Forbes. In the 1980's, when Iraq thought it was in its 
interests to use it, it did. And the international community 
did nothing.
    Senator Biden. Right. Now, you acknowledge that does not 
have anything to do with whether there is a treaty or is not a 
treaty, right?
    Mr. Forbes. I am saying it takes U.S. leadership, in terms 
of national security, to make things happen. Signing a piece of 
paper will not, in and of itself, do it. As you know, 
enforcement is key. But, unfortunately, the history of these 
treaties suggests that in a democracy, where we would rather be 
doing other things, like bettering our lives, than having to 
worry about defense, these treaties do have a lulling effect, 
where we do not take the necessary steps.
    Senator Biden. Well, we did all these arms control treaties 
and the cold war is over. Not because of that, but not in spite 
of that. I mean it is over. You know, all this stuff, these 
horrible treaties we signed and these arms control treaties, it 
is amazing, the Soviet Union is gone, in spite of the fact that 
we lulled ourself to sleep with all those things. It just 
amazes me how that happened.
    Mr. Forbes. No. What happened, as you know, in the late-
seventies, we were in serious trouble. We were in serious 
trouble here at home. The Soviet Union was on a major arms 
buildup. It gratuitously, because it did not respect our 
leadership, invaded Afghanistan. And that led, as it does in a 
democracy, in the American democracy, to a sense of alarm, a 
sense of renewal. And that is how we got the buildup of the 
eighties. Ronald Reagan stood strong, and we won the cold war.
    If we continued the policies of the seventies, we would 
still have the cold war today.
    Senator Biden. Well, what you are saying is, if we continue 
the policy of being strong and staying vigilant and have arms 
control treaties, they work in tandem. That is what Reagan did, 
did he not? He is the guy that gave us START. He is the guy 
that had this buildup and also got rid of the nuclear weapons, 
right?
    Mr. Forbes. Because he did it--he had credibility to make 
the agreements work.
    Senator Biden. I see. I see.
    Mr. Forbes. And this agreement, even if you have Ronald 
Reagan--he said--Ronald Reagan said ``Trust, but verify.''
    Senator Biden. Right.
    Mr. Forbes. The villains here are not trustworthy.
    Senator Biden. And he drafted the treaty.
    Mr. Forbes. The villains here are not trustworthy, and you 
cannot verify what the North Koreans are doing or even what 
signatories like the Iranians or the Chinese may be doing. So 
this is a treaty, unlike some of the earlier arms agreements, 
this is one where the U.S. leadership is going to be for 
naught. You cannot do it.
    Senator Biden. Have you seen an arms control agreement you 
like?
    Mr. Forbes. The test ban of 1963 was good, sure.
    Senator Biden. How about the one now? How about the Nuclear 
Test Ban Treaty now?
    Mr. Forbes. Fine. Fine. That is where judgment----
    Senator Biden. Mr. Gaffney just blanched. He is going to 
work on you on the way out.
    I expect, by next campaign, you will have a different view.
    Thank you, Mr. Chairman.
    The Chairman. Why do not you go ahead. I will go last.
    Senator Hagel. Thank you, Mr. Chairman.
    Mr. Forbes, would you go back and talk a little bit about 
your earlier statements, the effect on smaller, less regulated 
companies, in your opinion, this treaty would have.
    Mr. Forbes. Well, this is, as you can see by the numbers 
that are being bandied about and how you interpret what is in 
the convention and what we promise we might add to the 
convention, makes it a whole murky area. We are on uncharted 
waters. And to say gee, it is going to be simple, the initial 
requirements, given the nature of bureaucracies--we know they 
do not say give us less paper--usually one thing leads to 
another.
    Senator Hagel. Well, I was interested very much in Mr. 
Rumsfeld's comments when he was here last week. What he was 
going beyond getting to was it would have, in his opinion, this 
treaty, a very inhibiting factor on young, small companies. And 
Senator Biden has, I think, addressed some of that. And I guess 
where we all have to come down to is where is the truth here. 
And I had an opportunity to be with Senator Biden last week on 
some of this. But that is a factor that I think is very 
important here. Because these young companies that are the 
engines of our economy should not have to carry a 
disproportionate burden here if we would go forward with this 
treaty or some form of this treaty.
    And if you would like to, especially from your perspective, 
come at this in some way, I would be grateful for any other 
comments you want to make on this.
    Mr. Forbes. Well, as you know, it is conceptual, because we 
do not know how the new body in The Hague is going to--how 
vigorous it is going to be in terms of these intrusive 
inspections. We also do not know about the so-called challenge 
inspections, whether they are going to be used against a 
smaller company, which could put it out of business. This is 
uncharted territory. But history shows that when you have 
regulations, when you have to keep track of things not for a 
business purpose but for a potential inspection or actual 
filings, it does have a cost and an inhibiting effect.
    And you can see the nature of bureaucracies. Look what 
happened to telecommunications. We passed a bill a little over 
a year ago that said it was supposed to remove some of the 
shackles. The way it has been interpreted by the courts and the 
FCC, it is just as regulated as before--almost as regulated as 
before.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Mr. Forbes, what do you think of the drop 
dead date of April 29th? They say that the whole thing will 
collapse and we will be at the mercy of all these rogue nations 
if we do not ratify this treaty by the 29th, but we will have 
to pay one-fourth of the cost nonetheless. Does that make any 
difference to you?
    Mr. Forbes. Yes. And unfortunately, when you urge other 
nations to ratify something in order to trigger a date like 
April 29th, I think that shows a lack of good faith. And this, 
again, gets to leadership. If we were truly interested in 
looking at this in a timely but reasoned way, without an 
artificial deadline, maybe we could strengthen the treaty. I do 
not think so. But to put an arbitrary date and say the world 
will come to an end, when we help engineer that date, I think 
we should say----
    The Chairman. Well, it was clearly put there, do you not 
think, to stampede the Congress, or the Senate, to say that 
boy, we got to do this by the 29th of April or the whole world 
collapses? I have heard it over and over and over again, and it 
does not hold any water at all.
    But let me tell you what has happened. I think that the 
effort by some in the media, the Washington Post and the New 
York Times and some like that, that have advocated this treaty 
to the point of absurdity--there have been other newspapers--
the Wall Street Journal has done a good job, your magazine has 
done a good job, and some others--but for the most part, the 
American people were not paying any attention to this treaty 
actually. So the result was that they could say 73 or 83 
percent of the people approved the treaty.
    Well, all of a sudden, the worm turned and the contents of 
this treaty were being analyzed in the media, particularly on 
the radio and in television. And I have a poll here that shows 
a total sample, total support as of April the 5th was 31 
percent for the treaty--31 percent of the people support the 
treaty; 60 percent oppose it.
    Now, in my own office they keep track of the calls, 
particularly when I am involved in an issue. And even in my 
home State a lot of people, even though they support me, they 
kept reading in the liberal media that this was such a great 
and grand thing and only idiots would oppose. And so that had 
some effect. It was about 50/50 in my State. Now it is about 
80/20. And in our telephone calls, we had 83 calls yesterday 
relating to this treaty.
    How many do you think supported it?
    Three. Eighty now oppose it. So I think they have 
overplayed their hands.
    I see Senator Kerry is here. And we had agreed on 3 and a 
half minutes. Is that what we said? We are glad to have you, 
sir.
    Senator Kerry. Well, that is time for a good dialog, Mr. 
Chairman. Thank you very much.
    Mr. Forbes, I have been interested to see that the Chemical 
Manufacturers' Association, the Synthetic Organic 
Manufacturers' Association, the Pharmaceutical Research and 
Manufacturers' Association of America, the Biotechnology 
Industry Organization, the American Chemical Society, the 
American Physical Society, the American Institute of Chemical 
Engineers, the Council for Chemical Research, and several other 
chemical trade organizations all strongly support the CWC. And 
they urge us to vote to ratify it. And they all insist that it 
will not pose an undue burden on business.
    The National Federation of Independent Businesses responded 
to treaty opponents' claims that they were opposed by saying 
that those claims were 100 percent incorrect, according to the 
Wall Street Journal, which also quotes an NFIB official as 
predicting its members are not going to be impacted, contrary 
to your statement about small business.
    So I really need your help in understanding what is the 
documentation here. On what do you base this notion? If the 
chemical industry, which is the industry that subjects itself 
to inspections, is for it, and they are threatened by the loss 
of some $600 billion worth of business, why are you so 
convinced they are wrong? And what evidence do you have to 
support that they are wrong and cannot look out for their own 
interests?
    Mr. Forbes. Well, first of all, as a general matter, there 
is no way that--the CWC is unverifiable and unenforceable with 
states like Iran, China, not to mention those that are not 
going to even sign the thing. The question now comes, how 
intrusive will it be on the United States?
    Don Rumsfeld, who had testified here last week, who has 
been in a large business, made the point that historians have 
made. And that is big businesses can cope with regulations 
better than small businesses. As a matter of fact, when you 
have a regulatory regime, it makes it harder for small 
businesses to get in and compete. And they figure that since 
they are heavily regulated anyway, they can put up with this 
kind of regime.
    But the fact of it really is not whether it is good for the 
Chemical Manufacturers' Association, the question is, is it 
enforceable, is it verifiable, is it good for the interests of 
the United States? Because if it is not good for America, then 
we should not do it just because a trade association says it 
might benefit our members. So big companies, as a rule, can 
cope with regulations, but small businesses can less cope with 
regulations. And the real problem is not just routine 
inspections--we can cope with those--but so-called challenge 
inspections. And that is unchartered territory.
    Senator Kerry. Well, the challenge inspections, according 
to every observer, are going to take place primarily at 
military facilities. Nobody anticipates a series of major 
challenges at the commercial facilities.
    Mr. Forbes. Well, given the nature, as you know, of----
    Senator Kerry. And we are not looking at small 
manufacturers here. I mean you are aware, are you not----
    Mr. Forbes [continuing]. Given, Senator, the nature of the 
manufacture of chemical weapons, since it can be done in a 
basement or a bathtub----
    Senator Kerry. Correct.
    Mr. Forbes [continuing]. It may need to be--experts say it 
should not need to go beyond military bases. But with chemical 
weaponry, since you can manufacture it almost anywhere, you may 
need a challenge inspection.
    Senator Kerry. Well, let us follow that through. It can be 
manufactured anywhere, correct? It can be manufactured 
anywhere, even as we sit here today, correct?
    Mr. Forbes. Well, you look at Iraq----
    Senator Kerry. Just follow me through. Just follow the 
thinking.
    Mr. Forbes. Yes, OK.
    Senator Kerry. It can be manufactured anywhere, as we sit 
here today, can it not?
    Mr. Forbes. Yes.
    Senator Kerry. And this regime, this CWC, you are aware, is 
going to take effect no matter what we do; you are aware of 
that?
    Mr. Forbes. Yes.
    Senator Kerry. So as of April 29th, a date that you want to 
discard, something is going to happen, is it not? Correct?
    Mr. Forbes. Not if we take leadership.
    Senator Kerry. No, no matter what we do, something happens. 
You are absolutely incorrect.
    Mr. Forbes. No, Senator----
    Senator Kerry. On April 29th, the group that organizes the 
process of inspections takes its work without the United States 
of America, because we have not ratified it. Only those who 
have ratified are part of that; is that not correct?
    Mr. Forbes. OK.
    Senator Kerry. So, no matter what we do, on April 29th, I 
think it is 70 nations are going to sit down at a table and 
say, OK, how do we go about the business of doing what the 
United States asked us to do, but now does not want to do, 
correct?
    Mr. Forbes. That is one way to put it. There is another way 
to put it.
    Senator Kerry. Is that not accurate?
    Mr. Forbes. What is your question? Because I believe----
    Senator Kerry. My question was very simple. Is not that 
fact going to happen? Are they not going to sit at a table, 
without the United States, if we do not ratify it?
    Mr. Forbes. They may sit at a table, but if the United 
States takes the lead, that treaty can be rewritten. We helped 
trigger that April 29th date by asking other nations to ratify 
that convention, so that trigger date came in. It was a cynical 
ploy by this administration to put the Senate in a box and say, 
if you do not ratify this, you are harming the future by 
allowing chemicals out there. They are using symbol over 
substance. And I think it is a shame that we have been put in 
that box. And we should say no.
    As I pointed out earlier, in a whole other area, in 
telecommunications, for once this administration took a proper 
lead, over a year ago. There was a bad agreement on the table. 
Kantor said we can do better. Our allies said we cannot do 
better. He said we can. We went back to the table. We got a 
better agreement. And it was put on the table again this year 
and everyone praised it as being better than it was for 
American interests a year ago.
    So we put ourselves in the box, and a great nation should 
say, if we put ourselves in a box and it is not good for 
America and not good for the world, we can take ourselves out 
of the box.
    Senator Kerry. Well, let me address that. You are a 
promoter and have been--and I admire what you and your family 
have done to promote capitalism and the notion of 
entrepreneurship. As an entrepreneur, having signed on to this 
treaty--72 nations is the number that have ratified it--they 
will now be in a position where they can engage in a formal 
trade, under Schedule II, chemicals. But any nation that is not 
a participant is not going to be able to engage in that, 
correct?
    Now, as an entrepreneur, if you were part of a nation that 
has signed on to it, you are going to be greatly advantaged. 
Because the United States of America's chemical companies are 
not going to be allowed to engage in the transfer of these 
chemicals under this treaty. So all of the entrepreneurs in 
these other countries are going to be sitting there licking 
their chops and saying, wow, we sure have a great capitalist 
opportunity here to make money at the expense of the United 
States of America.
    That is what all our chemical companies think today.
    Mr. Forbes. Senator, if a treaty is not good for America, 
then we should not ratify it.
    Senator Kerry. Well, what do you think about what I just 
said?
    Mr. Forbes. And if that is blood money, selling chemicals 
to nations that should not have that stuff in the first place, 
like Iran and China and some others, we should not be making 
those sales in the first place. We denied ourselves sales 
during the cold war, hurt our commercial interests, because we 
felt it was in our national interest. We should not hesitate to 
do so again.
    Senator Kerry. But we do not sell to any of those 
countries, because they are all embargoed under trade 
restrictions.
    Mr. Forbes. Yes, but under the----
    Senator Kerry. It is not blood money to us. We do not sell 
to them.
    Mr. Forbes [continuing]. But you just said before we are 
going to lose sales opportunities.
    Senator Kerry. We are going to lose sales opportunities, 
because we are not allowed to trade among the ratified 
countries.
    Mr. Forbes. Iran and China are signing on to this thing 
apparently.
    Senator Kerry. But then they are subject to challenge 
inspection.
    Mr. Forbes. Big deal. Iraq is the most regulated nation in 
the world in terms of inspections and the U.N.--and the chief 
inspector has just told us that Saddam still stays one step 
ahead. He is still making the missiles. He is still making and 
doing biological and chemical research.
    Senator Kerry. We are not talking about Iraq.
    Mr. Forbes. He is even still fooling around with nukes. If 
it can happen in Iraq, it can happen anywhere. I do not care 
how many inspections you have.
    Senator Kerry. We are not talking about Iraq. We are 
talking about Iran.
    Mr. Forbes. No. We are talking about Iraq is the most 
inspected nation on Earth today. And my point is that we have 
more inspections----
    Senator Kerry. And we know exactly what they are doing 
pretty much.
    Mr. Forbes. Yes, right. Exactly.
    Seriously, the head of the agency, Senator, who did the 
inspection, just told us the other day that Saddam is still 
doing stuff he should not be doing.
    Senator Kerry. Correct.
    Mr. Forbes. And they have a hard time keeping up with him. 
If they have a hard time keeping up in Iraq, what of North 
Korea, Iran, Libya?
    Senator Kerry. But, you see, what you seem to--and I think 
many of the critics of the treaty--seem to ignore is the fact 
that we are not going to produce these weapons anyway, Number 
1. We do not sell to these people anyway, Number 2. And we do 
not have a regime today for any kind of inspection of 
accountability on the transfer of the precursor chemicals. 
Therefore, what you gain with this, while not perfection--none 
of us have alleged that any treaty--well, I will not say any 
treaty--that almost any treaty provides you with a foolproof--
certainly as to chemical weapons and biowarfare weapons, I do 
not think there is any such thing as a verifiable, foolproof 
treaty, because of where you can produce this.
    The question is, are you better off with a structure that 
affords you some mechanism of tracing precursor chemicals, some 
responsibility of companies for reporting, some system of 
accountability through challenge and regular inspection, or 
none at all, as well as being outside of the sales? Now, that 
is really the issue.
    The Chairman. We will let Mr. Forbes answer that without 
interruption, and then we will go to the next panel.
    Mr. Forbes. OK. The ease with which you can make chemical 
weapons today--you can do it in a basement, you can do it in a 
bathtub--the ease with which you can do it makes this treaty 
unverifiable and unenforceable. The danger from doing this 
treaty, especially in a democracy, as we saw in the twenties 
and thirties, it will give us a false sense of security that, 
by golly, we have dealt with it.
    Now, you have said, and I admire your candor, it is not 
perfect. But, yet, the administration goes out there--he did it 
with the newspaper editors and he has done it in speeches, 
making it sound like this is a foolproof protection for our 
kids, we have got to do it or they are all going to be blasted 
away. So a bill of goods is being sold.
    At best, this is a flawed treaty that is going to do little 
or no good. And so, therefore, why lull ourselves with a false 
sense of security? I think we saw in the twenties and thirties 
where that led. We saw it in the seventies, where that led. Why 
repeat history?
    The Chairman. Very well.
    Mr. Forbes. Thank you.
    The Chairman. I thank you so much, Mr. Forbes, for being 
here with us today and for coming. I know it is some 
inconvenience to yourself on short notice.
    Mr. Forbes. Thank you very much, Mr. Chairman. I appreciate 
it.
    The Chairman. Thank you, sir.
    Senator Biden. See you in Delaware, Mr. Forbes.
    Mr. Forbes. Thank you, Senator.
    The Chairman. Now we will have panel Number 2, consisting 
of seven distinguished ladies and gentlemen. [Pause.]
    Senator Biden. If you all can agree on your seating, I am 
sure then that we can work this treaty out.
    The Chairman. Our second panel consists of friends of all 
of us. Sometimes you have to agree to disagree agreeably, and 
that is the way we will do it. But in Joe's case, in one or two 
instances, he will say huzzah, hooray and so forth.
    The panel, from my left to my right, is Mr. Wayne Spears, 
who is president of the Spears Manufacturing Company at Sylmar, 
California; and Mr. Ralph B. Johnson, vice president of 
Environmental Affairs, Dixie Chemical Company, of Houston; Mr. 
Kevin L. Kearns, president of the United States Business and 
Industrial Council.
    Senator Biden. It is good to see you.
    The Chairman. The Hon. Kathleen C. Bailey--and how you do 
add to the looks of this crowd, I tell you that--senior fellow 
at the Lawrence Livermore National Laboratory in Livermore, 
California; the Hon. Bruce Merrifield, former Assistant 
Secretary of Commerce; Fred Webber, whom we have all known, 
president of the Chemical Manufacturers' Association; and the 
Hon. William A. Reinsch, Under Secretary of Commerce for Export 
Administration.
    And Mr. Spears, you may lead off, because that is the order 
they said that I was supposed to follow.
    Senator Biden. Perhaps Mr. Kearns could go first.
    The Chairman. Oh, you want Mr. Kearns. All right. Mr. 
Kearns, we will hear from you. Go right ahead.

STATEMENT OF KEVIN L. KEARNS, PRESIDENT, UNITED STATES BUSINESS 
                     AND INDUSTRIAL COUNCIL

    Mr. Kearns. Thank you, Mr. Chairman. It is a pleasure to be 
back testifying before this committee, where I served as a 
State Department Pierson Fellow on Senator Helms' staff from 
1988 to 1989. When I went back to the State Department, I 
headed an office called the Office of Strategic Trade, and we 
dealt with many of the issues that are before this committee 
today.
    Since I left the State Department, I have been president of 
the U.S. Business and Industrial Council. We represent mainly 
family owned, closely held businesses--what I would call 
medium-sized business. There is not a good definition, really, 
of size below large business. But our employers have between 
100 and 800 employees. They are involved in various fields. 
Some of them are specialty chemical manufacturers, autos, food 
processing, brewing, you name it, USBIC members are in these 
industries. And we have been around since 1933. We do not lobby 
for a specific industry or a company; we are here to give a 
voice to small- and mid-sized businesses in public policy 
debates.
    We take strong exception to the Chemical Weapons 
Convention. We do not believe it is in the best interest of the 
United States or American business. Many of the reasons have 
been discussed by Mr. Forbes and were brought up by the three 
secretaries last week.
    We believe that, first of all, the CWC represents an 
unjustifiable erosion of American sovereignty. It seems, time 
after time, treaty after treaty, decade after decade, the U.S. 
gives up a bit of its sovereignty to one international body or 
another. And the results, generally, I think, are not good for 
the United States. When I look at the world today, it is not a 
hospitable place. And I do not feel comfortable that 
international bureaucrats, drawn from so many of these 
countries where there is strife or repression or many other 
problems, are the best guarantors of American interests.
    At the Business and Industrial Council, we believe that the 
single best guarantor of American interests is American 
strength and power. We have wielded that, for the most part, 
over the centuries well. And we do not place our hopes for the 
future and the future of our kids on supranational 
organizations.
    USBIC members are little guys, compared to perhaps some of 
the members of the Chemical Manufacturers Association or 
others. We have trouble with red tape now, with OSHA, with EPA, 
with the IRS, with State regulatory agencies, in the sense that 
they add a tremendous burden to the costs of our doing 
business, without adding another burden, or other burdens, 
under this treaty.
    The large-sized companies, these large-scale companies, can 
afford big lobbying organizations in Washington. They can 
afford representation before international bodies. They all 
have offices, or many of them do, in Brussels, before the EC, 
et cetera. They have offices in various Asian capitals. They 
have the staff, they have the resources to cope with regulatory 
burdens. Smaller businesses are already drowning in a sea of 
red tape.
    And I might add that the Fortune 500 have not created a 
single net new job in this country in 20 years. It is small 
business and mid-sized business that are creating jobs in this 
country, not these large multinationals, which feel free to 
move their factories around the world, seeking less regulation, 
seeking less bureaucratic red tape, seeking the cheapest labor 
available.
    One element that I would like to address is the National 
Federation of Independent Business, which has come up several 
times in this discussion. To say that NFIB members will not be 
affected by this treaty is a tautology. That is, the vast 
majority of NFIB members are microbusinesses. They are small 
businesses, run out of the home. They are luncheonettes. They 
are insurance agencies, et cetera.
    So I think the fact that people are citing NFIB as a voice 
of American business that says American business is not going 
to be harmed is wrong. No, that segment of very small 
businesses are not going to get challenge inspections--at a 
luncheonette, for example. And, believe me, I am not putting 
down NFIB members. They are the heart and soul of so many of 
our communities, if not all of them. It is just simply 
irrelevant to the discussion of this treaty. They are not 
people that are involved, by and large, in manufacturing. They 
do not handle chemicals. So it is simply irrelevant.
    When we look at these various inspections that may be 
required under this treaty, I think the fact that Senator Biden 
led off with the statistics and how many companies may be 
subject to it and what the effect would be on those companies 
indicates, really, that the average American business, that is, 
a manufacturing business, that is potentially subject to this 
treaty really does not know what is going on. I commend the 
Chairman and this committee for the efforts made previously and 
for these hearings. These businesses really do not understand 
the scope of what is happening.
    We believe that Fourth and Fifth Amendment rights are in 
danger. I do not agree with you, Senator Biden, that the forms 
that the Department of Commerce has put out--yes, actually, 
filling out the form may take only 2.5 hours. It is the hours--
the hundreds of hours, perhaps, in gathering the information, 
seeing if you are using these chemicals, if somehow they are 
involved in your manufacturing process, either as something 
that you incorporate or that has been incorporated at an 
earlier stage. It is very difficult.
    The fact that a company may be subject to a fine up to 
$50,000 would put many of my members out of business or put 
them in a very difficult situation. So you can be sure they are 
not going to take 2 hours and simply fill out the form as 
quickly as possible. They are going to do their homework. They 
know what it is when there is an unannounced OSHA inspection or 
an EPA inspection, for instance, coming into their plant or 
factory.
    So, to conclude--the time goes very fast, I know--the U.S. 
Business and Industrial Council opposes this treaty. We do not 
think it is in the best interest of the United States, first 
and foremost, before we get to the business issues. And we 
think it places unnecessary and very heavy burdens on small- 
and medium-size business potentially.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Kearns. And if you wish to add 
to your statement for the printed record, please do.
    Mr. Kearns. Yes, I will submit the rest for the record. 
Thank you.
    [The prepared statement of Mr. Kearns follows:]

                 Prepared Statement of Kevin L. Kearns

    Mr. Chairman, Members of the Committee: My name is Kevin L. Kearns 
and I serve as President of two organizations: the United States 
Business and Industrial Council and the Council For Government Reform. 
The first is a business league and the second is a grassroots lobbying 
group. While both groups oppose the Chemical Weapons Convention for the 
same reasons, I would like to highlight the business concerns in my 
testimony.
    First though I would like to thank the Committee for allowing me 
the opportunity to testify against what I believe is an ill-advised 
treaty. I realize that there are many patriotic Americans on both sides 
of this issue, including many distinguished former Cabinet officials 
and high-ranking military officers. And that there are difficult issues 
involved. However, I believe that on balance the treaty will harm U.S. 
interests far more than advance them.
    The US Business and Industrial Council was established in 1933 to 
give a voice in public policy debates to the thoughts of mid-sized, 
family-owned and run American companies. We are an advocacy 
organization that takes a national interest approach to public issues. 
USBIC is not a trade association and we don't have a PAC. We don't 
lobby for an individual company or an industry. We are funded through 
memberships from individuals and American firms representing more than 
1,000 member companies with over 250,000 employees nation wide.
    I believe that USBIC differs from other business organizations 
because of the size and composition of our members. They are primarily 
family-owned or closely-held companies that maintain close ties to 
their community. USBIC members live and work along side their employees 
in the city or town where their company is located and believe that 
there is more to running a company than just the bottom line on a 
balance sheet.
    Mr. Chairman, The United States Business and Industrial Council 
opposes the Chemical Weapons Convention (CWC) because we believe that 
it is an irreparably flawed treaty. Although we understand that Sen. 
Helms is laboring mightily with Sen. Biden to correct both the excesses 
and deficiencies, we do not believe that process can correct all the 
treaty's problems. First, the CWC represents an unjustifiable erosion 
of American sovereignty. Second, the CWC presents a clear threat to 
national security of the United States since it increases rather than 
decreases the likelihood that chemical weapons will be used effectively 
against Americans. Third, the Chemical Weapons Treaty is unverifiable 
and will not stop outlaw states or others that wish to do so from 
hiding the manufacture and stockpiling of chemical weapons. Fourth, the 
CWC presents a grave challenge to the U.S. Constitution. The CWC's 
inspections will strip American businesses of their Fourth Amendment 
Rights. Fifth, the CWC represents another unfunded mandate from 
Washington placed squarely on the back of those businesses that can 
least afford it. CWC will add to the costs of manufacturing companies 
through new compliance costs. Finally, CWC will allow unparalleled 
opportunities for industrial espionage.
    At the Business and Industrial Council we believe that the only 
certain guarantor of American interests is American wealth and power. 
We do not place our hopes and the future of our children on 
supranational organizations. Thus each new treaty or agreement that 
comes along--whether in the field of disarmament, trade, the 
environment, law of the sea, etc.--whittles away at American 
sovereignty. One wonders why we bother to have a federal government at 
all if international bureaucracies are better suited to represent the 
aspirations of the American people.
    During the Cold War many believed that the only way to achieve 
peace was to lay down our sword. But that notion proved as illusory as 
the CWC is today. The U.S. won the Cold War by relying on our military 
strength and relying on our deterrent capability. Just as arms control 
was not the answer, we believe that the Chemical Weapons Convention is 
not the solution. Our best defense and deterrence to chemical weapons 
are having military capabilities that will allow a swift and sure 
response.
    President Clinton has concluded that this treaty will end the 
threat of chemical weapons worldwide. That is, I am sure, a sincere 
hope but a false one. There is simply no way to eliminate chemical 
weapons in the world. The chemical terrorist incident that recently 
occurred in Japan shows the difficulties in finding covert chemical 
manufacturing operations. Manufacturing facilities are easily concealed 
due to the small area needed for production.
    USBIC believes that the Chemical Weapons Convention represents a 
major infringement of U.S. sovereignty and the proprietary rights of 
manufacturers. The Chemical Weapons Convention clearly strips away our 
members' Fourth Amendment rights by authorizing and enforcing illegal 
search and seizure. CWC empowers a U.N.-style agency that may conduct 
detailed inspections of facilities on both regular and surprise basis. 
They can carry out these inspections without justification of suspected 
illegal activity or even a search warrant.
    America's large multinational chemical companies have endorsed CWC. 
But, if the Senate ratifies CWC, the CWC will create many problems for 
small and medium-sized chemical manufacturers and other non-related 
industries that process chemicals as part of their manufacturing 
operations. Included may be autos, auto parts, brewers and distillers, 
electronics, food processing, pharmaceuticals, paint and tire 
producers, and a host of other manufacturing industries.
    Mr. Chairman, large, multinational companies do not care about the 
CWC's massive regulatory burdens because they have the legal, financial 
and bureaucratic resources to absorb compliance costs. But, small 
companies have neither the resources nor staffs to absorb these costs. 
The Chemical Weapons Convention will force businesses to hire more 
lawyers plus add additional compliance personnel that must specialize 
in new regulation that CWC will present.
    Clearly, the CWC will place these small companies at a competitive 
disadvantage with their larger competitors. This is a key reason large 
companies are for the CWC and the small companies are against it. These 
inspections could cost individual companies anywhere from $10,000 to 
$500,000--a substantial unfunded mandate. CWC inspections could require 
up to eighty-four hours to complete and involve $50,000 fines even if 
inadvertent errors are made.
    There will never be an arrangement in CWC to stop it from 
effectively authorizing industrial espionage. The CWC offers no 
protections for company formulas and other trade secrets that 
inspectors may steal. Moreover, nothing would prevent unscrupulous 
countries from placing intelligence officers on the inspection team.
    The CWC will cost the American government millions simply to join 
up. Companies and the American taxpayers will pay $50 to $200 million 
for the privilege of handing over industrial secrets to competitors 
while not preventing chemical warfare or terrorism. An agreement to 
complete all inspections of chemical samples in the United States is 
not the answer. Corrupt countries will find covert ways to obtain 
chemical samples. Why should American businesses allow international 
inspectors the opportunity to obtain these chemical samples?
    Finally, abroad CWC inspections will not substantially reduce the 
proliferation of chemical weapons around the globe. Russia, with its 
huge stockpile of chemical weapons and massive production capability, 
has not ratified the CWC and will only ratify if American taxpayers 
will pay for it. Also the world's most notorious terrorist nations, 
Syria, North Korea, and Libya, refuse to ratify. China, a proliferator 
of nuclear and missile technologies, has not ratified.
    I think all Americans would support a treaty that ended the threat 
of chemical weapons. That is why we signed the Geneva Convention. USBIC 
believes an effective addition to the Geneva Convention would be the 
Chemical and Biological Weapons Threat Reduction Act of 1997, S. 495, 
sponsored by Senator Kyl (R-AZ). This bill would provide criminal and 
civil penalties for the unlawful acquisition, transfer, or use of any 
chemical or biological weapon.
    Our companies are constantly fighting against overregulation. Mid-
sized and small American businesses are fed up with the government 
policies that favor multinational corporations. Too often government 
overregulates and makes it harder for smaller companies to survive. For 
example, we have an estate tax so high that too often our members are 
unable to pass their business on to the next generation. The Chemical 
Weapons Convention is a bad treaty that will only add to the heavy 
burden our companies face today.
    On behalf of the 1,000 member companies of the United States 
Business and Industrial Council (USBIC), I strongly urge you to oppose 
ratification of the Chemical Weapons Convention (CWC).

    The Chairman. Now, Mr. Wayne Spears is the kind of American 
I admire. He has started at the bottom, as I understand it, and 
heads a substantial company now. How many people do you employ?
    Mr. Spears. One thousand one hundred.
    The Chairman. One thousand one hundred. Well, we are so 
glad you came. And you may proceed.
    Mr. Spears. I will give it a shot.
    The Chairman. I know you will do well.
    Mr. Spears. It was a last-minute deal.
    The Chairman. You just relax and let us hear from you.
    Mr. Spears. I am not a real good spokesman. It is not my 
thing, but I am going to give it a shot.
    The Chairman. Very good. You will do well.

STATEMENT OF WAYNE SPEARS, OWNER AND CEO, SPEARS MANUFACTURING, 
                    INC., SYLMAR, CALIFORNIA

    Mr. Spears. Mr. Chairman, I would like to submit a 
statement.
    The Chairman. Without objection, so ordered.
    Mr. Spears. Mr. Chairman, I want to compliment the 
committee for having this hearing on the many ways in which the 
Chemical Convention threatens to affect American business. I 
especially appreciate the opportunity you have given me to 
describe how it looks from the perspective of one of the 
companies that may be harmed by this treaty.
    My wife and I started Spears Manufacturing in 1969, in a 
2,000-square-foot little building in Burbank, California. Today 
we employ over 1,000 people--1,100. We have over a million 
square feet of manufacturing space, 400,000 square feet of 
warehouse space in 10 States, Washington, Utah, California, 
Colorado, Texas, Georgia, Florida, Kansas, Illinois, Idaho, and 
Pennsylvania. And we started out in California. We are moving 
out of California as quickly as we can because of the 
regulations. The State is so tough. I mean, just to get a sewer 
permit takes forever.
    In regulations, what all of us are afraid of is what the 
gentleman just brought up. We manufacture plastic pipe fittings 
and valves for use in everything from agriculture--we even make 
plastic pipe fittings that are suitable for fire sprinkler 
fittings, for silicon chips and for industrial. And we 
manufacture in size from one-eighth-of-an-inch fitting up to a 
32-inch-diameter fitting--huge things.
    We do use some chemicals. We use acetones, and we use some 
vinyl ester resins. We do not know what we will have to report 
or what is going to be reported. And, to add to that, we plan 
on putting in another half-million square feet of manufacturing 
space. And we have been sort of kicking it around, to try to 
get it done this year, to employ a couple of hundred more 
people. Not with the uncertainties of this treaty--we will not 
do that. That would be foolish on my part to do that.
    I solely own the company. I do not know what is going to 
happen. I do not trust what has happened. I do not trust this 
administration and what burdens they are apt to put on me. And 
I think that there is a lot of small business and medium-sized 
businesses like myself that just never gets around--we are so 
busy trying to run our business, we do not have time to pay 
attention to these things. And this thing was brought to my 
attention by one of my Senators from Idaho, who says that you 
better look into this; this may affect you. That is how I got 
involved.
    I did everything in the world to keep from coming here.
    Although I feel very honored. I feel very honored by all of 
you. I really do.
    Senator Biden. As Lincoln said, but for the honor----
    Mr. Spears. I am just a poor, old Okie boy. In all honesty, 
I hitch-hiked from Oklahoma to California. I did not have 
anything. I did well. I want to try to give some of that back 
to the American people. And I am going to. I have wrote over 
10,000 letters against this--over 1,000 to my employees. I have 
over 8,000 customers worldwide. And we do do business 
worldwide. We actually compete with the Taiwanese and all those 
kind of people. And, might I add, we do a very good job.
    We do some very unique things, because I love mechanical 
things. And we have been able to be very competitive. We 
actually sell--trademark things and put it on for other 
manufacturers. You may see our fittings around that have other 
people's names on them. We do such a good job that they cannot 
compete with us in Europe. We do it.
    And there is no way I want some guy coming into my plant, 
seeing what we do--one of these surprise inspections. I just do 
not want it. I do not even want to take a chance on it. Why 
would we, the American people, ever allow that to happen or 
even take a chance on it happening? We are the strongest 
country in the world. Let us not tear it down.
    As Mr. Forbes said, let us do it for America.
    That is about all I have got to say. Thank you.
    The Chairman. Well, you said it very eloquently, too, sir.
    [The prepared statement of Mr. Spears follows:]

                   Prepared Statement of Wayne Spears

    Mr. Chairman, I want to commend the Committee for having this 
hearing into the many ways in which the Chemical Weapons Convention 
threatens to affect American businesses. I especially appreciate the 
opportunity you have given me to describe how it looks from the 
perspective of one of the companies that may be harmed by this treaty.
    My wife and I started Spears Manufacturing in 1969 in a 2,000 
square foot space in Burbank, California. Today, we have over 1 million 
square feet of manufacturing space and about 400,000 square feet of 
warehouses in 10 states--Washington, Utah, California, Colorado, Texas, 
Georgia, Florida, Kansas, Illinois, Idaho and Pennsylvania. We employ 
more than 1,000 people.
    Our principal products are plastic pipe fittings and valves used 
for everything from agriculture to fire sprinklers to silicon chip-
manufacturing to industrial applications. The sizes range from one-
eighth-of-an-inch to 32-inches in diameter.
    We have established a unique niche in the world market with high 
quality, low-cost products that simply cannot be matched by any of our 
competitors, foreign or domestic. Naturally, we want to keep it that 
way, but others don't.
    We take very seriously the dangers posed by commercial espionage 
and other means of jeopardizing our proprietary technological edge. And 
because of our advanced technology and competitive position we have 
reason to believe we are at real risk of being targeted for these 
purposes.
    Let me say right up front that, as a businessman, I want less 
regulation, less red tape and less interference in my company's affairs 
from government bureaucrats. The way many of these folks are doing 
their jobs has the effect of making it a lot harder for me--and 
countless other American entrepreneurs--to bring good products to 
market at competitive prices and as efficiently as possible.
    For what it is worth, I believe the commitment the Republican Party 
has made to these principles has been a key ingredient in its success 
in achieving--and maintaining--control of the Congress.
    Therefore, I have been amazed to discover that a Republican Senate 
might actually consider approving a treaty that would add to the 
burdens imposed on thousands of American businesses by our own 
government. This Chemical Weapons Convention would also give foreign 
bureaucrats new powers that will add to the costs for companies like 
mine.
    There are others on this panel far better equipped to discuss all 
the fine points of this Convention. I look forward to learning more 
from them about this treaty and exactly how it will affect companies 
like mine--a subject that is creating great uncertainty at the moment.
    This is particularly important to me since I currently have plans 
to expand my operations by another half-a-million square feet, 
employing another 200-300 people in good-paying manufacturing jobs 
across the nation. It would be irresponsible for me to proceed with 
those plans without knowing if the CWC will jeopardize my company's 
competitive edge.
    Especially worrisome is the prospect that foreign inspectors could 
demand entry into my plants, gaining access to my records, procedures, 
inventory and customers data. These involve proprietary information 
that could, if stolen, cause my company real harm. And, from what I 
understand, there is every reason to believe that this could happen.
    The challenge inspections authorized by the CWC would be very 
different from the sorts of site-visits conducted periodically by U.S. 
government agencies assigned to monitor our compliance with 
environmental and health and safety regulations. Those American 
inspectors do not concern themselves with our sensitive manufacturing 
technology, just our employees' safety and our emissions.
    The CWC will put us in a position of having to open our doors to 
people well versed in our manufacturing techniques, who want our 
advanced technology and who are trained to collect this sort of 
information. We are so concerned about this problem that we do not even 
permit the suppliers of our manufacturing equipment to come into our 
plants.
    Even if my company's facilities are not challenge-inspected, the 
burdensome reports we might have to provide could be enough to tell 
foreign competitors a lot about how we do what we do.
    Mr. Chairman, I am sure I speak for many of my colleagues in 
American industry when I say that if this Chemical Weapons Convention 
really did get rid of chemical weapons, it would be worth it to us to 
accept some additional costs and risks associated with implementing 
such a treaty. As long as this Convention's defects make it unlikely to 
reduce the chemical warfare problem in any significant way, I find it 
unacceptable to impose these very high costs and risks on our 
businesses.
    I hope that instead of forcing this treaty on the American people 
and--on thousands of companies that have little knowledge about the 
implications of this deal--the Congress will approve S. 495, a bill 
cosponsored by you, Mr. Chairman, Senator Jon Kyl and most of the 
Republican leadership. This legislation seems to me to offer a valuable 
alternative to the CWC. It does practical things, like making it a 
crime for private U.S. citizens to make poison gas, while avoiding 
totally impractical actions like the Convention's verification regime 
which will hurt our business interests--but be ineffective in catching 
nations that cheat on their international commitments.
    Mr. Chairman, thank you for your brave leadership on this treaty. I 
very much hope that my testimony--and that of others who are critical 
of the CWC--will be useful to you in preventing this defective 
Convention from binding the United States at the expense of so many 
American businesses, their stockholders and their employees.

    The Chairman. Mr. Johnson.

 STATEMENT OF RALPH V. JOHNSON, VICE PRESIDENT, ENVIRONMENTAL 
     AFFAIRS, DIXIE CHEMICAL COMPANY, INC., HOUSTON, TEXAS

    Mr. Johnson. Good afternoon.
    The Chairman. Good afternoon.
    Senator Biden. Good afternoon.
    Mr. Johnson. My name is Ralph Johnson. I am vice president 
of Environmental Affairs for Dixie Chemical Company. Dixie 
Chemical is a small, privately held chemical company, with its 
general offices in Houston, Texas, and its manufacturing plant 
is located in Pasadena, Texas. Dixie Chemical engages primarily 
in the manufacture of specialty organic chemicals, and we 
employ about 200 people.
    Dixie Chemical fully supports the intent of the Chemical 
Weapons Convention treaty. It is difficult to imagine how 
anyone would not support the removal of chemical weapons as a 
threat to mankind. At Dixie, we have expertise in the 
manufacture of specialty organic chemicals and the regulations 
associated with this manufacture. We have no expertise in 
foreign policy. Whether this treaty is a viable vehicle to 
eliminate chemical weapons is a question for this committee and 
for the Senate of the United States.
    As you Senators on this committee weigh the effectiveness 
of this treaty, you will need to be aware that this treaty 
presents some potentially serious problems to Dixie Chemical. 
At Dixie Chemical, we produce no chemical weapon chemicals, nor 
any precursor chemicals. We do not produce any Schedule I, II, 
or III chemicals. However, at Dixie, we would be required to 
submit a declaration that we produce discrete organic 
chemicals.
    Discrete organic chemicals is a category of lower-concern 
chemicals, and it encompasses virtually the entire universe of 
organic chemicals. This declaration would require some 
additional time on our part, but is not unduly burdensome.
    However, once we are declared as a discrete manufacturing 
chemical organic site, we then become subject to foreign 
inspections. If we use EPA inspections as an example, these 
foreign Chemical Weapon Convention inspections could cost up to 
maybe $50,000 per site. That is not a perfect number, but that 
is not a total guess either. These inspections would be very 
costly and burdensome.
    The biggest problem with these inspections, however, is not 
their cost but rather our highly probable loss of confidential 
business information. An inspector observing one of our 
reactors would know, for the product being observed, our 
operating pressures, temperatures, catalysts, reaction time, 
ingredients, purification methods, pollution abatement methods. 
We would no longer have any confidential technology, 
methodology, or know-how relative to this product. It would be 
gone forever.
    Specialty chemical manufacture is vastly different from 
that of large volume commodity chemicals, which are produced in 
continuous dedicated single product units operated by major 
chemical companies. Operating conditions and know-how for these 
commodity chemicals such as ethylene, propylene, high density 
polyethylene, can be licensed and/or purchased from 
manufacturers and engineering companies, both domestic and 
foreign.
    These operating conditions can also be found in the 
literature. Since the technology for commodity chemicals is 
widely available, competitive success usually depends on world-
scale plants, percent of volume utilization, location to 
markets, and cost to feed stocks. Therefore, inspections would 
not necessarily result in any probable loss of confidential 
information, nor change the commodity producer's competitive 
position.
    On the other hand, specialty organic chemicals are made in 
low volume batch operations where the expertise and process 
know-how lies solely within the realm of the individual 
producer. Production volumes typically range from a few 
thousand pounds a year to a few million pounds. Several 
specialty organic products are usually made intermittently on a 
campaign basis in nondedicated multipurpose operating units.
    The process technology for these products has been 
internally developed by the individual producer, and it is the 
core of his competitive position. His technology is not 
licensable or purchasable unless he plans to go out of business 
on that specific chemical.
    Therefore, maintaining the confidentiality of this 
expertise is of paramount importance, and is the heart of the 
continuing existence of specialty organic chemical manufacture.
    Thank you for this opportunity to comment on this vital and 
perplexing problem.
    The Chairman. We thank you very much, sir. All right. I am 
advised a little bit belatedly that the Hon. Kathleen C. Bailey 
is going to read a couple of letters before she begins her 
testimony, so hold the light.

 STATEMENT OF HON. KATHLEEN C. BAILEY, SENIOR FELLOW, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Ms. Bailey. Yes, sir.
    This is the testimony of Paul L. Eisman, senior vice 
president for refining of Ultramar Diamond Shamrock 
Corporation, hereinafter called UDS Corporation.

Mr. Chairman: UDS is pleased to offer the following comments on the 
proposed Chemical Weapons Convention, or CWC treaty, which is being 
considered for ratification by this committee.
    Although UDS agrees that the production of chemical weapons should 
be halted, we think that this treaty as presently crafted provides 
little, if any, protection from the devastating impacts of chemical 
warfare.
    We find it ironic that this proposed treaty places a significantly 
greater regulatory burden on legitimate business operations that are in 
no way related to the production of chemical weapons, while not 
imposing similar requirements on countries such as Libya, Iraq, Syria, 
and North Korea, some of the very countries about which we should be 
most concerned.
    Our concerns relate to two specific issues, the increased paperwork 
and compliance costs created by the reporting requirement, and the 
significant risk of industrial espionage resulting from the presence of 
international inspection teams in our facilities.
    Increased paperwork is an enormous concern for UDS. In just the 
manufacturing portion of our business, over which I have direct 
responsibility, our production costs have increased significantly over 
the past few years to satisfy the recordkeeping and reporting 
requirements of new regulatory programs. This cost ultimately is passed 
on to our customers.
    A petroleum refinery uses many different chemicals in the 
production of gasoline and diesel. Based just on a cursory review of 
the treaty requirements, UDS would have to report the following 
chemicals at a minimum: chlorine, sulfur, hydrogen, hydrogen chloride, 
sulfuric acid, ammonia, and sodium hydroxide. Many of these chemicals 
are crucial for making gasoline and diesel to comply with existing U.S. 
and California reformulated fuel requirements.
    UDS cannot comply with the proposed reporting requirements with our 
current staff. We estimate it could cost as much as $500,000 per year 
to comply at all three of our U.S. refineries. We expect that these 
costs will be reflected in the higher prices at the pump.
    In addition, the reporting requirements will greatly reduce our 
operating flexibility because of the 5-day advance notification 
requirement for changing processes in which reportable chemical 
processes are used. Many factors often outside our control influence 
how our refinery operates from day to day.
    The advance notice requirement means that a change in our crude 
slate or in the availability of feed stocks, or even an equipment 
malfunction, could put our operations in violation of the reporting 
requirements and subject us to a $5,000 fine. Such a burden on business 
is untenable, particularly given the ubiquitous nature of the chemicals 
included on the reportable list.
    UDS is not prepared nor do we want to receive an international 
inspection team in our facilities. We understand that the Congressional 
Office of Technology Assessment estimates that these inspections could 
cost $10,000 to $50,000 per visit. It should be noted that these costs 
are in addition to the estimated yearly costs of compliance. Given the 
complexity of a modern refinery, we think that those costs are 
extremely optimistic.
    Moreover, there are no safeguards to ensure that the inspection 
teams will not gain access to unrelated or propriety information, nor 
are there any sanctions provided for inappropriate use of information 
thus gathered. All of the trade protections that we now receive under 
U.S. Law would thus be placed in jeopardy. This is an unacceptable 
security risk to place on U.S. Industry, especially when the most 
egregious users of chemical weapons will likely not even be covered by 
the treaty.
    UDS does not have a thorough understanding of the provisions of the 
CWC. However, what we do understand causes us grave concern. For the 
reasons cited above, enforcement and verification will be a nearly 
impossible task even in those countries with a strong compliance 
commitment, but if such countries as Libya, Iraq, Syria, and North 
Korea are refusing to be a party to this treaty, the likelihood of 
eliminating chemical warfare are slim indeed.
    The unacceptably high cost of business, coupled with the extremely 
low probability of success, leads us to conclude that this proposed 
treaty is bad for U.S. Economic and security interests. We urge you to 
reject this treaty unless and until the serious costs, security and 
enforcement problems it creates can be resolved.
            Sincerely,
                                    Paul L. Eisman,
                        Senior Vice President for Refining,
                             Ultramar Diamond Shamrock Corporation.

    Ms. Bailey. the next letter I have is from Sterling 
Chemicals, to the Hon. Jesse Helms, Chairman, Senate Foreign 
Relations Committee. It is dated April 15.

Dear Mr. Chairman: Sterling Chemicals, Incorporated strongly supports a 
worldwide ban on the production, possession, and use of chemical 
weapons, but we are concerned about the mechanics and cost impacts 
associated with the proposed CWC. We had made our concerns known to the 
Hon. Senator Kay Bailey Hutchison last August. Highlights of our 
concerns are:
    1. We have serious misgivings about the ability to protect 
confidential business information. Having a foreign inspection team 
inside our facility with almost unlimited access to process knowledge 
and data is not acceptable to Sterling.
    2. Cost impact will be significant. We project costs just to 
prepare for managing and completing an inspection to be at least 
$200,000 to $300,000. This does not include performing duplicate 
sampling and analysis as well as calibration and verification of 
process instrumentation.
    3. We cannot comply with the threat provisions within our current 
annual budget and head count. Sterling has reduced head count to 
maintain our competitiveness. We are doing more with less. We believe 
the additional datakeeping, recordkeeping and paperwork burden 
associated with this treaty cannot be managed with existing resources.
    4. The EPA and OSHA, while participating as part of the inspection 
team, may become overzealous with their enforcement philosophy and 
begin citing violations as part of their own agenda while they are 
supposed to be monitoring the inspection team.
    Sterling Chemicals is not a foreign policy expert, yet we have 
serious misgivings about the foreign policy implications of the 
proposed CWC. For example, how will chemical weapon control be enforced 
in other countries such as Mexico, Colombia, North Korea, Iran, Iraq, 
Jordan, Libya, Croatia, et cetera? Since they probably will not 
cooperate, how does this treaty produce a worldwide ban?
    How will international security and foreign policy issues related 
to protection of trade secrets be handled?
    Will the cost and implementation of the treaty put American 
industry at a competitive disadvantage with foreign industry, whose 
compliance is less regulated?
    Sterling emphasizes its desire to see a worldwide ban on chemical 
weapons. We hope this submittal provides the information you seek for 
an informed decision which is best for America.
            Sincerely,
                                           Robert W. Roten,
                           President and CEO of Sterling Chemicals.

    Ms. Bailey. And now, Mr. Chairman, may I proceed with my 
own testimony?
    The Chairman. Yes, ma'am.
    Ms. Bailey. I am Kathleen Bailey from Lawrence Livermore 
National Laboratory. Mr. Chairman, members of the committee, I 
am pleased to appear before you today to address the 
ratification of the Chemical Weapons Convention, CWC. I have 
studied this treaty for some years, first as Assistant Director 
of the Arms Control Agency and then as principal author of a 
major technical study sponsored by the U.S. Defense Nuclear 
Agency on the issue of how nations might cheat under the CWC.
    I am currently a senior fellow at my laboratory, but the 
views I express today are my own and not necessarily those of 
the University of California, my laboratory, or any other 
institution.
    Today, I will focus my remarks briefly on the impact of CWC 
challenge inspections on U.S. companies and on U.S. national 
security facilities. My bottom line is that the use of treaty 
inspections for espionage is easy, effective, and all but 
impossible to detect.
    The U.S. intelligence community officials have advocated 
ratification of the CWC, arguing that it would be ``another 
tool in the tool box'' for intelligence collection. Rarely, if 
ever, is it mentioned that the tool is every bit as effective 
in the hands of foreign intelligence services.
    One could argue that, indeed, the advantage is to foreign 
nations and to foreign companies, because it is the United 
States that has the most to lose in terms of classified 
national security information and confidential business 
information.
    Challenge inspections will rely on collection and analysis 
of samples to determine the presence or absence of key chemical 
compounds. A principal tool for analysis is the gas 
chromatograph mass spectrometer, or GC/MS for short, an 
instrument which can identify chemical compounds.
    This information can be used to determine not only what 
chemicals are in use at a particular site but also what 
processes are being employed. Such data is useful for 
determining whether a facility might be making chemical 
weapons, but it is also useful for gleaning confidential 
business information as well as classified national security 
data.
    I would like to quote now from a paper prepared by Dr. Ray 
McGuire, a chemist at Lawrence Livermore National Laboratory, 
on the results of mock inspections conducted by the U.S. 
Government. In my written testimony I quote from this at 
length, and would like to submit it for the record.
    But briefly let me say that a mock inspection was held at a 
propellant production facility. Samples were taken outside of 
that facility and later analyzed using a variety of means, and 
the results did reveal classified data not only about the 
composition of the pro- 
pellant, such as oxidizers, binders, and burn rate modifiers, 
but also process information.
    Furthermore, a mock inspection was conducted at two 
industrial chemical plants using GC/MS technology. Batch 
production of a certain chemical could be detected at least 3 
weeks after the production ended. Furthermore, other 
confidential business information was revealed. While this 
information may not be considered to be of much commercial 
value, it could be in cases where a foreign national is 
attempting to analyze and obtain confidential business 
information.
    I will submit my written statement for the record. It 
contains additional information on the Fourth Amendment issue, 
but I will close now given my time is short.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bailey follows:]

                Prepared Statement of Kathleen C. Bailey

Introduction
    Mr. Chairman, Members of the Committee, I am very pleased to appear 
before you today to address the issue of ratifying the Chemical Weapons 
Convention (CWC). I have studied this treaty for some years, first as 
Assistant Director of the Arms Control and Disarmament Agency, and then 
as principal author of a major technical study sponsored by the U.S. 
Defense Nuclear Agency on the means by which nations might cheat under 
the CWC. I am currently a Senior Fellow at Lawrence Livermore National 
Laboratory, but the views I express today are my own and not 
necessarily those of the University of California or any other 
institution.
    Today, I will focus my remarks on the impact of CWC challenge 
inspections on U.S. companies and on U.S. national security facilities. 
My bottom line is that use of treaty inspections for espionage is easy, 
effective, and all-but-impossible to detect.
The Threat of Espionage
    US intelligence community officials have advocated ratification of 
the CWC, arguing that it will be ``another tool in the tool box'' for 
intelligence collection. Rarely, if ever, is it mentioned that the tool 
is every bit as effective in the hands of foreign intelligence 
services. One could argue that indeed the advantage is to foreign 
nations and companies, because it is the United States that has the 
most to lose in terms of classified national security information and 
confidential business information.
    CWC challenge inspections will rely on collection and analysis of 
samples to determine the presence or absence of key chemical compounds. 
A principal tool for analysis is the gas chromatograph/mass 
spectrometer (GC/MS) an instrument which can identify chemical 
compounds. This information can be used to determine not only what 
chemicals are in use at a particular site, but also what processes are 
employed. Such data is useful for determining whether a facility might 
be making chemical weapons agents, but it is also useful for gleaning 
confidential business information as well as classified national 
security information. I would like to quote from a paper prepared by 
Dr. Ray McGuire of Lawrence Livermore National Laboratory on the 
results of mock inspections conducted by the U.S. Government:

          In one of the early experiments, soil and water samples were 
        collected in the near vicinity (a few feet to a few meters) of 
        rocket propellant production buildings. No samples were 
        collected from the inside of the buildings. These samples were 
        analyzed at Lawrence Livermore National Laboratory for both 
        organic and inorganic constituents.
          * * * While it was not possible to reproduce exact 
        formulations from the results of this work, a significant and, 
        in some cases, alarming amount of information could be 
        extracted. The nature of the facilities--rocket propellant 
        production--was easily determined. The general type of 
        propellant being produced, strategic vs. tactical, could be 
        defined in most instances. Certain key ingredients of some 
        classified formulations, such as oxidizers, energetic binders 
        and burn rate modifiers, were determinable.
          In three additional collections (involving wipe samples from 
        building interiors and machinery in one case, and soil and 
        waste water samples from just outside buildings in the others), 
        the analytical techniques cited above were used with the 
        addition of gamma ray spectroscopy for determining radioactive 
        materials. In both these instances, it was possible to 
        determine the materials being processed in the facilities 
        examined and some, but not all, details of the processes 
        themselves. In all of these cases, major portions of the 
        information are classified for security reasons.
          In all of the cases cited above, classified data were 
        disclosed. It was necessary in all cases to combine a series of 
        analytical methods in order to obtain the sensitive results. 
        Many of the techniques used would not be germane to CWC 
        inspections.
          However, it was not necessary to employ a variety of 
        sophisticated analytical tools to acquire sensitive information 
        in exercises carried out at two industrial chemical plants. In 
        one case, the batch production of a certain chemical could be 
        detected at least three weeks after the production ended.  
        While this information might not be considered to be of much 
        commercial value, the results of the second ``inspection'' 
        were. In this instance, not only was the product of the 
        operation determined, but certain process details such as 
        intermediates, reducing agents, were also detectable. This 
        information was gathered from soil and water samples collected 
        exterior to the buildings and used on GC/MS for analysis. 
        [emphases added]

    CWC negotiators were aware that sample analysis could reveal 
sensitive information and sought to limit the potential for abuse by 
limiting the ``library'' of compounds for which inspections could look, 
and by assuring that samples would not be taken off-site unless it were 
necessary to resolve questions that on-site analysis could not answer. 
Despite these precautions, it is quite easy to acquire samples for 
later analysis. One means is analysis of residue remaining in the GC/MS 
equipment. Research conducted at Lawrence Livermore Laboratory proved 
that even thorough decontamination does not remove all residue. To 
prevent subsequent analysis off-site of that residue, the company or 
facility concerned would have to purchase and retain all of the GC/MS 
components that were exposed to the sample. This would cost 
approximately $15,000 per inspection.
    A more likely scenario for espionage would be clandestine sampling. 
Sample collection could be as simple as taking swipes with a 
``handkerchief'' or collecting air in a vial disguised, for example, as 
a ballpoint pen. It would be all-but-impossible to detect, let alone 
halt, such secret sampling.
    Although I have emphasized sampling and analysis, it is also 
possible to use inspections for espionage in other ways. A 
knowledgeable inspector can learn much by observing the way a facility 
is configured, how operations are performed, temperatures, and other 
features. Equally important may be the opportunity to ask questions of 
facility employees and to review records and data. The fact that 
inspectors will have the opportunity to take pictures adds to the risk 
that secrets will be compromised.
    It is worth noting that some treaty proponents dismiss these 
concerns, saying that if there were a genuine risk, companies and 
facilities with something to lose would have objected. There are ready 
answers why they have not. First, there is ample evidence that most 
companies which will be directly affected have either not heard of the 
treaty, or not focused on it. Second, there is a pervasive belief that 
inspections--even challenge inspections--will apply only to companies 
that manufacture chemicals. When I told a Bay Area biotechnology firm 
that it could be challenge inspected, the attorney for the firm 
replied, ``No one would want to inspect us. We don't manufacture 
chemicals.'' When I explained that challenge inspection could be of any 
site, regardless of its activity, the attorney replied, ``The 
Constitution protects us against things like that.''
The Fourth Amendment Issue
    The company representative whom I quote is probably right. The 
fourth amendment guarantees against warrantless searches and seizures 
and requires that probable cause be demonstrated prior to issuance of a 
criminal warrant. A private citizen or U.S. company may chose to 
decline a request for a CWC challenge inspection, thus requiring a 
criminal warrant for the inspection to proceed. Probable cause must be 
demonstrated before proper authorities can issue a criminal warrant. In 
the case of CWC inspections, this raises a problem because the country 
making a challenge inspection request is not required to provide 
evidence that would fit the requirements for probable cause--it may 
simply assert wrongdoing without providing substantiation. The 
requesting country does not have to identify the name or exact location 
of the company to be inspected until 12 hours before international 
inspectors are due to arrive at the port of entry. Thus, without the 
proper information to demonstrate probable cause to a U.S. judicial 
official, it will be extraordinarily difficult, if not impossible, to 
gain a timely criminal warrant for a challenge inspection.
    A related question is that it is unclear whether a criminal warrant 
may be administered in effect by foreign nationals. Can OPCW officials 
substitute for U.S. officials in a search?
    If indeed challenge inspections can be rejected under the U.S. 
Constitution, there will be negative repercussions not only for the 
CWC, but for the future of arms control. The CWC verification regime, 
which will cost the taxpayers greatly, will not be implemented in any 
meaningful way. More importantly, such a scenario would surely cloud 
the future of arms control. Other nations would follow the example of 
the United States in rejecting challenge inspections as well as any 
treaties which are based on the CWC model.
The Issue of Preparing National Security Facilities
    In closing, I would like to raise an issue to the Committee which I 
feel is important, but which has not been considered as yet--the need 
to assess the costs of preparing U.S. national security facilities for 
CWC challenge inspections. This preparation must take place well before 
any potential inspections, and requires a substantial budget.
    Last year, preparation of Savannah River Plant for a Russian visit 
cost approximately $400,000. Estimates of cost requirements to prepare 
a facility within Lawrence Livermore National Laboratory for a CWC 
inspection are $250,000. The Department of Defense facilities are 
expected to require between $200,000-$500,000 each. Of course, some of 
these costs are non-recurring, but some will arise any time an 
inspection is to occur.
    Mr. Chairman, if there is confidential or classified data that can 
be lost through use of GC/MS equipment, from observation, or from 
interviews, preparation may be futile in the event that a determined 
spy poses as an inspector. However, to minimize losses and to protect 
the data that is protectable, U.S. national security facilities must be 
prepared. Preparation will require substantial effort and resources.
    Thank you.

    The Chairman. Thank you, ma'am. I know the answer to the 
question, but I want it for the record. Have you served in any 
administration under any President?
    Ms. Bailey. Yes, sir. I served as Assistant Director for 
the Arms Control and Disarmament Agency under President Reagan.
    The Chairman. Do you know whether President Reagan ever 
endorsed a treaty of this sort?
    Ms. Bailey. Not to my knowledge and, sir, I would add that 
this treaty as it ultimately ended up is not at all as Reagan 
officials, at least as far as I knew, envisioned it.
    The Chairman. Well, I have had several people prominent in 
the Reagan administration say that they never saw it in this 
form. They never approved it, and they are confident that 
Ronald Reagan himself never approved a treaty like this. Mr. 
Merrifield.

STATEMENT OF HON. BRUCE MERRIFIELD, FORMER ASSISTANT SECRETARY 
                          OF COMMERCE

    Dr. Merrifield. Thank you, Mr. Chairman. My doctorate is in 
physical organic chemistry, and I have been in the chemical 
industry most of my life, starting with Monsanto and ending up 
as vice president of Continental Group, the Continental Can 
Company.
    I came to the Commerce Department to head up the technology 
function there during the Reagan administration, and I was also 
Under Secretary of Economic Affairs for a time. Since then I 
have had an endowed chair at the Wharton Business School, as 
professor of entrepreneurial management; but I have also 
started a company, a high tech company, which is a major 
breakthrough in electrical energy storage, and it has a lot of 
process technology which is highly proprietary.
    But my mission at Commerce, of course, was to try to renew 
the industrial competitiveness of the United States, since we 
were not competitive at that time. The Japanese were putting 
together vertically integrated consortia, and we could not even 
talk to each other. They were capturing all of the consumer 
electronics and mass memory business in semiconductors and so 
forth.
    So a critical problem then was, first, to get the antitrust 
laws changed, those 100-year-old laws. President Reagan, when I 
first met him said, Bruce, why don't you change the antitrust 
laws.
    Well, it took about 4 years. Subsequently, I started 
hundreds of consortia while I was at Commerce, including 
SEMATECH and a lot of others. My office also put through the 
tech transfer acts of 1984 and 1986, which cut the Government 
out of owning its technology and made billions of dollars 
available of R&D to the private sector.
    The Baldrige Award, the technology medal, the process 
patent technology which strengthens our process patents were 
enacted. Process technology was very critical at that time, 
because anybody operating outside this country could operate 
under our process patents and then export to the United States. 
We got that changed. The patent extension act was another 
success. We did a lot of good things, increasing at least the 
environment for industrial competitiveness here; and as a 
result we are now the most competitive country in the world, 
and that is very important.
    This law would mitigate that capability, that competency, 
very significantly. Through industrial espionage somewhere 
between $25 billion and $100 billion is lost each year. It is 
important now, in that this CWC law would open the floodgates 
of espionage to our proprietary technology, which is the heart 
of our competitiveness.
    Technology is the engine of competitiveness, and it is 
important that we maintain it. We have an incredible thing 
going here in this country. We currently spend about $25 
billion a year in basic research, much more than any other 
country in the world can spend or has the capability to spend 
or match in any reasonable time. As a result, we get most of 
the Nobel prizes. We make most of the seminal discoveries.
    It is that basic technology that is the heart of our 
competitive advantage in this country, and it is terribly 
important that we protect that. It is awfully important that we 
not allow it to slip away with these challenge investigations 
that give you 12 hours' notice, with people showing up at your 
door without you even knowing they are going to be there.
    Basically this all started with Vanover Bush back in 1945. 
We made thousands of liberty ships and advanced aircraft and 
the Norton bomb site and radar, and we detonated the atomic 
bomb, which absolutely stunned the scientific community. As a 
result, Vanover Bush captured the euphoria of the moment in a 
report to the President calling research the endless frontier.
    As a result of that, we started the National Science 
Foundation. Since then, we have pumped about $1 trillion into 
our academic community, our universities and our government 
labs. That is the capability that is unique in this country. It 
is our competitive advantage. We need to protect it. Those are 
our crown jewels, and it is awfully important that we not let 
that slip away.
    Competitive advantage, industrial competitiveness, is the 
primary concern of America, and this convention certainly is 
not going to help that at all. It is going to mitigate that 
capability.
    Let us not forget for a minute that we have this incredible 
capability. We have 15 million companies in this country that 
can translate new discoveries into useful things. No other 
nation has that. We have this entrepreneurial culture which has 
permission to try and fail and try again until we succeed 
without fear of personal loss or penalty.
    We have the most flexible capital development capability. 
We have the world's largest market. We have one common 
language. We have everything in spades. We need to protect and 
nurture it, and it is important that we not allow it to be 
mitigated by some naive, well-intentioned law such as this one.
    Thank you.
    The Chairman. Mr. Secretary, thank you very much. Has 
anybody called you that lately?
    Dr. Merrifield. I'm sorry?
    The Chairman. I said, ``Mr. Secretary, thank you very 
much.'' Has anybody called you ``Mr. Secretary'' lately?
    Dr. Merrifield. Not lately.
    The Chairman. Sir, please pronounce your name for me 
correctly.
    Mr. Reinsch. It's ``Reinsch.''
    The Chairman. Thank you. You are recognized, sir. Thank you 
for coming.

   STATEMENT OF HON. WILLIAM A. REINSCH, UNDER SECRETARY OF 
               COMMERCE FOR EXPORT ADMINISTRATION

    Mr. Reinsch. Thank you, Mr. Chairman. It is a pleasure to 
be here to talk a little bit about the Commerce Department's 
prospective role in the implementation of this convention if it 
is ratified.
    We expect to have a key role for industry liaison, and I 
want to assure you from the beginning that, taking into account 
the need for full and effective implementation of the 
convention's verification regime, we are committed to 
minimizing costs to the industry and to maximizing the 
protections of company confidential information in the two 
major areas which will affect the U.S. commercial sector, which 
are data declarations and inspections. I would like to speak 
briefly about each of those, if I may.
    Commerce has developed user friendly draft data declaration 
forms and instructions to complete them. No information is 
requested that is not specifically required by the CWC.
    These materials have been field tested and refined based on 
comments from industry, including the Chemical Manufacturers 
Association. We have also provided copies of these forms to the 
committee's staff. I am pleased to note that we have 
consistently received positive feedback from those who have 
reviewed them.
    The administration estimates that about 2,000 plant sites 
will be required to file data declarations. Of those 2,000, we 
estimate that over 90 percent belong to a category called 
unscheduled discreet organic chemicals, or DOC's, as the 
gentleman from Dixie Chemical referred to them.
    The DOC data declaration is a very simple form that asks 
the company to specify the location of the plant site and its 
general range of production--e.g., this plant site produced 
over 10,000 metric tons of DOC's last year, or whatever it was.
    Mr. Chairman, I brought one along to demonstrate for you 
how simple I think it is. It consists of three pages. Page one 
is essentially name, address, type of declaration, with a 
couple of boxes to check. Page two is location of the facility 
and point of contact there, with a box or two to check. Page 
three, which is about a half page, consists essentially of 
checking the box as to what your level of production is. This 
is not a complicated form. It is not a complicated process, and 
it is not a complicated set of instructions.
    Now, to ensure that the treaty remains focused on the most 
relevant industries, certain other industries have been 
exempted from the CWC data declaration process. For example, 
these exemptions apply to plant sites that produce explosives 
exclusively, produce hydrocarbons exclusively, refine sulfur 
containing crude oil, produce oligimers and polymers, such as 
plastics and synthetic fibers, and produce unscheduled 
chemicals via a biological or a biomediated process, such as 
beer and wine, which I know will be of great comfort to many 
people.
    About 10 percent of the data declarations focus on the 
CWC's scheduled chemicals. These declarations are more 
involved, but still do not constitute a heavy and complicated 
reporting burden for the 140 or so firms that will be asked to 
comply. Most of these are larger companies and members of CMA, 
who are likely to have accumulated much of the needed 
information for other purposes.
    In any event, I want to assure you that Commerce will 
provide substantial assistance to industry in the data 
declaration process if it turns out to be needed. We will help 
firms determine if they have a reporting requirement. We will 
develop a commodity classification program similar to the one 
we have for export licensing.
    If a company does not know if its chemicals are covered, it 
can ask us for a determination. If firms do have a reporting 
requirement, our technical staff will assist them in filing 
their declarations.
    We will also seek to put in place a system that enables 
firms to complete and file these forms electronically. This is 
a system that we already have in place for our export licenses.
    Firms also want this data to be fully protected from 
unauthorized disclosure. We fully understand that concern and 
have substantial experience through our export licensing system 
in protecting company confidential information as part of our 
current responsibilities. Our CWC information management system 
will be in a secure location and will be only accessible to and 
operated by staff with appropriate clearances.
    Now with respect to inspections, we will be charged with 
managing the CWC process inspections for U.S. commercial 
facilities. That applies to both routine and challenge 
inspections. We will identify firms that are likely to be 
subject to routine inspection and work with them to develop 
draft facility agreements that will protect company 
confidential information.
    These agreements will set forth the site specific ground 
rules for the conduct of inspections. We estimate that about 40 
U.S. com- 
mercial plant sites each year will be subject to routine 
inspections. Our objective is to develop draft facility 
agreements before these inspections take place in order to give 
firms an opportunity to identify their confidential information 
and processes.
    In this regard, we will work with firms to determine what 
constitutes company confidential information and will protect 
U.S. firms against any unwarranted request by international 
inspectors.
    We anticipate very few challenge inspections. In the event 
there is one of a non-defense commercial facility, we would 
have the lead role managing access to ensure that the 
international inspectors obtain, by the least intrusive means 
possible, only the information and data that are relevant to 
specified noncompliance concerns. Firms would be under no 
obligations to answer questions unrelated to a possible 
violation of the CWC.
    As with routine inspections, we will work closely with 
firms to determine what constitutes company confidential 
information, and we will protect firms against unwarranted 
requests that may be made by international inspectors.
    Mr. Chairman, I can stop now or I can keep going for about 
1\1/2\ more minutes, whatever you prefer.
    Senator Biden. I'm not the chairman but I would hope he 
would let you go for 1\1/2\ minutes since Ms. Bailey got to 
read 2 letters.
    Senator Hagel (presiding): I guess I am the only Republican 
here. It's great the way it works around here.
    Senator Biden. Let's vote.
    Senator Hagel. I'm the Chairman. Do you want to get it over 
with, Joe?
    Senator Biden. Yes.
    Senator Hagel. Please continue.
    Mr. Reinsch. I will talk fast, Senator. Thank you.
    Senator Hagel. Take your time.
    Mr. Reinsch. Let me make a brief comment about the 
Australia Group and about export controls, since that is part 
of my responsibility.
    Some critics have expressed concern that the treaty will 
undermine the existing chemical nonproliferation export 
controls that have been developed by the Australia Group. I 
want to assure you that that is not the case.
    Article I of the CWC commits States Parties to refrain from 
assisting any chemical weapon program in any way. The Australia 
Group's regime of export controls is end user/end use driven 
and is fully consistent with our obligations under Article I. 
It is not a regime of trade restrictions aimed at impeding any 
country's economic development. Rather, the Australia Group's 
controls focus exclusively on restricting transfers to end 
users of concern.
    Accordingly, we will continue to strongly support the 
Australia Group after the CWC enters into force. We will not be 
required by the CWC to liberalize nonproliferation export 
controls to rogue nations, such as Iran and Libya, even if they 
ratify the CWC.
    However, when considering export controls, it is important 
to note that the CWC mandates trade restrictions that affect 
countries who do not ratify. Senator Kerry made this point in 
his dialog with Mr. Forbes.
    The real concern regarding export controls is that our 
allies and friends who have ratified the CWC will be required 
to impose controls on us that will have an adverse impact on 
U.S. industry if we do not ratify. Further, if we fail to join 
the CWC as part of the responsible family of nations, our 
overall leadership role within the nonproliferation community 
will be severely eroded and our ability to maintain a strong 
presence within the Australia Group will be lost.
    Thank you, Mr. Chairman. I think I will stop now and ask 
you to put the full statement in the record.
    Senator Hagel. Without objection, yes.
    [The prepared statement of Mr. Reinsch follows:]

                Prepared Statement of William A. Reinsch

    Good Morning Mr. Chairman and Members of the Committee: I am 
pleased to be here today to discuss the Commerce Department's 
prospective role in the implementation of the Chemical Weapons 
Convention (CWC). The Bureau of Export Administration (BXA) is expected 
to have a key role for industry liaison, and I am here to assure you, 
that taking into account the need for full and effective implementation 
of the convention's verification regime, we are committed to minimizing 
costs to industry and to maximizing protections of company confidential 
information in the two major areas that will affect the U.S. commercial 
sector--data declarations and inspections.
Data Declarations
    Commerce has developed user-friendly draft data declaration forms 
and instructions to complete them. No information is requested that is 
not specifically required by the CWC. These materials have been field 
tested and refined based on comments from industry, including the 
Chemical Manufacturers Association (CMA). Copies of these forms have 
also been provided to the committee's staff. I am pleased to note that 
we have consistently received positive feedback from those who have 
reviewed the forms and their instructions.
    The administration estimates that about 2,000 plant sites will be 
required to file data declarations. Of these 2,000, we estimate that 
over 90% belong to a category called ``Unscheduled Discrete Organic 
Chemicals'' (DOCs). The DOC data declaration is a very simple form that 
asks the company to specify the location of the plant site and its 
general range of production (e.g., this plant site produced over 10,000 
metric tons of DOCs last year). No specific chemical identification, 
product mix or other substantive information is requested, and the 
declaration can therefore be completed quickly and without revealing 
sensitive data. I want to stress that the DOC declaration does not ask 
for any information on acquisition, processing, imports, or exports.
    To ensure that the treaty remains focused on the most relevant 
industries, certain other industries have been exempted from the CWC 
data declaration process. For example, these exemptions apply to plant 
sites that produce explosives exclusively, produce hydrocarbons 
exclusively, refine sulphur-containing crude oil, produce oligimers (o 
lig i mers) and polymers (such as plastics and synthetic fibers) and 
produce unscheduled chemicals via a biological or bio-mediated process 
(such as beer and wine).
    About 10% of the data declarations focus on the CWC's scheduled 
chemicals. These declarations are more involved but still do not 
constitute a heavy and complicated reporting burden for the 140 or so 
firms that will be asked to comply. Most of these are larger companies 
and members of CMA who are likely to have accumulated much of the 
needed information for other purposes.
    In any event, I want to assure you that Commerce will provide 
substantial assistance to industry in the data declaration process if 
it turns out to be needed. We will help firms determine if they have a 
reporting requirement. We will develop a commodity classification 
program similar to the one we have for export licensing. If a company 
doesn't know if its chemicals are covered by the CWC, it can ask 
Commerce for a determination. If firms do have a reporting requirement, 
Commerce technical staff will assist them in filing their declarations. 
In short, we do not believe that firms will be required to hire outside 
consultants to complete the CWC forms. We will also seek to put in 
place a system that enables firms to complete and file data 
declarations electronically.
    Firms also want this data to be fully protected from unauthorized 
disclosure. We fully understand that concern and have substantial 
experience in protecting company confidential information as part of 
our current export licensing responsibilities. I want to assure you 
that our CWC Information Management System will be in a secure location 
and will be only accessible to and operated by staff with appropriate 
clearances. I also want to stress that the administration's draft CWC 
implementing legislation provides strong protections for company 
confidential information, and I hope this legislation will be taken up 
as soon as possible after the Senate's vote on ratification.
Inspections
    The Commerce Department will be charged with managing the CWC 
inspection process of U.S. commercial facilities. There will be two 
types of inspections--routine and challenge.
    Routine inspections are conducted to confirm the validity of data 
declarations and the absence of Schedule I chemicals. They are not 
based on any suspicion or allegation of non-compliance with the CWC. 
Inspectors will not be permitted unrestricted access to U.S. facilities 
under this regime, because the inspection may not exceed the limited 
purpose for which it is authorized. I can assure you that no ``fishing 
expeditions'' will be permitted as part of the CWC inspection process, 
because the Commerce Department will not permit it to happen.
    Commerce will identify firms that are likely to be subject to 
routine inspection and work with them to develop draft ``Facility 
Agreements'' that will protect company confidential information. These 
Facility Agreements, which must be concluded between the U.S. and the 
Organization for the Prohibition of Chemical Weapons, will set forth 
the site-specific ground rules for the conduct of inspections. We 
estimate that about 40 U.S. commercial plant sites each year will be 
subject to routine inspections. Commerce's objective is to develop 
draft Facility Agreements before inspections take place in order to 
give firms an opportunity to identify their confidential information 
and processes. In this regard, we will work with firms to determine 
what constitutes company confidential information and will protect U.S. 
firms against any unwarranted requests by international inspectors. 
Under the implementing legislation, firms will participate in the 
preparations for the negotiation of Facility Agreements and the right 
to be present when the negotiations take place. This is yet another 
reason why Congress should take up the implementing legislation as soon 
as possible after passage of the Resolution of Ratification.
    Challenge inspections are conducted based on an allegation of 
noncompliance. These inspections may only be requested by a State Party 
to the CWC and can be directed at declared and undeclared facilities. 
We anticipate few challenge inspections. In the event that there is a 
challenge inspection of a non-defense U.S. commercial facility, 
Commerce would have the lead role ``managing access'' to ensure that 
the international inspectors obtain by the least intrusive means 
possible only the information and data that are relevant to the 
specified noncompliance concerns. Firms would be under no obligation to 
answer questions unrelated to a possible violation of the Chemical 
Weapons Convention.
    As with routine inspections, Commerce will work closely with firms 
to determine what constitutes company confidential information and will 
protect U.S. firms against any unwarranted requests that may be made by 
international inspectors. Since Commerce will be responsible for 
``managing access,'' we will abide no administrative harassment of U.S. 
companies or ask them to reply to any questions not directly related to 
CWC compliance.
    Mr. Chairman, I also want to stress that the CWC gives us the right 
to screen the list of inspectors before any foreign national is 
permitted to conduct verification activities on our soil. We certainly 
intend to exercise our right to screen that list and to disapprove any 
individuals we find unsuitable.
    With regard to the overall CWC inspection process, I understand 
there have been concerns raised about Constitutional protections 
regarding unreasonable search and seizure. No treaty that is 
inconsistent with the U.S. Constitution has U.S. legal effect, and the 
CWC involves no such inconsistency. We anticipate that most firms will 
permit CWC inspections on a voluntary basis, but in cases where access 
is not granted voluntarily, the U.S. Government would always obtain a 
search warrant before proceeding.
Australia Group and Export Controls
    Mr. Chairman, some critics have expressed concern that the treaty 
will undermine the existing chemical non-proliferation export controls 
that have been developed by the ``Australia Group.'' As head of the 
agency that administers dual-use export controls, I want to assure you 
that this is not the case. Article I of the CWC commits States Parties 
to refrain from assisting any chemical weapon program in any way. The 
Australia Group's regime of export controls is end-user/end-use driven 
and is fully consistent with our obligations under Article I of the 
CWC. It is not a regime of trade restrictions aimed at impeding any 
country's economic development. Rather, the Australia Group's controls 
focus exclusively on restricting transfers to end-users of concern. 
Accordingly, we will continue to strongly support the Australia Group 
after the CWC enters into force, and we will not be required by the CWC 
to liberalize non-proliferation export controls to rogue nations such 
as Iran and Libya--even if they ratify the CWC.
    However, when considering export controls, it is important to note 
that the CWC mandates trade restrictions that affect countries who do 
not ratify. Therefore, the real concern regarding export controls is 
that our allies and friends who have ratified the CWC will be required 
to impose controls on us that will have an adverse impact on U.S. 
industry if we do not ratify. Further, if we fail to join the CWC as 
part of the responsible family of nations, our overall leadership role 
within the nonproliferation community will be severely eroded and our 
ability to maintain a strong presence within the Australia Group will 
be lost.
Conclusion
    Mr. Chairman, the time has come for us to join the growing 
consensus to ratify the treaty that we have promoted for so many years 
under both Republican and Democratic administrations. I believe that we 
are far better off with the CWC than without it. The United States has 
always been the world leader in fighting the proliferation of weapons 
of mass destruction and we must not shrink from that challenge at this 
critical juncture. Further, we must not abandon the American chemical 
industry who worked with us for so many years to develop this treaty 
and who would be disadvantaged in world markets if we fail to act 
responsibly. In short, the CWC will not impose unreasonable burdens on 
U.S. industry, but failure to ratify the CWC will certainly damage our 
overall international economic and non-proliferation interests.

    Senator Hagel. Mr. Webber, you are no stranger around here. 
It is good to have you.

      STATEMENT OF FREDERICK WEBBER, PRESIDENT, CHEMICAL 
          MANUFACTURERS ASSOCIATION, WASHINGTON, D.C.

    Mr. Webber. Thank you, Senator. First of all, I want to 
reassure you that you are not the only Republican in the room.
    Second, being an old Marine, I am used to being 
outnumbered, and I see that we are very much outnumbered here 
today. But I sort of like those odds.
    My name is Fred Webber, and I am president of the Chemical 
Manufacturers Association. I would like to enter into the 
record a letter that my board signed yesterday. We had our 
spring board meeting. It is a letter endorsing the Chemical 
Weapons Convention. There are 50 men on my board representing 
America's chemical companies of all sizes. And, by the way, a 
third of our membership, which is almost 200 chemical 
companies, is made up of companies with sales less of less than 
$100 million. So, indeed, we consider those to be small 
businesses.
    Senator Hagel. Without objection.
    [The information referred to follows:]

                                                    April 15, 1997.
Hon. Trent Lott,
Senate Majority Leader,
United States Senate, Washington, DC 20510.
    Dear Senator Lott: We, the undersigned members of the Chemical 
Manufacturers Association's Board of Directors, are writing to ask you 
to support the Chemical Weapons Convention (CWC).
    We believe the Convention is a fair and effective international 
response to the international threat of chemical weapons proliferation. 
Ratifying the CWC is in the national interest.
    The CWC is a natural extension of existing U.S. policy. In 1985, 
Congress voted to end production of chemical weapons by the military 
and to begin destroying existing stockpiles.
    For years, the United States has imposed the world's strongest 
controls on exports of weapons-making ingredients. Our nation is the 
standard bearer in preventing the spread of chemical weapons.
    The CWC requires other nations to do what the United States is 
already doing. That's why President Reagan proposed the treaty to the 
United Nations in 1984. It's why President Bush signed the treaty in 
Paris in 1993. And it's why President Clinton is asking the Senate to 
ratify it.
    The chemical industry has thoroughly examined the CWC. We have 
tested the treaty's record-keeping and inspection provisions. And we 
have concluded that the benefits of the CWC far outweigh the costs.
    Ratifying the CWC is the right thing to do. We urge you to vote for 
the Convention.
            Sincerely,
Frederick L. Webber, President & CEO, Chemical Manufacturers 
        Association
J. Lawrence Wilson, Chairman & CEO, Rohm and Haas Company; Chairman, 
        Board of Directors, Chemical Manufacturers Association
John E. Akitt, Executive Vice President, Exxon Chemical Company
Phillip D. Ashkettle, President and CEO, Reichhold Chemicals, Inc.
Bernard Azoulay, President and CEO, Elf Atochem North America
William G. Bares, Chairman and CEO, The Lubrizol Corporation
Jerald A. Blumberg, Executive Vice President, DuPont; Chairman, DuPont 
        Europe
Michael R. Boyce, CEO & President, Harris Chemical Group
Vincent A. Calarco, Chairman, President & CEO, Crompton & Knowles 
        Corporation
William R. Cook, Chairman, President and CEO, BetzDearborn Inc.
Albert J. Costello, Chairman, President & CEO, W.R. Grace & Co.
Davis J. D'Antoni, President, Ashland Chemical Company
John R. Danzeisen, Chairman, ICI Americas Inc.
Earnest W. Deavenport, Jr., Chairman of the Board and CEO, Eastman 
        Chemical Company
R. Keith Elliott, Chairman, President & CEO, Hercules Incorporated
Darryl D. Fry, Chairman, President and CEO, Cytec Industries Inc
Michael C. Harnetty, Division Vice President, 3M
Richard A. Hazleton, Chairman & CEO, Dow Corning Corporation
Alan R. Hirsig, President & CEO, ARCO Chemical Company
Gerald L. Hoerig, President, Syntex Chemicals, Inc.
Jack L. Howe, Jr., President, Phillips Chemical Company
Jon M. Huntsman, Jr., Vice Chairman, Huntsman Corporation
Donald M. James, President & CEO, Vulcan Materials Company
Dale R. Laurance, President and Sr. Operating Officer, Occidental 
        Petroleum Corporation
Raymond W. LeBoeuf, President & CEO, PPG Industries, Inc.
James A. Mack, President & CEO, Cambrex Corporation
Hans C. Noetzli, President & CEO, Lonza, Inc.
Robert G. Potter, Executive Vice President Monsanto Company
Arthur R. Sigel, President & CEO, Velsicol Chemical Corporation
Enrique J. Sosa, Executive Vice President, Chemicals Sector, Amoco 
        Corporation
William Stavropoulos, President & CEO, The Dow Chemical Corporation
F. Quinn Stepan, Chairman & President, Stepan Company
S. Jay Stewart, Chairman and CEO, Morton International, Inc.
Robert O. Swanson, Executive Vice President, Mobil Corporation
Rudy van der Meer, Member, Board of Management, Akzo Nobel nv
Jeroen van der Veer, President & CEO, Shell Chemical Company
George A. Vincent, Chairman, President & CEO, The C.P. Hall Company
J. Virgil Waggoner, President & CEO, Sterling Chemicals, Inc.
H.A. Wagner, Chairman & CEO, Air Products & Chemicals, Inc.
Helge H. Wehmeier, President & CEO, Bayer Corporation
Ronald H. Yocum, President & CEO, Millennium Petrochemical Company

    Mr. Webber. I might also add, Mr. Chairman, that Virgil 
Wagner, Vice Chairman of Sterling Chemical Company and a member 
of our board signed that letter yesterday afternoon at 11:00--
excuse me, yesterday morning--and that, second, Mr. Robert 
Potter, Chairman and President of the new Monsanto Company--
your old company, sir--firmly endorsed that letter. Monsanto 
has always been on record supporting the Chemical Weapons 
Convention. So I was rather surprised today to hear about that 
letter and the concern.
    The industry I represent is America's largest export 
industry. We sell over $365 billion worth of chemicals. We 
export over $60 billion of those. We employ about 1.1 million 
people in what I would call well-paying jobs.
    As you know, we have been a firm and frequent advocate of 
this convention. We have appeared before this committee on four 
separate occasions. We have the major voice of the regulated 
business community on the convention. We have 20 years of 
experience working closely with Republican and Democratic 
administrations. We know how this treaty indeed affects our 
commercial interests.
    Our long-standing support for the convention is rooted in 
the belief that the treaty is the right thing to do, and it is 
the right way to control the spread of chemical weapons.
    The chemical industry does not produce chemical weapons. We 
do, however, make products used in medicine, crop protection, 
and fire prevention, which can be converted into weapons 
agents. The industry has a special responsibility to prevent 
illegal diversions of our products. We take that responsibility 
very, very seriously.
    That is why, frankly, I am outraged by the remarks made 
before this committee about the U.S. Chemical industry, remarks 
that strongly suggest that our support for the Chemical Weapons 
Convention is motivated by a desire to supply dangerous 
chemicals for rogue nations. I am very disappointed in Mr. 
Forbes' comments about blood money. I thought they were very, 
very unfortunate.
    Remarks that also suggest that we are trying to gut the 
U.S. export control regime and dismantle multilateral control 
organizations, like the Australia Group, frankly, again, deeply 
offend us. The chemical industry is proud of its record of 
support for U.S. antiproliferation efforts. We have long 
supported this Nation's tough export control laws, the toughest 
export control laws in the world; as they are necessary 
measures to assure that commercial interests do not contribute 
to the spread of chemical weapons.
    No one has done more than the U.S. chemical industry to 
make the Export Administration Act an effective control system. 
No one has done more to build and support multilateral control 
organizations like the Australia Group. The charges made here 
last week against our industry are shameful and, frankly, they 
bring dishonor and discredit to those who make them.
    We support the convention because it is a logical extension 
of U.S. policy. It will make our Nation's antiproliferation 
objectives more reachable by applying our high standards to 
other nations.
    The treaty simply forces other nations to do what we are 
already doing--destroying our chemical weapons stocks. We have 
been committed to the success of the CWC for over 20 years. 
Indeed, one of the great leaders was a man by the name of Will 
Carpenter, again of Monsanto Corporation. We have been a true 
partner of the U.S. Government in negotiating this treaty.
    We began with many of the same concerns about the treaty 
that have been voiced here. We have worked hard to protect U.S. 
industrial interests, especially proprietary information. We 
helped to de- 
velop the protocols guiding the treaty's inspection and 
recordkeeping requirements, and we put those protocols to live 
fire tests over and over again.
    Protecting confidential business information was our 
industry's top priority. We think we achieved our goal in the 
treaty text and the inspection procedures developed to 
implement the treaty. In addition, we field tested the 
declaration formats and concluded that the requirements are 
reasonable and manageable.
    Some claim that the CWC will impose a massive regulatory 
burden on companies. That is not true.
    I have about 1 minute to go, sir, if I may.
    Senator Hagel. Mr. Webber, go right ahead. Take your time.
    Mr. Webber. Thank you.
    The treaty was specifically drawn to focus attention on a 
relatively narrow segment of the chemical industry. Only some 
200 facilities have both reporting and inspection obligations 
under the treaty. Most of these are member companies of CMA.
    Our involvement in preparing this treaty has made it a 
measurably better product than it would have been otherwise.
    As I said, our board yesterday reaffirmed its strong 
support for the convention. In summary, we believe the treaty 
is not a threat to U.S. business. This treaty passes muster. 
The chemical industry supports it.
    Again, we think the treaty is the right thing to do and we 
thank you very much.
    [The prepared statement of Mr. Webber follows:]

               Prepared Statement of Frederick L. Webber

    Good afternoon. My name is Fred Webber, and I am President and 
Chief Executive Officer of the Chemical Manufacturers Association.
    The industry I represent is America's largest export industry, with 
over 1 million American jobs.
    As you well know, CMA has been a frequent and vocal advocate for 
the Chemical Weapons Convention. We have appeared before this Committee 
on four separate occasions to testify on why the U.S. chemical industry 
believes this treaty is in the national interest.
    We are the major voice of the regulated business community on the 
Convention. We have 20 years of experience working closely with 
Republican and Democratic Administrations. We know how this treaty 
affects our commercial interests.
    Our long-standing support for the CWC is rooted in the belief that 
the treaty is the right thing to do. It is the right way to control the 
spread of chemical weapons.
    The chemical industry does not produce chemical weapons. We do, 
however, make products used in medicine, crop protection, and fire 
prevention, which can be converted into weapons agents.
    The chemical industry has a special responsibility to prevent 
illegal diversions of our products. We take that responsibility very, 
very seriously.
    That is why I am outraged by remarks made before this committee 
about the U.S. chemical industry--remarks that strongly suggest that 
our support for CWC is motivated by a desire to supply ``dangerous 
chemicals'' to rogue nations.
    Remarks that also suggest that we are trying to gut the U.S. export 
control regime and dismantle multilateral control organizations like 
the Australia Group deeply offend us.
    The chemical industry is proud of its record of support for U.S. 
anti-proliferation efforts.
    We have long supported this Nation's tough export control laws--the 
toughest export control laws in the world--as necessary measures to 
assure that commercial interests do not contribute to the spread of 
chemical weapons.
    No one has done more than the U.S. chemical industry to make the 
Export Administration Act an effective control system. No one has done 
more to build and support multilateral control organizations like the 
Australia Group.
    The charges made here last week against my industry are shameful 
and bring dishonor and discredit to those who make them.
    We support the CWC because it is a logical extension of U.S. 
policy. It will make our Nation's anti-proliferation objectives more 
reachable by applying our high standards to other nations.
    The treaty simply forces other nations to do what we are already 
doing, destroying our chemical weapons stocks.
    CMA has been committed to the success of the CWC for close to 20 
years. We have been a true partner of the U.S. Government in 
negotiating this treaty.
    We began with many of the same concerns about the treaty that have 
been voiced here. We worked hard to protect U.S. industrial interests, 
especially proprietary information. We helped to develop the protocols 
guiding the treaty's inspection and recordkeeping requirements, and we 
put those protocols to live-fire tests over and over again.
    Protecting confidential business information was our industry's top 
priority. We achieved our goal in the treaty text and the inspection 
procedures developed to implement it. In addition, we field tested the 
declaration formats, and concluded that the requirements are reasonable 
and manageable.
    Some claim that the CWC will impose a massive regulatory burden on 
companies. That's not true. The treaty was specifically drawn to focus 
attention on a relatively narrow segment of the chemical industry. Only 
some 200 facilities have both reporting and inspection obligations 
under the CWC. Most of these are members of CMA.
    Our involvement in preparing this treaty has made it a measurably 
better product than it would otherwise have been.
    CMA's Board of Directors yesterday reaffirmed their strong support 
for the Chemical Weapons Convention. A copy of the CMA Board letter 
will be submitted for the Committee's record.
    In summary, we believe the treaty is not a threat to U.S. 
businesses. This treaty passes muster. The chemical industry supports 
it. The CWC is the right thing to do.

    Senator Hagel. Mr. Webber, thank you. Thank you all for 
your time and your contributions.
    Senator Biden, I think Senator Helms wanted to stay with 
the 7.5 minute questioning, if that is agreeable to you. Why 
don't you start and I will follow up.
    Senator Biden. Thank you very much.
    Mr. Webber, thank you. You would expect me to thank you and 
others would expect me to thank you. But thank you for such a 
clear, absolutely precise statement. I began to wonder. I say 
this again. You know, chemicals in my state are not a small 
operation. They are 51 percent of the manufacturing base of my 
state.
    I have not heard anybody in my state out there who 
manufactures chemicals coming to me and saying this is a bad 
idea, and I think almost all of them belong to your 
organization. I may be mistaken. Maybe somebody does not, but I 
think they all do.
    Mr. Webber. I believe they do.
    Senator Biden. Ms. Bailey, I don't expect you to answer 
this, but the Diamond Shamrock example, Ultramar, the letter 
read, if they produce any of the chemicals mentioned in the 
letter--and I don't know if they produce them or use them--but 
if they produce them, they will, in fact, come under an 
inspection regime--if they produce at least 30 tons for some or 
200 tons for others, which are still not subject to routine 
inspections. Still, out of the whole mess there are only 20 a 
year that can occur. That's Number 1.
    Number 2, I am going to write the president of the company, 
too, to assure him he need not be as concerned as you are. And 
if they do not produce those chemicals, they don't have any 
requirement. If they use them or if they purchase them, there's 
no requirement--no requirement.
    So I would have to find out, and it is hard to tell from 
the testimony, whether they produce the chemicals listed or 
whether they only consume them and do not produce them.
    I would like to ask a question of Mr. Reinsch. I assume in 
your testimony, when you were talking about you, the Commerce 
Department, being required, being involved under the regime of 
how these inspections will take place, any inspection, when it 
takes place, is as a consequence of the language in the 
convention. The Confidentiality Annex, subsection (c) says: 
Measures to protect sensitive installations to prevent 
disclosure of confidential data--et cetera. It talks in there 
about how inspection teams will be guided and the requirement 
that there be facility agreements, that there be arrangements.
    Translated into every day English, that means there has to 
be a deal that you sign off on, on how an inspection team is 
able to, under what circumstances, what part of the facility 
they can go into, when they can go in, how many people they can 
go in with, what they can look at, whether the system has to be 
turned on or off--all of those things. Right?
    Mr. Reinsch. That's correct.
    Senator Biden. I think that is a very important thing, 
because part of the problem I find here is this. Just as 
somebody said, I believe it was Mr. Kearns--and, by the way, 
you did a heck of a job when you were on this committee. You 
did a really fine job. You and I were on the same side then on 
the fighter. We are on a different side now.
    But as he points out, a lot of people, including individual 
companies, do not know a lot about this treaty, any more than I 
suspect any of your members would know about the treaty if we 
sent them a poll. This is complicated stuff.
    But what I find is the more we talk about it, the more we 
explain the mechanics of it, the lot less onerous it appears, 
even to people who are opposed to it. That is the reason I 
bother to mention that section of the treaty.
    Now, one of the things that I am concerned about is this. 
And by the way, Mr. Johnson, I like witnesses like you. I mean 
this sincerely. You are the kind of person I like testifying. 
You don't mince any words. You go to the heart of what you 
think is wrong with whatever is being discussed and what you 
think is OK.
    Your concern, I think were I you, is a legitimate one, and 
that is whether or not the processes your particular company 
uses would be able, in effect, to be pirated just by the mere 
fact someone can see how you line up the line, or what 
temperatures you run at, and so on and so forth.
    Mr. Johnson. That is correct.
    Senator Biden. I think were I you, I would be concerned 
about that, too. But I also appreciate your putting to rest, at 
least to some degree, how onerous the paperwork is and how 
onerous the inspections are--all the stuff we are hearing from 
the opponents. You do not say that. But you are worried, and 
with good reason, I think, if I were you sitting there.
    That is where the Commerce Department comes in. Now, how 
would you take care of a fellow like Mr. Johnson who, in all 
likelihood, will have about as much chance of being inspected 
as win- 
ning the lottery, because we are talking about how there are 
only going to be 20 inspections in the whole year that could 
take place. There are a couple of thousand outfits it could 
take place in--well, maybe he has a little better chance than 
winning the lottery, but it's not likely.
    Mr. Johnson. I will buy my lottery ticket, Senator.
    Senator Biden. You will buy your lottery ticket. Good 
point. Touche.
    How would you deal with this. Let's say the treaty passes, 
as I hope, and I would hope, Mr. Johnson, that the first thing 
he would do is come to you and say OK, guys, if we get an 
inspection, how are we going to do this. Can we for the hour it 
takes place, or 20 minutes, or 5 hours, shut down a particular 
process so that they can't see what temperature we are doing 
this at?
    Will you actually facilitate that kind of thing? Will it be 
that specific?
    Mr. Reinsch. Well, if it came to that, Senator Biden. In 
the first instance, this is Dixie.
    Senator Biden. Yes.
    Mr. Reinsch. These are discreet organic chemicals. In the 
first instance, he is not going to have any inspections, at 
least for the first 3 years.
    Senator Biden. I didn't want to mention that. Yes.
    Mr. Reinsch. Beyond that, it would be up to the 
international body to ultimately decide if there were going to 
be any inspections.
    Senator Biden. And if it had any inspections, it would only 
be 1 of 20.
    Mr. Reinsch. Correct. So this is way down the road. But 
let's assume the worst case for the moment and that in the 
fourth or fifth year he is going to have an inspection.
    What we would do in that case, as part of trying to create 
a facility agreement with him, is to come in, meet with him, 
talk to him about his confidential business information, his 
proprietary information, and try to set up a structure in which 
he would tell us what he does not want anybody to see, what 
parts of the plant he does not want them to go into, what kind 
of procedures he does not want them to observe, and we would 
construct an agreement that precludes the inspection of those.
    Senator Biden. The bottom line in the treaty, all that it 
requires is that you supply sufficient proof that you are not 
supplying, or producing----
    Mr. Reinsch. You are not producing a Schedule I chemical.
    Senator Biden.--Schedule I stuff.
    Mr. Reinsch. That's correct.
    Senator Biden. So it is not something that is an automatic 
thing. I just want to establish--and my time is about to be 
up--I just want to establish that, even if an inspection took 
place in such a circumstance, it is not willy nilly unlock the 
doors, open the books, here they come, and the Iranian team is 
coming in to figure out how to transport all of this stuff to 
Iran. Right?
    Isn't that a fair statement?
    Mr. Reinsch. That's correct, Senator. That is exactly 
correct.
    Senator Biden. Last point--and Mr. Spears is gone. I've got 
good news for him. He will not be inspected at all. He is not 
even in the game. So someone ought to write him a letter--I 
will write him a letter--based on what he told us. He is not 
even subject to any inspection at all. That is really good news 
to him.
    Maybe I should give it to Mr. Gaffney and he can give it to 
him. There is no need. He is not even in the game.
    That does not mean that he shouldn't be opposed to the 
treaty. He made other, larger, objections to it, which I 
respect. But he does not have to worry about his pipe company.
    The Chairman [presiding]. Thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Again, thanks to 
all of you for coming today.
    I apologize that we all had to jump out and vote. But I 
would like to get back, Ms. Bailey, to your testimony, and I 
left right at the beginning.
    I would like, if you would, for you to expand a little bit 
on one of your subheadings in your testimony, the threat of 
espionage. Would you talk a little bit about where you see this 
treaty? And maybe you do not. I have not read what you said. 
But that has been brought up by former Secretary Schlesinger 
and others, that this is a treaty that is on some pretty thin 
ice when it comes to opening up our facilities to foreign 
espionage.
    Ms. Bailey. Yes, sir. The greatest threat in terms of 
espionage to U.S. companies and U.S. national facilities, such 
as my own laboratory, comes from challenge inspections which 
might be used specifically for the purposes of espionage.
    Hypothetically, an inspector could either be an 
intelligence official assigned to be an inspector or could 
later sell information to a company or country abroad that 
reveals either classified or CBI, confidential business 
information, that they might have gleaned through the process 
of gathering samples and analyzing them.
    I described in my testimony the GC/MS, the gas 
chromatograph/mass spectrometer, which can reveal not only what 
chemicals are being used at a site but also the processes being 
used. And in the case of the propellant production facility 
that was the subject of a mock inspection, we were able to 
analyze samples taken from that facility and determine not only 
what kind of chemicals, which chemicals were in the rocket 
propellant, but also a lot of process information. All of this 
was classified data.
    This mock inspection, sponsored by the U.S. Government, 
proved the point that somebody can come in and use the very 
tools that will be used by inspectors in the challenge 
inspection regimes to look at classified information.
    The counter argument to this is that they are only going to 
be looking for a specific library of types of information, such 
as the scheduled chemicals. The problem is you cannot limit it 
to that.
    Our laboratory did a project last year for the Department 
of the Army which determined that samples an be acquired even 
from the GC/MS after it has been decontaminated and can reveal 
the same classified information.
    We have also done research that indicates that an inspector 
could come in with a ball point pen that is really a sampling 
device, suck some air up in it, or water, or whatever, and take 
it away, analyze it, and get the same type of information.
    Mr. Reinsch. May I comment on that, Senator?
    Senator Hagel. Yes.
    Mr. Reinsch. I have two quick points, if I may.
    With respect to the GC/MS, I am advised by the Defense 
Department's Onsite Inspection Authority that they have studied 
this kind of equipment and have developed procedures for its 
use by escorts during the inspections to ensure that only 
appropriate information is provided to the inspector.
    Now beyond that, I will leave it to the engineers and the 
chemists to argue about that. But that is what I am advised.
    The only other point I would make is Ms. Bailey has not 
mentioned the issue of managed access. What we would do in a 
challenge inspection is go in and consult with the company 
about where their intellectual property is, what it is that 
they are trying to protect from the very thing she is concerned 
about, and devise a plan for the inspectors' access that would 
prevent them from seeing those items.
    Senator Hagel. Is that now part of the convention, that 
wording?
    Senator Biden. That's what I was talking about. Yes.
    Ms. Bailey. Neither of those points are relevant, however. 
The first one, the idea that they are only going to look for 
specific kind of chemicals is this ``library of chemicals'' 
argument I was using.
    Mr. Reinsch. That is not the point I made.
    Ms. Bailey. It doesn't matter, because you can 
clandestinely take samples and get the same data offsite. It 
just doesn't matter.
    Mr. Reinsch. We would manage access to protect intellectual 
property.
    Senator Hagel. I think she is kind of over that point.
    Ms. Bailey. In the mock inspection which I cited, the 
samples were taken outside of the propellant facility building. 
So you didn't even have to go into the building to get it.
    So the whole idea that managed access is somehow going to 
prevent the acquisition of classified or confidential 
information is not legitimate.
    Senator Hagel. Thank you.
    Mr. Secretary, I am on a timeframe, and if one of the other 
Senators wants to come back, or I can come back to this again. 
But I want first to get to Mr. Webber on this point.
    Mr. Webber, what is your understanding of the inspection 
process? Are you concerned at all for your companies that the 
Iranians might come in or somebody would come in and what Ms. 
Bailey is talking about gets underneath some of the corporate 
issues, the national security issues? I mean, do you think you 
and your companies, Mr. Webber, have a good understanding of 
the process?
    Mr. Webber. Certainly we were concerned early on. That is 
why we got deeply involved in the deliberations and, frankly, 
in the drafting sessions of this treaty, hoping that we could 
clear up some of these problems.
    Under the procedures we helped negotiate on the CWC, our 
companies, frankly, have significant protections today against 
an inspection team knowingly or inadvertently disclosing 
proprietary information. First, the convention gives our 
companies, subject to routine onsite inspections, the right, as 
was mentioned earlier, to negotiate a facility agreement. That 
agreement will govern the in- 
spection process and provide a means of assuring that trade 
secrets will not be routinely made available to the inspectors.
    Second, the inspectors will be subject to personal 
liability and sanctions for wrongful disclosure of information.
    Again, we were concerned about the possibility. We think 
the treaty tackles that problem head-on. We helped draft the 
verification procedures; and, again, we just think the benefits 
far outweigh the costs.
    Senator Hagel. So that is no longer a concern of you, your 
people, or your companies?
    Mr. Webber. We think the language in that convention gives 
us the protections we need.
    Senator Hagel. Thank you.
    Does anybody else want to respond?
    Ms. Bailey. Mr. Webber is referring essentially to routine 
inspections, whereas the inspections I was talking about are 
challenge inspections. Those are the ones that are likely to 
target, for example, a biotechnology firm, a pharmaceutical 
company, any company that might have confidential business 
information to lose or facilities such as my laboratory, where 
there are national security data.
    We won't be subject to routine inspections. We would be 
subject to challenge inspections.
    Senator Hagel. I think that is part of the issue that we 
are trying to get at here; at least that is most important in 
my mind. I am not diminishing the importance of commerce here. 
But, again, I go back to my opening statement. I will vote on 
this treaty based on the national interests of this country. 
Everything else is important, but not nearly as important in my 
mind as what is most important in the national security 
interests of this country.
    I suppose I am about out of time, Mr. Chairman, so I will 
defer to whoever is up next. Thank you.
    The Chairman. I am not going to call you ``Mr. Webber.'' I 
am going to call you ``Fred,'' because we have been on the same 
side many times.
    Mr. Webber. For a long time, sir.
    The Chairman. I welcome you as I do all of our 
distinguished witnesses today.
    I want to know if you or any other CMA representative has 
stated in the past that no companies which manufacture what 
they call ``discreet organic chemicals'' will be subject to 
foreign inspections.
    Mr. Webber. First of all, as was pointed out just a few 
minutes ago, not within the first 3 years. They will not be 
inspected within the first 3 years.
    As you know, again----
    The Chairman. I'm sorry. Please repeat that. You're a 
little far away from the microphone.
    Mr. Webber [continuing]. I'm sorry. Not within the first 3 
years. They are not going to be inspected. And, indeed, if they 
are to be challenge inspected later on, I think the odds, 
again, are what--20 out of--what is the rule? It is going to be 
a very low percentage if there is, indeed, to be a challenge 
inspection. A challenge inspection relies on an allegation. So 
we feel fairly comfortable that the protections that I just 
described earlier will indeed apply to manufacturers of 
discreet organic chemicals.
    The Chairman. Have you read the committee, part 2 of the 
Verification Annex, paragraphs 9-21 lately? Are you familiar 
with it?
    Mr. Webber. If I read it, sir, it was a long time ago, and 
I can't quote it now.
    The Chairman. It says nothing about any 3 years. And yes, 
they will be inspected.
    Now I just want to be sure here.
    You are talking about challenge inspections and we are 
talking about challenge inspections. What is your answer to my 
question based on that?
    Mr. Webber. Well, sir, I think the International Inspecting 
Authority, if I read the convention correctly, has to make the 
decision early on as to what the time schedule will be to 
indeed, first of all, inspect those 200 facilities that will 
naturally come out of the convention mandate and then decide 
what to do with those discreet organic chemical manufacturers. 
And if, indeed, they decide to allow challenges early on, sure 
they will be subject to the treaty if there is a challenge to a 
company like Dixie.
    The Chairman. Well, this has not changed, and your 
predecessor, a distinguished gentleman named Dr. Will 
Carpenter, supplied for the record a copy of his remarks before 
the American Association for the Advancement of Science on 
January 16, admitted in 1989, in which he noted, ``Those of us 
who manufacture chemicals that are only a step or two away from 
chemical weapons, and that means a large number of us in the 
CMA, have already accepted the reality that a good treaty means 
significant losses of information that we consider 
confidential.''
    Is that still your position?
    Mr. Webber. It is not our position today. Again, that 
statement, indeed, was made by Dr. Carpenter of Monsanto in 
1989. But he has been a forceful presence and a strong 
supporter of the convention.
    The Chairman. Did he speak in error when he said that? Was 
he wrong when he said that?
    Mr. Webber. Today he would tell you, sir, that the industry 
has pressure tested the treaty and he feels very comfortable 
now that the needed protections are there.
    So I think he would testify right along those lines. That 
is an 8 year old statement, when we were still working on the 
treaty, working with the government to make sure that those 
problems would be corrected.
    The Chairman. But what was true in 1989, unless it has been 
changed, would be true today. So you are saying he was wrong in 
1989?
    Mr. Webber. Sir, we were in the midst of negotiating on 
that treaty. There were a lot of open-ended issues. A lot of 
progress has been made since then.
    I have met personally with Dr. Carpenter in the last 6 
months. He is a strong advocate of the treaty who feels today, 
as it is presently written, that it provides us with the 
protection we need.
    The Chairman. So you are saying here that it is a good 
treaty?
    Mr. Webber. Oh, yes, sir. We strongly support the treaty.
    The Chairman. Are you mystified by the number of your 
members who are rejecting your appraisal of this treaty?
    Mr. Webber. There are always, in any organization, say of 
200 companies, you will find a few.
    The Chairman. But you had said in the past that you were 
representing all of the chemical companies.
    Mr. Webber. We represent 192--92--today to be exact. We 
have one at the table that has concerns. They have not said 
that the treaty ought to be defeated. They are concerned about 
confidential business information and the cost of inspections.
    The Chairman. We have heard some say definitely that it 
ought to be defeated.
    Mr. Webber. Well, I just heard a letter read into the 
record from Sterling Chemical expressing concerns. And yet, 
their vice chairman yesterday, along with the CMA board, signed 
that letter endorsing the treaty, and that letter is going to 
Senator Trent Lott today. And, by the way, Mr. Chairman, we 
enter that for the record.
    [The letter from Sterling Chemical was read into the record 
by Kathleen Bailey and appears on page 183; the letter to 
Senator Lott appears on page 194.]
    The Chairman. Well, not so long ago, less than a year ago, 
on November 26 of 1996, you made the claim that the U.S. 
Chemical manufacturers will ``lose''--and these are indicated 
as your words--``as much as $600 million a year in export 
sales'' if the CWC is not ratified.
    Then, on March 10 of this year, you revised your estimate 
to say that the upper bound of lost sales would be $227 
million. So you have come down. And also I have a list provided 
to the committee and the Majority Leader's Office by CMA which 
makes clear that the amount of sales of Schedule II chemicals 
will total less than half of what you have previously claimed.
    Now that ball is bouncing crazily around the lot. What do 
you do, just reach out, get a figure, and say whatever is 
likely to excite the people?
    Mr. Webber. Oh, Mr. Chairman, you know I wouldn't do that. 
We have known each other for too long.
    The Chairman. Oh, I'm not sure. A lot of things are being 
said about this treaty that are simply not so, and the people 
who are saying them know that they are not so.
    Now I want to know whether you are revising your figures 
and where are the figures now?
    Mr. Webber. I appreciate the opportunity to correct the 
record and, indeed, it needs correction.
    In September 1996, we estimated that the potential impact 
of the ban on trade in Schedule II chemicals would, if applied 
against the United States, impact some $600 million in 
exports--in exports. Since that time, CMA carefully reviewed 
the data available from the government and industry sources. 
Our conservative estimates today are that $500 million to $600 
million in two-way trade--and here we stand corrected, but it 
is two-way trade, both exports and imports--will be affected by 
the Schedule II ban.
    These numbers are the best estimates that we have been able 
to get throughout the debate.
    By the way, Mr. Chairman, we feel that this is the tip of 
the iceberg. But these numbers we are prepared to stand behind. 
But it is two-way trade, not one-way trade, not just exports.
    The Chairman. Well, let's see how well they will stand, 
Fred, and I say this as a friend.
    Mr. Webber. Yes, sir.
    The Chairman. Exports of Amiton, a pesticide--is that the 
way you pronounce that--A-M-I-T-O-N?
    Mr. Webber. Yes. Yes, sir.
    The Chairman. That is a pesticide. I am advised, quite 
reliably, that the U.S. exports of Amiton total more than half 
of your new figure. And yet, the United States sells this 
pesticide largely to countries that have not ratified the 
treaty and are not going to participate in it.
    Am I wrong about that?
    Mr. Webber. I'm not sure, Senator. I would have to look at 
the numbers. But the fact of the matter is all of our major 
trading partners, all of the major trading partners in the U.S. 
chemical industry, are signatories already to this convention. 
I don't know how else to approach the answer.
    We could dig into the numbers, but I am trying to question 
the relevancy of it and the sale of it. It goes to our trading 
partners, and those trading partners have signed the 
convention.
    The Chairman. Well, half of what you say that they will 
lose involves one chemical, Amiton--and I hope I am pronouncing 
that right.
    Mr. Webber. Yes, you are, sir.
    The Chairman. And yet, the United States sells this 
pesticide almost entirely to countries that have not ratified 
the treaty.
    I have just been handed, as your man is handing you 
information I am being handed information, too, and what the 
hell would we do without our staff. Western companies cannot 
use this chemical, can they? You tell him.
    Mr. Webber. If we understand correctly, U.S. law does not 
prohibit production of this chemical, this pesticide, for 
export purposes.
    The Chairman. I understand that. But that is not what I 
asked you, though.
    I asked you if you didn't send it to companies that are not 
participating. It is not a U.S. law. It is a European law that 
you are talking about in the first place. But environmental 
regulations are prohibiting the use of Amiton in Europe and 
elsewhere. Is that not correct?
    Mr. Webber. I am at a disadvantage. I don't have the 
information or the numbers on that specific chemical. I would 
be delighted to work with your staff to dig into that to really 
see not only what is happening but what the significance of it 
is.
    The Chairman. Well, let me tell you what bothers me about 
the proponents of this treaty.
    I have caught them in so many misstatements of fact, and 
for a while, you know, I said we all make mistakes. But I have 
almost reached the conclusion that most--not all, but most--of 
the loud advocates of the treaty--and I am including the 
editorial writers--they don't know what they're talking about 
and they don't care. They just get a statement out of thin air, 
throw it out there, and then the rest of us have to chase it 
down to see whether it is accurate. And nine times out of ten 
we find out it is not accurate.
    That is the reason I have made the conclusion that we ought 
to defeat this treaty unless it is substantially modified and 
we go ahead and do it right. I am just exactly like Steve 
Forbes on this treaty. I thought he made good sense, as he does 
always.
    Well, my time is up.
    What shall we do about another round? Would you like 
another round?
    Senator Biden. Well, since we have so many witnesses here--
we really have two panels in one--I would like to have another 
round, if that is OK with you, Mr. Chairman.
    The Chairman. OK. How many minutes per Senator?
    Senator Biden. Do you mind if we have, if we could have one 
more round of 7.5 minutes, I think that will end it. At least I 
have about that much to ask.
    Do you mind?
    The Chairman. Not at all. I think it is a good idea.
    Senator Biden. OK.
    You know, I understand the Chairman's frustration. I am 
going to ask Mr. Webber to comment. I want to pursue that again 
in a moment.
    But, you know, it is so easy. This is such a complicated 
issue. It is so easy to scare the living daylights out of 
proponents and opponents of this treaty by taking things, 
taking the worst case scenarios that have probabilities that 
are incredibly low.
    For example, what Ms. Bailey was talking about is these 
challenge inspections, these challenge inspections of outfits 
that are the small outfits, the biochemical firms, the biotech 
firms, the pharmaceutical firms, who, I might add, signed on to 
these treaties, both their organizations.
    Let's review what the treaty calls for if there is a 
challenge inspection.
    If there is a challenge inspection, first of all a country 
has to, say Iran--we're all talking about Iran. We assume the 
French are not going to do this bad thing to us, or the 
Germans, the Brits, or whatever. We usually use Iran as the 
worst case.
    Say an Iranian says I want to find out what that biotech 
firm is doing. I want to find out what that pharmaceutical firm 
has out there, because I want to steal their secrets, or I want 
to steal weapons-grade capability from someone.
    So they say, ``we think Company X, Diamond Shamrock''--
assuming they were in the deal, and I'm not sure they are--``We 
want a challenge inspection.'' What happens mechanically? 
Mechanically, that request goes to the Director General of this 
outfit. The Director General then takes a look at it after 
looking at the evidence presented by the country asking for the 
challenge inspection. They just can't say, you know, I kind of 
think they make a lot of money over there at Diamond Shamrock, 
and I would kind of like to find out how they do it. I want to 
challenge. You know, like a kid in a pick-up game, ``I 
challenge.''
    You can't do that. You have to supply a rationale. You have 
to say why you think they are violating this treaty.
    Then the Director General takes it. He looks at it. Then he 
has to take it to the Executive Council. And if the Executive 
Council believes that the allegations offered, allegations of 
cheating under the treaty, have no merit, they have to have a 
super majority to say no inspection. They have to have, say, 
three-quarters. It's three-quarters.
    And, by the way, if it turns out it is an abusive request, 
like abusing the courts with frivolous lawsuits, that kind of 
thing, they also then have to pay a penalty, ``they'' the 
country making these frivolous requests.
    But even after that, let's assume it goes through the 
sieve, Iran says I want to know what's happening up at duPont-
Merck. I think they have a deal there, and I would like to 
figure out how it works. No inspector from that country is 
allowed on the team. So the Iranians have to have somebody 
else. They have to go to Country Y and say here is a deal we 
will make together. You send your inspector in with this little 
thing he is going to put in his pocket to find out all this 
information and then, when you get it, you give it to us. This 
is because you can't send an inspector in.
    OK. Assume they go through all of that. Then they get to 
the end of the day, they come to the United States, they go to 
duPont-Merck or some small outfit. Guess what? In a challenge 
inspection, they need a search warrant under the Fourth 
Amendment, and they must establish before a court of law 
probable cause to determine that the company is violating the 
Chemical Weapons Convention--in a Federal court. It's just like 
you have to have probable cause now for a search warrant.
    Now, Mr. Johnson, if your company is worried about that 
part of the process, or anybody else who actually runs a 
company, you either don't have very good lawyers who work for 
you now to be able to explain this to you or you are one of 
those people who assumes you are going to get struck by 
lightning on those days when there is lightning out there.
    It could happen. I acknowledge it could happen. Iran could 
make a deal with China--and, by the way, neither one is in the 
treaty yet, and if they are not in the treaty, they don't get 
to have an inspector; they don't get to be involved. They'd 
have to make a deal. There has to be collusion. They have to 
agree to share the information. They then have to go in with 
another inspector not from their team, but they have to get by 
the Director General, and the Director General then has to get 
by the Executive Council. And the Executive Council is probably 
not real crazy about Iran, either.
    Then, even if they do that, they have to get by a Federal 
judge.
    Now it can happen. It can happen. A good friend of mine, 
Billy Haggerty, got struck by lightning the other day in a 
park. It happens. Now I walk in the same park, in the same 
lightning storm--and I'm not joking, he really did get struck 
by lightening. But that's about what we are talking about here.
    With regard to this issue, Mr. Webber, I assume the point 
of the question was--though I may be mistaken about this 
particular chemical--is that you really are not going to suffer 
a penalty, the industry, if you already trade it to a country 
not covered by the treaty. This is because the only penalties 
would be import sanctions that would be imposed upon us, or 
exports, which are imports to that country. A country could say 
you can't sell your chemical in our country. We're a member of 
the treaty and you are violating the treaty or you are not in 
the treaty. You're not in.
    I assume the Senator's point was this stuff is sold to 
countries that are not in the treaty, therefore you would 
suffer no loss if we were not part of the treaty.
    Mr. Webber. If they are otherwise not controlled by the 
Export Control Act.
    Senator Biden. Right.
    Mr. Webber. That's correct.
    Senator Biden. Otherwise not controlled by the Export 
Control Act, which is a separate piece of legislation.
    Mr. Webber. Correct.
    Senator Biden. Can you supply for the committee an analysis 
of this particular matter?
    Mr. Webber. Yes.
    Senator Biden. I see my train just left.
    You know I care about this treaty, Jesse, if I miss the 5 
train and there are no votes.
    The Chairman. I wish you had gone home.
    Senator Biden. Did you hear what he said, he wished I'd 
gone home.
    I don't blame him.
    Can you supply for the record a more detailed response 
based on your analysis to the Senator's question about 50 
percent of the loss is attributed to one chemical and a 
significant portion of that chemical sale goes to countries not 
covered?
    Mr. Webber. Yes. Your clarification is very helpful.
    I'm sorry, Mr. Chairman, I didn't clearly understand the 
question. We would be delighted to supply for the record that 
analysis.
    [The information referred to was unavailable at the time of 
printing.]
    Senator Biden. Well, I'll stop. I have so many more 
questions that I don't want to get started.
    I appreciate it, Mr. Chairman.
    The Chairman. I can have somebody drive you to the station.
    Senator Biden. The train has already gone. I am here for 
another hour, unless you can call Amtrak. After 24 years, I 
have never been able to hold an Amtrak train, so you know I 
don't have a whole lot of power.
    Ms. Bailey. Senator Biden, you made so many statements that 
I think can be challenged.
    Senator Biden. Well, please do challenge them. I'd love to 
hear it.
    Ms. Bailey. I know your time is out.
    Senator Biden. Oh, no. I have another minute. Then I can 
respond to you.
    Ms. Bailey. Starting with the frivolity question, in other 
words, if an inspection request comes in from a country----
    Senator Biden. A challenge inspection.
    Ms. Bailey [continuing]. A challenge inspection request 
comes in from a country, and they want to go to a 
pharmaceutical firm in the U.S.; they don't have to specify the 
name of the company. They don't have to say the exact site. 
They don't have to give information which would qualify as 
being substantial for demonstrating probable cause.
    Senator Biden. No. I didn't say they have to establish 
probable cause. They have to give a reason.
    Ms. Bailey. I'm just saying the information they give is 
not sufficient to establish probable cause.
    Senator Biden. I agree with that.
    Ms. Bailey. They don't even have to say the name of the 
site that they are going to until 12 hours before the 
inspectors arrive at the port of entry.
    Senator Biden. But then they have to say it.
    Ms. Bailey. So this whole charade about frivolity being 
questioned by the Executive Council is----
    Senator Biden. Are they allowed to have an inspector?
    Ms. Bailey. Sorry?
    Senator Biden. Is the country asking for the challenge 
allowed to have an inspector on the team?
    Ms. Bailey. No. That's not the issue. The issue is you 
cannot determine frivolity in advance, because you may not even 
know what site they are asking to go to. That is the first 
point.
    Senator Biden. I don't think it is frivolity. I thought it 
was a trick and a device to find out how to get information. I 
thought that was your point.
    Ms. Bailey. It is my point. I am just trying to argue that 
your case that there is this Executive Council that is going to 
sit there and look at a challenge inspection request and render 
a judgment as to whether it is frivolous or abusive is not 
going to save U.S. companies. It is not going to save them, 
because there will be insufficient data for that Executive 
Council to reach a reasonable decision until 12 hours before 
they enter.
    Now I would like to agree with you--it's so rare--I would 
like to agree with you that it is quite possible that a company 
that does not want to have a challenge inspection request can 
say, ``no way; you get a criminal warrant.'' All right.
    Senator Biden. Correct.
    Ms. Bailey. Fine. Let's imagine a hypothetical situation in 
which there were credible evidence presented that substantiates 
the criminal warrant. The company, meanwhile, suffers 
tremendously because of the negative press it will get.
    Senator Biden. The same way criminals do. The same way 
people accused wrongly of crimes do. You've got it. If there is 
probable cause, under our Constitution, if there is probable 
cause a crime has been committed, and then it turns out you are 
innocent, you suffer.
    Ms. Bailey. There was a real case I would like to tell you 
about.
    Senator Biden. Sure.
    Ms. Bailey. The United States and Russia exchanged 
reciprocal visits to pharmaceutical facilities. We went over 
there and said, ``you know, there are real problems here. It 
looks to us like you are producing biological weapons, or 
either have been, are going to, or just were yesterday.'' Then 
the Russians came over to the United States and went to a 
pharmaceutical firm here. The Russians walked out the front 
door and, in Russian, thankfully, gave a press briefing in 
which they said this pharmaceutical company is involved in 
biological weapons production.
    It was not picked up by the press here.
    Senator Biden. That's why it can't be bilateral. That's why 
this treaty cannot be bilateral. That's why it's multilateral.
    Ms. Bailey. The point I am trying to make is that U.S. 
firms can be accused of nefarious actions by these foreign 
inspectors with no basis.
    Senator Biden. Can I stop you there for just a second and 
take that example?
    The inspection team is going to be made up of a number of 
people. Unless you assume the whole world conspires against us, 
the team is not going to walk out and say, tit for tat. Now if 
you assume that, and I can understand that you might, if you 
assume that the entire inspection team is going to do exactly 
that--we know how the Russians work. Whenever you expose them 
of something, accuse them of something, or prove something, 
they come back and say double on you, your mother wears combat 
boots, so do you. We know how they deal.
    But you have to assume the entire regime, all these members 
of this treaty, whatever group of inspectors--they are not just 
going to be Russians or one or two people; they are going to be 
a group. You're going to have to assume that all of them are 
going to be as venal as the Russian example you gave me. That's 
a heck of an assumption.
    Ms. Bailey. No, I don't think so.
    Senator Biden. No?
    Ms. Bailey. You see, my argument is that the company that 
is being challenge inspected will be so worried about negative 
press that there will be pressure on them to succumb and not 
stand up for their constitutional rights under the Fourth 
Amendment to say no foreigners are going to come in here and 
look at my process data or look at the way I have my company 
set up.
    Senator Biden. No, that's not what they're going to say. 
That's not what they are allowed to say. They may want to say 
that and they won't. You're right. What they'll say is there is 
no evidence, credible evidence, to suggest that we, in fact, 
are doing anything wrong. Therefore, you cannot come in. That's 
what they're going to say.
    Ms. Bailey. And then the President will have a----
    Senator Biden. You see, I practiced law, you practice 
inspections. I represented people like this where, in fact, the 
government came and said we want to do something. We want to 
search your home, your business, or you. I know how it works. I 
represented them. I know how they think--not all of them. But I 
have as much experience as you do in that regard.
    I see no reason to believe your scenario. But the bottom 
line is this, and I will stop, Mr. Chairman.
    You have to assume in your scenario that the entire 
inspection team is going to be venal.
    Ms. Bailey. That's not true.
    Senator Biden. Sure it is. Look, the Russian walks out and 
says you know, they are making chemical weapons in there.
    Ms. Bailey. It only takes one person to make that 
accusation.
    Senator Biden. No, it doesn't, because then what happens is 
you've got the other five people there, or three people, or 
seven people.
    Ms. Bailey. This is all prior to an inspection taking place 
at this facility.
    The Chairman. Joe, you are out-shouting the lady. Give her 
a chance to answer you.
    Senator Biden. I'm sorry. You're right and I beg your 
pardon.
    The Chairman. You rest your tonsils just a little bit.
    Not one iota of evidence is required by the CWC to start a 
challenge inspection. Is that correct--not one iota?
    Ms. Bailey. That's correct. No data.
    The Chairman. And it's impossible to stop----
    Senator Biden. No ``data.'' There's a distinction.
    Ms. Bailey. The Senator is correct--no data, no evidence.
    The Chairman. What's the difference?
    Senator Biden. Well, there's a difference between ``data'' 
and an ``assertion.''
    Ms. Bailey. No data or evidence.
    The Chairman. Anything else?
    Senator Biden. No.
    The Chairman. OK.
    It's impossible to stop an inspection once it's started, is 
that correct?
    Ms. Bailey. Yes.
    The Chairman. You have to get 31 of 41 diplomats to vote 
against the inspection within 12 hours to stop it.
    Ms. Bailey. Three-quarters of 41. Yes.
    The Chairman. Yes. Now all you have to do to start an 
inspection is to say where you want to go. You don't have to 
have any evidence, is that correct?
    Ms. Bailey. You do not have to have any evidence.
    The Chairman. Nowhere in the treaty, nowhere in the treaty 
does it say you have to say why you want an inspection. Is that 
correct?
    Ms. Bailey. All that is required is that a country say that 
they suspect that there is a violation of the Chemical Weapons 
Convention.
    The Chairman. All right.
    Now you already addressed this earlier on, so I won't get 
into that.
    I think we have gone about as far as we can go, Senator.
    Senator Biden. I have one last question, and I won't even 
comment. I'll just ask the last question.
    The Chairman. Ask it, then.
    Senator Biden. OK.
    Madam, at the end of the day, if the facility for which a 
challenge inspection is sought, 1 second before they cross the 
threshold says you cannot come in, you do not have a search 
warrant, is it not true that they will be required to go to a 
Federal judge and establish probable cause? You and I should 
not guess their motivation. If they do, if they say you cannot 
cross the threshold, is it not true that you have to go to a 
Federal judge and establish probable cause as to why there is a 
violation? Is that correct?
    Ms. Bailey. Do you want to limit me to a yes/no? Could I 
say ``yes'' and then comment?
    It is true. But I have two comments. The first one is why 
would we want to sign an arms control treaty which we know we 
are not going to apply ourselves in terms of challenge 
inspections in the future? In other words, any company that 
says no, or private individual that says no, can say no----
    Senator Biden. Can I answer your question?
    Ms. Bailey [continuing]. That's the first part. Do you want 
both parts now?
    Senator Biden. Do you want me to answer your question?
    Ms. Bailey. Yes, but both parts first?
    Senator Biden. OK. I'll do it either way you want.
    The Chairman. Let her make her case.
    Ms. Bailey. That's the first one. The second one is that if 
it is a U.S. national security facility, meaning a place like 
my laboratory, they will not be able to say no and foreigners 
can come in and use these GC/MS and other techniques to gather, 
to glean national security data. And that is something that is 
not covered by what we talked about so far.
    But I think it is a terribly important issue worthy of your 
attention.
    Senator Biden. Can I answer your question?
    Ms. Bailey. Sure.
    Senator Biden. The answer to your question as to why we 
would be part of such a regime that would allow our Fourth 
Amendment to work is because the underlying philosophy of the 
treaty is challenge inspections are not intended to be 
frivolous. That is the underlying assumption.
    Therefore, we are totally consistent with the spirit of the 
treaty when we say if you want to challenge us, you have to 
give us some good reason under our Constitution why you are 
saying that. That's why we should want to be a part of a treaty 
and want to enforce our Constitution. That's why.
    Ms. Bailey. Do you think Iran will want to amend its 
constitution----
    The Chairman. Exactly.
    Ms. Bailey [continuing]. To add Fourth Amendment rights----
    The Chairman. Or Russia, for that matter.
    Ms. Bailey [continuing]. Once they see us using them as a 
means of avoiding inspections?
    Senator Biden. The answer is that may very well be. But it 
is kind of interesting how those of you who oppose the treaty, 
there is a weakness you see in the treaty and any correction of 
that weakness makes another part of your criticism worse. For 
example, if we did not have the Fourth Amendment guarantees 
built in here, you'd be saying it is a violation of the 
American Constitution, therefore we should not be part of the 
treaty. Right?
    Ms. Bailey. Right.
    Senator Biden. Now that we have Fourth Amendment 
guarantees, then you say we don't want to do that, because it 
renders the treaty less likely to be efficacious against other 
countries. Right?
    Ms. Bailey. They're both true.
    Senator Biden. Right. And you have used them skillfully. I 
think you are a lawyer.
    The Chairman. Anything else to come before the committee?
    Mr. Johnson. I would like to bring up one point.
    The Chairman. Sure.
    Mr. Johnson. Senator Biden, in part 9----
    Senator Biden. Pardon me?
    Mr. Johnson [continuing]. In part 9 of the treaty, they get 
into a discussion of the number of discreet organic chemical 
inspections that can happen in a year. In the third year, as I 
read it, in the third year they are limited to 5 percent of the 
facilities available, plus 3, or 20 whichever is the smallest 
number.
    Senator Biden. Right.
    Mr. Johnson. In our case, in the United States, that 
undoubtedly will be 20.
    Now in that third year or fourth year, I am not sure which, 
this issue of number of inspections on discreet organic 
chemicals will again be addressed. You know, that could cut 
either way. We could maintain the number of 20, or it could 
become less, or it could become more. That is a little bit of a 
concern.
    Senator Biden. If I may respond, sir, that is a good point 
that you make. My understanding is--I will withhold my 
understanding until I have staff check to see if I am right 
about whether or not the 20 could be changed--if it is a 
fundamental change, if it is a change in the treaty, to go from 
20, say, to 30, 50, 100, 1,000 or whatever it is, it is an 
amendment to the treaty. Under a condition that we are going to 
add to this ratification--and there's no way you'd know this--
we are going to add to this that it would have to come back to 
the Senate for ratification if they were going to change that.
    So that would change the whole ballgame and it would change 
the requirement. They could not do that, could not bind us 
unless we ratify it as an amendment to the treaty.
    But the second point is this. My understanding--and I would 
stand to be corrected, because I am not certain--hold on for 
just 1 second.
    My understanding is--and I will check this for the record 
because I had not approached this before and it is a good point 
you raise, separate and apart from the requirement that we 
would have to get the Senate to sign off on it with a super 
majority vote again--my understanding of Section 9, relating to 
the companies you are talking about, which would fall into the 
category of being 1 of the 20 inspections, is that the 3-year 
period does not go to whether or not that can be upped from 20 
to any other number. It goes to whether or not there will be 
any inspections--any inspections. There are no inspections now. 
So it will go to whether or not there will be any inspections.
    Now because you have been so straight with me, with us, I 
promise you I will for the record--and I am sure the Senator 
and the staff will remind me--I will go back and give you a 
written analysis of my view. I may be wrong, but I will send 
you a copy of that. But my understanding is the 3 year period 
means for now there can be no inspections for the next 3 years 
and at the end of 3 years they are going to decide whether 
there will be any for the covered category--not that there can 
be 20 of the covered category now and it may be amended to be 
30, 40, or 50.
    But even if that is true, such an amendment would have to 
come back to the United States Congress--the Senate, to be 
precise, not the Congress--and be ratified by the Senate before 
it would be binding on the United States of America, before it 
could be binding on the United States of America. But you raise 
a good point. I will check it out.
    I always learn something at these hearings, and I now have 
to go back and find out whether my analysis, which I just told 
you, is absolutely accurate. I think it is. But I am not 
positive.
    I am positive about the treaty part. I am not positive 
about the 20.
    [The information referred to follows:]

                                                      May 21, 1997.
Mr. Ralph Johnson,
Vice President, Dixie Chemical Company, Inc.,
Houston, TX 77219.
    Dear Mr. Johnson: Thank you for taking time on April 15 to testify 
before the Senate Foreign Relations Committee on the Chemical Weapons 
Convention. I appreciate your concern about how our country is 
governed. As you know, the Senate ratified the Chemical Weapons 
Convention on April 24 by a 74-26 vote, and the treaty entered into 
force on April 29.
    During last month's hearing, you inquired as to whether the 
treaty's limitation on inspections in the United States could be 
revised upward after the treaty enters into force. As you are aware, no 
more than twenty American producers of Schedule III and unscheduled 
discrete organic chemicals can be subjected to routine inspection in 
any one year.
    The Arms Control and Disarmament Agency (ACDA) has informed me that 
while this limit, in theory, could be revised upward with the support 
of the countries that have ratified the treaty, such a change is highly 
unlikely and would be strongly opposed by the United States Government. 
The Secretary General of the Organization for the Prohibition of 
Chemical Weapons could seek approval from the Executive Council to 
revise this limit. While the mechanism by which the Executive Council 
would rule on such a request has yet to be determined (whether by 
consensus or super majority), the United States will have a seat on the 
Council and would be in a strong position to oppose such a proposal.
    More important, ACDA assures me that it is highly unlikely that 
such a proposal would ever be made. Because the purpose of routine 
inspections is to verify the declarations made by each country that has 
signed the treaty, the Organization is unlikely to focus as many as 
twenty inspections on any one country. Because the number of inspectors 
is limited, it is more likely that inspections will be conducted in as 
many countries as possible to determine the compliance of different 
nations.
    I hope that this information answers any concerns you had about how 
the Chemical Weapons Convention might affect your business. If you have 
any further questions about the Chemical Weapons Convention and its 
effect on industry, please contact me or John Lis of my staff at (202) 
224-5042.
            Sincerely,
                                      Joseph R. Biden, Jr.,
                                           Ranking Minority Member.

    Mr. Johnson. OK. Thank you.
    The Chairman. Whoever has something he wants to say, please 
do. I have one more question and then we will sing the doxology 
and depart.
    Mr. Webber. Thank you, sir.
    I want to elaborate on the $600 million figure.
    Mr. Chairman, I said earlier that this could be the tip of 
the iceberg. As you know, Germany, the U.K., Japan, and other 
major trading countries have already signed the convention. Our 
greatest fear is that if we are a non-party, a non-signatory, 
we are going to see some trade barriers being erected that will 
impact a good part of our $61 billion in exports that we 
produce annually.
    For example, Germany has already announced that it is going 
to impose new restrictions on trade with nonmember nations 
commencing 29 April. That, in part, is what drives us. We want 
to be reliable trading partners. We have been up to this point.
    Today, as we sit across the table, they are looking at us 
with a jaundiced eye wondering why this treaty has not been 
ratified and wondering what actions they ought to take 
commencing 29 April. And we have already seen, and it has been 
in the newspapers, the action that Germany plans to take. They 
are going to take a look at all of our chemical trade, and we 
have no idea what kind of nontariff barriers are going to be 
erected. But we know it is going to be very, very difficult 
down the road to continue to trade in chemicals with this very 
large trading country.
    The Chairman. How many of your member companies are owned 
by Europeans? Glaxo is one of them.
    Mr. Webber. I think a little under 30 percent of our entire 
membership is represented by foreign owners.
    The Chairman. Do you mean the Europeans are going to put up 
trade barriers against their own companies in the United 
States?
    Mr. Webber. Sir, we are unbelievably competitive on a 
global basis, and that signal that we got from Germany is very, 
very serious, indeed. We feel we have legitimate concerns here.
    The Chairman. My last question, and I will let anybody 
answer this, though perhaps it is best directed to you, Fred, 
or Mr. Webber, is this. During these hearings, the committee 
has heard testimony from a number of foreign policy experts who 
are very concerned that Article XI of the treaty will be used 
by nations to pressure the United States to lower its export 
controls and to eliminate the Australia Group. Have you heard 
that?
    Mr. Webber. Yes, sir, I have. In your absence, I tried to 
respond to that in my testimony.
    The Chairman. OK. Let me get through this.
    Now the administration has promoted the CWC as an arms 
control treaty, but some clearly view the CWC as a treaty 
designed to facilitate trade in chemicals and in technology.
    Mr. Carpenter, in testimony before this committee, stated 
that one of the reasons for the Chemical Manufacturers 
Association's support of the CWC was the anticipation that, and 
I'm quoting him, ``An effective CWC could have the positive 
effect of liberalizing the existing system of export controls 
applicable to our industry's products, technologies, and 
processes.''
    Now my question to you is did your association write a 
letter of support for H.R. 361, which allowed for the licensing 
of free trade in chemicals among the CWC members, and does CMA 
continue to favor the reduction of U.S. export controls on the 
dual use chemicals controlled by the CWC?
    Mr. Webber. Let me take a stab at what I think Mr. 
Carpenter meant when he said we want to see trade liberalized, 
if you will.
    As I said in my formal testimony, we have a long history of 
support for U.S. export control law, and the Australia Group, 
and limited multilateral control regimes like the Australia 
Group.
    We think the CWC is a logical extension of those control 
systems. It broadens the scope, makes more nations live up to 
the high standards set by our own country, the U.S.
    So we don't think CWC will replace existing U.S. export 
controls or the Australia Group. Both will be around, as you 
know, sir, for a long time.
    As confidence in the treaty grows, we think it will 
eventually be possible to create a single, integrated export 
control regime under the banner of CWC. But, of course, that is 
down the road. But that's what we mean when we say 
``liberalizing trade,'' and I think that is what Dr. Carpenter 
meant.
    The Chairman. Well, did you or did your association not, or 
did it, write in support of H.R. 361?
    Mr. Webber. I have been advised that we were part of a 
coalition that indeed supported that bill. But we did not 
specifically focus on any particular provision of the bill. But 
we gave general endorsement.
    The Chairman. So you didn't write a letter? You were just 
among those present?
    Mr. Webber. No, we wrote a letter in support, as part of 
the coalition in support.
    The Chairman. What I needed there was just a yes or no.
    Mr. Webber. Yes.
    The Chairman. Now you understand that that bill proposed to 
reduce U.S. export controls. Is that not correct?
    Mr. Webber. Yes.
    The Chairman. And, too, it offered to license free trade, 
did it not?
    Mr. Webber. Yes.
    The Chairman. And you still favored it?
    Mr. Webber. We have not supported any elimination of export 
controls over precursor chemicals, and I think that is the key 
statement that we would stand by.
    The Chairman. Please repeat that?
    Mr. Webber. We would not advocate the elimination of any 
export controls having to do with precursor chemicals.
    The Chairman. Well, didn't you do that when you advocated 
this bill?
    Mr. Webber. We don't think so, sir.
    The Chairman. You don't?
    Mr. Webber. No.
    The Chairman. I might want to put that letter into the 
testimony here.
    Senator Biden. Mr. Chairman, before you strike the gavel, 
I'm not going to ask a question. I just want to make an 
admission.
    Mr. Johnson may be right, because Part 10 is part of the 
Annex, Mr. Johnson, and the Annex means that it may not be 
covered by a requirement to have the U.S. Senate ratify any 
change. But I will still get you the full answer. I just wanted 
to make sure that I tell you my staff points out it is the 
Annex, not the body of the treaty. So you may be right. Let me 
check it out.
    Mr. Johnson. Thank you, Senator.
    The Chairman. The skies are going to fall.
    No, he has admitted he has made a mistake--in 1987.
    Senator Biden. No, in 1972, when I ran.
    The Chairman. We enjoy each other; and I respect Joe, and 
he knows that.
    Senator Biden. As I do you, Mr. Chairman.
    The Chairman. Lady and gentlemen, thank you very much for 
spending this afternoon with us. I did not intend for it to go 
so long. But you have made a substantial record, and I 
appreciate your going through the trouble of being here and 
testifying as you have.
    If there be no further business to come before the 
committee, we stand in recess.
    Senator Biden. Thanks, Jesse.
    The Chairman. Yes, sir.
    [Whereupon, at 5:25 p.m. the committee adjourned, to 
reconvene at 10:07 a.m., Tuesday, April 17, 1997.]


                      CHEMICAL WEAPONS CONVENTION

                              ----------                              


                        THURSDAY, APRIL 17, 1997

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Chuck Hagel, 
presiding.
    Present: Senators Hagel, Biden and Kerry.
    Senator Hagel. The committee will come to order.
    Congressman Goss, thank you, and welcome. You probably were 
expecting Chairman Helms. I am sorry to disappoint you and the 
other members of the second panel. Chairman Helms had a couple 
of responsibilities to attend to this morning and has asked me 
to fill in, and I am privileged to do so.
    As a 4-month United States Senator, Congressman, we make 
progress quickly over here, as you can see. So, if you work 
hard and do the right thing, you are Chairman of the Foreign 
Relations Committee after 4 months. That is the way it works.
    So we are very, very pleased to have you, as well as our 
distinguished panel who follow you, Congressman. And I will 
just briefly acknowledge our panel, and then I know you may 
have a vote coming up soon, so we would get right to business. 
The opportunity to have you over here, Congressman, is 
significant, because we all know you chair the House Permanent 
Select Committee on Intelligence. Your observations, insights 
and contributions will be important to this body, in helping us 
make a very difficult decision.
    Then, after you are completed with your testimony--I 
understand you will have to leave immediately after that--we 
will have a panel following you, consisting of General Bill 
Odom, former Director of the National Security Agency; Mr. Ed 
O'Malley, former Assistant Director of the Federal Bureau of 
Investigation and head of the FBI's Foreign Counterintelligence 
Operations; and the Hon. Ronald Lehman, former Director of the 
Arms Control and Disarmament Agency. So we are very privileged 
to have all of you.
    And, again, Mr. Chairman, welcome, and we look forward to 
your testimony.

  STATEMENT OF HON. PORTER J. GOSS, U.S. REPRESENTATIVE FROM 
                            FLORIDA

    Mr. Goss. Thank you very much, Mr. Chairman. I congratulate 
you on your meteoric rise and wish you continuing success in 
your endeavors, and I hope you will give my compliments to the 
Chairman when he is back.
    I also compliment you on the quality of your second panel. 
It is obviously made up of folks who know a good deal about 
this subject as well. And I greatly appreciate the opportunity 
to be here this morning.
    Mr. Chairman and members of the committee, you have clearly 
an awesome responsibility in deciding whether to ratify the 
Chemical Weapons Convention. As a Member of the House, who does 
not have a vote on this matter at this threshold, I am very 
especially honored that you have asked for my views as you 
pursue your advice and consent obligation.
    My testimony today is generally based on my knowledge and 
experience, including of course committee assignments on the 
House International Relations and the Intelligence Committees. 
But I also come as a Member of Congress, charged with 
representing views of the good people of Southwest Florida, 
views I consider a very rich slice of America.
    We all understand that the stakes are extremely high in 
what is about here today. No margin for error. Chemical weapons 
are so dangerous, so frightening and so difficult to control 
that is only natural and proper that the global community seeks 
to contain and eradicate them. The question is how to do it 
effectively.
    I know that those of us charged with our Nation's security 
have given this matter very much thought and carefully reviewed 
the commentary of many distinguished former leaders, public 
servants who have come down on opposite sides of this issue. I 
remain deeply troubled about the CWC's ability to meet the 
promise of its title and of its proponents. Given my review and 
my concerns, Mr. Chairman, in general, I conclude that I cannot 
support this treaty. Primarily and specifically, effective and 
balanced verification is too doubtful.
    My comments today focus on the critical issue of 
verification, and then seek to broaden the debate somewhat with 
a discussion of how the control of chemical agents and weapons 
fits into the overall strategy we all seek to ensure protection 
for the American people, for American interests, and for 
American allies.
    Finally, I want to briefly discuss a very real and 
practical aspect of CWC that has great significance to all of 
us as we embark on our annual budget process that will not be 
news to anybody here--the cost of implementation.
    Going to verification, first, Mr. Chairman, let me discuss 
this. At the outset, I want to state that I am not an 
individual who believes that arms control is a worthless 
endeavor. Mr. Lehman, I am sure, will agree with that. We have 
talked about this subject many times. On the contrary, I 
believe that our arms control efforts during the cold war were 
a critical component of a strategy that resulted in the end of 
the cold war and, subsequently, the collapse of the Soviet 
Union.
    Arms control truly has its place in our foreign policy and 
national security objectives. The process of arms control and 
the treaties that result can build a level of trust between 
signatories, and it can provide a measure of insight and 
information that is useful to the Nation. Obviously, if this 
were the only yardstick needed to measure the worthiness of the 
treaty, then CWC would be an undeniably valuable and worthwhile 
endeavor.
    Certainly, through the provisions found in CWC, some 
information would be available, and cooperation among most 
signatories could likely benefit our Nation to a degree. In 
fact, the acting Director of Central Intelligence, Mr. George 
Tenet, rightly stated to the Senate Intelligence Committee that 
there are some tools in the CWC--namely, inspections and data 
exchange--that, as an intelligence professional, he would find 
beneficial. And I certainly concur with that.
    For the intelligence community, it is clearly true that 
more information and insight is beneficial to analysis. 
However, the decision to ratify a treaty is not based on 
whether the intelligence community can get more data, but, in 
part, on whether we can monitor the provisions of the treaty 
and whether we, as a government, can verify that these 
provisions have been met or are being broken.
    And here, Mr. Tenet confirms what his predecessors have 
already stated and what I, too, believe. Monitoring compliance 
with CWC provisions will be very difficult. As you have heard, 
former DCI Woolsey, who negotiated the CFE treaty, an 
understands the complexity and importance of being able to 
monitor the provisions of a multinational treaty, stated that, 
quote, the chemical weapons problem is so difficult from an 
intelligence perspective that I cannot state that we have high 
confidence in our ability to detect noncompliance, especially 
on a small scale, unquote.
    Mr. Tenet, more recently, confirmed that assessment when he 
told the Senate Intelligence Committee--again, I will quote--I 
will say that our ability to monitor the CWC provisions 
probably is still not very good, unquote.
    Mr. Chairman, I must say that given the statements of those 
who have been in the position of managing intelligence 
resources and understanding their capabilities, combined with 
my own experience as an intelligence professional--a long time 
ago, I would add--and as a member and now chairman of the House 
Intelligence Committee, I believe that our ability to monitor 
the CWC is very questionable.
    I believe that is certainly true if you consider the more 
traditional and accepted definition of, quote, effectively 
verifiable, unquote. That is, the effectively verifiable means 
having a high level of assurance in the intelligence 
community's ability to reliably detect a militarily significant 
violation in a timely fashion. I do not believe we have those 
assurances.
    But even if you consider the much more watered down 
definition that has been promoted by the current 
administration, our capabilities are called into question--and 
I am not sure we can fulfill even that mandate. Former DCI John 
Deutch, when he was the Deputy Secretary of Defense, stated to 
the Senate Armed Services Committee that a CWC verification 
regime, quote, should prove reasonably effective, unquote, over 
time.
    As this committee has heard several times, the language of 
the classified National Intelligence Estimate from August 1993 
looms very large. And again, I will quote from it. The 
capability of the intelligence community to monitor compliance 
with the Chemical Weapons Convention is severely limited and 
likely to remain so for the rest of the decade. The key 
provision of the monitoring regime, challenge inspections at 
undeclared sites, can be thwarted by a na- 
tion determined to preserve a small, secret program, using the 
delays and managed access rules allowed by the convention, 
unquote.
    I think that Chairman Helms had some interesting comments 
on industrial espionage as well, which he put in the record 
back--I think it was--on the 19th of March, which fall 
generally into this area.
    Moving from verification to a broader perspective, Mr. 
Chairman, I think that in viewing the CWC, one must put into 
perspective what we need do regarding the spread and potential 
use of chemical weapons in terms of our own national security. 
And I am not discounting our allies or other interests, but 
national security comes first.
    Put simply, what is the threat and what do we do about it?
    I would argue that the threat has continued to evolve over 
the past 4 years, since CWC was signed. Among obvious evidence 
of the types of new challenges we face was the incident in 
1995, when the Aum Shinrikyo cult clandestinely produced sarin 
gas and deployed it into a Japanese subway. Although some may 
argue that this was simply an act of religious fervor, I fear 
that this is precisely the type of MO that terrorist groups may 
employ in the future.
    The transnational issues of proliferation--and here I refer 
specifically to the production and proliferation of chemical 
weapons and terrorism, whether state-sponsored or not--directly 
affect our Nation's security, perhaps almost as dramatically as 
the threat introduced by the incorporation of nuclear weapons 
into the inventories of the Soviet Union that we all remember.
    But the thought of small-scale production and employment of 
chemical weapons by a terrorist organization is one that should 
frighten anyone knowledgeable of the ease with which such 
weapons of terror can in fact be made. This type of threat must 
get special focus from our intelligence community--focus that 
could be drawn away by the need to monitor the CWC. It would be 
sad, indeed, if while creating a false sense of security by 
attempting to monitor this treaty, we found that we had 
diminished capacity to attack these transnational threats 
specifically.
    Then, Mr. Chairman, there is the larger issue of state-
sponsored chemical weapons programs. Some would argue that an 
advantage of CWC is the overall pressure that it would place on 
states that are not part of the agreement to do the right 
thing. Although this may have been true during the cold war at 
some time, I am not as confident that it is true today, or will 
be tomorrow, for those countries that concern us most. After 
all, we call these countries ``rogue'' for very good reasons--
they do not conform and do not care about international norms, 
nor accepted behavior.
    Let me use the first START treaty to illustrate my point on 
what could be the likely effects of CWC on some of these 
nations. START is a treaty that has proven to be very effective 
and extremely valuable to our national security. Because of the 
treaty provisions that can be monitored by the intelligence 
community and verified by our government, we have reduced the 
threat that once had many of us learning how to take shelter 
under our desks at school. Thank heavens those days are gone.
    One of the noted values of START was the example it set for 
others, by saying that nuclear weapons were bad and that even 
the superpowers understood that we needed to walk back from 
that brink. However, it is clear that the START treaty did not 
set an example that was so dramatic that it prevented other 
rogue countries from pursuing their own nuclear weapons 
programs, as we all know.
    In some cases, these are the same states as those we are 
now worried about regarding chemical weapons programs and 
whether they might adhere to CWC. Having witnessed the types of 
actions and activities of these countries during this decade, 
it is hard to believe that they will somehow now cave to the 
threat of international reason promoted in the CWC.
    The fact is that reasonable nations will abide by 
international norms. Efforts like the Australia Group regime 
can be effective with reasonable nations. They are good 
efforts. The same is probably true for the CWC. But our 
greatest concern, certainly from an intelligence perspective, 
is not states that we term ``reasonable.'' If everyone were 
reasonable, would we be here discussing this today?
    Another question is the wherewithal of our signatories to 
enforce treaty provisions substantially and to engage actively 
non-signatories in adopting CWC principles. I noted with 
interest the recent statement by James Schlesinger, former DCI, 
regarding the world's incredibly mild reaction to the use of 
chemical weapons by the Iraqis, in clear and unambiguous 
violation of the Geneva Convention. I have little doubt that 
CWC could well suffer the same fate, coming under the same 
geopolitical yoke that often tempers the need for forceful, 
direct international actions.
    And at this point, I am going to insert some recent 
history. I must say that I have reservations about our own 
government's seriousness in this regard. Just this morning I 
learned that this administration made yet another attempt to 
sidestep direct action regarding chemical weapons 
proliferation. In this case, I understand that the State 
Department has attempted to modify its statements to the 
Senate, taking a more relaxed approach to the transfers of 
dual-use chemicals to Iran. This was recently reported in the 
Washington Times, and I am relieved to see that there is 
bipartisan outrage to this.
    This is not the first time that this administration has 
attempted to downplay China's activities in order to protect 
China from necessary, lawful sanctions. Many members of the 
House Intelligence Committee, on both sides of the aisle--and I 
stress that--are increasingly questioning this administration's 
response--or, more appropriately, their lack of response--to 
blatant proliferation of ballistic missiles and chemical agents 
or weapons, as has been reported in the press.
    I think Senator Stevens had it right when he indicated that 
this administration is so narrowly interpreting our laws that 
we will be unable to do anything about the proliferation 
problem. And that concerns me. I am very concerned that in 
continued attempts to protect policy, the administration 
appears willing to ignore the spirit and possibly the letter of 
the law. With this in mind, I wonder what hope we have of 
implementing the CWC accords in a way that will really be 
effective.
    Mr. Chairman, regarding the task ahead with those countries 
that we know are the bad actors, I point to the hurdles that we 
have encountered related to the United Nations inspections in 
Iraq. In what many would term a more robust inspection regime 
than CWC, proof of a chemical weapons program was concealed 
from U.N. inspectors for a great deal of time, and the full 
extent of such a program is likely still unknown. This is, in 
part, a factor of the ease with which chemical weapons can be 
concealed.
    I am afraid, however, that some of this probably has to do 
with the fact that today much more is known about our national 
technical means and other techniques of information collection 
and analysis than at any other time in our history. Some of 
this has to do with the fact that the technological explosion 
that we have witnessed over this decade has made people and 
countries generally more knowledgeable. We have lost some of 
our edge. Denial and deception is an unresolved challenge that 
leaves unacceptable gaps in verifiability.
    Unfortunately, another aspect is that we have made our own 
job harder. Mr. Chairman, it saddens me to say that I have just 
received a highly classified document in my office that relates 
to the damage to the effectiveness of some of our sensitive 
sources and methods. It appears this damage may have been the 
result of a very cavalier--or at least misguided--attitude 
toward declassification of information within the Department of 
Defense and the intelligence community, apparently in order to 
pacify political pressures from senior leaders in the 
government. And that is not a good reason.
    Obviously, I cannot go into any detail here on this issue, 
but I assure you that my colleagues and I on the Intelligence 
Committee, and I am sure our counterparts on the Senate side, 
will be examining this problem in detail over the next few 
weeks and months. Suffice it to say, however, that if 
interpreted correctly, the bad actors could well have a leg up 
on their ability to conceal activity and our ability to detect 
that they did not have previously.
    The final area I would like to briefly address for you to 
consider, Mr. Chairman, is that of the implementation costs 
associated with monitoring CWC provisions. I know that you have 
received reports on the overall costs associated with 
implementation, and that the United States may pay up to 25 
percent of those overall costs. I would like to highlight the 
possible effects on the intelligence community.
    Often, because monitoring of our agreements and treaties 
with other nations is a matter of great importance to us, 
obviously, the priority placed on such activity is high in 
terms of our requirements, and the costs and the allocation of 
our resources are commensurate. I think that this is generally 
the right approach. Sometimes, however, this can lead to 
intelligence programs and a collection and analytical emphasis 
that can place greater priority on monitoring specific 
technical aspects of a treaty than on filling in the 
intelligence gaps. This is not a complaint of the intelligence 
community; it is merely an observation.
    My concern about this issue stems from the fact that 
dollars for intelligence and defense are at risk in the current 
budget environment--and we all know that. Yet, even though the 
intelligence community is significantly smaller, the demands 
for intelligence have significantly increased. Consequently, 
budget decisions within the community and within the 
intelligence committees of Congress become more and more 
problematic. And that is probably an understatement.
    At the end of the day, I must wonder whether intelligence 
dollars will be better spent on trying to effectively monitor 
CWC provisions that may in fact be unverifiable or focusing on 
comprehensive efforts against transnational threats. I use that 
term to refer to the proliferation of weapons of mass 
destruction, including chemical weapons, terrorism, narcotics 
trafficking, and of course international organized crime.
    As the Intelligence Committee reviews this year's budget 
submission, the potential tradeoffs between monitoring the CWC 
and focusing on other measures against the transnational 
threats could be a risky proposition.
    Mr. Chairman, I have no doubt that the CWC can be 
important. And I know that the motives of those supporting it 
are certainly very well intentioned, and I take nothing away 
from that effort. But the threat of the so-called transnational 
issues is so great that I must wonder to what degree the CWC 
helps us meet those challenges ahead. We need your support to 
make sure that we have a robust, flexible intelligence 
community in the future that can take on all of the challenges 
that we have. Unfortunately, when I look at the tradeoffs, the 
CWC comes up somewhat short of that mark.
    I thank you, Mr. Chairman, for this opportunity to insert 
my views.
    Senator Hagel. Chairman Goss, thank you.
    I have been joined here by my distinguished colleague from 
Delaware, Senator Biden, who is the ranking minority member of 
the Foreign Relations Committee. Welcome.
    Senator Biden. Mr. Chairman, it is a pleasure to have you 
here. I served on the Intelligence Committee for 10 years, but 
you have served in the intelligence community. You are one of 
the only folks here that has that hands-on experience.
    I must say, I apologize for not being here for your whole 
testimony; the Judiciary Committee is meeting, as well. I know 
you know the problem. But I will read your whole statement and 
take what you have to say seriously.
    The one thing you have said that I do agree with, and I am 
not sure how much more relative to CWC, is the need for us to 
have a robust intelligence capability unrelated to CWC. I was 
one of those guys, back when we had this--when we started the 
committee you now chair, that came out of the--that is how 
old--that is how long I have been here--it came out of the 
Church committee. And I was one of the so-called charter 
members. And I remember how upset everyone was in my party and 
my part of the party, because I kept proposing spending more 
money on the agency.
    And I would just say--and I realize it is slightly 
extraneous--but it seems to me, at a time when the wall is 
down, when other armies are weaker, when we have an 
overwhelming predominance of military capability, when we are 
cutting our military, this is the time to expand our capacity 
and not diminish our capacity relative to two things. One, the 
intelligence community and the other, the Foreign Service. This 
is a time to move out, not pull in. And so I agree with your 
overall admonition to be careful about what we are not doing 
for the community.
    I think we have a little disagreement on--I know we have a 
little disagreement on the efficacy of the CWC, but I will not 
engage you in that now. I am told you are off. I know how busy 
you are. I appreciate you, as they say, making that long walk 
to the other body. It is a long way over here, I know that.
    Mr. Goss. Thank you, Senator. I want to congratulate you 
for your vision in setting up the oversight committee. It has 
proved to be a totally appropriate and worthwhile enterprise.
    Senator Biden. I cannot take credit for setting it up. That 
was Senator Church. I just got put on it. I was just one of the 
first ones put on the committee.
    Mr. Goss. Well, if you were there, your fingerprints are on 
it, and you will have to accept the praise.
    Senator Biden. I am afraid they are.
    Mr. Goss. I also want to commend very much the comments you 
made last evening. They were very informative to me, and I 
think will be very informative in this process. And I was 
extremely impressed with your leadership on that point.
    Senator Biden. Well, you are very gracious. Thank you very 
much, Mr. Chairman.
    Mr. Goss. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Hagel. Senator, thank you.
    Mr. Chairman, thank you very much.
    If we could now have the second panel come to the witness 
table. Thank you. [Pause.]
    Senator Hagel. Gentlemen, thank you.
    I have introduced all three of you, and unless my 
colleague, Senator Biden has any opening statements, why do not 
we get right to it. And we will just go, at least from Senator 
Biden and my perspective, we will go left to right, and we will 
start with you, Mr. Lehman.
    Senator Biden. Does it matter if we let the General go 
first.
    Senator Hagel. No. That is fine with me. If you would 
prefer to have General Odom go first.
    Mr. Lehman. I never made general, so I think it is a 
protocol question.
    Senator Hagel. Well, I am a former sergeant, so I always 
put the generals at the back.
    Senator Biden. General, were you ever a sergeant?
    General Odom. No, I was not, unfortunately.
    Senator Biden. Well, then, he outranks you in this man's 
army.
    Senator Hagel. I am glad we got that straight.
    General, let me just reintroduce you, so that everyone 
knows, here in the hearing room, who you are and the expertise 
that you bring. You are the former Director of the National 
Security Agency. You spent a lifetime in the military. You come 
to this panel this morning with considerable experience and 
expertise. So, we are grateful. Thank you.

STATEMENT OF WILLIAM ODOM, GENERAL, U.S. ARMY (RETIRED), FORMER 
               DIRECTOR, NATIONAL SECURITY AGENCY

    General Odom. Well, thank you very much, Mr. Chairman and 
Senator Biden, minority ranking member. It is a pleasure and an 
honor to testify before you today. You have asked me to express 
judgments on the verifiability and the verification regime of 
the Chemical Weapons Convention.
    Now, initially, I considered the Convention rather benign, 
a treaty that would probably not prevent any determined state 
from violating it secretly, but probably having some marginal 
deterrent effect and, therefore, favorably.
    In general, I think the public--certainly, the media and a 
lot of opinion-makers and Washington political leaders--tend to 
favor arms control treaties, not because these treaties 
necessarily control arms, but because the sentiments and the 
intentions are noble. And to oppose them in this climate is to 
appear to be against virtue and for sin.
    Unfortunately, I think the record of arms control 
agreements is not objectively tracked and audited. And if it 
were, and widely published, I think the image of virtue would 
become seriously tarnished in several cases. But such a record 
is not kept to moderate these illusions and, therefore, 
whenever the potential damage for an arms control treaty is not 
very great and it may have some marginal advantage or gains, 
prudence allows us to support them responsibly, lining up with 
public virtue against sin.
    Now, upon a little examination of the verification regime, 
I began to realize it was not as benign as I had assumed. The 
length of the treaty itself immediately raised my suspicion. 
Now, one need go no further than the definitions of the terms 
at the beginning of the text to see the possibilities for 
dangerous ambiguities. This is not to suggest that the 
definitions have not been set forth with great care and 
thought. It is merely to underscore that some aspects of the 
definition task inherently must include ambiguities.
    For example, toxic chemicals and precursors, as clear 
categories, begin to be vitiated when purposes not prohibited 
by this convention are enumerated, especially where they 
concern international trade in chemicals. For another example, 
production capacity, is not easy to define in all cases with 
great certainty. The surge capacity of production facilities is 
often deceptive.
    Now, moving to the guidelines for schedules of chemicals, 
one has to wonder if in the context of rapid technological 
change in chemistry, whether or not these schedules can be kept 
updated in a practical way. For example, in the early 1980's, 
when I was Chief of Army Intelligence, we were concerned with 
the possible Soviet production of mycotoxins, substances that 
rest ambiguously on the boundary between chemical and organic 
substances. A research chemist and a molecular biologist could 
debate that, and they could probably provide you numerous other 
such ambiguous examples that we will have to deal with if this 
treaty goes into effect.
    The drafters of the text have probably done about as well 
as is possible in these circumstances. That is the point. The 
circumstances are not very amenable to arms control treaties. 
As a result, the length and the complexity of the treaty is 
such that very few people have the depth of expertise--
scientific, technical, legal, military, and intelligence--to 
say with even low confidence what the likely consequences of 
the treaty would be if implemented.
    I am surprised, therefore, that senior officials in the 
administration assert their support for it in such an 
unqualified manner. And I seriously doubt that any but staff 
specialists have read it carefully. And if they have, I doubt 
that they fully understood it.
    I am not surprised, however, to learn that the acting 
Director of Central Intelligence has reconfirmed the 
community's position that the treaty cannot be verified today, 
nor does he see prospects that it can be in the future.
    Now, looking at the verification regime as a former 
official of the intelligence community, I am disturbed by it, 
not just because it is impossible to verify with a high degree 
of confidence, but because it also complicates our security 
problems. Take, for example, the U.N.-like organization set up 
to make inspections. All of the appointed members may have no 
intelligence links whatsoever initially. As they find that they 
can tramp around in all kinds of U.S. production facilities, 
however, foreign intelligence services are likely to offer to 
supplement their wages for a little technology collection 
activity on the side. And they will probably provide truly 
sophisticated covert technical means to facilitate these 
efforts.
    Over time, therefore, it is only prudent to assume that a 
few members of this group will not be entirely trustworthy. If 
the KGB could penetrate the CIA, it and other intelligence 
services are likely to be able to penetrate this U.N.-like CWC 
inspection agency.
    Now, I understand that other witnesses have already raised 
questions about Article X and Article XI, which give all 
signatories the right to participate in the fullest exchange of 
information concerning the means of protection against chemical 
weapons. Such information inevitably includes knowledge of 
offensive means. Because, without it, one cannot know how to 
defend against them.
    It seems, from the treaty language, that each signatory is 
left to judge what information is to be included in sharing. 
And that implies as many interpretations as their are 
signatories. If all such information is available, then every 
signatory's interpretation governs its further distribution.
    Now, the incentive to exploit this ambiguity will only be 
great where the most innovative and effective offensive 
chemical means are concerned. That is, the very ones one would 
hope the treaty would be most effective in restricting. 
Pondering the implications, I am forced to conclude that the 
treaty could become the mechanism for proliferating the most 
dangerous offensive CW means, while becoming reasonable 
effective against the far less offensive means.
    This highly perverse and probable consequence of the treaty 
gives me pause, to say the least.
    Another aspect of the treaty puzzles me deeply. This thick 
document is entitled ``Instructions to Industry: Chemical 
Weapons Convention Data Reporting Requirements,'' which was 
drafted by the Commerce Department. It defines a very complex, 
tedious reporting system. Unless I am mistaken, one of the 
major concerns of the Congress in the last few years has been 
to reduce costly and burdensome regulations on U.S. business.
    Now, this document, required for the verification regime, 
looks like a costly and troublesome stack of regulations. My 
discovery of it made me highly suspicious of the convention 
itself. Do all of the affected U.S. firms know that they are 
about to face these instructions? Do they really know what the 
data reporting will cost? Do they know the costs of an 
intrusive inspection, even an occasional one, not just in 
direct monetary costs, which they must bear, but also the 
inherent costs of shutting down production during an 
inspection?
    Now, when I ask congressional staffers why the business 
community was not up in arms about this aspect of the treaty, I 
learned that several large chemical companies actually support 
this and agree to accept the costs. I also learned that not all 
businesses to be affected are aware that they will have to bear 
these costs. And, recently, it seems that some such firms, 
those in the aerospace industry, for example, have awakened to 
the implications and do not like them.
    And when I asked why the large chemical firms so happily 
accept the idea of paying hundreds of thousands of dollars to 
carry the regulatory burden of the convention I got no good 
answers. The answers were no more satisfying to my questions 
about whether all the firms which will be affected actually 
know that they will be, and have considered the cost and the 
inconveniences.
    Now, today, I pose another kind of question. The red tape 
morass, this kind of red tape morass, required by the 
verification regime--and even if the U.S. is willing to accept 
its costs and impose it on U.S. industry--what are the 
prospects that other countries will take equally comprehensive 
steps to monitor their own relevant industrial firms? As one 
who has devoted more than a little time to studying the nature 
of foreign domestic governments and political systems, I doubt 
that more than a few dozen have the administrative capacity to 
do so. And when the matter of costs is added, their incentives 
for making such a system effective will be negative, not 
positive.
    Now, I am inclined to believe, therefore, that if the 
United States ratifies the convention, only it and a few other 
states--none of which really needs the treaty to restrain them 
from developing and using chemical weapons--will be tying 
themselves up in a tangle of red tape while the rest of the 
world largely ignores these requirements, even if they promise 
to abide by them. And those states posing the biggest problems 
for verification will not cooperate in any case.
    Now, if one thinks through the implications of these 
regulations, therefore, one is encouraged to conclude that a 
few countries who do not need to be tied down by the convention 
will be engaged in the costly activity of checking one another 
while most states in the world go about their business ignoring 
the whole affair. Where states sign and ratify the convention 
and then are found by inspectors not to have regulations, what 
do we do then?
    What do we say when they complain that they cannot afford 
them? Do we then finance them from our own budget, as we are 
doing in Russia in connection with other arms control 
agreements? Even if we agreed to do that, whatever the cost, it 
would not work; because lack of administrative capacity, not 
shortage of funds, is the critical problem in most of these 
states.
    These are some of my reactions to learning more about the 
convention.
    As I considered the additional concerns expressed by 
several former Secretaries of Defense, I found them also very 
compelling. For those who were not persuaded by their 
arguments, however, and who approach the convention looking for 
reasons to support it, willing to accept only marginal 
advantages as sufficient for justifying the ratification, I 
strongly advise against following that inclination. The best 
intentions can sometimes produce highly undesirable outcomes. I 
see more than sufficient evidence to convince me that the CWC 
is clearly such a case.
    It is not enough to resort to detailed technical arguments 
to score debating points against some of the objections I have 
raised. The treaty is so complex that it is possible to isolate 
a particular concern and to find arguments that seem to allay 
the fear. Within an hour of further examination, however, one 
can find yet another concern and another, almost endlessly.
    This assessment does not mean the drafters and negotiators 
did a sloppy job. On the contrary, it means they were asked to 
apply an arms control solution to a problem that essentially 
defies its very nature. Common sense tells us this unhappy 
truth.
    It is also implicit, I think, in acting Director George 
Tenet's rather candid letter to Senator Kyl about the 
intelligence community's own view of its present and future 
capacity to verify the treaty.
    Now, I think to push ahead in such circumstances strikes me 
as imprudent, not a modest step toward controlling chemical 
weapons. Rather, it is an effort to use a hopelessly complex 
treaty to escape political and military responsibilities that 
we will eventually have to face. The several editorials in the 
Washington Post on the CWC show this tendency--a growing 
recognition that the complexities really are beyond the reach 
of treaty drafters, but not yet willing to accept the 
implications.
    The most recent one today comes remarkably close to 
admitting the treaty's perversity, its enormous potential for 
very bad outcomes, hidden in its complicated verification 
regime, and wrapped in deceptive appeals to our best instincts.
    Now, if we deceive ourselves for a number of years by the 
illusion that we have escaped these responsibilities, the price 
will be higher than had we faced up to them all along. 
Ratifying the convention, therefore, strikes me as 
unambiguously imprudent, not a close call, by no means a risk 
worth taking, certainly not a harmless step that puts us on the 
side of righteousness.
    Thank you.
    Senator Hagel. General Odom, thank you very much.
    Let me now introduce Mr. Edward J. O'Malley. Mr. O'Malley 
is the former Assistant Director for Counterintelligence, 
Federal Bureau of Investigation. Mr. O'Malley, thank you.

  STATEMENT OF EDWARD J. O'MALLEY, FORMER ASSISTANT DIRECTOR 
     (COUNTERINTELLIGENCE), FEDERAL BUREAU OF INVESTIGATION

    Mr. O'Malley. Thank you, Mr. Chairman. Good morning, 
Senator Biden. Something you just said reminded me of an 
incident that happened many years ago.
    Judge Webster, then director of the FBI, and I were 
testifying on the FBI's foreign counterintelligence budget 
before one of the two intelligence committees--I do not recall 
which one--and he was asked the question whether he thought he 
was really asking for enough money for the Bureau's foreign 
counterintelligence program, that the committee was quite 
willing to give him more.
    I have never heard such a question before or since, but 
something you just said reminded me of that.
    Yes, I did head the FBI's foreign counterintelligence 
program. After I retired, I have been employed for about 10 
years in private industry, including with IBM, where I worked 
out of the Office of General Counsel and was involved in 
countering on IBM's behalf those who would steal IBM's trade 
secrets, including, I might add, the Japanese and the French.
    Alvin Toffler, the futurist, has stated, the 21st Century 
will be marked by information wars and increased economic and 
financial espionage. The race for information of all kinds will 
be motivated not only by a desire to lead, but will be required 
to avoid obsolescence.
    The energy released in competition for market share has 
significantly replaced but has not eliminated the energy that 
once drove the cold war military strategies of the West and its 
adversaries. The shift from acquisition of global power by 
force to one of acquisition by competitive strategy marks what 
promises to be a remarkable revolution, remarkable not only in 
the sense of its relevance to national power, but also in a 
sense of the increasingly disparate nature of the competitors, 
which run the gamut from many of the traditional cold war 
adversaries to traditional friends and allies.
    In terms of a traditional classical espionage threat vis-a-
vis hostile intelligence operations in the United States, 
intelligence services of the former Warsaw Pact, the People's 
Republic of China, Cuba, North Vietnam, and North Korea, were 
of major concern from a counterintelligence standpoint.
    The activities of the former Soviet Union and others are as 
aggressive as ever, and remain a major threat. What is new, 
however, is the increased importance given by them to the 
collection of American corporate proprietary information. 
Another change in terms of the foreign threat is that it now 
includes not only a nation's intelligence services, but also 
other governmental ministries and/or corporations.
    Chief among their strategies is the acquisition, licit or 
otherwise, of the battlefield's strategic targets, a 
corporation's sensitive business information and intellectual 
property. I think it is clear to anybody that the lifeblood of 
any corporation rests on intellectual property, and I might say 
the same thing, in my opinion, applies to the lifeblood of a 
country.
    All of this has not gone unnoticed by our intelligence 
community and the Congress, both of which have been very much 
engaged in addressing espionage concerns of whatever variety 
such as was done in the 1970's. My testimony today will focus 
on what was done by both--that is, the Congress and the 
community--in the 1970's to address the threat as it existed 
then, and what has been done in the 1990's to meet an ever-
increasing and complex intelligence threat.
    I will also comment on the concerns I have with the 
Chemical Weapons Convention as it relates to certain 
counterintelligence initiatives, and also to the extent that 
its ratification will result in mixed signals from the Congress 
to the counterintelligence community.
    I am not arguing that the ratification of the CWC should 
succeed or fall because of counterintelligence concerns. What I 
am suggesting is that those involved in the strategic 
decisionmaking process ought to consider these current concerns 
along with many others, such as recently expressed by General 
Odom.
    Historically, whatever other benefits may have resulted 
from the period of detente, there was no corresponding 
diminution of intelligence activities in the United States by 
the former Soviet Union or, for that matter, its Warsaw Pact 
allies. In fact, analysis by the American counterintelligence 
community in the 1970's documented a substantial increase in 
such activities undertaken with the hope that they would be 
overlook because of detente-generated goodwill.
    These hostile intelligence services and their counterparts 
in other areas of the world used every means at their disposal 
to enhance their intelligence collection in the United States, 
including the use of their diplomatic establishments, the 
United Nations Secretariat, commercial and trade delegations, 
students, ``illegals,'' third country operations, false flag 
operations, recruitment of third country nationals, and active 
major operations. No stone was left unturned in their efforts 
to obtain classified American political, scientific, and 
military information.
    Although all had sophisticated human intelligence 
recruitment techniques to recruit their intelligence targets, 
it must be stated that volunteers also did a substantial amount 
of harm.
    The common thread and the most important motivation of 
those who betrayed their country was money. This should not be 
forgotten in terms of today's threat, and I will comment a bit 
later on that point.
    Having done its homework in terms of the seriousness of the 
intelligence threat, the counterintelligence community made its 
case to Congress in the seventies in terms of resources needed 
to meet the threat. Congress responded and approved the 
resources, enabling the enhancement of the quality and quantity 
of people involved, the equipment, analysis, and training.
    The many counterintelligence successes of the 1980's were 
not accidental. They were the result of close cooperation 
between Congress and the counterintelligence community. Let me 
now switch to the nineties and the post cold war developments 
which are taking place.
    During the early 1990's, the United States became 
increasingly aware of the economic espionage threat to its 
interests on several occasions, the last occurring in February 
1995. The White House published national security strategies 
which focused on economic security as crucial not only to U.S. 
interests but to U.S. national security.
    This was further delineated by testimony of Secretary of 
State Christopher before the U.S. Senate on November 4, 1993, 
when he stated that in the post cold war world our national 
security is inseparable from our economic security, emphasizing 
the ``new centrality'' of economic policy in our foreign 
policy.
    To be sure, the intelligence services of Russia, the 
People's Republic of China and others remain a very significant 
force to be contended with vis-a-vis classical espionage. For 
example, the Russian SVR, the successor to KGB, and the Russian 
military intelligence service, the GRU, have sustained their 
activities aimed at the collection of national defense 
information; but they have also begun to pay added attention to 
American economic, scientific, and technological information.
    President Boris Yeltsin made this perfectly clear in a 
policy statement dated February 7, 1996. It was seconded by 
Ifgani Primakov, the former head of KGB. I think we ought to 
listen to these gentlemen.
    It should be recognized that the economic espionage against 
the United States should not be considered only in the 
abstract, as something which should be only of concern at some 
ill-defined time in the future. Know this future is now, and 
there is more than ample evidence not only of the threat, but 
of the implementation of the threat by human and technical 
intelligence as well as significant resulting damages.
    Again, it became clear to the counterintelligence community 
in 1990 that our counterintelligence policy had to be changed 
not only to meet classical espionage threat but also to mirror 
more closely the total spectrum of today's economic 
intelligence threats to the U.S. and corporations. The 
allocation of a large percentage of its counterintelligence 
resources to the former Soviet camp and the People's Republic 
of China had left it somewhat blind as to whether intelligence 
activities were occurring in the United States.
    As in the seventies, it was realized that something had to 
be done. That something was a new counterintelligence policy 
approved by the Attorney General in 1992 known as the national 
security threat list, which provides a road map for the 
redirection of FBI counterintelligence resources.
    The national security threat list contains two elements, an 
issue threat list and a country threat list. The latter is 
classified. I would like to concentrate, if I may, on the issue 
threat list.
    Two of the issues significantly involve countering by the 
FBI of foreign intelligence activities aimed at illicitly 
collecting information regarding weapons of mass destruction, 
including chemical weapons. The second issue involves 
countering attempts by foreign services to collect proprietary 
information of U.S. corporations.
    Given the importance of these two issues to U.S. national 
interests, the FBI will provide counterintelligence coverage 
irrespective of the country involved. A bit more on chemical 
weapons later.
    In 1994, the FBI initiated an economic espionage 
counterintelligence program. In 1 year's time the number of 
cases doubled from 400 to 800. In 1995, the Attorney General 
revamped the national security threat list to give greater 
emphasis to countering foreign economic espionage.
    The Director of the FBI testified publicly before Congress 
in February 1996 regarding economic espionage, calling it 
``devastatingly harmful'' in terms of billions of dollars of 
losses and hundreds of thousands of jobs lost. He focused on 
economic espionage by some foreign governments which steal U.S. 
technology and proprietary information to provide their own 
industrial sectors with a competitive advantage.
    Economic intelligence collection operations come in various 
guises and under different sponsors. There have been 
Government-sponsored operations such as France's Direction 
Generale de la Securite Exterior, the DGSE, the French 
counterpart of CIA, with which I have some familiarity, which 
not long ago prioritized a collection effort aimed primarily at 
U.S. aerospace and defense industries.
    Other operations have been sponsored and run by foreign 
competitor firms without the assistance of their government, 
and there are examples of operations which combine foreign 
governments and industry.
    In the late 1980's, IBM learned that IBM France was 
penetrated by the DGSE through the recruitment of French 
nationals within the company. The information acquired by DGSE 
was passed to French companies, including Companie de Machine 
Bull, the IBM of France, which was then owned by the French 
Government.
    There is current information that France has been 
developing in the last 2 years a substantial economic espionage 
capability involving its business community, the French 
commercial attaches, and other. Its principal target is 
purportedly the United States.
    Despite all the efforts by the FBI and other governmental 
agencies, despite all the public and in camera testimony before 
Congress, and despite all the recognition on the part of the 
White House, the Department of State and others regarding the 
relevance of economic security to national security, Director 
Freeh and others recognize that in the final analysis there was 
little chance in stopping foreign economic espionage because 
Federal statutes simply did not allow the government to counter 
or deter this activity in any way remotely commensurate with 
the damage it was inflicting on the U.S. economy.
    As in the 1970's, the Department of Justice and the FBI 
again made their case to Congress, this time that a new law was 
needed to facilitate the stopping of foreign economic 
espionage. Once again, the Congress responded and passed the 
Economic Espionage Act of 1996.
    The EEA was passed with two goals in mind. First, to thwart 
attempts by foreign entities to steal trade secrets of American 
corporations. The more severe penalties of the act reflect this 
overriding concern regarding a foreign threat.
    Second, to allow the Federal Government to investigate, 
which had not been done before, at least in the sophisticated 
sense, to investigate and prosecute those engaged in economic 
espionage. Importantly, section 1839 of the Economic Espionage 
Act precludes--precludes--any Federal prosecution for trade 
secret theft unless its owner ``has taken reasonable measures 
to keep such information secret.''
    Let me now conclude by commenting on my counterintelligence 
concerns with the Chemical Weapons Convention as it relates to 
what I have said and what is going on now.
    While the national security threat list, supra, directs the 
FBI to focus its counterintelligence resources to prevent the 
illicit acquisition of chemical weapons information, the CWC 
would appear to facilitate the acquisition of such data through 
its challenge inspections. There is not an unrealistic 
possibility that these inspections could facilitate collection 
of the very kind of chemical weapons information that the FBI 
is charged to protect under the national security threat list.
    If I were a foreign intelligence officer and my country 
needed offensive or defensive information regarding chemical 
weapons, I would focus on a group of inspectors to be stationed 
at The Hague.
    As I indicated previously, there can be no Federal 
prosecutions under the Economic Espionage Act unless the owner 
of the trade secret has taken measures to keep it secret. This 
is standard trade secret law.
    The list of chemicals covered by the CWC is huge and open-
ended, and will encompass companies beyond chemical companies 
such as pharmaceutical companies, computer companies, and 
others with no relationship to chemical weapons or the CWC 
except the manufacture of chemicals covered by the convention.
    One of the greatest concerns of companies that I have read 
about, and I have read a number of letters from major companies 
and major associations of companies, all of which--the common 
thread running through all of them is their concern that the 
CWC will open them up to economic espionage. I think their 
concerns are well-justified.
    One of the greatest concerns of the companies I have read 
about, as indicated, concerns the loss of trade secrets through 
inspections, including dual use technologies to foreign 
competitors. There seems to be mixed signals to the corporate 
world in that the Economic Espionage Act requires them to 
protect trade secrets, while the CWC requires them to hand over 
to inspectors what they may regard as trade secrets, and which 
they otherwise would have treated as such. This confusion in my 
opinion ought to be cleared up.
    I might add, there was one more issue on that national 
security threat list, and that was entitled, national critical 
technologies. Again, like proprietary information, the Bureau 
was charged with doing what it can from a counterintelligence 
perspective to protect against the illicit acquisition of these 
national critical technologies, which was decided by a panel at 
the White House. In other words, the panel said that these 
technologies are crucial to a superior military posture and 
also to a strong national economy.
    If you read these lists of national critical technologies, 
and it is unclassified, materials synthesis processing, 
electronic photonic materials, ceramics, composites, a flexible 
computer-integrated manufacturing, software, biotechnology, 
aeronautics, et cetera, et cetera, you can see that there is a 
nexus between some of the chemicals which are mentioned in CWC 
and those which are involved with these technologies.
    So again, you have somewhat of an inconsistency in terms of 
charging the FBI to protect these critical technologies on the 
one hand and CWC in effect possibly opening them up to 
compromise on the other hand.
    Again putting myself in the shoes of a foreign intelligence 
officer, I would not bother to go through all the complicated 
recruitment efforts to recruit someone within XYZ company. I 
would simply recruit an inspector who would be able to 
interview XYZ's employees, inspect documentation and records, 
have photographs taken, and take samples. I would achieve the 
same end, but would be doing so in a way sanctioned by the CWC.
    The acquisition of American trade secrets has become a high 
stakes business involving billions and billions of dollars, and 
I would be able to pay an agent handsomely to acquire such 
information.
    Thank you.
    Senator Hagel. Mr. O'Malley, thank you. We appreciate your 
testimony.
    Ronald F. Lehman, former Director, Arms Control and 
Disarmament Agency. Ron, welcome.

   STATEMENT OF HON. RONALD F. LEHMAN, FORMER DIRECTOR, ARMS 
                 CONTROL AND DISARMAMENT AGENCY

    Mr. Lehman. Thank you, Mr. Chairman. Let me begin with a 
bit of a personal note. I was in California 2 days ago when the 
staff called and asked if I would come and testify, and of 
course I said I would.
    I did so in part because of the friendships and the 
relationships I have had with this committee over the years, 
but there actually is another part of it that I think is a 
principled thing, and that is that this is a great deliberative 
body, and we need a marketplace of ideas, and we need to work 
together to get the facts out, and we need to do that 
throughout the negotiating process and beyond that into the 
implementing process; and so I will help as best I can.
    The second thing is, as I think most of the Members here 
who have known me know, I believe that the United States ought 
to be the real leader of the world, and I believe that our 
military power ought to be unequaled. I am a hawk, and the 
Constitution gives me one very powerful tool, especially in the 
arms control business, and that is that a third of the Senate 
plus one can block a treaty.
    You are my ally. I do not need all of you on my side. I 
need a third plus one on my side, and I have got a hell of a 
lot of leverage. Let me give you just one example. Back in the 
Wyoming Ministerial in 1989, we were trying to finish up the 
verification protocol on the Threshold Test Ban Treaty, and we 
had concluded pretty much most of the technical details that 
remained, and we had met all of the concerns of the 
intelligence community, all of the concerns of the JCS and the 
Defense Department writ large.
    Everybody was happy, except I was not happy because I had 
not met Senator Helms' standards, so the negotiator and I got 
together, and we developed an approach to strengthen that 
protocol just a little bit more, and that protocol in the 
treaty which--the treaty had been sitting around since 1974--
passed the Senate 98 to noth- 
ing. I think that working together with the Senate strengthens 
the United States.
    The marketplace for ideas gives us better ideas. I had 
hoped that it would also improve understanding. I am a little 
puzzled that we have a treaty that we concluded 4 years ago 
that is very similar to the treaty we tabled 10 years before 
that, and negotiated over 10 years, in which essentially all 
the issues that were out there today were present throughout 
that whole process, but that is why I am here.
    Now, I am a straight shooter. I think Senator Biden will 
tell you that many times I have told him I have disagreed with 
him.
    Senator Biden. If I could interrupt you, Mr. Secretary--if 
I could interrupt you for just a second, while you were sitting 
there I leaned over and I said to my new colleague, and I said, 
Lehman, he and I have been on opposite sides of the table. You 
find out one thing about him. He is a straight shooter. I used 
the exact words you just used.
    Senator Hagel. I think he was a little more graphic than 
that.
    Senator Biden. But I did use the words, straight shooter. 
They were modified. There were adjectives attached to it, but 
you are a straight shooter.
    Mr. Lehman. Let the record show I respect your views toward 
me, and your right to have them.
    The point I want to make is basically this. I am here, I 
represent myself. I am going to give you my views. These are my 
personal views. They are not the views of any organization I am 
associated with now or in the past or in the future, 
necessarily; but I am going to give you my best estimate of 
where we are, and let me try to give at least something of a 
summary, and then I am yours.
    You have asked me to comment on the Chemical Weapons 
Convention and on the verification issue. Although the issues 
are complex, my advice is straightforward. Ratification of this 
convention is essential to American leadership against the 
proliferation of weapons of mass destruction; but ratification 
alone is not enough. Strong followup involving all branches of 
government will be vital.
    This hearing should not signal the end of your deliberative 
process, but rather the beginning. You must hold the executive 
branch's feet to the fire, and you must hold your own feet to 
the fire as well, and you must use your powers of oversight and 
the purse to bring about the most effective use of the tools 
that will be made possible by this treaty.
    In the case of the Chemical Weapons Convention, its 
contribution to our security will be determined more by what we 
do in the future than what we have done in the past. The past, 
however, has given us some important lessons, and the CWC was 
designed to take advantage of that learning process.
    The CWC offers us important tools which give us more data, 
greater access, and more leverage. The chemical weapons threat 
is serious, and will grow worse without the CWC. Even with the 
CWC, we will never be able to let up on our defenses; but with 
the CWC we will have more tools, more allies, and more options. 
The United States will be in the lead.
    If we now walk away from the CWC, which was carefully 
crafted over many years to serve American security interests, 
we may try to lead, but few will follow.
    I support your giving consent to ratification, because it 
is time to take that lead and to get on with the job. The time 
has come to stop giving lip service to nonproliferation, and in 
this regard I share many of the views of my friend Bill Odom, 
and to get on with the hard work.
    I am more than aware that the CWC is not a perfect treaty. 
No treaty can be perfect, but the challenges facing a treaty 
trying to ban chemical weapons are among the most daunting. We 
knew that from the beginning. What is more surprising is that 
we made as much progress as we did.
    The treaty we negotiated is stronger overall than the 
treaty we first tabled, and our ability to implement it has 
been strengthened in many ways. That was made possible by a 
number of factors, some of which I would like to enumerate 
briefly today.
    First, we did not rush into this treaty. We engaged in a 
10-year process of deep and careful study with the widest range 
of concerns reflected in the analysis and decisions.
    Second, we were able to build upon lessons learned from 
both the successes and the disappointments of earlier arms 
control experience.
    Third, the end of the cold war as we knew it improved some 
security considerations, such as reducing the possibility of a 
large land war in Western Europe.
    Fourth, the collapse of the eastern bloc brought greater 
access to what were once incredibly closed regimes, and reduced 
the necessity for such heavy reliance, often solely, on 
national technical means of verification. Indeed, political 
change has given us new sources of information which often 
multiply the value of our National Technical Means (NTM).
    Fifth, the threat of Iraqi weapons of mass destruction in 
the Gulf War generated greater support for a hard-nosed 
approach to nonproliferation here and abroad.
    Sixth, the conjunction of the collapse of the Soviet Union 
and the defeat of Saddam Hussein created, at least for awhile, 
much stronger international support for American leadership and 
the American view of how to proceed. It was in that period that 
we concluded the Chemical Weapons Convention.
    Seventh, we could build upon and learn from the experience 
of the U.N. special committee and the enhanced IAEA challenge 
inspections in Iraq.
    Eighth, although no technological silver bullet permits us 
to monitor all chemical weapons activity with confidence, some 
improvements, including new forensic techniques, continue to 
appear.
    And ninth, and I hope Senator Biden understands this, we 
really were prepared to walk away from this treaty if we didn't 
get what we wanted.
    Senator Biden. I never had a doubt about that, Mr. Lehman.
    Mr. Lehman. This negotiating from strength was very helpful 
in getting the provisions we wanted, including in the area of 
verification. The real problem initially was to know exactly 
what we wanted.
    Early on, it became clear that NTM alone could not do the 
job. At the same time, even as political pressure built upon 
all nations to accept the traditional U.S. approach of more 
intrusive onsite inspection, our studies indicated that 
inspections were not magic, either. Worse, existence of 
inspection regimes could raise false expectations of the 
effectiveness of constraints and, if improperly done, the 
inspections themselves could produce false positive or negative 
results while endangering proprietary and national security 
information.
    Many of us who raised these concerns throughout the 
negotiating process, or the specific concerns we raised, are 
often cited in opposition to the convention. What is important 
to understand, however, is how we address the problems, and why 
we can support the convention on its merits.
    Again, we begin with the understanding that monitoring most 
CWC activity is a major challenge. In the past, we relied upon 
a comprehensive deterrence strategy which included as one 
element the ability to respond in kind with chemical weapons.
    That element is no longer realistically available to us, 
not because of the treaty, but because the United States, both 
Congress and the executive branch, including the military, no 
longer desire to keep its offensive chemical weapons 
capability. Thus, unlike so many other arms control agreements 
such as INF, START, or CFE, we are not directly constraining a 
military capability we would otherwise retain.
    This is an important part of the verification 
consideration. Let me explain. Verification has always involved 
more than estimates of the likelihood that a specific, 
prohibited act could be monitored by NTM. The intelligence 
community likes to remind you that they do not make 
verification judgments. They make monitoring judgments. They 
take great professional pride in that point. It involves a 
calculation of risks and benefits.
    At the beginning of the administration of President Ronald 
Reagan a review was conducted of how we should approach arms 
control, including verification. A view had emerged among many 
in the arms control community that verification of a nuclear 
treaty would be sufficient if the overall military balance 
could not be altered by cheating.
    The problem was that some of these same people expressed 
the view that no amount of inequality or cheating could upset 
the nuclear balance. The implication of this, thus, was that no 
treaty could be insufficiently verifiable, except, said some, 
perhaps at or near zero.
    President Reagan, who recognized that absolute verification 
was not possible, wanted a different approach which would serve 
better the national security of the United States and his 
strategy for countering totalitarian regimes. The new, stricter 
approach to verification took into account a far wider range of 
considerations than just the state of the overall military 
balance.
    Military significance remained at the core of this 
approach, but more based upon standards of equality, stability, 
and specific benefits and risks. More attention was to be given 
to details, including insistence on detailed verification 
provisions actually within the treaties. Emphasis was placed 
also on the interaction of restraints, and the clarity of 
draftsmanship.
    An analysis looked at the incentives to cheat, the 
alternatives available to us and to the cheater, and the prices 
paid or the gains made, including those associated with greater 
access on both sides.
    It stressed that intelligence estimates should not be 
politicized, and that we should be honest about monitoring 
confidence of specific provisions of the treaty. It also took 
into account the important questions of deterrence of cheating 
by generating the fear of discovery, deterrence of any attack 
through strong military forces, the existence of defensive 
measures, and the enhancement of compliance enforcement when 
you find a violation.
    What does this mean for the CWC? Clearly, it meant that the 
CWC was going to take a long time to complete, and it did. 
Certainly it meant that we would have to develop an approach 
which was intrusive and aggressive to take into account the 
monitoring challenge. Above all, it required that we do more 
than strengthen the international norm. We had to have the 
tools and the mandate to put together the support to do 
whatever we needed to do, including the use of military force 
in coalition or unilaterally to deal with violations.
    To the soldier who is wounded by it, every bullet is 
militarily significant. The same is true of the use of gas 
against our forces, even if it does not deny us victory. A 
violation is a violation to be punished and corrected. The CWC 
was designed to get more of our allies and other nations to 
join with us and to support us. That is, to build upon and go 
beyond the experience with Iraq.
    With this background in mind, those who oppose U.S. 
ratification of the treaty need to address some important 
questions. Why should we make it easier for others to use 
chemical weapons against us? With the inherent difficulties in 
monitoring chemical weapons activities we need all the help we 
can get.
    We do not have the highest confidence that we will detect 
cheating, but the cheater must still worry that we might. 
Should we deny ourselves the strategic warning that comes from 
the detection of indications of chemical weapons activity, even 
if there is not complete proof?
    And then, why should we let it be legal for rogue states to 
accumulate CW which, if discovered, is then not considered the 
basis for tough action because it is legal?
    These are some of the many questions which must be 
considered.
    Mr. Chairman, in my previous statement to the committee, 
which I have again made available, I discussed the work we did 
in dealing with the balance between intrusive inspections to 
deter cheating and the measures necessary to protect sensitive 
information.
    Today, I would simply like to add that the tradeoffs 
between the two are not a zero-sum game. We discovered in our 
many studies and trial inspections that, although there will 
always be some tension between the two, we could find measures 
which would enhance one without too much cost to the other.
    Also, I would like to add that our experience with Iraq 
continues to point the way to better ways to implement 
inspections. It is a contest between skills and tools on the 
part of the inspectors, and in evasion techniques by the 
proliferators.
    What we have learned is that as we gain experience, and as 
we learn more and more about legitimate activities for 
comparisons, we have gotten better and better at ferreting out 
the discrepancies, the inconsistencies, and the outright lies 
of those concealing a program. As technology improves, we may 
get additional help.
    Having Americans involved in the experience was essential. 
With respect to the CWC, we need to continue to take the lead 
in strengthening enforcement. The time has come to give us the 
tools and let us get on with the job.
    [Mr. Lehman's 1994 statement appears in the appendix.]
    Senator Hagel. Mr. Lehman, thank you, and to all our 
panelists we are grateful for your time this morning, your 
insights, and your willingness to stay a little longer for 
questions. Since it is just my colleague, Senator Biden, and I, 
we have agreed that we will just enter into somewhat of a 
colloquy here back and forth, and we will handle it that way.
    I will begin. General Odom, would you go back into your 
testimony and elaborate more on some of the specifics of 
Articles X and XI that you referred to?
    We have heard an awful lot about that over the last month 
in testimony, and I know you would probably have more to say 
about it; but there is a legitimate concern about transfer of 
technology and what exactly does X and XI say and mean, and 
whose interpretation, and I would be interested in your 
clarification of those areas, since you brought it up in your 
testimony.
    Specifically, we have heard a lot about reverse engineering 
and that transfer. How deep does that transfer go, in your 
opinion?
    General Odom. Let me just say first, I do not claim to be 
the great expert in this, but I have read it and took it for 
what it seemed to mean, and I began to conclude fairly quickly 
that, as I said in my testimony, that if you are required to 
share all the information, information concerning means of 
protection against chemical weapons, part of the means of 
protection against chemical weapons requires knowledge of what 
they are.
    When I was Chief of Army Intelligence, one of the major 
concerns in collecting information for our defensive 
production, production of defensive equipment such as MOP 
suits, gas masks, et cetera, was to know what the agents were 
and to understand the chemistry of the agents; and, therefore, 
if you are going to develop effective defensive means, it 
requires the leading edge knowledge of offensive means or you 
cannot produce them.
    Therefore, it would seem to me that were I a signatory 
under this I could share knowledge of the leading edge 
technologies in offensive weapons with anybody, even to the 
degree I am obliged to do so.
    And then when that crossed my mind I said, well, who makes 
the judgment; and it appears in the treaty that it is up to the 
signatories, so any signatory can decide with whom he shares 
what information, as long as he can make the argument that it 
is in the spirit of information concerning the means of 
protection against chemical weapons. It would be hard to take 
issue with him.
    And as I said in my testimony, the kinds of information 
that you will be most concerned about from a defensive point of 
view are the most vicious and threatening offensive things. 
Therefore, the incentives would seem to be to cause the spread 
of knowledge about those most advanced and threatening 
offensive means and to pay less attention to the less 
threatening ones.
    From that, it seems to me, as very often is the case in 
public policy, the intended consequences turn out not to be 
those we anticipated; but we end up getting a very perverse 
consequence that was almost impossible to foresee.
    Senator Biden. Can I ask a clarification?
    Senator Hagel. Senator Biden.
    Senator Biden. General, assuming you are correct on that, 
if we are not a signatory to the treaty, the same thing 
happens.
    General Odom. Absolutely.
    Senator Biden. I mean, whether or not we are signatory of 
that treaty is not--and what you are talking about here is the 
motivation of the countries in question who are in the treaty 
and we have to assume, in order to reach the conclusion that 
you have reached, that the countries that have this advanced 
technology, most of whom are our allies, are going to want to 
spread this technology around that we do not want spread, 
right?
    General Odom. And I assume that, and I also assume that our 
chemical companies are going to want to do that; and I suspect, 
I do not know, that may be why they are for the ratification of 
this, so that I think if you are talking about other hidden 
land mines of unintended consequences, this brings us right to 
that one.
    Senator Biden. Well, General, it says the States Parties. 
It does not say XYZ company. We are attaching a condition that 
everyone is at a disadvantage in this regard.
    Senator Helms and I have been negotiating, our staffs for 
the last couple of months, and one of the conditions is going 
to be, if and when this treaty gets to the floor, will be that 
the United States will declare up front that it will only 
transfer--it will only--it reads, the paragraphs in question, 
as saying that it can choose what to transfer, and it will, if 
it transfers anything, only transfer that which has some 
medical--what is the exact term of art?--antidotes and medical 
treatments capability, so that no American company is going to 
be able to go and transfer that material.
    I understand your concern, but I think it is one that it 
seems as though the negotiators took into consideration when 
they were drafting the treaty, but I may be mistaken about 
that. I do not know.
    General Odom. Senator, let me respond to that. As I said in 
my testimony, I think you can take each one of these issues out 
and make very good arguments that seem to allay the fears, and 
as you have allayed the fear on a particular one out of 
context, you can easily--if I want to go down the list I can 
bring up others, and we get into sort of an infinite regress 
here.
    As I said, I came to this thing saying basically it is all 
right. I would even say today that I would not get upset if 
this treaty would go into effect with no verification regime.
    You know, I just do not see why we should have this, when 
we know--when you and I are agreeing that it is going to have a 
triv- 
ial or maybe even perverse effect; and I would be willing to 
stand up with those who are against chemical weapons.
    So, I have said earlier, I think this is a misconceptual 
approach. We have asked the negotiators to do a task that 
cannot be done. It is sort of like asking somebody to reach the 
wall by going half the remaining distance. By definition, you 
never get there.
    Therefore, I think we are applying an arms control solution 
where it simply is not conceptually appropriate. It makes us 
feel good. It is hard to be against it in spirit, but when I 
work my way into it I am inclined to say this really is not 
very compelling.
    Senator Biden. General, as usual your integrity and 
intellectual rigor are always apparent. It seems to me this is 
the division, the dividing line, between those who support the 
treaty and those who do not, and that is not so much whether 
any of these provisions are as dangerous or as bad as critics 
say. But it seems to me as I look down the dividing line it is 
people who say: Look, bottom line is you cannot have a treaty 
relating to chemical weapons or biological weapons, ergo I am 
against the treaty, notwithstanding the fact you can give me an 
argument on each of my criticisms.
    I think that is a legitimate, intellectually defensible 
position, one with which I disagree; and it comes down to where 
we are better off.
    But I think when you cut through it, when you and I cut 
through it all, in my view most of the criticisms, specific 
criticisms of the treaty, have specific answers that are 
specifically--I am not saying you agree with this--in my view--
but the bottom line that separates 95 percent of those who fall 
on for or against is this issue of, it starts with--and it is 
not your view or my view; it is my understanding--that we have 
never lost a war or won a treaty.
    I might add, by the way, you laid waste to that old saying 
when you did START; because if we did not win that treaty I do 
not know what in God's name anybody would consider not having 
won.
    Then it goes from there, I think, General, to people who 
say: Look, you just cannot deal with chemical weapons, period. 
And if you adopt that view--and I respect it; I disagree with 
it, but I respect it--then all these other things kind of 
become irrelevant, and you kind of fall from one side or the 
other of that spectrum, it seems to me.
    General Odom. Can I add one more point on the logic of 
this? And I do not mean to be just scoring debating points, but 
I am sure you are very familiar with the Luddite movement of 
the 1830's.
    Senator Biden. Yes, smash the machinery.
    General Odom. Right, stop technology, put the lid on it. 
One of the things that struck me--I have a colleague at Yale 
today who has just done a little paper, Martin Shubick, showing 
that the price of killing people is going down. He has done 
some calculations, and it happens to be in the BW and CW area 
that this calculation turns out to have great effect.
    This whole technology area is not standing still. It is in 
a state of rapid change.
    Senator Biden. See, that is why guys like me and guys like 
Lehman would argue you have got to get in it. That is the very 
argument why we have got to get in it.
    General Odom. Well, but to get in like Ned Ludd is not the 
way to get in. We need to get in in a way to recognize that it 
is dynamic and that we are probably not by statutory means or 
by international agreements going to be able to contain it.
    I am not saying we ought not to do something about it, and 
I have said I am prepared to sign a treaty, support a treaty 
that puts us on the right hand of God in this regard. But when 
you get into the details of whether this really delivers 
anything you promised, it is hard to be convinced.
    Senator Biden. I thank you, General.
    I am sorry.
    Senator Hagel. No, I think when we have got just a couple 
of us we can jump in and do this.
    Senator Biden. Mr. Lehman wanted to say something.
    Mr. Lehman. Mr. Chairman, if I could just make a point 
here. I agree with Bill Odom that we have got to watch the 
implementation of each and every provision. I am not privy to 
what the negotiations are on these various conditions and 
understandings, but anything you can do to reinforce where we 
were going with this treaty we would certainly appreciate.
    But I would like to make a comment about the Article X, 
Article XI situation, just some general remarks; because it is 
an important question of subsequent practice, what do we do.
    Senator Hagel. I would say incidentally, Mr. Secretary, 
that this is one of the key elements of the discussion of the 
convention in question, and my guess is if that is not resolved 
in some way here this convention is not going to be passed.
    Mr. Lehman. Well, I hope you can resolve it. I like to 
think we resolved it in the negotiations, and let me explain 
why. The issue of assistance--both these issues are not new--
they came up fairly early. In fact, assistance was, I think, in 
the initial draft that we tabled back in 1984. So these were 
not new issues.
    We made it very clear throughout the negotiations that all 
of this was subject to Article I, which is the fundamental 
obligation not to assist. So we reiterated that again and again 
and again.
    But the most important, I think, telling factoid in support 
of the U.S. interpretation is the fact that after the 
convention was done so many of the usual list of suspects were 
so unhappy that they did not get what they wanted in these 
provisions. That is why I wish the critics would be a little 
more careful about asserting that they did get what they 
wanted, because they did not.
    Now, if you can further strengthen that, then God bless 
you.
    Senator Hagel. Thank you.
    I would like to stay with you, Secretary Lehman, on another 
issue. We heard an awful lot of conversation last month, and 
appropriately so, about how do you really deal with the 
uncivilized nations that we refer to as the rogue nations, 
those who are most unlikely to sign this--North Korea, Syria, 
Iraq, Libya.
    Does that give us, if we would ratify this convention, a 
leg up, a moral high ground? I mean, does it give us more 
ability, better ability to deal with those nations? I mean, we 
know from 1925 on we have had the Geneva Convention and other 
treaties, conventions, agreements. But when you are dealing 
with uncivilized nations, they will resort to uncivilized 
means.
    I think that is an important part of the dialog here. 
Incidentally, I appreciate very much your opening comments 
about information, because that is what this should be about. 
This should not be about Republican-Democrat, conservative-
liberal. This should be about doing the right thing for this 
country. So I appreciate very much your thoughts.
    Mr. Lehman. Well, I will tell you, on rogue states we have 
such a record of successes and failures that I can package them 
any way you want. But I will tell you what I personally think, 
which is there comes a time when you simply must not tolerate 
this sort of thing and you must take action. And if other 
nations will join you, as they did in the case of driving 
Saddam Hussein out of Kuwait, then that is what you have to do. 
If you have to act alone, as we did in the case of Libya, you 
do it.
    You have got to make sure that the rogue states understand 
that there are severe consequences of their actions.
    Again, let me echo Bill. I was in the Pentagon when, in the 
very last month of the Reagan Administration, we had the CW use 
conference in Paris. Our position was--you name Iraq--but you 
know, the foreign policy people were all divided over that, the 
allies were divided over that. We did not name Iraq.
    My view was that was a big mistake. My administration made 
it. I was a part of that administration. I opposed it, but we 
did it. OK, we are guilty, too.
    There is a consequence to that, and the consequence was 
that this policy of sort of constructive engagement with Iraq 
because Iraq is this viable Arab country of the future led us 
to too often keep a low profile on the enforcement question. As 
a result of that, we ended up having a war in which we could 
have faced these weapons, and there is still some debate of 
what the consequences of the weapons existence was.
    I think you have to take a strong stand. I will tell you 
right now, Bill alluded, I think, to Korea.
    General Odom. No.
    Mr. Lehman. I thought I heard you say Korea. But anyway, I 
have got Korea on the brain, I guess.
    General Odom. Assume I did. It is all right.
    Mr. Lehman. Maybe I read something you said some time back 
on Korea. But in any case, I will not attribute anything to 
Bill any more.
    In the early days of this administration, they did in 
essence what we did at the Paris CW use conference, on not 
supporting the IAEA suspect site inspections on Korea. Indeed, 
we had people backgrounding that--what a terrible thing it 
would be if North Korea were to withdraw from the NPT--and 
therefore we could not do anything to rock the boat.
    What we were sending was the signal that we would rather 
have a violator stay in the treaty than hold them accountable 
for their violations. It was a terrible thing to say. It has 
continued to complicate our nonproliferation policy. I am 
hoping that the administration has moved beyond that. Things 
are developing in North Korea. Some things are not under our 
control. Maybe it will all work out fine.
    But I think we made some mistakes. We can learn from those 
mistakes, though, and move on, and that is what we ought to be 
doing.
    I think in the CWC have got additional tools and we ought 
to use them.
    Senator Hagel. Thank you.
    We have been joined by our colleague Senator Kerry from 
Massachusetts. What I think I will do is go back to a 7\1/2\ 
minute time level so that everybody gets a fair shot at this, 
and I do not know who else may come.
    Would you defer to Senator Kerry?
    Senator Biden. I interrupted him in asking a question.
    Senator Hagel. Senator Kerry.
    Senator Kerry. Thank you, thank you. Thank you, Mr. 
Chairman.
    Welcome, gentlemen. Thank you for taking time to join us 
today.
    It is my understanding, Mr. O'Malley--correct me if I am 
wrong, because this is just a staff summary, and I was not able 
to hear you. But your principal objection I understand is on 
the issue of corporate secrets, trade secrets, intrusive 
inspection; is that correct?
    Mr. O'Malley. Yes.
    Senator Kerry. Help me, if you would, to understand that. I 
mean, we have got an industry that obviously has a lot at 
stake, the chemical industry, correct?
    Mr. O'Malley. Yes.
    Senator Kerry. The chemical industry itself supports this 
treaty. These are the people that are going to be inspected. 
The Synthetic-Organic Chemical Manufacturers Association, the 
Pharmaceutical Research and Manufacturers Association of 
America, the Biotechnology Industry Organization, the American 
Chemical Society, the American Physical Society, the American 
Institute of Chemical Engineers, the Council for Chemical 
Research, they all support it.
    They even went to the extent of creating seven test 
inspections to determine how it really worked and what the 
threat to them might be. In addition to that, they have the 
right to object to any particular inspector coming in that they 
suspect of espionage or have reason to believe might spy.
    What is it that you know that they do not know?
    Mr. O'Malley. Well, I am not sure what I know that they do 
not know. In my opinion, though, the kinds of companies that 
might be affected by this convention transcend the chemical 
companies that you just spoke about. I have an equal number of 
letters from different kinds of associations, the aerospace 
industry and others, which express serious concerns about the 
Chemical Weapons Convention as it relates to industrial 
espionage.
    Senator Kerry. Well, are they going to be inspected?
    General Odom. Yes.
    Mr. O'Malley. Yes.
    Senator Kerry. By virtue of a challenge, conceivably, 
correct?
    Mr. O'Malley. Conceivably.
    Senator Kerry. But the challenge requires an appropriate 
showing. First of all, there is going to be a guarantee, 
because we are going to even--I think, with Senator Biden's 
leadership--go further on the search and seizure to guarantee 
our constitutional rights. Is that correct, Senator Biden?
    Senator Biden. That is correct, we are going to have a 
provision requiring probable cause be established before a 
Federal judge to get a search warrant.
    Senator Kerry. Would that change your feeling about it a 
little bit?
    Mr. O'Malley. It would be helpful, but I am not sure that 
that would be totally significant in terms of protecting the 
intellectual property.
    Senator Kerry. Well now, you know that there is a 
compartmentalization capacity with respect to inspections. The 
only thing that is available to be inspected are those things 
that are directly shown to be with respect to possible 
production of chemical weaponry.
    In fact, you are allowed to set up a procedure where you 
actually close off or avoid any penetration of those other 
areas where you may be doing something that is not involved at 
all with chemicals.
    Mr. O'Malley. Hopefully those procedures would work and 
would be effective.
    Senator Kerry. But is it not significant that the industry 
itself believes they will work and supports the treaty? Is that 
not significant?
    Mr. O'Malley. Well, again, I do not know what the 
motivation of the chemical industry is in this regard. I can 
only speak of industry representatives that I have spoken to in 
connection with the Economic Espionage Act of 1996, and they 
have severe concerns about their inability to protect their 
secrets, security or not, against professional foreign 
intelligence services.
    I mentioned earlier this list of national critical 
technologies which the FBI is charged to protect, and it is 
very, very broad. I think if you read this list and compare it 
with the chemicals identified in the convention you will see a 
nexus between those chemicals and the companies involved in 
these technologies.
    Senator Kerry. Well, let us try to go again to the reality 
of this. Are you aware of the limitations on challenge 
inspections that could be conducted in any 1 year in this 
treaty?
    Mr. O'Malley. Yes. If I may, though, you mentioned earlier 
that the United States or whatever country is involved in terms 
of inspection could object to the presence of an inspector 
which they had reason to believe might be an intelligence 
officer.
    Senator Kerry. Right.
    Mr. O'Malley. Well, that is much easier said than done. It 
is not all that easy--it might be easy to identify an 
intelligence officer, but it is significantly more difficult to 
identify an agent of that officer. In other words, if I were an 
intelligence officer I would try to recruit a chemical engineer 
who might be appointed to be a member of this inspection team.
    Senator Kerry. But the point is if you do not have 
confidence in the person coming in you can peremptorily just 
not let him in. You are only going to let people in you have 
confidence in, number one.
    Number two, under the budget, under the budget when this is 
running at full tilt in 3 or 4 years, it is anticipated that 
the most you would be able to have is conceivably two challenge 
inspections per month, approximately 20 to 25 globally, 
globally. Will you explain to me what the potential threat 
ultimately to the United States is of that kind of rate of 
challenge?
    Mr. O'Malley. Well, you have got the challenge inspections 
and you have got the routine inspections. I would not 
distinguish between the two of them in terms of the ability to 
collect proprietary information.
    Senator Kerry. But the routine are as to a more limited 
kind of grouping of entities.
    Mr. O'Malley. Exactly.
    Senator Kerry. More clearly defined.
    Mr. O'Malley. What I am suggesting is an inspector does not 
have to go into a company and get the total take as to what 
that trade secret might be that would be helpful to the person 
who had recruited him. There are bits and pieces of information 
that can be acquired over a period of time that might add up to 
a significant whole at some point in time.
    Senator Kerry. So in essence--OK, I follow you. In 
essence--I need to cut you off there simply because I 
understand what you are saying. I want to be able to ask 
General Odom something. But I sense--in essence, I mean, to 
sort of reduce it to its lowest common denominator--you are 
seeing the potential for some goblins and in effect others 
directly involved are not concerned about it. And we just have 
to weigh, is your sighting of this potential goblin weighty 
enough to reject the treaty or is the sanguinity, if you will, 
of the industry itself and those who will be inspected to be 
taken at greater value? And I think that is the issue we have 
to measure.
    Mr. O'Malley. Two points. Number one, I would not label 
them goblins. We are talking about the real world here, and to 
label them goblins seems to diminish the seriousness of the 
threat.
    Senator Kerry. I believe in goblins.
    Mr. O'Malley. Well, I do not.
    Second, I mentioned earlier in my testimony that those who 
are charged with making the strategic decisions regarding this 
particular treaty ought to make that decision with a full deck 
of cards, that it ought not rise or fall on any 
counterintelligence concerns expressed by me or anybody else, 
but they ought to be considered in the total context of all the 
problems that are being considered by the policymakers.
    Senator Kerry. Sure. I respect that. And when I say I 
believe in goblins, I believe there are nefarious types out 
there clearly who want to try to push the envelope. You have to 
be on guard about it. But I suspect we would be.
    Senator Hagel. Senator Biden.
    Senator Biden. Mr. Lehman, comment on what Mr. O'Malley had 
said, please.
    Mr. Lehman. I agree with him that these are not goblins. 
There is a real problem. But it is hard to imagine any issue we 
spent more time on than this question of how do you balance 
intrusive inspection with the risks of losing national security 
or proprietary information.
    A lot has been said on it. A lot has been said before. But 
let me try to bring maybe some new twists or perspectives on 
it, just taking into account what has been said. First is, we 
ultimately came to the conclusion that there was a risk with 
the inspectors, but it was not the biggest risk. So I guess 
there I have not seen any study that says that is the big risk.
    In fact, what I think we have gotten from industry is, and 
of course what the national security community has found, is 
that turncoats in your own system can do a tremendous amount of 
damage. An inspector who comes in, who is escorted, who has got 
rules, people are watching him, yes, he is bright; if he is 
recruited, he can do some harm. But at least you have got a 
feel for the problem.
    If you have got a turncoat inside your system, be it 
business or the intelligence community or in the military, you 
have got a real problem.
    Senator Biden. By the way, when I speak to these guys who 
run these companies that is what they say. They would much 
rather have the guy coming in in a team, as part of a team, 
with the ability to have these management agreements and 
facility agreements before they come in. If they were given a 
choice of that or somebody coming in, either literally breaking 
in, nefariously getting in, or be a turncoat within, there is 
no question which side of that equation they would pick taking 
their chances on.
    You know it, because it is your business. That is how you 
make your living, helping these guys prevent against the last 
two categories. They would much rather have this than that.
    Mr. Lehman. I said ``turncoat,'' but it is even a worse 
problem than that. It is not even the question of the person 
who is completely dishonest. It blurs into this whole question 
of loyalty to your company, when do you change jobs, what 
information do you take with you. It is a very complex area.
    I share the analysis on the importance of proprietary 
information to our leadership in technology. What I am saying 
is this is not the big problem. We think we know how to handle 
this. There are risks, but we think we worked that.
    The other point I want to make is this. When we first 
started getting involved, first with the national security 
community and then with the national security community, on 
this question of intrusive inspections, some strange things 
happened. For example, they would say: We think it would be 
dangerous to have an inspector come to a certain place. OK, 
why? Well, they could learn all of this. OK, what keeps a spy 
from coming to that place right now? You would be amazed the 
number of times the answer was: Nothing. That in fact the 
interaction between the negotiating process having to do with 
these inspections and their intrusiveness helped the 
counterintelligence community in some cases and helped industry 
begin to understand that they had some problems that they 
needed to deal with--with or without the CWC. They still need 
to do a lot of work.
    Whatever you decide to do in the Senate on the CWC, you 
need to keep that process going of having the government 
experts, including the intelligence community, find some way to 
work with industry on this problem; because it is a serious 
problem.
    Senator Biden. Mr. Secretary, the irony is that the 
corollary to ``this will lull us to sleep,'' which is a 
concern--I think it is the most legitimate argument against 
this treaty in my view, is we will get lulled to sleep and not 
have to expend the dollars, the effort, in implementing and/or 
in continuing our efforts on countermeasures to deal with 
chemical weapons use.
    They are the two greatest--I think they are the two from my 
perspective most legitimate objections to this treaty. The 
corollary to that is, or the irony is, were it not for this 
treaty, were it not for this debate, companies would not be 
doing 80 percent of what they are doing now. All of a sudden 
everybody is figuring out: Whoa, wait a minute, this 
spectrometer guy who walks in, that guy does not have to be 
part of a team. He can stand outside that company gate right 
now.
    All of a sudden what has happened is this has sort of 
awakened, in my view, the outfits I am familiar with--the 
chemical companies, the biotech companies, the pharmaceutical 
companies. My colleagues know a lot about what their 
constituencies do, because we have to learn. After 24 years, I 
have learned about those companies. They are waking up. It has 
been a wake-up call to them unrelated to the treaty.
    One of the issues, though, that is raised and in the 
remaining time I would like to get to, my remaining few minutes 
here, is this issue people do think is very significant, and 
that relates to the intelligence capacity of the United States 
to detect cheating or anyone to detect cheating, and what 
constitutes militarily significant.
    If I am not mistaken, I remember it was during--I suspect 
you may be responsible for it, although I do not know that for 
certain. We went from the notion in the Carter administration 
of ``adequately verifiable'' to ``effectively verifiable.'' The 
terminology changed and so this debate about ``effectively 
verifiable,'' what constitutes effective verifiability.
    One of the things--and the intelligence community and two 
members of our CIA are here today if we need them for any 
input, are in the audience, who deal with this issue. The Joint 
Chiefs have testified on this. So you are going to hear a lot 
of debate, as I need not tell you or you, General Odom, about 
this issue of what is effectively verifiable.
    But it is a big deal what we determine. What we think is 
effective, each of us individually determines whether or not we 
think this is a verifiable treaty or whether we should vote for 
it, at least as it relates to verifiability.
    I want to talk about this notion of military significance. 
By the way, Shalikashvili said one ton. What he was talking 
about with one ton, he was talking about political impact and 
terror capability, not militarily significant. Everybody talks 
about the Joint Chiefs saying they have established that one 
ton, if you cannot detect one ton, up to one ton, then this is 
not effectively verifiable. The Chiefs never said that, but we 
will have to deal with that on the floor. I know you both know 
that.
    One of the things that I get, I think we get confused about 
and what confuses the public--and I am diverting slightly here 
to make a larger point, trying to make a larger point or get to 
a larger issue--is you asked the rhetorical question, Mr. 
Secretary, why after all these years do so many people know so 
little about this treaty? I think it is for two reasons.
    One, those who are for it basically assume there is 
inevitability. This is going to pass, because hard-nosed 
administrations had ne- 
gotiated this thing. Therefore there was sort of a credibility 
given. I mean this sincerely. I think this is why. I think this 
is the answer.
    Second, those who are against it are usually those against 
any treaties. Therefore, it is just kind of like there is 
inevitability.
    Well, everybody has forgotten, there is no inevitability to 
this thing passing, so now people are focusing for the first 
time, and our colleagues understandably do not know a lot about 
it, because they have not, other than those who are involved in 
it, they have not focused on it a lot.
    Now, if I may, can I ask the question? I appreciate the 
time.
    So we get down to this verifiability issue and what 
constitutes effective verification, and we hear talk from our 
witnesses, not today, not from the General, but from many 
witnesses we have had, and people use phrases like: well, one 
vial, one vial of chemical weapons, and so on, and one ton. And 
one ton sounds--God almighty, one ton of a chemical weapon 
obviously can win a war, they think.
    What I want to talk about is the distinction between a 
tactical advantage that could be gained by the use of an agent 
and a strategic advantage that could be gained by, say, the use 
of up to one ton of an agent. Here is what I want you to talk--
I want you both, General Odom first and then Secretary Lehman.
    If you think about the actual use of these weapons, in the 
Iran-Iraqi War each side used tons and tons of this. They used 
tens of tons of these weapons. And it did not give either the 
capacity strategically to save the day.
    Now, I think it is bad to use in any event. I am just 
trying to get at this part about what constitutes a threat to 
U.S. security if we do not detect it.
    I would also point out that we have hundreds of thousands 
of tons, we and the Russians. Now, the reason why our military 
felt there was a need to have more than a ton, or 10 or a 1,000 
or 10,000 tons, is because I assume we concluded that one ton 
or anything that we possessed did not have the capacity.
    One--one--missile, one nuclear warhead on top of a 
Peacekeeper missile can ruin somebody's day. It can really 
change the dynamic of everything. One ton of chemical weapons--
as the intelligence community tells me, the rule of thumb, 
General, is you are about one ton, one square mile, and it 
dissipates.
    Now, as you said, General, for those troops who are within 
that square mile this is militarily significant. It is big 
deal. And if you have everybody gathered in a soccer stadium, 
it is a big deal. And it is a big deal terror capacity.
    But is it militarily significant in a strategic sense, in a 
sense that our national security or a major portion of our 
capacity in any conflict could be jeopardized by ``a ton''? And 
I realize this is a bit artificial, to be using the ton. But it 
has become almost a mantra among people who are concerned about 
verifiability.
    Can you talk a little bit about the significance of it in 
that sense, General? Assume we could not detect up to a ton. 
And some will argue we could not detect more than a ton. But 
let us just artificially, just for the sake of discussion, 
assume we could not detect up to a ton and countries, rogue or 
otherwise, members of this or- 
ganization who signed the treaty, could develop up to a ton and 
use it. What consequence for you as a military planner does 
knowing the other team had a ton of chemical agents available 
to them?
    General Odom. Well, Senator, you have made in my view one 
of the strongest arguments against the treaty, for making it 
largely irrelevant.
    Senator Biden. That may be. That is why I want you to talk 
about it.
    General Odom. It is sort of in line with my argument here 
earlier. I do not think--if you look at the record, when one 
side has chemicals and the other does not, the probability of 
it being used seems to be much higher. When both sides have it, 
chemical weapons do not seem to be used.
    Senator Biden. How do you explain Iran and Iraq, then?
    General Odom. Well, they did not both have it at first.
    Senator Biden. But they both ended up having it.
    General Odom. Well, but when the Iraqis started out using 
it the Iraqis were in trouble.
    My own experience in learning to use, target chemical 
weapons back when we had them, I was a young armor officer in 
Fort Leavenworth doing map exercises. I became very unimpressed 
with chemical weapons. You do not like them. They are 
unpredictable. There are other ways to blow people away, and 
you would rather have something that is easier to control. So I 
think the more professionally trained military officers are 
likely to be very much against these things.
    When it comes to a ton or even 200 or 300 or 400 tons, I 
think we have certain capabilities. The prospects of keeping 
them from being used in a conflict are very high. And I do not 
see that this treaty is going to affect this much one way or 
another. It does not seem to bear on it. The people who really 
want these weapons are going to get them anyway, and the ones 
right now who are troublesome states are clearly not going to 
be caught up in this.
    Now let me make another point about that there is another 
way to look at this. It is hard to weaponeer these new weapons, 
but there is a lot of new technology emerging. I do not know 
how to judge that. I mentioned Martin Shubick's piece earlier 
that the price of killing people is going down because of 
technological change in this regard.
    It is easy to do that in sort of theoretical calculations. 
Whether or not these new technologies can be weaponeered and 
brought into the battlefield even for terrorist use is an open 
question. So as I said earlier, we are in a period of dynamic 
change and that makes me nervous that anybody can write any 
kind of regime that is going to catch these kind of things.
    That is why I say the spirit of the treaty I have no 
trouble supporting. I just do not understand why one would want 
to strap themselves to this regulatory system and pay the price 
when the probable outcomes of it are trivial.
    Senator Biden. Thank you.
    Mr. Lehman?
    Mr. Lehman. Senator, you often hear people say chemical 
weapons have no military utility. I do not believe that. I 
think they can. During the mid-eighties when we faced the 
Warsaw Pact at the Fulda Gap, I thought it was important to 
maintain a continuum of deterrent capabilities and that a 
modernized chemical weapons component with the binaries was an 
important part of that.
    The world has changed since then. We have alternative 
weapons, advanced conventional munitions. What you saw in the 
Gulf War was that clearly when you ask people who have to deal 
with the logistics of warfare, what is it you need on station 
ready to go, they wanted weapons they knew they were going to 
have to use and they wanted them in large quantities, and they 
did not want to waste space with having a chemical deterrent 
there.
    I remember going through the chemical training facility 
down at Fort McClellan, putting on a suit and decontaminating 
equipment with live nerve agent. I realized I did not want to 
go to war wearing that suit.
    In Vietnam I used to carry my gas mask with me on a lot of 
the types of operations that we went on, and I hated having to 
carry that.
    One of the things I learned out of that experience to me 
was that in today's world it is much more important--it is less 
important that we have chemical weapons than that we do 
everything we can to not have them used against our troops and 
reduce the chances they will be used. But we also have to make 
sure we maintain our defenses.
    On the military significance question, I very much fall in 
the category of those who say, you know, the bullet that wounds 
you is militarily significant. Therefore, we need to have the 
tools that deter the use, and we need to have the will to 
enforce compliance.
    But when you say your example of a ton, what does a ton 
mean? Well, in certain types of scenarios a ton can be very 
important. But remember, we are the United States. It ought to 
make us awfully damn angry, and with the CWC it ought to mean 
everybody ought to support us and we go in and we solve the 
problem.
    Senator Biden. Well, here is the point----
    Senator Hagel. Senator Biden, let me ask this. I want to 
stay on time here, and I am going to ask a question. I am not 
going to take my full 7\1/2\ minutes. I know Senator Kerry 
wants to get back to it. I will get back to you as well.
    What I want to do is go back to you, Mr. O'Malley, and I 
would like you to develop more of your counterintelligence 
insight, background, experience, as to how it relates to this 
treaty. Where are the real vulnerabilities coming at it from 
your years of working in the counterintelligence business?
    Mr. O'Malley. I think, again, the concern that I have, 
shared by certain elements of industry, is in the illicit 
acquisition that this would facilitate, this convention, 
illicit acquisition of proprietary information that this would 
facilitate. It is not the only means, by any stretch of the 
imagination, of acquiring American proprietary information. It 
can be done in other ways, including technical means and the 
Internet and so forth.
    What this does, though, it would give those who are 
desirous of collecting such information another avenue of 
approach. I mentioned earlier this list of critical 
technologies that the Bureau is charged with protecting. I 
might also add that this also could con- 
stitute essential elements of information, i.e., what the other 
side is seeking.
    So there is no doubt at all in terms of what Senator Biden 
mentioned earlier, that any corporation would prefer to have 
someone coming in rather than a recruited agent inside. I mean, 
that is somewhat of a false choice in my opinion. That 
recruited agent inside ultimately happens as a result of people 
coming in and getting to know and have access.
    I am not at all convinced that whatever security measures 
are present in this Chemical Weapons Convention are adequate. 
The primary mission of counterintelligence is to identify, 
penetrate, and neutralize such systems. I can give you a 
specific concrete example of such an instance.
    I formerly represented the U.S. at something called the 
NATO Special Committee, which consists of the 
counterintelligence chiefs of the NATO member nations. We met 
twice a year in Brussels. Security, as you might well imagine, 
was extremely tight. They had all the usual bells and whistles. 
Everyone was vetted as they should be. And we would meet in 
camera and discuss sensitive information.
    Lo and behold, one of our discussions ended up in a 
Bulgarian newspaper. So something was wrong. The secretariat of 
the NATO Special Committee asked for an FBI counterintelligence 
officer. We assigned one to the committee and, lo and behold, 
the secretary to the head of the secretariat was an East German 
agent. None of these security measures were able to identify 
this particular woman, who was a British national.
    So I am not at all convinced that these security procedures 
will be adequate. But if they are, if the government believes 
that these security measures are adequate and in a sense acts 
as a guarantor of these security measures. And if a company 
does lose a trade secret as a result of these kinds of 
inspections, then it seems to me it ought to be fair on the 
part of the government to reimburse that company for the value 
of that trade secret.
    Senator Hagel. Mr. O'Malley, thank you.
    What I am going to do for my colleagues, if this is 
agreeable, I have just been given a note indicating that some 
of our witnesses have some pressing time problems. So what I 
would recommend that we do 5 more minutes each and then allow 
our panel to leave. Senator Kerry, is that fine? We are going 
to do 5 minutes each, and that way the panel can get to their 
other business.
    Senator Kerry. That is fine, absolutely. I have got to go 
to another meeting, too, so I appreciate it, Mr. Chairman.
    Gentlemen, I have been struggling with this since one of 
our earlier hearings, when I went back and read a little of the 
history of the negotiations on this. We had Secretary Richard 
Perle here, former Secretary Perle here. And when Ronald Reagan 
and the administration first proposed this treaty--and they 
were the first ones to propose it--they came up with a concept 
called--you know, they wanted total verification, correct, 
General? I mean, that was the great goal, being really 
intrusive in our verifications.
    So they came up with something called ``anywhere, any 
time.'' We are going to go anywhere, any time. We are going to 
be able to challenge anywhere, any time. That is the only way 
we can be safe.
    Then, whoops, all of a sudden people here said: Un-uh, we 
do not want that. Correct?
    General Odom. Exactly right.
    Senator Kerry. Anywhere, any time? Oh my God, they could 
come into one of our places and look anywhere any time. And so 
we have got to be a little bit smarter about how we come at 
this.
    So the negotiators went to work and did a heck of a job, I 
think, over a period of time. General Scowcroft, whom I have 
great respect for, and General Powell, who this morning was 
before the Veterans Affairs Committee testifying in favor of 
this treaty, many other players of enormous military 
background, intelligence background, national security 
background, clearly with the United States of America's 
security interests at the forefront of their thinking, said: We 
are going to come up with a different scheme. And they did, to 
protect our sort of black institutions, as we call them, from 
being intruded, but to provide sufficient intrusiveness to be 
able to do something effectively with this treaty.
    Now, I sort of see the two of you setting up what I have 
seen my colleagues on the other side of the aisle setting up 
over the last few weeks, which is this Catch 22 situation. You 
come in here, General, and you say: It is not verifiable, it is 
not verifiable enough. We have got to have more intrusive 
verification. But then on the other side, a whole bunch of 
other people are sitting there saying: It is too verifiable; we 
cannot have this, because you are going to get our secrets.
    General Odom. I did not take that position.
    Senator Kerry. I beg your pardon?
    General Odom. I did not take that position.
    Senator Kerry. You do not believe--you think the 
verification is strong enough?
    General Odom. I would vote for the treaty without 
verification. I do not want to vote for the treaty with 
verification. I think the verification is the big flaw in it 
and that you have got a huge regulatory cost you are about to 
strap on American industry. Most of them do not even know it is 
coming. The ones who are in favor of it clearly want some other 
payoff in terms of----
    Senator Kerry. OK, fine, I accept that. It is even easier 
to deal with, frankly, from my point of view. I am happier to 
accept that.
    But you are aware of people saying it cannot be verified 
and that has been a major argument, correct?
    General Odom. That is true.
    Senator Kerry. So is there not a Catch 22 in that? I mean, 
you just go around and around in a circle.
    General Odom. My conclusion is that we should not bother to 
negotiate the treaty. I said in my testimony I think it is a 
misconceptual approach. The poor negotiators have been told to 
take on a problem that defies being managed with this approach.
    You know, I just do not think you can get there from here 
with this kind of treaty. And as I made the point in my 
testimony, I originally came to it believing that it was a 
fairly benign thing and why not support it, it is on the side 
of virtue and why should I stand up in favor of sin? But when 
you get into it you begin to real- 
ize that it has some costs. It probably creates some illusions 
and, it just very well could produce a lot of unintended 
consequences that we cannot fathom at all.
    The length of the treaty was the first thing that raised my 
suspicions. I have sort of a little rule: The length of the 
treaty is related, inversely related, to its effectiveness.
    Senator Kerry. You do not believe that that spells out the 
obligations and crosses the t's and dots the i's so that people 
really are held accountable?
    My light is going to go off in a minute. I want to ask you 
a comparative question here.
    General Odom. Also, back on the early one when you talked 
about the mutual intrusiveness during the Reagan 
administration, I saw that coming and could not understand why 
they wanted to go anywhere any time.
    Senator Kerry. Well, let me ask. I wanted to ask Secretary 
Lehman to respond to what I just asked the two of you and 
simultaneously to answer this question if you would, because we 
keep missing this point. Assuming that the treaty were either 
rejected--Mr. Secretary, if you would answer, I want you to 
answer the specific issue I just raised; but also add to that, 
would you please, what are the implications for the United 
States at this moment in time, where we now have 74 nations 
that have ratified it--it is up--where we now have 160 or so 
have signed it, we can anticipate that if we and Russia come on 
board a whole lot of other people are going to, what are the 
implications with respect to any possibilities of renegotiating 
it, changing it, going back and fixing it in terms of other 
countries, given the date and given the momentum of what will 
take place here? If you could comment on both.
    Mr. Lehman. I would be pleased to. Let me pick up a bit on 
what Bill has said about any time anywhere and the Catch 22 
aspect of that. There is a lot of--you know, we all look for 
slogans to describe what we are doing, and ``any time, 
anywhere'' was our way of trying to summarize what we were 
trying to do.
    But clearly, Ronald Reagan's policy was not to go back to 
the old Biological Weapons Convention approach, where you ban 
something and God knows what you do about it, you do your best. 
But rather, he wanted to have treaties that were well crafted, 
that had verification provisions, that gave us some tools.
    I am sympathetic with Bill that I wish the treaty were not 
so long. I am seeing right here in the debate in the Senate one 
of the disadvantages of having long treaties is that you have 
got to read the whole thing over a thousand times, and then you 
have got to debate it, and then you may not yet have gotten it 
right. So for that I apologize.
    But what we discovered was in some cases it was very 
dangerous not to have a longer treaty. You had to lay out 
things. I can give you a lot of examples, but let me go to your 
question and use that to sort of find an example, the question 
of access and intrusiveness in inspection. When Bill says he 
was concerned about this ``any time, anywhere,'' well, he was 
not the only one. Ronald Reagan was, too. So the NSDD that was 
drafted that implemented this said: Any time, anywhere, but by 
the way you have got to protect national security information 
and proprietary information; go figure out how, with some 
general guidelines.
    This notion of managed access was inherent. We did not 
invent the phrase until later to bring some people together, 
but it was clear from the beginning you were going to have to 
balance these factors.
    Also, take the question ``any time.'' What we really wanted 
was to get to a site quickly. The more we did studies, the more 
we discovered several things. One is some things that they hide 
at a site, you cannot get there fast enough; it is going to be 
gone. It will be gone in seconds or minutes or hours, but 
certainly before your plane gets there.
    On the other hand, there were other things it might take 
months to get rid of, or maybe never, at least not in any human 
lifetime. So we had to balance all of that.
    Then there was this question of intrusiveness. I think we 
could have simplified that, but we did not. The reason we did 
not is that the intelligence community and the defense 
community wanted more details spelled out in the treaty to give 
them specific hooks and rights. And since I did not think we 
could get this treaty through the Senate without making sure 
that it met their standards, we negotiated to get what they 
wanted into that treaty.
    So a lot of that length is what the intelligence community 
and the defense community wanted to protect themselves. That is 
why all of that is in there.
    Now, the implications of what happens if you do not ratify. 
Well, you heard a lot of discussion of what it will mean for 
nonproliferation. I think that is the important thing. We are 
going to lose a lot of leadership.
    There are some issues that will undoubtedly occur that 
people will mention that I think are important, but we ought to 
know them for what they are. A lot of people out there, the 
rogue states, the usual list of suspects, will use this as an 
excuse to do what they want to do anyway and we will just make 
it easier for them. But I do not think we ought to excuse it, 
no matter what we do.
    Businesses will sit there and realize that if you try to 
renegotiate you are probably going to see a number of our good 
friends who are these very economic competitors decide they do 
not want to negotiate; because, frankly they do not care if we 
are in the treaty, because if that means more production goes 
overseas to their countries and out--hey, you want to 
negotiate, fine. But I do not think they are going to want to 
fix this quickly.
    Senator Kerry. That is because they have an advantage 
written into the treaty.
    Mr. Lehman. See, the problem is that, because the U.S. 
wanted to try to promote universality, you have this provision 
that limits certain types of trade. You can look at the near-
term costs, and you can dispute how much are direct and 
indirect costs, and it all gets kind of subjective perhaps. But 
the real reality is there, is that a lot of sharp-pencilled 
businessmen are going to understand that they start moving 
production around to take advantage of this treaty.
    There are a lot of factors like that. But I will tell you 
what my concern is. I am a national security person. My point 
is this treaty gives us a lot of useful tools. John Deutch says 
it, Jim Woolsey said it, George Tenet says it. We know that. I 
think what we got out of the treaty was these very important 
tools, and we want to use them.
    If you follow Bill's logic, which I can respect, which is 
basically the bad guys are going to try anyway and you are not 
going to guarantee you are going to be able to stop them; his 
real argument then is he says: I would go with the treaty, but 
without the verification.
    So what is the real issue? The real issue is are these 
tools worth the costs? And I think that is a legitimate 
question, and I think people can come out, reasonable people 
can come out on a different point. What I am finding 
fascinating is, though, that this is not a new issue. We 
thought we had addressed those costs. We thought we had driven 
up the benefits and driven down the risks and costs, and 
sometimes it sounds like nobody heard us.
    Senator Hagel. Secretary Lehman, thank you.
    Senator Kerry. Thank you, Mr. Chairman.
    Senator Hagel. Yes, sir.
    Senator Biden.
    Senator Biden. I have a number of questions, but I do not 
know how I could, quite frankly, better summarize where we are. 
You have just said better than I have attempted to say it. This 
really gets down to that fundamental question. I mean, when all 
is said and done, all the talk about verification, all the talk 
about the threat to individual companies through espionage, all 
of that--I am not suggesting people who make those arguments 
are not sincere--but the truth of the matter is it really is 
not about that. It really does not get to that.
    It gets to what General Odom is talking about, just are the 
tools worth the cost? And some believe the costs are much 
heavier, some believe they are onerous, and some believe they 
are insignificant; or in relative terms clearly the benefits 
outweigh the costs, the tools available outweigh the costs we 
have to pay.
    And from my standpoint, when I take a look at all of these 
different scenarios of what it takes for the worst case to 
happen, the worst case on the military side is we are in this 
treaty, we are lulled asleep, one of the signatories, the 74 
nations, is able to amass a significant chemical capability 
with emerging technology in such a way that it allows them on a 
battlefield and/or in an open conflict with the United States 
or one of our allies to prevail or enhance their probability of 
prevailing.
    Well, the truth of the matter is an awful hell of a lot of 
things have to happen for that to happen. It is not merely that 
we do not detect one ton or two tons or twenty tons; we do not 
detect the reorganization of their military apparatus; we do 
not detect the fact of how they maneuver; we do not detect that 
they are using protective gear in a different way than they did 
before; we do not detect.
    We would have to not detect a whole hell of a lot of things 
unrelated to whether or not they are making chemicals, in order 
to get into a position where our military circumstance changes.
    With regard to the issue that Mr. O'Malley raises, we would 
have to--one of the reasons, one of the things everybody 
misses, Mr. Secretary, is what you did on this managed access 
piece. Everybody misses that. Everybody misses that this is not 
a matter of being able to come in with 2, or 2 to 15--I met 
with the Intelligence, we all did, with the Intelligence 
Committee last night for 3 or 4 hours, and we went over this 
piece about managed access on these inspections.
    It can be a team of from 2 to 15 people. You have to run up 
a hell of a scenario to figure out other than how accidentally 
some company, who by the way companies now are going to have 
the Commerce Department, with the help of the intelligence 
agencies, teaching them how they would deal with inspections so 
there is transparency with regard to chemical production, but 
not transparency with regard to trade secrets or unrelated 
activities taking place.
    That is a technology, if you will, that will emerge. So you 
have got to come up with an incredible scenario other than pure 
luck to figure out how such a team is going to either cause 
great damage, as was suggested yesterday, by coming out and 
implying the Dupont company is making chemical weapons. You 
have got to have a lot of collusion for that to happen. You 
have got to have a whole lot of things happen of not knowing 
how to manage the access.
    I mean, they are real stretches. They can be done. They can 
be done. It can happen. It can happen. So for me to get to the 
end, I get to where you are. If you look at the tools available 
to us versus the risk we take, I do not even think it is a 
close call.
    Yet I do not, General, sit here and say: You know, this 
treaty is the be all to end all. You know where I end up, Mr. 
Lehman? I end up with your statement from 1994, which I would 
like to ask permission to be placed in the record if I may.
    Senator Hagel. Without objection.
    Senator Biden. I end up at a place where the biggest 
benefit from this treaty and us being in it will be the way we 
will be able to impact on behavioral patterns of other 
countries, behavioral patterns. That is, how it will impact 
on--this new regime will not solve the end of chemical weapons, 
will not prevent clandestine production of them. It will not. 
But it takes a hell of a conspiratorial scenario and a lot of 
luck for it to do any damage in my view, any real damage. And 
on the other hand, it will modify behavior.
    It is a little like what happens--if you want to be part of 
the community of nations that are viewed as civilized and have 
access to a thousand other benefits when you are in that 
economically, you are going to change your thinking. This helps 
change the thinking.
    I will not take the time now to go back and recount your 
statement, but you--actually, do you have that one paragraph--
where you ended your statement by talking about how the mind 
set had begun to change. I will put it in the record, but it 
goes to this larger issue. You say:

    For my part, I believe arms control and nonproliferation 
tools can be used to promote the national security and we must 
ensure that they do. The Chemical Weapons Convention is clearly 
a tool which can enhance our national security. I believe that 
unsuccessful conclusion of arms control agreements need not 
result in the neglect of our defenses, but it often has.
    In giving consent to the ratification of the CWC convention 
without reservation, the Senate should take real steps to 
support implementation of the treaty, fund strong defense 
programs, promote balanced national security strategy, and 
recognize the United States must be a leader in a very 
dangerous world. This world has undergone dramatic change and 
arms controls have been rushing by. In such a world, if we do 
not shape the arms control process to serve our interests we 
can be certain that some nations will be pressing in the 
directions that are not in our interest. The Chemical Weapons 
Convention before this committee is in our interests. Again----

    This is not the quote I wanted to read, but thank you.
    Senator Hagel. Well, it was very eloquent.
    Senator Biden. It was. You did very well. It is still 
relevant. It is not the quote I am looking for. I will put it 
in the record without holding us up.
    [The material referred to follows:]

    One can see this, in one small example, even in the way our 
pursuit of a ban on chemical weapons reinforced our commitment 
to the spread of democracy. We sought intrusive verification 
measures so that we might reduce the threat posed by the Warsaw 
Pact, but also because we knew that totalitarian regimes cannot 
long survive when their citizens are exposed to contradictory 
information. The requirement for detailed information on 
chemical weapons stocks and facilities before reaching 
agreement, at the time an innovative negotiating step which led 
to the December 1989 U.S./Soviet Phase I data exchange and the 
recent Phase II exchange, sparked a controversy which continues 
in Russia even today over the history of the Soviet chemical 
and biological weapons programs.
    Our demand for trial inspections prior to completion of 
negotiations aided in crafting a better treaty, but it also 
caused Soviet citizens to ask why they themselves could not see 
what Americans were allowed to see. Our insistence, first in 
the U.S./Soviet Bilateral Destruction Agreement (BDA) of 1990 
and later in the CWC that destruction of chemical weapons 
stocks be done in a safe and environmentally sound manner has 
created a grassroots political process of ``NIMBY''--not in my 
backyard--which has complicated agreement on a chemical weapons 
destruction plan but also complicates a return of the old 
system. One should not exaggerate the role that arms control 
has played in promoting our national agenda, but one should not 
ignore it either.

    Senator Hagel. Senator Biden, thank you.
    General Odom, did you want to respond?
    General Odom. I just wanted to say, you made my objections 
seem far less than they are, and you have made this sound much 
more benign. I hope you do realize that I have said that the 
very things that you are saying we are going to set in motion 
here are likely to produce very serious adverse consequences, 
not trivial consequences.
    Senator Biden. Well, I did not mean to suggest you thought 
they were trivial, General. If I did, I did not mean that. I am 
just pointing out that I think that it takes a hell of a lot to 
get to the worst case scenario that I think you are most 
worried about.
    Senator Hagel. Senator Biden, thank you.
    Senator Biden. Thank you.
    Senator Hagel. Gentlemen, thank you. We are grateful, as 
always. If there is anything additional that you want to add 
for the record, we would be very pleased to receive that.
    The committee is adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


             Conditions to the Chemical Weapons Convention

                       (1) Effect of Article XXII

Summary:
    The Senate reserves the right to add reservations to the resolution 
of ratification, despite the ban (in Article XXII of the Convention) on 
reservations to the Convention. This condition asserts the Senate's 
right under the U.S. Constitution, but does not exercise it.

Text:
(1) Effect of Article XXII.
    Upon the deposit of the United States instrument of ratification. 
The President shall certify to the Congress that the United States has 
informed all other States Parties to the Convention that the Senate 
reserves the right, pursuant to the Constitution, to offer advice and 
consent to ratification of the Convention subject to reservations, 
notwithstanding Article XXII of the Convention.

                 (2) Financial Contributions (Helms #3)

Summary:
    Requires statutory authorization and appropriation for payments or 
assistance to the Organization.

Text:
(2) Financial Contributions.
    (A) Notwithstanding any provision of the Convention, no funds may 
be drawn from the Treasury of the United States for payments or 
assistance (including the transfer of in-kind items) under paragraph 16 
of Article IV, paragraph 19 of Article V, paragraph 7 of Article VIII, 
paragraph 23 of Article IX, Article X, or any other provision of the 
Convention, without statutory authorization and appropriation.

(3) Establishment of an Internal Oversight Office (Helms #4)

Summary:

    Requires the equivalent of an independent OPCW Inspector General's 
Office by late December 1997; withholds 50 percent of regular U.S. 
contributions to the OPCW, beginning April 29, 1998, if the required 
independent oversight office has not been established.

Text:

(3) Establishment of an Internal Oversight Office.
    (A) No later than 240 days after the deposit of the instrument of 
ratification of the United States to the Convention (in this resolution 
referred to as the ``United States instrument of ratification''), the 
President shall certify to the Congress that the current internal audit 
office of the Preparatory Commission has been expanded into an 
independent internal oversight office whose functions will be 
transferred to the Organization upon its establishment. The independent 
internal oversight office shall be obligated to protect confidential 
information pursuant to the obligations of the Confidentiality Annex. 
The independent internal oversight office shall--
  (i) make investigations and reports relating to all programs of the 
        Organization;
  (ii) undertake both management and financial audits, including--
    (I) an annual assessment verifying that classified and confidential 
            information is stored and handled securely pursuant to the 
            general obligations set forth in Article VIII and in 
            accordance with all provisions of the Annex on the 
            Protection of Confidential Information; and
    (II) an annual assessment of laboratories established pursuant to 
            Paragraph 55 of Part II of the Verification Annex to ensure 
            the Director General is carrying out his functions pursuant 
            to Paragraph 56 of Part II of the Verification Annex;
  (iii) undertake performance evaluations annually to ensure the 
        Organization has complied to the extent practicable with the 
        recommendations of the independent internal oversight office;
  (iv) have access to all records relating to the programs and 
        operations of the Organization;
  (v) have direct and prompt access to any official of the 
        Organization; and
  (vi) be required to protect the identity of, and prevent reprisals 
        against, all complainants.
    (B) The Organization shall ensure, to the extent practicable, 
compliance with recommendations of the independent internal oversight 
office, and shall ensure that annual and other relevant reports by the 
independent internal oversight office are made available to all member 
states pursuant to the requirements established in the Confidentiality 
Annex.
    (C) Until a certification is made under subsection (A), 50 percent 
of the amount for United States contributions to the regular budget of 
the Organization assessed pursuant to paragraph 7 of Article VIII shall 
be withheld, in addition to any other amounts required to withheld by 
any other provision of law.
    (D) Notwithstanding the requirements of this paragraph, for the 
first year of the Organization's operation, ending on April 29, 1998, 
the United States shall make its full contribution to the regular 
budget of the Organization assessed pursuant to paragraph 7 of Article 
VIII.
    (E) For purposes of this paragraph, the term ``internal oversight 
office'' means the head of an independent office (or other independent 
entity) established by the Organization to conduct and supervise 
objective audits, inspections, and investigations relating to the 
programs and operations of the Organization.

                (4) Cost-Sharing Arrangements (Helms #5)

Summary:

    Requires cost-sharing for ``any new research or development 
expenditures for the primary purpose of refining or improving the 
Organization's regime for verification of compliance under the 
Convention, including the training of inspectors and the provision of 
detection equipment and on-site analysis sampling and analysis 
techniques.'' Permits programs to improve U.S. monitoring without cost-
sharing.
    We would not want the United States to do all the expensive 
research and development needed to maximize verification of compliance 
with the CWC, and not be reimbursed by other countries for such 
efforts. It will still be possible for U.S. agencies to pursue R&D 
programs so as to improve U.S. monitoring of chemical weapons, however, 
and cost-sharing arrangements need not be in place unless and until the 
United States wants to share the results with the OPCW.

Text:
(4) Cost-Sharing Arrangements.
 
   (A) Prior to the deposit of the United States instrument of 
ratification, and annually thereafter, the President shall submit a 
report to Congress identifying all cost-sharing arrangements with the 
Organization.
    (B) The United States shall not undertake any new research or 
development expenditures for the primary purpose of refining or 
improving the Organization's regime for verification of compliance 
under the Convention, including the training of inspectors and the 
provision of detection equipment and on-site analysis sampling and 
analysis techniques, or share the articles, items, or services 
resulting from any research and development undertaken previously, 
without first having concluded and submitted to the Congress a cost-
sharing arrangement with the Organization.
    (C) Nothing in this paragraph may be construed as limiting or 
constricting in any way the ability of the United States to pursue 
unilaterally any project undertaken solely to increase the capability 
of United States means for monitoring compliance with the Convention.

           (5) Intelligence Sharing and Safeguards (Helms #6)

Summary:
    Requires interagency Intelligence Community approval and 
sanitization of intelligence information before release to the OPCW, 
such that there would be only minimal damage from unauthorized 
disclosure. The Director of Central Intelligence may waive these 
requirements on a case-by-case basis, with notice to appropriate com- 
mittees of Congress. Any unauthorized disclosure by the OPCW must be 
reported to Congress within 15 days of after the executive branch 
learns of it.

Text:
(5) Intelligence Sharing and Safeguards.--
    (A) Provision of Intelligence Information to the Organization.--
  (i) In General.--No United States intelligence information may be 
        provided to the Organization or any organization affiliated 
        with the Organization, or to any officials or employees 
        thereof, unless the President certifies to the appropriate 
        committees of Congress that the Director of Central 
        Intelligence, in consultation with the Secretary of State and 
        the Secretary of Defense, has established and implemented 
        procedures, and has worked with the Organization to ensure 
        implementation of procedures, for protecting from unauthorized 
        disclosure United States intelligence sources and methods 
        connected to such information. These procedures shall include, 
        but not be limited to--
    (I) offering and provision of advice and assistance to the 
            Organization in establishing and maintaining the necessary 
            measures to ensure that inspectors and other staff members 
            of the Technical Secretariat meet the highest standards of 
            efficiency, competence, and integrity, pursuant to 
            subparagraph l(b) of the Confidentiality Annex, and in 
            establishing and maintaining a stringent regime governing 
            the handling of confidential information by the Technical 
            Secretariat, pursuant to paragraph 2 of the Confidentiality 
            Annex;
    (II) explicit recognition, in each case in which intelligence 
            information is to be provided to the Organization or any 
            organization affiliated with the Organization, or to any 
            officials or employees thereof, of the risks of 
            unauthorized disclosure of the U.S. information to be 
            provided to the Organization, and determination that such 
            disclosure would result in no more than minimal damage to 
            national security;
    (III) sanitization of intelligence information that is to be 
            provided to the Organization or any organization affiliated 
            with the Organization, or to any officials or employees 
            thereof, to remove all information that could betray 
            intelligence sources and methods; and
    (IV) interagency United States Intelligence Community approval for 
            any release of intelligence information to the Organization 
            or any organization affiliated with the Organization, or to 
            any officials or employees thereof, no matter how 
            thoroughly it has been sanitized.
  (ii) Waiver Authority.--
    (I) In General.--The Director of Central Intelligence may waive the 
            application of clause (i) if the Director of Central 
            Intelligence certifies in writing to the appropriate 
            committees of Congress that providing such information to 
            the Organization or an organization affiliated with the 
            Organization, or to any official or employee thereof, is in 
            the vital national security interests of the United States 
            and that all possible measures to protect such information 
            have been taken, except that such waiver must be made for 
            each instance such information is provided, or for each 
            such document provided. In the event that multiple waivers 
            are issued within a single week, a single certification to 
            the appropriate committees of Congress may be submitted, 
            specifying each waiver issued during that week.
    (II) Delegation of Duties.--The Director of Central Intelligence 
            may not delegate any duty of the Director of Central 
            Intelligence under this subsection.
    (B) Periodic and Special Reports.--
  (i) Periodic Reports.--
    (I) In General.--The President shall report periodically, but not 
            less frequently than semiannually, to the Select Committee 
            on Intelligence of the Senate and the Permanent Select 
            Committee on Intelligence of the House of Representatives 
            on the types and volume of intelligence information 
            provided to the Organization or any organization affiliated 
            with the Organization, or to any officials or employees 
            thereof, and the purposes for which it was provided during 
            the period covered by the report.
    (II) Exemption.--For purposes of subclause (i), intelligence 
            information provided to the Organization or any 
            organization affiliated with the Organization, or to any 
            officials or employees thereof, does not cover information 
            that is provided only to, and only for the use of, 
            appropriately cleared United States Government personnel 
            serving with the Organization or any organization 
            affiliated with the Organization.
  (ii) Special Reports.--
    (I) Report on Procedures.--Accompanying the certification provided 
            pursuant to subparagraph (A)(i), the President shall 
            provide a detailed report to the Select Committee on 
            Intelligence of the Senate and the Permanent Select 
            Committee on Intelligence of the House of Representatives 
            identifying the procedures established for protecting 
            intelligence sources and methods when sanitized 
            intelligence information is provided pursuant to this 
            section.
    (II) Reports on Unauthorized Disclosures.--The President shall 
            report to the Select Committee on Intelligence of the 
            Senate and the Permanent Select Committee on Intelligence 
            of the House of Representatives, within 15 days after it 
            has become known to the U.S. Government, regarding any 
            unauthorized disclosure of intelligence information 
            provided by the United States to the Organization.
    (C) Delegation of Duties.--The President may not delegate or assign 
the duties of the President under this section.
    (D) Relationship to Existing Law.--Nothing in this paragraph may he 
construed to--
  (i) impair or otherwise affect the authority of the Director of 
        Central Intelligence to protect intelligence sources and 
        methods from unauthorized disclosure pursuant to section 
        103(c)(5) of the National Security Act of 1947 (50 U.S.C. 403-
        3(c)(5)); or
  (ii) supersede or otherwise affect the provisions of title V of the 
        National Security Act of 1947 (50 U.S.C. 413 et seq.).
    (E) Definitions.--In this section:
  (i) Appropriate Committees of Congress.--The term ``appropriate 
        committees of Congress'' means the Committee on Foreign 
        Relations and the Select Committee on Intelligence of the 
        Senate and the Committee on International Relations and the 
        Permanent Select Committee on Intelligence of the House of 
        Representatives.
  (ii) Organization.--The term ``Organization'' means the Organization 
        for the Prohibition of Chemical Weapons established under the 
        Convention and includes any organ of that Organization and any 
        board or working group, such as the Scientific Advisory Board, 
        that may be established by it.
  (iii) Organization Affiliated with the Organization.--The term 
        ``organization affiliated with the Organization'' includes, but 
        is not limited to, the Provisional Technical Secretariat under 
        the Convention and any laboratory certified by the Director-
        General of the Organization as designated to perform analytical 
        or other functions.

              (6) Amendments to the Convention (Helms #7)

Summary:
    Requires the United States to vote on all proposed amendments and 
requires the executive branch to submit all amendments to the Senate 
for its advice and consent.

Text:
(6) Amendments to the Convention.
    (A) A United States representative will be present at all Amendment 
Conferences and will cast a vote, either affirmative or negative, on 
all proposed amendments made at such conferences.
    (B) The President shall submit to the Senate for its advice and 
consent to ratification under Article 11, Section 2, Clause 2 of the 
Constitution of the United States any amendment to the Convention 
adopted by an Amendment Conference.

  (7) Continuing Vitality of the Australia Group and National Export 
                          Controls (Helms #11)

Summary:
    Requires the President to certify, before depositing instruments of 
ratification, that the CWC will in no way weaken the Australia Group, 
and that each member of the Group agrees there is no CWC requirement to 
weaken their export controls.
    Requires annual certification that Australia Group controls have 
not been weakened and remain effective or, if this cannot be certified, 
consultation with the Senate on a resolution of continued adherence to 
the CWC.
    Requires the President to block any attempt within the Australia 
Group to change the Group's view of its obligations under the CWC.

Text:
(7) Continuing Vitality of the Australia Group and National Export 
        Controls.
    (A) The Senate declares that the collapse of the informal forum of 
states known as the ``Australia Group,'' either though changes in 
membership or lack of compliance with common export controls, or the 
substantial weakening of common Aus- 
tralia Group export controls and non-proliferation measures in force on 
the date of United States ratification of the Convention, would 
constitute a fundamental change in circumstances to United States 
ratification of the Convention.
    (B) Prior to the deposit of the United States instrument of 
ratification, the President shall certify to Congress that--
  (i) nothing in the Convention obligates the United States to accept 
        any modification, change in scope, or weakening of its national 
        export controls. The United States understands that the 
        maintenance of national restrictions on trade in chemicals and 
        chemical production technology is fully compatible with the 
        provisions of the Convention, including Article XI(2), and 
        solely within the sovereign jurisdiction of the United States;
  (ii) the Convention preserves the right of State Parties, 
        unilaterally or collectively, to maintain or impose export 
        controls on chemicals and related chemical production 
        technology for foreign policy or national security reasons, 
        notwithstanding Article XI(2); and
  (iii) each Member-State of the Australia Group, at the highest 
        diplomatic levels, has officially communicated to the U.S. 
        Government its understanding and agreement that export control 
        and nonproliferation measures which the Australia Group has 
        undertaken are fully compatible with the provisions of the 
        Convention, including Article XI(2), and its commitment to 
        maintain in the future such export controls and 
        nonproliferation measures against non-Australia Group members.
    (C) (i) The President shall certify to Congress on an annual basis 
that--
  (a) Australia Group members continue to maintain an equally effective 
        or more comprehensive control over the export of toxic 
        chemicals and their precursors, dual-use processing equipment, 
        human, animal and plant pathogens and toxins with potential 
        biological weapons application, and dual-use biological 
        equipment, as that afforded by the Australia Group as of the 
        date of ratification of this Convention by the United States; 
        and
  (b) the Australia group remains a viable mechanism for limiting the 
        spread of chemical and biological weapons-related materials and 
        technology, and that the effectiveness of the Australia Group 
        has not been undermined by changes in membership, lack of 
        compliance with common export controls and nonproliferation 
        measures, or weakening of common controls and nonproliferation 
        measures in force as of the date of ratification of this 
        Convention by the United States.
    (ii) In the event that the President is, at any time, unable to 
make the certifications described in subparagraph (C)(i), the President 
shall consult with the Senate for the purposes of obtaining a 
resolution of continued adherence to the Convention, notwithstanding 
the fundamental change in circumstance.
    (D) The President shall consult periodically, but not less 
frequently than twice a year, with the Committee on Foreign Relations 
of the Senate and the Committee on International Relations of the House 
of Representatives, on Australia Group export control and 
nonproliferation measures. If any Australia Group member adopts a 
position at variance with the certifications and understandings 
provided under subparagraph (B), or should seek to gain Australia Group 
acquiescence or approval for an interpretation that various provisions 
of the Convention require it to remove chemical-weapons related export 
controls against any State Party to the Convention, the President shall 
block any effort by that Australia Group member to secure Australia 
Group approval of such a position or interpretation.
    (E) For the purposes of this paragraph--
  (i) ``Australia Group'' means the informal forum of states, chaired 
        by Australia, whose goal is to discourage and impede chemical 
        and biological weapons proliferation by harmonizing national 
        export controls, chemical weapons precursor chemicals, 
        biological weapons pathogens, and dual-use production 
        equipment, and through other measures: and
  (ii) ``Highest diplomatic levels'' means at the level of a senior 
        official with the power to authoritatively represent their 
        government, and does not mean a diplomatic representative of 
        that government to the United States.

              (8) Negative Security Assurances (Helms #12)

Summary:
    Requires a classified Presidential report regarding the impact of 
CWC on U.S. options for responding to chemical or biological attacks, 
and on the assurances we offer to other countries that foreswear the 
use of nuclear weapons.
    Some Members are concerned because ratification of the CWC will 
leave the United States unable to threaten retaliatory use of chemical 
weapons against a state that used chemical weapons on U.S. or allied 
forces. The United States has no in- 
tention of using chemical weapons, however, even in response to a 
foreign chemical weapon attack. Even before the CWC was negotiated, the 
United States committed itself to the destruction of nearly all U.S. 
chemical weapons.
    This condition requires the President to submit a classified report 
on the impact of CWC upon U.S. ``negative security assurances'' to 
other countries. Such assurances are the ``umbrella'' that we offer to 
countries that agree to forego weapons of mass destruction.

Text:
(8) Negative Security Assurances.
    (A) In forswearing the possession of chemical weapons retaliatory 
capability under the Convention, the Senate understands that deterrence 
of attack by chemical weapons requires a reevaluation of the negative 
security assurances extended to non-nuclear-weapon states.
    (B) Accordingly, 180 days after the deposit of the United States 
instrument of ratification, the President shall submit to the Congress 
a classified report setting forth the findings of a detailed review of 
United States policy on negative security assurances, including a 
determination of the appropriate responses to the use of chemical or 
biological weapons against the United States military, United States 
citizens, allies, and third parties.

          (9) Protection of Advanced Biotechnology (Helms #13)

Summary:
    Requires the President to certify, prior to the deposit of the 
United States instrument of ratification and annually thereafter, that 
the legitimate commercial activities and interests of U.S. chemical, 
biotechnology, and pharmaceutical firms are not being significantly 
harmed by the Convention.
    The Administration is prepared to certify, both now and annually, 
that the CWC's limits on the production and use of the most toxic 
chemical weapons and their precursors are not significantly harming the 
legitimate commercial activities and interests of U.S. chemical, 
biotechnology, and pharmaceutical firms.
    Most of those firms played a major role in the negotiation of this 
Convention, of course, so they have long since signed up to any 
sacrifices that U.S. firms may have to make in order to limit the 
ability of rogue states to obtain and use chemical weapons. And the 
Reagan, Bush and Clinton Administrations have all taken extraordinary 
measures to limit the impact of the CWC upon U.S. businesses.

Text:
(9) Protection of Advanced Biotechnology.
    Prior to the deposit of the United States instrument of 
ratification, and on January 1 of every year thereafter, the President 
shall certify to the Committee on Foreign Relations and the Speaker of 
the House of Representatives that the legitimate commercial activities 
and interests of the chemical, biotechnology, and pharmaceutical firms 
in the United States are not being significantly harmed by the 
limitations of the Convention on access to, and production of, those 
chemicals and toxins listed in Schedule 1 contained in the Annex on 
Chemicals of the Convention.

       (10) Monitoring and Verification of Compliance (Helms #14)

Summary:
    Requires detailed annual country-by-country reports on chemical 
weapons developments and U.S. intelligence coverage, as well as at 
least quarterly briefings on U.S. actions to pursue CWC compliance 
issues.
    We all know that monitoring and verification of some aspects of CWC 
compliance will be difficult. This fact of life has prompted 
understandable concern on the part of some Members, and the 
administration is prepared to accept a condition that requires both 
periodic reports and prompt notice regarding world chemical weapons 
programs and the status of CWC compliance. The executive branch would 
also offer briefings on current compliance issues, including issues to 
be raised in OPCW meetings and the results of those meetings.

Text:
(10) Monitoring and Verification of Compliance.
    (A) The Senate declares that--
  (i) the Convention is in the interests of the United States only if 
        all parties to the Convention are in strict compliance with the 
        terms of the Convention as submitted to the Senate for its 
        advice and consent to ratification, such compli- 
  ance being measured by performance and not by efforts, intentions, or 
commitments to comply; and
  (ii) the Senate expects all parties to the Convention to be in strict 
        compliance with their obligations under the terms of the 
        Convention, as submitted to the Senate for its advice and 
        consent to ratification;
    (B) Given its concern about the intelligence community's low level 
of confidence in its ability to monitor compliance with the Convention, 
the Senate expects the executive branch of Government to offer regular 
briefings, not less than four times a year, to the Committee on Foreign 
Relations of the Senate and the Committee on International Relations of 
the House of Representatives on compliance issues related to the 
Convention. Such briefings shall include a description of all United 
States efforts in bilateral and multilateral diplomatic channels and 
forums to resolve compliance issues and shall include a complete 
description of--
  (i) any compliance issues the United States plans to raise at 
        meetings of the Organization, in advance of such meetings;
  (ii) any compliance issues raised at meetings of the Organization, 
        within 30 days of each such meeting;
  (iii) any determination by the President that a party is in 
        noncompliance with or is otherwise acting in a manner 
        inconsistent with the object or purpose of the Convention, 
        within 30 days of such a determination.
    (C) The President shall submit annually on January 1 to the 
Committee on Foreign Relations of the Senate and the Committee on 
International Relations of the House of Representatives a full and 
complete classified and unclassified report setting forth--
  (i) a certification of those priority countries included in the 
        Intelligence Community's Monitoring Strategy, as defined by the 
        Director of Central Intelligence's Arms Control Intelligence 
        Staff and the National Intelligence Council, deter-mined to be 
        in compliance with the Convention, on a country-by-country 
        basis;
  (ii) for those countries not certified pursuant to clause (i), an 
        identification and assessment of all compliance issues arising 
        with regard to the adherence of the country to its obligations 
        under the Convention;
  (iii) the steps the United States has taken, either unilaterally or 
        in conjunction with another State Party--
    (I) to initiate challenge inspections of the noncompliant party 
            with the objective of demonstrating to the international 
            community the act of noncompliance;
    (II) to call attention publicly to the activity in question; and
    (III) to seek on an urgent basis a meeting at the highest 
            diplomatic level with the noncompliant party with the 
            objective of bringing the noncompliant party into 
            compliance.
  (iv) a determination of the military significance and broader 
        security risks arising from any compliance issue identified 
        pursuant to clause (ii); and
  (v) a detailed assessment of the responses of the noncompliant party 
        in question to actions undertaken by the United States 
        described in the report submitted pursuant to clause (iii).
    (D) On January 1, 1998, and annually thereafter, the Director of 
Central Intelligence shall submit to the Committees on Foreign 
Relations, Armed Services, and the Select Committee on Intelligence of 
the Senate and to the Committees on International Relations, National 
Security, and Permanent Select Committee of the House of 
Representatives, a full and complete classified and unclassified report 
regarding--
  (i) the status of chemical weapons development, production, 
        stockpiling, and use, within the meanings of the Convention, on 
        a country-by-country basis;
  (ii) any information made available to the U.S. Government concerning 
        the development, production, acquisition, stockpiling, 
        retention, use, or direct or indirect transfer of novel agents, 
        including any unitary or binary chemical weapon comprised of 
        chemical components not identified on the schedules of the 
        Annex on Chemicals, by any country;
  (iii) the extent of trade in chemicals potentially relevant to 
        chemical weapons programs, including all Australia Group 
        chemicals and chemicals identified on the schedules of the 
        Annex on Chemicals, on a country-by-country basis;
  (iv) the monitoring responsibilities, practices, and strategies of 
        the intelligence community and a determination of the level of 
        confidence of the intelligence community (as defined in section 
        3(4) of the National Security Act of 1947) with respect to each 
        specific monitoring task undertaken, including an assessment by 
        the intelligence community of the national aggregate data 
        provided by parties to the Organization, on a country-by-
        country basis;
  (v) an identification of how U.S. national intelligence means, 
        including national technical means and human intelligence, is 
        being marshaled together with the Convention's verification 
        provisions to monitor compliance with the Convention; and
  (vi) the identification of chemical weapons development, production, 
        stockpiling, or use, within the meanings of the Convention, by 
        subnational groups, including terrorist and paramilitary 
        organizations.
    (E) The report required under subparagraph (D) shall include a full 
and complete classified annex submitted solely to the Select Committee 
on Intelligence of the Senate and to the Permanent Select Committee of 
the House of Representatives regarding--
  (i) a detailed and specific identification of all United States 
        resources devoted to monitoring the Convention, including 
        information on all expenditures associated with the monitoring 
        of the Convention; and
  (ii) an identification of the priorities of the executive branch of 
        Government for the development of new resources relating to 
        detection and monitoring capabilities with respect to chemical 
        and biological weapons, including a description of the steps 
        being taken and resources being devoted to strengthening U.S. 
        monitoring capabilities.

  (11) Enhancements to Robust Chemical and Biological Defenses (Helms 
                                  #15)

Summary:
    Requires the Secretary of Defense to ensure that U.S. forces are 
capable of carrying out required military missions in U.S. regional 
contingency plans, regardless of any foreign threat or use of chemical 
weapons, and that the U.S. Army Chemical School remains under the 
supervision of an Army general.
    Former Secretary of Defense Casper Weinberger and others have 
asserted that ratifying CWC could lead to complacency regarding the 
need for chemical weapons defenses. This concern is frankly a bit 
mystifying. The fear of complacency persists, however, so the 
administration has agreed to a condition requiring the Secretary of 
Defense to ensure that U.S. forces are capable of carrying out required 
military missions in U.S. regional contingency plans, regardless of any 
foreign threat or use of chemical weapons. This means not only 
improving the defensive capabilities of U.S. forces, but also 
initiating discussions on chemical weapons defense with likely 
coalition partners and countries whose civilian personnel would support 
U.S. forces in a conflict.
    The Administration has also agreed to assure that the U.S. Army 
Chemical School remains under the supervision of an Army general.

Text:
(11) Enhancements to Robust Chemical and Biological Defenses.
    (A) It is the sense of the Senate that--
  (1) chemical and biological threats to deployed U.S. Armed Forces 
        will continue to grow in regions of concern around the world, 
        and pose serious threats to U.S. power projection and forward 
        deployment strategies;
  (2) chemical weapons or biological weapons use is a potential 
        condition of future conflicts in regions of concern;
  (3) it is essential for the United States and key regional allies to 
        preserve and further develop robust chemical and biological 
        defenses;
  (4) the United States Armed Forces are inadequately equipped, 
        organized, trained and exercised for chemical and biological 
        defense against current and expected threats, and that too much 
        reliance is placed on non-active duty forces, which receive 
        less training and less modern equipment, for critical chemical 
        and biological defense capabilities;
  (5) the lack of readiness stems from a de-emphasis of chemical and 
        biological defenses within the executive branch of Government 
        and the United States Armed Forces;
  (6) the armed forces of key regional allies and likely coalition 
        partners, as well as civilians necessary to support U.S. 
        military operations, are inadequately prepared and equipped to 
        carry out essential missions in chemically and biologically 
        contaminated environments;
  (7) congressional direction contained in the Defense Against Weapons 
        of Mass Destruction Act of 1996 should lead to enhanced 
        domestic preparedness to protect against chemical and 
        biological weapons threats; and
  (8) the U.S. Armed Forces should place increased emphasis on 
        potential threats to deployed U.S. Armed Forces and, in 
        particular, make countering chemical and biological weapons use 
        an organizing principle for U.S. defense strategy and 
        development of force structure, doctrine, planning, training, 
        and exercising policies of the U.S. Armed Forces.
    (B) The Secretary of Defense shall take those actions necessary to 
ensure that U.S. Armed Forces are capable of carrying out required 
military missions in U.S. regional contingency plans, despite the 
threat or use of chemical or biological weapons. In particular, the 
Secretary of Defense shall ensure that U.S. Armed Forces are 
effectively equipped, organized, trained and exercised (including at 
the large unit and theater level) to conduct operations in a chemically 
or biologically contaminated environment that are critical to the 
success of U.S. military plans in regional conflicts, including--
  (1) deployment, logistics and reinforcement operations at key ports 
        and airfields;
  (2) sustained combat aircraft sortie generation at critical regional 
        airbases; and
  (3) ground force maneuvers of large units and divisions.
    (C) The Secretaries of Defense and State shall, as a priority 
matter, initiate discussions with key regional allies and likely 
regional coalition partners, including those countries where the U.S. 
currently deploys forces, where U.S. forces would likely operate during 
regional conflicts, or which would provide civilians necessary to 
support U.S. military operations, to determine what steps are necessary 
to ensure that Allied and coalition forces and other critical civilians 
are adequately equipped and prepared to operate in chemically- and 
biologically-contaminated environments. No later than one year after 
deposit of the United States instrument of ratification, the 
Secretaries of Defense and State shall provide a report to the 
Committees on Foreign Relations and Armed Services of the Senate and to 
the Speaker of the House on the results of these discussions, plans for 
future discussions, measures agreed to improve the preparedness of 
foreign forces and civilians, and proposals for increased military 
assistance, including through the Foreign Military Sales, Foreign 
Military Financing and the International Military Education and 
Training programs pursuant to the Foreign Assistance Act of 1961.
    (D) The Secretary of Defense shall take those actions necessary to 
ensure that the United States Army Chemical School remains under the 
oversight of a general officer of the United States Army.
    (E) Given its concerns about the present state of chemical and 
biological defense readiness and training, it is the sense of the 
Senate that--
  (1) the transfer, consolidation, and reorganization of the United 
        States Army Chemical School, the Army should not disrupt or 
        diminish the training and readiness of the United States Armed 
        Forces to fight in a chemical-biological warfare environment;
  (2) the Army should continue to operate the Chemical Defense Training 
        Facility at Fort McClellan until such time as the replacement 
        training facility at Fort Leonard Wood is functional.
    (F) On January 1, 1998, and annually thereafter, the President 
shall submit a report to the Committees on Foreign Relations, 
Appropriations, and Armed Services and the Committees on International 
Relations, National Security, Appropriations, and Speaker of the House 
on previous, current, and planned chemical and biological weapons 
defense activities. The report shall include the following information 
for the previous fiscal year and for the next three fiscal years--
  (1) Proposed solutions to each of the deficiencies in chemical and 
        biological warfare defenses identified in the March 1996 
        General Accounting Office Report, titled ``Chemical and 
        Biological Defense: Emphasis Remains Insufficient to Resolve 
        Continuing Problems,'' and steps being taken pursuant to 
        paragraph (B) of this section to ensure that the U.S. Armed 
        Forces are capable of conducting required military operations 
        to ensure the success of U.S. regional contingency plans 
        despite the threat or use of chemical or biological weapons;
  (2) An identification of priorities of the executive branch of 
        Government in the development of both active and passive 
        chemical and biological defenses;
  (3) A detailed summary of all budget activities associated with the 
        research, development, testing, and evaluation of chemical and 
        biological defense programs;
  (4) A detailed summary of expenditures on research, development, 
        testing, and evaluation, and procurement of chemical and 
        biological defenses by fiscal years defense programs, 
        department, and agency;
  (5) A detailed assessment of current and projected vaccine production 
        capabilities and vaccine stocks, including progress in 
        researching and developing a multivalent vaccine;
  (6) A detailed assessment of procedures and capabilities necessary to 
        protect and decontaminate infrastructure to reinforce United 
        States power-projection forces, including progress in 
        developing a nonaqueous chemical decontamination capability;
  (7) The progress made in procuring light-weight personal protective 
        gear and steps being taken to ensure that programmed 
        procurement quantities are suffi- 
  cient to replace expiring battle-dress overgarments and chemical 
protective overgarments to maintain required wartime inventory levels;
  (8) The progress in developing long-range standoff detection and 
        identification capabilities and other battlefield surveillance 
        capabilities for biological and chemical weapons, including 
        progress on developing a multi-chemical agent detector, 
        unmanned aerial vehicles, and unmanned ground sensors;
  (9) Progress in developing and deploying layered theater missile 
        defenses for deployed U.S. Armed Forces which will provide 
        greater geographic coverage against current and expected 
        ballistic missile threats and will help mitigate chemical and 
        biological contamination through higher altitude intercepts and 
        boost-phase intercepts;
  (10) An assessment of the training and readiness of the United States 
        Armed Forces to operate in a chemically or biologically 
        contaminated environment and actions taken to sustain training 
        and readiness, including at national combat training centers;
  (11) The progress in incorporating chemical and biological 
        considerations into service and Joint exercises as well as 
        simulations, models, and wargames and the conclusions drawn 
        from these efforts about the U.S. capability to carry out 
        required missions, including with coalition partners, in 
        military contingencies;
  (12) The progress in developing and implementing service and joint 
        doctrine for combat and non-combat operations involving 
        adversaries armed with chemical or biological weapons, 
        including efforts to update the range of service and joint 
        doctrine to better address the wide range of military 
        activities, including deployment, reinforcement and logistics 
        operations in support of combat operations, and for the conduct 
        of such operations in concert with coalition forces; and
  (13) The progress in resolving issues relating to the protection of 
        United States population centers from chemical and biological 
        attack, including plans for inoculation of populations, 
        consequence management, and progress made in developing and 
        deploying effective cruise missile defenses and a national 
        ballistic missile defense.

                     (12) Noncompliance (Helms #16)

Summary:
    In the event of noncompliance by a State Party, requires the 
President to inform and consult with the Senate and to take a series of 
actions designed to expose noncompliance and to force compliance. These 
actions include making effective use of CWC provisions for challenge 
inspections, high-level diplomacy and U.N. sanctions.
    The President must also implement any sanctions required by U.S. 
law. If the noncompliance should persist for a year, the President must 
consult with the Senate regarding continued adherence to the 
Convention.

Text:
(12) Noncompliance.
    (A) If the President determines that persuasive information exists 
that a party to the Convention is maintaining a chemical weapons 
production or production mobilization capability, is developing new 
chemical agents, or is in violation of the Convention in any other 
manner so as to threaten the national security interests of the United 
States. Then the President shall--
  (1) consult with, and promptly submit to, the Senate a report 
        detailing the effect of such actions,
  (2) seek on an urgent basis a challenge inspection of the facilities 
        of the relevant party in accordance with the provisions of the 
        Convention with the objective of demonstrating to the 
        international community the act of noncompliance;
  (3) seek, or encourage, on an urgent basis a meeting at the highest 
        diplomatic level with the relevant party with the objective of 
        bringing the noncompliant party into compliance,
  (4) implement prohibitions and sanctions against the relevant party 
        as required by law;
  (5) if noncompliance has been determined, seek on an urgent basis 
        within the Security Council of the United Nations a 
        multilateral imposition of sanctions against the noncompliant 
        party for the purposes of bringing the noncompliant party into 
        compliance; and
  (6) in the event that noncompliance persists for a period of longer 
        than 1 year after the date of determination made pursuant to 
        subparagraph (A), promptly consult with the Senate for the 
        purposes of obtaining a resolution of support of continued 
        adherence to the Convention, notwithstanding the changed 
        circumstances affecting the object and purpose of the 
        Convention.
    (B) Nothing in this section may be construed to impair or otherwise 
affect the authority of the Director of Central Intelligence to protect 
intelligence sources and methods from unauthorized disclosure pursuant 
to section 103(c)(5) of the National Security Act of 1947 (50 U.S.C. 
403-3(c)(5)).
    (C) If the President determines that an action otherwise required 
under paragraph (A) would impair or otherwise affect the authority of 
the Director of Central Intelligence to protect intelligence sources 
and methods from unauthorized disclosure, he shall report that 
determination, together with a detailed written explanation of the 
basis for that determination, to the Chairmen of the Senate Select 
Committee on Intelligence and the House Permanent Select Committee on 
Intelligence no later than 15 days after making such determination.

       (13) Primacy of the United States Constitution (Helms #17)

Summary:
    Makes clear that the CWC does not contradict the U.S. Constitution.
    Some CWC opponents have said that on-site inspections would be 
conducted in violation of the U.S. Constitution. This is simply not the 
case. No administration would agree to a treaty that violated the 
Constitution, no treaty ever takes precedence over the Constitution, 
and only the United States interprets our Constitution.
    This condition states those facts.

Text:
(13) Primacy of the United States Constitution.
    Nothing in the Convention requires or authorizes legislation, or 
other action, by the United States prohibited by the Constitution of 
the United States, as interpreted by the United States.

           (14) Financing Russian Implementation (Helms #18)

Summary:
    Requires the United States not to accept any effort by Russia to 
make Russia's CWC ratification contingent upon U.S. financial 
guarantees to cover Russian destruction costs.
    None of us would want the United States to be stuck with the bill 
for Russian destruction of their vast chemical weapons stockpile. So 
there is agreement on a condition that the United States shall not 
accept any Russian effort to condition its ratification of CWC upon the 
United States providing guarantees to pay for Russian implementation of 
CWC or of the 1990 Bilateral Destruction Agreement.

Text:
(14) Financing Russian Implementation.
    The United States understands that in order to be assured of the 
Russian commitment to a reduction in chemical weapons stockpiles, 
Russia must maintain a substantial stake in financing the 
implementation of both the 1990 Bilateral Destruction Agreement, and 
the Convention. The United States shall not accept any effort by Russia 
to make deposit of Russia's instrument of ratification contingent upon 
the United States providing financial guarantees to pay for 
implementation of commitments by Russia under the 1990 Bilateral 
Destruction Agreement or the Convention.

              (15) Assistance Under Article X (Helms #19)

Summary:
    Requires the United States not to contribute to the voluntary fund 
for chemical weapons defense assistance to other States Parties, and 
limits U.S. assistance to certain states to medical antidotes and 
treatments.
    Opponents of CWC assert that Article X would require the United 
States to provide assistance and equipment to countries like Cuba to 
improve their chemical weapons defense capabilities. This is a 
misconception of paragraph 7 of Article X, which says: ``Each State 
Party undertakes to provide assistance through the Organization.'' 
Assistance may include ``detection equipment and alarm systems, 
protective equipment; decontamination equipment and decontaminants; 
medical antidotes and treatments; and advice on any of these protective 
measures.''
    The rest of paragraph 7 of Article X makes clear that a State Party 
may simply declare what assistance it might provide in response to an 
appeal by the OPCW. CWC does not compel the United States to give any 
country, let alone an enemy like Cuba, anything more than medical 
assistance or advice.

Text:
(15) Assistance Under Article X.
    (A) Prior to the deposit of the United States instrument of 
ratification, the President shall certify to the Congress that the 
United States shall not provide assistance under paragraph 7(a) of 
Article X.
    (B) Prior to the deposit of the United States instrument of 
ratification, the President shall certify to the Congress that for any 
States Party the government of which is not eligible for assistance 
under chapter 2 of Part II or chapter 4 of Part II of the Foreign 
Assistance Act of 1961--
  (i) no assistance under paragraph 7(b) of Article X will be provided 
        to the States Party; and
  (ii) no assistance under paragraph 7(c) of Article X other than 
        medical antidotes and treatment will be provided to the States 
        Party.

              (16) Constitutional Prerogatives (Helms #22)

Summary:
    Sense of the Senate that U.S. negotiators should not agree to 
treaties that bar reservations and that the Senate should not consent 
to ratification of any such future treaties. (See also #1.)
    Article XXII of the CWC states: ``The Articles of this Convention 
shall not be subject to reservations. The Annexes of this Convention 
shall not be subject to reservations incompatible with its object and 
purpose.'' Senator Helms rightly notes that although the United States 
has ratified other treaties with similar provisions, the Senate Foreign 
Relations Committee has maintained that ``the President's agreement to 
such a prohibition can not constrain the Senate's constitutional right 
and obligation to give its advice and consent to a treaty subject to 
any reservation it might determine is required by the national 
interest.''
    The U.S. Constitution vests in the Senate the power to give its 
advice and consent subject to reservations. So I am happy to support 
this condition that reminds the executive branch of the Senate's role.

Text:
(16) Constitutional Prerogatives.
    (A) The Senate makes the following findings:
  (1) The Constitution states that the President ``shall have Power, by 
        and with the Advice and Consent of the Senate, to make 
        Treaties, provided two-thirds of the Senators present concur.''
  (2) At the turn of the century, Senator Henry Cabot Lodge took the 
        position that the giving of advice and consent to treaties 
        constitutes a stage in negotiation on the treaties and that 
        Senate amendments or reservations to a treaty are propositions 
        ``offered at a later stage of the negotiation by the other part 
        of the American treatymaking power in the only manner in which 
        they could then be offered.''
  (3) The executive branch has begun a practice of negotiating and 
        submitting to the Senate treaties which include a provision 
        which has the purported effect of inhibiting the Senate from 
        attaching reservations which the Senate considers necessary in 
        the national interest or of preventing the Senate from 
        exercising its constitutional duty to give its advice and 
        consent to treaty commitments before ratification.
  (4) During the 85th Congress, and again during the 102d Congress, the 
        Committee on Foreign Relations of the Senate made its position 
        on this issue clear when stating that ``the President's 
        agreement to such a prohibition can not constrain the Senate's 
        constitutional right and obligation to give its advice and 
        consent to a treaty subject to any reservation it might 
        determine is required by the national interest.''
    (B) Sense of the Senate.
    It is the sense of the Senate that--
  (1) the past ratification by the Senate of treaties containing 
        provisions which prohibit amendments or reservations should not 
        be construed as a precedent for such clauses in future 
        agreements with other nations which require the advice and 
        consent of the Senate;
  (2) United States negotiators to a treaty should not agree to any 
        provision which has the effect of inhibiting the Senate from 
        attaching reservations or offering amendments to the treaty; 
        and
  (3) the Senate should not consent in the future to any treaty article 
        or provision which would prohibit the Senate from giving its 
        advice and consent to the treaty subject to amendment or 
        reservation.

     (17) Additions to the Annex on Chemicals (Replaces Helms #25)

Summary:
    There may well be occasions where it is in our national security 
interest to add new chemicals to the list of restricted and prohibited 
chemicals when it becomes clear that they have chemical weapon uses.
    However, some have expressed a concern that the addition of certain 
chemicals to the annex on chemicals might introduce new burdens on U.S. 
industry.
    This condition requires that the executive branch inform Congress 
when a chemical is proposed for addition to the Schedules.
    Consultation with Congress at that stage would enable the United 
States to object to routine adoption of a change that might have 
serious impact upon U.S. companies. Such an objection would force the 
OPCW to seek a two-thirds vote in the Conference of States Parties.

Text:
(17) Additions to the Annex on Chemicals.
    (A) Presidential Notification.--Not later than ten days after the 
Director-General communicates information to all States Parties, 
pursuant to Article XV(5)(a) of the Convention, of a proposal for the 
addition of a chemical or biological substance to a schedule of the 
Annex on Chemicals, the President shall notify the Committee on Foreign 
Relations of the U.S. Senate of the proposed addition.
    (B) Presidential Report.--Not later than 60 days after the 
Director-General communicates information of such a proposal pursuant 
to Article XV(5)(a) or not later than 30 days after a positive 
recommendation by the Executive Council pursuant to Article XV(5)(c) of 
the Convention, whichever is sooner, the President shall transmit to 
the Committee on Foreign Relations of the U.S. Senate a report, in 
classified and unclassified form, detailing the likely impact of the 
proposed addition to the Annex on Chemicals. Such report shall include, 
but not be limited to--
  (i) an assessment of the likely impact on U.S. industry of the 
        proposed addition of the chemical or biological substance to 
        the Annex on Chemicals;
  (ii) a description of the likely costs and benefits, if any, to U.S. 
        national security of the proposed addition of such chemical or 
        biological substance to the Annex on Chemicals; and
  (iii) a detailed assessment of the effect of the proposed addition on 
        U.S. obligations under the Verification Annex;
    (C) Presidential Consultation.--The President shall, after the 
submission of the notification required under subparagraph (A) and 
prior to any action on the proposal by the Executive Council under 
Article XV(5)(c), consult promptly with the Senate as to whether the 
United States should object to the proposed addition of a chemical or 
biological substance pursuant to Article XV(5)(c).

                  (18) Effect on Terrorism (Helms #27)

Summary:
    Senator Helms and you have agreed to a condition by which the 
Senate will find that the CWC would not have stopped the Aum Shinrikyo 
group in Japan and that future terrorist groups will likely seek 
chemical weapons.
    Both of these statements are probably quite accurate, and no harm 
is done by attaching them to the resolution of ratification.

Text:
(18) Effect on Terrorism.
    The Senate finds that--
    (A) Irrespective of whether the Convention enters into force, 
terrorists will likely look upon chemical weapons as a means to gain 
greater publicity and instill widespread fear; and
    (B) the March 1995 Tokyo subway attack by the Aum Shinrikyo would 
not have been prevented by the Convention.

          (19) Constitutional Separation of Powers (Helms #30)

Summary:
    This condition recognizes the Constitutional responsibility of the 
Congress to pay the debts of the United States. It also declares the 
Senate's view that the appropriation of funds for financial 
contributions to the OPCW are beyond the control of the executive 
branch, and that the United States should not be denied its vote in the 
OPCW for failing to pay in full its assessed financial contribution.

Text:
(19) Constitutional Separation of Powers.
    Article VIII, paragraph 8 of the Convention allows States Parties 
to vote in the Organization if that member is in arrears in the payment 
of financial contributions provided that the Organization is satisfied 
that such non-payment is due to conditions beyond the control of that 
member. Article I, Section 8 of the Constitution vests in Congress the 
exclusive authority to ``pay the Debts'' of the United States. 
Financial contributions to the Organization for the Prohibition of 
Chemical Weapons may be appropriated only by the Congress and thus the 
Senate declares that they are, for the purposes of Article VIII, 
paragraph 8, beyond the control of the executive branch of the U.S. 
Government. Therefore, the United States vote in the Organization 
should not be denied in the event the Congress does not appropriate 
fully funds for its assessed financial contribution.

                   (20) The On-Site Inspection Agency

Summary:
    In 1994, the Select Committee on Intelligence recommended that 
Congress authorize the DoD On-Site Inspection Agency (OSIA) to assist 
private facilities in the escorting of CWC inspectors. OSIA has done a 
fine job over the years in escorting arms control inspectors at U.S. 
Government and defense contractor facilities, making sure that treaty 
obligations are met with minimal risk to sensitive information.
    OSIA's charter restricts it to DoD and contractor sites, so new 
legislation will be needed--probably in the CWC implementing 
legislation. (Note: The Armed Services Committee will support this so 
long as the assistance is provided on a reimbursable basis, but may 
object if DoD funds are to be used to help U.S. industry.)

Text:
(20) The On-Site Inspection Agency.
    It is the sense of the Senate that--
    In advance of any inspection, the On-Site Inspection Agency of the 
Department of Defense should be authorized to provide assistance to 
United States facilities subject to routine inspections under the 
Convention or to any facility which is the object of a challenge 
inspection initiated pursuant to Article IX, provided that the consent 
of the owner or operator of such facility has first been obtained.

                (21) Further Arms Reduction Obligations

Summary:
    This declaration builds upon Section 33(b) of the Arms Control and 
Disarmament Act of 1961, which was originally intended to ensure that 
the Director of the Arms Control and Disarmament Agency would be 
prohibited from taking any actions in furtherance of arms control 
objectives that affect the armed forces of the United States without 
the approval of either a two-thirds vote of the Senate or a majority of 
both Houses.
    This provision, which has been attached to major arms control 
treaties in recent years, sets forth the Senate position that any 
international agreement that would obligate the United States to limit 
its forces in a militarily significant way will only be considered by 
the Senate pursuant to Article II, Section 2, Clause 2 of the 
Constitution.

Text:
(21) Further Arms Reduction Obligations.
    The Senate declares its intention to consider for approval 
international agreements that would obligate the United States to 
reduce or limit the Armed Forces or armaments of the United States in a 
militarily significant manner only pursuant to the treaty power as set 
forth in Article II, Section 2, Clause 2 of the Constitution.

                       (22) Treaty Interpretation

Summary:
    This provision, commonly referred to as the ``Biden Condition,'' 
has been attached to all major treaties since the INF Treaty. It states 
the Constitutionally based principle that the shared understanding that 
exists between the Executive branch and the Senate at the time the 
Senate gives advice and consent to ratification can only be altered 
subject to the Senate's advice and consent to a subsequent treaty or 
protocol, or the enactment of a statute.

Text:
(22) Treaty Interpretation.
    The Senate affirms the applicability to all treaties of the 
Constitutionally based principles of treaty interpretation set forth in 
Condition (1) of the resolution of ratification with respect to the INF 
Treaty. For purposes of this declaration, the term ``INF Treaty,'' 
refers to the Treaty Between the United States of America and the Union 
of Soviet Socialist Republics on the Elimination of Their Intermediate-
Range and Shorter Range Missiles, together with the related memorandum 
of understanding and protocols, approved by the Senate on May 27, 1988.

                   (23) Chemical Weapons Destruction

Summary:
    This condition requires the President to explore alternative 
technologies for the destruction of the U.S. chemical weapons 
stockpile. It recognizes that the deadline set in the Convention for 
the completion of stockpile destruction, 2007, supersedes the 2004 date 
established in an earlier law. It also reassures us that the 
requirement under the Convention to submit a plan on the method of 
destruction does not preclude the later use of alternative 
technologies. Finally, should a safer and more environmentally friendly 
alternative technology be discovered, but its employment circumscribed 
by the 2007 deadline, the President would need to consult with the 
Congress to determine whether the United States should exercise its 
rights under the Convention and request a brief extension of the 
destruction deadline.

Text:
(23) Chemical Weapons Destruction.
    Prior to the deposit of the United States instrument of 
ratification of the Convention, the President shall certify to the 
Congress that all of the following conditions are satisfied:
  (A) Exploration of Alternative Technologies.--The President has 
        agreed to explore alternative technologies for the destruction 
        of the United States stockpile of chemical weapons in order to 
        ensure that the United States has the safest, most effective 
        and environmentally sound plans and programs for meeting its 
        obligations under the Convention for the destruction of 
        chemical weapons.
  (B) Convention Extends Destruction Deadline.--The requirement in 
        Section 1412 of Public Law 99-145 (50 U.S.C. 1521) for 
        completion of the destruction of the United States stockpile of 
        chemical weapons by December 31, 2004 will be superseded upon 
        the date the Convention enters into force with respect to the 
        United States by the deadline required by the Convention of 
        April 29, 2007.
  (C) Authority to Employ a Different Destruction Technology.--The 
        requirement under Article III(l)(a)(v) of the Convention for a 
        declaration by each state party to the Convention, not later 
        than 30 days after the date the Convention enters into force 
        with respect to that party, on general plans of the State Party 
        for destruction of its chemical weapons does not preclude the 
        United States from deciding in the future to employ a 
        technology for the destruction of chemical weapons different 
        than that declared under that Article.
  (D) Procedures for Extension of Deadline.--The President will consult 
        with Congress on whether to submit a request to the Executive 
        Council of the Organization for the Prohibition of Chemical 
        Weapons for an extension of the deadline for the destruction of 
        chemical weapons under the Convention, as provided under Part 
        IV(A) of the Annex on Implementation and Verification to the 
        Convention if, as a result of the program of alternative 
        technologies for the destruction of chemical weapons carried 
        out under Section 8065 of the Department of Defense 
        Appropriations Act, 1997 (as contained in Public Law 104-208), 
        the President determines that alternatives to the incineration 
        of chemical weapons are available that are safer and more 
        environmentally sound but whose use would preclude the United 
        States from meeting the deadlines of the Convention.

                               __________
      The Case Against The Chemical Weapons Convention ``Truth or 
                             Consequences''

               Prepared by The Center for Security Policy

                              introduction
    As the Senate resumes formal consideration of the controversial 
Chemical Weapons Convention (CWC)--following the Clinton 
Administration's decision last fall to withdraw it in the face of 
certain defeat--the Center for Security Policy has undertaken to 
provide detailed analyses of many of the issues in dispute.
    These papers, most of which have been previously issued as part of 
the Center's Truth or Consequences series, have been compiled and 
organized to maximize their usefulness to those who will be 
participating in the coming debate. They address in particular claims 
being made by the proponents that appear ill-informed, at best, and 
highly misleading, at worst.
    The Center for Security Policy, whose mission is to stimulate and 
inform debate on vital defense and foreign policy matters, is gratified 
by the level of attention now being focused on the problematic Chemical 
Weapons Convention. Such attention--if informed and sustained--is 
essential to the proper functioning of the deliberative process of a 
democracy like ours.
    Rarely is that deliberative process more important than with 
respect to decisionmaking on a treaty such as the CWC, with its ominous 
implications for U.S. national security, proprietary business 
information and constitutional rights. For these reasons, efforts now 
being made to circumscribe, foreshorten or otherwise attenuate the CWC 
debate are to be strenuously resisted.
    The Center hopes that the following pages will prove helpful to 
those interested in determining the fate of the Chemical Weapons 
Convention on its merits. For additional background on the treaty and 
future analyses by the Center, please consult our site on the World 
Wide Web--www.security-policy.org.

    Frank J. Gaffney, Jr.,
    Director, 8 April 1997
                               __________

      ``Truth or Consequences:'' Center Analyses on the CWC Debate

                           Table of Contents

Issues Relating to the Senate's Role In Treaty-Making
    Truth or Consequences #10: Clinton's White House Snow Job Cannot 
Conceal The Chemical Weapon's Convention's Defects (No. 97-D 49, 4 
April 1997)

    Republicans' Senate Leadership Offers Constructive Alternative To 
Fatally Flawed Chemical Weapons Convention (No. 97-D 43, 21 March 1997)

    A Place To Start On Campaign Finance Reform: CMA Should Refrain 
From Putting Senators In Compromising Positions On The Chemical Weapons 
Convention (No. 97-D 34, 26 February 1997)

    Truth or Consequences #2: Senate Does Not Need To Sacrifice 
Sensible Scrutiny Of CWC To Meet An Artificial Deadline (No. 97-D 18, 
31 January 1997)

    Clinton's Chemical Power Play: Bad For The Senate, Bad For The 
National Interest (No. 97-D 7, 13 January 1997)

    Here We Go Again: Clinton Presses Anew For Senate Approval of 
Flawed, Unverifiable, Ineffective Chemical Weapons Treaty (No. 97-T 5, 
8 January 1997)
The CWC's Impact on the U.S. Military and National Security:
    Just Which Chemical Weapons Convention Is Colin Powell Supporting--
And Does He Know The Difference? (No. 97-D 48, 3 April 1997)

    Truth or Consequences #7: Schlesinger, Rumsfeld And Weinberger 
Rebut Scowcroft And Deutch On The CWC (No. 97-D 37, 5 March 1997)

    Gen. Schwartzkopf Tells Senate He Shares Critics' Concerns About 
Details Of The Chemical Weapons Convention (No. 97-D 35, 27 February 
1997)

    Truth or Consequences #3: Clinton `Makes A Mistake About It' In 
Arguing The CWC Will Protect U.S. Troops (No. 97-D 21, 6 February 1997)
The CWC's Impact on U.S. Intelligence:
    Russia's Covert Chemical Weapons Program Vindicates Jesse Helms' 
Continuing Opposition To Phony CW Arms Control (No. 97-D 19, 4 February 
1997)
The CWC's Impact on U.S. Business:
    Truth or Consequences #5: The CWC Will Not Be Good For Business--To 
Say Nothing Of The National Interest (No. 97-D 27, 17 February 1997)
The CWC's Impact on the U.S. Constitution:
    Truth or Consequences #1: Center Challenges Administration Efforts 
To Distort, Suppress Debate On CWC--Dangers To Americans' 
Constitutional Rights (No. 97-D 14, 28 January 1997)
The CWC's Impact on International Terrorism:
    Truth or Consequences #6: The CWC Will Not Prevent Chemical 
Terrorism Against The U.S. Or Its Interests (No. 97-D 30, 22 February 
1997)
The CWC's Impact on Chemical Weapons Proliferation:
    Truth or Consequences #8: The CWC Will Exacerbate The Proliferation 
Of Chemical Warfare Capabilities (No. 97-D 38, 6 March 1997)
Miscellaneous Issues Pertaining to the CWC:
    New National Poll Shows Overwhelming Public Opposition to a Flawed 
Chemical Weapons Convention (No. 97-P 50, 10 April 1997)

    Truth or Consequences #9: CWC Proponents Dissemble About Treaty 
Arrangements Likely To Disserve U.S. Interests (No. 97-D 46, 27 March 
1997)

    The Weekly Standard Weighs In On the CWC: `Just Say No To A Bad 
Treaty' (No. 97-P 40, 17 March 1997)

    Truth or Consequences #4: No DNA Tests Needed To Show That Claims 
About Republican Paternity Of CWC Are Overblown (No. 97-D 24, 16 
February 1997)

                               __________
                                                        No. 97-D 49
                                                       4 April 1997

   Truth or Consequences #10: Clinton's White House Snow Job Cannot 
           Conceal the Chemical Weapons Convention's Defects

    (Washington, D.C.): The latest installment in the Clinton 
Administration's campaign to browbeat the U.S. Senate into ratifying a 
fatally flawed Chemical Weapons Convention (CWC) failed to live up to 
its advance billing--in more ways than one. Despite repeated press 
reports to the effect that former President George Bush and General 
Colin Powell were to play active roles in an ``event'' on the South 
Lawn of the White House, the former was nowhere to be seen and the 
latter had a letter he signed acknowledged by the President, but was 
otherwise scarcely in evidence. (The Center for Security Policy would 
like to think that the force of its argument in a paper released last 
night \1\ encouraged these two influential figures to reconsider the 
active role as flacks that the Clintonistas have in mind for them.)
Please
    Even more disappointing was the case the President made for this 
treaty. On issue after issue, he persisted in grossly overselling the 
benefits of this Convention, misrepresenting its terms and/or 
understating its costs. Consider the following:
  <bullet> Item: The CWC Will Not `Banish Poison Gas'
    The President declared that by ratifying the CWC, the United States 
has ``an opportunity now to forge a widening international commitment 
to banish poison gas from the earth in the 21st Century.'' This is the 
sort of wish-masquerading-as-fact that has been much in evidence in 
Presidential statements to the effect that ``there are no Russian 
missiles pointed at our children.''
    The truth--as even more-honest CWC advocates acknowledge--is that 
not a single country of concern, or for that matter any sub-national 
terrorist group, that wishes to maintain a covert chemical weapons 
program will be prevented from doing so by this treaty. Neither are 
they likely to be caught at it if they do. And even if they are, there 
is a negligible chance the ``international community'' will be willing 
to punish them for doing so. This is hardly the stuff of which 
effective banishment is made.
  <bullet> Item: `Poisons for Peace'
    The President claimed that: ``The Convention requires other nations 
to follow our lead, to eliminate their arsenals of poison gas and to 
give up developing, producing and acquiring such weapons in the 
future.'' There is clearly no such requirement on the rogue states that 
decline to participate in this treaty (e.g., Iraq, Syria, Libya, Sudan 
and North Korea).
    What is more, the Convention's Articles X and XI may well 
accelerate the proliferation of chemical weapon technology. This is 
because these provisions obligate parties to ``facilitate the fullest 
possible'' transfers of technology directly relevant to the manufacture 
of chemical weapons and those used to defend against chemical attack--a 
highly desirable capability for people interested in waging chemical 
wars. \2\
  <bullet> Item: The CWC Will Not `Help Shield Our Soldiers'
    President Clinton repeated a grievous misrepresentation featured in 
his State of the Union address: On the South Lawn he declared, that 
``by ratifying the Chemical Weapons Convention ... we can help shield 
our soldiers from one of the battlefield's deadliest killers.'' As 
noted above, the CWC may actually make our soldiers more vulnerable to 
one of the battlefield's deadliest killers--not least as a result of 
the insights shared defensive technology will afford potential 
adversaries about how to reverse-engineer Western protective equipment, 
the better to exploit its vulnerabilities.
  <bullet> Item: The CWC Will Not Protect Our Children
    President Clinton shamelessly claimed that ``We can give our 
children something our parents and grandparents never had--broad 
protection against the threat of chemical attack.'' Just how 
irresponsible this statement is can be seen from a cover article 
published last month by Washington City Paper. The report disclosed 
that the people of the Washington, D.C. area and, indeed, the rest of 
the Nation are sitting ducks for chemical attacks. \3\ This problem, 
which arises from a systematic failure to apply resources to civil 
defense that are even remotely commensurate with the danger, will only 
grow as people like the President compound the CWC's placebo effect of 
this treaty by exaggerating its benefits.
  <bullet> Item: The CWC Will Not Help in the Fight Against Terrorism
    While the President proclaimed that ratifying the CWC will 
``bolster our leadership in the fight against terrorism,'' the reality 
is that this treaty may actually facilitate terrorism. This could come 
about as a result not only of the dispersion of chemical warfare 
relevant technology and the placebo effect but also by dint of the 
sensitive information the Convention expects the United States to share 
with foreign nationals. At least some of these folks will be working 
for potentially hostile intelligence services--including those of 
states, like Iran, known to sponsor terrorism. Compromising what U.S. 
intelligence knows about international terrorists and their sponsors 
will only intensify the danger posed by such actors. \4\
  <bullet> Item: Flogging a Phony Deadline
    The President further claimed that ``America needs to ratify the 
Chemical Weapons Convention and we must do it before it takes effect on 
April 29th.'' While the treaty will enter into force on that date, with 
or without the U.S. as a party, the dire consequences that are 
endlessly predicted if America is not in are being wildly exaggerated. 
Anytime the United States joins, the 25 percent of the tab that it is 
supposed to pick up will give Washington considerable influence in the 
new U.N. bureaucracy set up to implement the CWC.
    The Clinton Administration's real--but largely unacknowledged 
concern--is that this arms control house-of-cards may collapse if the 
United States does not ratify the treaty. After all, in its absence, 
not one party to the Convention is likely to be an acknowledged 
chemical weapons state. The unfunded costs, combined with the inability 
to inspect American companies while possibly exposing their own to 
undesired inspections, will almost certainly prompt most states parties 
to think better of the whole idea. \5\
  <bullet> Item: The CWC Will Harm American Business Interests
    President Clinton further claimed that, ``If we are outside this 
agreement rather than inside, it is our chemical companies, our leading 
exporters, which will face mandatory trade restrictions that could cost 
them hundreds of millions of dollars in sales.'' The truth is that no 
one has yet been able to document the $600 million cost the Chemical 
Manufacturers Association incessantly claims will arise from trade 
restrictions on U.S. industry if America is not a treaty party.
    What is more, the actual cost (probably closer to $30 million) 
arising from such restrictions will be insignificant compared to the 
additional costs treaty participation will impose on taxpayers and 
private companies (conservatively estimated to be in the billions of 
dollars). \6\
  <bullet> Jane's Underscores the Irresponsible Nature of the Clinton 
        Snow-Job
    Today's CWC photo opportunity at the White House seems all the more 
ignominious against the backdrop of a news item carried in this 
morning's Washington Post. It seems that the forward to Jane's Air 
Defense 1997-98, a highly respected London-based defense publication, 
confirms that Russia has developed a new variant of the lethal anthrax 
toxin that is totally resistant to antibiotics''--in flagrant violation 
of an earlier ``international norm'' governing biological weapons 
activities.
    More to the present point, Jane's notes that the Russians have also 
developed three nerve agents ``that could be made without using any of 
the precursor chemicals, which are banned under the 1993 Chemical 
Weapons Convention.'' It added that ``two of the new nerve agents are 
eight times as deadly as the VX nerve agent that Iraq has acknowledged 
stockpiling, while the other is as deadly as VX.'' (Emphasis added.)
    Unfortunately, this information is but the latest indication of bad 
faith on the part of the Russian government of Boris Yeltsin. One would 
have thought, for example, that the Kremlin's complete reneging on the 
Wyoming Memorandum and the Bilateral Destruction Agreement would have 
shamed their co-author, former Secretary of State James Baker, into 
staying away from the White House fandango for a CWC that was supposed 
to have been critically underpinned by these earlier agreements. \7\
The Bottom Line
    The Center for Security Policy believes that it is becoming 
increasingly clear why the Clinton Administration and its allies on the 
Chemical Weapons Convention are relying on razzle-dazzle powerplays 
like today's--and eschewing opportunities for a real debate: The CWC is 
unlikely to be approved if its fate is determined on the merits.
    By contrast, critics of the CWC are committed to fostering a real, 
thorough and informed debate. Toward that end, it looks forward to the 
start of hearings next week in the Senate Foreign Relations Committee, 
led off by three of this century's most distinguished American public 
servants: Former Secretaries of Defense James Schlesinger, \8\ Donald 
Rumsfeld and Caspar Weinberger. Let the debate begin!

notes:
    \1\ See Just Which Chemical Weapons Convention Is Colin Powell 
Supporting--And Does He Know The Difference? (No. 97-D 48, 3 April 
1997).
    \2\ For more on the absurd `Poisons for Peace' aspect of the CWC, 
see Truth or Consequences #8: The CWC Will Exacerbate The Proliferation 
Of Chemical Warfare Capabilities (No. 97-D 38, 6 March 1997).
    \3\ See ``Margin of Terror: In the two years since the Tokyo subway 
incident, local and Federal officials have had a chance to prepare 
Washington for a devastating chemical or biological attack. So why 
haven't they?'' by John Cloud in the 14 March 1997 issue of the 
Washington City Paper.
    \4\ For more on the threat of chemical weapons, see Truth or 
Consequences #6: The CWC Will Not Prevent Chemical Terrorism Against 
the U.S. or its Interests (No. 97-D 30, 22 February 1997).
    \5\ For more on this fraudulent timeline, see the Center's Decision 
Brief entitled Truth or Consequences #2: Senate Does Not Need To 
Sacrifice Sensible Study of CWC to Meet an Artificial Deadline (No. 97-
D 18, 31 January 1997). For more on the non-declaration problem, see 
Truth or Consequences #9: CWC Proponents Dissemble About Treaty 
Arrangements Likely To Disserve U.S. Interests (No. 97-D 46, 27 March 
1997).
    \6\ For more on the costs--both direct and indirect to American 
firms--see the Center's Decision Brief entitled Truth or Consequences 
#5. The CWC Will Not Be Good for Business--To Say Nothing of The 
National Interest (No. 97-D 27, 17 February 1997).
    \7\ For more on Russia's chemical weapons programs, its behavior on 
the Bilateral Destruction Agreement and their implications, for the 
Chemical Weapons Convention, see the Center's Decision Brief entitled 
Russia's Covert Chemical Weapons Program Vindicates Jesse Helms' 
Continuing Opposition to Phony CW Arms Control (No. 97-D 19, 4 February 
1997).
    \8\ While all three of these gentlemen have held other, 
distinguished positions, it is noteworthy in the present context that 
Secretary Schlesinger also served as a Director of Central Intelligence 
in the Nixon Administration and as a Secretary of Energy for President 
Jimmy Carter, a Democrat.

                               __________
                                                        No. 97-D 43
                                                      21 March 1997

   Republicans' Senate Leadership Offers Constructive Alternative To 
               Fatally Flawed Chemical Weapons Convention

    (Washington, D.C.): The Senate Republican leadership (i.e., 
Majority Leader Trent Lott, Majority Whip Don Nickles, Republican 
Conference Committee Chairman Connie Mack and Conference Secretary Paul 
Coverdell) has joined the chairmen of the Senate Foreign Relations and 
Intelligence Committees (Sens. Jesse Helms and Richard Shelby, 
respectively) as sponsors of critically important legislation 
introduced yesterday by Sen. Jon Kyl (R-AZ). This bill, known as the 
``Chemical and Biological Weapons Threat Reduction Act of 1997'' (S. 
495) makes it clear that the debate over the Chemical Weapons 
Convention (CWC) is not, as some treaty proponents contend, a dispute 
between those who are opposed to chemical weapons and those who favor 
poison gas.
    S. 495 establishes, instead, that the Senate has a real choice--
between a Republican leadership approach toward dealing with the threat 
of chemical weapons that is operationally oriented, practical, 
enforceable and relatively inexpensive and the CWC approach that is 
declaratory, ineffective, unenforceable and costly. This should not be 
a hard choice for any thoughtful legislator.
    Highlights of the CBW Threat Reduction Act include the following:
  <bullet> Creating civil and criminal penalties for the acquisition, 
        possession, transfer or use of chemical and biological weapons.
  <bullet> Lays out a range of sanctions to be imposed upon any country 
        that uses CBW against another country or against its own 
        nationals. These include suspending: U.S. foreign assistance, 
        arms sales and the associated financing, multilateral trade 
        credits, aviation rights and/or diplomatic relations.
  <bullet> Calls for adding enforcement mechanisms to the existing, 
        multilateral Conventions concerning chemical and biological 
        weapons.
  <bullet> Establishes as U.S. policy the goal of preserving existing 
        national and multilateral restrictions on chemical and 
        biological trade. These arrangements are at direct risk from 
        the CWC's Article XI.
  <bullet> Affirms existing U.S. policy governing the right to use Riot 
        Control Agents (RCAs) in both peacetime and wartime. This would 
        countermand President Clinton's plan to deny American 
        servicemen and women the ability to use tear gas and other RCAs 
        during wartime search-and-rescue operations and when combatants 
        and non-combatants are intermingled.
    S. 495 makes clear the United States' intention to dismantle its 
existing stockpile of chemical weapons and to participate in sensible, 
effective non-proliferation efforts. It is a valuable contribution to 
the debate on curbing the threat posed by chemical weapons--a debate 
that is expected to become much more intense as the Clinton 
Administration tries to coerce the Senate into rubber-stamping the 
Chemical Weapons Convention by the middle of April.

                               __________
                                                        No. 97-D 34
                                                   26 February 1997

A Place To Start on Campaign Finance Reform: C.M.A. Should Refrain From 
  Putting Senators in Compromising Positions On the Chemical Weapons 
                               Convention

    (Washington, D.C.): Last night, the Chemical Manufacturers 
Association (CMA), an organization representing some 190 large American 
and multinational chemical producers, held a Washington fund-raiser for 
the Senate Majority Leader, Sen. Trent Lott (R-MS). This event 
presumably will help the distinguished Republican leader prepare his 
war chest for future electoral campaigns. It seems inconceivable, 
however, that this event could have the effect CMA probably hoped for--
namely, inducing Senator Lott to disregard the serious concerns he has 
expressed about the Chemical Weapons Convention (CWC) and to secure the 
treaty's prompt ratification.
    After all, such an initiative occurs at the very moment that Bill 
Clinton's presidency is undergoing a Chinese water-torture (pun 
intended) of daily revelations about fund-raisers buying access, 
influence and policy changes. This event, and other Capitol Hill 
occasions like it sponsored by interested parties such as CMA, can only 
complicate the position of Senators obliged to act on the controversial 
CWC.
    The CMA is, nonetheless, reportedly investing millions of dollars 
in its campaign for CWC ratification--a campaign being carefully 
coordinated with the Clinton Ad- 
ministration and others. As the Center has documented in recent weeks 
in its Truth or Consequences series of Decision Briefs, \1\ this effort 
appears intended to obscure the key problems with this convention that 
have been identified by an array of knowledgeable experts--problems 
called to the attention of the Senate a few months ago by no less a 
figure than Senator Lott.
Senator Lott, On the Record
    In fact, on 9 September 1996--shortly before the administration 
realized that it did not have the votes to approve the Chemical Weapons 
Convention and asked that it be withdrawn from consideration--Senator 
Lott made an important floor speech concerning the CWC's myriad flaws. 
Highlights of his remarks included the following:
          ``...As we near consideration of [the CWC], I wanted to share 
        with my colleagues some of the correspondence that I have 
        recently received. Late on Friday of last week, I received a 
        letter of opposition to the Convention signed by more than 50 
        defense and foreign policy experts, including two former 
        Secretaries of Defense, former members of the Joint Chiefs of 
        Staff, and many others.
          ``The letter made four fundamental points: The Chemical 
        Weapons Convention is not global, it is not effective, and is 
        not verifiable, but it will have significant costs to American 
        security. Their letter concludes by stating that, `The national 
        security benefits of the Chemical Weapons Convention clearly do 
        not outweigh its considerable costs. Consequently, we 
        respectfully urge you to reject ratification of the CWC unless 
        and until it is made genuinely global, effective, and 
        verifiable.'
          ``This is not my judgment. It is the judgment, however, of 
        Caspar Weinberger, William Clark, Dr. Jeane Kirkpatrick, Ed 
        Meese, Dick Cheney, and many others who served with distinction 
        under Presidents Reagan and Bush. I think their views deserve 
        serious consideration from every Member.
          ``As you will note, two of those names that I read are former 
        Secretaries of Defense and certainly highly respected. Our 
        colleague from the House of Representatives, Dick Cheney, is 
        one that I really had not known exactly what his position was, 
        so it was of great interest to me to see what his thoughts 
        might be.
          ``I have two other letters that I encourage Members to 
        review. First, the National Federation of Independent Business 
        wrote to me today expressing serious concern about the impact 
        of the CWC on the more than 600,000 members of the NFIB. The 
        letter notes that under the CWC, for the first time small 
        businesses would be subject to a foreign entity inspecting 
        their businesses. The concerns that are expressed concerning 
        increased regulatory burden of the Chemical Weapons Convention 
        on American small business I think should be weighed very 
        carefully before coming to a decision about his or her attitude 
        and what the position would be of that Senator on the 
        convention. I know my colleagues do not want to vote first and 
        ask questions later when it comes to small business, which 
        already bears a disproportionate share of the regulatory burden 
        from the Federal Government.
          ``I also received a letter today from retired Gen. James A. 
        Williams, former head of the Defense Intelligence Agency with 
        almost four decades of experience in intelligence. General 
        Williams raises very serious concerns over the potential of CWC 
        being used to gain proprietary information from American 
        business. He concludes that `there is potential for the loss of 
        untold billions of dollars of trade secrets which can be used 
        to gain competitive advantage, to shorten R&D cycles, and to 
        steal U.S. market share.' Many businesses have contacted my 
        office and the offices of other Senators expressing these and 
        similar concerns about Senate action on this convention. ...
          ``I wanted to call to the Senate's attention this 
        correspondence that I have outlined because it is very 
        important that a range of views be made available to all 
        Senators. The administration has been making its case for quite 
        some time, but opponents of the convention have just begun the 
        serious examination the convention really deserves. ...
          ``My own personal greatest concern is the question of 
        verification. What do we do about Iraq? If we pass a convention 
        like this, that would be applicable to us, sort of the law-
        abiding citizens of the world, how do we make sure what is 
        happening in Iraq, North Korea, and Libya, the renegade 
        countries of the world? Is this going to be a situation where 
        we go forward with this convention, this Chemical Weapons 
        Convention, yet those who are the real threat do not 
        participate, or deny that they are involved, or we are not in a 
        position where we can verify what they are actually doing?''
The Bottom Line
    As the foregoing remarks indicate, Senator Lott has approached the 
controversial Chemical Weapons Convention in a fair, reasonable and 
statesmanlike fashion. He has been responsive to the Clinton 
Administration's insistence that the treaty be scheduled for a vote 
last fall, its request on 12 September 1996 that the order for a vote 
be vitiated (in the face of certain defeat) and its demands this year 
for negotiations aimed at reviving the CWC's prospects and/or fixing 
the accord's shortcomings. At the same time, he has striven to ensure 
that the concerns of his colleagues and others opposed to this treaty 
are not given short shrift.
    It would be a grave disservice to the Majority Leader, to the 
institution he manages so ably and to the Nation if the appearance that 
strings were attached to the Chemical Manufacturers Association's 
largess were to sully Senator Lott's future stewardship of the top CMA 
legislative agenda item--the CWC. The Center for Security Policy calls 
on CMA to refrain from using its deep-pocketed Political Action 
Committee in ways that could compromise the integrity of the debate on 
the Chemical Weapons Convention and put key participants in that debate 
in compromising positions.

notes:
    \1\ These papers--dealing with issues like the Convention's impact 
on the U.S. military, on American businesses, on citizens' 
Constitutional rights, etc.--can be accessed via the Center's site on 
the World Wide Web (www.security-policy.org) or by contacting the 
Center.

                               __________
                                                        No. 97-D 18
                                                    31 January 1997

 Truth or Consequences #2: Senate Does Not Need To Sacrifice Sensible 
             Scrutiny of CWC To Meet an Artificial Deadline

    (Washington, D.C.): A centerpiece of the Clinton Administration's 
campaign to obtain expedited Senate action on the controversial 
Chemical Weapons Convention (CWC) is the argument that something 
terrible will happen if the treaty is not ratified by April 29th. 
Precisely what the terrible something is--and what its implications for 
U.S. interests will be--has proved to be a little hard to pin down. The 
reason for this is because there will be no significant harm if the 
Senate declines to rubber-stamp this ill-conceived Convention in 
response to what amounts to a wholly artificial deadline.
The CWC Is Incomplete
    Clinton Administration officials claim that if the United States 
doesn't ratify the Chemical Weapons Convention before 29 April, it will 
be unable to participate in deliberations at the Organization for the 
Prohibition of Chemical Weapons (OPCW) which will ``flesh out'' some 
critical issues. The Administration thus admits that the treaty 
awaiting the advice and consent of the U.S. Senate is not a finished 
document.
    In the Bush Administration's haste to have a Convention ready for 
signature prior to its departure from office, a number of details--for 
example, particulars concerning the conduct of on-site inspections--
were left unresolved. They were to be finalized by a preparatory 
commission prior to entry-into-force. Such details can have important 
consequences.
    CWC advocates point to this reality as a compelling reason for 
getting the United States to ratify the treaty before April 29th (the 
date on which the Convention is supposed to enter into force). But they 
cannot have it both ways: If the details yet to be worked out may 
materially affect the acceptability of the treaty, the Senate is being 
asked to sign on to a work-in-progress--or perhaps a pig-in-a-poke 
since the negotiations may or may not come out acceptably. On the other 
hand, if the treaty is ripe for Senate approval, the details that 
remain to be sorted out should not be so important. In that case, the 
argument that the United States must participate in their negotiation 
as a state party is not compelling.
The United States is Already Involved in the Ongoing Negotiations
    The truth is that the United States is already participating in the 
preparatory commission's negotiations on the CWC's outstanding details, 
even before the Senate gives its advice and consent. As a result, the 
administration is being represented, notwithstanding the fact that the 
U.S. has yet to become a state party.
Russia Is Not a State Party, Either
    Another nation has to have a keen interest in the outcome of these 
negotiations: Russia. In fact, the Kremlin has already served notice 
that if the OPCW proceeds to finalize the CWC's implementation and 
other outstanding particulars in ways unsatisfactory to Russia's 
interests, Moscow will never agree to ratify.
    European and other states parties appear to have taken this Russian 
threat seriously and seem increasingly disinclined to complete work on 
the treaty's details pending Russia's ratification. \1\ If so, the 
United States should feel no undue pressure to complete its own 
ratification debate. In any event, it is far from clear why the U.S. 
should feel compelled to ratify the treaty before Russia does. After 
all, Russia has the world's largest arsenal of chemical weapons, 
continues to produce new and more dangerous chemical arms and is widely 
expected to continue to do so even if Russia becomes a state party.
The United States Will Have Considerable Influence Irrespective of When 
        It Joins the CWC
    By virtue of the immense size, technological advantages and 
valuable products of the U.S. commercial chemical industry, the United 
States will inevitably be the ``600-pound gorilla'' in the OPCW if and 
when it decides to become a state party. The contention that the 
preferences of the United States will be ignored in the implementation 
of the CWC is, consequently, implausible.
    This is particularly true since Washington will be expected to pay 
25 percent of the OPCW's operating costs--a substantially larger 
portion of the organization's budget than will be borne by any other 
nation. Even if, as the Clinton Administration claims, this tithe will 
amount to no more than $25 million annually, \2\ such a sum represents 
an obvious source of leverage should the United States need to exercise 
it to protect its interests in OPCW deliberations.
The United States Will Have Standing Irrespective of When It Ratifies 
        the CWC
    CWC proponents suggest that, if the United States does not ratify 
the treaty by 29 April, it will not be an original state party--
condemning it to second-class status with adverse implications for its 
ability to have its personnel participate in on-site inspections. In 
fact, by virtue of its being among the first nations to sign this 
Convention, the United States will in accordance with standard 
diplomatic practice be considered to be an original state party 
whenever it chooses to join the treaty regime.
    While it is true that, until that time, the United States will not 
be able to have its personnel conduct on-site inspections, this may 
well prove to be the case even if the U.S. does ratify the CWC! In 
fact, countries being subjected to challenge inspections have the right 
to deny individual inspectors entry. Those nations unfriendly to the 
United States and, presumably, of greatest concern from a compliance 
point of view, are likely to exercise this right to preclude U.S. 
monitors. After all, if there is any prospect that an on-site inspector 
will be able to detect an illegal, covert chemical weapons program, 
chances are that it will be an American that does it.
    (Unfortunately, those chances are likely to be reduced dramatically 
should the Clinton Administration succeed in an initiative now being 
discussed in the interagency process, one that would start sharing with 
the OPCW sensitive U.S. methods for detecting clandestine programs. 
Similar training given to the International Atomic Energy Agency gave 
representatives of Saddam Hussein's government and other rogue states 
invaluable lessons in how to defeat international monitoring and on-
site inspection regimes.)
    For its part, however, the United States will find it difficult--if 
not impossible as a practical matter--to object to all of the foreign 
inspectors whose participation in challenge inspections in this country 
will be of concern. Needless to say, this will not be because of any 
danger that a covert American CW program will be detected since the 
U.S. will have no such program. Rather, it will be because such 
individuals will assuredly try to expropriate confidential business 
information (CBI) or other sensitive data from the targeted U.S. 
facilities.
The Bottom Line
    In short, the April 29th deadline is an artificial one, promoted 
principally so as to try to force the U.S. Senate to complete action on 
the Chemical Weapons Convention without further, substantive 
consideration of this accord's myriad shortcomings. So artificial is 
this deadline that the Clinton Administration bears considerable 
responsibility for creating it. After all, the administration last 
October vigorously encouraged Hungary to become the 65th nation to 
deposit its instruments of ratification, thereby starting the clock on 
the 6-month run-up to entry-into-force. Its trans- 
parent purpose in doing so was to intensify pressure on the Senate to 
provide its uninformed advice and consent.
    If anything, the Administration's efforts to try to foreshorten or 
confuse the debate about the Chemical Weapons Convention suggest that 
the Senate would be well advised to defer U.S. ratification until after 
the treaty enters into force. Doing so would afford an opportunity to 
validate--or disprove--the various concerns being expressed by this 
treaty's knowledgeable critics. It may, in fact, be the only way such 
concerns can be fully and authoritatively addressed without grave risk 
to American security, commercial and taxpayer interests.
    Last but not least, it must be said that a treaty not worth 
ratifying is assuredly not worth ratifying quickly. For reasons 
described at length elsewhere, \3\ it would be unsafe to ratify the CWC 
at any speed.

notes:
    \1\ There are as-yet-unsubstantiated rumors circulating in The 
Hague (where the Organization for the Prohibition of Chemical Weapons 
or OPCW is located) that the date of entry into force may be postponed, 
rather than have the CWC come into effect without the participation of 
nations such as Russia and possibly China (which has yet to deposit the 
instruments of ratification).
    \2\ The truth is, however, that the OPCW is constantly revising its 
budget estimates in an upwards direction. A more realistic estimate--
derived from actual experience with another U.N. bureaucracy--the 
International Atomic Energy Agency (IAEA)--suggests that the budget is 
more likely to be on the order of $266 million, which would translate 
into a U.S. share of at least $66 million per year.
    \3\ See, for example, Truth or Consequences #1: Center Challenges 
Administration Efforts to Distort, Suppress Debate on CWC (No. 97-D 14, 
28 January 1997). Other products detailing the CWC's fatal flaws can be 
obtained via the Center's site on the World Wide Web (www.security-
policy.org).

                               __________
                                                         No. 97-D 7
                                                    13 January 1997

Clinton's Chemical Power Play: Bad For The Senate, Bad For The National 
                                Interest

    (Washington, D.C.): The Clinton Administration is mounting a 
campaign against the leadership of the U.S. Senate that has all the 
subtlety of a Mafia hit. The immediate object of its intimidation is 
Senator Trent Lott (R-MS), whose knees are at risk of being broken 
(presumably, figuratively) unless he bends to the President's will. To 
do so, however, the Majority Leader will, in turn, have to ``take out'' 
the chairman of the Senate Foreign Relations Committee, Senator Jesse 
Helms (R-NC)--and with him, the Senate's rules concerning the 
consideration of treaties and that institution's way of doing business 
more generally.
    The Administration is resorting to such tactics for a very simple 
reason: Senator Helms is in a position indefinitely to bottle up a 
highly controversial treaty, the Chemical Weapons Convention (CWC). 
Incredible though it may seem Secretary of State-designate Madeleine 
Albright declared last week that ratification of this Convention was 
the Clinton team's top, near-term foreign policy priority. 
Unfortunately for them--and happily for the national interest--Senate 
procedures permit Chairman Helms permanently to pocket veto this treaty 
by declining to bring it up for a vote in his Committee.
Jesse Helms--Horatius at the Bridge
    This is fortuitous for the national interest because, to his 
lasting credit, Senator Helms correctly concluded in the course of 
intensive Senate consideration of the Chemical Weapons Convention last 
fall that this treaty was fatally flawed. Since a sufficient number of 
Senators agreed with him in September 1996 to defeat the CWC, the 
Administration decided to withdraw it--hoping it would meet a different 
fate if presented later. Apparently, such is the Clinton team's 
contempt for members of the Senate--which is exceeded only by its 
disdain for their constitutional role in treaty-making \1\--that it 
thinks legislators either have forgotten what is wrong with this 
Convention or can be euchred into agreeing to it, if only enough 
coercive pressure is brought to bear.
    Thanks to Chairman Helms and thoughtful colleagues like Senator Jon 
Kyl (R-AZ), though, the Senate will be reminded of the overarching 
reason for opposing the Chemical Weapons Convention: It is likely to 
contribute to the proliferation of chemical weapons, not eliminate it.
    Not Global: After all, the Convention will not impose a global ban 
on chemical weapons, let alone rid them from the world, as its 
proponents often claim. In fact, it will not apply to every country 
that has chemical weapons. A number of the most dangerous rogue 
states--including North Korea, Syria and Iraq--have announced that they 
will not become parties to the CWC. Such nations tend cynically to see 
such ``international norms'' not as an impediment to pursuing 
prohibited activities but as an invitation to do so.
    Not Verifiable: What is more, thanks to the inherent 
unverifiability of the Chemical Weapons Convention, even some of those 
who do join the regime will retain covert chemical stockpiles. The 
unalterable fact of life is that chemical weapons can be easily 
produced. By using facilities that are designed, for example, to 
manufacture fertilizers, pesticides or pharmaceuticals, they can be 
produced in considerable (even ``militarily significant'') quantities 
in relatively short periods of time. This is an objective reality that 
means the CWC is not simply ``less than perfect''; it is an exercise in 
futility.
    Indeed, Saddam Hussein has demonstrated that on-site inspections 
far more intrusive and timely than those provided for by the CWC cannot 
confidently monitor the covert weapons programs of totalitarian regimes 
governing closed societies. Consequently, few competent experts believe 
that industrialized states like Russia and China will actually get rid 
of their existing arsenals, let alone forego future production--
notwithstanding their status as signatories to the CWC.
    `Poisons for Peace': Third, the CWC obliges the United States to 
help other states parties--including countries like Iran and Cuba--to 
gain state-of-the-art manufacturing capabilities that can readily be 
used to produce chemical weapons. Unilateral trade embargoes and 
multilateral technology control arrangements against such parties to 
the CWC would be prohibited. This obligation is a recipe for rampant 
chemical weapons proliferation. The prospect that it provides for 
expanded overseas sales by U.S. chemical manufacturers, however, is a 
principal reason why their powerful lobby is helping the Clinton 
Administration make offers to Senators ``they can't refuse.''
    Other Fatal Flaws: Opponents of the Chemical Weapons Convention 
recognize that it will have other undesirable repercussions, as well. 
For one, it will likely create a false sense of security that the 
burgeoning problem of chemical weapons proliferation has been 
meaningfully addressed. This placebo effect will almost exacerbate the 
dangers of chemical attacks by reducing our preparedness to deal with 
them. For another, the CWC--as interpreted by the Clinton 
Administration--will have the absurd effect of denying our military the 
right to use chemical-based Riot Control Agents like tear gas to 
protect themselves in situations where the use of lethal force can, and 
should, be avoided. Finally, the CWC will grant a U.N. agency the right 
to inspect anyplace in America--private or public, factories, 
facilities, even homes--on short notice, without a warrant, and without 
compensation for the associated costs, including for any proprietary 
information that might thus be lost.
The Bottom Line
    Today, on the fourth anniversary of the signing of the Chemical 
Weapons Convention, President Clinton issued a statement that declared 
disingenuously: ``Early CWC ratification by the United States is 
extraordinarily important. The security of our soldiers and citizens is 
at stake, as is the economic well-being of our chemical industry.'' He 
concluded by saying: ``I look forward to working with the Senate 
leadership to get the job [of ratifying the Convention] done.''
    Notice is thus served. Using such presidential statements and phone 
calls, a drumbeat of sympathetic editorials and op.eds. And other 
pressure tactics, the Administration hopes to squeeze Senator Lott to 
break the CWC loose. It has even asked him to remove the Chemical 
Weapons Convention from the jurisdiction of Senator Helms' committee. 
Were Sen. Lott to agree, he would be creating a precedent that would 
wreak havoc on Senate operations. Fortunately, while the Majority 
Leader is committed to cooperate with the President where possible, he 
is unlikely to accommodate an Administration power play where 
cooperation is neither in the interest of the Senate as an institution 
nor the Nation as a whole.

notes:
    \1\ See the Center's Press Release entitled Will the Senate Let 
Clinton Rewrite the C.F.E. Treaty Without Its Advice and Consent? (No. 
96-P 86, 18 September 1996).

                               __________
                                                         No. 97-T 5
                                                     8 January 1997

 Here We Go Again: Clinton Presses Anew For Senate Approval Of Flawed, 
           Unverifiable, Ineffective Chemical Weapons Treaty

    (Washington, D.C.): In recent days, the Clinton Administration has 
launched a new campaign to secure Senate advice and consent to 
ratification of the Chemical Weapons Convention (CWC). Such a campaign 
was made necessary by its decision last September to withdraw the 
treaty from scheduled Senate consideration, rather than risk its 
certain defeat.
    Now, sympathetic columnists like the Washington Post's Mary McGrory 
have been enlisted to hammer Senate Majority Leader Trent Lott (R-MS) 
to bring the CWC back to the Senate floor. Retired flag officers like 
Admiral Elmo Zumwalt are being trotted out to declare that the military 
strongly supports this Convention. And just yesterday, the President 
used the occasion of the receipt of the interim report of his 
commission on Gulf War syndrome--which may be related to widespread 
exposure of U.S. servicemen and women to Iraqi chemical weapons--to 
imply that ratification of the CWC would ``protect the soldiers of the 
United States and our allies in the future'' by ``mak[ing] it harder 
for rogue states to acquire chemical weapons in the future.''
    Senator Lott has responded to such pressure by announcing yesterday 
that he would ask the ``appropriate committee members and chairmen'' to 
reopen hearings on the treaty early in this session with a view to 
seeing what can be done to address the scourge of chemical weapons and 
the threat they pose to world peace. That decision puts the ball 
squarely back, first and foremost, in the court of Foreign Relations 
Committee chairman Jesse Helms (R-NC), whose opposition to the CWC was 
critical to the treaty's withdrawal from consideration last fall.
Let the Debate Begin, Again
    The Center for Security Policy welcomes the prospect of new 
hearings into the Chemical Weapons Convention, presumably before not 
only Sen. Helms' panel but also before the Armed Services, Intelligence 
(under new management) and perhaps other committees. With the 
installation yesterday of new Members comprising nearly one-fifth of 
the Senate, there is clearly a need to review the gravity of the 
problem posed by the proliferation of chemical weapons and the 
regrettable fact that this convention will not only prove no real 
impediment to such proliferation--it will probably serve actually to 
exacerbate the problem.
    The Center looks forward to continuing during such a review the 
educational role it performed last year. As part of that function, it 
is attaching for the information of all Senators--and in response to 
Adm. Zumwalt's op.ed. In Monday's Washington Post--a letter sent to 
Senator Lott on 6 September 1996 by 68 distinguished former senior 
civilian and military officials, including notably former Bush 
Administration Secretary of Defense Richard Cheney. They conclude 
authoritatively that the CWC should be rejected in its present form 
since it will not be global in its scope, verifiable or effective. The 
Center is confident that sufficient Senators will reach a similar 
conclusion should the Foreign Relations Committee decide to report the 
treaty out for action by the full Senate.

                                                 September 9, 1996.
Hon. Trent Lott,
Majority Leader, United States Senate,
Washington, DC 20510.
    Senator Lott: As you know, the Senate is currently scheduled to 
take final action on the Chemical Weapons Convention (CWC) on or before 
September 14th. This Treaty has been presented as a global, effective 
and verifiable ban on chemical weapons. As individuals with 
considerable experience in national security matters, we would all 
support such a ban. We have, however, concluded that the present 
convention is seriously deficient on each of these scores, among 
others.
    The CWC is not global since many dangerous nations (for example, 
Iran, Syria, North Korea, and Libya) have not agreed to join the treaty 
regime. Russia is among those who have signed the Convention, but is 
unlikely to ratify--especially without a commitment of billions in U.S. 
aid to pay for the destruction of Russia's vast arsenal. Even then, 
given our experience with the Kremlin's treaty violations and its 
repeated refusal to implement the 1990 Bilateral Destruction Agreement 
on chemical weapons, future CWC violations must be expected.
    The CWC is not effective because it does not ban or control 
possession of all chemicals that could be used for lethal weapons 
purposes. For example, it does not prohibit two chemical agents that 
were employed with deadly effect in World War I--phosgene and hydrogen 
cyanide. The reason speaks volumes about this treaty's impractical 
nature: they are too widely used for commercial purposes to be banned.
    The CWC is not verifiable as the U.S. intelligence community has 
repeatedly acknowledged in congressional testimony. Authoritarian 
regimes can be confident that their violations will be undetectable. 
Now, some argue that the treaty's intrusive inspections regime will 
help us know more than we would otherwise. The relevant test, however, 
is whether any additional information thus gleaned will translate into 
convincing evidence of cheating and result in the collective imposition 
of sanctions or other enforcement measures. In practice, this test is 
unlikely to be satisfied since governments tend to took the other way 
at evidence of non-compliance rather than jeopardize a treaty regime.
    What the CWC will do, however, is quite troubling: It will create a 
massive new, U.N.-style international inspection bureaucracy (which 
will help the total cost of this treaty to U.S. taxpayers amount to as 
much as $200 million per year). It will jeopardize U.S. citizens' 
constitutional rights by requiring the U.S. government to permit 
searches without either warrants or probable cause. It will impose a 
costly and complex regulatory burden on U.S. industry. As many as 8,000 
companies across the country may be subjected to new reporting 
requirements entailing uncompensated annual costs of between thousands 
to hundreds-of-thousands of dollars per year to comply. Most of these 
American companies have no idea that they will be affected. And perhaps 
worst of all, the CWC will undermine the standard of verifiability that 
has been a key national security principle for the United States.
    Under these circumstances, the national security benefits of the 
Chemical Weapons Convention clearly do not outweigh its considerable 
costs. Consequently, we respectfully urge you to reject ratification of 
the CWC unless and until it is made genuinely global, effective and 
verifiable.

  Signatories on Letter to Senator Trent Lott Regarding the Chemical 
                           Weapons Convention

                  As of September 9, 1996; 11:30 a.m.

Former Cabinet Members:
Richard B. Cheney, former Secretary of Defense

William P. Clark, former National Security Advisor to the President
Alexander M. Haig, Jr., former Secretary of State (signed on September 
        10)

John S. Herrington, former Secretary of Energy (signed on September 9)

Jeane J. Kirkpatrick, former U.S. Ambassador to the United Nations

Edwin Meese III, former U.S. Attorney General

Donald Rumsfeld, former Secretary of Defense (signed on September 10)

Caspar Weinberger, former Secretary of Defense
Additional Signatories (retired military):

General John W. Foss, U.S. Army (Retired), former Commanding General, 
        Training and Doctrine Command

Vice Admiral William Houser, U.S. Navy (Retired), former Deputy Chief 
        of Naval Operations for Aviation

General P.X. Kelley, U.S. Marine Corps (Retired), former Commandant of 
        U.S. Marine Corps (signed on September 9)

Lieutenant General Thomas Kelly, U.S. Army (Retired), former Director 
        for Operations, Joint Chiefs of Staff (signed on September 9)

Admiral Wesley McDonald, U.S. Navy (Retired), former Supreme Allied 
        Commander, Atlantic

Admiral Kinnaird McKee, U.S. Navy (Retired), former Director, Naval 
        Nuclear Propulsion

General Merrill A. McPeak, U.S. Air Force (Retired), former Chief of 
        Staff, U.S. Air Force

Lieutenant General T.H. Miller, U.S. Marine Corps (Retired), former 
        Fleet Marine Force Commander/Head, Marine Aviation

General John. L. Piotrowski, U.S. Air Force (Retired), former Member of 
        the Joint Chiefs of Staff as Vice Chief, U.S. Air Force

General Bernard Schriever, U.S. Air Force (Retired), former Commander, 
        Air Research and Development and Air Force Systems Command

Vice Admiral Jerry Unruh, U.S. Navy (Retired), former Commander 3rd 
        Fleet (signed on September 10)

Lieutenant General James Williams, U.S. Army (Retired), former 
        Director, Defense Intelligence Agency
Additional Signatories (non-military):
Elliott Abrams, former Assistant Secretary of State for Latin American 
        Affairs (signed on September 9)

Mark Albrecht, former Executive Secretary, National Space Council

Kathleen Bailey, former Assistant Director of the Arms Control and 
        Disarmament Agency

Robert B. Barker, former Assistant to the Secretary of Defense for 
        Nuclear and Chemical Weapon Matters

Angelo Codevilla, former Senior Fellow, Hoover Institute (signed on 
        September 10)

Henry Cooper, former Director, Strategic Defense Initiative 
        Organization

J.D. Crouch, former Principal Deputy Assistant Secretary of Defense

Midge Decter, former President, Committee for the Free World

Kenneth deGraffenreid, former Senior Director of Intelligence Programs, 
        National Security Council

Diana Denman, former Co-Chair, U.S. Peace Corps Advisory Council

Elaine Donnelly, former Commissioner, Presidential Commission on the 
        Assignment of Women in the Armed Services

David M. Evans, former Senior Advisor to the Congressional Commission 
        on Security and Cooperation in Europe

Charles Fairbanks, former Deputy Assistant Secretary of State

Douglas J. Feith, former Deputy Assistant Secretary of Defense

Rand H. Fishbein, former Professional Staff member, Senate Defense 
        Appropriations Subcommittee

Frank J. Gaffney, Jr., former Acting Assistant Secretary of Defense

William R. Graham, former Science Advisor to the President

E.C. Grayson, former Principal Deputy Assistant Secretary of the Navy

James T. Hackett, former Acting Director of the Arms Control and 
        Disarmament Agency

Stefan Halper, former Deputy Assistant Secretary of State (signed on 
        September 10)

Thomas N. Harvey, former National Space Council Staff Officer (signed 
        on September 9)

Charles A. Hamilton, former Deputy Director, Strategic Trade Policy, 
        U.S. Department of Defense

Amoretta M. Hoeber, former Deputy Under Secretary, U.S. Army

Charles Horner, former Deputy Assistant Secretary of State for Science 
        and Technology

Fred Ikle, former Under Secretary of Defense for Policy

Sven F. Kraemer, former Director for Arms Control, National Security 
        Council

Charles M. Kupperman, former Special Assistant to the President

John Lehman, former Secretary of the Navy

John Lenczowski, former Director for Soviet Affairs, National Security 
        Council

Bruce Merrifield, former Assistant Secretary for Technology Policy, 
        Department of Commerce

Taffy Gould McCallum, columnist and free-lance writer

James C. McCrery, former senior member of the Intelligence Community 
        and Arms Control Negotiator (Standing Consultative Committee)

J. William Middendorf II, former Secretary of the Navy (signed on 
        September 10)

Laurie Mylroie, best-selling author and Mideast expert specializing in 
        Iraqi affairs

Richard Perle, former Assistant Secretary of Defense

Norman Podhoretz, former editor, Commentary Magazine

Roger W. Robinson, Jr., former Chief Economist, National Security 
        Council

Peter W. Rodman, former Deputy Assistant to the President for National 
        Security Affairs and former Director of the Policy Planing 
        Staff, Department of State

Edward Rowny, former Advisor to the President and Secretary of State 
        for Arms Control

Carl M. Smith, former Staff Director, Senate Armed Services Committee

Jacqueline Tillman, former Staff member, National Security Council

Michelle Van Cleave, former Associate Director, Office of Science and 
        Technology

William Van Cleave, former Senior Defense Advisor and Defense Policy 
        Coordinator to the President

Malcolm Wallop, former United States Senator

Deborah L. Wince-Smith, former Assistant Secretary for Technology 
        Policy, Department of Commerce

Curtin Winsor, Jr., former U.S. Ambassador to Costa Rica

Dov S. Zakheim, former Deputy Under Secretary of Defense

                               __________
                                                        No. 97-D 48
                                                       3 April 1997

Just Which Chemical Weapons Convention Is Colin Powell Supporting--And 
                      Does He Know The Difference?

    (Washington, D.C.): Starting tomorrow, the Clinton Administration 
intends to make General Colin Powell--the former Chairman of the Joint 
Chiefs of Staff--its Poster Child for the campaign to gain Senate 
approval of the controversial Chemical Weapons Convention (CWC). 
According to the Associated Press, this campaign will be kicked off at 
a ``highpowered, bipartisan gathering of treaty supporters ... 
featuring Congressmen, veterans' group leaders, arms experts, religious 
organization heads and military leaders, past and present,'' including 
Army Gen. Colin Powell.
Does Powell Know What He Is Endorsing?
    A warning to General Powell is in order, however: The Senate was 
recently treated to the spectacle of another accomplished retired flag 
officer, General Norman Schwarzkopf, who had to acknowledge that--while 
he is on record as supporting the CWC--he is not familiar with its 
details. For example, under questioning by Sen. Jim Inhofe (R-OK), 
chairman of the Armed Services Committee's Readiness Subcommittee, the 
following exchange occurred:
          Sen. Inhofe: ``Do you think it wise to share with countries 
        like Iran our most advanced chemical defensive equipment and 
        technologies?''
          Gen. Schwartzkopf: ``Our defensive capabilities?''
          Sen. Inhofe: ``Yes.''
          Gen. Schwartzkopf: ``Absolutely not.''
          Sen. Inhofe: ``Well, I'm talking about sharing our advanced 
        chemical defensive equipment and technologies, which I believe 
        under Article X [they] would be allow[ed] to [get]. Do you 
        disagree?''
          Gen. Schwartzkopf: ``As I said Senator, I'm not familiar with 
        all the details--I--you know, a country, particularly like 
        Iran, I think we should share as little as possible with them 
        in the way of our military capabilities.''
Beware the `Bait and Switch'
    General Powell and others who served under President Bush should 
also be aware that there have been--as the Center noted on 10 February 
1997 \1\--significant changes in a number of the assumptions, 
conditions and circumstances that underpinned the Bush Administration's 
judgment that the Chemical Weapons Convention was in the national 
interest. These changes have prompted several of General Powell's 
former colleagues--including Secretary of Defense Richard Cheney, Air 
Force Chief of Staff Merrill McPeak, Assistant Arms Control and 
Disarmament Agency Director Kathleen Bailey, Assistant to the Secretary 
for Atomic Energy Robert Barker and Principal Deputy Assistant 
Secretary of Defense J.D. Crouch--to urge that the present treaty be 
rejected by the Senate.\2\
    A sample of the changes that have materially altered the 
acceptability, if not strictly speaking the terms, of the Chemical 
Weapons Convention include the following:
  <bullet> Item: Russia's Evisceration of the Bilateral Destruction 
        Agreement
    The Bush Administration anticipated that a Bilateral Destruction 
Agreement (BDA) forged by Secretary of State James Baker and his Soviet 
counterpart, Eduard Shevardnadze in 1990, would critically underpin the 
Chemical Weapons Convention. As the Center for Security Policy observed 
in early February,\3\ this agreement obliged Moscow to provide a full 
and accurate accounting and eliminate most of its vast chemical 
arsenal. The BDA was also expected to afford the U.S. inspection rights 
that would significantly enhance the more limited arrangements provided 
for by the CWC.
    These assumptions about the BDA have, regrettably, not been 
fulfilled. To the contrary, Russian Prime Minister Victor Chernomyrdin 
declared last year that the Bilateral Destruction Agreement has 
``outlived its usefulness'' for Russia. What is more, it is now public 
knowledge that Russia is continuing to produce extremely lethal binary 
munitions--weapons that have been specifically designed to circumvent 
the limits and defeat the inspection regime of the Chemical Weapons 
Convention.\4\
  <bullet> Item: On-Site Inspections Won't Prevent Cheating
    When the Bush Administration finalized the CWC, there was 
considerable hope that intrusive on-site inspections would meaningfully 
contribute to the detection and proof of violations, and therefore to 
deterring them. Five years of experience with the U.N. inspections in 
Iraq--inspections that were allowed to be far more thorough, timely and 
intrusive than those permitted under this Convention--have established 
that totalitarian rulers of a closed society can successfully defeat 
such monitoring efforts.
    In a 4 February 1997 letter to National Security Advisor Samuel 
Berger, Senate Foreign Relations Committee Chairman Jesse Helms noted 
that:
          ``Unclassified portions of the National Intelligence Estimate 
        on U.S. Monitoring Capabilities [prepared after Mr. Bush left 
        office] indicate that it is unlikely that the U.S. will be able 
        to detect or address violations in a timely fashion, if at all, 
        when they occur on a small scale. And yet, even small-scale 
        diversions of chemicals to chemical weapons production are 
        capable, over time, of yielding a stockpile far in excess of a 
        single ton [which General Shalikashvili described in 
        congressional testimony on 11 August 1994 is a level which 
        could, `in certain limited circumstances ... have a military 
        impact.'] Moreover, few countries, if any, are engaging in much 
        more than small-scale production of chemical agent. For 
        example, according to [the 4 February 1997] Washington Times, 
        Russia may produce its new nerve agents at a `pilot plant' in 
        quantities of only `55 to 110 tons annually.' ''
  <bullet> Item: Facilitating Proliferation: `Poisons for Peace'
    In the years since the Bush Administration signed the Chemical 
Weapons Convention, it has become increasingly clear that sharing 
nuclear weapons-relevant technology with would-be proliferators simply 
because they promise not to pursue nuclear weapons programs is folly. 
Indeed, countries like North Korea, Iran, Iraq, India, Pakistan, 
Argentina, Brazil and Algeria have abused this ``Atoms for Peace'' 
bargain by diverting equipment and know-how provided under the Nuclear 
Non-Proliferation Treaty (NPT) to prohibited weapons purposes.
    Unfortunately, commercial chemical manufacturing technology can, if 
anything, be diverted even more easily to weapons purposes than can 
nuclear research and power reactors. For this reason, recent experience 
with the NPT suggests that the Chemical Weapons Convention's Article 
XI--an article dubbed the ``Poisons for Peace'' provision--is 
insupportable. It stipulates that the Parties shall:
        ``Not maintain among themselves any restrictions, including 
        those in any international agreements, incompatible with the 
        obligations undertaken under this Convention, which would 
        restrict or impede trade and the development and promotion of 
        scientific and technological knowledge in the field of 
        chemistry for industrial, agricultural, research, medical, 
        pharmaceutical or other peaceful purposes.''
    Such an obligation must now be judged a recipe for accelerating 
proliferation of chemical weapons, not restricting it. Even if the 
United States were to become a party to the CWC and choose to ignore 
this treaty commitment, other advanced industrialized countries will 
certainly not refrain from selling dual-use chemical manufacturing 
technology if it means making a lucrative sale.
  <bullet> Item: U.S. Chemical Defenses Will be Degraded
    When the Bush Administration signed the CWC, proponents offered 
assurances that the treaty would not diminish U.S. investment in 
chemical defenses. Such assurances were called into question, however, 
by an initiative unveiled in 1995 by the then-Vice Chairman of the 
Joint Chiefs of Staff, Admiral William Owens. He suggested cutting $805 
million from counter-proliferation support and chemical and biological 
defense programs through Fiscal Year 2001.
    This was followed by a recommendation from JCS Chairman General 
John Shalikashvili in February 1996--a few weeks before he told the 
Senate Foreign Relations Committee that the Department of Defense is 
committed to a ``robust'' chemical defense program. He sought to slash 
chemical/biological defense activities and investment by over $1.5 
billion through 2003.
    The rationale for both these gambits? Thanks to a perceived 
reduction in the chemical warfare threat to be brought about by the 
CWC, investments in countering that threat could safely enjoy lower 
priority. Such reductions would have deferred, if not seriously 
disrupted, important chemical and biological research and develop- 
ment efforts, and delayed the procurement of proven technologies. While 
the Owens and Shalikashvili initiatives were ultimately rejected, they 
are a foretaste of the sort of reduced budgetary priority this account 
will surely face if the CWC is approved.
    Changes in the military postures of key U.S. allies since the end 
of the Bush Administration raise a related point: Even if the United 
States manages to resist the sirens' song to reduce chemical defenses 
in the wake of the CWC, it is predictable that the already generally 
deplorable readiness of most allied forces to deal with chemical 
threats will only worsen. To the extent that the U.S. is obliged in the 
future to fight coalition wars, this vulnerability could prove 
catastrophic to American forces engaged with a common enemy.
  <bullet> Item: Clinton Repudiates Bush Commitment to the JCS on 
        R.C.A.s
    At the insistence of the Joint Chiefs of Staff in 1992, President 
Bush signed an executive order that explicitly allowed Riot Control 
Agents (for example, tear gas) to be used in rescuing downed aircrews 
and in dispersing hostile forces using civilians to screen their 
movements against U.S. positions. The Clinton Administration initially 
indicated that it intended to rescind this executive order outright 
once the CWC is ratified. The result of doing so would have been to 
compel U.S. personnel to choose between using lethal force where RCAs 
would suffice or suffering otherwise avoidable casualties.
    In the face of Senate opposition to such a rescission, Mr. Clinton 
has apparently decided to allow tear gas and other RCAs to be used in 
these selected circumstances, but only in peacetime. In wartime, 
however, such use would be considered a breach of the treaty. The 
Administration has yet to clarify under what circumstances the Nation 
will be considered to be ``at war'' since there has been no declaration 
of that state of belligerency in any of the conflicts in which the U.S. 
has engaged since 1945.
    What is particularly troublesome is the prospect that the Clinton 
reversal of the Bush Administration position on RCAs will impinge upon 
promising new defense technologies--involving chemical-based, non-
lethal weapons (for example, immobilizing agents). If so, U.S. forces 
may be denied highly effective means of prevailing in future conflicts 
with minimal loss of life on either side.
Other,  No  Less  Distinguished,  National  Security  Experts  Disagree 
         with  General  Powell
    In a letter sent to Senator Trent Lott last fall, when the Chemical 
Weapons Convention was last under consideration by the Senate, a host 
of former top civilian and military officials expressed their 
opposition to this treaty in its present form. Among the distinguished 
retired flag officers were:
    General John W. Foss, U.S. Army (Retired), former Commanding 
General, Training and Doctrine Command; Vice Admiral William Houser, 
U.S. Navy (Retired), former Deputy Chief of Naval Operations for 
Aviation; General P.X. Kelley, U.S. Marine Corps (Retired), former 
Commandant of U.S. Marine Corps; Lieutenant General Thomas Kelly, U.S. 
Army (Retired), former Director for Operations, Joint Chiefs of Staff; 
Admiral Wesley McDonald, U.S. Navy (Retired), former Supreme Allied 
Commander, Atlantic; Admiral Kinnaird McKee, U.S. Navy (Retired), 
former Director, Naval Nuclear Propulsion; General Merrill A. McPeak, 
U.S. Air Force (Retired), former Chief of Staff, U.S. Air Force; 
Lieutenant General T.H. Miller, U.S. Marine Corps (Retired), former 
Fleet Marine Force Commander/Head, Marine Aviation; General John. L. 
Piotrowski, U.S. Air Force (Retired), former Member of the Joint Chiefs 
of Staff as Vice Chief, U.S. Air Force; General Bernard Schriever, U.S. 
Air Force (Retired), former Commander, Air Research and Development and 
Air Force Systems Command; Vice Admiral Jerry Unruh, U.S. Navy 
(Retired), former Commander 3rd Fleet; and Lieutenant General James 
Williams, U.S. Army (Retired), former Director, Defense Intelligence 
Agency.
    Among the civilian leaders who signed the open letter to Sen. Lott 
were: Richard B. Cheney, former Secretary of Defense; William P. Clark, 
former National Security Advisor to the President; Alexander M. Haig, 
Jr., former Secretary of State; John S. Herrington, former Secretary of 
Energy; Jeane J. Kirkpatrick, former U.S. Ambassador to the United 
Nations; Edwin Meese III, former U.S. Attorney General; Donald 
Rumsfeld, former Secretary of Defense; and one of General Powell's past 
bosses, Caspar Weinberger, former Secretary of Defense.
The Bottom Line
    The Center regrets General Powell's decision to lend his authority 
to a treaty that even he has freely acknowledged is completely 
unverifiable. It fears that he may also come to regret it. In any 
event, the Nation surely will, if the Clinton-Powell razzle-dazzle 
campaign induces the Senate to take its eyes off the ball--namely, the 
fatal flaws that make the Chemical Weapons Convention unworthy of that 
institution's advice and consent.

notes:
    \1\ See the Center's Decision Brief entitled Truth or Consequences 
#4. No D.N.A. Tests Needed To Show That Claims About Republican 
Paternity of CWC Are Overblown (No. 97-D 24, 10 February 1997).
    \2\ See the Center's Transition Brief entitled Here We Go Again: 
Clinton Presses Anew For Senate Approval of Flawed, Unverifiable, 
Ineffective Chemical Weapons Treaty (No. 97-T 5, 8 January 1997).
    \3\ See the Center's Decision Brief entitled Truth or Consequences 
#3: Clinton `Makes a Mistake About It' in Arguing the CWC Will Protect 
U.S. Troops (No. 97-D 21, 6 February 1997).
    \4\ See the Center's Decision Brief entitled Russia's Covert 
Chemical Weapons Program Vindicates Jesse Helms' Continuing Opposition 
to Phony CW Arms Control (No. 97-D 19, 4 February 1997).

                               __________
                                                        No. 97-D 37
                                                       5 March 1997

 Truth or Consequences #7: Schlesinger, Rumsfeld and Weinberger Rebut 
                    Scowcroft and Deutch on the CWC

    (Washington, D.C.): Today's Washington Post featured an op.ed. 
article by three of the most distinguished public servants of the 
latter Twentieth Century--James Schlesinger, Donald Rumsfeld and Caspar 
Weinberger--concerning the reasons for opposing the present Chemical 
Weapons Convention (CWC). Written in response to an earlier op.ed. 
favoring this treaty which was authored by former National Security 
Advisor Brent Scowcroft and former Director of Central Intelligence 
John Deutch, the Schlesinger-Rumsfeld-Weinberger essay (a copy of which 
is attached) should be required reading for every Senator and American 
citizen following and/or participating in the debate on the CWC.
    That should be the case in part simply because of the stature of 
the signatories. Dr. Schlesinger, Mr. Rumsfeld and Mr. Weinberger all 
served with distinction in the position of Secretary of Defense, 
respectively for Presidents Nixon and Ford, Ford and Reagan. It also is 
relevant to the present deliberations that Dr. Schlesinger's views are 
informed by his service as Director of Central Intelligence under 
President Nixon and Secretary of Energy under President Carter.
    The joint op.ed. should also command careful attention because of 
the clear and persuasive way it, first, applauds Messrs. Scowcroft and 
Deutch's admissions about the CWC's flaws (notably, with respect to the 
Convention's unverifiability and the treaty's lack of global coverage) 
and, second, underscores their warnings about the dangers inherent in 
the accord's ratification (notably, with respect to inspiring a false 
sense of security, reduced investment in defensive technologies, 
transferring chemical weapons-relevant production and defensive 
technology to countries of concern and limitations on the use of 
chemical-based non-lethal technologies, such as tear gas).
    Finally, the Schlesinger-Rumsfeld-Weinberger essay is of singular 
importance by virtue of the powerful rebuttal it offers to the 
Scowcroft-Deutch argument that the CWC is ``better than nothing.'' The 
three Secretaries conclude to the contrary that--due to the combination 
of these defects and dangers inherent in the treaty, combined with its 
unacceptably high costs for American businesses and taxpayers--the U.S. 
would be better off not being a party than becoming one.
The Bottom Line
    The Center for Security Policy commends former Secretaries 
Schlesinger, Rumsfeld and Weinberger for this latest in a long line of 
real contributions to the national security and commends their article 
to all those who will be affected by or responsible for this fatally 
flawed accord.

                     No to the Chemical Arms Treaty

     [by James Schlesinger, Caspar Weinberger, and Donald Rumsfeld]

    The Washington Post/March 5, 1997.--The phrase ``damning with faint 
praise'' is given new meaning by the op-ed by Brent Scowcroft and John 
Deutch on the Chemical Convention [``End the Chemical Weapons 
Business,'' Feb. 11]. In it, the authors concede virtually every 
criticism made by those who oppose this controversial treaty in its 
present form.
    They acknowledge the legitimacy of key concerns about the 
Convention: its essential unverifiability; its lack of global coverage; 
the prospect that it will inhibit non-lethal use of chemicals, 
including tear gas; and its mandating the transfer of militarily 
relevant chemical offensive and defensive technology to untrustworthy 
countries that become parties. It is our view that these problems are 
inherent in the present treaty.
    Take, for example, Scowcroft and Deutch's warning against cutting 
investment in chemical defensive measures. Unfortunately, treaties such 
as the Chemical Weapons Convention (CWC)--which promise to reduce the 
menace posed by weapons of mass destruction but which cannot do so--
inevitably tend to diminish the perceived need and therefore the 
support for defenses against such threats.
    In fact, in December 1995, the then-vice chairman of the Joint 
Chiefs of Staff recommended a reduction of more than $800 million in 
investment on chemical defenses in anticipation of the Convention's 
coming into force. If past experience is a guide, there might also be a 
reduction in the priority accorded to monitoring emerging chemical 
weapons threats, notwithstanding Scowcroft and Deutch's call for 
improvements in our ability to track chemical weapons developments.
    Scowcroft and Deutch correctly warn that the ``CWC [must] not [be] 
exploited to facilitate the diffusion of CWC-specific technology, 
equipment and material--even to signatory states.'' The trouble is that 
the Chemical Weapons Convention explicitly obligates member states to 
facilitate such transfers, even though these items are readily 
exploitable for military purposes. What is more, the treaty commits 
member states not to observe any agreements, whether multilateral or 
unilateral, that would restrict these transfers.
    In short, we believe that the problems with the Chemical Weapons 
Convention in these and other areas that have been identified by Brent 
Scowcroft and John Deutch clearly demonstrate that this treaty would be 
contrary to U.S. security interests. Moreover, in our view these 
serious problems undercut the argument that the CWC's ``imperfect 
constraints'' are better than no constraints at all.
    The CWC would likely have the effect of leaving the United States 
and its allies more, not less, vulnerable to chemical attack. It could 
well serve to increase, not reduce, the spread of chemical weapons 
manufacturing capabilities. Thus we would be better off not to be party 
to it.
    Notably, if the United States is not a CWC member state, the danger 
is lessened that American intelligence about ongoing foreign chemical 
weapons programs will be dumbed down or otherwise compromised. This has 
happened in the past when enforcement of a violated agreement was held 
to be a greater threat to an arms control regime than was noncompliance 
by another party. The United States and the international community 
have been unwilling to enforce the far more easily verified 1925 Geneva 
Convention banning the use of chemical weapons--even in the face of 
repeated and well-documented violations by Saddam Hussein. What 
likelihood is there that we would be any more insistent when it comes 
to far less verifiable bans on production and stockpiling of such 
weapons?
    As a non-party, the United States would also remain free to oppose 
dangerous ideas such as providing state-of-the-art chemical 
manufacturing facilities and defensive equipment to international 
pariahs such as Iran and Cuba. And the United States would be less 
likely to reduce investment in chemical protective capabilities, out of 
a false sense of security arising from participation in the CWC.
    In addition, if the United States is not a CWC party, American 
taxpayers will not be asked to bear the substantial annual costs of our 
participating in a multilateral regime that will not ``end the chemical 
weapons business'' in countries of concern. (By some estimates, these 
costs could be over $200 million per year.) Similarly, U.S. citizens 
and companies will be spared the burdens associated with reporting and 
inspection arrangements that might involve unreasonable searches and 
seizures, could jeopardize confidential business information and yet 
could not ensure that other nations--and especially rogue states--no 
longer have chemical weapons programs.
    Against these advantages of nonparticipation, the purported down-
sides seem relatively inconsequential. First, whether Russia actually 
eliminates its immense chemical arsenal is unlikely to hinge upon our 
participating in the CWC. Indeed. Moscow is now actively creating new 
chemical agents that would circumvent and effectively defeat the 
treaty's constraints.
    Second, the preponderance of trade in chemicals would be unaffected 
by the CWC's limitations, making the impact of remaining outside the 
treaty regime, if any, fairly modest on American manufacturers.
    Finally, if the United States declines to join the present Chemical 
Weapons Convention, it is academic whether implementing arrangements 
are drawn up by others or not. In the event the United States does 
decide to become a party at a later date--perhaps after improvements 
are made to enhance the treaty's effectiveness--it is hard to believe 
that its preferences regarding implementing arrangements would not be 
given considerable weight. This is particularly true since the United 
States would then be asked to bear 25 percent of the implementing 
organization's budget.
    There is no way to ``end the chemical weapons business'' by fiat. 
The price of attempting to do so with the present treaty is 
unacceptably high, and the cost of the illusion it creates might be 
higher still.

    James Schlesinger was secretary of defense under Presidents Nixon 
and Ford, Donald Rumsfeld and Caspar Weinberger held the same post 
under Presidents Ford and Reagan, respectively.

                               __________
                                                        No. 97-D 35
                                                   27 February 1997

   Gen. Schwartzkopf Tells Senate He Shares Critics' Concerns About 
               Details of the Chemical Weapons Convention

    (Washington, D.C.): Under questioning before the Senate Armed 
Services Committee today, General Norman Schwartzkopf--commander of the 
allied forces in Operation Desert Shield/Storm--acknowledged that he 
was ``unfamiliar with all the details'' of the Chemical Weapons 
Convention and shared some of the concerns expressed by those who 
oppose it in its present form. This is a signal development insofar as 
the treaty's advocates had made much of the General's recent 
endorsement of the CWC during previous testimony on Gulf War Syndrome.
Q. & A.
    General Schwarzkopf was questioned by one of the Senate's most 
steadfast leaders on national security matters and a courageous critic 
of the Chemical Weapons Convention--the new chairman of the Armed 
Services Committee's Readiness Subcommittee, Sen. Jim Inhofe (R-OK)--
about several of the CWC's more troubling aspects as seen from a 
military standpoint. Among the most noteworthy aspects of their 
exchange (and a brief intervention by Deputy Secretary of Defense John 
White, who also participated in the hearing) were the following points:
          Sen. Inhofe: ``If the Chemical Weapons Convention were in 
        effect, would we still face a danger of chemical attack from 
        such places as Iraq [which has not signed the CWC]--or Iran 
        [which] actually signed onto it?''
          Gen. Schwartzkopf: ``Senator, I think that the answer is 
        probably yes. But, I think the chances of that happening could 
        be diminished by the treaty only because it would then be these 
        people clearly standing up and thumbing their noses at 
        international law--and it would also help us build coalitions 
        against them, if that were to happen.''
          Sen. Inhofe: ``Aren't they still thumbing their noses right 
        now in Iraq?''
          Gen. Schwartzkopf: ``There's no question about it, Senator--I 
        mean the fact that they used it in the first place against 
        their own people but, I still feel--we have renounced the use 
        of them and I am very uncomfortable placing ourselves in the 
        company with Iraq and Libya and countries such as ... North 
        Korea that have refused to sign that Convention. The problem 
        with those kinds of things is that verification is very 
        difficult and enforcement is very difficult.
          Sen. Inhofe: ``... General Shali[kashvili] I think in August 
        1994 ... said that `even one ton of chemical agent may have a 
        military impact.' I would ask the question: Do you believe that 
        an intrusive, on-site inspection--as would be allowed by the 
        Chemical Weapons Convention would be able to detect a single 
        ton or could tell us conclusively that there isn't a single 
        ton?''
          Gen. Schwartzkopf: ``No, no as I said earlier, we can't 
        possibly know what's happening on every single inch of every 
        single territory out there where this would apply.''
          Sen. Inhofe: ``And as far as terrorists are concerned, they 
        would not be under this?''
          Gen. Schwartzkopf: ``Of course not.''
          Sen. Inhofe: ``Like any treaty, we have to give some things 
        up, and in this case, of course we do ... and there are a 
        couple of things that I'd like to [explore] ... the 
        interpretation from the White House changed ... they said that 
        if the Chemical Weapons Convention were agreed to, that it 
        would affect such things as riot control agents like tear gas 
        in search-and-rescue operations and circumstances like we faced 
        in Somalia--where they were using women and children at that 
        time as shields. Do you agree that we should be restricted from 
        using such things as tear gas?''
          Gen. Schwartzkopf: ``I don't believe that is the case but I 
        will confess to you that I have not read every single detail of 
        that Convention so, therefore, I really can't give you an 
        expert opinion. I think you could get a better opinion here.''
          Secretary White: ``I am going to hesitate to give a 
        definitive answer because there has been, in the 
        administration, a very precise and careful discussion about 
        what exactly, and in what situations, this would apply and when 
        this wouldn't apply. ...
          Sen. Inhofe: ``Do you think it wise to share with countries 
        like Iran our most advanced chemical defensive equipment and 
        technologies?''
          Gen. Schwartzkopf: ``Our defensive capabilities?''
          Sen. Inhofe: ``Yes.''
          Gen. Schwartzkopf: ``Absolutely not.''
          Sen. Inhofe: ``Well, I'm talking about sharing our advanced 
        chemical defensive equipment and technologies, which I believe 
        under Article X [they] would be allow[ed] to [get]. Do you 
        disagree?''
          Gen. Schwartzkopf: ``As I said Senator, I'm not familiar with 
        all the details--I--you know, a country, particularly like 
        Iran, I think we should share as little as possible with them 
        in the way of our military capabilities.''
The Bottom Line
    After this morning's hearing, Senator Inhofe announced:
          ``It is clear to me that the Clinton Administration's full 
        court press to secure ratification of the Chemical Weapons 
        treaty ought to be slowed down until the American people are 
        fully apprised of what this agreement entails. I oppose this 
        treaty because I have examined it closely and believe there are 
        serious problems contained in its fine print.
          ``Before Senators vote to ratify this Treaty, it is 
        absolutely vital that they be `familiar with all the details.' 
        The American people should expect no less of their elected 
        representatives. All of us want to protect America from the 
        dangers of chemical weapons. But we have no business blindly 
        endorsing a treaty of nearly 200 pages without carefully 
        evaluating all of its provisions on their own merits.''
    To this the Center for Security Policy can only add, ``Amen.''

                               __________
                                                        No. 97-D 21
                                                    6 February 1997

Truth or Consequences #3: Clinton `Makes a Mistake About It' in Arguing 
                    the CWC Will Protect U.S. Troops

    (Washington, D.C.): President Clinton used his State of the Union 
address Tuesday night to launch his Administration's latest and highest 
profile salvo on behalf of ratification of the Chemical Weapons 
Convention (CWC). Unfortunately, as with other aspects of this campaign 
to induce the Senate to advise and consent to a fatally flawed arms 
control treaty, Mr. Clinton made statements that simply do not stand up 
to scrutiny. One of the most troubling of these was his declaration: 
``Make no mistake about it, [the CWC] will make our troops safer from 
chemical attack ... We have no more important obligations, especially 
in the wake of what we now know about the Gulf War.'' \1\
    Far from reducing the risks that American military personnel will 
be exposed to chemical weapons, the Chemical Weapons Convention is 
likely to exacerbate them. This reality has become increasingly evident 
subsequent to the Joint Chiefs of Staff endorsement of the CWC as 
originally negotiated by the Bush Administration. For the following 
reasons, it would actually be a great disservice to the U.S. armed 
forces--and to the national interests they protect--were the Senate to 
lend its support to the present convention:
Russia Remains a Chemical Threat
    The cornerstone for the Chemical Weapons Convention was supposed to 
be a Bilateral Destruction Agreement (BDA) with Russia. Pursuant to 
this agreement, Moscow promised to provide a full and accurate 
accounting and eliminate most of its chemical arsenal--the world's 
largest and arguably the one that poses the most serious menace to the 
U.S. military. The BDA was also expected to afford the U.S. inspection 
rights that would significantly enhance the more limited arrangements 
provided for by the CWC.
    Regrettably, Russian Prime Minister Victor Chernomyrdin declared 
last year that the Bilateral Destruction Agreement has ``outlived its 
usefulness'' for Russia. He has also announced that the tab for Russia 
to implement the Convention's demilitarization arrangements 
(conservatively estimated to be at least $3 billion) would have to be 
paid for by the West. Under these circumstances, even if the U.S. 
agreed to shell out vast sums, chances are that Russia would retain a 
sizable, covert chemical stockpile.
    As the Center for Security Policy noted earlier this week,\2\ it is 
now public knowledge that such a Russian stockpile will probably 
include extremely lethal binary munitions--weapons that have been 
specifically designed to circumvent the limits and defeat the 
inspection regime of the Chemical Weapons Convention. There is reason 
to believe that such weapons may also have been engineered to defeat 
Western chemical defensive gear. This material danger to U.S. forces 
can only grow if, pursuant to the CWC's Article X, the United States 
winds up transferring chemical protective technology or equipment to 
those inclined to reverse engineer and overcome it.
Other Nations Will Also Have Militarily Significant CW Arsenals
    Russia is hardly the only nation likely to pose a chemical threat 
to U.S. personnel in ``a world with the CWC.'' Some, like Iraq, Syria, 
North Korea and Libya, will refuse to become states parties. Others 
will do so, secure in the knowledge that the treaty's inherent 
unverifiability will allow them to escape detection.
    When the CWC was negotiated there was considerable hope that 
intrusive on-site inspections would meaningfully contribute to the 
detection and proof of violations, and therefore to deterring them. 
Experience, however, with the U.N. inspections in Iraq--an operation 
allowed to conduct far more thorough, timely and intrusive inspections 
than will be permitted under this Convention--has established that 
totalitarian rulers of a closed society can successfully defeat such 
inspections.
    This reality applies, as Senator Helms noted in a letter to 
National Security Advisor Samuel Berger on 4 February, even to 
militarily significant stockpiles of chemical weapons:
          ``General Shalikashvili testified on 11 August 1994 that `In 
        certain limited circumstances, even one ton of chemical agent 
        may have a military impact. ... With such variables in scale of 
        target and impact of chemical weapons, the United States should 
        be resolute that the one-ton limit set by the Convention will 
        be our guide.' ''
          ``Unclassified portions of the [National Intelligence 
        Estimate] on U.S. Monitoring Capabilities indicate that it is 
        unlikely that the U.S. will be able to detect or address 
        violations in a timely fashion, if at all, when they occur on a 
        small scale. And yet, even small-scale diversions of chemicals 
        to chemical weapons production are capable, over time, of 
        yielding a stockpile far in excess of a single ton. Moreover, 
        few countries, if any, are engaging in much more than small-
        scale production of chemical agent. For example, according to 
        [the 4 February 1997] Washington Times, Russia may produce its 
        new nerve agents at a `pilot plant' in quantities of only `55 
        to 110 tons annually' ''
Facilitating Proliferation: `Poisons for Peace'
    The Chemical Weapons Convention may actually contribute to the 
spread of militarily relevant chemical technology. This could be the 
result of a provision (Article XI) modeled after the ``Atoms for 
Peace'' provisions of the Nuclear Non-Proliferation Treaty--which 
promised to share dual-use technology with those who might abuse it if 
only they promise not to do so. Article XI would oblige the United 
States to share inherently militarily useful chemical manufacturing 
technology and materials with countries like Iran and Cuba, if only 
they become states parties. This is a formula for expanding the threat 
to ``our troops'' posed by chemical proliferation, not effective 
chemical arms control.
The CWC Will Encourage the Military to Lower Its Guard
    A March 1996 study by the General Accounting Office (GAO) 
determined that some elements of the U.S. military appear to be 
inadequately prepared, trained, or equipped to operate in areas 
contaminated by chemical or biological agents. A particularly troubling 
finding was the fact that none of the Army's five active divisions 
which make up the Nation's crisis response force and none of the 
reserve units that are designated to be deployed early in crises (such 
as Operation Desert Shield) were properly equipped to deal with a 
chemical or biological threat.
    In fact, these units were significantly unprepared in a number of 
areas. According to the GAO, three of the ``front-line'' divisions had 
fifty percent or greater shortages of protective clothing with 
shortfalls in other critical gear running as high as eighty-four 
percent. Training was also determined to be deficient in a number of 
respects. This is not entirely surprising given that, in its first 4 
years in office, the Clinton Administration decreased funding for 
chemical and biological defensive purposes by some thirty percent, from 
$750 million in Fiscal Year 1992 to $504 million in Fiscal Year 1995.
    Unfortunately, past experience suggests that matters will only be 
made worse by an arms control treaty like the Chemical Weapons 
Convention that purports to impose a global prohibition on chemical 
weapons, seemingly making such defenses less necessary. For example, 
after ratification of the Biological Weapons Convention (BWC), U.S. 
investment in relevant defensive technology, vaccines, detection 
equipment, etc. declined precipitously. As a result of years of 
inadequate attention to this threat, the United States found itself 
extremely ill-prepared to deal with a potential BW threat posed by 
Saddam Hussein's Iraq. (In fact, the U.S. may only have detected the 
use of biological weapons against our forces after they started dying 
en masse.)
    That such a fate awaits U.S. chemical defensive efforts in the wake 
of a CWC ratification was brought home by a 1995 initiative proposed by 
the then-Vice Chairman of the Joint Chiefs of Staff, Admiral William 
Owens. He suggested cutting a further $805 million from counter-
proliferation support and chemical and biological defense programs 
through Fiscal Year 2001. This reduction would have deferred, if not 
seriously disrupted, important chemical and biological research and 
development efforts, and delayed the procurement of proven 
technologies. His rationale: Thanks to a lowering in the chemical 
warfare threat brought about by the CWC, investments in countering it 
could safely enjoy lower priority. While the Owens gambit was 
ultimately defeated, similar initiatives must be expected in the future 
if the CWC is approved--resulting in increased vulnerability, not 
improved safety, for ``our troops.''
    Even if the United States manages to resist the siren's song to 
reduce chemical defenses in the wake of the CWC, it is predictable that 
the already generally deplorable readiness of most allied forces to 
deal with chemical threats will only worsen. To the extent that the 
U.S. is obliged in the future to fight coalition wars, this 
vulnerability could prove catastrophic to American forces engaged with 
a common enemy.
Prohibitions on Tear Gas, Other Non-Lethal Technologies
    The Clinton Administration has made clear that it intends to 
reverse a Bush executive order issued at the insistence of the Joint 
Chiefs in 1992--an order that explicitly allowed Riot Control Agents 
(for example, tear gas) to be used in rescuing downed aircrews and 
dispersing hostile forces using civilians to screen their movements 
against U.S. positions. The result could be to force our troops to use 
lethal force where it is not necessary or to suffer otherwise avoidable 
casualties.
    Worse yet, one of the most promising new defense technologies--
involving chemical-based, non-lethal weapons (for example, immobilizing 
agents)--may be restricted or prohibited by this Convention. The CWC 
defines chemical weapons as ``toxic chemicals and their precursors, 
except where intended for purposes not prohibited under this 
Convention, as long as the types and quantities are consistent with 
such purposes.'' It goes on to define a toxic chemical as ``any 
chemical which through its chemical action on life processes can cause 
death, temporary incapacitation, or permanent harm to humans or 
animals.'' As a result of the CWC, ``our troops'' may be denied highly 
effective means of prevailing in future conflicts with minimal loss of 
life on either side.
The Bottom Line
    In its present form, the Chemical Weapons Convention cannot be 
justified by the contribution it will make to the safety of our men and 
women in uniform. If anything, the ``contribution'' that will be made 
will be a negative one for ``our troops.''
    A question that may not be as easily dispensed of is: Precisely 
what did President Clinton mean when he said ``in the wake of what we 
now know about the Gulf War''? Is that an acknowledgment that chemical 
weapons were used against U.S. forces there, after all? Does it mean 
that the President is now convinced that American forces were 
inadvertently exposed to chemical agents in the process of destroying 
Iraqi bunkers--accounting for Gulf War Syndrome? Or is he simply 
acknowledging that U.S. chemical defenses are already inadequate and 
that ``our troops'' will likely be exposed to chemical threats--even if 
the enemy does not initiate their use--with or without the Chemical 
Weapons Convention?

notes:
    \1\ The fallaciousness of another Presidential declaration--``if we 
do not act by April the 29th when this Convention goes into force--with 
or without us--we will lose the chance to have Americans leading and 
enforcing this effort''--was addressed last week in the second paper in 
this ``Truth or Consequences'' series on the Chemical Weapons 
Convention, entitled Truth or Consequences #2: Senate Does Not Need to 
Sacrifice Sensible Scrutiny of CWC to Meet an Artificial Deadline (No. 
97-D 18, 31 January 1997). A third erroneous claim concerning the CWC's 
value in fighting terrorism will be the subject of a forthcoming 
Decision Brief.
    \2\ See the Center's Decision Brief from earlier this week, 
Russia's Covert Chemical Weapons Program Vindicates Jesse Helms' 
Continuing Opposition to Phony C.W. Arms Control (No. 97-D 19, 4 
February 1997).

                               __________
                                                        No. 97-D 19
                                                    4 February 1997

   Russia's Covert Chemical Weapons Program Vindicates Jesse Helms' 
            Continuing Opposition to Phony C.W. Arms Control

    (Washington, D.C.): The Clinton Administration's campaign to 
railroad Senators into approving the fatally flawed Chemical Weapons 
Convention (CWC) ran into a major new obstacle today: The Washington 
Times disclosed that a report published recently in the classified 
Military Intelligence Digest confirms that ``Russia is producing a new 
generation of deadly chemical weapons using materials, methods and 
technology that circumvent the terms of [that] treaty it signed 
outlawing such weapons.''
    Word of this frightening development was originally leaked by a 
Russian scientist, Vil Mirzayanov, who had been involved in the 
Kremlin's covert development of a new class of chemical arms. In an 
article he courageously published in the Wall Street Journal on 25 May 
1994, Mr. Mirzayanov wrote about a new Russian binary weapon [i.e., one 
which uses two relatively harmless chemicals to form a toxic agent 
after the weapon is launched]:
          ``This new weapon, part of the ultra-lethal Novichok [Russian 
        for ``Newcomer''] class, provides an opportunity for the 
        [Russian] military establishment to disguise production of 
        components of binary weapons as common agricultural chemicals 
        because the West does not know the formula and its inspectors 
        cannot identify the compounds.'' \1\
Now, More Details About Moscow's Ongoing CW Program
    Excerpts of the secret intelligence report that appear in today's 
Washington Times provide considerable detail about Russia's efforts to 
maintain a deadly chemical arsenal, irrespective of its treaty 
obligations. According to the Times, these include the following 
(emphasis added throughout):
  <bullet> ``Under a program code-named `Foliant,' a Russian scientific 
        research organization has created a highly lethal nerve agent 
        called A-232, large quantities of which could be made `within 
        weeks' through covert production facilities. ...''
  <bullet> ``A-232 is made from industrial and agricultural chemicals 
        that are not lethal until mixed and that never had been used 
        for poison gas.''
  <bullet> `` `These new agents are as toxic as VX [a persistent nerve 
        agent], as resistant to treatment as Soman [a non-persistent 
        but deadly poison gas] and more difficult to detect and easier 
        to manufacture than VX.' ''
  <bullet> ``The report says A-232 and its delivery means have `passed 
        Moscow's rigorous military acceptance testing and can be 
        quickly fielded in unitary or binary form.' ''
  <bullet> ``Russia's State Scientific Research Institute of Organic 
        Chemistry and Technology created the agents and novel ways of 
        making them to avoid detection by international inspectors. `By 
        using chemicals not specified in the CWC schedules, the 
        Russians can produce A-232 and its ethyl analog A-234, in 
        unitary and binary forms within several chemical complexes.' ''
  <bullet> ``The Russians can make the binary, or two part, version of 
        the nerve agent using a common industrial solvent acetonitrile 
        and an organic phosphate compound `that can be disguised as a 
        pesticide precursor.' In another version, soldiers need only 
        add alcohol to form the agent, the report says.''
  <bullet> `` `These various routes offer flexibility for the agent to 
        be produced in different types of facilities, depending on the 
        raw material and equipment available there. They also add 
        complexity to the already formidable challenge of detecting 
        covert production activities.' ''
  <bullet> ``The Russians can produce the new nerve agent in `pilot 
        plant' quantities of 55 to 110 tons annually,' the report says. 
        Several Russian plants are capable of producing the chemicals 
        used in making A-232. One factory in Novocherboksarsk `is 
        capable of manufacturing 2,000-2,500 metric tons of A-232 
        yearly.' ''
  <bullet> ``Several pesticide plants `offer easy potential for covert 
        production,' the report says. `For example, substituting amines 
        for ammonia and making other slight modifications in the 
        process would result in new agents instead of pesticide. The 
        similarity in the chemistry of these compounds would make 
        treaty monitoring, inspection and verification difficult.' ''
The Administration's Unconvincing Response: The CWC Will Solve the 
        Problem
    The Clinton Administration's pollyannish response to these 
revelations ought to be instructive to Senators weighing the Chemical 
Weapons Convention. Although the Russians are violating their present 
obligation not to produce chemical weapons and are doing so in ways 
designed to circumvent the CWC's limitations and to defeat even on-site 
inspection regimes, an Administration spokesman told the Washington 
Times that ``the treaty would make it easier to investigate such 
problems'' since ``agents and components can be added to the treaty's 
schedule of banned chemicals.'' The National Security Council's David 
Johnson is quoted as saying: ``Without the CWC and the verification 
tools it provides, you don't have the means to get at problems like 
this. With CWC, you do.''
    Such a statement is, at best, wishful thinking. At worst, it is 
highly misleading since, for reasons outlined above, the Russian 
Novichok weapons (and counterpart efforts likely being pursued by other 
chemical weapons states) are specifically designed to thwart the CWC's 
``verification tools.''
    A variation on this disingenuous theme is being circulated in 
graphic form by proponents of the Chemical Weapons Convention. They 
offer two world maps, one under the heading ``The World Without the 
CWC,'' the other ``The World With the CWC.'' The former shows large 
areas of the world--notably Russia, China, Iran, India and Pakistan--
with declared or suspected chemical arsenals. The latter, though, shows 
the entire world except for Libya, Egypt, Syria, Iraq and North Korea 
as being without either declared or suspected chemical stockpiles.
    It is deceptive to suggest that the Chemical Weapons Convention 
will ensure that Russia, China, Iran, India or Pakistan will actually 
eliminate their chemical weapons programs thanks to the CWC. In fact, 
any country that is wishes to retain even militarily significant 
chemical stockpiles and is willing to flout international law to do so 
can be confident of its ability to escape detection and sanction. To 
his credit, one of the Convention's preeminent champions and 
distributors of these maps--retired Lieutenant General Tom McInerney--
responded, when asked whether he really believed that Russia and China 
would give up their chemical arms if they became parties to the CWC--by 
saying: ``Of course not.''
Enter Chairman Helms
    As it happens, front-page treatment was also given today to another 
aspect of the Chemical Weapons Convention drama. A 29 January 1997 
letter from Senator Jesse Helms to Majority Leader Trent Lott 
expressing the Senate Foreign Relations Committee chairman's strong 
opposition to the present CWC was featured ``above the fold'' by the 
Washington Post. In this letter, Senator Helms declares: ``I am 
convinced that the CWC, as it now stands, is fraught with deficiencies 
totally inimical to the national security interests of the United 
States.''
    Chairman Helms goes on to enumerate in an attached memorandum 
specific conditions that ``are essential to ensuring that the Chemical 
Weapons Convention enhances, rather than reduces, our national 
security.'' In particular, he says preconditions are needed to address 
six concerns which ``are best expressed in the letter [Senator Lott] 
received on 9 September 1996 from Richard Cheney, William Clark, Jeane 
Kirkpatrick, Alexander Haig, John Herrington, Edwin Meese, Donald 
Rumsfeld, Caspar Weinberger, 12 Generals and Admirals and 47 [other] 
officials from the Reagan and Bush Administrations'': \2\
  <bullet> Russian elimination of chemical weapons and implementation 
        of the 1990 Bilateral Destruction Agreement (BDA);
  <bullet> Inclusion of countries other than Russia believed to have 
        chemical weapons;
  <bullet> Certification by the U.S. intelligence community that 
        compliance with the treaty can be monitored with high 
        confidence;
  <bullet> Specification of the actions that will be taken by the 
        United States in the event of non-compliance;
  <bullet> Establishing the primacy of the U.S. Constitution over all 
        provisions of the CWC; and
  <bullet> Protection of U.S. confidential business information (CBI).
Sen. Helms Rebuts the Administration's CWC Point Person
    In addition, Senator Helms today sent National Security Advisor 
Samuel ``Sandy'' Berger a strongly worded letter concerning 
correspondence written by Dr. Lori Esposito Murray--the Special Advisor 
to the President and ACDA Director for the Chemical Weapons 
Convention--to members of the Senate in response to the Cheney et al. 
missive. Calling the Murray correspondence ``offensive,'' the Chairman 
of- 
fers his own, detailed rebuttal of her claim that there were 
``significant misinformation'' and ``misstatements'' in the letter sent 
last fall by Secretary Cheney and his colleagues.
    Specifically, Senator Helms affirms that:
  <bullet> ``The CWC does not--in fact--effectively cover the types of 
        chemicals used to manufacture chemical weapons. Everything from 
        Sarin and Soman to VX can be manufactured using a variety of 
        chemicals which are not identified by the Schedules for the 
        application of the verification regime.''
  <bullet> ``... The CWC will not do one thing to reduce the chemical 
        weapons arsenals of terrorist countries and other nations 
        hostile to the United States. ... Not one country of concern to 
        the United States has ratified this convention.''
  <bullet> ``... The CWC is not `effectively verifiable' and Dr. Murray 
        should not have made representations to the contrary. ... 
        Declassified portions from [a] August 1993 National 
        Intelligence Estimate note:
          `` `The capability of the intelligence community to monitor 
        compliance with the Chemical Weapons Convention is severely 
        limited and likely to remain so for the rest of the decade. The 
        key provision of the monitoring regime--challenge inspection at 
        declared sites--can be thwarted by a nation determined to 
        preserve a small, secret program using the delays and managed 
        access rules allowed by the Convention.' ''
The Bottom Line
    The Center for Security Policy commends Senator Helms for his 
leadership in insisting that the Chemical Weapons Convention's myriad, 
serious defects be addressed and corrected before the Senate is once 
again asked to give its advice and consent to this treaty. It looks 
forward to working with him, Senator Lott and all others who share 
Chairman Helms' determination to ensure that the CWC is only ratified 
if it ``enhances, rather than reduces'' U.S. national security.

notes:
    \1\ See in this regard Not `Good Enough for Government Work:' 
Senate Needs to Hear About Russian Chemical Weapons From Russian 
Experts (No. 94-D 100, 5 October 1994).
    \2\ Copies of this letter, which was originally circulated by the 
Center for Security Policy last fall, may be obtained by contacting the 
Center.

                               __________
                                                        No. 97-D 27
                                                   17 February 1997

Truth or Consequences #5: The CWC Will Not Be Good for Business--To Say 
                    Nothing of The National Interest

    (Washington, D.C.): Proponents of the Chemical Weapons Convention 
(CWC) now awaiting consideration by the U.S. Senate often declare that 
industry supports this controversial treaty. That claim requires 
careful consideration since, on its face, this arms control treaty will 
have myriad, and possibly quite adverse, implications for many American 
businesses. Such implications arise from the reporting, regulatory and 
inspection requirements generated by the treaty's verification regime.
Who Will Be Affected?
    A common misconception is that only chemical manufacturing  
businesses will be covered by these requirements. To be sure, such 
pervasively regulated companies will face additional reporting 
requirements and be subjected to routine inspections by foreign 
nationals. A trade association representing some of these companies--
the Chemical Manufacturers Association (CMA)--has judged the impacts of 
the CWC on its member companies to be acceptable, however. 
(Interestingly, some CMA companies--for example, Dixie Chemicals and 
Sterling Chemicals--have expressed opposition to the treaty on the 
grounds that the costs entailed in further reporting requirements, 
additional regulatory burdens and intrusive on-site inspections will be 
unacceptable.)
    In fact, thousands of companies that do not produce but simply use 
a wide variety of chemicals or chemical compounds--notably, Discrete 
Organic Chemicals (DOCs) \1\--will also be burdened with new and 
potentially onerous responsibilities under the CWC. While the CWC's 
proponents frequently claim that many of these companies will be able 
to get away with filling out a simple, short form, there is reason to 
believe otherwise.
    For a good many of the affected companies, the CWC's reporting 
requirements will entail a time-consuming, and assuredly expensive, 
process of producing declara- 
tions, filing reports and complying with new regulations. These 
industries may also face challenge as well as routine inspections. 
Challenge inspections permit the use of sampling procedures--for 
example the use of mass spectrometers--that go beyond those to which 
companies facing only routine inspections are exposed and that have 
considerable potential for the loss of Confidential Business 
Information (see below).
    Among the industries facing such prospects are: automotive, food 
processing, biotech, distillers and brewers, electronics, soap and 
detergents, cosmetics and fragrances, paints, textiles, non-nuclear 
electric utility operators and even ball-point pen ink manufacturers. 
The following well-known U.S. companies--none of which has anything to 
do with the manufacture of chemical weapons--have been identified by 
the Arms Control and Disarmament Agency as subject to the CWC's terms: 
Sherwin-Williams, Nutrasweet, Jim Beam, Archer Daniels Midland, Lever 
Brothers, Kaiser Aluminum, Goodyear Tire and Rubber, Xerox, Raytheon 
and Conoco.
    Last but hardly least, in addition to the obligations befalling the 
foregoing industries, the Chemical Weapons Convention would allow any 
site in the United States to be subjected to intrusive challenge 
inspections. While proponents downplay the danger that such an 
arrangement might be abused by foreign governments, there are no 
guarantees that such abuses will not occur.
Who Speaks for All the Affected Industries?
    While the Chemical Manufacturers Association has been the most 
vocal industry advocate of the Chemical Weapons Convention, it 
represents only some 190 of the companies expected to be covered by the 
treaty. It has aggressively lobbied Senators and other trade 
organizations on behalf of the treaty, evidently persuaded not only 
that the CWC will not hurt its businesses but will actually benefit 
them. Notably, CMA believes this accord's Article XI will clear the way 
for a substantial increase in U.S. exports of chemical manufacturing 
equipment and materials.
    Since the bulk of this prospective increase may involve markets not 
currently open to American chemical concerns--presumably, including 
pariah states like Iran and Cuba--it is unclear just how willing 
responsible companies and/or the U.S. Government will be to engage in 
this sort of trade.\2\ Such exports are currently proscribed by the 
supplier-control arrangement known as the Australia Group. If, as seems 
likely, the CWC has the effect of vitiating the Australia Group 
mechanism, CW-relevant exports may be permitted even to dubious 
customers--but it will be hard to contend that the effect on curbing 
proliferation of chemical weapons will be a positive one.
    The truth of the matter is that no one can say for sure how many 
companies will be caught up in the CWC's reporting, regulatory and 
inspection regime. It is safe to say, however, that there will be 
thousands affected (according to official U.S. Government estimates as 
many as 3,000-8,000.) Even if one counts facilities, as few as two-
fifths of those affected are owned by CMA member companies. Indeed, as 
Dr. Will Carpenter, formerly Vice President for Technology at the 
Monsanto Agriculture Company and a CMA representative, noted in an 
article in Ratifying the Chemical Weapons Convention:
          ``The leaders of the chemical industry, through the board of 
        directors of the CMA have always emphasized support of the 
        convention. There are, however, another 60 to 80 trade 
        associations whose members will also be regulated by the 
        National Authority [set up to implement the CWC]. ... An 
        overwhelming number of these companies are not aware of the 
        implications of the Chemical Weapons Convention despite a 
        continuing effort by ACDA, the CMA and other organizations to 
        get the word out.''
How Will American Businesses Be Affected?
    The impact of the Chemical Weapons Convention on American companies 
will occur through two avenues:
    (1) Impacts Due to New Reporting and Regulatory Requirements: The 
data required by the treaty's verification regime differs in both 
quantitative and qualitative respects from that already collected for 
other regulatory purposes. For example, current environmental 
regulations do not cover all of the chemicals relevant to the CWC. 
Moreover, of those that are covered, the production thresholds 
triggering current reporting requirements are set much higher than 
would be the case under the CWC. In addition, some existing regulations 
require reports concerning future actions (whereas the treaty imposes 
obligations for considerable retroactive reporting). Some of these 
current regulations apply to chemical producers, but not to industrial 
processors or consumers of chemicals. And deadlines for reports 
required by the CWC will be shorter, and necessitate more frequent 
updating, than those presently demanded, for instance, by the 
Environmental Protection Agency. For all these rea- 
sons, new reporting requirements will have to be levied by the U.S. 
government in the implementing legislation for the Convention.
    These new requirements may prove to be viewed by large concerns as 
simply a marginal additional cost of doing business. Smaller companies, 
however, may find these additional requirements to be considerably more 
burdensome. This is particularly true since some companies will be 
obliged to file detailed declarations for the first time. Such reports 
will also have to be updated on an annual basis. The associated costs 
for preparing these reports are likely to run to the thousands--and 
perhaps hundreds of thousands--of dollars per company.
    What is more, the new U.S. bureaucracy dubbed the ``National 
Authority'' to whom these reports will be sent, must be notified of 
changes in declared activities 5 days before they occur. Complying with 
this requirement is likely to prove problematic for companies unable to 
predict their activities; it certainly will be burdensome. A failure to 
comply with this reporting regime could result in civil and perhaps 
even criminal penalties.
    (2) Impacts Arising from On-Site Inspections: Any company that 
provides declarations to the ``National Authority'' should prepare to 
be inspected. Once the U.S. National Authority turns the information 
thus supplied over to the new international bureaucracy created under 
this Convention--the Organization for the Prohibition of Chemical 
Weapons (OPCW) the OPCW's Technical Secretariat will have the authority 
to conduct on-site inspections (both routine and challenge inspections) 
to verify the data thus supplied.
    Depending on the sorts of chemicals declared and the nature of the 
inspections, the amount of notice, duration and degree of intrusiveness 
of the inspection can vary. For example, advance notice can be as 
little as twenty-four hours; the duration can extend to 96 continuous 
hours; and the international inspectors can in some instances demand to 
examine any data, files, processes, equipment, structures or vehicles 
deemed pertinent to their search for illegal chemical manufacturing 
activities.
What Will Be At Risk?
    It is a virtual certainty that, in the course of at least some such 
inspections, confidential business information (CBI) will be put at 
risk. In 1993, the Congressional Office of Technology Assessment 
identified examples of proprietary information that could be 
compromised:
  <bullet> The formula of a new drug or specialty chemical
  <bullet> A synthetic route that requires the fewest steps or the 
        cheapest raw materials
  <bullet> The form, source, composition and purity of raw materials or 
        solvents
  <bullet> Subtle changes in pressure or temperature at key steps in a 
        process
  <bullet> Expansion and marketing plans
  <bullet> Raw materials and suppliers
  <bullet> Manufacturing costs
  <bullet> Prices and sales figures
  <bullet> Names of technical personnel working on a particular project
  <bullet> Customer lists
    According to the Office of Technology Assessment (OTA), the means 
by which the foregoing and other sensitive business information could 
be acquired by foreign inspectors (at least some of whom may be agents 
of their governments' intelligence services and specialists in the 
conduct of commercial espionage) include via the following:
  <bullet> manifests and container labels that disclose the nature/
        purity of the feedstock and the identity of the supplier
  <bullet> instrument panels [e.g., networked computer monitors] 
        revealing precise temperature and pressure settings for a 
        production process
  <bullet> chemical analysis of residues taken from a valve or seal on 
        the production line
  <bullet> visual inspection of piping configurations and 
        instrumentation diagrams could allow an inspector to deduce 
        flow and process parameters
  <bullet> audits of plant records
    A loss of confidential business information either through a 
challenge inspection, or through sample analysis, could be particularly 
troubling for those in the chemical, pharmaceutical and biotechnology 
industries. Many companies have not sought patents for such proprietary 
information lest they be compromised by Freedom of Information Act 
(FOIA) requests, to which patents are subject. Even so, in August 1993, 
the OTA estimated that the U.S. chemical industry loses approximately 
$3-6 billion per year in counterfeited chemicals and chemical products.
    If proprietary formulas are compromised by commercial espionage, 
the cost can be very great. For example, it takes an average of 10 
years and an investment of $25 million to perfect a new pesticide. U.S. 
pharmaceutical companies must invest an average of 12 years and on the 
order of $350 million in research and development to bring a 
breakthrough drug to market.
    Clearly, while it is difficult to assess the potential dollar 
losses that may be associated with the compromise of proprietary 
business data, information gleaned from inspections and data 
declarations literally could be worth millions of dollars to foreign 
competitors. A small company whose profitability (and economic 
survival) derives from a narrow but critical competitive advantage will 
be particularly vulnerable to industrial espionage. The OTA notes that 
for a small company, ``even visual inspection alone might reveal a 
unique process configuration that could be of great value to a 
competitor.''
The Risk is Real
    Unfortunately, these are not hypothetical or ``worst case'' 
scenarios. In preparation for the CWC, the U.S. has conducted mock 
inspections at seven government and private sector industrial sites. 
The results validate fears that even routine access by the OPCW's 
international inspectors could result in the loss of commercial and/or 
national security secrets. This would certainly be true of the access 
allowed under more intrusive challenge inspection provisions.
    These conclusions are evident, for example, in a report submitted 
by the U.S. government to the Conference on Disarmament concerning the 
third of these so-called National Trial Inspections. It was conducted 
by U.S. experts at the Monsanto Agricultural Company's Luling, 
Louisiana plant in August, 1991. The report said, in part:
          ``The Monsanto representative who was on the inspection team 
        to determine the extent of CBI he could obtain, determined 
        there would be a loss of such information. He stated he was 
        able to obtain enough information about the glyphosate 
        intermediate process merely by equipment inspection to save a 
        potential competitor considerable process development, time and 
        dollars. He said a knowledgeable inspector could compromise 
        Monsanto's proprietary business interests with no access to 
        their records beyond the quantity of phosphorous trichloride 
        consumed.'' (Emphasis added.)
    Even Exterior Sampling Can Put CBI At Risk: Another mock inspection 
revealed that soil and water samples taken even from the exterior of 
buildings at a chemical plant three weeks after a production run 
revealed the product of the operation and process details. This is 
especially worrisome in terms of the implications for confidential 
business information since the CWC's Verification Annex (Part II 
paragraph (E)(55)) explicitly affords an inspection team the right to 
take samples on-site using highly invasive mass spectrometers and, ``if 
it deems necessary,'' to transfer samples for analysis off-site at 
laboratories designated by the OPCW. And, as Dr. Kathleen Bailey of the 
Lawrence Livermore National Laboratory told the Senate Foreign 
Relations Committee on 21 March 1996:
          ``Experts in my laboratory recently conducted experiments to 
        determine whether or not there would be a remainder inside of 
        the equipment that is used for sample analysis on-site. They 
        found out that, indeed, there is residue remaining. And if the 
        equipment were taken off-site, off of the Lawrence Livermore 
        Laboratory site, or off of the site of a biotechnology firm, 
        for example, and further analysis were done on those residues, 
        you would be able to get classified and/or proprietary 
        information.''
    Matters are made worse by the prospect that the OPCW is likely to 
allow a number of states parties' laboratories to conduct sample 
analysis. Among the nations that have expressed an interest in 
providing such laboratory services are several with dubious records 
concerning non-proliferation and/or a record of using multilateral 
organizations--among other devices--for intelligence collection 
(including commercial espionage).
Conclusion
    The Chemical Weapons Convention will entail real, if as yet 
unquantifiable, costs for thousands of U.S. industries having nothing 
to do with the manufacture of chemical weapons. Such costs might be 
justifiable if the treaty were likely to be effective in ridding the 
world of chemical weapons--or even in appreciably reducing the 
likelihood of chemical warfare. Unfortunately, while the CWC's 
verification regime will be sufficiently intrusive to jeopardize U.S. 
proprietary interests, it is woefully inadequate to detect and prove 
non-compliance by closed societies determined to maintain covert 
chemical weapons capabilities notwithstanding their treaty 
obligations.\3\ As a result, the burdens that American private 
industries will be asked to bear--largely without their knowledge--
simply cannot be justified on national security or any other grounds.

notes:
    \1\ The CWC defines DOCs only in the following, expansive terms: 
``Any chemical belonging to the class of chemical compounds consisting 
of all compounds of carbon except for its oxides, sulfides and metal 
carbonates.''
    \2\ In fact, ACDA Director John Holum has indicated that the United 
States' obligations under the CWC would not be allowed to compel it to 
sell CW-relevant technology to proliferating states. Even if that 
position were actually adopted by the U.S. government after treaty 
ratification, Article XI would still provide political cover for other 
nations feeling no such compunction and deny Washington grounds for 
objecting.
    \3\ N.B. The UN's on-site inspection effort in Iraq (UNSCOM) has 
been unable to ascertain the true status of Saddam Hussein's weapons of 
mass destruction programs despite five years of challenge inspections 
under a regime providing for far more intrusive, timely and 
comprehensive inspections than those authorized by the CWC.

                               __________
                                                        No. 97-D 14
                                                    28 January 1997

 Truth or Consequences #1: Center Challenges Administration Efforts To 
                    Distort, Suppress Debate on CWC

              dangers to americans' constitutional rights
    (Washington, D.C.): Like a saturation bombardment of toxic gas on a 
World War I battlefield, proponents of the Chemical Weapons Convention 
(CWC) have suddenly unleashed a barrage of Cabinet-level public 
statements and op.eds., departmental letters, government fact sheets 
and interest group point papers. The purpose seems to be to asphyxiate 
informed debate about this treaty with billowing clouds of false or 
misleading information, even as the Convention's critics are wrongly 
accused of doing the same thing.
    For example, in a letter written to Senators on 14 January 1997, 
Dr. Lori Esposito Murray--the Special Advisor to the President and ACDA 
Director on the Chemical Weapons Convention--took strong exception to 
correspondence authored by a large and distinguished group of former 
senior civilian and military officials who oppose ratification of the 
CWC in its present form. The latter include: former Secretaries of 
Defense Dick Cheney, Donald Rumsfeld and Caspar Weinberger, former U.N. 
Ambassador Jeane Kirkpatrick, former Secretary of State Alexander Haig 
and former National Security Advisor to the President William Clark.
    Dr. Murray declared that the Cheney et al. letter ``contains 
significant misinformation about the Convention.'' She proceeds to cite 
several portions of the letter (which was circulated by the Center for 
Security Policy originally last fall and again earlier this month) \1\ 
which she characterizes as ``misstatements.'' In opposition to these 
alleged ``misstatements,'' Dr. Murray offers what she calls ``facts.''
    As a contribution to a real and informed debate about the Chemical 
Weapons Convention, the Center will be issuing a series of Decision 
Briefs in the coming days briefly responding to each of Dr. Murray 
points--and similar arguments on behalf of the treaty made by others--
that have the effect of confusing or distorting, if not actually 
suppressing, such a debate.
CWC Will Impinge Upon Americans' Constitutional Rights
    As Secretaries Cheney, Rumsfeld, Weinberger and their colleagues 
noted in the joint letter: ``We are concerned that the CWC will 
jeopardize U.S. citizens' constitutional rights by requiring the U.S. 
government to permit searches without either warrants or probable 
cause.'' Dr. Murray describes this as a ``misstatement'' and declares 
as a ``fact'' that:
          ``The Administration expects that access to private 
        facilities will be granted voluntarily for the vast majority of 
        inspections under the CWC. If this is not the case, the United 
        States Government will obtain a search warrant prior to an 
        inspection in order to ensure that there will be no trampling 
        of constitutional rights.''
    On 9 September 1996, Department of Justice officials publicly 
acknowledged in testimony before the Senate Judiciary Committee that in 
such cases a criminal warrant would be required. The problem is that 
obtaining such a warrant from a court would require demonstration of 
probable cause. This will be impossible in most cases because the 
nation requesting an inspection need not cite its reasons for making 
such a request.
    Hence, the Clinton Administration faces a difficult choice. If the 
U.S. government respects its citizens' rights not to be subjected 
involuntarily to searches in the absence of judicial warrants, it will 
be creating a precedent other countries will assuredly cite to refuse 
on-site inspections on their territories. If it does not respect those 
rights, it will be acting in an unconstitutional manner.
Judge Bork Is Concerned About the Treaty's Constitutional Impact
    In a letter sent to Judiciary Committee Chairman Orrin Hatch last 
August, a respected constitutional scholar and distinguished Federal 
judge, Robert H. Bork, expressed the view that ``there are grounds to 
be concerned about [CWC provisions'] compatibility with the 
Constitution.'' He wrote:
          ``Fourth and Fifth Amendment concerns are raised by the 
        United States' obligation to open to on-site inspections any 
        facility, whether in the public sector or privately owned. 
        Apparently, no probable cause need be shown. A foreign state 
        will have the right to challenge inspection of a U.S. facility 
        without the grounds that are essential for a search warrant.
          ``The U.S. is required by the CWC to enforce inspection by an 
        international team, even over opposition from the owner. On-
        site personnel can be compelled to answer questions, provide 
        data, and permit searches of anything within the premises--
        including records, files, papers, processes, controls, 
        structures and vehicles.
          ``Whatever the merits otherwise of the claim that the 
        `pervasively regulated industries' exception avoids the Fourth 
        Amendment problems, it is my understanding that the majority of 
        the 3,000-8,000 companies expected to be covered are not 
        pervasively regulated.
          ``Additional Fifth Amendment problems arise from the 
        authority of inspectors to collect data and analyze samples. 
        This may constitute an illegal seizure and, perhaps, constitute 
        the taking of private property by the government without 
        compensation. The foreign inspectors will not be subject to 
        punishment for any theft of proprietary information.
          ``American citizens will have fewer rights to information 
        concerning investigations concerning them or their businesses 
        than they would if investigated by a U.S. agency. Freedom of 
        Information requests will not be permitted under the proposed 
        CWC implementing legislation. ...
          ``... The owner of a facility will [likely] be faced with an 
        international inspection team, backed up by the U.S. 
        government, demanding access to his property and demanding 
        answers and documents from his employees. No one will be shown 
        a search warrant and, so far as I can gather, the owner or 
        employee must decide on the spot whether he has a 
        constitutional right to refuse what is demanded. If he refuses 
        and turns out to be wrong, he will face punishment. At least a 
        citizen shown a search warrant knows that a judge has deemed 
        the search constitutional.
          ``The provision in question speaks of constitutional 
        obligations with regard to property rights or searches and 
        seizures. That does not cover the Fifth Amendment right not to 
        incriminate oneself. Yet self-incrimination is a real danger 
        for people required to answer questions, turn over documents 
        and other matter.''
Judiciary Committee Chairman Henry Hyde is Also Concerned
    On 28 August 1996, Chairman Hatch received a letter from his House 
counterpart, Rep. Henry Hyde. It expresses similar misgivings to those 
addressed by Judge Bork. Rep. Hyde asked:
          ``How can we accede to an arrangement that grants an 
        international inspection agency the right to demand access to 
        thousands of privately owned U.S. facilities without requiring 
        the foreign inspectors to demonstrate probable cause necessary 
        to secure a judicial warrant--except by compromising the 
        American owners' constitutional rights?
          ``Similarly, how can those owners be denied due process--or, 
        for that matter, the right to sue for damages in the likely 
        event that the foreign inspectors use their eighty-four hours 
        of on-site inspection to elicit sensitive proprietary data and 
        then that data finds its way into the hands of competitors 
        overseas? As you are well aware, there is growing concern about 
        illegal commercial espionage. If we are not careful, it would 
        appear that we may be creating through the CWC a legal 
        opportunity for carrying out such intelligence collection, to 
        the severe detriment of America's competitive position.
          A further concern arises from the fact that the new 
        Organization for the Prohibition of Chemical Weapons will be 
        significantly less accountable than U.S. regulatory agencies 
        for information collected in the course of international 
        inspections of American businesses. I understand that the draft 
        implementing leg- 
islation proposes to preclude requests about OPCW inspections that 
might otherwise be made under the Freedom of Information act.
          ``... Whatever one thinks ... about the wisdom of ratifying a 
        treaty that is inherently unverifiable, unenforceable and 
        inequitable, the likelihood that it will compromise the 
        constitutional rights of many thousands of American companies 
        and their owners and employees should be sufficient grounds for 
        its rejection.''
The Bottom Line
    Clearly, there are grounds for concern about the constitutional 
impact of the Chemical Weapons Convention. These cannot be dismissed as 
``misstatements'' or ``myths.'' Neither can consideration of such 
issues be responsibly deferred--as some treaty proponents are arguing--
until after the CWC is ratified by the United States. At that point, 
the theoretical option of building safeguards into the implementing 
legislation will be a non-starter, at least from a practical point of 
view, to the extent such protections would conflict with ``the supreme 
law of the land,'' i.e., a ratified treaty. Accordingly, the Center for 
Security Policy encourages members of the Senate to examine the 
constitutional and other, serious problems with the Chemical Weapons 
Convention prior to any further consideration of this accord.

notes:
    \1\ See the Center's Transition Brief entitled Here We Go Again: 
Clinton Presses Anew For Senate Approval of Flawed, Unverifiable, 
Ineffective Chemical Weapons Treaty (No. 97-T 5, 8 January 1997).

                               __________
                                                        No. 97-D 30
                                                   22 February 1997

 Truth or Consequences #6: The CWC Will Not Prevent Chemical Terrorism 
                   Against the U.S. or its Interests

    (Washington, D.C.): In recent weeks, proponents of the Chemical 
Weapons Convention (CWC) have cited the contribution this Convention 
would make to combating terrorists armed with chemical weapons as an 
important justification for the Senate to approve its ratification. In 
President Clinton's State of the Union address, in successive op.ed. 
articles by former Bush Administration officials and in news articles 
and editorials reflecting the administration's pro-treaty line, the 
assertion is made that an admittedly grave problem will be alleviated 
by the CWC's ban on the production, stockpiling or use of chemical 
weapons.
    According to the Wall Street Journal, Senator Richard Lugar--the 
Chemical Weapons Convention's principal champion in the Senate--has 
even taken to darkly warning his colleagues that they better vote for 
the CWC lest there be a chemical terrorist incident in this country 
which might have been prevented if only the Convention had been in 
place.
The CWC Will Not Impede Terrorists
    Such arguments are highly misleading, possibly dangerously so, for 
two reasons:
    (1) The `Home-Brew' Problem: The ability to produce toxic chemical 
agents is so widespread--and the materials required are so universally 
accessible and ordinary--that a treaty banning chemical weapons will 
have no effect at all on small, non-governmental groups determined to 
manufacture such agents. Lethal chemical substances can be manufactured 
by virtually anyone with a good understanding of chemistry and access 
to commercially available hardware and ingredients.
    In fact, the Japanese cult, Aum Shim Rikyo, produced the toxic 
nerve agent Sarin it used a few years ago in its terrorist attack on 
the subways of Tokyo in just such a fashion--in a room with dimensions 
of eight by fourteen feet. Suggestions that such terrorist incidents 
will be precluded in the future by a prohibition on governmental stocks 
of chemical weapons--a step said to eliminate the danger some chemical 
weapons might be stolen and used in an unauthorized fashion--ignore the 
reality of this ``home-brew'' option. The effect of the CWC on this 
option will be roughly that an international treaty foreswearing bank-
robbery by governments would have on independent bank-robbers, which is 
to say no beneficial impact whatsoever.
    As a practical matter, neither the limits imposed by the Chemical 
Weapons Convention's three schedules of chemicals nor the intrusive 
inspection regime mandated by the treaty would prevent terrorist groups 
like Aum Shim Rikyo from garnering chemical weapons capabilities. This 
would be true even were they to produce quantities of chemical agents 
deemed by the Chairman of the Joint Chiefs of Staff, General John 
Shalikashvili, sufficient to have a ``militarily impact'' (i.e., one 
agent ton).\1\
    On this point, a declassified Defense Intelligence Agency report of 
February 1996 observed:
          ``Irrespective of whether the CWC enters into force, 
        terrorists will likely look upon CW as a means to gain greater 
        publicity and instill widespread fear. The March 1995 Tokyo 
        subway attack by Aum Shim Rikyo would not have been prevented 
        by the CWC.''
    (2) The Problem of State-Support for Chemical Terrorism: A number 
of the leading state-sponsors of terrorism--notably, Libya, Syria, Iraq 
and North Korea--have indicated that they will not become parties to 
this treaty. As a result, at least some of those who provide 
infrastructural support, training and other assistance to terrorists 
will be free to do so in the chemical arena, as well as with respect to 
more traditional tools of the trade (e.g., Semetex plastic explosive, 
fertilizer-based bombs and other high-explosives).
    What is more, since the Chemical Weapons Convention's limitations 
cannot be monitored with confidence, it is possible--perhaps even 
likely--that at least some of the nations known to have supported 
international terrorism who may become parties to the CWC (e.g., 
Russia, China, Iran and Cuba) will also be able to assist those 
interested in performing acts of chemical terrorism. If the Convention 
cannot ensure that such CWC counties are entirely out of the chemical 
weapons business, it certainly cannot assure that those with whom these 
countries deal covertly are out of that deadly business.
    In the final analysis, of course, state-sponsorship of terrorism is 
itself a violation of international law. The idea that nations that 
routinely flout treaty obligations and international norms will behave 
differently if only a new convention is adopted is absurd. The problem 
is not a lack of laws or the ``tools'' they ostensibly provide to deal 
with such nations and behavior. The problem is, rather, the absence of 
will to use the available laws and tools to penalize state-sponsors of 
terrorism and curb their malevolence.
The Bottom Line
    The threat posed by chemical terrorism is a real one. Every 
American should be concerned about this danger--and insistent that it 
be seriously addressed by the elected and appointed officials charged 
with providing for the common defense. The predictable effect of the 
Chemical Weapons Convention, however, will be to reduce concern out of 
a mistaken belief that the chemical threat from terrorists and others 
has been appreciably lessened.
    What is needed now is effective action, not placebos like the 
Chemical Weapons Convention. The Antiterrorism Act demonstrates that 
the United States can adopt legislation addressing the threats posed by 
terrorists without being compelled to do so by international treaty. 
That and other antiterrorism statutes can and should be strengthened so 
as to impose severe criminal penalties on those who enable, help or 
execute such attacks.
    The existing, relatively verifiable international ban on use of 
chemical weapons should be given teeth. U.S. intelligence efforts aimed 
at identifying, penetrating and neutralizing groups that might be 
inclined to engage in such activities need to be intensified and given 
substantially greater resources. And a vastly increased effort should 
be made to provide protection against chemical attacks not only to the 
U.S. military but also to the American government and people.
    By contrast, a treaty that will, in all likelihood, have the effect 
of reducing investment in chemical defenses\2\ and possibly diminishing 
valuable chemical-related intelligence collection by diverting efforts 
to the inspection and other activities mandated by the CWC,\3\ may 
actually make the U.S. more susceptible--not less--to terrorists 
wielding CW. That could also be the case thanks to the treaty's 
obligation on states parties to transfer chemical manufacturing 
capabilities and defensive equipment to other member nations.\4\ Should 
this obligation be honored by the U.S. and/or its allies, it will prove 
a recipe for intensified threats emanating from terrorist-sponsoring 
countries.
    Finally, if--as virtually everyone agrees--chemical terrorism is 
likely to occur in the future, Senators would be well advised to think 
about whether they wish to be implicated by having voted for a treaty 
falsely advertised as a means to prevent such incidents, but that will 
be seen in retrospect to have done nothing on that score, and perhaps 
actually served to make them more likely.

notes:
    \1\ See the Center's Decision Brief entitled Truth or Consequences 
#3: Clinton `Makes a Mistake About It' in Arguing the CWC Will Protect 
U.S. Troops (No. 97-D 21, 6 February 1997).
    \2\ Ibid.
    \3\ Douglas J. Feith, a leading critic of the CWC and founding 
member of the Center for Security Policy's Board of Advisors, has 
likened the Convention's intrusive inspection arrangements to those of 
a drunk looking under a streetlamp for keys lost elsewhere simply 
because the light was better there.
    \4\ See the Center's Decision Brief entitled Truth or Consequences 
#5: The CWC Will Not Be Good For Business, To Say Nothing of the 
National Interest (No. 97-D 27, 17 February 1997).

                               __________
                                                        No. 97-D 38
                                                       6 March 1997

Truth or Consequences #8: The CWC Will Exacerbate the Proliferation of 
                     Chemical Warfare Capabilities

    (Washington, D.C.): In recent days, proponents of the Chemical 
Weapons Convention (CWC) have taken to dissembling about the clear 
meaning--and certain effect--of the treaty's Article XI. Article XI 
says, in part:
          ``... States parties shall ... undertake to facilitate, and 
        have the right to participate in, the fullest possible exchange 
        of chemicals, equipment and scientific and technical 
        information relating to the development and application of 
        chemistry for purposes not prohibited under this Convention;
    What is more--as noted in the attached article in the current 
edition of the New Republic by Douglas J. Feith, a former Deputy 
Assistant Secretary of Defense responsible for chemical arms control 
during the Reagan Administration and founding member of Center Board of 
Advisors--Article XI goes on to say:
          ``[States parties shall] not maintain among themselves any 
        restrictions, including those in any international agreements, 
        incompatible with the obligations undertaken under this 
        Convention, which would restrict or impede trade and the 
        development and promotion of scientific and technological 
        knowledge in the field of chemistry for industrial, 
        agricultural, research, medical, pharmaceutical or other 
        peaceful purposes. ...
    In addition, the CWC's Article X declares that ``Every state party 
shall have the right to participate in the fullest possible exchange of 
equipment, material and scientific and technological information 
concerning means of protection against chemical weapons.''
`Poisons for Peace'
    Any reasonable reading of this language shows that these provisions 
would require the United States (in the event it ratifies the 
Convention) to provide other states parties--including in all 
likelihood countries like Iran, Cuba, China and Russia--with state-of-
the-art manufacturing capabilities and defensive technologies with 
direct relevance to chemical warfare activities.
    After all, advanced facilities designed to manufacture pesticides, 
fertilizers and pharmaceuticals have the inherent capacity to produce 
chemical weapons in substantial quantities. Supplying potential 
adversaries with modern chemical defensive gear could equip them to 
engage in chemical war. It could, in addition, aid in efforts to defeat 
Western protective equipment. As the Center recently reported,\1\ 
General Norman Schwartzkopf recently reacted with incredulity and 
horror when advised that the CWC, which he has endorsed, would have 
such effects.
Will the U.S. Violate the CWC?
    Remarkably, the Clinton Administration and other CWC advocates are 
now claiming that the United States will not be compelled by this 
treaty to transfer to nations like Iran and Cuba chemical technology 
that will lend itself to diversion for military purposes. Presumably, 
they think they will not have to abide by the treaty's ``obligation'' 
to provide chemical defensive gear to Teheran or Havana, either. Maybe 
so. Still, it would be helpful to establish in advance--and formally 
codify in any resolution of ratification--precisely which of the CWC's 
provisions the United States will not observe. Such a step would do 
much to protect against the predictable postratification demand from 
Arms Control and Disarmament Agency and State Department lawyers to the 
effect that the United States must faithfully observe all of the 
treaty's articles and obligations.
Even If We Don't, Who Else Will Observe Export Controls?
    As Mr. Feith observes, even if the United States does selectively 
adhere to the Convention and maintains export controls (not to say 
embargoes) against Iran and Cuba, however, ``Articles X an XI will 
invite other countries to transfer dangerous technology to them. 
Germany can be expected to invoke the treaty against any U.S. official 
who protests a planned sale of a chemical factory to, say, Iran.'' CWC 
advocates' assurances to the contrary notwithstanding, voluntary 
supplier control arrangements like the Australia Group are likely to 
fall victim to the CWC-blessed, trade uber alles appetites of such 
``friendly'' nations.\2\
    What is more, one can safely predict that the prospect of foreign 
competitors closing such sales will cause would-be American suppliers 
to seize upon these same provisions to argue that Washington has 
neither the right nor an interest in penalizing U.S. firms. This punch 
has been telegraphed by the emphasis the frantically pro-CWC Chemical 
Manufacturers Association has placed on the opportunity the Convention 
will create for increasing exports, presumably to countries where such 
U.S. exports are not currently permitted.
The Bottom Line
    Douglas Feith's essay in the New Republic and an op.ed. by former 
Secretaries of Defense James Schlesinger, Donald Rumsfeld and Caspar 
Weinberger which appeared in the Washington Post yesterday \3\ make one 
point crystal clear: CWC Articles X and XI are but two of the myriad 
reasons why the United States would be better off not being a party to 
this Convention.
    The Senate would be well-advised to give these arguments careful 
consideration. Indeed, it would make sense to defer action on the 
treaty's ratification until after it had been in force for some period 
so as to evaluate whether these unintended and counterproductive 
effects are as serious in practice as in prospect they would appear 
likely to be. Either way, the Senate should resist the pressure to 
rubber-stamp this accord--pressure that will only intensify as treaty 
advocates realize that time is no more on their side than are the 
merits of the case.

notes:
    \1\ See the Center's Decision Brief entitled Gen. Schwartzkopf 
Tells Senate He Shares Critics' Concerns About Details of the Chemical 
Weapons Convention (No. 97-D 35, 27 February 1997).
    \2\ For more on German behavior unbecoming an ally, see the 
Center's Watch on the Rhine series, e.g., Watch On The Rhine: German 
Efforts To Extort The Czechs, Forge Relations With Rogue States Are 
Ominous Indicators (No. 96-C 127, 10 December 1996) and Watch On The 
Rhine #2: Germany Proceeds With Bait-And-Switch Encouraging Sudeten 
Claims And Moves To Reschedule Syrian Debt (No. 96-C 131, 19 December 
1996).
    \3\ See the Center's Decision Brief entitled Truth Or Consequences 
#7: Schlesinger, Rumsfeld And Weinberger Rebut Scowcroft And Deutch On 
The CWC (No. 97-D 37, 5 March 1997).

          Chemical Reaction: A Bad Treaty on Chemical Weapons

                         [By Douglas J. Feith]

    It would seem an indisputable good: a treaty to eliminate poison 
gas from Beijing to Buenos Aires. Yet the new Chemical Weapons 
Convention is having trouble in the Senate. And the more the treaty is 
debated, the deeper the trouble. In congressional hearings and public 
forums, even the treaty's champions have been forced to concede our 
severely limited ability to monitor compliance and enforce the ban.
    As a result, the chief pro-treaty argument is no longer that the 
CWC, as the treaty is acronymically known, will abolish chemical 
weapons--for it obviously will not--but that the CWC is better than 
nothing. Administration officials, in their standard pitch to skeptical 
senators, now stress that the treaty is on balance worthwhile, if 
flawed, and rebuke critics for measuring the treaty against an 
unrealistic standard of ``perfection.'' ``The limits imposed by the CWC 
surely are imperfect,'' former National Security Adviser Brent 
Scowcroft and former CIA Director John Deutch contended in a recent 
Washington Post op-ed, ``but ... it is hard to see how its imperfect 
constraints are worse than no constraints at all.''
    The it's-better-than-nothing argument has some potency. After all, 
no decent person wants poison gas to proliferate. Conservatives and 
liberals alike want to continue to destroy the entire U.S. chemical 
arsenal regardless of what happens to the CWC. So even a small step in 
the direction of global abolition would be valuable. But the treaty is 
not such a step. It is not better than nothing. Indeed, it would 
eliminate export controls that now impede rogue states from developing 
their chemical warfare capabilities. And, as many senators have 
discovered after examining the treaty's 186-page text, it would 
exacerbate the problem of poison gas proliferation around the world.
    Article XI, for instance, states that parties to the treaty shall:
          Not maintain among themselves any restrictions, including 
        those in any international agreements, incompatible with the 
        obligations undertaken under this Convention, which would 
        restrict or impede trade and the development and promotion of 
        scientific and technological knowledge in the field of 
        chemistry for industrial, agricultural, research, medical, 
        pharmaceutical or other peaceful purposes.
    What this means is that the United States must not restrict 
chemical trade with any other CWC party--even Iran and Cuba, both of 
which are CWC signatories. Similarly, CWC Article X obliges countries 
to share with other parties technology relating to chemical weapons 
defense. ``Each State Party,'' the article says, ``undertakes to 
facilitate, and shall have the right to participate in, the fullest 
possible exchange of equipment, material and scientific and 
technological information concerning means of protection against 
chemical weapons.''
    Once Iran and Cuba ratify the treaty, our current export controls 
against them will surely be attacked as impermissible. Furthermore, 
those countries, upon joining the CWC, will claim entitlement to the 
advanced countries' ``scientific and technological information'' on how 
to protect their armed forces against chemical weapons. A crucial 
element of an offensive chemical weapons capability is the means to 
protect one's own forces from the weapons' effects.
    Even if the U.S. government decides to maintain export controls 
against Iran and Cuba, Articles X and XI will invite other countries to 
transfer dangerous technology to them. Germany can be expected to 
invoke the treaty against any U.S. official who protests a planned sale 
of a chemical factory to, say, Iran. Indeed, Bonn could not only argue 
that its firms are allowed to sell chemical technology to Iran, but 
that they are actually obliged to do so, for Iran will have renounced 
chemical weapons by joining the CWC.

    Articles X and XI are modeled on similar provisions in the Nuclear 
Non-Proliferation Treaty, called ``atoms for peace,'' which even 
admirers acknowledge have spread the very nuclear technology the treaty 
was intended to contain. When Iran, Iraq and North Korea became 
signatories, they quickly gained access to this sensitive technology, 
ostensibly ``for peaceful purposes.'' Yet it helped these outlaw states 
to develop their nuclear weapons programs. The CWC encourages the same 
abuse. Even Scowcroft and Deutch acknowledge ``we must ensure that the 
CWC is not exploited to facilitate the diffusion of CWC specific 
technology ... even to signatory states.'' Alas, the perverse product 
of the CWC will be ``poisons for peace.''

    Without the treaty, any country that wants to destroy its chemical 
weapons can do so, as is the United States. But, for the sake of 
declaring an unenforceable ban on chemical weapons possession, the CWC 
will undermine existing export controls that are, in fact, doing some 
good. It is a stunning, though not unprecedented, example of arms 
control diplomacy resulting in the opposite of its intended effect. The 
treaty brings to mind Santayana's definition of a ``fanatic'' as 
someone who redoubles his effort upon losing sight of his goal. As this 
absurdity impresses itself upon the Senate, that body appears intent on 
rejecting the agreement, thereby sending the administration and the 
world a beneficial message: arms control treaties should make us more 
secure, not less.


    Douglas J. Feith oversaw chemical weapons arms control as Deputy 
Assistant Secretary of Defense for Negotiations Policy in the Reagan 
administration.


                               __________
                                                        No. 97-P 50

                                                      10 April 1997

  New National Poll Shows Overwhelming Public Opposition To A Flawed 
                      Chemical Weapons Convention

    (Washington, D.C.): On 4-5 April 1997, the Luntz Research Companies 
conducted a national poll of 900 American adults concerning the 
controversial Chemical Weapons Convention (CWC). This poll was intended 
to ensure that public sentiments about the present treaty were properly 
understood--an objective made all the more necessary by earlier canvass 
performed by the Wirthlin Group. The Wirthlin poll suggested 
overwhelming support for a treaty that ``would ban the production, 
possession, transfer and use of poison gas.''

The Luntz Poll

    This poll--which was sponsored by the Center for Security Policy, a 
non-partisan educational organization specializing in national defense 
and foreign policy issues--asked respondents whether they would support 
the CWC if it had certain troubling characteristics and/or 
implications. The text of the questions and the responses follow 
(including a breakout of the views of the respondents who identified 
themselves as having voted Republican in the 1996 congressional 
election, since the treaty's fate will be decided by the Senate's GOP 
members): \1\


          ``President Clinton will ask the U.S. Senate to vote in the 
        next few weeks for an arms control treaty called the Chemical 
        Weapons Convention. It is supposed to ban the production and 
        stockpiling of nerve gas and other chemical weapons worldwide. 
        Let me read you two opinions about the treaty [order of 
        following two paragraphs reversed in every-other question]:

          ``Treaty supporters point out that more than 160 countries 
        have signed the Chemical Weapons Convention and believe it 
        would create international pressure to get rid of such 
        weapons--and punish those who keep them. They say that, even if 
        it does not work perfectly, it will still be better than having 
        no treaty at all.

          ``Treaty opponents--including four former Secretaries of 
        Defense--believe there are serious problems with this treaty. 
        If they are right, it will not rid the world of chemical 
        weapons and may, instead, have even more undesirable effects. 
        They believe that such problems could make the result of this 
        Convention worse than having no treaty at all.

          ``With these views in mind, I would like to ask you whether 
        you would strongly support, somewhat support, somewhat oppose 
        or strongly oppose the Chemical Weapons Convention if it did 
        the following things:


``1. If only the United States and its allies wound up obeying it while 
        other, potentially hostile countries like Russia, China, Iran, 
        Iraq or North Korea keep their chemical weapons?''

                                                                      Poll Results                                                                      
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         Total Sample                                                                                                                   
                                                                                                      Republicans                                       
--------------------------------------------------------------------------------------------------------------------------------------------------------
15% Strongly support                                                       13% Strongly Support                                                         
16% Somewhat support                                                       14% Somewhat support                                                         
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Support 31%                                                          Total Support 27%                                                            
--------------------------------------------------------------------------------------------------------------------------------------------------------
16% Somewhat oppose                                                        16% Somewhat Oppose                                                          
44% Strongly oppose                                                        50% Strongly Oppose                                                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Oppose 60%                                                           Total Oppose 66%                                                             
--------------------------------------------------------------------------------------------------------------------------------------------------------
9% Other (No opinion/Don't know/Refused)                                                                                                                
--------------------------------------------------------------------------------------------------------------------------------------------------------



``2. If it would result in the transfer of technology that could help 
        countries like Iran, Cuba or China increase their ability to 
        fight chemical wars?''

                                                                      Poll Results                                                                      
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         Total Sample                                                                                                                   
                                                                                                      Republicans                                       
--------------------------------------------------------------------------------------------------------------------------------------------------------
9% Strongly support                                                        7% Strongly support                                                          
10% Somewhat support                                                       10% Somewhat support                                                         
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Support 19%                                                          Total Support 17%                                                            
--------------------------------------------------------------------------------------------------------------------------------------------------------
17% Somewhat oppose                                                        14% Somewhat oppose                                                          
53% Strongly oppose                                                        62% Strongly oppose                                                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Oppose 70%                                                           Total Oppose 76%                                                             
--------------------------------------------------------------------------------------------------------------------------------------------------------
11% Other (No opinion/Don't know/Refused)                                                                                                               
--------------------------------------------------------------------------------------------------------------------------------------------------------



``3. If countries that violated its prohibitions went unpunished?''

                                                                      Poll Results                                                                      
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         Total Sample                                                                                                                   
                                                                                                      Republicans                                       
--------------------------------------------------------------------------------------------------------------------------------------------------------
7% Strongly support                                                        8% Strongly support                                                          
9% Somewhat support                                                        8% Somewhat support                                                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Support 16%                                                          Total Support 16%                                                            
--------------------------------------------------------------------------------------------------------------------------------------------------------
17% Somewhat oppose                                                        15% Somewhat oppose                                                          
56% Strongly oppose                                                        61% Strongly oppose                                                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Oppose 73%                                                           Total Oppose 76%                                                             
--------------------------------------------------------------------------------------------------------------------------------------------------------
11% Other (No opinion/Don't know/Refused)                                                                                                               
--------------------------------------------------------------------------------------------------------------------------------------------------------



``4. If it would authorize UN inspectors to go to any site in the 
        United States, potentially without legal search warrants and 
        potentially risking American business or military secrets?''

                                                                      Poll Results                                                                      
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         Total Sample                                                                                                                   
                                                                                                      Republicans                                       
--------------------------------------------------------------------------------------------------------------------------------------------------------
10% Strongly support                                                       6% Strongly support                                                          
12% Somewhat support                                                       8% Somewhat support                                                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Support 22%                                                          Total Support 16%                                                            
--------------------------------------------------------------------------------------------------------------------------------------------------------
19% Somewhat oppose                                                        19% Somewhat oppose                                                          
49% Strongly oppose                                                        57% Strongly oppose                                                          
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Oppose 68%                                                           Total Oppose 76%                                                             
--------------------------------------------------------------------------------------------------------------------------------------------------------
11% Other (No opinion/Don't know/Refused)                                                                                                               
--------------------------------------------------------------------------------------------------------------------------------------------------------


The CWC Does Have These Flaws
    Thanks to the Senate Foreign Relations Committee under the 
leadership of its chairman, Senator Jesse Helms, there is now little 
doubt that the Chemical Weapons Convention awaiting Senate advice and 
consent is defective in each and every one of these respects. In the 
course of hearings the Committee held this week, an array of 
unimpeachable authorities highlighted the treaty's flaws with respect 
to its ineffectiveness, its technology transfer implications, its 
unenforceability and its ominous implications for American 
constitutional rights and businesses.
    Such points were underscored by four former Secretaries of Defense 
(James Schlesinger, Donald Rumsfeld, Caspar Weinberger and Dick Cheney 
[in the form of a letter]), a former Director of the Arms Control and 
Disarmament Agency (Fred Ilke), a former UN Ambassador (Jeane 
Kirkpatrick) and two other, prominent former Defense Department 
officials (former Assistant Secretary of Defense Richard Perle and 
former Deputy Assistant Secretary of Defense Douglas Feith).
    The Center anticipates with pleasure further hearings next week by 
the Foreign Relations Committee that are expected to address in greater 
detail the business, constitutional, intelligence and military issues 
associated with the Chemical Weapons Convention. It calls upon the 
Senate Armed Services Committee and Intelligence Committees to exercise 
their respective oversight responsibilities as well before the full 
Senate is asked to address this fatally flawed treaty. Such hearings 
can only serve to inform the debate about the CWC and reinforce the 
need for it to be conducted in a rigorous and deliberate manner--not 
the artificially constrained, superficial and disinformed consideration 
the Clinton Administration would prefer from the Senate.

notes:
    \1\ The Poll has a margin of error of plus or minus 3.3%. Subtotals 
reflect rounding of responses.
                               __________
                                                        No. 97-D 46
                                                      27 March 1997

    Truth or Consequences #9: CWC Proponents Dissemble About Treaty 
             Arrangements Likely To Disserve U.S. Interests

    (Washington, D.C.): In recent weeks, a number of arguments have 
been advanced by proponents of the controversial Chemical Weapons 
Convention (CWC) to counter concerns expressed by the treaty's critics. 
The more important of these have been rebutted in previous papers in 
this Truth or Consequences series.\1\ Several of the advocates' other 
misrepresentations appear, by comparison, to be relatively 
insignificant at this moment. To the extent that these statements 
encourage Senators to underestimate the problems with this Convention, 
however, it is important that the facts be clearly established with 
regard to these issues, as well.
    Generically, the statements in question fall in the category of 
mechanics and other organizational aspects of the institutional 
arrangements established by the Chemical Weapons Convention. Of 
particular concern are the following points:
`The Laugh Test'--Ha!
    In response to concerns that foreign governments might abuse the 
CWC's intrusive inspection provisions to acquire proprietary 
information from American companies, treaty advocates have claimed that 
the Convention provides a mechanism for screening out any requests for 
challenge inspections that are frivolous or abusive. Some have called 
this colloquially the ``laugh test'': They note that, as long as three-
quarters of the Executive Council (excluding the requesting party and 
the party to be inspected) of the Organization for the Prohibition of 
Chemical Weapons (OPCW)--the new UN bureaucracy established in The 
Hague pursuant to this treaty--determine that an inspection is 
frivolous, the inspection can be foreclosed.
    In practice, though, it is hard to see how this ``laugh test'' will 
be able to protect American companies, including many that have nothing 
to do with the manufacture of chemicals--to say nothing of any 
involvement in the production of chemical weapons.\2\ After all, under 
the Chemical Weapons Convention, the following factors will be at work:
    No Timely Basis for Declaring an Inspection Frivolous: According to 
the CWC's Article IX, paragraph 17, the OPCW's Executive Council will 
have just 12 hours after receipt of an inspection request to determine 
whether it is a frivolous or abusive one. Making such a determination 
will be problematic, however, since there is no requirement at that 
juncture for the challenging state party to identify the company or 
site to be inspected.
    The nation requesting the challenge inspection is initially 
required only to identify the country in which the site is located, the 
port of entry to be used by inspectors and the nature of the concern as 
it relates to the treaty (Part X, Section B, paragraph 4). In fact, the 
challenging party does not have to name the exact site to be inspected 
until 12 hours before inspectors are to arrive at the point of entry 
(Part X, Section B, paragraph 6). This will be well after the time by 
which a ruling on frivolity must have been rendered.
    No Opportunity to Object: There will, as a practical matter, be no 
way for a country (or one of its companies) to object that an 
inspection is frivolous. Not only will they not know of the precise 
inspection request in time to appeal to the Executive Council for 
relief but--in the unlikely event that they do learn of the location to 
be inspected prior to the Executive Council's timeframe for acting--the 
party to be inspected is precluded by the treaty from participating in 
Council deliberations on the frivolousness of the request (Article X, 
paragraph 17).
    Little Chance of Prevailing in the Executive Council: Even if the 
United States had the requisite information to argue that a challenge 
inspection would be frivolous or abusive and was in a position to make 
that argument before the Executive Council, the composition of that 
body makes it unlikely that American objections would be respected by 
three-quarters of the members. In standard U.N. style, the 41 seats 
(held for 2-year terms) are apportioned regionally: 9 African nations, 
9 Asian, 7 Latin American and Caribbean, 5 Eastern European, 1 rotating 
between Asian or Latin and Caribbean nations and 10 Western European or 
``other'' nations (the United States is an ``other'' nation for the 
purposes of the CWC).
    The United States has neither a guaranteed seat on the Council nor 
a veto. If standard U.N. practice applies, Washington will find it hard 
to muster a majority--let alone a super-majority of three-quarters of 
the membership--in support of its positions. What is more, the U.S. 
government will almost certainly be disinclined to object to 
inspections of any but the most patently sensitive government 
installations on the grounds that doing so will create precedents and 
otherwise facilitate foreign efforts to impede valid inspections.
`No Go' on Adding Chemicals to the Schedules
    In the wake of revelations that Russia has been covertly developing 
new classes of extremely toxic chemical weapons using ingredients 
deliberately left off the CWC's Schedules of Chemicals, treaty 
proponents have claimed that such chemicals could easily be added to 
the list. Unfortunately, such statements ignore two inconvenient facts:
    Revealing Formulas for Chemical Weapons May Do More Harm than Good: 
In the event the United States learns the composition of a novel 
chemical agent--such as the Russian A-232 nerve agent--it is highly 
unlikely that the U.S. would seek to add these chemicals (or their 
precursors) to the Annex on Chemicals. After all, adding these 
compounds to the Annex means making public the chemical structure of 
the agent, thereby undermining efforts to limit the spread of chemical 
weapons expertise and knowledge, especially to rogue states. Since U.S. 
intelligence has low confidence in its ability under the CWC to detect 
illicit Novichok-related activities in Russia (assuming Russia 
ultimately decides to ratify the treaty) the costs of adding A-232 to 
the Annex on Chemicals--measured in terms of abetting chemical weapons 
proliferation--far outweigh any potential benefits.
    Impediments to Adding Chemicals to the CWC's Schedules: Even if the 
United States should wish to add an agent or precursor to the Chemical 
Weapons Convention's schedule, the process is not the simple 
undertaking that proponents have led the public to believe. To the 
contrary, it is a long and complicated one.
    For one thing, modifications to the Annex on Chemicals are not 
treated as formal ``amendments'' to the Convention. ``Changes'' to the 
Annex on Chemicals, including additions of new chemicals to the 
schedules, are treated as administrative or technical in nature. 
Consequently, special provisions and procedures apply (Article XV, 
paragraph 4): Any state party may propose a change to the Annex on 
Chemicals. The proposal is then sent to the Director-General, who 
forwards it to states parties and the Executive Council (Article XV, 
paragraph 5(a)).
    Within 90 days of receipt, the Executive Council makes a 
recommendation to states parties on whether to accept or reject the 
proposal. The decision requires a simple majority of the Executive 
Council (Article XV, paragraph 5(c)). If the Council recommends that 
the proposal be adopted, it shall be considered approved unless a state 
party objects within 90 days, and the changes will enter into force 180 
days after formal notification of its acceptance by State Parties 
(Article XV, paragraph 5(d) & (g)). If a state party objects, a 
decision on the proposal will be taken as ``a matter of substance'' by 
the Conference of State Parties at its next session (Article XV, 
paragraph 5(c)).
    Conferences are only held on an annual basis, however. Even then, 
as the treaty puts it, decisions taken in such Conferences on ``matters 
of substance should be taken as far as possible by consensus.'' If 
consensus is not possible, the Conference shall take a decision by a 
two-thirds majority of members present and voting (Article VIII, 
paragraph 18). Currently, this would entail garnering the support of 51 
out of 70 state parties to the Convention.
    To make this process less abstract, assume that the U.S. government 
(a) knows the composition of a new chemical weapons agent (or 
precursor) and (b) has reached inter-agency agreement to seek inclusion 
of the compounds in the Annex on Chemicals--possibly over the objection 
of the Chemical Manufacturers Association. The following is a scenario 
describing what would be entailed in effecting such a change:
  <bullet> C-Day: The United States proposes the change to the OPCW's 
        Director-General;
  <bullet> C + 3 months: The Executive Council recommends acceptance of 
        the U.S. proposal;
  <bullet> C + 6 months: Russia, for example, objects.
  <bullet> C + 6-to-18 months: An annual Conference is held to address, 
        among other things, the proposed change. The United States 
        musters the two-thirds votes necessary.
  <bullet> C + 12-to-24 months: Change becomes effective--up to 2 years 
        after the initial request.
  <bullet> Alternatively, if the United States cannot enlist two-thirds 
        of the states parties, the change will not be adopted.
    It is important to note that, even if the CWC's proponents were 
correct in their representations that it will be easy to add chemicals 
to the treaty's Schedules, it is not clear that U.S. interests would be 
served by that arrangement, either. After all, addition of chemicals to 
Schedules 1 or 2, or relocation from Schedule 3 to Schedule 2 over 
Washington's objections could impinge significantly on the reporting 
and inspection burden imposed on U.S. companies and on American 
chemical export opportunities. In theory at least, changes in the 
Schedules could broaden the treaty's scope so as to cover hundreds, 
possibly thousands, of additional companies. The Senate would have no 
say over such changes--even if they were to have the effect of 
significantly altering the CWC's costs.
House of Cards
    The Chemical Weapons Convention requires states parties to declare 
whether they have chemical weapons and where they were produced within 
30 days after the treaty enters into force. Since the preponderance of 
the CWC's reporting, regulatory and inspection arrangements hinge on 
voluntary declarations, unwillingness of parties to provide full and 
accurate reports of their capabilities will significantly diminish even 
the putative value of this Convention.
    Of the countries that have so far ratified the Chemical Weapons 
Convention, not one has publicly affirmed that it has chemical weapons. 
While they will not be obliged to make a formal declaration until May 
29th, the fact that not even India--which is widely believed to have 
chemical warfare capabilities--has intimated that it is a CW state 
bodes ill for the candidness of future disclosures. What is more, there 
is no reason to believe that China, Iran, Pakistan or other states 
judged to have active chemical warfare programs will acknowledge that 
reality. Even Russia, which has, under the now moribund U.S.-Russian 
Bilateral Destruction Agreement, affirmed that it is a chemical weapons 
state, has consistently understated and otherwise misrepresented the 
nature and size of its chemical arsenal.
    It will only be possible to calibrate the gravity of this problem 
thirty-days after entry into force (or after countries like Russia, 
China and Iran) deposit their instruments of ratification. The United 
States would be well-advised to wait until that point to become a state 
party.
The Bottom Line
    While these issues may appear relatively minor compared with the 
Chemical Weapons Convention's other major defects--notably, the United 
States' inability to monitor compliance with the treaty with even 
moderate confidence; its prospective costs in terms of Americans' 
constitutional rights and their businesses' proprietary information; 
and the danger that the CWC's Articles X and XI will actually 
exacerbate the chemical warfare threat while the treaty's placebo 
effect diminishes U.S. preparedness to deal with that threat. Still, 
the truth about these ``mechanical'' aspects of the treaty once again 
belie assurances provided by the CWC's proponents and further compound 
the down-sides associated with U.S. ratification of the present 
Convention.

notes:
    \1\ To obtain copies of these papers, please check the Center's 
Website (http://www.security-policy.org) or contact the Center at 202-
466-0515.
    \2\ See Truth or Consequences #5: The CWC Will Not Be Good for 
Business--To Say Nothing of the National Interest (No. 97-D 27, 17 
February 1997) for more information about the number and kinds of 
companies likely to fall under the purview of the CWC's reporting, 
regulatory and inspection regime.
                               __________
                                                        No. 97-P 40
                                                      17 March 1997

The Weekly Standard Weighs in on the CWC: `Just Say No to a Bad Treaty'

    (Washington, D.C.): According to the Washington Post, the debate 
over the Chemical Weapons Convention (CWC) has become one ``between 
conservatives.'' A variation on this theme is the claim that it is a 
debate ``between internationalists and isolationists''--read, ``good'' 
conservatives who appreciate the importance of American power and 
leadership in the world and ``bad'' conservatives who believe the 
United States can safely walk away from international affairs and 
responsibilities.
    Fortunately, the fraudulent nature of such characterizations is 
revealed in the attached editorial which leads the current issue of one 
of American conservatism's most influential periodicals--The Weekly 
Standard. As the Standard puts it:
          ``What we really have here is the continuation of one of this 
        century's most enduring disputes. In the first camp are the 
        high priests of arms control theology, who have never met an 
        international agreement they didn't like. In the second camp 
        are those who take a more skeptical view of relying on a piece 
        of watermarked, signed parchment for safety in a dangerous 
        world. The case for ratifying the Chemical Weapons Convention 
        is a triumph of hope over experience.''
    The magazine goes on to describe the debate over the CWC as one 
essentially between those who subscribe to ``Reaganite 
internationalism'' on the one hand and ``the more starry-eyed Wilsonian 
version'' on the other--a difference it says is rooted in the principle 
that ``treaties must reflect reality, not hope.'' Perhaps even more 
important is its practical guidance to conservatives who would prefer 
to be in the former camp rather than the latter:
          ``In the Reagan years, the treaty was mostly a sop to 
        liberals in Congress, an attempt to pick up some points for an 
        arms control measure at a time when Reagan was trying to win on 
        more important issues like the defense buildup and the 
        Strategic Defense Initiative. And President Bush pushed the 
        treaty in no small part because he had disliked having to cast 
        a tie-breaking vote in the Senate as Vice President in favor of 
        building chemical weapons. Republicans today are under no 
        obligation to carry out the mistakes of their predecessors.
          ``In one respect, the debate over the Chemical Weapons 
        Convention calls to mind the struggle for the party's soul 
        waged in the 1970's between Kissingerian detente-niks on one 
        side and the insurgent forces led by Ronald Reagan on the 
        other. Back then, conservative Republicans like Senate Majority 
        Leader Trent Lott knew without hesitation where they stood. 
        They should stand where they stood before, foursquare with the 
        ideas that helped win the cold war, and against the Chemical 
        Weapons Convention.'' (Emphasis added.)

                      Just Say No To A Bad Treaty

    The Weekly Standard/March 24, 1997.--The United States Senate must 
decide by April 28 whether to ratify the Chemical Weapons Convention. 
The press, the pundits, and the Clinton administration have treated the 
debate over the treaty as another in a series of battles between 
``internationalists'' and ``isolationists'' in the new, post-Cold War 
era.
    It isn't. What we really have here is the continuation of one of 
this century's most enduring disputes. In the first camp are the high 
priests of arms control theology, who have never met an international 
agreement they didn't like. In the second camp are those who take a 
more skeptical view of relying on a piece of watermarked, signed 
parchment for safety in a dangerous world.
    The case for ratifying the Chemical Weapons Convention is a triumph 
of hope over experience. It is an attempt to reform the world by 
collecting signatures. Some of the most dangerous nations--Iraq, Syria, 
Libya, and North Korea--have not ratified the convention and, for all 
we know, never will. Some of the nations that are signatories, like 
Russia, China, Iran, and Cuba, are manifestly unreliable and are 
already looking for ways to circumvent the convention's provisions.
    The convention's most prominent American defenders admit that the 
agreement is probably not verifiable. And it isn't. Chemical weapons 
can be produced in small but deadly amounts in tiny makeshift 
laboratories. The nerve gas used by terrorists to poison subway riders 
in Japan in 1995, for instance, was produced in a 14 ft.-by-8 ft. room. 
No one in the American intelligence community believes we would be able 
to monitor compliance with an international chemical weapons regime 
with any reasonable degree of confidence.
     The Washington Post opines that these failings in the convention--
the very fact ``that the coverage of this treaty falls short and that 
enforcement is uncertain''--are actually arguments for ratifying it. 
Presumably, signature of a flawed treaty will make all of us work 
harder to perfect it.
     Great.
     At the end of the day, the strongest argument proponents of 
ratification can offer is that, whatever a treaty's manifest flaws, it 
is better to have one than not to have one. How could it be bad to have 
a treaty outlawing production of chemical weapons, no matter how full 
of holes it may be?
     Well, actually, such a treaty could be worse than no treaty at 
all. We have pretty good evidence from the bloody history of this 
century that treaties like the Chemical Weapons Convention--treaties 
that are more hortatory than mandatory, that express good intentions 
more than they require any actions to back up those intentions can do 
more harm than good. They are part of a psychological process of 
evasion and avoidance of tough choices. The truth is, the best way of 
controlling chemical weapons proliferation could be for the United 
States to bomb a Libyan chemical weapons factory.
     But that is the kind of difficult decision for an American 
president that the Chemical Weapons Convention does nothing to 
facilitate. Indeed, the existence of a chemical weapons treaty would 
make it less likely that a president would order such strong unilateral 
action, since he would be bound to turn over evidence of a violation to 
the international lawyers and diplomats and wait for their 
investigation and con- 
currence. And as Richard Perle has recently noted, even after Saddam 
Hussein used chemical weapons in flagrant violation of an existing 
prohibition against their use, the international bureaucrats 
responsible for monitoring these matters could not bring themselves to 
denounce Iraq by name. In the end, it would be easier for a president 
to order an airstrike than to get scores of nations to agree on naming 
one of their own an outlaw.
     The Chemical Weapons Convention is what Peter Rodman calls ``junk 
arms control,'' and not the least of its many drawbacks is that it 
gives effective arms control a bad name. Effective treaties codify 
decisions nations have already made: to end a war on certain terms, for 
instance, or to define fishing rights. Because they reflect the will of 
the parties, moreover, the parties themselves don't raise obstacles to 
verification.
     But treaties whose purpose is to rope in rogue nations that have 
not consented, or whose consent is widely understood to be cynical and 
disingenuous, are something else again. They are based on a worldview 
that is at best foolishly optimistic and at worst patronizing and 
deluded.
     One of the important things separating Reaganite internationalism 
from the more starry-eyed Wilsonian version is the understanding that 
treaties must reflect reality, not hope. The Chemical Weapons 
Convention turns the clock back to the kind of Wilsonian thinking 
characteristic of the Carter administration. It is unfortunate that 
among its strongest backers are some prominent Republicans who have 
served in key foreign-policy positions. It is true that the origins of 
the Chemical Weapons Convention date back to the Reagan years, and the 
convention was carried to fruition by the Bush administration. But 
let's be candid. In the Reagan years, the treaty was mostly a sop to 
liberals in Congress, an attempt to pick up some points for an arms 
control measure at a time when Reagan was trying to win on more 
important issues like the defense buildup and the Strategic Defense 
Initiative. And President Bush pushed the treaty in no small part 
because he had disliked having to cast a tiebreaking vote in the Senate 
as vice president in favor of building chemical weapons. Republicans 
today are under no obligation to carry out the mistakes of their 
predecessors.
    In one respect, the debate over the Chemical Weapons Convention 
calls to mind the struggle for the party's soul waged in the 1970s 
between Kissingerian detente-niks on one side and the insurgent forces 
led by Ronald Reagan on the other. Back then, conservative Republicans 
like Senate majority leader Trent Lott knew without hesitation where 
they stood. They should stand where they stood before, foursquare with 
the ideas that helped win the Cold War, and against the Chemical 
Weapons Convention.
                               __________
                                                        No. 97-D 24
                                                   10 February 1997

 Truth or Consequences #4: No D.N.A. Tests Needed To Show That Claims 
            About Republican Paternity Of CWC Are Overblown

    (Washington, D.C.): The Clinton Administration's hole card in its 
bid to persuade a Republican-controlled Senate to agree to ratification 
of the controversial Chemical Weapons Convention (CWC) appears to be 
the contention that the fathers of this treaty are Presidents Ronald 
Reagan and George Bush. The most recent and visible manifestation of 
this gambit was Secretary of State Madeleine Albright's visit to Mr. 
Bush in Texas last Saturday to secure a public statement of his support 
for the CWC.
    The Administration's reasoning seems to be that Republican Senators 
will be willing to disregard myriad, serious concerns about the 
substance of this accord and vote for it simply because two Presidents 
of their party were involved in its negotiation. This tactic may be 
explained by the fact that any arms control for which Mr. Clinton is 
seen as principally responsible will be viewed with skepticism by more 
than a third of the Senate--a number sufficient under the Constitution 
to defeat treaties.\1\ Still, the idea that demonstrating Republican 
paternity for a flawed agreement will be sufficient to secure its 
ratification suggests a low regard for GOP Senators and their sense of 
responsibility when it comes to the Senate's constitutional role as 
equal partner with the executive in treaty-making.
Not So Fast--This is Not Ronald Reagan's Treaty
    This proposition is even more extraordinary since the degree of 
Republican responsibility for the treaty as it now stands is, in 
important ways, less than the Clinton Administration would have 
Senators believe.
    For example, in Sunday's New York Times, a letter signed by a 
number of senior Reagan Administration officials takes strong exception 
to the suggestion that the President they served is implicated in the 
agreement ultimately signed in January 1993. The signatories are the 
following distinguished former office-holders: Secretary of Defense 
Caspar Weinberger, U.N. Ambassador Jeane Kirkpatrick, Arms Control and 
Disarmament Agency Director Eugene Rostow, Under Secretary of Defense 
Fred Ikle, Assistant Secretary of Defense Richard Perle and Deputy 
Assistant Secretaries of Defense Douglas Feith and Frank Gaffney.
    This joint letter notes, in part:
          ``It is a distortion of recent history for supporters of the 
        controversial new Chemical Weapons Convention to describe it as 
        a product of the Reagan Administration, implying that the 
        treaty has Ronald Reagan's imprimatur.
          ``The Convention now being debated in the Senate is a very 
        different document from the chemical weapons ban the Reagan 
        Administration was negotiating. The principal difference is 
        that the Chemical Weapons Convention is hopelessly 
        unenforceable. Cynical signatories like Iran, China, Russia and 
        Cuba know that they could ratify it, make and store nerve gas 
        in violation of it, almost certainly escape detection and 
        certainly escape serious penalty.
          ``The Clinton Administration has recently told Senate leaders 
        in considerable detail that it has no intention of imposing 
        meaningful punishment on treaty violators. It has also admitted 
        that American intelligence cannot certify confidence in our 
        ability to detect illegal production and stockpiling of 
        chemical weapons in secretive countries, even in militarily 
        significant quantities.
          ``We know that the Chemical Weapons Convention, in its 
        current form, would never have been accepted as consistent with 
        President Reagan's policies. President Reagan was clearsighted 
        and principled in his opposition to arms control treaties that 
        could be violated with impunity.'' (Emphasis added.)
Changed Circumstances Have Significantly Altered President Bush's 
        Treaty
    What is more, there have been significant changes in a number of 
the assumptions, conditions and circumstances that underpinned the Bush 
Administration's judgment that the Chemical Weapons Convention was in 
the national interest. These changes have prompted several top Bush 
Administration officials--including Secretary of Defense Richard 
Cheney, Air Force Chief of Staff Merrill McPeak, Assistant Arms Control 
and Disarmament Agency Director Kathleen Bailey, Assistant to the 
Secretary for Atomic Energy Robert Barker and Principal Deputy 
Assistant Secretary of Defense J.D. Crouch--to urge that the present 
treaty be rejected by the Senate.\2\
    An illustrative sample of the changes that have materially altered 
the acceptability, if not strictly speaking the terms, of the Chemical 
Weapons Convention include the following:
  <bullet> Item: Russia's Evisceration of the Bilateral Destruction 
        Agreement
    The Bush Administration anticipated that a Bilateral Destruction 
Agreement (BDA) forged by Secretary of State James Baker and his Soviet 
counterpart, Eduard Shevardnadze in 1990, would critically underpin the 
Chemical Weapons Convention. As the Center for Security Policy observed 
last week,\3\ this agreement obliged Moscow to provide a full and 
accurate accounting and eliminate most of its vast chemical arsenal. 
The BDA was also expected to afford the U.S. inspection rights that 
would significantly enhance the more limited arrangements provided for 
by the CWC.
    These assumptions about the BDA have, regrettably, not been 
fulfilled. To the contrary, Russian Prime Minister Victor Chernomyrdin 
declared last year that the Bilateral Destruction Agreement has 
``outlived its usefulness'' for Russia. What is more, it is now public 
knowledge that Russia is continuing to produce extremely lethal binary 
munitions--weapons that have been specifically designed to circumvent 
the limits and defeat the inspection regime of the Chemical Weapons 
Convention. \4\
  <bullet> Item: On-Site Inspections Won't Prevent Cheating
    When the Bush Administration finalized the CWC, there was 
considerable hope that intrusive on-site inspections would meaningfully 
contribute to the detection and proof of violations, and therefore to 
deterring them. Five years of experience with the U.N. inspections in 
Iraq--inspections that were allowed to be far more thorough, timely and 
intrusive than those permitted under this Convention--have established 
that totalitarian rulers of a closed society can successfully defeat 
such monitoring efforts.
    In a 4 February 1997 letter to National Security Advisor Samuel 
Berger, Senate Foreign Relations Committee Chairman Jesse Helms noted 
that:
          ``Unclassified portions of the National Intelligence Estimate 
        on U.S. Monitoring Capabilities [prepared after Mr. Bush left 
        office] indicate that it is unlikely that the U.S. will be able 
        to detect or address violations in a timely fashion, if at all, 
        when they occur on a small scale. And yet, even small-scale 
        diversions of chemicals to chemical weapons production are 
        capable, over time, of yielding a stockpile far in excess of a 
        single ton, [which General Shalikashvili described in 
        congressional testimony on 11 August 1994 as a level which 
        could, `in certain limited circumstances ... have a military 
        impact.'] Moreover, few countries, if any, are engaging in much 
        more than small-scale production of chemical agent. For 
        example, according to [the 4 February 1997] Washington Times, 
        Russia may produce its new nerve agents at a `pilot plant' in 
        quantities of only `55 to 110 tons annually.' ''
  <bullet> Item: Facilitating Proliferation: `Poisons for Peace'
    In the years since the Bush Administration signed the Chemical 
Weapons Convention, it has become increasingly clear that sharing 
nuclear weapons-relevant technology simply with would-be proliferators 
simply because they promise not to pursue nuclear weapons programs is 
folly. Indeed, countries like North Korea, Iran, Iraq, India, Pakistan, 
Argentina, Brazil and Algeria have abused this ``Atoms for Peace'' 
bargain by diverting equipment and know-how provided under the Nuclear 
NonProliferation Treaty (NPT) to prohibited weapons purposes.
    Unfortunately, commercial chemical manufacturing technology can, if 
anything, be diverted even more easily to weapons purposes than can 
nuclear research and power reactors. For this reason, recent experience 
with the NPT suggests that the Chemical Weapons Convention's Article 
XI--an article dubbed the ``Poisons for Peace'' provision--is 
insupportable. It stipulates that the Parties shall:
          ``Not maintain among themselves any restrictions, including 
        those in any international agreements, incompatible with the 
        obligations undertaken under this Convention, which would 
        restrict or impede trade and the development and promotion of 
        scientific and technological knowledge in the field of 
        chemistry for industrial, agricultural, research, medical, 
        pharmaceutical or other peaceful purposes.''
    Such an obligation must now be judged a recipe for accelerating 
proliferation of chemical weapons, not restricting it. Even if the 
United States were to become a party to the CWC and choose to ignore 
this treaty commitment, other advanced industrialized countries will 
certainly not refrain from selling dual-use chemical manufacturing 
technology if it means making a lucrative sale.
  <bullet> Item: U.S. Chemical Defenses Will be Degraded
    When the Bush Administration signed the CWC, proponents offered 
assurances that the treaty would not diminish U.S. investment in 
chemical defenses. Such assurances were called into question, however, 
by an initiative unveiled in 1995 by the then-Vice Chairman of the 
Joint Chiefs of Staff, Admiral William Owens. He suggested cutting $805 
million from counter-proliferation support and chemical and biological 
defense programs through Fiscal Year 2001. The rationale: Thanks to a 
perceived reduction in the chemical warfare threat to be brought about 
by the CWC, investments in countering that threat could safely enjoy 
lower priority.
    This reduction would have deferred, if not seriously disrupted, 
important chemical and biological research and development efforts, and 
delayed the procurement of proven technologies. While the Owens 
initiative was ultimately defeated, it is a foretaste of the sort of 
reduced budgetary priority this account will surely face if the CWC is 
approved.
    Changes in the military postures of key U.S. allies since the end 
of the Bush Administration raise a related point: Even if the United 
States manages to resist the sirens' song to reduce chemical defenses 
in the wake of the CWC, it is predictable that the already generally 
deplorable readiness of most allied forces to deal with chemical 
threats will only worsen. To the extent that the U.S. is obliged in the 
future to fight coalition wars, this vulnerability could prove 
catastrophic to American forces engaged with a common enemy.
  <bullet> Item: Clinton Repudiates Bush Commitment to the JCS on 
        R.C.A.s
    At the insistence of the Joint Chiefs of Staff in 1992, President 
Bush signed an executive order that explicitly allowed Riot Control 
Agents (for example, tear gas) to be used in rescuing downed aircrews 
and in dispersing hostile forces using civilians to screen their 
movements against U.S. positions. The Clinton Administration has stated 
its intention to rescind this executive order once the CWC is ratified. 
The result could be to compel U.S. personnel to choose between using 
lethal force where RCAs would suffice or suffering otherwise avoidable 
casualties.
    Worse yet, the Clinton reversal of the Bush Administration position 
on RCAs may mean that promising new defense technologies--involving 
chemical-based, non-lethal weapons (for example, immobilizing agents)--
may be restricted or prohibited by this Convention. If so, U.S. forces 
may be denied highly effective means of prevailing in future conflicts 
with minimal loss of life on either side.
The Bottom Line
    The foregoing considerations make clear that Senators should 
consider the Chemical Weapons Convention carefully on its merits. They 
should, in particular, resist the Clinton Administration's pressure to 
ignore this treaty's flaws out of some sense of duty to earlier 
administrations. A treaty that has little in common with Ronald 
Reagan's approach to arms control and that has undergone material 
changes in circumstances since George Bush's presidency must be seen 
for what it is: a defective agreement that is unworthy of the 
intensive--and increasingly misleading--campaign being mounted for its 
ratification by the current resident of the White House and his team.

notes:
    \1\ Presumably, it is for this reason, that the administration has 
strenuously resisted demands that major changes it has been negotiating 
to the Conventional Forces in Europe and Anti-Ballistic Missile Treaty 
be submitted for the Senate's advice and consent.
    \2\ See the Center's Transition Brief entitled Here We Go Again: 
Clinton Presses Anew For Senate Approval of Flawed, Unverifiable, 
Ineffective Chemical Weapons Treaty (No. 97-T 5, 8 January 1997).
    \3\ See the Center's Decision Brief entitled Truth or Consequences 
#3: Clinton `Makes a Mistake About It' in Arguing the CWC Will Protect 
U.S. Troops (No. 97-D 21, 6 February 1997).
    \4\ See the Center's Decision Brief entitled Russia's Covert 
Chemical Weapons Program Vindicates Jesse Helms' Continuing Opposition 
to Phony CW Arms Control (No. 97-D 19, 4 February 1997).

                               __________
 Remarks by President Bill Clinton and Others at White House, April 4, 
                 1997 Chemical Weapons Convention Event

  Also Speaking: Vice President Al Gore, Secretary of State Madeleine 
Albright, Secretary of Defense William Cohen, Former Secretary of State 
        James Baker, Former Senator Nancy Kassebaum Baker (R-KS)

    Vice President Gore. Please. Be seated, ladies and gentlemen.
    On behalf of the President it is my pleasure to welcome all of you 
on this beautiful spring day to the White House.
    I'm very pleased to be here this morning with a most distinguished 
group of Americans joining the President here today: the Secretary of 
State, the Secretary of Defense, the Attorney General, the Secretary of 
Commerce, our U.N. Ambassador, other members of the Cabinet and the 
administration; leaders from the legislative branch, Senators Biden and 
Levin and others; former government officials and current ones, 
Democrats and Republicans; wise patriots like General Colin Powell and 
former Secretary of State Jim Baker; Paul Nitze, other strategists; Ed 
Rowny; leaders in our strategic thinking in America over the years; 
former Senators Warren Rudman and Nancy Kassebaum Baker and David 
Boren; General John Shalikashvili and other military leaders; and, I'm 
sure, a bunch of others that I may have accidentally overlooked, but 
this is quite a distinguished bipartisan gathering--Dick Holbrooke, the 
negotiator of the Bosnia accord, and quite a few others.
    You look at this group, and you go down the list, and you see 
individuals--men and women in different political parties, different 
points on the ideological spectrum--and you think immediately of dozens 
of important issues that have faced America where these individuals 
have argued with one another and been on different sides, passionately.
    But on this issue, every single one of them is in agreement 
because, looking at this from whatever point of view you want to look 
at it, these individuals have concluded this is very definitely in the 
best interest of the United States of America. The time has come to 
ratify the Chemical Weapons Convention.
    From the killing fields of the Ardennes in World War I to those of 
Halabja in Iraq, to Tokyo's subways and beyond, over all that distance, 
chemical weapons have traced an insidious path of unspeakable horror 
through our century. It's been a long time since World War I. Allow me 
to say that the oral history of my own family teaches lessons about 
what happened there. My father's older brother went from the hills of 
middle Tennessee as a teenager to join the Army and served with our 
troops in World War I in Europe. He came home a broken man because he 
had been a victim of poison gas. He lived for a long time--coughing, 
wheezing, limited in his ability to move around. He had one lung 
removed and part of another. And his life--he made a lot of his life, 
but it was very nearly ruined by that experience.
    So many millions of families around the world came into personal 
contact with the horrors of poison gas in World War I that the world 
arrived at a rare moral consensus that chemical weapons ought to be 
forever banned. And it lasted for a while, but then that consensus 
started to erode. And when some started using these terrible weapons 
again, as is always the case when memories had faded, the world said, 
``Now, wait a minute, how should we react to that?'' Those who focused 
on it clearly spoke up and said, ``We've got to react strongly, this is 
awful, this should be condemned.'' Others were busy with other things, 
and it's a natural process.
    But now the world has focused again. The time has come to 
reestablish that moral consensus. And as always, the world looks to the 
United States of America for leadership, and we provided leadership, 
starting in former President Reagan's administration when this was 
begun. And then it was concluded in the negotiating phase in former 
President Bush's administration. And now, in President Clinton's 
administration, the cup passes to the Congress.
    But our whole country has a chance to say to the Congress: Do the 
right thing. Now is the moment, because now, on the cusp of a new 
century, we can join in common cause to end this scourge. As we've done 
with pride and conviction so many times this past century, we can once 
again here in the United States lead the international community on a 
new path toward safety and security. This is an opportunity to help 
ensure that the 20th century is the first and last century in which our 
soldiers and our citizens will live under the dangerous clouds of the 
threat posed by chemical weapons. This is our chance to act in a manner 
befitting a strong nation and a wise people, so that we can say 
confidently to future generations that here in our time, we came 
together across party lines, and we did everything we could to control 
these weapons of mass and inhumane destruction. On this we must be 
clear, bold, and united.
    Now it is my pleasure to introduce the individual in the 
President's Cabinet who is leading the charge on behalf of the 
President to seek confirmation of this important agreement: our 
Secretary of State, Madeleine Albright.
    Secretary Albright. Thank you very much, Mr. Vice President.
    The presence of so many distinguished backers of the treaty here 
today demonstrates support that is broad, bipartisan, and growing.
    There are some people who say the treaty is flawed because we 
cannot assume early ratification and full compliance by outlaw states. 
This is like saying that we should not pass a law against drug 
smuggling, because we cannot assume full compliance by drug 
traffickers. We cannot allow the rules of the international system to 
be set by the enemies of the international system.
    As Secretary of State and as an American, I'm also concerned about 
our leadership in the fight to stop the spread of weapons of mass 
destruction. If the Senate were to reject the CWC, we would be isolated 
from our allies and on the same side as countries such as Libya and 
Iraq. The problem countries will never accept a prohibition on chemical 
weapons if America stays out and keeps them company and gives them 
cover. We will not have the standing to mobilize our allies to support 
strong action against violators if we ourselves refuse to join the 
treaty being violated.
    The time for Senate action is now. The treaty has been pending in 
the Senate for 180 weeks.
    It's been the subject of more than a dozen hearings and hours of 
briefings. And we have supplied more than 1,500 pages of testimony, 
reports, correspondence and answers for the record concerning it.
    In summary, this treaty is a test of our ability to follow through 
on commitments. It reflects existing American practices, and advances 
enduring American interests. It is right and smart for America, and it 
deserves the Senate's timely support.
    Thank you. (Applause.)
    Secretary Cohen. Thank you very much, Secretary Albright. As we 
have all seen, you continue to throw the ball straight and hard and 
right down the middle. (Laughter.)
    Ratification of the Chemical Weapons Convention, I believe, is 
indeed a critical test of American leadership, but as Secretary of 
Defense, I want to urge the Senate to ratify the treaty for another 
important reason. Quite simply, this treaty is critical to the safety 
of our soldiers, sailors, airmen and Marines. The Chemical Weapons 
Convention is needed to protect and defend the men and women in uniform 
who protect and defend our country. We live in a world today in which 
we find regional aggressors, third-rate armies, terrorist groups and 
religious cults who may view lethal chemical agents as the cheapest and 
most effective weapon against American troops in the field. Our troops, 
in fact, may be in greater risk of a chemical attack today than in the 
past. Because America's forces are the world's most powerful, 
adversaries are more likely to try to challenge us asymmetrically 
through the use of nonconventional means such as chemical weapons.
    So, to protect against this threat, we've developed an array of 
tools, ranging from protective suits to theater missile defenses. By 
limiting the chemical weapons threat, the CWC strengthens these tools 
and our ability to protect our troops and our nation from chemical 
attack. And that's why our military leaders who stand before us stand 
firmly behind America's ratification of this treaty. They understand 
that we can far better protect our nation working to abolish chemical 
weapons from the world rather than stockpiling and threatening to use 
them. They believe, as I believe that ratification of the CWC is 
critical to America's security. And I am pleased to introduce someone 
who has played a major role in negotiating this vital treaty, former 
Secretary of State Jim Baker. (Applause.)
    Mr. Baker. Mr. President, Mr. Vice President, distinguished guests, 
ladies and gentlemen: As we've heard, the Chemical Weapons Convention 
was negotiated under Presidents Ronald Reagan and George Bush.
    The argument that some have used against ratification of the CWC is 
that it would somehow undermine our national security. Frankly, the 
suggestion that George Bush and Ronald Reagan would negotiate a treaty 
detrimental to this nation's security is outrageous.
    Ratification of the CWC is at its core really a test of American 
leadership. If we fail to ratify this treaty, we will forego the 
influence we would otherwise have had in the continuing international 
effort against chemical weapons. If we fail to ratify this treaty, we 
will postpone indefinitely any progress on a ban against the equally 
dire threat of biological weapons. And if we fail to ratify, we will 
also isolate ourselves from our friends in the international arena, and 
we will, as the Secretary of State has just told you, throw in our lot 
with the rogue states which oppose this treaty.
    But most importantly of all, my friends, if we fail to ratify the 
CWC, we will be sending a clear signal of retreat from international 
leadership, both to our allies and to our enemies alike. This is a 
message we should never, never send. Instead, we should send another 
message; we should send a message that the United States of America is 
a nation aware of our international responsibilities and a nation 
confident enough to assume them. In a word, we should send a message 
that America is prepared to continue to lead. And that is why all of us 
are here--Republicans and Democrats alike. And that is why the Senate 
should immediately ratify the Chemical Weapons Convention.
    Now its my distinct privilege to introduce to you my kissin' 
cousin, the former Senator from Kansas, Nancy Kassebaum Baker. 
(Laughter, applause.)
    Ms. Baker. Thank you. Mr. President, Mr. Vice President, and to 
distinguished friends who are gathered here today, many of whom played 
a key and important role over the years in the negotiations and debates 
regarding the Chemical Weapons treaty, I'm sure that I would be 
expressing on the part of most of the American people a deep sense of 
appreciation and gratitude for your dedication which has brought us to 
this point today.
    As a former member of the Senate Foreign Relations Committee for 16 
years who strongly supported President Reagan's efforts to negotiate 
this treaty, President Bush's efforts to complete it, and President 
Clinton's efforts to ratify it, I can attest to the strong bipartisan 
support for this convention over the years.
    Our success in meeting the challenge of stopping the spread of 
chemical weapons will depend on our vigilance. No treaty can have 
perfect verification. No treaty will be 100 percent successful in 
eliminating a threat. But if we hold out for perfection, we will 
squander the opportunity, as has been said by all the speakers, to join 
with a growing number of nations to deal now with this serious 
challenge to our security.
    Over the 4 years that the convention has been before the Senate, 
valid concerns have been raised. There have been 13 hearings to date, 
many questions answered, and numerous reports written. While to a 
foreign observer our internal debate may seem confusing, it is in fact 
the essential ingredient to forging a consensus. Our democratic 
traditions provide the foundation on which U.S. Leadership is built.
    I must commend President Clinton and Senate Majority Leader Trent 
Lott for the intense and productive negotiations which have been 
undertaken to this date to address the concerns that have been raised. 
I'm confident that these efforts will lead to a successful ratification 
of the Chemical Weapons Convention, and continued U.S. Leadership on 
this issue.
    As David Boren, Brent Scowcroft, and myself recently wrote the 
President, and I quote, ``We believe that the real issue at stake is 
American leadership, not only on this critical issue of chemical 
weapons proliferation, but also with ramifications far broader--on a 
far broader array of issues which directly affect our interests.
    It is for these reasons that we urge you, Mr. President, not to 
waiver in your efforts to win ratification in the U.S. Senate.''
    It's now my honor to introduce a colleague who came at the same 
time as I did to the U.S. Senate, in 1978. We've worked together on 
many issues. He now is the president of Oklahoma University. But his 
leadership over the years in the U.S. Senate has been central to our 
efforts to forge bipartisan consensus on such important issues as the 
one before us today. David Boren.
    Mr. Boren (Former U.S. Senator (D-OK)). Thank you very much, 
Senator Kassebaum Baker, and it's a privilege to have another 
opportunity to work with you on an important bipartisan cause for our 
country.
    During the 6 years that I chaired the U.S. Senate Intelligence 
Committee, time and time again our intelligence experts came before our 
committee to warn us that the greatest threat to our national security 
and to the next generation is the spread of weapons of mass 
destruction, including chemical weapons. This threat is intensified as 
these weapons become available to some of the least responsible nations 
in the world and to the terrorist groups which they shelter.
    The decision we must soon make about the ratification of the 
Chemical Weapons Convention is one of those decisions on which history 
will judge us, and I am proud to stand with those gathered today to 
urge its ratification.
    At the end of World War II, America faced a new world situation 
with the beginning of the cold war. We provided as a nation the crucial 
leadership through NATO, the Marshall Plan and other measures which 
helped make this world a safer place for decades. Now, almost exactly 
50 years later, with the end of the cold war, we once again face a 
totally new world situation, with growing fragmentation and the spread 
of dangerous weapons to rogue states. American leaders in the 1940's 
met the test of history. Members of the U.S. Senate in the 1990's must 
not fail it.
    Congress, as has been said, has had 13 major hearings on the 
convention for over 3 years. The issues are clearly understood. It is 
time to act.
    With the treaty due to take effect very soon, the United States 
will make a mistake which we will long regret if we sit on the 
sidelines with states we have criticized as being dangerous and 
irresponsible.
    We will lose our ability to play a major role in assuring 
compliance with the weapons ban. But above all, we will lose the moral 
basis of our leadership on an issue of urgent importance to our 
national security.
    As has been said, this is not a partisan issue. This is a question 
of American leadership, as has been said by Secretary Baker. This is a 
question of meeting our responsibility to the next generation. Earlier 
leaders did not fail our generation, and we must not fail those who 
will follow us.
    And now it is my great privilege to present one who has called us 
as a nation to meet our leadership responsibilities on this vital 
issue. His effort deserves our strong bipartisan support. Ladies and 
gentlemen, the President of the United States. (Applause.)
    President Clinton. Thank you very much. Thank you.
    Thank you very much, Senator Boren, for your words and your 
presence here today. We were laughing before we came out here--Senator 
Boren and I started our careers in politics in 1974 together, but he 
found a presidency that is not term-limited--(laughter)--and I want to 
congratulate him on it.
    Mr. Vice President, Secretary Albright, Secretary Cohen, Secretary 
Baker, Senator Nancy Kassebaum Baker, General Shalikashvili. Let me 
thank all of you who have spoken here today for the words you have 
said, for you have said it all. And let me thank all of you who have 
come here to be a part of this audience today to send a clear, 
unambiguous, united message to America and to our Senate. I thank 
Senator General Colin Powell and Senator Warren Rudman; former arms 
negotiators Paul Nitze, Edward Rowny and Ken Adelman; so many of the 
Congressmen who have supported us, including Senator Biden and Senator 
Levin, who are here; the truly distinguished array of military leaders; 
leaders of businesses, religious organizations, human rights groups; 
scientists and arms control experts.
    Secretary Baker made, I thought, a very telling point, which others 
made as well: This is, in the beginning, a question of whether we will 
continue to make America's leadership strong and sure as we chart our 
course in a new time. We have to do that, and we can only do that if we 
rise to the challenge of ratifying the Chemical Weapons Convention.
    We are closing a 20th century which gives us an opportunity now to 
forge a widening international commitment to banish poison gas from the 
Earth in the 21st century. This is a simple issue at bottom, even 
though the details are somewhat complex. Presidents and legislators 
from both parties, military leaders and arms control experts have bound 
together in common cause because this is simply good for the future of 
every American.
    I received two powerful letters recently calling for ratification. 
One has already been mentioned that I received from Senator Nancy 
Kassebaum Baker, Senator Boren, and former national security advisor 
General Brent Scowcroft. The other came from General Powell, General 
Jones, General Vessey, General Schwarzkopf, and more than a dozen other 
retired generals and admirals, all of them saying, as one, America 
needs to ratify the Chemical Weapons Convention, and we must do it 
before it takes affect on April 29th.
    Of course, the treaty is not a panacea. No arms control treaty can 
be absolutely perfect, and none can end the need for vigilance. But no 
nation acting alone can protect itself from the threat posed by 
chemical weapons. Trying to stop their spread by ourselves would be 
like trying to stop the wind that helps carry their poison to its 
target.
    We must have an international solution to a global problem.
    The convention provides clear and overwhelming benefits to our 
people. Under a law Congress passed in the 1980's, we are already 
destroying almost all our chemical weapons. The convention requires 
other nations to follow our lead, to eliminate their arsenals of poison 
gas, and to give up developing, producing and acquiring such weapons in 
the future.
    By ratifying the Chemical Weapons Convention, as Secretary Cohen 
said, we can help to shield our soldiers from one of the battlefield's 
deadliest killers. We can give our children something our parents never 
had--broad protection against the threat of chemical attack. And we can 
bolster our leadership in the fight against terrorism, of proliferation 
all around the world.
    If the Senate fails to ratify the convention before it enters into 
force, our national security and, I might add, our economic security 
will suffer. We will be denied use of the treaty's tools against rogue 
states and terrorists; we will lose the chance to help to enforce the 
rules we helped to write, or to have American serve as inter- 
national inspectors--something that is especially important for those 
who have raised concerns about inspection provisions of the treaty.
    Ironically, if we are outside this agreement rather than inside, it 
is our chemical companies, our leading exporters, which will face 
mandatory trade restrictions that could cost them hundreds of millions 
of dollars in sales.
    In short order, America will go from leading the world to joining 
the company of pariah nations that the Chemical Weapons Convention 
seeks to isolate. We cannot allow this to happen. The time has come to 
pass this treaty, as 70 other nations already have done.
    Since I sent the Chemical Weapons Convention to the Senate 3\1/2\ 
years ago, there have been mom than a dozen hearings, more than 1,500 
pages of testimony and reports. During the last 3 months, we have 
worked very closely with Senate leaders to go the extra mile to resolve 
remaining questions in areas of concern. I want to thank those in the 
Senate who have worked with us for their leadership and for their good-
faith efforts.
    Ratifying the Chemical Weapons Convention, again I say, is 
important both for what it does and for what it says. It says America 
is committed to protecting our troops, to fighting terror, to stopping 
the spread of weapons of mass destruction, to setting and enforcing 
standards for international behavior, and to leading the world in 
meeting the challenges of the 21st century.
    I urge the Senate to act in the highest traditions of 
bipartisanship and in the deepest of our national interests.
    And let me again say, the words that I have spoken today are 
nothing compared to the presence, to the careers, to the experience, to 
the judgment, to the patriotism of Republicans and Democrats alike and 
the military leaders who have gathered here and who all across this 
country have lent their support to this monumentally important effort.
    We must not fail. We have a lot of work to do, but I leave here 
today with renewed confidence that together we can get the job done.
    Thank you. God bless you. And God bless America. (Applause.)

                               __________
      False Promises, Fatal Flaws: The Chemical Weapons Convention

Prepared by Empower America as part of its Ideas for the Next Century--
              International Leadership Series, March 1997

   False Promises, Fatal Flaws: The Chemical Weapons Convention (CWC)

    ``The CWC is not global since many dangerous nations have not 
agreed to join the treaty regime. * * * The CWC is not effective 
because it does not ban or control possession of all chemicals that 
could be used for lethal weapons purposes. * * * The CWC is not 
verifiable as the US intelligence community has repeatedly acknowledged 
in congressional testimony.''
       --From a letter to Senator Trent Lott signed by Former National 
Security Advisor William P. Clark, Former Secretaries of Defense Caspar 
Weinberger and Richard Cheney, and Former US Ambassador to the UN Jeane 
                                                            Kirkpatrick

    The Chemical Weapons Convention (CWC) purports to ban the 
development, production, stockpiling, and use of chemical weapons, as 
well as the destruction of existing arsenals and weapons production 
facilities. Various degrees of controls on and prohibitions against 
production of and trade in certain chemicals are to be phased in over 
several years. The alleged benefits of the CWC, however, are illusory 
and obscure serious harm to US strategic, economic, and civil 
interests.
  <bullet> While claiming to reduce and even eliminate chemical 
        arsenals, the CWC actually does nothing to remove such weapons 
        from those states most likely to use them--including Iraq, 
        Libya, North Korea, and Syria.
  <bullet> The CWC creates a mechanism that could lead to the 
        proliferation of chemical weapons technology among parties and 
        their client states.
  <bullet> The CWC's enforcement provisions would impose serious costs 
        and economic risks on US businesses, even those not directly 
        involved in defense industries, and pose serious challenges to 
        rights protected by the Constitution.

               The Empty Threat of ``Being Left Behind''

    ``[T]he chemical weapons problem is so difficult from an 
intelligence perspective that I cannot state that we have high 
confidence in our ability to detect non-compliance, especially on a 
small scale.''
                --Former Director of Central Intelligence James Woolsey

    The CWC is due to enter into force on April 29, 1997. The dire 
warnings of the Clinton Administration and others that failure to 
ratify the Convention before that date will exclude the US from 
involvement in the initial organization of the CWC's institutions and 
subject US companies to trade sanctions are misleading.
  <bullet> Failure to participate in the organization of an inherently 
        ineffective regime is of questionable concern.
  <bullet> Failure of the US to join the CWC would inhibit trade only 
        to a limited degree. Even the administration's estimate of 
        potential losses to US companies totals only $600 million 
        annually, far less than the cost CWC compliance.

                   Selected Chemical Weapons Programs

    Countries with declared programs: Iraq, Russia, US

    Countries with undeclared programs: China, Egypt, India, Iran, 
Iraq, Israel, Libya, North Korea, Pakistan, Syria, Taiwan, Vietnam, 
Ethiopia, Myanmar/Burma

*NOTE: Countries in bold either have or are developing ballistic 
missiles.

                             False Promises

    ``The CWC would likely have the effect of leaving the United States 
and its allies more, not less, vulnerable to chemical attack. It could 
well serve to increase, not reduce, the spread of chemical weapons 
manufacturing capabilities. Thus we would be better off not to be party 
to it.''
           --James Schlesinger, Caspar Weinberger, and Donald Rumsfeld,
                                          Former Secretaries of Defense

    The Clinton Administration and other supporters of the CWC 
acknowledge that the Convention is ``no panacea'' in addressing the 
threat of chemical weapons. The truth, however, is that the CWC is far 
more ineffective than supporters contend.
  <bullet> Several of the states most likely to pose a chemical weapons 
        threat, including Iraq, North Korea, Libya, and Syria, have no 
        intention of becoming parties to the CWC. Even states that have 
        signed the CWC, most notably Russia and China, are unlikely to 
        respect its provisions--least of all rid themselves of their 
        current arsenals--if they indeed ratify it. Russia alone has 
        already developed chemical programs designed to evade 
        inspections or utilize agents not addressed by the Convention.
  <bullet> The CWC does not ban most chemical weapons agents, because 
        most agents are used extensively for non-military purposes. 
        Indeed, chemical weapons remain the easiest weapons of mass 
        destruction to develop and produce in significant quantities 
        without detection, largely due to the widespread non-military 
        use of their ingredients.
  <bullet> US intelligence officials have acknowledged that significant 
        difficulties exist in detecting covert chemical weapons 
        programs. As a National Intelligence Estimate concluded in 
        1993, ``The capability of the intelligence community to monitor 
        compliance with the Chemical Weapons Convention is severely 
        limited. * * * The key provision of the monitoring regime--
        challenge inspections at declared sites--can be thwarted by a 
        nation determined to preserve a small, secret program using the 
        delays and managed access rules allowed by the Convention.''
  <bullet> Procedures exist for producing ready-to-use chemical agents 
        within so short a time that inspections prior to a conflict or 
        crisis could be meaningless. A recent Pentagon report details 
        Russia's development of chemical agents that could be produced 
        in a matter of weeks.
  <bullet> The CWC's provisions for punishing violators are 
        exceptionally vague. The UN Security Council would be charged 
        with addressing violations. In addition to the traditional 
        ineffectiveness of sanctions and other punitive actions ordered 
        by the Security Council, Russia and China could be expected to 
        limit or veto outright punishment of their client states and 
        allies.
  <bullet> While the Chemical Manufacturers Association (CMA) supports 
        the CWC, it represents only a small fraction of the companies 
        that would be affected by the Convention. Indeed, thousands of 
        companies potentially affected are not even aware of their 
        exposure to CWC provisions.
  <bullet> The Chemical Manufacturers Association's support is likely 
        based on hopes for increased trade in dangerous chemicals due 
        to the elimination of restrictions in accordance with the 
        materiel and technology sharing mandated by the Convention.

                              Fatal Flaws

    ``The United States is abandoning * * * one of the most effective 
deterrents to chemical use against itself and its allies: the right to 
an extant and mature offensive chemical weapons program. * * * [T]he 
Senate should understand that it will contribute to the weakening of 
deterrence, not to its strengthening, by eliminating the ability of the 
United States to respond in kind to chemical attack. A weakening of 
deterrence means * * * that American * * * soldiers are more, not less, 
likely to be attacked with chemical weapons.''
  --J.D. Crouch, Former Principal Deputy Assistant Secretary of Defense

    Beyond the ineffectiveness of the CWC in meeting its purported 
goals, its provisions would actually do great harm to the strategic and 
economic interests of the US.
  <bullet> The CWC requires materiel and technology sharing with states 
        that would otherwise be denied such assistance; the CWC would 
        actually spread chemical weapons know-how to parties, such as 
        China and Iran, and their client states. Similar arrangements 
        regarding nuclear technology have contributed to the 
        development of nuclear weapons programs across the globe.
  <bullet> The CWC would require the US to destroy its entire chemical 
        weapons arsenal, while leaving untouched the substantial 
        arsenals of rogue states like Iraq, Libya, North Korea, and 
        Syria, which are not party to the treaty. Even potential 
        parties such as Russia have persistently violated chemical 
        weapons reduction requirements of past agreements and are 
        already engaged in programs designed to defy and evade the CWC.
  <bullet> The US relies upon a strategy of retaliation to deter 
        chemical attacks. The CWC, however, would limit US options to 
        costly conventional operations or a nuclear strike. Contrasted 
        with a limited in-kind chemical-for-chemical exchange, these 
        two options are politically difficult to pursue and therefore 
        not very credible deterrents to a would-be aggressor.
  <bullet> As interpreted by the Clinton Administration and 
        Congressional backers of the Convention, the CWC would prohibit 
        the use of non-lethal chemicals such as tear gas, leaving US 
        troops with no effective response other than bullets to 
        threatening crowds or the use of civilian shields--such as 
        occurred in Somalia.
  <bullet> Almost 8,000 US businesses, even non-defense industries 
        utilizing potential chemical agents, would have to shoulder 
        significant reporting and other compliance costs and expose 
        themselves to the well-precedented risk of industrial espionage 
        during inspections. Realistic yearly costs related to CWC 
        compliance run as high as $200 million in government 
        expenditures and perhaps billions in costs to businesses. In 
        addition, Russia has already begun to link its ratification of 
        the CWC to billions of dollars in economic assistance, some of 
        which would be only tangentially--if at all--connected to 
        compliance with the Convention.
  <bullet> The inspection provisions of the CWC could lead to serious 
        violations of the Constitution's protection of due process and 
        privacy as international teams attempt to investigate private 
        US companies and their employees.
  <bullet> The well-precedented tendency of governments to ignore or 
        downplay violations of arms control agreements so as to 
        preserve the overall regimes, as well as the extensive 
        political and diplomatic capital that has been invested thus 
        far in the CWC, are likely to inhibit enforcement of the 
        Convention and the pursuit of more effective initiatives.
                               __________
Letters and Other Material Submitted in Support of Ratification of the 
                      Chemical Weapons Convention

                      American Ex-Prisoners of War,
                                        Watauga, Tennessee,
                                                 February 20, 1997.
Hon. Trent Lott,
Majority Leader, U.S. Senate,
Washington, DC 20510.
    Dear Senator Lott: As National Commander of the American Ex-
Prisoners of War, I wish to express my support for the ratification of 
the Chemical Weapons Convention Treaty. This is an important step in 
reducing the price that Americans who serve their country on the field 
of battle must pay in defense of our freedom. Those captured in prior 
wars know all too well the enduring price of those sacrifices even 
without chemical weapons and their life-long disabling consequences.
    While there may, of course, be some risk in adopting this treaty, 
Americans must play a leadership role in international efforts to 
reduce this price to the extent possible. These risks have been 
thoroughly weighed by Presidents Reagan, Bush and Clinton, and the 
Joint Chiefs of Staff, and all have supported this treaty.
            Sincerely,
                          Wm. E. ``Sonny'' Mottern,
                                         National Commander

                                 ______
                                 

News Release,
Veterans of Foreign Wars of the U.S.,
Washington, DC 20002.
           for release: vfw supports chemical weapons treaty
    Washington, DC, February 13, 1997.--The Veterans of Foreign Wars 
today announced its support for ratification of the Chemical Weapons 
Convention Treaty which would halt the manufacture, stockpiling and use 
of chemical weapons.
    VFW Commander in Chief James E. Nier, of El Paso, Texas, in calling 
for support for the treaty's ratification said, ``The treaty will 
reduce world stockpiles of such weapons and will hopefully prevent our 
troops from being exposed to poison gases as we believe happened in the 
Gulf War.''
    Noting the support of three Presidents for the treaty--it was 
initiated by President Reagan, negotiated by President Bush, and 
submitted for ratification by President Clinton--and that the treaty is 
supported by the Joint Chiefs of Staff, Nier said the VFW would support 
efforts calling for the treaty' ratification.
    ``There are risks in adopting this treaty. However, the Chairman of 
the Joint Chiefs of Staff believes the advantages outweigh the 
shortcomings and Defense Secretary Cohen has assured me these risks can 
be greatly reduced with the ongoing improvements in the defense posture 
of our troops against chemical warfare,'' Nier said.
    The VFW leader noted that, ``As combat veterans we support this 
treaty, but in the future if we perceive that this treaty puts our 
country and our troops at a disadvantage, we will be out front and lead 
the way in calling for withdrawal from the treaty.''

                                 ______
                                 

Proposed Resolution No. 97-TS4
Reserve Officers Association of the United States,
Washington, DC.
                      chemical weapons convention
    WHEREAS, the Chemical Weapons Convention (CWC), which would ban the 
development, production, and stockpiling, as well as the use and 
preparation for use of chemical weapons was negotiated by both the 
Reagan and Bush administrations; and
    WHEREAS, 65 countries, including virtually all of our friends and 
allies, have already ratified the CWC; and
    WHEREAS, under a law signed in 1985 by then-President Reagan, all 
U.S. chemical weapons (many of which are nearly 50 years old) are to be 
destroyed by the year 2004; and
    WHEREAS, the Congress has repeatedly refused to authorize the funds 
necessary to modernize our chemical weapons arsenal, leading us to 
abandon that effort in 1991; and
    WHEREAS, the CWC will go into force, with or without United States' 
ratification, on April 29, 1997; and
    WHEREAS, United States' failure to ratify the CWC will place us 
among the great outlaw states of the world, including Libya, Iran, and 
North Korea; and
    WHEREAS, United States' ratification of the CWC will enable us to 
play a major role in the development and implementation of CWC policy, 
as well as providing strong moral leverage to help convince Russia of 
the desirability of ratifying the convention;
    NOW, THEREFORE, BE IT RESOLVED, that the Reserve Officers 
Association of the United States, chartered by Congress, urges the 
Senate to quickly ratify the Chemical Weapons Convention.

            Attest:
                                  Roger W. Sandler,
                              Major General, AUS (Retired),
                                        National Executive Director

Note: This is not an official ROA resolution until adopted by the 
National (Convention/Council).

                                 ______
                                 

News Release,
Jewish War Veterans of the U.S.A.,
Washington, DC 20004.
 for immediate release: jwv supports ratification of chemical weapons 
                                 treaty
    Washington, DC, February 5, 1997.--The Jewish War Veterans of the 
U.S.A. (JWV) calls for the ratification of the Chemical Weapons 
Convention (CWC) which was signed during the Bush Administration. The 
need for the treaty is more critical today than ever before.
    JWV National Commander Bob Zweiman stated, ``The events related to 
the Gulf War Syndrome revealed that when it comes to chemical warfare, 
there may either be an incapacity to recognize the dangers to our 
troops in the field or, once shown to exist, there can be a penchant to 
cover up the embarrassment for the failure to so recognize. But for the 
actions of the Veterans Administration, our Gulf War veterans would 
have found themselves without any current avenue of possible relief 
and, even now, we must still be concerned with claim time limitations.
    ``While the CWC may not be perfect in all terms, it provides an 
aura of international cooperation into the arsenal of the United States 
protecting our national interests without compromising our freedom of 
action. There are meaningful provisions in the CWC which will afford 
and opportunity to impose economic restrictions and sanctions against 
those who develop chemical weapons or deal with the threat of or use of 
such chemical warfare.
    ``As is readily recognizable from the U.N. monitoring of the Iraqi 
facilities, there can be no assurances for a security or for a real 
defense capability against the use of chemicals by rogue nations or 
terrorists without controls as may additionally be made available to us 
by the CWC. We are honor bound to protect our Nation and our troops by 
minimizing the chances from all obvious or hidden means of chemical 
attack in the future.''
    Founded in 1896, JWV is the oldest, active national veterans' 
organization in America and is known as the ``Patriotic Voice of 
American Jewry.'' JWV is currently celebrating its centennial year 
which included JWV's hosting of Veterans Day ceremonies at Arlington 
Cemetery on November 11, 1998.

                               __________
   Prepared Statement of Brad Roberts, Institute for Defense Analyses

    In hearings before this committee a year ago, I had the opportunity 
to address a number of specific concerns about the benefits, costs, and 
verifiability of the Chemical Weapons Convention and, in so doing, to 
argue that the U.S. national interest is well served by ratification of 
the Convention and U.S. participation in the new regime. Rather than 
again offer a defense of the Convention, I would like to take the 
opportunity to help to bring into better focus the nation's stake in 
the pending CWC vote. Toward that end, I would like to describe five 
messages that would be sent by your rejection of the CWC.
The first message would be that America's elected officials remain 
        firmly in the grip of the Cold War when it comes to arms 
        control
    The current debate about the CWC was in fact scripted in the early 
1980s, when most of the protagonists staked out their positions 
(although at that point the treaty itself was nothing more than a 
glimmer in the eye of negotiators). On the one hand were those who saw 
arms control as a dangerous delusion--a sell-out to the Soviets. On the 
other were those who saw any arms build-up as a dangerous folly--a 
false remedy to Cold War confrontation. For each, the CWC was but one 
front in the larger ideological battle. Today, CWC opponents savage the 
treaty as fatally flawed, while administration supporters defend it as 
useful for ridding the world of evil weapons. Moderates in both 
parties, on the other hand, seem for the most part to have lost 
interest and to have anticipated U.S. ratification as a ``no-brainer.''
    The antipathy to CW arms control in the Cold War had much to do 
with the specific strategic context in Europe. With NATO forces 
overmatched by Warsaw Pact forces, if war came it seemed likely that 
the West would have to rely on early use of its tactical nuclear 
weapons. The Soviets quite possibly could have denied NATO a carefully 
considered and effective use of its nuclear weapons with chemical 
warfare. Sustained chemical attacks on NATO forces without fear of 
reprisal would have enabled the Warsaw Pact to maintain high tempo 
attacks with conventional forces and without themselves suffering the 
consequences of chemical warfare--namely the cumbersome work of 
fighting inside gas masks and chemical protection suits. Hence NATO 
needed some in-kind retaliatory capability for the Soviet chemical 
threat, which was provided by the United States with its chemical 
arsenal. Hence the opposition to a chemical ban because of the belief 
that even small-scale cheating on any such ban could have been sharply 
destabilizing not just in Europe but to the central strategic balance.
    But that strategic landscape is gone. Today, no country of 
proliferation concern has the ability to deliver the quantities of 
chemical agents with precision for days and weeks against U.S. forces 
or to exploit the tactical circumstances created by their use to 
inflict operational or strategic defeat on U.S. military forces. It 
would take a great deal of cheating to create a chemical arsenal with 
potential military significance when used against well-protected U.S. 
forces, a scale of cheating that is beyond the reach of these states so 
long as they must keep the program secret and underground. Even if they 
were somehow able to create a massive chemical arsenal despite 
international inspections, none of these states has the Soviet-vintage 
capacity to overwhelm U.S. forces by conventional means or to escalate 
to tactical and strategic nuclear attack. Their chemical attacks would 
have nuisance value--perhaps high nuisance value--but they do not 
promise to create the strategic predicament created by the Warsaw Pact. 
Thus the United States need not concern itself with detecting any and 
all acts of noncompliance by parties to the CWC, but only with 
militarily significant cheating--so long as it sustains strong 
antichemical defenses. Of course, it will not rely on the CWC to 
understand the CW capabilities of potential enemies--that's why a great 
deal of money is spent on proliferation-related intelligence 
capabilities.
    Moreover, the United States does not need to stoop to chemical 
retaliation to punish the use of chemical weapons against its forces. 
In the current environment, U.S. military interests are best served by 
minimizing the role chemicals might play on the battlefield, so that 
the superior conventional weaponry of the United States can be used to 
best advantage. In fact, the United States has forsworn the right to 
use chemical weapons under any circumstance, even in retaliation, in 
the wake of the Persian Gulf war. Norman Schwartzkopf is only the 
latest of many military commanders to say that the United States does 
not need a chemical deterrent for the chemical threats it faces in the 
proliferation era. This makes it possible for the United States to 
trade its aging stockpile of chemical weapons, the vast majority 
produced in the 1950s and 1960s, for a global ban.
    This points to the conclusion that the critics' case against the 
CWC has been made on the wrong national security criteria. Cold War 
thinking says that only the strictest verification and compliance 
standards are suitable for arms control and that chemical disarmament 
weakens deterrence. Both judgments are wrong for the post-cold war era, 
so long as the arms control in question does not touch on the 
fundamentals of strategic nuclear stability. The CWC is neither panacea 
nor folly. It is not a substitute for all of those other things that 
must be done to meet the proliferation challenge. It does not eliminate 
chemical weapons nor the risks of cheating. But it does meet strict 
national security criteria. And it helps to keep the CW problem 
manageable while adding new political tools to the arsenal of 
political, economic, intelligence, and military measures that must be 
used synergistically if the proliferation threat is to be kept in 
check.
    I for one am grateful that the debate on the CWC has not turned out 
to be a ``no-brainer'', for we now have the chance to rise above the 
tired debate of the past and to think through the larger questions of 
arms control standards, national interests, and U.S. leadership in 
terms suitable for the post-Cold War era. If the administration and the 
Congress cannot come to a clearer agreement on these issues, the 
national interest seems likely to suffer badly. At the very least, 
disagreement will doom the six other arms control measures currently 
awaiting U.S. ratification--and with them, some of the few tools 
available to the United States for building future political 
coalitions.
A second message is that the United States does not understand what is 
        at stake in stopping the proliferation of chemical weapons.
    Chemical weapons proliferated dramatically in the 1980s, to more 
than 20 countries. They have appeared, moreover, in precisely those 
regions where the United States offers security guarantees and in the 
hands of those states that sponsor terrorism. Stemming their 
proliferation is essential to dealing with the more general problem of 
the proliferation of nuclear and biological weapons, missile delivery 
systems, and advanced conventional weaponry. If rogues can use NBC 
weapons as trump cards against U.S. military action, or to conduct 
attacks on American civilians, our world will change fundamentally--and 
for the worse. If the end of the Cold War is what made the CWC 
possible, proliferation is what made it necessary.
    It would be nice if the CWC were to rid the world completely of 
chemical weapons, but it won't (at least, as long as renegade states 
exist). So what other interests might it serve vis-a-vis the 
proliferation problem? The United States has an interest in preventing 
the continued proliferation to ever more states. It has an interest in 
getting out of the chemical warfare business those who are only 
dabbling (intrigued by Iraq's use of chemical weapons in its war 
against Iran). It has an interest in keeping the stockpiles of those 
who remain in the business small and unsophisticated. It has an 
interest in isolating by political and economic means those states that 
remain in the business. And it has an interest in not being isolated 
politically when it comes time to deal militarily with those 
chemically-armed states that pose real and immediate military dangers.
    The CWC will do a good job of safeguarding these interests. Its 
verification provisions are sufficient to deter all but the most 
committed CW producers. The charge that the CWC will be ineffective 
because some important CW possessors are non-signatories misses an 
essential point--by self-selecting out of the regime, these states 
identify themselves as problem cases and make themselves objects of 
suspicion and trade restraints. In each of these ways, the CWC promises 
a tangible benefit to U.S. security (which is an answer to those 
critics who allege that the CWC offers no such benefits for the United 
States).
A third message of non-ratification is that the United States is going 
        to be irrelevant to the international effort to stem CW 
        proliferation.
    Treaty opponents have offered up a number of substitutes. One is 
``reinvigoration'' of the Geneva Protocol of 1925, whose signatories 
agree not to use chemical weapons (although some states have reserved 
the right to use such weapons in retaliation). The Protocol is 
certainly in dire need of help--it was dealt a crippling blow by the 
failure to respond to Saddam Hussein's use of chemical weapons 
throughout the 1980s in his wars against both Iranians and Iraqis. 
Reinvigoration would presumably entail the addition of compliance and 
verification provisions--just like those that turned the Protocol into 
the CWC! Reinvigoration would also presumably entail some renewed 
political commitment to the Protocol. But the United States can hardly 
expect others to line up with it behind the Protocol as an alternative 
to the CWC when even its closest friends and allies are moving on to 
the CWC. Moreover, the United States carries the added burden of 
lingering international resentment over its particular failure to 
uphold the Protocol in the 1980s because of its grievances against 
Iran.
    Their second alternative is to supplement the protocol with a new 
treaty analogous to the Nuclear Non-Proliferation Treaty. The NPT is 
unique in the history of multilateral arms control measures in that it 
grants to a set of states certain rights that are denied to others--in 
this case, the right to possess nuclear weapons. Under the proposed 
chemical parallel, the United States and presumably Russia would be 
allowed to keep their chemical weapons while they try to police other 
states from acquiring their own. But no countries would join with the 
United States in this endeavor--all see U.S. and Russian disarmament as 
essential to the political bargain embodied in the chemical control 
regime. To suggest that a new treaty could be made without this 
cornerstone, or simply imposed, is either naive or disingenuous.
    Their third alternative is reliance on unilateral, domestic 
measures, such as those detailed in SB495. In fact, most if not all of 
those measures would be necessary adjuncts to CWC implementation. But 
as a substitute for the CWC, SB495 leaves much to be desired. One 
noteworthy, example is in the area of export controls: the United 
States can anticipate growing friction with its partners in the 
Australia Group process, most of whom will be among the original states 
parties to the CWC, if it attempts to rely on economic sticks and 
carrots while sitting aside from the CWC. Another example is in the 
area of CWC compliance challenges: by walking away from the CWC, the 
United States leaves its allies and other prospective coalition 
partners to fend for themselves when it comes to dealing with 
noncompliance by states parties to the CWC. The United States may be 
there when the chips are down militarily, but for circumstances short 
of war it will leave its friends and allies to manage largely on their 
own the political and economic instruments of risk management. Despite 
its many merits, SB495 is little more than window dressing on American 
retreat from the CW proliferation problem. Its primary short-term 
benefit would probably be in making some Americans feel good about 
walking away.
    In short, these alternatives are not viable. To reject the CWC is 
to consign the United States to irrelevance to the international effort 
to manage the CW proliferation problem. This is a course of action of 
dubious political merit. The notion that somehow America should sit 
aside while others do the hard work of dealing with proliferation will 
be an insult to many Americans. Americans are not bystanders. But 
rejection of the CWC will marginalize U.S. influence and turn us into 
free-loaders on the efforts of others to implement the CWC despite our 
having walked away. This is an insult to Americans rightly proud of the 
nation's historic role of a power with both military strength and a 
vision of a better world--and the will to lend its political prestige 
to bring it into being. It is also an insult to the integrity of 
American diplomacy--having given our word to participate as a party to 
the convention, in the form of then-Secretary Eagleburger's signature, 
non-ratification will erode the strength of American political promises 
more generally. Others will rightly ask how America can expect to hold 
others to their promises when it breaks its own?
A fourth message that would be sent by non-ratification is that America 
        is going to dish out some vigilante justice when it comes to 
        dealing with CW-armed proliferators.
    Whether or not the United States ratifies the CWC, it enters into 
force as international law on April 29. By walking away from the law it 
helped to create, the United States will be relegating itself to the 
role of vigilante whenever it chooses to undertake military actions 
against CW-armed states--as one who professes a commitment to the rule 
of law, but places itself above the law when it comes to dealing with 
outlaws. By working from outside rather than inside the CWC normative 
framework, the United States will turn military acts against 
chemically-armed states into solitary exercises of U.S. military 
prowess, rather than coalition campaigns to punish transgressors. The 
United States will have no one to blame but itself for the political 
isolation it will suffer.
    This too is a course of action of dubious political merit. America 
does not belong above the law--indeed, central to our national 
conception is a belief in the moral basis of our politics and power, 
and our mission to expand the rule of law. In our de facto role as 
``world's policeman,'' will others think of us as a respectful steward 
of the common weal or an unreliable bully whose lip service to the rule 
of law is cynical and abandoned when it does not suit his needs? To 
reject the CWC is to put us on the wrong side of history, especially 
our own, and on the side with Iraq, Libya, and North Korea.
A fifth message is that America does not trust itself--more 
        specifically, that the Senate does not trust itself to do its 
        oversight job.
    One of the arguments used by CWC opponents to persuade freshmen 
Senators to join their cause is the so-called lulling effect of arms 
control. The argument runs as follows: tyrants will get the better of 
arms control with democracies because de- 
mocracies want to believe that others are Good and will go far to 
delude themselves that the tyrant is living up to his promises. This 
delusion paralyzes democracies, which then ignore real military 
vulnerabilities and, by looking duped, embolden the tyrant. By this 
logic, arms control may lead to war.
    This is a view of arms control derived from a rather peculiar 
interpretation of the genesis of fascist aggression in the 1930s, one 
which flies in the face of the experience of the Cold War when 
democracies stood firm against totalitarianism for half a century. 
Anyone who today thinks that chemical arms control will lull a sleepy 
republic must overlook the huge sums of money invested annually in 
chemical preparedness, the existence of an intelligence community 
charged with monitoring arms control compliance, and a host of 
``friendly critics'' who scrutinize arms control implementation.
    For Senators to align themselves with a point of view that is 
distrustful of democratic process would be especially odd. Should we 
infer that they themselves believed that they are dupes--that they are 
not confident that they can or will perform their oversight 
responsibilities, by asking the right questions at the right times 
about U.S. military readiness and compliance findings by U.S. 
intelligence?
    Like it or not, this is what the Senate will signal to the world--
and to the American voter--if it rejects the CWC. America as nostalgic 
for the Cold War. America as ignorant of its special stake in stopping 
NBC proliferation. America as free-loader. America as dupe of foreign 
tyrants, timid and unreliable. An America enjoying unparalleled 
military strength, but unable to bank on its strengths to take small 
risks for large payoffs. An America that says no to change, that has 
lost its bearings and its mission to promote the change that makes a 
better world possible.
    In short, the vote on the CWC comes down to a vote about U.S. 
leadership. It presents the Senate with a basic choice. The United 
States can lead, by safeguarding common interests and protecting U.S. 
national interests by exercising a political-military influence 
commensurate with the nation's weight and moral compass. It can follow, 
by freeloading on the efforts of others while pretending that domestic, 
unilateral measures are enough to meet its needs. Or it can get out of 
the way, as a new wave of proliferation occurs and fuels the ambitions 
of those who would try to use their weapons of mass destruction to 
intimidate U.S. allies and to veto the use of U.S. military power to 
honor its security guarantees.
    Many on this panel had the privilege to serve with one of the great 
American leaders of this century. Ronald Reagan's special gifts as a 
leader, it seems to me, were his intuitive understanding of the 
American public myth--our view of ourselves as a people with a certain 
historic mission and a strong moral compass--and his ability to 
translate the decisions of current moment into this larger framework. 
He understood that Americans expect their country to stand tough 
against aggressors--and to know how to safeguard that essential part of 
the nation's political power that flows not from the barrels of 
American guns but from its traditions and values. A vote for the CWC 
would be consistent with this sense of national purpose. A vote against 
would be an insult.
                                 ______
                                 
    Brad Roberts is a member of the research staff at the Institute for 
Defense Analyses in Alexandria, Va. The views expressed here are his 
own.
                               __________
Letters Submitted in Opposition to Ratification of the Chemical Weapons 
                               Convention

                                        Sterling Chemicals,
                                                    April 15, 1997.
Hon. Jesse Helms,
Chairman, Foreign Relations Committee,
United States Senate, Washington, DC.
    Dear Mr. Chairman: Sterling Chemicals, Inc. strongly supports a 
worldwide ban on the production, possession and use of chemical 
weapons, but we are concerned about the mechanics and cost impacts 
associated with the proposed Chemicals Weapon Convention (CWC). We have 
made our concerns known to the Honorable Senator Kay Bailey Hutchison 
last August. Highlights of our concerns are:
    1. We have serious misgivings about the ability to protect 
confidential business information. Having a foreign inspection team 
inside our facility with almost unlimited access to process knowledge 
and data is not acceptable to Sterling.
    2. Cost impact will be significant! We project the costs just to 
prepare for, manage, conduct and complete an inspection to be at least 
$200,000-$300,000. This doesn't include performing duplicate sampling 
and analysis, as well as calibration and verification of process 
instrumentation.
    3. We cannot comply with the treaty provisions within our current 
annual budget and headcount. Sterling has reduced headcount to maintain 
our competitiveness. We are doing more with less. We believe the 
additional data record-keeping and paperwork burden associated with 
this treaty cannot be managed with existing resources.
    4. The EPA and OSHA, while participating as part of the inspection 
team, may become over zealous with their enforcement philosophy and 
begin citing violations as part of their own agenda--while they're 
supposed to be monitoring the foreign inspection team.
    Sterling Chemicals is not a foreign policy expert, yet we have 
serious misgivings about the foreign policy implications of the 
proposed CWC. For example:
    1. How will chemicals weapon control be enforced in other countries 
(Mexico, Columbia, North Korea, Iran, Iraq, Jordan, Libya, Croatia, 
etc.)? Since they probably will not cooperate, how does this treaty 
produce a ``worldwide ban''?
    2. How will international security and foreign policy issues 
related to protection of trade secrets be handled?
    3. Will the cost and implementation of the treaty put American 
industry at a competitive disadvantage with foreign industry whose 
compliance is less regulated?
    Sterling emphasizes its desire to see a worldwide ban on chemical 
weapons. We hope this submittal provides the information you seek for 
an informed decision which is best for America.
            Sincerely,
                                   Robert W. Roten,
                                         President and CEO.
                                 ______
                                 
                         Small Business Survival Committee,
                                                    April 14, 1997.
Hon. Jesse Helms,
Chairman, Foreign Relations Committee,
United States Senate, Washington, DC.
    Dear Senator Helms: On behalf of the Small Business Survival 
Committee (SBSC) and its more than 40,000 members across the nation, I 
wish to express our opposition to the Chemical Weapons Convention (CWC) 
treaty due to be voted upon soon by the U.S. Senate. Also, I apologize 
for not being able to testify before the Foreign Relations Committee 
due to severe time constraints.
    It seems to us that a wide array of defense and foreign policy 
experts have raised legitimate questions about the CWC, including 
several former U.S. Secretaries of Defense. They see the CWC as non-
verifiable, non-enforceable and not serving U.S. national interests, 
and SBSC agrees.
    Though the CWC offers nothing in terms of improving U.S. security 
interests, the CWC accomplishes much by way of raising regulatory costs 
on already over-regulated U.S. businesses. For example, the CWC would 
inflict the following on U.S. entrepreneurs and businesses:

  <bullet> For the first time, U.S. private industry would be subject 
        to foreign inspection as a result of a treaty. Inspectors would 
        come from a new international agency in the Hague, Netherlands.
  <bullet> Businesses must prove to the U.S. government and 
        international inspectors that they are not producing or 
        stockpiling chemical weapons, with noncompliance fines reaching 
        as high as $50,000 per incident. Forms would have to be filed 
        on chemical types each year and changes in a process using 
        certain chemicals would have to be reported five days in 
        advance. Noncompliance could result in a $5,000 fine. And of 
        course, with government bureaucrats issuing fines, the threat 
        that fines shift from a means of deterrence or punishment to a 
        source of revenues always looms.
  <bullet> Firms would be open to a real threat from international 
        industrial espionage. The loss of proprietary information could 
        seriously weaken international competitiveness. The treaties 
        protections are frivolous, and any court challenge likely would 
        come after the horse left the barn.
  <bullet> U.S. firms producing, processing, or consuming a scheduled 
        chemical will carry a paperwork/declaration burden. The U.S. 
        Department of Commerce estimated that it will take companies 9 
        hours to fill out paperwork for every Schedule I chemical, 7.2 
        hours for Schedule 2 chemicals, 2.5 hours for Schedule 3 
        chemicals, and 5.3 hours for each Discrete Organic Chemical. 
        Estimates range from 2,000 to more than 10,000 U.S. companies 
        that will be forced to bear these paperwork burdens.
  <bullet> Congress's Office of Technology Assessment estimated that 
        inspections will cost U.S. firms anywhere from $10,000 to 
        $500,000 per visit.
  <bullet> Smaller businesses will be hit hardest by increased 
        regulatory burdens. Interestingly, the Chemical Manufacturers 
        Association (CMA) supports ratification of the CWC, apparently 
        claiming that the new regulations would not be a burden. 
        However, the CMA is a group of generally large chemical 
        manufacturers, and reportedly more than 60 percent of the 
        facilities likely affected by the CWC are not CMA members. 
        Large companies possess far greater resources and experience in 
        dealing with regulators of all kinds. Indeed, new regulatory 
        burdens can perversely give large firms a competitive edge over 
        smaller companies due to such resource and experience factors. 
        As economist Thomas Hopkins has shown, the per employee cost of 
        federal regulation runs almost 50 percent higher for firms with 
        fewer than 500 employees vs. companies with more than 500 
        employees--$5,400 per employee vs. $3,000 per employee, 
        respectively.
  <bullet> Chemical companies would not be the only types of businesses 
        subject to CWC regulations. Firms in the food processing, 
        pharmaceutical, paint, petroleum, biotech, electronics, 
        textiles, fertilizers, rubber, brewing, and distilling 
        industries would be impacted as well.
  <bullet> Significant legal questions arise for U.S. businesses as 
        well. Distinct possibilities exist that rights of due process 
        could be violated in relation to warrantless searches and 
        personnel being compelled to answer questions, and provide 
        information and access; and a ``takings'' could occur when 
        government reveals information harming a business.

    There are CWC supporters who would have the public believe that 
treaty supporters do not care about chemical weapons and U.S. security; 
in fact, the exact opposite is true. Anyone who really cares should 
stand up and oppose this deeply flawed, dangerous and costly treaty.
    SBSC believes the Chemical Weapons Convention to be a deeply flawed 
treaty that will do nothing to enhance and may indeed weaken U.S. 
national security, while imposing new regulatory burdens on U.S. 
businesses. The Chemical Weapons Convention should be rejected by the 
U.S. Senate.
            Sincerely,
                                        Raymond J. Keating,
                Chief Economist, Small Business Survival Committee.

                               __________
Statement by Ronald F. Lehman Before the U.S. Senate Foreign Relations 
                        Committee, June 9, 1994

    Mr. Chairman, Distinguished Members of this Committee: In 
Islamabad, Pakistan, last week, I received your invitation to appear 
before the Committee to discuss ratification of the Chemical Weapons 
Convention. It was an honor to be asked to appear before you once 
again, and I am particularly pleased to join several close and valued 
friends who made major contributions to the revolutionary national 
security and arms control achievements which took place during the 
Reagan and Bush administrations. It is in that same spirit of public 
service that they are here today.
    The best friends of real arms control are those who have demanded 
the highest standards. Better is not really the enemy of the good. In 
particular, the U.S. negotiating position is always strengthened when 
we negotiators are reminded that one-third of the Senate plus one might 
someday decide that the treaty we conclude falls short of their 
expectations for advancing the national interest.

    During the negotiation of the Chemical Weapons Convention, I and 
others consulted regularly with members of the United States Congress 
including the members of this Committee. We sought your advice on how 
to negotiate the best possible treaty. A process of consultation, 
however, must never substitute for a rigorous examination of the final 
product such as is now underway, taking into account the contributions 
of critics as well as proponents.

    For my part, I am a proponent. I speak today as a private citizen; 
the views I express are my own and not necessarily those of any 
institution or administration. Let me make clear up front where I 
stand. I urge the Senate to give its consent to the ratification of the 
Chemical Weapons Convention and to move quickly to complete a process 
of careful deliberation. I say this, not because of my personal 
involvement in its negotiation, but on its merits. I won't repeat the 
many arguments which have already been made on behalf of the treaty, 
but I would like to present a few additional considerations.

    The negotiation and completion of the Chemical Weapons Convention 
in the twilight of the Cold War was a valuable element in a bigger, 
balanced strategy to increase the security of the United States and to 
promote political change around the world. We negotiated from a 
position of economic, political, and military strength. We energized 
our technology and economy, while reducing subsidies to the Communist 
bloc. We recognized the ``evil empire'' for what it was and rejected 
attitudes of ``moral equivalence'', which undermine our resolve and 
strengthen our adversary. We modernized our defenses, including our 
chemical weapons deterrent, even as we made arms control an integral 
part of that overall foreign and national security strategy.

    One can see this, in one small example, even in the way our pursuit 
of a ban on chemical weapons reinforced our commitment to the spread of 
democracy. We sought intensive verification measures so that we might 
reduce the threat posed by the Warsaw Pact, but also because we knew 
that totalitarian regimes cannot long survive when their citizens are 
exposed to contradictory information. The requirement for detailed 
information on chemical weapons stocks and facilities before reaching 
agreement, at the time an innovative negotiating step which led to the 
December 1989 U.S./Soviet Phase I data exchange and the recent Phase II 
exchange, sparked a controversy which continues in Russia even today 
over the history of the Soviet chemical and biological weapons 
programs.

    Our demand for trial inspections prior to completion of 
negotiations aided in crafting a better treaty, but it also caused 
Soviet citizens to ask why they themselves could not see what Americans 
were allowed to see. Our insistence, first in the U.S./Soviet Bilateral 
Destruction Agreement (BDA) of 1990, and later in the CWC, that 
destruction of chemical weapons stocks be done in a safe and 
environmentally sound manner has created a grassroots political process 
of ``NIMBY''--not in my backyard--which has complicated agreement on a 
chemical weapons destruction plan but also complicates a return of the 
old system. One should not exaggerate the role that arms control has 
played in promoting our national agenda, but one should not ignore it 
either.

    Arguably, the CWC is more important in today's violent and changing 
world than it was when it was being negotiated during the Cold War. The 
end of the Warsaw Pact, America's sole superpower status, its changing 
global military missions, and its advanced conventional munitions have 
reduced the circumstances under which the United States would decide to 
deploy chemical weapons into an operational theater as a deterrent. 
Increasingly circumstances are such that it is more important to reduce 
the likelihood that others will use them than that we have them.

    The Chemical Weapons Convention plays an essential role in our 
efforts to curb the proliferation of weapons of mass destruction and 
their means of delivery. In the long run, our non-proliferation, 
counter-proliferation, or anti-proliferation efforts may be doomed to 
failure if we cannot bring about political change and greater stability 
around the globe. As I have suggested, the CWC continues to be a small, 
but important part of that effort. In the near term, however, the CWC 
may actually play its most important role.

    We will fall dangerously short in our efforts to stop the 
proliferation of more destructive nuclear and biological wcapons if we 
cannot even codify and build upon the international norms which emerged 
in the negotiation of the ban on chemical weapons. At a time when we 
must build support for long term monitoring of Iraq and ``special 
inspections'' by the International Atomic Energy Agency in North Korea 
and elsewhere, entry into force of the CWC will commit ever more of the 
international community to the unprecedented openness increasingly 
necessary if we are to prevent disaster. At a time when the global 
economy reduces trade barriers, but also undermines controls on 
proliferation-related technologies, the CWC codifies the principle that 
no nation should trade in dangerous materials with those who will not 
accept international non-proliferation norms. At a time when threats to 
international security may require military forces of the United States 
to be deployed within range of the weapons of outlaw regimes, the CWC 
can reduce the dangers our troops will face and help provide the basis 
in international law and public opinion for strong measures that we and 
others may be forced to take.

    These are important external effects of the CWC, but what of the 
substantive workings of the Convention itself? They are revolutionary. 
Given the inherent technical difficulty of achieving a meaningful ban 
on chemical weapons, they need to be. The text of the Chemical Weapons 
Convention has pushed the envelope of multilateral arms control far 
beyond what was once believed negotiable. It may be that the special 
circumstances at the end of the Cold War and the Gulf War made it 
possible for a very experienced international and American team to 
achieve what otherwise could never have been done. But more than 
opportunity was involved. Years of careful preparation and experience 
led the way. The former Reagan and Bush officials here today played a 
key role in that process.

    Important lessons learned from the on-going arms control process 
were applied over the course of the negotiation of the Chemical Weapons 
Convention. In negotiation, we were not afraid to ask for far more than 
an acceptable bottom line. Great emphasis was placed on more precise 
draftsmanship, more detailed data exchanges, greater openness and 
interaction, an organization with the power to conduct intrusive 
inspections and recommend sanctions.

    Every effort was made to make cheating by parties less attractive, 
more difficult, more likely to be discovered, and more certain to 
result in a stiff penalty. Nations which refused to become parties to 
this new international norm would also pay a heavy economic and 
political price. Nations which joined could expect reasonable 
assistance if threaten by chemical weapons.

    Although our process was not perfect, careful study came before 
making most decisions. A marketplace of ideas often resulted in 
disagreements, especially when facts were few and concepts vague. In 
the end, however, a vigorous interagency process which ensured that all 
of the relevant information was considered and that senior officials 
were exposed to key technical information and alternative views 
resulted in better decisions. Sometimes a consensus developed, 
sometimes difficult, divisive decisions had to be made.

    Diplomatic and political considerations often influenced fine 
tuning and presentation, but I think the record will show that in the 
CWC, as in the INF treaty, the START I and II treaties, and in the 
Verification Protocol which made possible a 98-0 vote in the Senate for 
consent to ratify the Threshold Test Ban Treaty, national security was 
the overwhelmingly central determinant.

    One example from the Chemical Weapons Convention is that of 
challenge inspections. Everyone knows that no magic telescope exists 
which will tell us where in the world on any given day someone will be 
violating some provision of the CWC. But everyone also knows who are 
the most likely threats and where potential threats to our forces must 
be considered most seriously. Information is gathered, intelligence 
estimates are made, and military precautions taken. In the past, it has 
usually stopped there for lack of more intrusive measures including 
challenge inspections which might provide a basis for international 
action without compromising sensitive sources and methods. A 
verification and enforcement regime for the CWC needed a challenge 
inspection mechanism.

    At the same time, we recognized that challenge inspections were not 
magic either. They may or may not find the evidence you need, depending 
on circumstances, procedures, and skill. Worse, such intrusive 
inspections could be abused or backfire revealing important proprietary 
information or national security secrets. Constitutional questions 
related to property and privacy also needed to be addressed.

    No technical challenge in arms control over the twelve years of the 
Reagan and Bush administrations received more careful consideration at 
all levels than that of implementation of a challenge inspection 
regime. Working with professionals and experts inside and outside of 
government, we sought to find a path which would maximize the 
effectiveness of inspections while minimizing costs including the risk 
to sensitive information.

    We learned much along the way. More often than not, the real 
problems and real solutions were to be found in the field and among the 
operators rather than within the Washington-based bureaucracy. We found 
that different sites and activities posed different problems. We 
discovered that some sensitive information was less vulnerable than we 
had believed, but that some was more vulnerable. We learned that with 
or without a CWC, some security measures should be strengthened. We 
discovered that at many sensitive sites concern about illegal chemical 
activity could be dispelled without much risk. We also feared that at a 
few sites we could offer little meaningful access without great risk.

    Out of this continuous process, we developed an approach which can 
work and which gives us what we need to protect highly sensitive 
information. Conceptually, the approach was simple. Access would be 
granted to any challenged site, but access would be managed at that 
site to protect sensitive information. If, at a particular site, 
timeliness or intrusiveness were not considered sufficient to resolve 
legitimate concerns, then the inspected party had an obligation to 
resolve those concerns by other means.

    To meet diverse concerns, however, the desired U.S. package 
involved some complexity. Moreover, it involved far more intrusiveness 
than some nations desired and more rules for managed access than other 
nations favored. The more nations studied the proposal, the more they 
understood that it could work. To obtain the U.S. position as an 
outcome was made easier because it could be portrayed as a natural 
compromise between opposing views. In the end, however, I had no doubt 
that we would get our position because we had made it clear that we 
would not join consensus on a treaty that did not meet our security 
concerns. Other nations understood that we had done our homework and 
that we meant what we said.

    Still, the conclusion of the CWC does not come without a price, and 
its contributions to our security will not be fully achieved without 
effective implementation not only of the CWC itself but also of a sound 
foreign policy and national security strategy. One of the inherent 
dangers of engaging in arms control negotiations is that success will 
have a soporific effect on the nation's attention to its national 
defense and that of its friends, allies, and interests around the 
world.

    When treaties are seen as solutions to our security challenges 
rather than tools to be used to help address those challenges, danger 
grows. When the Biological Weapons Convention was concluded, too many 
people assumed the threat of biological warfare had been eliminated. 
Research on defenses received inadequate support, and we saw too much 
of the ``Sverdlovsk'' phenomenon--a propensity to explain away what one 
does not want to be so. One hopes that we are not seeing this again 
with respect to North Korea and the NPT.

    Some would argue that this danger that arms control will lull us 
into neglecting our defenses means that we should never negotiate or at 
least never reach agreements. The problem with that conclusion is that 
it assumes we cannot trust our own nation to negotiate in its own 
interest or provide for its own defense. When this becomes a problem, 
it is a problem the American people and its representatives have the 
power to solve. We must make certain they get the facts. Hearings like 
this are an important means for doing that.

    For my part, I believe that the arms control and non-proliferation 
tools can be used to promote our national security, and we must ensure 
that they do. The Chemical Weapons Convention is clearly a tool which 
can enhance our national security. I believe that the successful 
conclusion of arms control agreements need not result in the neglect of 
our defenses, but it often has. In giving its consent to ratification 
of the Chemical Weapons Convention without reservations, the Senate 
should take real steps to support implementation of the treaty, fund a 
strong defense program, and promote a balanced national security 
strategy which recognizes that the United States must be the leader in 
a very dangerous world.

    The world has undergone dramatic change, and arms control trains 
have been rushing by. In such a world, if we do not shape the arms 
control process to serve our interests, we can be certain that some 
nations will be pressing in directions that are not in our interest. 
The Chemical Weapons Convention before this committee is in our 
interest. Again, Mr. Chairman, Distinguished Members of the Committee, 
I believe that the United States Senate should give its consent to 
ratification of the Chemical Weapons Convention. Thank you.

                               <greek-d>

      
</pre></body></html>
